<html>
<title> - NOMINATION ON HON. MIKE POMPEO TO BE SECRETARY OF STATE</title>
<body><pre>[Senate Hearing 115-339]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-339

                      NOMINATION OF HON. MIKE POMPEO 
                        TO BE SECRETARY OF STATE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2018

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]      


                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-844 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e186918ea18294929589848d91cf828e8ccf">[email&#160;protected]</a> 
                        
   

                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                          C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1


Menendez, Hon. Robert, U.S. Senator from New Jersey..............     7


Roberts, Hon. Pat, U.S. Senator from Kansas......................     2


Dole, Hon. Bob, Former U.S. Senator from Kansas..................     4


Burr, Hon. Richard, U.S. Senator from North Carolina.............     4


Pompeo, Hon. Mike, Director, Central Intelligence Agency, 
  Nominated to be U.S. Secretary of State........................     9
    Prepared statement...........................................    13


                          Additional Material

Responses to Additional Questions for the Record Submitted by 
  Members of the Committee.......................................   101


Correspondence Submitted for the Record Supporting the Senate's 
  Confirmation of Hon. Mike Pompeo as Secretary of State.........   278


Correspondence Submitted for the Record Opposing the Senate's 
  Confirmation of Hon. Mike Pompeo as Secretary of State.........   282

                                 (iii)
                                 
 
                    NOMINATION ON HON. MIKE POMPEO 
                        TO BE SECRETARY OF STATE

                              ----------                              


                        THURSDAY, APRIL 12, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:18 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Flake, Gardner, Young, Barrasso, Isakson, Portman, 
Paul, Menendez, Cardin, Shaheen, Coons, Udall, Murphy, Kaine, 
Markey, Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Senate Foreign Relations Committee will 
come to order. I want to thank everybody for their interest and 
our committee members for being here.
    If I could just do two housekeeping measures while Senator 
Burr, Senator Roberts, and Senator Dole are making their way 
in, hopefully very quickly, I would like to say two things.
    I know we have a number of people that we love here who 
sometimes like to protest.
    Good to see you. Thank you for waving. [Laughter.]
    The Chairman. I, in the past, have been able to cause 
people who are arrested to be un-arrested, but that has ended. 
So please don't do anything that causes us to have to call you 
out of order, because the process, once it starts, cannot be 
stopped anymore.
    So we thank you for being here. We thank you for being 
considerate and respectful of people who are here today besides 
yourself.
    Secondly, we had planned to have a markup on the AUMF on 
Thursday. The minority has asked that we delay that markup for 
a few days as they consider it a little bit more fully. So it 
will be likely that we will do the AUMF markup instead of next 
Thursday sometime early in the next week. And we will be 
releasing the documents relative to that on Friday. But we 
thank you all for your continued work on this issue.
    Senator Menendez. Mr. Chairman, may I make a remark?
    The Chairman. Yes.
    Senator Menendez. Mr. Chairman, I appreciate you taking a 
little more time on the AUMF, because as we speak, we do not 
have a final version. So in order to give members time on one 
of the most important votes they ever take, which is the 
Authorization for the Use of Military Force, I think members 
want a considered approach.
    I would urge the chair to consider, once he has a final 
version, not only to share it with us but also to consider the 
possibility of a singular hearing on that specific AUMF, and 
then that would give members an informed opportunity to develop 
whatever views they have on it, what votes they might want to 
take, and what amendments they might want to offer.
    But I appreciate in the first instance giving the time for 
the purpose.
    The Chairman. Absolutely. Sure. And I think you know we 
were prepared to release it today. We will probably wait until 
tomorrow. Maybe what we do, with consultation with you, is 
consider having that hearing next Thursday instead and then 
having the markup to follow.
    But, obviously, this has been something we all have 
discussed for many, many, many years.
    With that, we have three distinguished Senators here who 
have other things to do. We typically would give our opening 
comments first from the dais, but out of respect for their time 
and who they are, we would like for them to go ahead and give 
their comments, and then we will move back to regular order.
    Again, we thank you all for being here. I do not know what 
order you would like to start, but it sounds like we are 
starting with Senator Roberts.

                STATEMENT OF HON. PAT ROBERTS, 
                    U.S. SENATOR FROM KANSAS

    Senator Roberts. Thank you, Chairman Corker, Ranking Member 
Menendez, and distinguished members of the committee. It is an 
honor to be here today in support of my Kansas friend and 
colleague Mike Pompeo as the President's nominee for Secretary 
of State.
    For more than a decade, I have known Mike, first as a 
friend and a business leader, then a congressional colleague, 
and most recently as the leader of our intelligence community.
    At home, Kansas knows Mike as a family man, a devoted 
husband to Susan and father to Nick, both of whom are here. I 
know how proud you are.
    They know him as a man of integrity and honesty, of hard 
work and perseverance. He built a successful business, 
understood the responsibility of maintaining a payroll, and 
helped to bring job growth and prosperity to Wichita, Kansas.
    They know him to have Kansas common sense and to be 
plainspoken, to tell it like it is. Senator Dole and I might 
share just a little bit of that, too.
    They know him as a statesman, a man who listens to others, 
who works well with people, and who can negotiate solutions in 
a very effective manner.
    Given these qualities, I believe that Mike Pompeo's next 
challenge in this troubled and tumultuous world is perhaps a 
challenge for which he is best suited. As our Nation's most 
senior diplomat, Mike will be forthright. He will be forceful. 
He will be thoughtful. He will give the President and those of 
us in Congress candid counsel. He will be a man of his word. It 
is in his DNA.
    Just look at his bio. Mike is Army strong. He graduated at 
the top of his class at West Point and then served as a cavalry 
officer, patrolling the Iron Curtain before the fall of the 
Berlin Wall. He later joined the 2nd Squadron, 7th Cavalry in 
the Fourth Infantry Division.
    After completing his military service, Mike attended 
Harvard Law School where he was an editor of the Harvard Law 
Review. Mike understands the law.
    After practicing law, Mike returned to his mother's roots 
in south central Kansas, running several very successful 
businesses in Wichita before running for Congress in 2010.
    He came to Washington with a very strong desire to serve 
the people of the 4th District and the rest of our State and to 
make a difference. He sought a seat on the House Intelligence 
Committee at a time when intelligence-gathering methods were 
under fire, before he went on to lead the Central Intelligence 
Agency.
    As I told my good friend and chairman, Richard Burr, and my 
colleagues on the Intelligence Committee just last year, Mike 
Pompeo understands and respects the role of Congress and the 
need for vigorous oversight.
    I say to those who serve our country here and in Washington 
and at diplomatic posts around the world, Mike Pompeo will work 
hard to earn your trust.
    He will seek to build bridges, to rely upon expertise, to 
debate and discuss, but always--always--with respect. Whether 
it is managing crises in Syria or North Korea, complex 
relationships with Russia or China, or humanitarian disasters 
in Myanmar or Yemen, Mike will represent American ideals and 
values backed by the strength of leadership of the free world.
    History has shown us time and again that we cannot sit back 
and wait, given the most serious challenges we face in the 
world and the role that our Nation plays.
    Whenever there is a void, the world pays a price. 
[Disturbance in hearing room.]
    The Chairman. Senator Roberts, I am sure that happens 
regarding soybeans in the Ag Committee often. [Laughter.]
    Senator Roberts. It may happen with me and the President 
when I talk to him about all of the tariffs that we are going 
to talk about this morning. [Laughter.]
    Senator Roberts. I was right in the middle of the best 
part, too. [Laughter.]
    Senator Roberts. I said, wherever there is a void, the 
world pays a price. I guess we just did.
    Wherever there is a void, the world pays a price. We need 
Mike Pompeo at the State Department, and we need him now. It is 
my fervent hope that this committee and the full Senate will 
proceed with a swift confirmation for the President's nominee.
    I know that Mike Pompeo will serve us proudly. It is now a 
privilege and an honor to turn to my mentor, my friend, and 
recent Congressional Gold Medal recipient, Senator Bob Dole.

                  STATEMENT OF HON. BOB DOLE, 
                FORMER U.S. SENATOR FROM KANSAS

    Senator Dole. Well, nice to see all you people up there. I 
cannot see very well, so you look good. [Laughter.]
    The Chairman. You look very good, and we are glad to have 
you here.
    Senator Dole. Well, one thing about Mike Pompeo, and I want 
to welcome Susan and Nick, he will hit the ground running. He 
knows the territory. He knows the people.
    I got acquainted with him as CIA Director, so he is ready 
to go, and he will be our top diplomat.
    What we would like to urge is quick confirmation, because 
he is needed by the President and the rest of us who live in 
this wonderful country.
    But Mike Pompeo, I don't know, he is just a brilliant guy, 
at the top of his class at West Point, a businessman, a 
congressman, a father, a husband. And all those things added up 
with the experience he has, he is ready to go.
    And we thank you for holding this hearing.
    The Chairman. Thank you so much, and all of us are thrilled 
to have you here, and I am so glad you were honored the way you 
were recently in the Capitol. Thank you for sharing your time 
with us.
    Senator Burr, who chairs the Intelligence Committee.

                STATEMENT OF HON. RICHARD BURR, 
                 U.S. SENATOR OF NORTH CAROLINA

    Senator Burr. Mr. Chairman, Ranking Member, and to my 
colleagues, the advantage to going last for any nominee is you 
have heard everything about that nominee. And then there is 
Mike Pompeo, because the story goes on past that.
    I think one has to ask what makes a great leader, and what 
you have heard is a personal story about Mike Pompeo that I 
think, in anybody's checklist, if you saw those things, you 
would say, here is a great candidate. Here is a great nominee. 
West Point as a teenager, first in his class. A military 
leader. A lawyer from Harvard, picked for the Harvard Law 
Review. Successful business. Served three terms representing 
people from Kansas. And when asked, responded and took, I 
think, the toughest job at the toughest time, and that was 
Director of the CIA.
    Now, during his confirmation hearing, I asked Mike to lead 
the CIA in an ethical, moral, and legal manner. And I am here 
to tell you that he did exactly that. Mike has honorably 
represented and aggressively supported the employees of the 
CIA.
    And I think what we need right now is an individual that 
can bond those great diplomats within the State Department 
while carrying out the message of this administration's 
policies abroad.
    Mike has been responsive, and he has been transparent with 
the Intelligence Committee, and, more importantly, he has 
always spoken the truth.
    Mike's intellectual rigor, his honorable service, and his 
outstanding judgment make him a natural fit for the Department 
of State.
    Now, what I want you to take away from this is Mike Pompeo 
is a good man. And I want to ask you, and I want to ask all our 
colleagues in the Senate, if there is ever one where you put 
politics aside, here it is. Mike exemplifies talent.
    And I think when we look at nominees who we are sent by an 
administration, we look for somebody that we are proud of. We 
look for somebody that has the talent to do the job correctly. 
I would suggest to you that Mike Pompeo represents everything 
that we pray in a nominee that they would have. And that as we 
go forward, we have an opportunity to say to those young people 
around this country who one day want to give back to their 
country that, yes, your background does matter. We want the 
best. We want the brightest. We want the ones that are most 
committed to do it. And we have an opportunity in Mike Pompeo 
to select and to confirm an individual that I think speaks for 
generations to come.
    I thank the committee for their indulgence.
    Thank you, Mr. Chairman.
    The Chairman. We thank you, all three of you. We appreciate 
having people that we respect so much here before us. We know 
that you have other business to take care of. You are welcome 
to stay, but you cannot stay there. [Laughter.]
    The Chairman. So we will bring the witness forward.
    While we are reorganizing--and, Senator Dole, again, thank 
you for being here--I want to recognize the fact that 
Ambassador Haley, I think, is joining us. I have not been able 
to see her yet in the audience. Thank you for being here.
    Director Mike Pompeo, we welcome you here today, and we 
thank you for your willingness to serve our country yet again, 
this time in the role of Secretary of State. We are also glad 
that your family is here with you, and we extend our thanks to 
them for the sacrifices that your service requires of them.
    You have been nominated by the President at a very 
important time in our Nation's history. Our country's standing 
in the world has been on the decline over the past decade or 
more, and that certainly continues.
    Throughout the 20th century, our allies viewed the United 
States as a reliable partner and a source of stability, a 
friend whose ideals and leadership made our world a better 
place. Unfortunately, today, we are not counted on as we once 
were.
    The chasm between what our leaders say and the actions that 
they take can have a devastating impact. I think about where 
Syria would be today had we done what we said in 2013 when the 
opposition posed a significant threat to the regime. Assad 
crossed the red line, used chemical weapons, and we did 
nothing. The loss of momentum was palpable. Our inconsistencies 
have created vacuums that are being eagerly filled by those who 
do not share our values.
    When the leader of our country speaks with the full might 
of the most powerful military the world has ever known behind 
him, he must choose his words carefully.
    His words and actions have global ramifications and send a 
signal to both our foes and allies regarding our level of 
commitment to longstanding alliances, our desire for beneficial 
trade relationships, and our very belief in the ideals we claim 
to embody.
    But while at times the President may act or speak 
impulsively, we have also seen that good counsel has led the 
President to evolve, from my perspective, to a much better 
place on a number of important issues.
    I believe the next Secretary of State must continue to 
provide such counsel, even when it is difficult.
    If confirmed, you must continue to provide advice to the 
President that allows him to view a given situation 
holistically and not make decisions that focus on the impact to 
one domestic group or foreign government.
    Any President has numerous voices from both inside and 
outside the White House vying for his attention. An effective 
Secretary of State must be able to prioritize the issues for 
the President and attempt to drown out the noise and chaos that 
can so often distract and bog down the leader of the free world 
from making sound and informed decisions.
    I know that you have developed a close relationship with 
the President, and I believe that relationship could well serve 
you, if you are confirmed as Secretary of State.
    However, many strong voices have been terminated or 
resigned. That is why I think it is fair for our members to ask 
whether your relationship is rooted in a candid, healthy, give-
and-take dynamic, or whether it is based on a deferential 
willingness to go along to get along.
    Americans often think of the Secretary of State solely in 
his or her capacity as our chief diplomat, racing around the 
world to broker compromise, prevent war, or negotiate treaties. 
And no doubt, your success as a diplomat, as you well know, is 
key to keeping our men and women in uniform that we treasure so 
much out of harm's way.
    While all of that is true, this position also requires the 
person occupying the office to be every bit a manager as a 
diplomatic envoy. The Secretary must effectively manage 
multibillion dollar budgets and a workforce of tens of 
thousands. This is the part of the job that isn't flashy and 
doesn't usually get much media attention, but it is just as 
important as any other aspect of the Secretary's duties.
    In order to execute foreign policy effectively, the 
Secretary must have a fully functional department behind him. 
During your tenure at the CIA, you demonstrated that you 
understand the need for having a functioning workforce. I am 
hopeful that, if confirmed, you will make it a priority to fill 
those key positions and to work to earn the trust of the career 
public servants in both the department's foreign and civil 
service.
    Not only will the next Secretary of State have to adapt to 
a unique decision-making process and have significant 
management issues to tackle, but there are also numerous 
crucial policy issues around the world that must be addressed.
    While the obstacles we face are daunting, they are by no 
means insurmountable.
    The history of American foreign policy is filled with 
Secretaries of State who have changed the world for the better 
in the face of adversity. In fact, those who have gone down in 
history as great are those who dealt with the greatest 
challenges. When faced with what seemed like impossible odds, 
they rose to the occasion.
    That is what, when we are at our best, we do as Americans. 
And it is my hope that you will do the same, if confirmed.
    Examining a nominee to be Secretary of State is one of the 
most solemn duties of this committee. You will be asked many 
questions about the policy issues facing our Nation and your 
vision for the Department of State.
    Thank you again for your willingness to serve, and I look 
forward to your testimony and answers.
    And with that, I will turn to our distinguished ranking 
member and my friend, Bob Menendez.

                STATEMENT OF HON. BOB MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Director, congratulations on your nomination and welcome to 
you and your family on your second Senate confirmation hearing.
    This committee considers your nomination after nearly a 
year and a half of reckoning with President Trump's erratic 
approach to foreign policy, which has left our allies confused 
and our adversaries emboldened. It is an approach driven by 
impulse, not strategy.
    President Trump's America-first policies have left America 
isolated and alone in the midst of unprecedented challenges, 
challenges from an aggressive Russia who seeks to undermine the 
international order we helped create after World War II, that 
has brought peace and stability to the world for nearly three 
quarters of a century; a destabilized Middle East; the ongoing 
threat of terrorism; an emboldened China asserting itself in 
the South China Sea militarily and economically, as well as 
right here in the Western Hemisphere; Assad, a butcher who has 
used chemical weapons against innocent civilians; Maduro 
tightening his grip on his regime, starving Venezuelans in one 
of the most oil-rich countries in the world.
    Meanwhile, President Trump has abandoned the very 
Democratic values and ideals that have shaped America's role as 
a beacon to our friends and as a bulwark against a world in 
crisis.
    Now, I was pleased to hear you say earlier this week that 
you plan to support the career public servants at the State 
Department. The problem is, we have an emaciated State 
Department under this administration.
    Let me be clear. Members of this committee expect every 
Secretary of State to champion the department and its mission. 
We expect you to advocate for robust diplomacy as the first 
line of defense against sending our sons and daughters into 
war. And to do that, we need a strong diplomatic corps and an 
A-I-D that compliments and enhances our foreign policy.
    Now, as CIA Director, your job was to conduct covert 
operations, and collect, evaluate, and provide intelligence to 
policymakers, including the President. As the Secretary of 
State, you will not be providing intelligence for other people 
to use to make policy; you will be the person executing the 
foreign policy of the United States of America. Many countries 
in the world already think the State Department is an extension 
of the CIA, so how you conduct yourself moving forward will be 
critical to our diplomacy.
    As the Senate considers your nomination to be the 
President's top foreign policy adviser, we must ask: Will you 
enable President Trump's worst instincts? Will you advocate for 
long-term strategies to protect U.S. national security and 
interests, or will you be lurching from crisis to crisis, as we 
have seen under this administration? Will you advocate for 
robust diplomacy, or will you take America into unnecessary and 
costly wars? Will you stand up to President Trump and say, no, 
you are wrong in that view, Mr. President, or will you be a yes 
man?
    Americans are scared that this President, the commander in 
chaos, will lead them into war. This is not a time for taunts 
and tweets.
    On Russia, the intelligence community and our military 
leaders have repeatedly stated that Russia poses ongoing 
threats to the United States' national security and to our 
allies, yet President Trump cannot bring himself to even 
acknowledge the Russian threat. He says that a court-granted 
search warrant is an attack on our country but cannot call out 
Russian cyberattacks on our democracy.
    We have pushed the President to put together a real 
strategy to counter Russian aggression. We urge the President 
to implement the mandatory sanctions that Congress 
overwhelmingly passed and he has failed to implement.
    North Korea poses a real and nuclear threat to the United 
States, our citizens, and our allies. The American people are 
deeply worried by an erratic President who uses schoolboy 
taunts when talking about nuclear war. A meeting is not a 
strategy. Preventing nuclear war requires thoughtful diplomacy, 
preparation, clear objectives.
    Will you enable the voices around the President seeking to 
go to war, or will you press for an empowered diplomatic path 
to protect the safety of all Americans?
    Mr. Director, what is your actual plan to stop North Korea 
from getting a nuclear weapon?
    Turning to Iran, everyone knows I voted against the Iran 
nuclear deal and was vociferous about it, but I also share the 
assessment of your counterparts across national security 
agencies that it does not serve the United States' national 
security interest to unilaterally withdraw from the deal absent 
a strategy for what will replace it and how to get our allies 
to join us in countering Iran's malign activity outside of the 
nuclear program and deal with the sunset issues within the 
nuclear portfolio.
    Once again, this President is hurling toward a crisis. He 
is creating unnecessary risks with the very allies we need to 
confront Iran.
    So I ask again, Mr. Director, what is your plan? Will you 
be a voice of reason, or will you support the President's worst 
instincts?
    If confirmed as the Secretary of State, you will no longer 
be operating in the shadows of American foreign policy, but you 
will be the face and voice of the United States, the 
representative not just of a bombastic President, but of the 
American people.
    Will you champion our values? When the President embraces 
dictators who quash the free press or suggests doing away with 
elections, will you stay silent? When the President and those 
closest to him balk at the very idea of diplomacy and instead 
advocate unnecessary wars that will cost the blood of our 
children and the treasure of our coffers, will you go along 
with them? Or, as our Nation's top diplomat, will you champion 
diplomacy and offer actual plans? Will you stand up to 
President Trump and advise him differently when he is wrong, or 
will you be a yes man?
    So, Mr. Director, I look forward to hearing your testimony, 
and the answers to these questions and others, as we go.
    The Chairman. Thank you, sir.
    Director, you have been well backgrounded with the three 
Senators who came before us, so I will not do that. But we 
thank you for being here. If you could summarize your testimony 
in about 5 minutes or so, any written documents you have, we 
will be glad to enter into the record.
    But with that, thank you for being here. We look forward to 
your comments.

                 STATEMENT OF HON. MIKE POMPEO 
              OF KANSAS, TO BE SECRETARY OF STATE

    Mr. Pompeo. Thank you, Mr. Chairman. I am not sure I can do 
it in 5 minutes, but I will give it my level best.
    The Chairman. We always try to set a high bar, realizing we 
are never going to achieve it.
    Mr. Pompeo. Thank you, Chairman Corker. Ranking Member 
Menendez, thank you. Thanks for the opportunity to appear here 
today as the nominee to be the United States Secretary of 
State.
    I am grateful to each of you for the attention that you 
have given us over the past weeks. So many of you have given so 
much time, and there are so many global matters before us, I am 
deeply appreciative of that.
    Should I be confirmed, this regular contact will continue. 
You can talk to Senator Burr. I worked at that diligently. As a 
former Member of Congress, I understand the importance of that 
continued relationship and advice that comes from outside of 
the executive branch.
    I would like to take a moment here, too, to thank Secretary 
Tillerson for his service to the United States and his 
commitment to a smooth transition, and I would like to thank 
Secretary Sullivan as well, for him serving in the gap.
    A personal thank you also to every living former Secretary 
of State. They each took my call. They found time to spend. I 
have actually talked to many of them multiple times. Democrats 
and Republicans, from Secretary Kissinger to Secretary Kerry, 
were kind enough to visit me and share with me their thoughts 
on how, if I am confirmed, I would most likely be a successful 
Secretary of State.
    And if you know me at all, the two people sitting to my 
right rear provide my ballast, my balance. Susan keeps the home 
front humming and is always there to remind me of family issues 
that affect not just the Pompeos but the family issues that 
affect every officer at the Central Intelligence Agency as 
well. And that keeps me humble. It keeps my sense of humor 
alive.
    Since I left the private sector and entered public service, 
they have had lots of opportunities to tell me to step back, to 
step away, but they have not. They have encouraged it. They 
have promoted it. And they are incredibly supportive of my 
efforts to serve America.
    A moment here, too, to the men and women of the CIA, to say 
that it has been an honor and a privilege and a joy doesn't do 
justice to these past 15 months. I have demanded an awful lot 
of you. I have set the expectation bar high. I have pushed 
responsibility and authority down to each and every one of you, 
and along with that, the required accountability. And you, the 
warriors of the CIA, have delivered for America, for President 
Trump, and for me.
    Perhaps the highest compliments of our work come from our 
adversaries who fear and are in awe of the institution, and 
from our partner services around the world who have ask for 
more training, more intelligence, more joint operations than 
ever. To you, if I am confirmed, this will not be goodbye, 
because no matter how this nomination process ends, I will be 
with you, I will support you, and I will admire you.
    Finally, I want to thank the President for his confidence 
and trust in me. My job at the CIA has been to deliver world-
class data and facts to help inform he and the other senior 
policymakers in America. I am honored that he selected me to 
help carry out many of those same decisions as his chief 
diplomat.
    Senators, if I am confirmed, I will raise my hand and swear 
an oath to defend our Constitution for the seventh time in my 
life. The first time, I was 18 years old, a West Point cadet. 
With this oath, I will swear to defend the exceptionalism 
enshrined in our Constitution, which provides for our 
obligation to engage in diplomacy and model the very best of 
America to the world.
    Make no mistake, America is uniquely blessed, and with 
those blessings comes a duty to lead. As I have argued 
throughout my time in public service, if we do not lead for 
democracy, for prosperity, and for human rights around the 
world, who will? No other Nation is so equipped with the same 
blend of power and principle.
    Two things I want to try to answer for you in the time I 
have remaining. Who is Mike Pompeo? And who are his thoughts 
and plans to lead our State Department? I am sure we will get 
to talk about that some more as well.
    I was born in Orange, California. We did not have a whole 
lot of money in my family, but I enjoyed school. And my brother 
and sister and I, we all had fun learning. When I was a 
teenager, I was employee of the month at Baskin Robbins, not 
once, but twice. [Laughter.]
    Mr. Pompeo. I am a movie buff. I have a soft spot for my 
golden retrievers. I love meatballs that I make from my dad's 
recipe. And I enjoyed being a fifth grade Sunday schoolteacher 
for kids that just did not want to sit still.
    And although he will dispute this, I can beat my son in 
cornhole every day. I love Revolutionary War history, country 
music, show tunes, and college basketball.
    But it was my appointment at the United States Military 
Academy that changed my life. It was when I traveled, it was 
the first time I had ever been east of the Mississippi River.
    I have seen some describe my leadership style as blue 
collar. Fair enough. I am not afraid to get my hands dirty, and 
you will seldom find me ensconced on the senior level of any 
building. I have no discomfort with directness or 
confrontation. I prefer face-to-face as opposed to email. I do 
not hold grudges. I work toward a mission.
    And I will always make room for student programs and youth 
groups. They are what will set our Nation on its correct 
course. They are our future.
    Just this past Monday, I got to swear in a big group of CIA 
officers. It was always a very special moment. This one was 
very unique.
    Now let me turn to how I intend to work as a Secretary of 
State, if I am confirmed.
    Throughout my time in Congress and the CIA, I have met 
hundreds of State Department employees. I know them. And in the 
past few weeks, I have had a chance to meet dozens and dozens 
more in briefings. To a person, they expressed to me their hope 
to be empowered in their roles and to have a clear 
understanding of the President's mission. That will be my first 
priority.
    They have also shared how demoralizing it is to have so 
many vacancies and, frankly, many of them said to not feel 
relevant. I will do my part to end those vacancies. I will need 
your help. And I will work every day to provide dedicated 
leadership and convey my faith in their work, their 
professionalism, just as I have done with the workforce at the 
Central Intelligence Agency.
    When I took over as Director, the CIA had just completed a 
massive restructuring. Immediately after my arrival, I began 
speaking at every meeting, every conversation about the 
agency's mission. I talked about commander's intent. We do 
these small things that are called, ``Meet with Mike.'' Not a 
very original name, I will concede. But we gather up the first 
50 to come talk to me, so that I have a chance to listen to 
them. I wanted them to know what the President's and America's 
desire was for them, and I wanted them to understand that I was 
depending on them.
    And you should know, when the team needed additional 
resources, I defended them. I asked for them. I demanded them. 
And the President, so long as he found value, never hesitated 
to provide them. I was able to persuade him. And with your 
help, I will do the same thing at the Department of State.
    You have my commitment, too, with respect to this. I will 
work with each of you to fill the vacancies that are at the 
State Department. This is critical to strengthening the finest 
diplomatic corps in the world, and America and the world needs 
us to be that.
    The second thing I would like to highlight is workforces 
and their culture. I will spend a lot of time on this. It is 
important. I will proceed on, but without getting that part 
right, if the team doesn't understand the mission and isn't 
working toward the same goal, it is incredibly difficult to 
think you would achieve it.
    I have always done that. When I have traveled as part of 
the agency, I have met with State Department officials. I met 
with my own team. I spoke to them about the things that I was 
going to demand of them, the things I was going to permit them 
to do, and how I was going to hold them accountable to that 
task.
    I remember, I want to a location. The housing for officers 
was simply inadequate. None of you would have allowed your 
families to be there. I didn't have a lot of time, but I went 
and spoke with the Ambassador and told him it needed to be 
fixed. I wanted the State Department families and ours to know 
that we cared about them enough to provide living quarters that 
were sufficient for Americans.
    And you should know I believe deeply that the State 
Department's workforce must be diverse in the same way I have I 
worked for that at the CIA, diverse in every sense of the word, 
race, religion, background, and more. I will work to achieve 
that diversity, just as I have done in my current role, by 
focusing on the mission and demanding that every team member--
every team member--be treated equally, with dignity and 
respect.
    And I will listen. I had an old, crusty sergeant first 
class when I was a brand-new second lieutenant who said, 
``Lieutenant, if you will just shut up and listen for a bit 
your, life will be a whole hell of a lot better.'' He was right 
about that. He taught me a heck of a lot about how to be a good 
platoon leader. I intend to do that with the talented people 
that reside at the State Department.
    Let me talk a little bit about the work itself. By 
definition, the job description of the Secretary of State is to 
serve as the President's chief foreign affairs adviser. This 
was driven home to me in those conversations with every former 
Secretary of State. To a person, they were remarkably 
consistent by saying that job number one is to represent the 
President.
    For me, this means building substantial relationships with 
our allies, relationships that President Trump and I can 
utilize for both tough conversations and productive 
cooperation. It also means working with our adversaries where 
needed to make clear objectives and let them know the means by 
which we intend to achieve them.
    In this regard, I am fortunate to have a sizable head 
start. As many as a third of the days at the agency, I was 
engaged with foreign counterparts. I have led the CIA to forge 
stronger relationships with those partners all across the 
world, in the Middle East, Europe, Africa, and Latin America. I 
have traveled to these regions to demonstrate the commitment 
that America has to working as their partners.
    I have also met some folks who did not share many of our 
objectives. I have tried to find and I have asked my team to 
find those narrow slivers of common ground where we can work 
together to deliver the results that America needs us to.
    Representing America also calls for promoting America's 
ideals, values, and priorities, because they ultimately 
determine the trajectory of geopolitics, and we need to do that 
well.
    You know, I will close here, as I am approaching the 5 
minutes.
    You should know that I have been an enormous beneficiary in 
my life of some of the most remarkable diplomatic achievements 
in American history. I served, as Senator Roberts spoke about, 
I served on the border between East and West Germany, and I 
watched diplomats over an extended period of time from both 
parties achieve an outcome against the Soviet Union and the 
communist east that prevented my team from having ever to 
conduct the battle, which we prepared for every day.
    It was remarkable work from Foreign Service Officers over 
these many years. I thank them for that. It was the right 
approach. It was the approach that worked for America.
    I know some of you have read the story that I am a hawk, I 
am a hardliner. You know, I read that, and there is no one, as 
you just heard in what I described, there is no one like 
someone who served in uniform who understands the value of 
diplomacy and the terror and tragedy that is war like someone 
who has served in uniform. It is the last resort. It must 
always be so. And I intend to work to achieve the President's 
policies with diplomacy rather than by sending our young men 
and women to war.
    Know that I am serving a President who feels the same way, 
and that while the military balance of power--you all did good 
work to assist us in continuing to build our military to be the 
finest in the world. It can set the stage and create leverage, 
but the best outcomes are always won at the diplomatic table.
    You know, America's diplomatic engagement, political 
engagement, foreign policy engagement around the world has 
always been a big topic of debate. I am sure we will debate 
vigorously today. All through my life, I have been reminded 
that once the debates conclude, the carrying out of foreign 
policy, the actions that America does, make it real. It is a 
matter of duty to get it right.
    And while we might agree to disagree today on the what or 
the how of global involvement, we rarely disagree on why. It is 
to defend the safety of our families, the prosperity of our 
Nation, and the survival of freedom in the world. Diplomacy 
gives us the chance to achieve these goals peacefully.
    And I thank you for the time, Senator Corker.
    [The Mr. Pompeo's prepared statement follows:]


                Prepared Statement of Hon. Mike Pompeo, 
              Director of the Central Intelligence Agencv

    Chairman Corker, Ranking Member Menendez, Senators, thank you for 
the opportunity to appear before you today as the nominee for U.S. 
Secretary of State. I'm grateful for your attention to my nomination 
over the last several weeks, particularly at a time when so many 
matters of global importance demand your focus.
    Should I be confirmed, the regular contact we've established 
throughout this process will continue. I'll do my best to pick up your 
calls on the first ring, and I'll be a regular visitor to the Capitol. 
Your counsel and support will, if I'm confirmed, be critical to my 
leadership of the Department of State.
    I'd also like to recognize former Secretary Tillerson for his 
dedicated service and commitment to a smooth transition, as well as 
Deputy Secretary John Sullivan for serving in the gap.
    A personal thanks to all of the former living Secretaries of State, 
each of whom has fielded my calls these past weeks. Democrats and 
Republicans, from Henry Kissinger to John Kerry, you were kind enough 
to visit with me, offering candid and valuable advice. As I did with 
former CIA Directors, I will continue our contact should I be 
confirmed.
    And, if you know me at all, you know that I derive balance and 
support from my wife, Susan, and son, Nicholas, who are with me today. 
Susan keeps our home front humming and is always there to remind me of 
the family issues affecting not just the Pompeos but every family under 
my leadership. And Nick? Well, Nick keeps me humble, keeps my sense of 
humor alive, and provides me, unfiltered, a millennial point of view! 
Since I left the private sector and re-entered public service, either 
of them could have asked me to step back into less-visible, less-
consuming work. Instead they've encouraged me to give everything I can 
for as long as I can to this country that we love so much. Thank you, 
Susan and Nick.
    To the men and women of the CIA: To say that it has been an honor, 
a privilege, and a joy doesn't do justice to the gratitude I feel to 
have served as your leader. I've demanded much over the last 15 months, 
setting expectations high. I've pushed responsibility and authority 
through the organization to every officer and, along with that, the 
required accountability. And you, the warriors of the CIA, have 
delivered--for America, for President Trump, and for me. Perhaps the 
highest compliments on our work come from our adversaries, whose fear 
and awe for our institution have steadily increased; and from our 
partner services around the world, which ask for more training, more 
intelligence sharing, and more joint operations than ever. This is not 
goodbye, because no matter how my nomination process ends, I will be 
with you, I will support you, and I will admire you.
    Finally, I want to thank the President for his confidence and 
trust. My job at the CIA has been to deliver him world class 
intelligence, data, and facts, to help inform his decisions. I'm 
honored that he has selected me to help carry out many of those 
decisions as his chief diplomat.
    Senators, if confirmed, I would raise my hand and swear an oath to 
defend our Constitution for the seventh time in my life. The first time 
was as an eighteen-year-old West Point cadet. With this oath, I would 
commit to defend the exceptionalism enshrined in our Constitution, 
which provides for our obligation to engage in diplomacy and model the 
very best of America to the world.
    Make no mistake: America is uniquely blessed, and with those 
blessings comes a duty to lead. As I have argued throughout my time in 
public service, if we do not lead the calls for democracy, prosperity, 
and human rights around the world, who will? No other nation is 
equipped with the same blend of power and principle.
    During this hearing, I anticipate that you are duty bound to learn 
and draw out information on two fronts: ``Who is Mike Pompeo?'' and 
``What are his thoughts and plans to lead our State Department?'' 
Here's a good start.
    I was born in Orange, California and spent every summer on our 
family farm in Kansas. We didn't have a lot of money growing up, but my 
sister and brother and I loved school and had fun. When I was a 
teenager, I was given the ``Employee of the Month'' award twice in my 
job at the local Baskin-Robbins ice cream store. I'm a movie buff and 
admit to a soft spot for my golden retrievers. My family says my 
Italian meatballs, my Dad's recipe, are the best. I loved the challenge 
of teaching Sunday School to 5th graders who couldn't sit still. 
Although he would dispute it, I can beat my son, Nick, in corn hole on 
any given day. I love Revolutionary War history, country music, show 
tunes, and college basketball. My appointment to the United States 
Military Academy at age eighteen marked my first travel east of the 
Mississippi, and those four years at West Point changed my life 
forever.
    As a leader, I have been described as ``blue collar''--that is, I'm 
not afraid to get my hands dirty. I don't ever stay sequestered on the 
executive floor of any building.
    I have no discomfort with directness or confrontation; I prefer 
face-to-face conversations over email; I don't hold grudges and I 
always make time for student and youth programs in the organizations 
that I run--they are our future. Just this past Monday, I swore in 
another class of freshly minted CIA officers. It was a very special 
moment for me.
    That's a look at who I am. Now for the question of how I would lead 
the United States Department of State. I will focus on what matters 
most in any leadership role: actions--not words.
Set the Mission & Empower the Diplomatic Corps
    Throughout my time in Congress and at the CIA, I've met hundreds of 
State Department leaders and officers, and I've met even more over the 
past month. In a recent series of Department briefings with team 
members at State, they all, to a person, expressed a hope to be 
empowered in their roles, and to have a clear understanding of the 
President's mission. That will be my first priority. They also shared 
how demoralizing it is to have so many vacancies and, frankly, not to 
feel relevant. I'll do my part to end the vacancies, but I'll need your 
help. And I will work every day to provide dedicated leadership and 
convey my faith in their work--just as I have done with my workforce at 
the CIA.
    When I took over as Director, the CIA had just completed a massive 
restructuring that caused considerable turbulence--as these things do. 
Immediately after my arrival, I began speaking in every meeting and 
every conversation about the Agency's mission, providing the team with 
the ``Commander's Intent.'' I worked relentlessly to break down 
unnecessary layers of approval, reached out to the career 
professionals, did a lot of listening, and encouraged our officers to 
be creative and take risk when required. Further, I encouraged our 
officers to make independent decisions. If I couldn't add value, I 
wanted them to execute and be accountable. And understanding that any 
organization will experience failure when reaching for great things, I 
promised to have their backs. And I did. No one will ever take 
calculated, lawful risks to reach greatness if they feel it could end 
their career. And, when our team needed extra resources, I never 
hesitated to ask the President--and so long as he found value in the 
task, he never hesitated to provide them. I will, with your help, do 
the same at the Department of State.
    You have my commitment, too, that I will work with each of you, the 
White House, and the entire Senate to fill the senior vacancies. This 
is critical to strengthening the finest diplomatic corps in the world. 
America and the world need us to be that.
Strengthen Workforce Culture and Communication
    The second action item I'd like to highlight is strengthening 
workforce culture and communication.
    I learned many years ago from a crusty Sergeant First Class that 
good leaders need to shut up and listen. A lot. Just as I've done in 
each of my previous leadership roles, I will rely on those around me to 
achieve the team's goals. And we will listen to our foreign partners as 
well. At the CIA, I launched regularly-scheduled, small group town 
halls, not very originally titled, ``Meet with Mike.'' The first 75 or 
so officers to sign up had the chance to spend an hour with me 
listening to them. I not only enjoyed these sessions, but I learned a 
great deal. Further, I almost never travelled abroad without meeting 
with my local team on the ground. They were crucial to my understanding 
of the nuance of each country and its people. I also wanted the chance 
to ask them if they had everything they needed.
    It matters deeply to me that our staff and their families are safe 
and thriving. When traveling on behalf of the Agency, it was always 
important to me to be able to assess security and medical resources, 
housing, schools, and other support for our families. Not long ago, I 
was traveling on an overseas trip when it became apparent there were 
serious housing safety issues for Agency and State Department families 
at one post. While I was only on the ground a short time, I was able to 
talk with the Ambassador to lodge my concerns and ask that action be 
taken. I do not want to send any family where I would not send my own, 
nor will I send an officer where I would not go.
    The State Department's workforce must, by necessity, be diverse in 
every sense of the word--in terms of race, religion, background, and 
more. I'll work to achieve that diversity, just as I have successfully 
done at CIA, by focusing on mission and demanding that every team 
member be treated equally and with dignity and respect.
    But there is one more ingredient critical to our success--and that 
is listening to and working alongside each of you and your staffs. I 
have used, at CIA, the model former Director Panetta suggested to me: 
fewer hearings, more cups of coffee; shorter conversations, more 
frequently. I found it most useful with your colleagues on SSCI and 
hope that you, too, will find it valuable.
    All of this--listening, leveraging differences, unleashing talent, 
teamwork--will become the fabric of a State Department culture that 
finds its swagger once again. We will be effective, expeditionary, 
diverse, and successful in fulfilling our mission.
Serving the Commander in Chief
    So far I've talked about how I would empower the Department of 
State to succeed in its work. Now let me talk a little about the work 
itself. By definition, the job description of the Secretary of State is 
to ``serve as the President's chief foreign affairs adviser.''
    This definition was driven home to me in recent conversations with 
former Secretaries of State. I asked each of them how they had defined 
the core responsibilities of the job. They were remarkably consistent 
in their answers: job number one is to represent the President.
    For me, this means building substantial relationships with our 
allies--relationships that President Trump and I can utilize for both 
tough conversations and productive cooperation. It also means working 
with our adversaries to make clear America's objectives and the means 
by which we intend to achieve them. In this regard, I'm fortunate to 
have a sizeable head start.
    On as many as a third of my days at the Agency, I'm engaged with 
foreign counterparts. I have led the CIA to forge stronger 
relationships with our closest partners in the Middle East, Europe, 
Africa, Latin America, and Asia. I've travelled to these regions to 
demonstrate our commitment to working alongside them. I've also met 
with leaders in countries with which we share very few common 
objectives. I've asked my team to find those narrow slivers of common 
ground to stand on, so that we can deliver results for America. I would 
do the same at the State Department. We must do so not simply to be 
collegial, but to find partners who will help us achieve our 
objectives. I deeply believe this.
    Representing America also requires promoting America's ideals, 
values, and priorities to those who ultimately determine the trajectory 
of geopolitics: the voters and citizens of the world. To succeed in our 
diplomacy, it is important to appeal directly to key populations, and 
not to forfeit the perception of our country to misleading state media 
or other faulty information channels.
    Whether speaking to foreign leaders or the foreign public, it is 
important for the Secretary of State to clearly communicate the 
President's directives and goals. Every former Secretary I spoke with 
stressed the importance of maintaining a close relationship with the 
President.
    I've worked to build that kind of relationship with President Trump 
over the past 15 months through hundreds of hours of intelligence 
briefings. My relationship with President Trump is due to one thing: 
we've demonstrated value to him at the CIA. So, in turn, he has come to 
rely on us. I intend to ensure that the Department of State will be 
just as central to the President's policies and the national security 
of the United States. We need to be nimble, smart, and relevant to the 
difficult issues the President confronts every day--always delivering 
value. I cannot deliver effective diplomacy worldwide on my own. I will 
need the men and women of our diplomatic corps exercising their skills 
to deliver this value to our country.
    One of the many values of robust diplomacy is that it increases our 
chances of solving problems peacefully, without ever firing a shot. I 
saw this as a young cavalry officer in the United States Army, where I 
led troops patrolling the Berlin Wall from 1986 to 1989. The remarkable 
work of Foreign Service officers, over many years, no doubt saved my 
soldiers and me from military confrontation with the Soviet Union--a 
war for which we were preparing, and a conflict that the world 
thankfully avoided.
    I know firsthand the painful sacrifices of our men and women in 
uniform. So when journalists, most of whom have never met me, label 
me--or any of you--as ``hawks,'' ``war hardliners,'' or worse, I shake 
my head. There are few who dread war more than those of us who have 
served in uniform. And there is a great deal of room between a military 
presence and war. War is always the last resort. I would prefer 
achieving the President's foreign policy goals with unrelenting 
diplomacy rather than by sending young men and women to war.
    I am serving a President who feels the same way. While the military 
balance of power can set the stage and create leverage, the best 
outcomes are won through negotiations and the gains they can achieve.
Diplomacy is for the Brave and the Bold: Global Challenges and 
        Opportunities
    At this time I'd like to talk about the substantive challenges 
facing the State Department around the world. These challenges are well 
known to this committee, but I'll briefly share my views on a few of 
the most critical.
    First, diplomatic efforts are underway to rid the world of a 
nuclear North Korea. There is no higher diplomatic task for the State 
Department team than solving this decades-in-the-making threat to our 
nation. The stakes are high for everyone, but I believe them to be the 
highest for the North Korean regime. The State Department has 
successfully rallied the world to cut ties and impose sanctions that 
have had a profound impact. But there is much diplomatic work left to 
do, including supporting the President's intent to meet with the North 
Korean leader Kim Jong Un. That meeting will take place against a 
backdrop of commitment by our President to achieve denuclearization and 
prevent America from being held at risk by a North Korean arsenal of 
nuclear weapons. I have read the CIA histories of previous negotiations 
with the North Koreans, and am confident that we will not repeat the 
mistakes of the past. President Trump isn't one to play games at the 
negotiating table--and I won't be either.
    Next, Russia continues to act aggressively, enabled by years of 
soft policy toward that aggression. That's now over. The list of this 
administration's actions to raise the cost for Vladimir Putin is long. 
We are rebuilding our already strong military and recapitalizing our 
nuclear deterrent. We have imposed tough sanctions and expelled more 
Russian diplomats and intelligence officers from the U.S. than at any 
time since the Cold War. We are arming brave young men and women 
resisting Russian expansionism in Ukraine and Georgia. This list is 
much longer, and I'm confident I'll have the opportunity to add to it 
today. But the actions of this administration make clear that President 
Trump's national security strategy, rightfully, has identified Russia 
as a danger to our country. Our diplomatic efforts with Russia will 
prove challenging, but as in previous confrontations with Moscow, must 
continue.
    Iran, meanwhile, has been on the march and has paid too low a price 
for its dangerous behavior. Our administration has developed a strategy 
to counter Iran that will raise that cost. The issues surrounding 
Iran's proliferation threat are real and we, along with our allies, 
must deal with the long-term risk that its capability presents. But we 
cannot let the nuclear file prevent us from acting against Iran's cyber 
efforts or its attempts to provide missiles to the Houthis to attack 
Saudi Arabia and Americans who travel there. Iran's activities in 
Syria, Iraq and Lebanon threaten the very existence of Israel, and the 
global reach of Hezbollah threatens us right here in the homeland. Iran 
freed American hostages for the sake of a deal and then turned 
immediately to holding still more. I will work for their freedom every 
day.
    President Trump is prepared to work with our partners to revise the 
Joint Comprehensive Plan of Action to fix its most egregious flaws. If 
confirmed, it will be an immediate personal priority to work with those 
partners to see if such a fix is achievable. The stakes are high for 
everyone, but especially Tehran. If confirmed in time, I look forward 
to engaging key Allies on this crucial and time-sensitive topic at the 
G7 Ministerial Meeting on April 22nd and the NATO Ministerial Meeting 
later that week.
    Even while America has reestablished a position of strength in our 
diplomatic relationship, China continues its concerted and coordinated 
effort to compete with the United States in diplomatic, military, and 
economic terms. For years, through IP theft and coercive technology 
transfer, China has exploited weak U.S. trade policy and leeched wealth 
and secrets from our economy. Militarily, it continues its provocation 
in the South and East China Seas, in cyberspace, and even in outer 
space. This administration is determined to work diplomatically with 
the Chinese government in an effort to develop a more productive 
bilateral partnership. We have been pleased with China's support of our 
efforts to apply pressure on the North Korean regime, but it must do 
more. The State Department must be at the center of formulating and 
executing our China policy.
    Those are just a few of our challenges. The failed state of Syria 
poses a mounting threat to human rights, national security, and 
regional stability--and it deserves an increasingly severe response. 
Similarly, our nation faces unique and pressing security, governance, 
and development challenges in Iraq, Afghanistan, Latin America and 
Africa, where our diplomacy must support people's efforts to improve 
their lives. The State Department must also be at the forefront of 
America's efforts to ease humanitarian crises in Burma, Yemen, 
Venezuela, parts of Africa, and elsewhere.
    Couched in all of our global challenges are opportunities--
opportunities to promote security, stability, and human rights in key 
regions. I also believe we have opportunities for increasingly robust 
and fair trading relationships that benefit the American people.
    Should I be confirmed as Secretary of State, I will execute 
diligent and firm diplomacy, working alongside the world's finest 
diplomatic service, to help our President confront the challenges and 
seize the opportunities of our time.
Bound by Duty
    Before I take your questions, I want to speak for a moment about 
duty to country--which is something I feel today in great measure. I 
know all of you feel the heavy weight of it in your positions, as does 
President Trump.
    The desire we all feel to fulfill our duty to the best of our 
ability often manifests itself in a fierce competition of ideas, 
including on the subject of foreign policy. America's engagement with 
the world has always, rightfully, been a topic of debate. I'm sure 
we'll engage in a healthy amount of that in just a moment. Yet, all 
throughout my life, I've been reminded that once the debates conclude, 
the carrying out of our foreign policy--the actions that make it real--
must be a matter of duty.
    It's a reminder that while our country might disagree on the 
``what'' and the ``how'' of our global involvement, it rarely disagrees 
on the ``why''--which is to defend the safety of our families, the 
prosperity of our nation, and the survival of freedom in our world. 
Diplomacy gives us the chance to achieve these goals peacefully.
    I believe our Commander in Chief has made historic strides already 
in pursuit of this mission. If I have the honor of serving him as 
Secretary of State, I pledge to work with each of you, to strengthen 
our State Department, to champion the patriots who serve there, and to 
deliver on our shared diplomatic objectives--on behalf of every 
American.
    I look forward to your questions.


    The Chairman. Thank you for the testimony. I am going to 
withhold my time and use it for interjections along the way.
    And with that, I will turn to our distinguished ranking 
member, Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Director, thank you for your testimony. Director, the 
Washington Post reported last year that, on March 22nd of 2017, 
you and Director of National Intelligence Coats attended a 
briefing at the White House with officials from several 
government agencies.
    The article says, ``As the briefing was wrapping up, Trump 
asked everyone to leave the room except for Coats and CIA 
Director Pompeo. The President then started complaining about 
the FBI investigation and Comey's handling of it, said 
officials familiar with the account Coats gave to associates. 
Two days earlier, Comey had confirmed in a congressional 
hearing that the bureau was probing whether Trump's campaign 
coordinated with Russia during the 2016 race. After the 
encounter, Coats discussed the conversation with other 
officials and decided that intervening with Comey as Trump had 
suggested would be inappropriate, according to officials who 
spoke on condition of anonymity to discuss sensitive internal 
matters.'' That is the end of the quote.
    So, Director, this account strongly suggests that the 
President asked you and Director Coats to interfere with then-
FBI Director Comey's investigations into the Trump campaign's 
contacts with Russia.
    What did President Trump say to you and Director Coats in 
that meeting?
    Mr. Pompeo. Senator, I am not going to talk about the 
conversations the President and I had. I think--I think it is, 
in this setting, appropriate for a President to have an 
opportunity to talk with his senior leaders. I will do that 
throughout the day.
    But I will tell you this, the article's suggestion that he 
asked me to do anything that was improper is false.
    Senator Menendez. Did he ask you to do anything as it 
relates to that investigation?
    Mr. Pompeo. Senator, I don't recall. I don't recall what he 
asked me that day precisely. But I have to tell you, I am with 
the President an awful lot. He has never asked me to do 
anything that I considered remotely improper.
    Senator Menendez. So when you say you are not going to talk 
about that conversation, you are not asserting executive 
privilege, are you?
    Mr. Pompeo. No, Senator. I believe, and I think you will 
agree, we will talk about foreign policy issues. We will talk 
about----
    Senator Menendez. This has a connotation of foreign policy, 
because this is about Russia. And so at the end of the day, 
understanding how you responded, what you will do as we are 
looking at mandatory sanctions that the administration has yet 
to impose, looking at how we are going to deal with a Russia 
that not only sought to affect our last elections but is doing 
so even as we speak both here at home and across the world, 
those are substantive questions.
    Mr. Pompeo. Yes, Senator.
    Senator Menendez. So it is not for me just simply a 
question of interest. It is a question of understanding what 
you were asked, how you responded, and what you did.
    Mr. Pompeo. Senator, you talked about the important policy 
issues. I am happy to talk about this administration's work on 
Russia. I am happy to talk about our work on sanctions, if that 
is what you--if that was your question----
    Senator Menendez. Let me ask you this. Did President Trump 
ever discuss the FBI or Special Counsel's Russia investigation 
with you?
    Mr. Pompeo. Senator, again, I am not going to talk about 
private conversations I have had with the President.
    Senator Menendez. So whenever you come, if you were to be 
confirmed, in the future, and we want to try to talk about 
foreign policy, and we ask you where is the President at or 
this or that, you are not going to disclose any of the 
conversations?
    Mr. Pompeo. Senator, I am happy--Senator, I am happy to 
answer questions about our administration's policies, the work 
that we are doing. You are asking about conversations. You 
should know, Senator, as well, I have provided--I spoke with 
Special Counsel Mueller, who interviewed me, requested an 
interview. I cooperated. Your colleagues on the Senate 
Intelligence Committee have asked for information from me and 
from the Central Intelligence Agency, as has the House 
Permanent Select Committee on Intelligence. I think the leaders 
of those two organizations in a bipartisan way would say I have 
been cooperative. And in matters----
    Senator Menendez. So you have spoken to Special Counsel 
Mueller?
    Mr. Pompeo. Yes, that is correct.
    Senator Menendez. And what was the subject of the 
conversation?
    Mr. Pompeo. Senator, I am not going to speak to that.
    Senator Menendez. Did the Special Counsel tell you not to 
speak about these things?
    Mr. Pompeo. Senator, I have cooperated with multiple 
investigations. While the investigation continues, I think that 
is the appropriate way to approach it. And you should know, and 
no one here today should take away any--because of the fact 
that I don't want to speak out, there should be no negative 
inferences with respect to anything or, for that matter, 
positive inferences about the fact that I think it is most 
appropriate that, while these investigations continue, I not 
speak to the conversations I have had with the various 
investigative bodies.
    Senator Menendez. I am sure that if I asked Director 
Mueller--I mean, Special Counsel Mueller a simple question, 
whether you were told you couldn't, I don't think he would say 
you couldn't. So it is your choice that you are not seeking to 
do so.
    And for me, these questions being answered truthfully in a 
forthcoming way are critically important, because it goes to 
the very essence of how you approach one of the most critical 
issues that we have. And your unwillingness to speak to it is 
troubling to me.
    Let me ask you this. President Trump has repeatedly said 
that ``getting along with Russia is a good thing.'' Yesterday, 
he tweeted, ``Our relationship with Russia is worse now than it 
has ever been.... There is no reason for this.'' And he 
indicated he would like to help Russia with its economy.
    What behavior, if any, has the Kremlin shown that indicates 
it wants to get along with the United States or our allies?
    Mr. Pompeo. Senator, this administration has taken a series 
of actions to push back against Vladimir Putin.
    Senator Menendez. That is not my question. Let's start with 
my question.
    Mr. Pompeo. But, Senator----
    Senator Menendez. My question is, what behavior has the 
Kremlin shown that it indicates it wants to get along with the 
United States? Is there any? If so, please share it with me.
    Mr. Pompeo. Senator, I take a backseat to no one with my 
views of the threat that is presented to America from Russia. 
And if I am confirmed as the Secretary of State, I can assure 
you this administration will continue as it has for the past 15 
months to take real actions to push pack, to reset the 
deterrence relationship with respect to Russia.
    Senator Menendez. Let's talk about that, because I see that 
is in your written statement, and you suggest that there is a 
robust response to Russia.
    On February 27th, Admiral Mike Rogers, the head of the 
National Security Administration and U.S. Cyber Command, warned 
the Senate Armed Services Committee that the Trump 
administration has not done enough to stop the Russians. ``I 
believe that President Putin has clearly come to the conclusion 
that there is little price to pay here and that, therefore, he 
can continue his activity.''
    On April 3rd, the outgoing National Security Advisor, 
General H.R. McMaster, said, and I quote, ``We have failed to 
impose sufficient costs on Russia,'' and that the Kremlin's 
confidence is growing.
    And then, for your reference, here is a series of mandatory 
provisions under the Countering America's Adversaries Through 
Sanctions Act, part of which I helped write, which have not 
been implemented by the administration: Section 225, mandatory 
sanctions related to special Russian crude oil products; 
Section 226, mandatory sanctions with respect to Russia and 
other foreign financial institutions; Section 228, mandatory 
sanctions with respect to certain transactions with foreign 
sanctions evaders and serious human rights abusers in the 
Russian Federation; Section 231, mandatory sanctions with 
respect to persons engaging in transactions with the 
intelligence and defense sectors of the Government of the 
Russian Federation. There are more.
    That is not a robust response to Russia.
    The Chairman. Thank you.
    Before I turn to Senator Risch, I want to welcome Senator 
King. I would like for the people of Maine to know he does this 
often. [Laughter.]
    The Chairman. When things are serious, he comes and 
actually listens to the testimony. We thank you for doing so.
    Senator Risch.
    Senator Risch. Thank you very much.
    Mike, thank you for your service at intel, at the CIA. That 
has been great.
    For those of you on the committee, Senator Rubio and I are 
the only two that have the crosspollination, I guess. We have 
the great privilege of serving on the Intel Committee. And we 
hear from the heads of all of the 17 agencies that we have that 
engage in intelligence matters.
    And over the years, over the 10 years I have been on it, we 
have had numerous heads of agencies come in, and sometimes, 
frankly, we feel we are getting stiff-armed. I can tell all of 
you on this committee that Mike Pompeo has been candid when he 
came in before the Intel Committee. He has been helpful. And he 
has always been straightforward with us.
    So thank you for your service there. You have earned my 
respect, in that regard. And you will certainly get my vote for 
confirmation on this job.
    I think that that service as head of the CIA is going to 
serve you very well, as you know. It served me very well on 
this committee, having some of that in-depth knowledge that you 
don't necessarily get in the public media.
    Being Secretary of State is unique, I think, as far as the 
agency heads are concerned. You, first of all, have the public 
duties, and it has been referenced here. It is a very high-
profile job, in that you go around the world being the face of 
America and doing the kinds of things that you do.
    And your predecessor was very good at that. I thought he 
carried the flag as well as anyone could carry it.
    This job, however, as Secretary of State, has a couple 
other facets to it that you have to do at the same time, and it 
is hard to keep all the balls in the air. One of them, of 
course, is being part of the management team with the 
President, as far as managing, really, the United States.
    And, thirdly, and I think very importantly, is the actual 
management of the bureaucracy. And I don't use ``bureaucracy'' 
here in a pejorative way. The thousands of men and women who 
are in Foreign Service who are working with the State 
Department make us proud every day. They are bipartisan. They 
do a great job.
    I think that there has been a fair amount of criticism, 
everyone knows, that your predecessor did have, was hampered a 
bit because he did not have some of those jobs filled that are 
so important there. And we all know that, in order to manage an 
agency like that, you have to have really good, solid people 
around you to be able to make the bureaucracy work in the 
things that aren't the high-profile meetings and what have you 
around the world.
    Could you give us your thoughts, give all of us your 
thoughts on how you are going to go about that, because it 
needs some work. There is no question about it. And it is going 
to make your job better. It is going to make the State 
Department work better. So could you give us your thoughts on 
that?
    Mr. Pompeo. Senator, first, thank you for your kind words. 
I did, as a CIA Director, I have consistently tried to work 
closely with you and provide you everything that you have asked 
for in a timely fashion. I think we have succeeded often, if 
not always. And we have worked diligently at that. I promise to 
do that with this committee as well.
    With respect to building a team out of the State 
Department, this is something I have done multiple times in my 
life. I did it as a tank platoon leader. I did it as a cavalry 
troop. I did it for two small businesses in Kansas. And then I 
worked hard at it at CIA. I will it leave to others to judge 
the success. But I did it because I knew it was an imperative.
    At the State Department, there are too many holes, too many 
vacancies, too many unfilled positions. When that happens, 
everyone is stretched thin in the subject matter expertise that 
is needed to deliver America's diplomacy around the world, to 
conduct its mission, its humanitarian missions, its development 
missions. Each of the missions which are entrusted to the State 
Department require talented people on station doing their part, 
working alongside it.
    The way I will think about it is the same way I did at the 
CIA. I will start with those things that I think are the 
biggest gaps and present the biggest risk to America's capacity 
to execute its diplomacy. We don't yet have an Ambassador to 
South Korea. We need one. There are a handful of other places 
that have a requirement for immediate attention.
    With respect to each of those positions, I am a talent 
hawk. I will find what I believe to be the best fit to execute 
America's diplomatic mission around the world. And I will 
encourage, demand, cajole them to come join the team and be 
part of our organization in a way that can successfully 
deliver. Some of them will be fantastic civil servants and 
Foreign Service Officers, others from the outside. But in each 
case, I will try to identify the right person to occupy the 
position at this challenging time in America's history.
    Senator Risch. Thank you very much. You made reference to 
the fact that there are ambassadorships that are empty. I think 
there are 37 of them. And the good news is that you have a 
really deep bench at the State Department. And a good example 
is in South Korea.
    I had the good fortune of being there, as you know, 
recently, doing some things. And the charge d'affaires who is 
in charge there has done a fabulous job, as you know.
    And we do have that deep bench at the State Department. 
But, again, we do need the ambassadorships filled, and we do 
need, particularly, I think, the top positions in the 
department filled, and people with the authority to act and 
people with the authority to do the things that need to be 
done.
    So thank you for that. I have every confidence you will be 
able to do that.
    Your candor with the Intelligence Committee, I can tell you 
that, if you can come in front of that committee and disgorge 
in a candid fashion, I have every confidence you are going to 
be able to do that here.
    So thank you again for your service.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Mr. Pompeo, first of all, thank you for 
your career of public service. I want to thank your family, 
because this clearly is going to be a family sacrifice. It 
already has been. But it will be even more deeply felt by your 
family. So I very much appreciate all that.
    Mr. Pompeo. Thank you, Senator Cardin.
    Senator Cardin. I want to follow up on the chairman's 
opening comments about the need for the Secretary of State to 
be a strong, independent voice in the White House, particularly 
in this White House, and with the President's announced policy 
of America first, which has been interpreted globally as 
America alone, which is your mission, if you are confirmed, to 
use diplomacy to engage the international community.
    So I want to ask you a couple questions, and I would ask 
that you give your views, not the President's. I want to know 
your views.
    Secondly, I would hope that you would briefly answer the 
questions, because I have a lot of questions I want answered. 
Please respect the time restrictions that we are operating 
under.
    And let me start first, if I might, with the Iran nuclear 
agreement that has been referred to. There is no question that 
Iran is a bad actor here, and they continue to be a bad actor. 
And this Congress, with your help, we passed very strong 
legislation to provide additional sanctions against Iran for 
its nonnuclear violations, including its ballistic missiles. 
And we want strict enforcement of the nuclear agreement.
    But it is clear from what the President has announced that 
he wants to see changes in the nuclear agreement. It has also 
been very clear that Europe has said pretty directly we cannot 
unilaterally, the West, modify the agreement, and that Iran is 
in compliance with the agreement.
    General Dunford has said, unless there is a material 
breach, we have an impact in others' willingness to sign other 
agreements if we pull out of this agreement, with reference to 
North Korea, the challenges of entering into diplomacy.
    So my direct question, if the President determines that you 
cannot modify this agreement, and Iran is in compliance, what 
is your view as to whether America should withdraw unilaterally 
from the Iran nuclear agreement?
    Mr. Pompeo. Senator, I know clearly what my mission is 
going to be. The President has made very clear what the 
Secretary of State's mission has been, and I expect no change 
to that.
    Senator Cardin. I didn't ask--I asked, what are your views? 
I understand that. We have had nominees come before this 
committee and express their views----
    Mr. Pompeo. Yes.
    Senator Cardin.--and are doing very well in this 
administration, and who have disagreed with the President, and 
the President gets the last word. I understand that.
    Mr. Pompeo. I have done it many times.
    Senator Cardin. I want to know your views.
    Mr. Pompeo. I have done it many times, Senator.
    I cannot answer that question. Here is why. But let me tell 
you how I approach it. Let me tell you how I you how I think 
about it. Here is how----
    Senator Cardin. I----
    Mr. Pompeo [continuing]. If you will, if you will let me 
tell you how I think about it, then you can--I want to fix this 
deal. That is the objective. I think that is in the best 
interest of the United States.
    Senator Cardin  [continuing]. But if the agreement cannot 
be changed--my question is pretty simple. We are running very 
close to a deadline on certification. What is your view? Is it 
better to pull out of an agreement that Iran is in compliance 
with if we can't fix it? Or is it better to stay in the 
agreement as the----
    Mr. Pompeo  [continuing]. Senator----
    Senator Cardin  [continuing]. Yes or no?
    Mr. Pompeo  [continuing]. Senator, it is not a yes or no 
question, because it is a hypothetical. We are not at that 
point.
    Let me tell----
    Senator Cardin. The President has to certify on May the 
12th.
    Mr. Pompeo [continuing]. Yes, sir. That is yet almost a 
month away.
    It depends, clearly, if we are close--imagine, just as a 
hypothetical matter, imagine we are close to achieving the fix 
that the President has asked the State Department to achieve. 
If we are close, if there is some opportunity----
    Senator Cardin. Do you pull out, if you are close?
    Mr. Pompeo [continuing]. In the event--in the event that we 
conclude that we can't fix this deal, that these serious 
shortcomings that you, Senator Cardin, yourself, have 
identified, then the President is going to be given best 
advice, including by me.
    And if there is no chance that we can fix it, I will 
recommend to the President that we do our level best to work 
with our allies to achieve a better outcome and a better deal.
    Senator Cardin. By----
    Mr. Pompeo. Even after May 12th, Senator, even after May 
12th, there is still much diplomatic work to be done.
    Senator Cardin [continuing]. I think you have answered the 
question. You have been----
    Mr. Pompeo. Senator, just to be clear, it is more than just 
Europe.
    Senator Cardin. You have been pretty clear about the 
outcome you would like to see in North Korea, which I believe--
if I am misstating this, please, let me know--which is regime 
change. Is that accurate?
    Mr. Pompeo. Senator, you have misstated that.
    Senator Cardin. Okay. Are you in favor of regime change in 
North Korea?
    Mr. Pompeo. Senator, my mission is--and I have articulated 
my own personal views on this. We have a responsibility to 
achieve a condition where Kim Jong-un is unable to threaten the 
United States of America with nuclear weapons.
    Senator Cardin. I understand that. So are you saying now 
you don't favor regime change?
    Mr. Pompeo. Senator, I have never advocated for regime 
change. I have all along----
    Senator Cardin. It is a simple question. So you are not--
you do not believe----
    Mr. Pompeo  [continuing]. I am happy to answer today that I 
am not advocating for regime change. Yes, Senator.
    Senator Cardin [continuing]. Thank you. I appreciate that. 
I want to get that clear.
    Let me go on to----
    Mr. Pompeo. And, Senator, just to be clear, my role as a 
diplomat is to make sure that we never get to a place where we 
have to confront the difficult situation in Korea that this 
country has been headed for now for a couple of decades.
    Senator Cardin [continuing]. So let me get to the 
international climate talks and agreements that were entered 
into in Paris, the fact that every Nation in the world has now 
joined in that, this is, as I explained to you as we talked in 
our office, as you understand, these are self-imposed goals 
enforced only by ourselves.
    The President has indicated his intentions to withdraw from 
the international agreement. It takes a period of time before 
it becomes effective.
    Mr. Pompeo. Yes, sir.
    Senator Cardin. But he has already initiated the process. 
If it, in fact, takes place, we would be the only country that 
is not part of the agreement.
    Do you support the United States withdrawing from the 
climate agreements?
    Mr. Pompeo. I share the President's position precisely, 
which is that the Paris Agreement put an undue burden on the 
United States of America and that we should work to find a 
place where that is not the case. And when that moment arrives, 
we will be part of that discussion and reenter that agreement.
    Senator Cardin. So you stand by your----
    Mr. Pompeo. That is both my view, and I believe I am 
speaking for the administration's view.
    Senator Cardin  [continuing]. So you believe self-imposed 
requirements working with the international community, I think 
I am quoting you accurately, is dangerously wrong, bows down to 
radical environmentalists, and the science is inconclusive. You 
stand by those statements today?
    Mr. Pompeo. Senator, we need to work to arrange a situation 
that treats American citizens in the same way that others 
around the world----
    Senator Cardin. And do you----
    Mr. Pompeo  [continuing]. --So there is a shared burden to 
attack this challenge.
    Senator Cardin  [continuing]. Do you see the challenge, 
that that is going to make your job, if confirmed, more 
challenging?
    Your job is to work with the international community, our 
friends and foes alike----
    Mr. Pompeo. Yes.
    Senator Cardin  [continuing]. To try to get diplomacy to 
work. And yet, the United States would be the only country 
saying we do not want to talk to you about climate under the 
arrangements that every other country is dealing with. You 
don't see a conflict with that position and trying to be the 
top diplomat of America, the leader of the world?
    Mr. Pompeo. Senator, there are many times that we work with 
our allies, and there are many other times when we just don't 
see it the same way.
    I give you many indications, many examples of where this 
administration has worked with those same allies.
    Just recently, the work that we did against Russia in 
response to the attack that took place in Britain, we worked 
with our European allies. We did so very closely. This would be 
after the President's announcement that he intended to withdraw 
from Paris.
    So it can still work. I will give you another example.
    The coalition that this administration has built to put 
pressure on Kim Jong-un is unique and historic and important.
    So there will be places that our allies come alongside us, 
and others that they don't. And my task as the chief diplomat 
will be to get America's position well-known and to rally the 
world to the causes that benefit America.
    I look forward to doing that, if I am confirmed, as well, 
Senator.
    Senator Cardin. Thank you.
    The Chairman. Before I turn to Senator Rubio, I am going to 
use 30 seconds of my time.
    Just on the Iran issue, it is my sense in personal 
conversation with the President that if the Europeans do not 
come along with a framework agreement by May 12th, it is likely 
that he will withdraw.
    Mr. Pompeo. Senator, the President has made that very 
clear.
    The Chairman. And so I do not think Senator Cardin fully--I 
don't think he heard the same thing I heard.
    And your sense is that, should that happen, then you would 
continue after that time to try to create a better agreement. 
Is that what your answer was?
    Mr. Pompeo. Yes. Senator, the President has stated his 
objective. I have heard him say it to my predecessor or, excuse 
me, to Secretary Tillerson. I have heard him say that his goal 
is to take the three shortcomings that he identified and fix 
them.
    Senator Cardin. Mr. Chairman, I need to correct the record. 
I understand the President's position. I was asking the 
nominee's position. I wasn't asking the President's position. I 
want to know your view on it, not the President's. I understand 
the President's view.
    The Chairman. But I think--again, I know this is going to 
be highly discussed publicly. I think what Director Pompeo is 
saying is that is also his opinion, and that should the 
agreement then be negated, he would work for a better agreement 
after that, should the framework agreement not come in place by 
May 12th. Is that correct?
    Mr. Pompeo. Senator, that is correct.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you.
    First, just an editorial statement at the front end.
    One of the reasons why I have been--apart from how well I 
know the nominee and the work he has done in intelligence, is I 
think one of the critical components to be a successful 
Secretary of State is that, when the Secretary of State comes 
to town, leaders and diplomats need to know that this is 
someone who is in the inner circle of the President, that has 
the President's trust and speaks for the administration.
    And I can just tell you from experience from the work that 
we have done with Director Pompeo that, if confirmed, when he 
comes to town, leaders around the world will know that someone 
who has not just access to the President but is part of the 
President's trusted inner circle and speaks for the President 
and for his policies--is just critical for the success of the 
Secretary of State.
    And I would imagine, if you have spoken as you have to all 
the living Secretary of States, they would have told you that 
that component of that relationship is so important.
    And I would just say anything that would undermine that, 
obviously, is something that would undermine the ability to do 
the job in that way.
    I have a series of quick questions, and they are important, 
because it gives people some context about your views on 
foreign policy and America's role in the world, which, by the 
way, predate your time at the Central Intelligence Agency and 
includes your time in the House of Representatives and perhaps 
even before that.
    You still agree, do you not, on the matter of the Russian 
invasion of Ukraine, that the United States has an obligation 
to help Ukraine defend its sovereignty?
    Mr. Pompeo. Yes, Senator.
    Senator Rubio. And you still agree that, far from being a 
great public service, WikiLeaks is more of like a nonstate 
actor hostile to the national interests and security of the 
United States?
    Mr. Pompeo. Senator Rubio, I do believe that.
    Senator Rubio. And I think you still agree that Vladimir 
Putin's government actively interfered in our presidential 
elections and elections at large in 2016, and they did so 
because it is part of a longstanding theory or belief that, 
through disinformation and propaganda, they could win 
``bloodless wars'' against democracies in the West, including 
the United States?
    Mr. Pompeo. Yes, Senator. That is correct.
    Senator Rubio. Of the five main threats facing the United 
States--China, Russia, Iran, North Korea and radical 
jihadists--they all have one common thread: authoritarianism. 
Would you agree that, today, the major faultline in global 
affairs repeatedly is the competition, really a global 
competition between autocratic systems of governance and the 
democratic system, that that, in many ways, has played out over 
and over again in the foreign affairs of this country and in 
global issues?
    Mr. Pompeo. Senator, it is with striking consistency the 
case that the countries that share our vision of the world and 
share our democratic values are not authoritarian, and those 
that don't are not.
    Senator Rubio. And so, in that vein, you would again agree 
that promoting democracy isn't just a nice thing to do or a 
good thing to do, or promoting democracy is not us butting into 
other people's business or invading their sovereignty. So it is 
more than just a moral imperative. Promoting democracy is, in 
the context of that competition as we have just discussed, 
promoting democracy is in the vital national interests of the 
United States.
    Mr. Pompeo. Yes, indeed, Senator. And our effectiveness at 
doing that is an important tool of American foreign policy.
    Senator Rubio. And there is this ridiculous argument out 
there when people talk about Russian interference and their 
efforts and so forth that that is no different than what 
America does when it moments democracy. There are huge 
differences, are there not?
    For example, when they interfere in an election, they are 
trying to influence the outcome. When we promote democracy, we 
are trying to improve the process, not necessarily who they 
elect. Sometimes democracies elect leaders that are not as 
friendly towards the United States.
    When they interfere in elections, they use government and 
their intelligence agencies and the like. When we promote 
democracy, it is largely through the work of nongovernmental 
organizations, who may receive assistance from our government.
    When they undermine democracy, they do it in secret. They 
hide it, and they deny it. We do it openly. We brag about it. 
We are talking about it here today.
    And when we promote democracy, we do it at the invitation 
of someone in those countries, whether it is a political party, 
an organization, oftentimes the government itself. When they 
undermine democracy, they do so against the will of the people 
of that Nation and of the governments in place.
    There is no equivalence between the promotion of democracy 
and Russian and other attempts to interfere in democracy.
    Mr. Pompeo. Senator, there is neither an operational 
equivalence, as you have described it, that is, the 
methodologies used are very different, nor is there a moral 
equivalence between the two efforts. They are fundamentally 
different in every way, and America's democracy promotion 
around the world is conducted in way that America should be 
incredibly proud of.
    Senator Rubio. And one of the first things autocratic 
rulers do, almost by definition, is they violate the human 
rights of their people and, of course, have no problem 
violating the human rights of others, as we have recently seen 
through war crimes and atrocities repeatedly committed by an 
autocratic government in Syria with the support of autocratic 
governments in Iran and Russia.
    Therefore, I believe you would agree that defending human 
rights isn't just a good thing to do or just the right moral 
thing to do, which it most certainly is. Defending human rights 
is also in the national interest of the United States of 
America?
    Mr. Pompeo. I do believe that, Senator.
    Senator Rubio. And it would be a priority at the State 
Department.
    Mr. Pompeo. It would. And not only do I believe it, I think 
history would reflect that to be the case.
    Senator Rubio. Now, after the end of the Cold War, we had 
this belief that history had ended, and everyone was going to 
be a democracy, and everybody was going to embrace capitalism, 
as we understand it, with free economics and the like.
    That hasn't really worked out in the case of a lot of 
places, particularly China. They have most certainly not 
embraced democracy. They have actually gotten more autocratic. 
And they have embraced a definition of the world economic order 
that basically means we will take all the benefits of global 
trade and global economics, but we do not intend to live by any 
of its obligations. And so I personally believe that it was a 
terrible mistake that leaders in both parties have made.
    And now, as part of their strategy, you see China doing 
things like trying to create strategic depth in Eurasia, their 
efforts to establish all these different programs, the Belt and 
Road Initiative, Silk Road and Maritime Silk Road. They are not 
just efforts to create new overland trade corridors. They are 
efforts to, basically, make these nations economically, 
politically, and, eventually, militarily dependent on and 
vulnerable to China.
    And their maritime borders in the South and East China Sea, 
you see that they feel vulnerable and insecure. They see 
American allies in Japan, South Korea, Australia, Taiwan.
    And so what they are working on now is fracturing our 
economic and defense alliances in the Indo-Pacific region. That 
is why they are investing billions of dollars in building up 
their navy and their air force to be able to establish air and 
sea denial to the U.S. military and, ultimately, make the 
argument: Don't count on America's defense and/or partnership, 
because it is just paper. They can't live up to it anymore.
    What are your recommendations for the President, as far as 
how important that challenge is? Otherwise, we are going to 
wake up one day and find out we have been driven from the Asia-
Pacific region.
    Mr. Pompeo. Senator, as the CIA Director, I have often been 
asked, what is the greatest threat to the United States? It is 
always hard to prioritize and rank. We have a handful. We have 
lots of opportunities as well.
    China certainly presents a strategic challenge to the 
United States of America. You laid out the various tools and 
mechanisms that they are using, mostly economic. The United 
States needs to be prepared to respond across each of those 
fronts, so that we can find the right ground, the right place, 
where we can cooperate with the Chinese where it makes sense 
for America. And in those places where it does not, we can 
confront them and make sure that it is America's vision, a 
democratic vision, that continues to provide strength and 
resources for the world.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Director Pompeo, thank you for being willing to consider 
taking on this responsibility at such a challenging time for 
the United States and the world.
    This morning, President Trump tweeted out that much of the 
bad blood with Russia is caused by the fake and corrupt Russia 
investigation. Do you agree with that?
    Mr. Pompeo. The historic conflict between the United States 
and the Soviet Union, and now Russia, is caused by Russian bad 
behavior.
    Senator Shaheen. Thank you.
    When you were installed as Director at the CIA, as you said 
in your testimony, you swore an oath to support and defend the 
Constitution of the United States against all enemies, foreign 
and domestic. As you pointed out, you have taken that oath six 
times. You have graduated from Harvard Law School magna cum 
laude. You are an attorney.
    Do you think Special Counsel Mueller's investigation is a 
witch hunt?
    Mr. Pompeo. Ma'am, I am going to not speak about any of the 
three investigations that I have been a participant in today.
    Senator Shaheen. Do you think the President has the 
authority, recognizing your legal background, does the 
President have the authority to fire Special Counsel Mueller on 
his own?
    Mr. Pompeo. Senator, I am in no position to make a comment 
on that legal question.
    Senator Shaheen. Would you consider the President firing 
Rod Rosenstein over his role in the Special Counsel 
investigation to be an abuse of power?
    Mr. Pompeo. Ma'am, I came here today to talk about my 
qualifications to be the Secretary of State. I am not going to 
weigh into the active investigations that are going on in the 
House, the Senate, and the Special Counsel's investigation.
    Senator Shaheen. And I appreciate that. That is what we are 
all here to talk about. But the fact is, in your testimony, you 
talk about the actions of the administration making clear and 
rightfully identifying Russia as a danger to our country. And 
yet, the President tweets out his opinion that the problem with 
Russia is Bob Mueller and the investigation.
    I think those two are in conflict. And it is hard for me to 
understand how we can have a Secretary of State who is able to 
go to Russia and come to Congress and talk about the challenges 
and the threats that Russia faces to our democracy when we have 
this conflicting position from the President of the United 
States who you would work for.
    And let me just say, you have talked about the actions that 
have been taken by this administration, but the fact is the 
sanctions that were passed overwhelmingly in the House and 
Senate that had bipartisan support have not been fully 
implemented by this administration.
    So we have mandatory sanctions related to Russian crude oil 
products that haven't been implemented. We have sanctions with 
respect to Russian and other foreign financial institutions not 
implemented. Sanctions with respect to transactions with 
foreign sanctions evaders and serious human rights abusers in 
the Russian Federation not implemented yet.
    I could go on, but, as the Secretary of State, will you 
argue that we need to go ahead and implement the rest of these 
sanctions in a way that holds Russia accountable for its 
interference?
    Mr. Pompeo. Yes, ma'am, every day. And if I may take just a 
moment?
    Senator Shaheen. Please.
    Mr. Pompeo. So there is still more work to be done on 
CAATSA. There is more work to be done on other sanctions 
provisions as well. I readily concede that.
    Vladimir Putin has not yet received the message 
sufficiently, and we need to continue to work at that.
    But it hasn't just been sanctions. The largest expulsion of 
60 folks was from this administration. This administration 
announced a Nuclear Posture Review that has put Russia on 
notice that we are going to recapitalize our deterrent force. 
In Syria now, a handful of weeks ago, the Russians met their 
match. A couple hundred Russians were killed.
    The list of actions that the administration has taken, I am 
happy to walk through each of them, but I don't want to take up 
more time.
    Senator Shaheen. I appreciate that.
    Mr. Pompeo. The list is pretty long, ma'am.
    Senator Shaheen. And I certainly agree with that, and I 
think those actions are important. But they get undermined by a 
President who consistently refuses to hold Vladimir Putin 
accountable for what Russia has done in the United States. And 
that presents a challenge as we go into the 2018 elections, and 
it presents a challenge as we work with other democracies 
around the world where Russia has done everything possible to 
undermine Americans' and other countries' citizens' belief in 
the workings of democracy.
    In response to Senator Rubio, you talked about the 
importance of defending human rights as Secretary of State. 
Certainly, as Secretary of State, you would be this country's 
top diplomat, representing America's values in support of 
diversity and inclusion. And yet, during your tenure in 
Congress, you have made statements that have been described as 
anti-Muslim and anti-LGBT rights.
    So how would you, as Secretary of State, reconcile those 
positions and statements that you have taken in Congress with 
the need to represent America's values and defend human rights?
    Mr. Pompeo. Senator, I appreciate the question. Look at my 
record, not just these past 15 months. There were the same 
questions when I was to be confirmed as CIA Director.
    As a CIA Director, I have honored and valued every single 
CIA officer, regardless of race, color, you pick it, gender, 
sexual orientation. I have treated every one of our officers 
with dignity and respect. I have promoted them when they 
deserved it. I have held them accountable when they deserved 
that as well.
    I promise you that I will do that as the Secretary of 
State.
    Senator Shaheen. I appreciate those sentiments, and I 
appreciated your comments in your testimony saying that you 
would support the State Department's workforce, that it be as 
diverse in every sense of the world, race, religion, 
background, and more. And yet, you were criticized at the CIA 
for undermining policies of the previous administration to 
improve diversity at the CIA.
    Mr. Pompeo. Ma'am, I don't know the criticism that you are 
referring to. I have to tell you, I didn't undermine a single 
policy. We have emphasized it. We have talked about it. We have 
worked on it. I think I am proud of the work that I did to 
continue to develop and increase the capacity for the CIA to 
deliver a diverse workforce, to meet the challenges, the 
intelligence challenges, in that case, around the world.
    Senator Shaheen. Well, I would just say Michael Weinstein, 
who is a former Air Force officer who founded the Military 
Religious Freedom Foundation, says that he has been seeing 
increasing complaints from those inside the intelligence 
community under your leadership. So I think there have been a 
number of concerns raised.
    Mr. Pompeo. Ma'am, if I might?
    Senator Shaheen. Please.
    Mr. Pompeo. The number of we call them no-fear complaints, 
the statutory requirement decreased from 2016 to 2017 by 40 
percent.
    Senator Shaheen. Good.
    Mr. Pompeo. And I am proud of that. It is not enough. 
Whatever the final tally was, it was too many. But I am proud 
of the record. Not just--and I do not want to take full credit 
for that. The work that my team has done on this, I am 
incredibly proud of. I supported their efforts, and I will do 
the same--I will behave the same way, if I am confirmed as the 
Secretary of State.
    Senator Shaheen. Thank you. I am out of time.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you so much.
    Before turning to Senator Johnson, I just wanted to 
highlight that I don't think enough has been said or made of 
the fact that Russia crossed the Euphrates with their own 
troops and were annihilated. It was really a strong statement 
that I don't think many are paying as much attention to as 
should. And I appreciate you highlighting that, incredible 
steps by our Pentagon.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Director Pompeo, thank you for your past service. I also 
want to thank you and your family for your willingness to serve 
in this capacity. It is a sacrifice.
    As you were walking by me, I mentioned that I have read a 
lot of testimony for nominees, and this written testimony is 
probably as good as I have seen. So anybody interested in this 
nomination should really read it.
    One of the reasons I liked it is I could see the concepts 
required for effective management in it. And, of course, you 
are going to be in charge of managing relationships. But the 
concepts I am talking about are in your conclusion, the areas 
of agreement. That is how you accomplish things, concentrate on 
the shared purposes, the shared goals.
    Obviously, in your handling of the CIA, you had a strategy 
in how you were going to manage that prioritization of tasks. 
So as I ask these questions, I want you keeping those concepts 
in mind.
    In managing your relationship with almost all nations, 
there is an economic relationship and there is a security 
relationship. Obviously, you are not Secretary of Commerce. You 
are not the U.S. Trade Representative. You are the Secretary of 
State. You are concerned, obviously, about security. But our 
negotiations in terms of trade are going to have a great 
effect.
    I just joined Steve Daines' delegation to China, and I was 
struck by what they were primarily concerned about. It was the 
Taiwan Travel Act. We thought we were going to hear all kinds 
of things about tariffs, and they were most concerned about 
that core area of their interest, and don't meddle with that.
    But I just want you to comment on, how are you going to 
deal with that conflict between the trade relationship and the 
security relationship? And the reason I am pointing it out with 
China is we were there. We also crossed into the DMZ. We were 
in the Blue House, walked into North Korea. And from my 
standpoint, talking about priorities, our number one priority 
with China, the relationship with China, is to get them to 
continue, and they are effectively, enforcing those sanctions, 
so that we can bring to conclusion the dismantlement of the 
North Korean threat.
    So can you speak to that conflict between trade, economic 
relationship, and security relationship?
    Mr. Pompeo. Senator, it is complex. At times, they are 
conflicting. At times, they are actually additive. That is, 
they work together.
    You can achieve a good economic outcome with a partner 
country. You can get assistance in other places on a diplomatic 
matter that you care about deeply or on a military matter, a 
place that you want them to assist the United States. So there 
are places that good diplomacy can lead to making those not in 
conflict, not zero-sum alternatives where you have to sacrifice 
an economic relationship for a security relationship.
    How do you do that? You build out teams. The State 
Department has an enormous--Under Secretary E has an enormous 
an economic team that, in my judgment, from what I can see over 
an extended period of time, has not been able to deliver as 
much value as some of the other parts of the economic apparatus 
of the United States Government. I am intent on finding the 
right people to make sure that we have the tools so that we can 
make a full-throated, a broad effort across all elements of the 
diplomatic spectrum.
    And where it comes into conflict with security issues, I 
suppose it is highly factual and contextual, but the idea--and 
certainly, we have seen this with the issues with China today. 
We thought through the risks. We identified relative priorities 
and attempted to level set them, and then engaged in diplomatic 
activities such that challenges that have been presented to 
China through the actions that have been taken by this 
administration over the past weeks didn't upset the apple cart 
with the good work that the Chinese have done helping us on the 
North Korea challenge.
    Senator Johnson. Do you agree with me that, in our 
relationship with China, our top priority is their cooperation 
on North Korea?
    Mr. Pompeo. It is.
    Senator Johnson. I mean, currently.
    Mr. Pompeo. It is. Today, that is the number one priority 
for this administration. I agree with that.
    Senator Johnson. Would you agree that, in terms of the best 
way to bring China into full compliance with all the trade 
agreements, that working with the other--our other trading 
partners, having a good relationship with them, and having us 
as an alliance, working with China and making sure they 
actually follow the rules, would that also be probably the best 
way of achieving that?
    Mr. Pompeo. I do believe that, Senator.
    Senator Johnson. What do you think--again, I went over to 
China. I really wanted to hear their perspective.
    What do you think their primary goal is? What is their 
strategy? What are they trying to achieve?
    And let me just say the three things they listed to us: 
bring a billion people out of poverty, improve their 
environment, and avoid a financial crisis. Those are their 
three top priorities that they told us.
    Mr. Pompeo. Senator, I have heard similar things. I have 
actually, in my interactions, have heard the economic crisis 
listed first. That is, they have this challenge of leverage 
inside of China today they have to wind their way out of, and 
they have to do it through economic growth. That was their 
priority.
    That has the secondary benefit that you described of 
bringing the next several hundred million people into middle-
class China.
    When I have spoken with them, those were their two 
fundamental priorities.
    Senator Johnson. So they have enormous challenges. So I 
guess one of my points being is, rather than look at our 
relationship with China as a win-lose situation, it sure makes 
an awful lot of sense to me to try to redefine that and try to 
obtain a win-win situation. Would you agree with that?
    Mr. Pompeo. Senator, I would agree that in most situations 
in the world, with a handful of exceptions, there are 
opportunities to not make the negotiation, the diplomacy, a 
zero-sum game.
    And with respect to China in particular, I know that is 
true.
    Senator Johnson. So to quickly switch to Russia, I think it 
is a historic tragedy that Putin has taken this path. Can you 
describe, in your words, what path has he taken? What are 
Russia's aims?
    Mr. Pompeo. I will take Vladimir Putin at his word, that 
the greatest failure of the 20th century was the dissolution of 
the Soviet Union. I think he believes that in his heart. And I 
think you see his actions follow from that, attempts to regain 
power through--and to maintain his power and maintain his 
popularity through activity taking place outside, by poking 
America, to maintain his not only capability and enormous 
nuclear arsenal, but also his desire to be perceived as such, 
as being perceived as a superpower.
    So I think each of the actions you take are to undermine 
democracy in the West, such that the Soviet model, the now-
Russian model, is the one that is painted to the world as the 
one that will lead the world to greatness. We know that is not 
true, and we can't let that happen.
    Senator Johnson. So to prevent that from happening, we need 
to be fully engaged, particularly in Europe, but anywhere 
Russia is pushing and being aggressive.
    For example, in the Balkans, I have been over to Serbia and 
Kosovo a number of times. I think they are at a hinge point. I 
want to encourage you--I think your Assistant Secretary 
Mitchell has done a great job of certainly encouraging all of 
us to pay attention, so that they decide to continue to look to 
the West because Russia offers them nothing.
    Can you just quickly comment?
    Mr. Pompeo. Senator, I agree. I would add to that, when you 
say everywhere, I would add to locations we see them being 
adventuresome in is Latin America as well.
    So I agree. We need to push back in each place that we 
confront them in by every vector, cyber, economic. Each of 
those tools that Vladimir Putin is using, we need to do our 
best to make sure that he doesn't succeed in what we believe 
his ultimate goal is.
    Senator Johnson. Again, thank you for your willingness to 
serve.
    The Chairman. Thank you. Thank you very much.
    Senator Coons.
    Senator Coons. Thank you, Chairman Corker.
    Thank you, Director Pompeo, for your willingness to step 
forward and once again serve our country, and to your family 
and to you for what has been a long career of public service in 
the United States military, as an elected official, as the 
Director of CIA, and now for this position.
    I appreciated the conversation we had yesterday, and the 
opportunity to follow up on some of the issues we discussed. 
And I am optimistic you would follow through on your commitment 
to fight for the State Department, for USAID, for resources and 
their personnel.
    I think many of us on this committee have heard over the 
last 15 months real concerns about management, morale, budget 
cuts and the State Department, USAID. And I am optimistic you 
would fight for those professionals and you would respect their 
service.
    I am also well-aware that you have a strong and close 
relationship with the President. And as we discussed, I think a 
key role for America's chief diplomat is to advance not just 
our narrow interests, our security or economic interests, but 
to also see our values as being a key part of those interests.
    And I hope that you will both advise the President and, on 
occasion, stand up to him, if he is doing things with which you 
disagree, and that you will ensure that he considers the vital 
role of diplomacy in responding to the threats we face around 
the world.
    So let me just follow up, if I might, for a moment on a 
line of questioning two of my colleagues pursued.
    You are a magna cum laude graduate of Harvard Law School. I 
couldn't get into Harvard. I went to Yale Law School. As such, 
I would assume that you would agree that rule of law is 
absolutely essential to the values that define our democracy. 
Is that correct?
    Mr. Pompeo. Senator, I only spoke publicly six--five times 
as a CIA Director. Each time I spoke publicly, I spoke to--and 
maybe there is an exemption. But each time, I spoke at some 
length about the importance of the rule of law at the CIA, how 
we were a creature of law and how, if we didn't do that, the 
fundamental failure that that would lead to.
    I believed it as a CIA Director. I believed it all my life. 
And I will believe it as the Secretary of State, if I am 
confirmed, as well, Senator.
    Senator Coons. I think you made a strong statement that, if 
confirmed, it would be the seventh time you would raise your 
hand and swear an oath to the Constitution.
    So let me just go back to a line of questioning.
    President Trump described Special Counsel Mueller's 
investigation as an attack on what we all stand for, and he has 
repeatedly threatened to fire Robert Mueller. He has threatened 
the investigation. He has threatened the attorney general in 
his tweets in ways I find troubling.
    Do you believe Special Counsel Mueller's investigation is 
an attack on our country and all we stand for?
    Mr. Pompeo. Senator, I hope you will take--I hope you will 
take this the right way. As the Director of the CIA, I have 
been involved in that investigation. I have worked with 
Senators Burr and Warner and with congressmen on the House 
Permanent Select Committee on Intelligence. I have been a 
participant in Special Counsel Mueller's activity.
    I think anything I say with respect--I just--I want to 
avoid that today. I apologize that I can't speak more fully to 
that, but I hope you will respect the fact that everything that 
I was asked to do in my role as CIA Director related to any of 
these investigations I have done with as much thoroughness, as 
much depth, and as much alacrity as our organization could 
achieve.
    Senator Coons. I am convinced that if the President were to 
fire the Special Counsel, or to interfere with his 
investigation by firing Rod Rosenstein with an intention to 
then interfere with and shut down this investigation, that it 
would put the rule of law genuinely at risk.
    If that were the case and if that happened, would you 
resign your post as Secretary of State in order to demonstrate 
that we are a Nation of laws, not of men?
    Mr. Pompeo. Senator, I haven't given that question any 
thought. My instincts tell me no. My instincts tell me that my 
obligation to continue to serve as America's senior diplomat 
will be more important at increased times of political domestic 
turmoil.
    We have seen this in America before, right? This wouldn't 
be the first time that there has been enormous political 
turmoil. My recollection of the history is that previous 
Secretaries of State stayed the course, continued to do their 
work, continued to do the requirements statutory and 
constitutional that they had.
    Having not given--having not given it a great deal of 
thought, I am confident that that is the path that I would 
take.
    Senator Coons. Well, Director Pompeo, I would urge you to 
give it some thought. Many of us are giving it some real 
thought and have had to do so for months.
    And it is regrettable, I think, that we are in a place 
where we are seriously discussing this rather than diving into 
the policy questions that face us around the world. But I think 
there are moments when our values and what we do teaches to the 
world.
    And whether the right course is to resign or engage and to 
speak out against it and to counsel against it and to then work 
to restore the rule of law, we could debate. But I think it is 
vital that we have as our chief diplomat someone who 
understands our values, as I believe you do, and who is willing 
to fight for them, even by taking dramatic steps, like a 
resignation, in order to signal vigorous disapproval of what 
the President has done or might do.
    Let me move on to another area, if I might.
    When discussing Saddam Hussein, President Trump has said, 
and I quote, ``He was a bad guy, a really bad guy. But you know 
what he did well? He killed terrorists. He did that so good. 
They didn't read them their rights. They didn't talk. They were 
terrorists. It was over.''
    And while we could debate whether or not Saddam Hussein was 
a good guy or a bad guy, I think it is important--this is 
another example, much like something we discussed, the 
President of the Philippines and his conduct, where challenging 
an ally or challenging the historical record on behalf of our 
rights is important, and our values.
    So to what extent do you think that actions that curtail 
humans rights and erode processes like due process and the rule 
of law by foreign governments actually fuels instability, 
strengthens terrorist threats, that when we are perceived as 
being on the side of a quick and violent result, rather than 
the rule of law and a just result, it actually makes us less 
safe?
    Mr. Pompeo. Senator, I think I agree with the--if I 
understood the premise of the question correctly, I think I 
agree with it as laid out, but I will try and repeat it for you 
and see if I got it right.
    I agree. American behavior matters. The way we behave 
around the world, our activities, the things we choose to do 
and not to do matter. They are reflective.
    One of the best memories I have had so far as CIA Director 
is I was with a partner intelligence service leader who had 
been at this a lot longer than I had, and we were walking in a 
dusty place. And the CIA had done great work alongside them. 
They had been a great partner for us as well.
    He turned to me, and he said, ``You know, the most 
important thing that America has done for my team? It is great 
that you give us some help. It is great that you teach us some 
technology and some tools. The most important thing you have 
done for us is you have set an example. You see officers 
behaving professionally, having boundaries, existing under the 
rule of law, communicating. All the professional behavior that 
your officers have exhibited has been the most important thing 
you have done for our organization. You have made us better.''
    And so to your point, I think that is an example where, put 
aside the policy or the work we did, the substantive work we 
did, it was America's norms that had proven truly valuable to 
this foreign partner. I was incredibly proud to be the 
Director.
    Senator Coons. I am glad to hear that example and to hear 
you repeat our shared commitment to the rule of law as a core 
American value. But I do think that we are in a time when we 
are going to have to confront questions about what we are 
willing to do in order to demonstrate our fealty to the rule of 
law as a foundational principle of our country.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Just to give everyone a state of play, it is my 
understanding we may have a vote at 2 o'clock, so we won't have 
one soon. It is my plan just to keep going.
    So until that time, if our witness needs to take a break 
for other reasons, Mary Elizabeth, just text Todd, and we will 
make that happen.
    And with that, Senator Flake.
    Mr. Pompeo. Any good diplomat can outlast the folks he is 
talking to, Senator. [Laughter.]
    The Chairman. I noticed you haven't been drinking any 
water. [Laughter.]
    Senator Flake. Thank you, Mr. Chairman.
    And thank you, Director, for the testimony so far. I had to 
pop out for another hearing, so I apologize if I plow any old 
ground.
    But can we talk about Iran for a minute? With the JCPOA, 
Iran has already realized much of the benefit from this 
agreement, in terms of money being released. Is that correct?
    Mr. Pompeo. They have received great benefit from the 
JCPOA, economic benefit from the JCPOA. Yes, that is correct.
    Senator Flake. If we were to somehow get out of the 
agreement, would there be an attempt to claw some of that money 
back?
    Mr. Pompeo. Senator, I haven't considered that.
    Senator Flake. I do not think that is a----
    Mr. Pompeo. I would think that unlikely.
    Senator Flake. Yes.
    Mr. Pompeo. There is not a tool inside the agreement to 
achieve that.
    Senator Flake. Right. That is my understanding, as well.
    So, in effect, Iran has already realized much of the 
benefit from the agreement. But if we were to exit the 
agreement now, we would give them reason to renege on the 
agreements that they have made on the nuclear side. Is that 
right?
    Mr. Pompeo. Senator, they are still receiving enormous 
economic benefits, even as we sit here this morning. So there 
is continued--so there is continued interest on the part of 
Iran to stay in this deal. It is in their own economic self-
interest to do so.
    And I guess I would add, Iran wasn't racing to a weapon 
before the deal. There is no indication that I am aware of 
that, if the deal no longer existed, that they would 
immediately turn to racing to create a nuclear weapon today.
    Senator Flake. My concern is certainly that they have 
realized the benefits of the agreement.
    In the end, I voted against the agreement. I applauded the 
last President for negotiations. I thought that it should have 
been presented as a treaty before this body. I think it would 
have been a better agreement, and something that I could have 
supported.
    But now that it is in effect, and Iran has realized the 
benefits of it economically, I think that we ought to think 
long and hard about giving Iran now the ability, if we exit the 
agreement, to continue on, on the nuclear side and not uphold 
the obligations that they agreed to under the treaty. I know 
that is being considered.
    And then the other, with regard to North Korea, I am happy 
that the President is talking, that discussions at the highest 
level are had. I have always agreed that Presidents and 
Secretaries of State and others ought to talk to rogue leaders. 
But I am concerned, I think a lot of Americans are, that these 
discussions that usually take place in that regard at the head 
of state level are preceded by a lot of negotiations, meetings, 
and deliberation by people like yourself and your able 
diplomats, who, if you are confirmed, you will have at the 
State Department.
    Do you have some of those concerns as well, that this first 
meeting that is being discussed will take place perhaps 
prematurely before the hard negotiations that must be done by 
skilled diplomats simply will not have been done?
    Mr. Pompeo. Senator, there is work being done today in 
preparation for the President's proposed meeting with Kim Jong-
un. So the American people and you should know, there is work 
being done in preparation for that.
    The President's view has been, and I agree with him, that 
the model that we have used previously, long negotiations to 
get the two leaders to the table, hasn't happened. We haven't 
had that opportunity to have these two leaders sit together to 
try to resolve this incredibly vexing, difficult challenge.
    So the President has judged that if the two of--there will 
be lots of work to do. No one is under any illusions that we 
will reach a comprehensive agreement through the President's 
meeting. But to enable, to set out the conditions that would 
acceptable to each side, for the two leaders who will 
ultimately make the decision about whether such an agreement 
can be achieved and then set in place, I am optimistic that the 
United States Government can set the conditions for that 
appropriately, so that the President and the North Korean 
leader can have that conversation and will set us down the 
course of achieving a diplomatic outcome that America so--
America and the world so desperately need.
    Senator Flake. Is there some concern that exiting the Iran 
agreement might play poorly with regard to a possible agreement 
with the North Koreans? It would seem that, if you are the 
North Korean leader or negotiators on that side, they might be 
concerned about our reliability, in terms of signing an 
agreement, if the next President can simply exit it.
    Mr. Pompeo. Senator, while I will concede we do not know 
precisely what Kim Jong-un is contemplating, how he is thinking 
about his option set today, I have read lots of the analysis 
with respect to what his concerns--how he is thinking about the 
challenges he faces today with the enormous economic pressure 
that has been placed upon him. And the list of things that he 
is thinking about do not involve other deals throughout 
history. It is not--it is not the case he is focused on how--
did we pull out of the START Treaty?
    He is thinking about how it is he can set conditions so 
that we--while we talk about complete, verifiable, reversal of 
his nuclear program, he is thinking about the sustainment of 
his regime. What are the tools, what are the assurances that 
can be put in place that aren't reversible? He is going to be 
looking for something more than a piece of paper. He is going 
to be looking for a set of conditions to be put in place so 
that he can undertake a task of denuclearizing his country 
that, for decades, no one believed could occur.
    Senator Flake. Thank you. Turning to Africa for a minute, 
Senator Coons and I just traveled to four countries in Africa, 
including Zimbabwe.
    Zimbabwe is going through a transition, and they have a new 
leader. Elections are scheduled for July and August. And we 
don't have an Ambassador there.
    Will you commit to ensure that we have an Ambassador on the 
ground--and a lot of that depends on us, but we move tend to 
move it through as quickly as we can in this committee--but an 
Ambassador on the ground in Zimbabwe when that transition 
occurs, when the elections are held?
    Mr. Pompeo. Yes, Senator. It will, actually, in the first 
instance, depend on me and the President to get a nomination to 
you, and I commit to doing that post haste, if I am confirmed.
    Senator Flake. Thank you. I will take offline some 
additional questions on Cuba. We have had some private 
discussions on this.
    I am concerned, in a similar vein, that we have just a 
skeletal staff there in the Embassy, given the issues that 
occurred there. But I think that it is an important time there. 
We are going any a non-Castro head of state for the first time 
later this month.
    Mr. Pompeo. Yes.
    Senator Flake. So anyway, if we could beef that staff up, 
it would be great as well. Thank you.
    Mr. Pompeo. Thank you, Senator Flake.
    The Chairman. Thank you.
    Senator Udall.
    Senator Udall. Thank you very much, Mr. Chairman.
    And thank you for your service, Director Pompeo. And we 
really appreciate having your family here, and look forward to 
you answering our questions.
    I want to follow up. I have worked with Senator Flake quite 
a bit on Cuba, and follow up on the Cuba issue. Cuba is about 
to choose its first leader who is not a Castro. Yet, the U.S. 
presence in the country has been reduced significantly. And as 
a result, other countries are filling this vacuum.
    Will you work to help improve ties with Cuba, a 
relationship that benefits many States hoping to increase trade 
with the island? As you know, when I visited with you in my 
office, I talked about how many Governors have gone to Cuba 
with their agricultural folks, and said we--Cuba has 11 million 
people. We want to sell food products to them, agricultural 
products to them.
    So will you work to improve ties with Cuba?
    Mr. Pompeo. Senator, I recall joking with you about Kansas 
wheat.
    The answer to your question is, yes. Senator Flake had 
asked about the diplomatic presence there. I think everyone is 
aware of some of the concerns, but I will assure you, and I 
will assure Senator Flake, as well, we will, consistent with 
making sure we can keep these folks safe, we will build out a 
team there that will deliver American diplomacy to Cuba in a 
way that represents the finest of America.
    Senator Udall. Now, as you know, U.S. internet companies, 
Cuba has very, very little internet capacity. And this is one 
of the things that I think really could open Cuba up to the 
world.
    Do you believe United States companies should lead the 
effort to help bring the internet to Cuba?
    Mr. Pompeo. Senator, that question sounds like there may be 
something buried there that I may not be aware of. So if I 
might----
    The Chairman. There is. [Laughter.]
    Senator Udall. Now, come on, Mr. Chairman.
    Mr. Pompeo. So at the risk of demonstrating ignorance, I 
would prefer the chance to talk to my experts at the State 
Department and work my way through it.
    Senator Udall. Okay. And there is not really a trick there. 
I mean, I have worked with a number of members of this 
committee and others outside the committee to try to push the 
effort to have the internet be a big part of our first push in 
Cuba.
    As you know very well, and we talked about this in my 
office, too, the State Department and the Defense Department 
work hand-in-glove on these crucial issues. The job of the 
State Department is to try to make sure we don't get into 
unnecessary wars. Your work, I think, is to work hard at 
diplomacy, search for peace, do what we can, and make sure that 
we don't get into another war.
    Are you committed to robust diplomacy, as our Ranking 
Member Senator Menendez talked about, and committed to do 
everything you can to prevent future wars?
    Mr. Pompeo. Yes, sir.
    Senator Udall. Thank you.
    I am going to follow up also on several members, on the 
Iran deal. Director Pompeo, the Iran deal has effectively cut 
off all pathways to an Iranian nuclear weapons program. 
Compliance has been certified repeatedly by the International 
Atomic Energy Agency and both Israeli and U.S. intelligence 
agencies, one which you oversee. Yet, you have said that, and I 
quote here, ``Iran will have the freedom to build an arsenal of 
nuclear weapons at the end of the commitment.''
    However, even when the Joint Comprehensive Plan of Action 
sunsets under the current deal, Iran will still remain a 
signatory of the Non-Proliferation Treaty and a party to the 
IAEA's additional protocol. IAEA inspectors are not going 
anywhere. And if they did, the United States and the global 
community would have ample time to react to any breakout. In 
fact, the international community, through the Secretary 
General, spoke out as to the importance of the JCPOA very 
recently.
    This position, in light of your apparent support for U.S. 
policy of regime change in Iran, really, the contrast there 
really upsets me.
    In 2014, you said you would have preferred military strikes 
to the JCPOA, and I quote here, this is your quote, ``It is 
under 2,000 sorties to destroy the Iranian nuclear capacity. 
This is not an insurmountable task for the coalition forces.''
    Is this your current position? And are you for a first 
military strike?
    Mr. Pompeo. I am not, Senator. I am absolutely not. I don't 
think that is what I said that day. I would have to go back and 
review, with respect to the quote that you provided.
    I know a little bit more about what it would take today. 
But in terms of what I described as the capacity to achieve 
what I was speaking to that day, I think I am still pretty 
close.
    But there is no doubt that this administration's policy and 
my view is that the solution to preventing Iran from getting a 
nuclear weapon, to finding ourselves in the same place we are 
in North Korea in Iran, is through diplomacy.
    Senator Udall. Do you have any evidence to dispute the IAEA 
assessment that Iran is in full compliance with the JCPOA?
    Mr. Pompeo. Senator, with the information that I have been 
provided, I have no--I have seen no evidence that they are not 
in compliance today. I think your question is, do you have any? 
The answer is no.
    Senator Udall. Yes. And I would just hope--I am very near 
to the end of my time here. I would just hope that you 
understand that the international community and the United 
States working together is what got us to the point where we 
are. And so I think it would be very unfortunate if we are the 
one that pulls back and sets the stage for a very chaotic 
future.
    Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Pompeo. Thank you, Senator Udall.
    The Chairman. Before turning to Senator Cardin, on that 
note, do you have any sense that, Chancellor Merkel and 
Macron's visits here, will that subject matter be discussed? 
They will be here before May 12th.
    Mr. Pompeo. Senator, I have not seen the agenda, but I 
would be shocked if it didn't come up.
    The Chairman. And so there is still the possibility of the 
three that matter coming together on a framework. And as we get 
closer to that time, maybe people will be a little more focused 
on that occurring.
    Mr. Pompeo. Senator, having had some interactions with my 
European counterparts, I am confident that issue will be 
discussed at some length. It is important to them, and I know 
they will raise their hopes and concerns when they travel here 
to the United States in the coming days.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Director Pompeo, congratulations on the nomination.
    To your family, thank you for your commitment to service. 
This is no easy task that you are about to take part of, and I 
appreciate your willingness to serve our country once again. 
Thank you.
    Director Pompeo and I had an incredible opportunity to 
serve together on the House Energy and Commerce Committee for a 
numbers of years.
    Mr. Pompeo. We were with Senator Markey.
    Senator Gardner. There are several of us on this committee.
    And we had the opportunity to sit next to each other, to 
work together, and I can tell my colleagues on the committee 
that there is no one who came better prepared with more 
understanding of the issues and always looking for a creative 
answer. And the diligence that he pursued that work to find 
that creative solution I think is something that I always 
admired about his work in the House. I know that continued as 
Director of the CIA and will continue upon his confirmation at 
the State Department.
    I have one request, Director Pompeo, that is very important 
to me. As Secretary of State, Kansas will have no greater 
authority over water than they do right now--so anyway, we 
won't get into water fights between Colorado and Kansas right 
now.
    I would like to submit, for the record, if I could ask 
consent to submit a letter written by former senior government 
officials with national security experience and administrations 
of different parties or on Capitol Hill, people including 
General Alexander, Michael Allen, Jeremy Bash, General Mukasey, 
ask, for the record, it to be submitted.
    The Chairman. Without objection.


    [The material referred to above is located at the end of 
this transcript beginning on page 278.]


    Senator Gardner. Thank you, Mr. Chairman.
    Director Pompeo, you and I have had a number of 
opportunities to talk about Asia. And if you look at Asia, it 
was written once that this is the most consequential region for 
America's future. The largest armies in the world will camp in 
Asia. The most powerful navies in the world will gather. Over 
one half of the world's commerce will take place. Two-thirds of 
the world will travel. Five of America's seven defense 
treaties, located in Asia. It is the region where two 
superpowers will compete to determine which world order will 
prevail.
    Director Pompeo, several us on the committee, Senator 
Markey, Senator Rubio, and I, are working on legislation that 
would help speak with one voice, the administration and the 
Congress, when it comes to Asia, creating a reassurance 
initiative that will allow us to focus on three areas: economic 
matters; security matters; rule of law, democracy matters.
    Over the last Congress, we held a numbers of hearings, 
focusing on those three areas, and in addition, a fourth 
hearing that focused on this reassurance initiative and our 
effort to understand the future of the U.S.-China relationship, 
something that at times has been described as a Thucydides Trap 
by both Graham Allison and I believe President Xi when he was 
here.
    Director Pompeo, do you believe it is important that 
Congress and the administration speak with one voice as it 
relates to Asia and our Asia policy?
    Mr. Pompeo. Senator, I do. You shared the outlines of that 
legislation to me. I look forward to working with you to see if 
we can get it right and do good for America by joining together 
to accomplish that.
    Senator Gardner. Can you share with me some of the 
priorities you think should be in a comprehensive Asia policy?
    Mr. Pompeo. Goodness. So step one, obviously, is diplomacy, 
making sure that there aren't mistakes, that we don't talk past 
each other. We don't end up--you talked about Thucydides Trap. 
The ability to avoid that almost certainly depends on the 
capacity for the two nations to speak to the things that they 
have as their central interests, their core interests, and then 
those things that are second-order importance, where 
cooperation will be the mark of the day. I think diplomacy 
leads that effort.
    As I think we would all agree, absent a strong America, the 
rest of the things pale in comparison. We have to make sure we 
have robust economic growth. The underpinnings of our capacity 
to have the leverage to achieve good diplomatic outcomes depend 
on that. And so we need to be sure that America does the things 
it needs to do so we have not just 2018, 2019, and 2020, but a 
long-term horizon of economic prosperity.
    Senator Gardner. I think you would agree with me as well 
that the creation of a long-term policy, a generational policy, 
so to speak, on Asia, an Indo-Pacific strategy, is what we 
need, not just a 4-year, 8-year presidential-term strategy.
    Mr. Pompeo. That is right. That is why what you describe is 
important, because when questions get asked about China, we can 
never forget that they live in a complicated region with lots 
of countries with widely varying interests, and a Chinese 
Government that is intent on expanding their capacity to have 
not only economic influence in those countries, but using that 
economic tool to achieve political influence in those 
countries, as well.
    We need a thoughtful, long-term strategy that prevents that 
from taking place.
    Senator Gardner. We will get into China a little bit more 
either now or during the next round of questions, but I think 
it is important to note that, even today, China has announced 
live-fire exercises in the Taiwan Strait. We have seen the 
clear militarization of the South China Sea. And these are just 
a few of the challenges we have that have been lingering for a 
number of years, but, certainly, increasing in their importance 
today.
    I want to shift right now, though, to North Korea. Do you 
agree with Secretary Mattis that North Korea is the most urgent 
security threat the United States faces?
    Mr. Pompeo. I do.
    Senator Gardner. This committee has led the efforts over 
the past several years to increase maximum pressure on North 
Korea and Kim Jong-un regime with passage of legislation, the 
North Korea Sanctions Policy Enhancement Act, and also working 
together to assure maximum pressure is applied.
    Senator Markey and I have introduced legislation known as 
the LEED Act, the Leverage to Enhance Effective Diplomacy, 
which would impose a trade embargo on Pyongyang and its 
enablers.
    Will the administration's maximum pressure and engagement 
policy mean a continued pursuit of third-party entities and 
financial institutions who engage in significant trade with 
Pyongyang?
    Mr. Pompeo. Yes.
    Senator Gardner. Will you commit to advance this LEED Act 
and others like it that include mandatory sanctions against 
these entities?
    Mr. Pompeo. Well, I am not familiar with the details.
    Senator Gardner. It is a great bill. [Laughter.]
    Mr. Pompeo. The President has made clear, the continuation 
of the pressure campaign is the tool that enables the 
opportunity to achieve a successful diplomatic outcome in North 
Korea.
    Senator Gardner. And, briefly--we have about a minute left 
here--can you share with me the exact goals of the presidential 
summit between the United States and North Korea?
    Mr. Pompeo. Yes, I believe I can. It is to develop an 
agreement with the North Korean leadership, such that the North 
Korean leadership will step away from its efforts to hold 
America at risk with nuclear weapons, completely and 
verifiably.
    Senator Gardner. To be clear, again, the only goal the 
United States has as it relates to North Korea is the complete 
and verifiable, irreversible denuclearization of the North 
Korean regime.
    Mr. Pompeo. I want to be careful about ``complete.'' North 
Korea also has a significant military arsenal, one of the 
largest armies in the world. We need to ensure that we continue 
to provide a strategic deference framework for our allies in 
the region, the South Koreans, the Japanese, and others as 
well.
    But the purpose of the meeting is to address this nuclear 
threat to the United States.
    Senator Gardner. And our goal remains, the complete and 
verifiable, irreversible denuclearization.
    Mr. Pompeo. Yes, sir. That is correct.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Director Pompeo, congratulations for this nomination.
    During the negotiation over the Iran nuclear deal in 2014, 
you opposed the deal and you stated, ``It is under 2,000 
sorties to destroy the Iranian nuclear capacity. This is not an 
insurmountable task for the coalition forces.''
    A number of people opposed the deal, but you were somewhat 
unique in publicly venturing the thought that military action 
might be preferable to a deal or easier than some folks were 
suggesting.
    Where did you get the notion that destroying Iran's nuclear 
capacity could be accomplished with 2,000 air sorties?
    Mr. Pompeo. Senator, it was based on things that I had 
learned as a Member of Congress.
    Senator Kaine. Your military career and as a member of the 
House Intel Committee?
    Mr. Pompeo. Senator, yes. I think that is right. I am 
trying to remember the timing of the statement. I think I would 
have been serving on the Intelligence Committee, at that point 
in time.
    Senator Kaine. Would you have--at the time, did you have 
any reluctance to share that assessment publicly? That seems 
like a pretty specific sort of assessment. To say I am 
confident in our capacity, is one thing. To publicly discuss 
that it would be 2,000 sorties to wipe out the Iranian nuclear 
capacity struck me as odd.
    Did you have any reluctance to share that, at the time?
    Mr. Pompeo. Senator, that wasn't--no classified information 
was contained in that simple statement.
    Senator Kaine. Wouldn't that sort of specificity probably 
rely on an awful lot of classified information or----
    Mr. Pompeo. Senator, 2,000 is a pretty big, round number. 
This was--this was--there was no effort here to make any--it 
might have been 1,000. It might have been 3,000, all right? 
There was no aim to communicate it.
    But I actually, to your point----
    Senator Kaine. Well, you weren't trying to be inaccurate in 
your----
    Mr. Pompeo. No, Senator. Absolutely not. I never try to do 
that.
    But if I might, and we may disagree about this, Senator, I 
do think it is important--I absolutely think it is important to 
provide diplomats with the opportunity to be successful. 
Countries that are adverse to us do not often accede to our 
desires absent a rationale for doing so, right? So diplomats--
--
    Senator Kaine. Let me ask you----
    Mr. Pompeo. Diplomats without any strength, diplomats 
without any capacity, are just sitting there talking.
    Senator Kaine. And I agree. I think stating that we have a 
lot of capacity is one thing. I was just struck by the 
specificity.
    Would it be your norm to share that kind of information 
publicly in such specific detail?
    Mr. Pompeo. Senator, I am confident, if I had done it 
multiple times, you would raise them with me here today.
    Senator Kaine. Your assessment, I wonder whether your 
assessment, did you assume that Iran might respond to an attack 
by the United States, or were you just assuming that they would 
do nothing?
    Mr. Pompeo. Senator, I don't know that I was--I don't know 
in the context of that statement that I was thinking about----
    Senator Kaine. But you would agree with me that the extent 
of force that the U.S. would need to use to destroy Iran's 
nuclear capacity would depend pretty significantly on whether 
Iran would fight to protect against an attack on its own soil.
    Mr. Pompeo. Yes, sir. Absolutely, Senator.
    Senator Kaine. And then you venture that the attack would 
not be an insurmountable task for coalition forces. And I 
curious that, too.
    Most of our coalition forces in 2014 were sitting around 
the table with us, trying to do a peaceful negotiation to end 
Iran's nuclear capacity. It sounds as though you had confidence 
that the U.S. could not do a deal and then convince coalition 
partners to join us in bombing Iran.
    I am curious what coalition partners you were thinking 
about as you made that comment.
    Mr. Pompeo. Senator, I wasn't--I wasn't thinking of any 
particular coalition partners when I made that statement.
    Senator Kaine. Okay. Those comments when I heard them about 
the relative ease of a war against Iran reminded me of the run-
up to the Iraq war. Vice President Cheney said we would be 
greeted as liberators. The President said there were definitely 
weapons of mass destruction. Secretary Rumsfeld said the 
invasion would largely be self-financing and would last ``5 
weeks or 5 months. It is certainly not going to last any 
longer.''
    Of course, we know that the cost to the United States was 
4,400 soldiers dead, 500,000 Iraqis dead, a price tag now 
topping $3 trillion, and unprecedented turmoil in the region. 
And most of those facts were known at the time that you made 
that statement in 2014.
    Let me say this, I am one of two Senators who serve on the 
both the Foreign Relations and the Armed Services Committees. I 
represent a State that is deeply committed to the Nation's 
military mission. I have a son in the military. I honor your 
military service, your entire public service.
    I think my mission on these two committees is sort of two 
things: dramatically reduce the risk of unnecessary war; raise 
the probability that we decisively win any war that we need to 
be in.
    I also firmly believe that we shouldn't be at war without a 
vote of Congress. And your actions as a House Member suggest 
that you and I probably see this somewhat the same way.
    In 2011, I criticized President Obama for putting us into 
military action against Libya without a vote. And you voted 
twice to oppose military action unless it was authorized by 
Congress.
    In 2014, President Obama came to this committee to ask for 
the military authority to strike Syria. You supported that in 
the House. I supported it here in the Senate. The committee 
supported it.
    Now, President Trump has fired--ordered missile strikes 
fired at Syria last year. He didn't seek congressional 
approval. The U.S. conducted airstrikes against the Syrian 
military in February without congressional approval.
    The President is tweeting that he might do additional 
military strikes in Syria now, and he is also aiming words 
directly at Russia.
    As far as I know, Syria has not declared war against the 
United States.
    Has Congress given the President specific authority to wage 
war against Syria?
    Mr. Pompeo. Senator, I think you and I actually do share 
similar bias for the executive and legislative branches both to 
be involved when such momentous decisions about war are 
undertaken.
    Now that I am in the executive branch, my views on that 
have not changed.
    Senator Kaine. And you would agree with me that waging war 
requires a both a domestic and an international legal 
justification?
    Mr. Pompeo. Yes. Yes, Senator, I would.
    With respect, you asked--I don't want to dodge your very 
specific question. You asked about Syria.
    For a long time, multiple administrations have found that 
the President has authority to act and take certain actions 
without first coming to Congress to seek approval. Whether it 
was Kosovo, the list from Democrats and Republicans is long and 
like.
    Senator Kaine. Let me ask----
    Mr. Pompeo. Just to close, I share your view. In each case 
where it is--where we can, America and our soldiers and 
sailors, airmen and marines are better off if we have the 
entirety of the United States Government working together in 
having authorized the activity.
    Senator Kaine. For the past year, I have been trying to 
secure the administration's detailed legal justification for 
last April's strikes on the Shayrat military base in Syria. The 
administration has not fully provided it. And there is 
reportedly a memo that is laying out a description of what the 
President or the administration feels are the appropriate 
executive powers.
    Would you support the release of the unclassified portion 
of that memo to Congress so that we can see what the President 
thinks his powers are and engage in a productive dialogue about 
that?
    Mr. Pompeo. Senator, I learned about this memo. I think you 
shared it with me. I was unaware of that. I promise I will work 
alongside you to do the best I can to get you that information. 
And if it is a classified version of it that you have a right 
as a member of the legislative branch to see, I will work to 
get you that. And if it is an unclassified version, we will 
work to achieve that as well.
    Senator Kaine. Excellent. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Before turning to Senator Young, so then, specifically, a 
surgical strike against--let's just use the last one that 
occurred with 59 Tomahawk missiles. Do you believe that does 
require an authorization from Congress?
    Mr. Pompeo. Senator, multiple administrations have taken 
those kinds of activities under the President's authority.
    The Chairman. Yes. So I was ranking member when our 
chairman and I and the committee wrote an authorization for the 
use of force against Syria, that, unfortunately, was not used 
and has changed the course of history, unfortunately, and 
displaced millions of people and hundreds of thousands of 
people are dead. And not to say that that would have 
necessarily prevented all of that, but it certainly would have 
changed the trajectory significantly.
    I agree with you, and I have shared that with the President 
just in the last very short period of time, that I do not 
believe that should he choose to take a surgical strike against 
Syria, that an authorization from us is necessary, just based 
on a body of evidence that we have and the things that have 
occurred in the past.
    And I, like you, opposed strongly what we did in Libya. And 
I think that is complicating our efforts in North Korea, 
because of obvious reasons.
    So with that, Senator Young?
    Senator Young. Welcome, Mr. Director. Congratulations on 
your nomination.
    My point of emphasis, as I start here, won't be on trying 
to identify some areas of principled disagreement. I suspect, 
if we worked hard enough, we might be able to find some of 
those. But I want to emphasize the importance of having a 
smart, experienced individual as our next Secretary of State. 
Based on my time serving with you in the House of 
Representatives, you have certainly checked those boxes.
    And we also need a leader who is credible, not just with 
our own President, but with leaders around the world. And you 
have also checked that box.
    So I want to encourage you, and I anticipate supporting 
you.
    In our March visit in our office, we spent much of our time 
talking about crises around the world. You will certainly be 
immersed in these, should you be confirmed. But we also spent a 
lot of time talking about communication, the level of 
responsiveness of the State Department. And I was quite candid 
with you about my unhappiness from time to time with the 
Department of State and the level of responsiveness I had seen 
over the last year or so, though it has significantly improved. 
There has been an uptick in dialogue between the department and 
my office, and I think this committee more generally, in recent 
months.
    We have an Article One responsibility, which you understand 
very well. This is the committee of jurisdiction that oversees 
the State Department. And I just want to get you on record 
here.
    You indicated in your prepared statement that you are 
prepared to pick up our calls on the first ring. I think that 
is exactly the sort of message that you ought to be sending.
    So to be clear, do you commit to ensure that the Department 
of State provides timely and responsive answers to me and my 
office?
    Mr. Pompeo. Senator, as the CIA Director, I adopted the 
Leon Panetta model, which was, more time, more cups of coffee, 
have real interactions, whether you agree or disagree with a 
particular Member. To do that and to provide the committee the 
documents to which they are duly entitled as elected officials, 
I promise to do that for you.
    Senator Young. That is refreshing. Thank you.
    Mr. Director, do you agree that the U.S. national 
security--our national security depends in large measure on a 
vibrant and growing economy?
    Mr. Pompeo. I do.
    Senator Young. In your prepared testimony, you mentioned 
China's systematic policies of stealing our intellectual 
property, of forced technology transfer, and associated 
activities. You also mentioned just moments ago that China is 
using mostly economic tools against us to achieve broader 
geopolitical, geostrategic ends.
    Do you believe these policies by Beijing have already 
undermined and, if they continue unabated, will continue to 
undermine our ability as a country to realize our potential for 
economic growth, to incentivize investment in key technologies 
and key sectors of our economy, and to sustain the financial 
wherewithal that is required to defend our country and advance 
our values worldwide?
    Mr. Pompeo. Yes, Senator, I do. I think those risks are 
real. I think they are on us today. That is, I think we are in 
the midst of that. This is not some future risk that is 
presented to the country. I think we have to confront it today.
    Most directly on point is the enormous amount of 
intellectual property that has left the hands, sometimes taken, 
sometimes coerced out of the hands of U.S. companies. The 
imagination, creativity of the American workforce has delivered 
it, and the Chinese have taken it away from us. We have to 
develop a robust set of tools--there are a bunch of tools that 
we need, and to do that well, such that we can prevent that 
from continuing to happen in the future.
    Senator Young. Relatedly, earlier, you spoke of the need 
for, my words, a China strategy. So my sense is, you believe we 
need a whole-of-government, well-coordinated, informed, 
strategic response to China's coercive, illicit, and deceptive 
economic and trade practices.
    Is that correct?
    Mr. Pompeo. That is correct, Senator Young.
    Senator Young. I do, too. That is why I intend to introduce 
this month some legislation on this very topic.
    I am going to require, through this legislation, working 
with my colleagues and the administration, the periodic 
production of a national economic security strategy. I welcome 
the opportunity to work with the administration, you, in 
particular, and any colleague who shares these goals.
    I think we will get this across the line. It is needed now 
more than ever.
    Do you believe that a U.S. response, Mr. Director, to China 
will be more effective if we assemble a multilateral coalition 
of allies and key trade partners who also suffered, due to 
Beijing's economic policies and trade practices, to create a 
unified international front to apply maximum pressure on 
Beijing to achieve our objectives, as opposed to a merely 
bilateral dynamic, which I perceive we have now?
    Mr. Pompeo. I agree with that. I mean, conceptually, if we 
can get the countries of Southeast Asia, more broadly in Asia, 
and others to jointly set up a framework that achieves what it 
is that you have described as our objective, we are far more 
likely to achieve most or all of it.
    Senator Young. Mr. Director, given the challenges we 
confront with Russia, Iran, North Korea, China, and beyond, do 
you believe our Nation's need for effective diplomacy will 
decrease in the coming year or 2?
    Mr. Pompeo. Senator, that seems unimaginable. But if I am 
good enough, I am hopeful that we can begin to take some of 
these challenges away.
    I was mindful, I had all the former CIA Directors in, 
nearly all of them attended. And to a person, they had been 
there, some of them, 20 and 25 years ago. They said, Mike, the 
stack has only gotten longer. We have not pulled one of these 
problem sets from the pile.
    And we need to do that. We need to start to solve some of 
these.
    Senator Young. So your response, though humorous, actually 
is something I would like to shine a light on. Because the 
previous occupant of the Secretary of State position once 
indicated that part of the rationale behind his funding request 
for the Department of State was that there would be less of a 
need, on account of highly effective, near-term diplomacy, for 
as much funding.
    Now, any large organization here in Washington or beyond 
can be made more efficient, and we can identify funding 
decreases that might be made. But I would regard it as a risky 
strategy to assume that your highly effective diplomacy is 
going to be a strong rational for funding cuts.
    Are you operating under the premise that highly effective 
diplomacy will lead to lower funding requests in the 
international account?
    Mr. Pompeo. No. When I said that I am optimistic, I 
hopeful. This is the task in which we are engaged, but I can't 
see anything in the 6- or 12- or 24-month time horizon that 
would permit us to have any less demand for diplomatic 
resources.
    Senator Young. That strikes me as responsible. Thank you, 
sir.
    The Chairman. Thank you.
    Former House Energy Committee cohort to the witness, 
Senator Markey.
    Senator Markey. Thank you. Along with Senator Gardner and 
many others, many, many members.
    So welcome, sir.
    Mr. Pompeo. Thank you.
    Senator Markey. I want to talk about the threat of nuclear 
war.
    In North Korea, I am glad to hear that you believe that we 
should exhaust all options before resorting to military 
conflict. I agree with you. But I do not believe that we have 
yet exhausted all options. You have spoken about setting 
conditions for success in advance of President Trump's meeting 
with Kim Jong-un, and I am right now very concerned that the 
lack of a coherent policy in North Korea could lead to a very 
poor meeting.
    And if that meeting goes poorly, some might reach the 
conclusion that both economic pressure and diplomatic 
engagement have failed. National Security Advisor John Bolton 
has recently outlined the case for preventative military 
strikes on North Korea.
    Are there any conditions under which you would support 
preventative military strikes against North Korea as Secretary 
of State?
    Mr. Pompeo. Senator, thanks for the question.
    That phrase, ``preventive military strikes,'' has a long 
history. Lots of folks have different views. I want to be 
careful. There is a legal view. There is preemption. I want to 
stay away from the legal.
    Let me give you my judgment, my diplomatic and national 
security judgment, on that. I want to start with the predicate 
of your question.
    While I don't want to speculate or hypothesize on how the 
negotiation might go, it is my full anticipation that however 
that meeting goes, there will be enormous diplomatic work yet 
remaining. To your point, we have not yet exhausted our 
capacity there. I think there is an awfully long way to go.
    The President has made clear, and I agree with him, that 
there may come that day. There may come the day when we see an 
arsenal of nuclear weapons capable of striking the United 
States of America. The President has made clear his intention 
to prevent that from happening. And to the extent that 
diplomatic tools and other tools that America has as its 
foreign policy power are unsuccessful, I know that Secretary 
Mattis has been directed to present to the President a set of 
options that will achieve the President's objective.
    Senator Markey. Right. Secretary Mattis has said that we 
are never out of diplomatic options. And let me get your 
response to this, because they are going to be some who make 
that recommendation, that we have tried our diplomatic and 
economic sanctions, and Kim was absolutely unresponsive in this 
meeting with the President.
    Let me remind you that the Pentagon has stated that, ``The 
only way to locate and destroy with complete certainty all 
components of North Korea's nuclear weapons programs would be 
through a ground invasion.''
    And as you know, projections for a conventional war on the 
peninsula estimate that between 30,000 and 300,000 U.S. 
personnel could die in the first days of a conflict.
    You are a military man. You understand this. Is there any 
circumstance under which you would concur with John Bolton 
that, with the exhaustion of economic sanctions, from his 
perspective, that a ground invasion of North Korea would be 
necessary, in order to rid that country of its nuclear weapons 
program?
    Mr. Pompeo. Senator, I suppose I could hypothesize such 
situations. So I will answer your question as, could I imagine 
one? Yes. Yes, Senator, I could.
    I mean, I suppose it is possible that we would get to the 
condition where--and I think there would be wide consensus on 
this panel--where Kim Jong-un was directly threatening, and we 
had information about his activities. Yes, I can imagine times 
when America would need to take a response that moved past 
diplomacy.
    Senator Markey. Yes, well, I would say to you that the 
consequences of the United States initiating an attack against 
North Korea would be catastrophic----
    Mr. Pompeo. Senator, I agree with that.
    Senator Markey.--if we had not been attacked--if we had not 
been attacked.
    And that is what concerns me about John Bolton. And I think 
the American people will want reassurances from you, that you 
would not consider such an action, because, ultimately, he 
already has nuclear weapons. And it would be catastrophic 
almost immediately, if we decided to make a first strike 
against him.
    So I don't feel comfortable with you not taking that off 
the table, but I would like to move on to Saudi Arabia and the 
123 agreement that is being negotiated with them. Again, I am 
going to quote Mr. Bolton, that civil nuclear cooperation, or 
123, agreements between the U.S. and other countries must 
include the gold standard, a commitment to forgo any uranium 
enrichment or spent-fuel reprocessing, two technologies 
critical to the development of nuclear weapons.
    Do you believe that any agreement that we negotiate with 
Saudi Arabia should, in fact, have a gold standard?
    Mr. Pompeo. Senator, yes. One of my critiques of the 
arrangement we reached with Iran was that it was insufficiently 
close to such a standard.
    Senator Markey. So, I do not feel comfortable with you not 
taking that off the table, but I would like to move on to Saudi 
Arabia and the 123 agreement that is being negotiated with 
them. And, again, I am going to quote Mr. Bolton, that ``Civil 
nuclear cooperation, or 123 agreements, between the U.S. and 
other countries must include the gold standard, a commitment to 
forgo any uranium enrichment or spent-fuel reprocessing, two 
technologies critical to the development of nuclear weapons.'' 
Do you believe that any agreement that we negotiate with Saudi 
Arabia should, in fact, have a gold standard?
    Mr. Pompeo. Senator, yes. One of my critiques of the 
arrangement we reached with Iran was it was insufficiently 
close to such a standard.
    Senator Markey. So, you support the gold standard.
    Mr. Pompeo. I do, and I--while I have not been part of the 
negotiation, Senator, I know that the State Department and the 
Department of Energy are working towards achieving that.
    Senator Markey. Right. So, would you oppose any agreement 
that was less than the gold standard; that is, that ultimately 
permitted for uranium enrichment or plutonium reprocessing 
technology on the soil of Saudi Arabia?
    Mr. Pompeo. Senator, I cannot--I cannot answer that. I can 
imagine that we got close, but not quite to the full definition 
of the gold standard. I do not want to hypothesize. So, the 
answer, I guess, is, yes, I can imagine such a scenario.
    Senator Markey. Well, how you think Iran would respond if 
we pulled out of the agreement with Iran while simultaneously 
agreeing to a deal where Saudi Arabia could receive plutonium 
reprocessing and uranium enrichment equipment? How do you think 
they would respond?
    Mr. Pompeo. Senator, this is precisely my concern with the 
Iran agreement.
    Senator Markey. Right, so that is the question I am asking 
you. What would be the response?
    Mr. Pompeo. Senator, they----
    Senator Markey. If we were providing nuclear weapons 
material to the Saudi Arabians?
    Mr. Pompeo. Yes, Senator, I think they would take it into 
account. And remember, when we are talking about nuclear 
weapons, we are most often talking about multiple components. 
We are talking about fissile material, the capacity to 
weaponize in a delivery mechanism often through missile systems 
today Iran has the capacity to do.
    Senator Markey. Right, but----
    Mr. Pompeo. I am just speaking to the challenge that the 
Saudi Arabians also see----
    Senator Markey. I appreciate that.
    Mr. Pompeo.--from our failure to negotiate a sound 
agreement with Iran.
    Senator Markey. This is going to be a very dangerous 
concoction. If we pull out of the Iran deal, give nuclear 
weapons materials to or permit them to obtain nuclear weapons 
making materials in their country, the juxtaposition of 
abandoning the Iran deal while simultaneously giving their arch 
rival, Saudi Arabia, a sweetheart deal is going to lead to a 
highly combustible condition in the Middle East that is 
avoidable if we reinforce the Iran deal, ensure that it is 
being complied with, while also maintaining a gold standard. 
Otherwise, what the Saudi Arabians are going to want is to put 
on third base with a lead with nuclear weapons construction 
materials. And I think this Administration will be making a 
terrible mistake if it negotiates a deal that allows the Saudi 
Arabians to do that.
    Thank you, Mr. Chairman.
    Mr. Pompeo. Thank you, Senator Markey.
    The Chairman. Thank you. Before turning to Senator Isakson, 
we have talked with Secretary Perry, and I could not agree more 
that we need to stress a gold standard. I at the same time I 
understand that, I mean, when you have given Iran the right to 
enrich, everybody in the region is going to want the right to 
enrich. So, you have got your work cut out for you over the 
next period of time, and it is quite a--it is very difficult to 
tell an Arab nation that they cannot when we said that the Shia 
can, so. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. Congratulations 
on your nomination. Best of luck to you, and we will be here to 
support you in any way that we can. I certainly can.
    Mr. Pompeo. Thank you, Senator.
    Senator Isakson. Let me start off by saying thank you to 
the Department, to the State Department, and to this 
Administration on the open skies agreements, which you may or 
may not be familiar with. But if you are not, they are 
essential to the aviation industry and for our country. And 
this Administration and the Bureau of Economic Development at 
the State Department have done a great job seeing to it that 
open skies is enforced. And I hope you will commit when you get 
to the State Department that you will continue that help and 
enforcement.
    Mr. Pompeo. I will, Senator Isakson. Yes, sir.
    Senator Isakson. Thank you very much. Secondly, I think 
Ambassador Haley is gone, but let me say this anyway. I am a 
big fan of Africa, and I have developed an affinity for Africa 
since I have been on this committee, Foreign Relations, and 
traveled there extensively. And I think it is kind of the 21st 
century in many respects for our country and for everybody 
else. China is demonstrating they think it is important because 
they are spending a lot of money and building a lot of 
buildings and things of that nature.
    Strategically, the Straits of Hormuz and many of the 
locations they have, and what has been going on in the Persian 
Gulf where Africa is tremendously powerful, helpful. There are 
a million and a half people there, 150 million alone in 
Nigeria. Lots of opportunity economically, but it is important 
that we focus and help them build, and develop, and grow. Are 
you familiar with the Millennium Challenge Corporation?
    Mr. Pompeo. Yes, Senator, I am familiar with it at some 
level.
    Senator Isakson. Well, I am a big fan. I think President 
Bush did a phenomenal job by establishing that program as sort 
of a partnership economically to help build infrastructure in 
those countries and have developed boards--governing boards of 
the Millennium Challenge accounts that held the African 
countries who receive the investment responsible for ending 
corruption, having better worker laws in their country, and 
being a partner with the United States to economically 
developing their country. So, I hope as Secretary of State when 
you have the chance, you will focus on the Millennium Challenge 
account, Challenge Corporation, and what they are doing because 
it is a great----
    It is part of that soft power that we have the capability 
to use to win a lot of friends and influence a lot of enemies. 
And the reason I use Ambassador Haley as an example, we from 
time to time need a lot of money--votes in the UN. The more 
friends we can make in countries like Africa, the more votes we 
can influence to help us on big issues that we need in the 
United Nations. So, I hope you will focus on Africa when you 
have the chance and realize what the State Department has done.
    Lastly, I want to--this is kind of an editorial statement. 
My experience with the State Department has been that it has 
been in a blue funk for about a year and a half. And one of the 
things, and I told you this when you came to my office, I 
thought there was a real need for a perk or an adjustment and 
for an attitude improvement at the State Department. I think 
you are the opportunity to be that catalyst at the Department. 
To your credit, your critics and your complimenters, or 
whatever that term should be, at the--at the CIA give you high 
marks for bringing that Agency back in enthusiasm, and 
motivation, and in mission.
    And I think your meetings with Mike that you referred to 
you in your opening and your printed statements were exactly 
the seed for them because all of sudden, employers had a chance 
to speak out to you, tell you what they needed to be done. And 
you had the chance in that environment to tell them what they 
could be as a partner with you to help that happen.
    And as I understand it, and I am not shilling for anyone, 
but as I understand it, the attitudes of the State Department 
are the best that they have probably ever been because the 
unity there is strong. And the understanding of the mission of 
the rank and file employees is great. So, I want to challenge 
you to replicate where possible in the State Department that 
same energy and fire that you have at the CIA because the State 
Department needs it desperately. And the State Department is 
our hope for peaceful settlements of difficult problems and 
putting our best foot forward early so we do not have to put 
our biggest foot forward late. And if you can do what you did 
at the CIA at the State Department, you will be a great 
Secretary.
    Would you commit to trying to replicate what you have done 
there already? And please free to brag about yourself. 
[Laughter.]
    Mr. Pompeo. Senator, well, I would like to do just the 
opposite of that. What you have described took place because of 
the talented officers, the expertise, the professionals at the 
Central Intelligence Agency. That is, I had enormous human 
capital with which to build a team. And I know the State 
Department is the same way. I know that the local employees, 
the civil servants, the Foreign Service officers have that same 
esprit, that same desire for mission and to be relevant, and to 
be important, and to do the----
    If you sign up to be a Foreign Service officer, if you 
decide to devote your life to that, you have a special 
commitment. And my task, if I am confirmed, will be to free 
them up to go to do the great work that they signed up to do 
when they came aboard at the State Department. I will work at 
that every day.
    Senator Isakson. Well, you just demonstrated by giving the 
credit to the employees of the CIA exactly why you were such a 
popular director there, and I am sure will continue at the 
State Department. Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much. Senator 
Booker.
    Senator Booker. Thank you, Mr. Chairman. And thank you, Mr. 
Pompeo. I do want to just say, again, I appreciate you coming 
by and showing me the respect and deference, to give me some 
time yesterday so we could talk in private.
    Mr. Pompeo. You are most welcome.
    Senator Booker. I want to pick up on one of the themes we 
talked at length about, and that involves many of your past 
statement concerning Muslim-Americans. And perhaps I just want 
to start with some of your language. In a speech, you talked 
about folks who ``worshiped other gods and called it 
multiculturalism.'' You sort of mourned that we live in a 
country where that happens. Do you have any views that the 
Muslim faith or people who believe in worshiping ``other 
gods,'' is that just something negative in our country?
    Mr. Pompeo. No, Senator, you can look at my record. You do 
not have to take my word for it here today. My record is 
exquisite with respect to treating people of each and every 
faith with the dignity they deserve, to protect their right to 
practice their religion or no religion for that matter in the 
way that they want to. I have done that when I ran Thayer 
Aerospace----
    Senator Booker. My time is limited, so if I could follow 
up.
    Mr. Pompeo. But it--but it is important because I have 
heard--I have heard these critiques, and you raised it 
yesterday. I have worked closely with Muslim leaders, with 
Muslim countries. The CIA has saved countless, thousands of 
Muslim lives during my 15 months. This is--this is at the core 
of who I am, Senator Booker, and I promise you that I will 
treat persons of each faith or no faith with the dignity and 
respect that they deserve.
    Senator Booker. Your words right now are really 
encouraging. Words do matter. It is not just actions. In a 
Nation of bigotry where you see too much bigotry and hatred, 
you and I both know words matter. So, I do understand your 
actions, and I will stipulate to the actions you just said, but 
I really want to get to the bottom of people who are going to 
be reading your past statements and give you a chance to 
further explain them.
    And I would like to go back to what we talked about, you 
and I, about this idea, and I'm quoting you, ``the special 
obligation falls on Muslims in regards to terrorist attacks in 
our country.'' And you said something very dramatic, and I know 
you know this. You said that people who are silent are 
complicit in those terrorist attacks. Do you think that Muslim-
Americans in this country who serve in our military, who serve 
in the State Department, their failure to speak up, is that 
their--are they complicit in terrorist attacks?
    Mr. Pompeo. Senator, each and every human, not just 
Americans, each and every human being has an obligation to push 
back against this extremist use of violence from whatever 
faith.
    Senator Booker. So, you do not create a special class of 
people in this country based upon their religion that have a 
special obligation, as you said, to condemn terrorist attacks.
    Mr. Pompeo. No, Senator. Having said that, and you and I 
had a chance to talk about this yesterday. I am not sure we 
ended up completely agreeing, but perhaps we did. I also do 
believe this firmly, that for certain places, for certain forms 
of violence, there are certain who are better positioned, folks 
who are more credible, more trustworthy, have a more shared 
experience. And so, when it comes to--when it comes to making 
sure that we do not have a terrorist brewing in places where 
Muslims congregate.
    There is a special place, right? They have an--it is more 
than a duty. It is more than a requirement. It is an 
opportunity, right, to be treated--when someone from another 
faith says it, it can get characterized----
    Senator Booker. If I can go on because I have some more 
questions. So, you think that Muslims in America who are in 
positions of leadership have a different category of obligation 
because of their religion. That is what I am hearing you 
saying.
    Mr. Pompeo. I do not see it--it is not an obligation. It is 
an opportunity, Senator.
    Senator Booker. Okay. So, it is interesting because I would 
agree with you that silence in the face of injustice. We have 
seen this in the Holocaust. We have seen this in the Civil 
Rights Movement. I do agree with you that silence in the face 
of injustice lends strength to that injustice. I do have a 
problem, though, when you start creating, dicing up American 
people and saying ``certain Americans.'' I do not care if it is 
Kareem Abdul-Jabbar or Muslims that serve on my staff, that 
they are in positions of leadership that suddenly have a 
special obligation. I do believe, though, all of us when it 
comes to violent actions or even violent words have an 
obligation.
    And so, I am wondering, sir, do you--do you know Frank 
Gaffney?
    Mr. Pompeo. Yes, I do.
    Senator Booker. And you have been on his show dozens of 
times.
    Mr. Pompeo. I was on his show some, yes, Senator.
    Senator Booker. I have here over 20 times. And he has 
talked about Muslims should be--who abide by the adherence of 
their faith should be considered--should be tried for acts of 
sedition and should be prosecuted. Did you remain silent when 
you were on his show? Did you ever question because I have a 
lot of his statements here. Did you remain silent on the--and 
from my notes at least, you are a friend of his. Were you 
silent in your position against these words that are violative 
of the American Constitution? Were you silent with him?
    Mr. Pompeo. Senator, my record on this is unambiguous.
    Senator Booker. Sir, then that is your response, you did 
not say anything to call out his remarks. What about Brigitte 
Gabriel? Do you know her?
    Mr. Pompeo. I do.
    Senator Booker. Someone who has been--runs an organization 
that has been considered a hate group by the Anti-Defamation 
League and the Southern Poverty Law Center. Have you--were you 
silent? Did you ever call her out on her remarks that are 
hateful or bigoted?
    Mr. Pompeo. Senator, I have spoken to a number of groups in 
my--I believe my record with respect to tolerance----
    Senator Booker. But you were----
    Mr. Pompeo. I think----
    Senator Booker. Yes or no, did you ever call her out?
    Mr. Pompeo. Senator, I could not tell you. I do not recall 
each statement I have made over 54 years.
    Senator Booker. Okay. Well, I believe that special 
obligation that you talk about for Americans to condemn things 
or attacking our Constitution or our ideals would obligate you 
in your own definition to speak out. When it comes----
    Mr. Pompeo. Senator, if I might, I have called out. We had 
a terrible fellow in Kansas named Fred Phelps.
    Senator Booker. Sir, I have a minute left in my----
    Mr. Pompeo. And I called him out.
    Senator Booker. I have a minute left because I do want to 
give you a chance to speak about your comments on gay and 
lesbians. You said in a speech that ``mourning an America that 
endorses perversion and calls it an alternative lifestyle'' is 
your words. Is being gay a perversion?
    Mr. Pompeo. Senator, when I was a politician, I had a very 
clear view on whether it was appropriate two same-sex persons 
to marry. I stand by that today, sir.
    Senator Booker. So, you do not believe it is appropriate 
for two gay people to marry.
    Mr. Pompeo. Senator, I continue to hold that view. It is 
the same view for the record that----
    Senator Booker. And so, people in the State Department, I 
met some in Africa that are married under your leadership. You 
do not believe that that should be allowed.
    Mr. Pompeo. Senator, we have--I believe it is the case, we 
have married gay couples at the CIA you should know. I treated 
them with the exact same set of rights----
    Senator Booker. Do you believe--do you believe that gay sex 
is a perversion, yes or no?
    Mr. Pompeo. Senator, if I can----
    Senator Booker. Yes or no, sir. Do you believe that gay sex 
is a perversion because it is what you said here in one of your 
speeches.
    Mr. Pompeo. Senator----
    Senator Booker. Yes or no, do you believe gay sex is a 
perversion?
    Mr. Pompeo  [continuing]. Senator, I am going to give you 
the same answer I just gave you previously. My respect for 
every individual regardless of their sexual orientation is the 
same, and it will be so if I am confirmed.
    Senator Booker. So, I will conclude--I will conclude by 
saying, sir, you are going to be Secretary of State of the 
United States at a time that we have an increase in hate speech 
and hate actions against Jewish-Americans, Muslims-Americans, 
Indian-Americans. Hate acts are on the increase in our Nation. 
You are going to be representing this country and their values 
abroad in nations where gays individuals are untold 
persecution, untold violence.
    Your views do matter. You are going to be dealing with 
Muslim states and on Muslim issues. And I do not necessarily 
concur that you are upholding the values of our Nation when you 
cannot even--when you believe that there are people in our 
country that are perverse and where you think you create 
different categories of Americans and their obligations when it 
comes to condemning violence. So, I will have another round, 
but thank you.
    The Chairman. Thank you. Senator Portman. Senator Paul. 
Thank you, sir.
    Senator Paul. Thank you. Thanks for your testimony, and 
thanks for going through this grueling enterprise and your 
willingness to serve the country. You discussed with Senator 
Kaine a little bit about whether or not the President has the 
authority to bomb Assad's forces or installations in Syria. And 
you mentioned historically, well, we have done in the past.
    I do not think that is a complete enough answer. I mean, my 
question would be do you think it is constitutional. Does the 
President have the constitutional authority to bomb Assad's 
forces? Does he have the authority absent congressional action 
to bomb Assad's forces or installations?
    Mr. Pompeo. Senator, as I think I said to Senator Kaine, I 
am happy to repeat my view on this. Those decisions are 
weighty. Every place we can, we should work alongside Congress 
to get that. But, yes, I believe the President has the domestic 
authority to do that. I do not think--I do not thin that has 
been disputed by Republicans or Democrats throughout an 
extended period of time.
    Senator Paul. Actually, it is disputed mostly by our 
Founding Fathers who believe they gave that authority to 
Congress, and actually they are uniformly opposed to the 
executive branch having that power. In fact, Mattis wrote very 
specifically. He said, ``The executive branch is the branch 
most prone to war. Therefore, we have with studied care vested 
that authority in the legislature.'' So, the fact that we have 
in the past done this does not make it constitutional, and I 
would say that I take objection to the idea that a President 
can go to war when he wants where he wants.
    With regard to Afghanistan, some have argued that it is 
time to get out of Afghanistan. What do you think?
    Mr. Pompeo. Senator, I think the course of action that 
President Trump has taken there is the right one. It is humble 
in its mission. It understands that we have been there an 
awfully long time and has an objective of leaving, but is not 
prepared to leave until such time as we can put America in a 
position where we can greatly diminish the threat to our 
homeland from terrorism that may emanate from there. And with 
an effort alongside that which will be required to achieve that 
first objective to create--I want to be humble--more stability 
in Afghanistan.
    Senator Paul. Well, actually, the President has been very 
specific at times on this, and he said it is time to get out of 
Afghanistan. ``We are building roads, and bridges, and schools 
for people that hate us. It is not in our national interests.'' 
That is a direct quote. So, the President said it was time to 
get out. It sounds like you say it is time to stay. Is that a 
difference in opinion?
    Some here worry that you are going to be too much in 
agreement with the President. I actually worry you are going to 
be too much in disagreement with the President. One of the 
things I have liked about the President is he says it is time 
to come home, let us declare a victory and come home, but it 
sounds to me like you are saying we need to stay.
    Mr. Pompeo. Senator, it sounds like I have a Goldilocks 
problem, too close, too far, different porridge for each. 
Senator, the President also said in the summer at Fort Myer 
that he was committed to the mission that I outlined there. 
That is consistent with what the Secretary of State has been 
trying to do diplomatically. It is consistent with what 
Secretary Mattis has been trying to do by supporting Afghan 
forces in the country. I believe, and I share the President's 
view, that we have a continued role there.
    And while I want to get out in the same way you do--I have 
friends who are serving there. I have had friends, as I know 
you do, who have been injured--we are not a place yet where it 
is appropriate.
    Senator Paul. Here is the problem is, are we ever going to 
be at that place? I mean, so you have got people, the 
Administration, yourself now saying in your written questions 
back to me that there is not a military solution. So, we are 
sending our GIs out there to risk life and limb when there is 
no military solution hoping that we--it sounds a little bit 
like Vietnam, hoping that we get to a little position, let us 
bomb the crap out of them to get them to negotiate, and we will 
get to a little better negotiation. In the end it was no better 
in Vietnam. It was still a disaster in the very end, and a lot 
of people wasted their lives in the end for that.
    I think that there is no military mission, and when you 
admit there is no military mission, it is hard for me to square 
with your desire still to stay. And we say, oh, we want to 
leave, but when? We have been there 18 years. I think we should 
declare victory and come home. I think we won the battle. We 
did. We literally did win. There is nobody left alive who 
plotted to attack us on 9/11.
    I have asked people repeatedly, tell me the names of those 
left alive in Afghanistan, in Pakistan, anywhere in the world. 
We are now sending people to war who were not even born when 9/
11 was. And every Administration comes, not just Republican, 
Democrat, they come and say, oh, well, it is, you know--it just 
fine. We are going to keep fighting these wars, and it has 
something to do with 9/11. No, it has nothing to do with 9/11.
    Everybody around the world that is a radical Islamist we 
now are at war with because we said, oh, we got permission to 
go at 9/11. But when you were in Congress, you had a little bit 
different position, you know? Your position with Libya was that 
we should get authorization. Your position in 2013 was also--
you wrote an op-ed with Tom Cotton saying, well, we should give 
the President the authority he needs to go into Syria, not 
because you were like me that we should not get involved in 
another war, because you were eager to get involved, and you 
wanted to give the President to say, please, President Trump, 
let us go to war in Syria. But I think we need to think these 
things through, and we need to not to be so carte blanche that 
the Constitution does give just carte blanche, you know, 
permission for the President to do whatever he wants.
    Do you think the Iraq War was a mistake?
    Mr. Pompeo. Senator, I was running a machine shop in Kansas 
at the time, so I do not have a contemporaneous view that I 
expressed.
    Senator Paul. No opinions back then? How about opinions 
now?
    Mr. Pompeo. I may well have had an opinion. But, no, my 
opinion now is, look, we clearly had--we had bad intelligence. 
I have been one of the few CIA directors who has been willing 
to say we get it wrong. In spite of all the enormous 
resources----
    Senator Paul. But it is not just bad intelligence----
    Mr. Pompeo. But we did--we did have bad intelligence.
    Senator Paul. We did geopolitically the wrong thing. We got 
rid of the enemy of Iran. We emboldened Iran. We made it worse. 
We brought chaos to the Middle East. We are still suffering the 
ramifications and repercussions of the Iraq War. But your 
President said it very clearly. He said that the Iraq War was 
the single worst decision ever made. So, once again, I am 
concerned that you will not be supporting the President, that 
you will be influencing him in a way that I think his 
inclinations are actually better than many of his advisors, 
that the Iraq War was a mistake, that we need to come home from 
Afghanistan.
    He was against being involved in Syria at many times in his 
career. So, I think he does have good instincts, and my main 
concern is that will you be one who will listen to what the 
President actually wants instead of being someone who advocates 
for us staying forever in Afghanistan, another Iraq war, 
bombing Syria without permission. So, this is the advice you 
will give.
    And I guess that is my biggest concern with your nomination 
is that I do not think it reflects the millions of people who 
voted for President Trump who actually voted for him because 
they thought it would be different, that it would not be the 
traditional bipartisan consensus to bomb everywhere and be 
everywhere around the world. So, that is my main concern, and I 
just want to make sure that that is loud and clear to everyone 
that that is my concern. Thank you.
    Mr. Pompeo. Thank you, Senator Paul.
    The Chairman. Thank you. Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman. Thank you, 
Director. Good to see you. This is an extraordinary article, I 
believe, from late last year in the New Yorker that speaks to 
China's rise coinciding with an American retreat from the 
globe. And I think we have all seen that as we have traveled 
the world that the presence that United States used to have 
just simply is not there, and other countries are taking 
advantage.
    This article in part describes a relatively routine meeting 
of the WTO in which they were negotiating trade rules for 
agriculture and seafood, something the United States used to 
have a big role at. It quotes someone in attendance as saying, 
``For two days of meetings, there were no Americans, and the 
Chinese were going into every session and chortling about how 
they were now the guarantors of the trading system.'' The 
article makes the case that Trump is China's biggest strategic 
opportunity.
    I have seen this. We have all seen this at multilateral 
meetings that we used to see major U.S. Administration 
presence. There is virtually no presence, and other countries 
are taking advantage of that. What do you think about the scope 
of our presence at some of these rule-setting meetings, and 
what are your plans for the future?
    Mr. Pompeo. Senator, we need to be there. We need to be 
active. We need to be capable. We need to be value added. We 
need to come prepared to engage and work for America's 
interests in these multilateral discussions that you described. 
I think this was the WTO that was in this article. It sounds 
like we share that sentiment.
    I could not tell you why we were not there. I do not know 
if it was the absence of people or the absence of focus. I view 
those as important places to get the international rule of law 
that is in accord with our view and not the Chinese in that 
particular instance. You have concerns, and I will do my best 
to make sure that we are there and we are capable.
    Senator Murphy. I appreciate that answer. I want to get a 
little bit of a clarification with respect to an answer that 
you gave Senator Menendez at the outset coming back to this 
meeting with the President on March 22nd. Senator Menendez 
asked you whether there was a discussion about steps you could 
take to try to frustrate the investigation. And you said that 
``I do not recall what the President asked me that day.'' Is 
that your testimony that you do not recall what he asked?
    Mr. Pompeo. Yes, and I want to be--I want to be--I do not 
recall if he asked anything that particular day. I know the 
date. I know the meeting to which you are referring, and I do 
not have--I do not recall the specifics. And I have answered 
every question about that meeting and others.
    Senator Murphy. I ask the question because it is--because 
you answered two different ways. You said, ``I do not recall 
what he asked me that day,'' but then you also said, ``He has 
never asked me to do anything that I consider inappropriate.'' 
Those are not consistent.
    Mr. Pompeo. Those are entirely consistent, Senator. If he 
asked me to do something inappropriate, I would remember.
    Senator Murphy. Let me give you another chance at a 
different question. Senator Coons asked you in an earlier round 
whether you agreed with the President's characterization of the 
Mueller investigation as an attack on America, an attack on all 
we stand for. I do not understand why your participation in 
some of the elements of that investigation would render you 
unable to tell us that you do not believe the investigation is 
an attack on America or an attack on all we stand for. I do not 
think it compromises any of the work that the CIA did or does 
in that investigation.
    So, I think it is--I think it is really--I think it would 
be really troubling if you could not say here today that you do 
not believe that the Mueller investigation is an attack on 
America, so I want to give you a second chance at that.
    Mr. Pompeo. Senator, you can give me a third chance. These 
are complex legal issues the special counsel is involved in. I 
have done my best as CIA director to separate each and every 
element of that. There is just--it is--it is a minefield, 
Senator Murphy, and I want to be--I want to be on the far side 
of the line with making sure that I do not create challenges 
for the Special Counsel's Office, for the two legislative 
committees that are engaged in this. And so, with all due 
respect, I just----
    Senator Murphy. I think----
    Mr. Pompeo.--things that relate to the special counsel as 
where this about anyway----
    Senator Murphy. By refusing to condemn attacks on the 
special counsel, I mean, really over the line attacks that are 
not shared by Republicans here in Congress, you are frustrating 
the work of the special counsel because you are associating 
yourself with some very poisonous political attacks.
    Mr. Pompeo. Senator, I have worked diligently myself, and I 
have put demands on the team that works for me to go out of our 
way to make sure we were delivering for each of those three 
investigations. And it is--it is difficult. They have asked for 
complex information that was classified. We have shared 
information that goes well beyond what has previously been 
shared, and we have done so with the aim of ensuring that the 
special counsel and the Senate Intelligence and House 
Intelligence Committee have the information they need to 
conduct their investigations. And you should know we will do 
that today and tomorrow, and if I am confirmed at the State 
Department we will do it there as well.
    Senator Murphy. In the time that I have remaining, I want 
to come back to the authorization question in Syria. You said 
you believe that the President has the authority to strike 
Syrian forces. What is this--what statutory authorization do 
you draw on to make--to come to that conclusion?
    Mr. Pompeo. Senator, I believe that the President has that 
authority. He certainly has it under Article II of the 
Constitution.
    Senator Murphy. What is the limiting factor then with 
respect to Article II powers if he can strike Syrian forces 
with no existing statutory authorization?
    Mr. Pompeo. Senator, there are reams of law review articles 
written in answer to that very question. It gets--it is a 
highly fact-based analysis. There are scores of attorneys 
strewn throughout the CIA, throughout the State Department, 
throughout the White House, throughout the Justice Department--
--
    Senator Murphy. Well, just give me one limiting--give me 
one limiting factor.
    Mr. Pompeo. Yes. Senator, I would--if you go--if you make a 
commitment, right? If you make a commitment that would be 
traditionally viewed as a classical case for war, then the 
Constitution is required. This has been a tussle between the 
executive and legislative branch for an awfully long time, and 
you know my views. I think it was Senator Kaine who said that--
coming from the place that you do on the congressional side 
have deep respect for what it is that you all are looking for.
    Senator Murphy. So, normally a limiting factor would be an 
imminent threat or an attack on the United States.
    Mr. Pompeo. But there is--there is a definition in the War 
Powers Act, right? So, there is a statutory definition that is 
contained there as well. I cannot recite it----
    Senator Murphy. Well, it is an attack on--it is an attack--
the War Powers refers to an attack on the United States. There 
has been no attack on the United States from the Syrian regime, 
correct?
    Mr. Pompeo. Senator, that is correct.
    Senator Murphy. And there is no imminent threat of attack 
on the United States from the Syrian regime.
    Mr. Pompeo. Senator, I am just trying to be very careful. 
Yes, I think that--I think that is correct.
    Senator Murphy. I am at the end of my time, but I might 
want to follow up on this. I do not think we are to the bottom 
of this question yet. Thank you.
    Mr. Pompeo. Senator, these are--I am trying to--you are 
asking me today to conduct complex legal analysis with----
    Senator Murphy. No, I----
    Mr. Pompeo.--with legal conclusions. And so, I do--I know 
it is important, and so I am trying to do my best. I am at the 
same trying to make sure that I do not have some statement I 
made that I parced the language incorrectly.
    Senator Murphy. No, I understand, but to the extent that 
there is not an identifiable constraint on Article II power, 
then we are all out of the business of declaring war.
    The Chairman. If I could, I will use another 30 seconds of 
my time. I think that even on this committee, there is wide 
disagreement over that. I know Senator Shaheen and I--I saw her 
public statements over the last few days--both agree that the 
President has the ability to make surgical strikes. President 
Obama carried on for months activities against Libya that I 
disagreed with on a policy basis, but he had that authority to 
do so, at least he claimed he did.
    So, look, I think this is a subject of debate, and I think 
it is prudent of our witness to not try to analyze the very 
details of that. On our own committee, we would debate that on 
both sides of the aisle at length. But I thank you for having 
this conversation, and I look forward to the follow-up.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. Director Pompeo, 
congratulations on your nomination. Thank you for your service 
to the Nation. Thanks for coming by and visiting with me, 
taking the time to discuss the critical issues of national 
security. And I concur completely with you and the presidential 
authority to use military force in Syria. And I wanted to stay 
with Syria for a few moments if I could because what we have 
seen, Assad has continued to use chemical weapons killing 
thousands, and most recently it sounds like another attack a 
few days ago. Reports emerged from the regime killing men, 
women, children outside of Damascus, another terrible chemical 
weapons attack.
    How would you suggest that the U.S. hold Assad and the 
regime accountable for its use of chemical weapons?
    Mr. Pompeo. Senator, if I may, I would prefer not to--this 
is a live discussion, one that as intelligence director I am 
actively a part of. So, I would prefer not to talk about plans 
and intentions with respect to how it is or whether it is that 
the United States intends to respond to the most recent use of 
chemical weapons by the Assad regime.
    Senator Barrasso. Moving to a different topic, you and I 
had a chance to discuss Russia and how it uses energy as a 
weapon, a geopolitical weapon. And Putin continues to use 
Russia's natural gas to extort, to threaten, to coerce our 
allies and our partners overseas. While we have been working 
our allies with energy security and diversification, Russia 
continues to attempt to expand its near monopoly over European 
energy supplies with the construction of the Nord Stream II 
pipeline.
    On March 15th, I led a bipartisan group, 39 senators, 
sending a letter to both Secretary Mnuchin and Secretary--the 
Deputy Secretary of State Sullivan opposing the pipeline. We 
all agree. We requested the Administration utilize all the 
tools at our disposal to prevent the construction of that 
pipeline. I think it is going be--have a detrimental effect on 
European energy security, and it would further reinforce 
Russia's influence on that region.
    So, as Secretary of State, I ask could you utilize all the 
tools at your disposal, including the Countering America's 
Adversaries Through Sanctions Act, to ensure that the Nord 
Stream II pipeline is never built? And, you know, how do you 
view energy security of our allies and partners in Europe as 
important to our own national security?
    Mr. Pompeo. Senator, actually, while there is definitely 
risk here, I actually view this as an enormous opportunity for 
the United States and for others as well. If we--if we can 
achieve a condition where Russia has less capacity to turn off 
natural gas pipelines or to create risk and threats to our 
allies and to our friends around the world, we will--we will 
have reduced the risk to the United States of America and to 
those countries greatly.
    And so, I look forward to being part of the discussion 
about Nord Stream II in particular to make sure that there are 
alternatives there that are in the West's best interests and 
not in Vladimir Putin's best interests.
    Senator Barrasso. And then turning to Iran, they continue 
to be a threat to the United States, to Israel, to the 
international community. Iran is the world's largest state 
sponsor of terrorism. They are financing terrorist groups 
around the world. And a lot of it has to do with massive influx 
of cash that Iran received from the Iran nuclear deal, and they 
are continuing to support destabilizing activities in the 
region. There is incredible amounts of evidence of that.
    I think the United States has to enforce and impose 
sanctions on Iran for what they are doing with arms 
trafficking, with terrorism, the development of ballistic 
missiles. So, if you would visit a little bit about how you 
plan to respond to Iran's illicit activities, including what 
they are doing to support terrorism, and arms trafficking, and 
missile developments.
    Mr. Pompeo. Senator, the President has laid out a strategy 
to push back against each of those elements of threat to 
America that you have described. Maybe focus just on sanctions 
for a moment. There are still more arrows in the quiver. There 
is more work to do there. As CIA director, we have been part of 
providing the intelligence so that we can target those 
sanctions in the right way, we understand who it is and who is 
moving weapons around the world, and who is engaged in the 
malign activity which we are trying to stop. But ultimately 
those designations are placed by Treasury and State, but the 
intelligence community has big a role. I have been part of it. 
We got a big team working on it. We will continue to, and I 
am--if I am confirmed I will be part of that.
    I will tell you that the other element of that is also a 
diplomatic task. It is important when America places sanctions. 
It is really powerful when we get out partners to do it as 
well, when we can share the burden that comes with placing 
sanctions because Americans cannot trade in those places. And 
when we can share that burden and truly create global 
prohibitions on trading with the entities we designate, we have 
the most likelihood--the greatest likelihood of achieving the 
outcome we are looking for.
    Senator Barrasso. And could I turn briefly to North Korea 
and the nuclear program there? You know, last month President 
Trump agreed to meet with the North Korean, Kim Jung Un. You 
know, the United States, I believe, should be engaged in talks 
if they're not just for the purpose of talking. So, I think we 
should only be engaged in credible opportunities to discuss the 
denuclearization of North Korea. So, it is also important that 
you guys continue to pressure this regime, imposing sanctions, 
conducting joint military exercises, keeping the regime fully 
aware of the consequences of their actions.
    So, could you talk about if you believe there is a scenario 
in which North Korea would actually dismantle its nuclear 
weapons program, and, you know, how maximum pressure might work 
there?
    Mr. Pompeo. Senator, the historic analysis is not 
optimistic. That is, it has--it is almost a talisman that there 
is not enough coercion. There is not enough capacity for Kim 
Jong Un to make the decision to give us up his nuclear weapons 
arsenal. I hope that that talisman is wrong, and that is the 
effort that we have been engaged in.
    Your point about the sanctions, I think, is relevant. I 
have had a chance to talk to a whole handful of people who were 
involved in the agreed framework, the Leap Day deal, the six-
party talks. In each case, America and the world released their 
sanctions too quickly; that is, we did not have the verifiable 
irreversible deal that we hope that we had had. And in each 
case, the North Koreans walked away from that deal.
    It is the intention of the President and the Administration 
to not do that this time, to make sure that before it is the 
case, as we did with the JCPOA, before we provide rewards, we 
get the outcome permanently, irreversibly that it is that we 
hope to achieve. It is a tall order, but I am hopeful that 
President Trump can achieve that through sound diplomacy both 
personally and through the offices of the United States State 
Department.
    Senator Barrasso. And the final question with regard to 
human rights, the rule of law. I appreciate your opening 
statement and the comments about your commitment to human 
rights around because if we do not, who will. You know, as 
Secretary of State, your commitment to promoting and protecting 
these important principles across the globe I think are key, so 
I appreciate your comments.
    Mr. Pompeo. Thank you, Senator Barrasso.
    Senator Barrasso. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir. Senator Merkley.
    Senator Merkley. Thank you very much. Earlier it was noted 
what an oath of office involves, and as you know, you have 
taken it several times, to support and defend the Constitution 
of the United States against all enemies, foreign and domestic. 
Recently, President Trump has talked about a domestic enemy, 
saying that the execution of a search warrant by the U.S. law 
enforcement authorities on Michael Cohen's office constitutes 
an attack, and I quote, ``attack on our country in a true 
sense.'' Do you agree with the President's evaluation that that 
is an attack on our country?
    Mr. Pompeo. Senator, I have always believed that the rule 
of law matters. I continue to believe that. Multiple times 
individuals have asked me to comment on statements that others 
have made, friends of mine have made, adversaries of mine have 
made, those who are coming after me. Today what I want to talk 
about is the things that I believe. I believe deeply in the 
rule of law and will continue to do so.
    Senator Merkley. And do you think that the rule of law does 
enable appropriate warrants to be executed to this?
    Mr. Pompeo. Oh, yes, sir, absolutely?
    Senator Merkley. Thank you. Turning to North Korea, John 
Bolton said it is perfectly legitimate for the U.S. to respond 
to the current necessity posed by North Korea's nuclear weapons 
by striking first. Secretary of Defense Mattis had a different 
view saying that war with North Korea would be catastrophic. Do 
you lean more towards John Bolton's view or Secretary of 
Defense Mattis' view?
    Mr. Pompeo. I lean more closely to the President's view, 
which is to continue the pressure campaign, to build a 
coalition, a diplomatic coalition around the world, to put 
pressure on Kim Jong Un such that we can achieve the United 
States goals without ever having to put one of our young men or 
women in harm's way.
    Senator Merkley. Does the President have the constitutional 
authority to conduct a first strike on North Korea without 
authorization from Congress?
    Mr. Pompeo. Senator, again, I am not going to comment on 
hypothetical situations or complex legal matters.
    Senator Merkley. Well, you have done so before back a while 
when the question was in regard to committing resources in 
Libya. You put out a statement regarding a letter to Barack 
Obama informing him that the Administration would be in 
violation of the War Powers Resolution unless either 
authorization from Congress is obtained or the military 
withdraws operations from Libya by Sunday, June 19th. And then 
you commented and you said specifically, ``The country--that 
country, Libya, does not pose a threat to the United States, 
nor do we have vital interests there.'' Did you believe as you 
said then that there is a constitutional limitation on the 
ability of the President to conduct war without an 
authorization from Congress?
    Mr. Pompeo. Yes.
    Senator Merkley. Thank you. In that context, not so long 
ago there was a lot of discussion that in regard to Syria, if 
President Obama put troops on the ground in Syria without 
constitutional authorization, it would constitute a foundation 
for impeachment. We had members of the Senate, including 
members of our Armed Services Committee, members of the House, 
and I will quote. Representative Walter Jones said, ``No 
President's, Democratic or Republican, should have the 
authority to bypass the Constitution or the will of the 
American people.'' And he said, ``If one of our troops goes to 
Syria and is killed, I will introduce articles of 
impeachment.''
    So, at that time of that discussion, did you share the view 
that for President Obama to put troops on the ground Syria 
would be a violation of the Constitution?
    Mr. Pompeo. Senator, I do not recall if I did or if I made 
a statement with respect to that at that time. I simply do not 
recall.
    Senator Merkley. But just to clarify, in the case of Libya, 
you did see that there was a line being crossed.
    Mr. Pompeo. Oh, yes, Senator, I believed that.
    Senator Merkley. The argument at that point was that under 
our NATO mutual defense and NATO action, but you still felt 
that did not give the foundation for action in Libya.
    Mr. Pompeo. Yes, Senator. I believed what I think you 
described as a letter, not a statement. I believed what I said 
in that statement.
    Senator Merkley. It is an issue of great concern here on 
the boundaries, and certainly I think some of your earlier 
caution about Presidents exceeding their constitutional 
authority is caution that we would like to hear in your role as 
Secretary of State. It is often a case when make the journey 
down Pennsylvania Avenue, the War Powers in the Constitution 
granted to Congress seem to be forgotten. Will you--will you 
not forget those constitutional delineations of 
responsibilities?
    Mr. Pompeo. Senator, I promise you that. I will--I will 
take--I will take equal consideration in the same way I did 
that day in 2011 as I have done as the CIA director, and if I 
am confirmed as Secretary of State I will continue to do that.
    Senator Merkley. John Bolton noted that it was legitimate 
for the U.S. to respond to the current necessity posed by North 
Korea's nuclear program by striking first. Do you agree with 
that?
    Mr. Pompeo. I am sorry. Might you repeat it?
    Senator Merkley. John Bolton argued that it is legitimate 
for the U.S. to respond to North Korea's nuclear weapons 
program by striking first. Do you agree with that?
    Mr. Pompeo. Senator, again, I do not want to wade into a 
hypothetical about under what conditions it might be 
appropriate or not appropriate. We are a long ways from that. 
We are working diplomatically to get the right outcome in North 
Korea.
    Senator Merkley. John Bolton argued that Cuba was 
developing biological weapons, and it was appropriate for the 
United States to go to war against Cuba. Did you agree with him 
on that?
    Mr. Pompeo. Senator, I am not going to--his words speak for 
himself.
    Senator Merkley. No, it speaks for him, but he is not here.
    Mr. Pompeo. Tell me what the question is.
    Senator Merkley. You are here. I am asking your opinion.
    Mr. Pompeo. I am deeply aware of that. I am sorry, Senator, 
might you ask--there is a factual predicate there about Cuban 
and weapons?
    Senator Merkley. Did you agree with Bolton's viewpoint that 
we should go to war with Cuba?
    Mr. Pompeo. No, Senator.
    Senator Merkley. How about----
    Mr. Pompeo. I have not at any time stated that I believe we 
should go to war with Cuba.
    Senator Merkley. How about in regard to his belief that 
Hussein had hidden weapons of mass destruction and we should go 
to war with Iraq?
    Mr. Pompeo. Senator, I think--I may not have expounded 
sufficiently. I have read the history. The intelligence 
community had that assessment--was incorrect about its 
assessment at that time.
    Senator Merkley. I will just note, the reason I am asking 
you these questions is there is a lot of concern in America, 
and a lot of people are paying attention to this hearing. And 
they are asking the fundamental question, are we assembling a 
war cabinet of John Bolton and Mike Pompeo that are going to 
result in devastating consequences, bypassing Congress' 
authority in regards to the use of military force, and perhaps 
engaging in another poorly thought through mistake like our war 
on Iraq that has resulted in a huge loss of American lives, a 
huge loss of American resources, enormous instability including 
Iran developing an enormous track of influence from Iran, 
through Iraq, through Syria, to Lebanon and Yemen.
    And people want to know whether or not your views are close 
enough to Bolton's in his advocacy of force in virtually every 
situation, that we are going to have a very dangerous 
arrangement on the key two advisors to the President of the 
United States. If the chair will indulge, can you just answer 
that?
    The Chairman. I really will not. I really will not. We are 
getting ready to start a second round.
    Senator Merkley. Well, Mr. Chairman, many people have gone 
significantly over their time, and I am still just within 1 
minute.
    The Chairman. Well, since you are begging, go ahead. 
[Laughter.]
    Senator Merkley. Not begging, considering fairness.
    Mr. Pompeo. Senator, I am sorry, might I get you to reframe 
the question or ask the question one more time. I apologize.
    Senator Merkley. Yes. Many people in America----
    The Chairman. You heard the question. Just answer it. Are 
you forming a war cabinet?
    Mr. Pompeo. Yes, Senator. I have been part of this Cabinet. 
I have watched it thoughtfully deliberate about all of these 
things, and I can tell you every day at the--at the forefront 
of our mind is how can we find solutions that avoid us--that 
achieve the American objective, but avoid us having to put a 
single American harm's way. You have my commitment that as the 
Secretary of State or if I continue as the CIA director, that I 
will continue to hold that in the forefront of my mind.
    Senator Merkley. Thank you.
    The Chairman. Thank you. Thank you very much. Senator 
Portman.
    Senator Portman. Thank you, Mr. Chairman. Director Pompeo, 
thank you for your willingness to step up and serve again. I 
imagine it is hard to leave the CIA after only 15 months given 
your tenure there which was successful and where you developed 
a lot of close relationships. But you are taking on a new task, 
and it is a different task. You know, CIA is primarily an 
organization that informs policymakers. Now you are going to be 
a policymaker.
    And I think you have got a good background to do so. I 
enjoyed our meeting. I have enjoyed getting to know you over 
the years. We have talked about some tough issues, and we 
talked about soft power. And, you know, kind of to the 
suggestions that were made here today that as a guy with your 
background, particularly your military background, do you 
really believe in diplomacy and soft power.
    And, you know, you have got a pretty impressive background. 
You were on the House Intelligence Committee. You were number 
one in your class at West Point. You also went to Harvard Law 
School--I will not hold that against you--and you were magna 
cum laude, Harvard Law School. But you did serve in the 
military. You served as a cavalry officer patrolling, as I 
recall, the Iron Curtain at the time. And so, I guess my 
question for you is, because there have been suggestions that 
you would be too quick to turn to military options. How would 
you respond to that?
    Mr. Pompeo. Senator, I said this, or at least--I cannot 
recall if I read it this morning, but it was certainly in my 
opening statement. There are few people like soldiers who 
appreciate diplomats and good diplomatic work. You train. You 
prepare. You want--you want very much to be prepared if America 
calls upon you, but you are counting on the fact that there 
will be diplomats around the world resolving these challenges, 
pushing back on these conflicts, preventing the very activity 
for which it is your are training and preparing. And so, as 
Secretary of State, you have my commitment that I will endeavor 
to do that.
    Senator Portman. Do you know who you sound like? You sound 
like Colin Powell.
    Mr. Pompeo. I will take that as high praise.
    Senator Portman. Yeah. Well, look, for those who wonder can 
you be a military officer and also be a good diplomat, I think 
he is someone who proves the point. Highly regarded at the 
State Department. Combat officer like yourself. Someone who had 
a strong military background, and he was very effective at the 
diplomacy part and of managing the Foreign Service as well.
    And something you and I talked about a lot in our meeting 
was your management approach. And I told you I thought that our 
morale problem at the State Department was real and that we 
needed a fresh start there. I enjoyed working with Secretary 
Tillerson. I think his lack of appointees being confirmed by 
this body was one of the problems, but for whatever the 
reasons, there is a morale problem. And I am not going to ask 
you to repeat what you said to me in private, but I was 
encouraged because you talked about--you did not talk about 
that drill sergeant list. You heard that today because I have 
been--I have been listening as well today. But you did in our 
meeting talk about the respect you have for the Foreign Service 
and your belief that you cannot just improve that morale, but 
get people motivated, feeling like they are important and make 
a difference.
    There was a lot of talk about Libya today and your views 
then. There was talk about Syria today and what is going on in 
terms of the decision-making. Let me broaden this a little bit 
and ask about something that our committee is struggling with 
right now, which is this notion that we have an AUMF, the 
authorization for the use of military force, that dates back to 
2001 and 2002, and has not been updated. How do you feel about 
that? Do you think we should update the AUMF?
    Mr. Pompeo. I do, Senator. And if I may elaborate, I 
actually was part of a team on the House side some years to--
that worked on that, worked on that with the White House. We 
were not ultimately able to be successful. I do believe that it 
is important that we achieve that, that we have a new set of 
leaders in the United States Congress who also provide that 
authorization. I think the one that we have works. I think it 
provides the authorities that the President needs today, but I 
would welcome working alongside you to achieve, I think you 
used the term ``refreshed,'' AUMF.
    Senator Portman. Well, I think it is very important. You 
know, honestly, I do not think it is inappropriate to say that 
some in the Administration have not been as forthcoming to try 
to get to a decision here because a number of us believe that 
it ought to be flexible as to reach and as to groups. We do 
believe the President inherent authorities within the 
Constitution and as commander-in-chief that need to be 
respected. But it is just not tenable to say we are relying on 
an AUMF that goes back to 2001. That was, you know, 17 years 
ago, so we would like to work with you on that.
    In our meeting, we talked about how Russia and other 
countries, China included, have pursued extensive 
disinformation and propaganda campaigns. And I think we are 
kind of missing out on that both on the diplomatic front with 
the State Department and on the military front. People call it 
the new hybrid threat. It is kinetic, it is military, but it is 
also disinformation. And other countries have figured that out, 
and most of them, like Iran, and Russia, and China, and others, 
are using North Korea--using disinformation in a very 
sophisticated way.
    It was not just about election, which I believe the 
Russians did meddle in our election, and I think it is well 
beyond that. And by the way, it happened before, and it is 
going to happen after unless we do something about it. These 
operations use a range of tools--cyberattacks, hacking, troll 
farms, go on social media. They fund useful think tanks, 
political organizations. Senator Murphy and I have done a lot 
of work on this, and we have legislation, as you know, to set 
up this Global Engagement Center to really give it the 
personnel and the funding it needs to be able to push back.
    I would like to know your views on that, and specifically 
do you agree with me on the severity of the threat that is 
posed by foreign government propaganda, disinformation, to U.S. 
interests and to our allies?
    Mr. Pompeo. Yes, I do. Senator, I think it is a real 
threat, one that has been underappreciated for years now. It 
has become cheaper, faster, less attributable, so its power has 
increased, the capacity for malign actors to use these 
information tools in ways that they just did not have available 
them 20 or 40 years ago. It also makes stopping it more 
difficult and requires a more comprehensive effort.
    We have had a small role at the Central Intelligence Agency 
at pushing back against it, and I know that there has been lots 
of talk about the Global Engagement Center. And in the event 
that I am confirmed, I promise you I will--I will put excellent 
Foreign Service officers, excellent civil service officers on 
the task of developing out that capability and using it in a 
robust way.
    Senator Portman. Well, I am encouraged to hear that. And as 
you know, we have made some progress recently getting some 
funds there and starting it up. Will you commit to helping 
implement this in an aggressive way, including ensuring we have 
the right staff there to be able to pursue this critical 
mission?
    Mr. Pompeo. I will, Senator Portman.
    Senator Portman. I just got back from Ukraine, and I see I 
just have a minute and a half left based on what everybody else 
took, so I will take it. [Laughter.]
    Senator Portman. I just got back from Ukraine, and as you 
and I talked about, Ukraine unfortunately is ground zero for 
what is going on with regard to disinformation, but it is 
beyond that. I was out at the contact line and saw the military 
activities as well. Do you support the continuation of 
providing defensive lethal weapons to the Ukrainians so they 
can defend themselves?
    Mr. Pompeo. Senator, I do.
    Senator Portman. Do you pledge that the United States while 
you are Secretary of State would never recognize the annexation 
of Crimea?
    Mr. Pompeo. Yes, Senator, I will fight to make sure that 
that does not happen, and obviously it will be the President's 
decision. But, yes, I think it would be completely 
inappropriate to do that.
    Senator Portman. And do you believe sanctions on Russia 
imposed because of its aggression in Ukraine should remain 
until Russia implements the terms of the Minsk cease fire 
agreement, halts its aggression?
    Mr. Pompeo. I do, Senator.
    Senator Portman. Thank you, Mr. Director.
    Mr. Pompeo. Thank you, Senator.
    Senator Portman. And thank you, Mr. Chairman, for your 
indulgence.
    The Chairman. Thank you. We are beginning the second round 
now. There will be 5 minutes. And I have not heard from Mary 
Alice, so are you ready----
    Mr. Pompeo. Might we take just 5 minutes, Senator?
    The Chairman. Yes, sir. We will take--we will take a 5-
minute recess and convene again at 1:40. Thank you.
    Mr. Pompeo. Thank you. [Recess.]
    The Chairman. Thank you. We will begin our second round. 
With that, Senator Menendez.
    Senator Menendez. Mr. Chairman, before I begin my time, I 
have received a number of letters from members of Congress and 
a variety of groups expressing their views about Director 
Pompeo's nominations. I would like to introduce these letters 
into the record.
    The Chairman. Without objection.


    [The material referred to above is located at the end of 
this transcript, beginning on page 282.]


    Senator Menendez. Director, I want to go back to my first 
line of questioning. And, you know, for me, all of these 
hearings, whether it be about a witness on a subject or a 
nomination, and certainly for a nomination to the Secretary of 
State, which is the fourth in line to accession to the 
presidency, is super important. And when I asked you about the 
March 22nd, 2017 meeting, your first answer to me was--I am 
reading directly from the transcript--``I am not going to talk 
about the conversations the President and I had.''
    Mr. Pompeo. Mm-hmm.
    Senator Menendez. Then when I pressed you further, you said 
you did not recall. ``I do not recall what he asked me that day 
precisely.'' Now, that seemed to be going from I had a 
conversation, I know what the conversation was about, but I am 
not going to talk about it, to that I do not recall it now what 
was asked. And then you gave a blanket conversation that you 
have never been asked to do anything wrong or improper. Well, 
if you do not want to talk about it and then you cannot 
remember it, I do not know how you jump to that conclusion. So, 
it is concerning to me because we need a Secretary of State who 
will be forthright with us and who will be forthcoming as well.
    Let me ask you this. Let me turn this picture up for you. 
On April 4th this picture was taken. Can you tell me what is 
wrong with the photo?
    Mr. Pompeo. Senator, you will have to help me.
    Senator Menendez. Okay.
    Mr. Pompeo. I have seen this picture before or a similar 
before.
    Senator Menendez. I would hope you could tell me what is 
wrong, but here, I will give it to you in the interest of time. 
What is wrong is that the United States of America is not 
there. What is wrong is that Iran, Russia, and Turkey, 
supposedly a NATO ally, who is purchasing an S-400 missile 
system from Russia in contravention of the mandatory sanctions 
that this institution passed 98 to 2 and is law. Turkey is 
supposed to be our NATO ally who is fighting the same Kurds 
that we have depended upon to defeat ISIS. These three leaders 
are engaged in the question of what to do about Syria, and the 
United States is not even present.
    So, what is the implications, for example, for our ally, 
the State of Israel, if a Russia, Turkey, Iran alliance is 
unchallenged in shaping the outcome of Syria?
    Mr. Pompeo. Senator, I largely agree with the predicate of 
your question. We need to have a robust diplomatic effort 
related to the very set of issues you are describing. They were 
there for the purpose of discussing what was--how they were 
going to carve up Syria. That is a rough statement of their 
mission, but that is what they were for. The American people 
need to be represented at that table so that we can be part of 
that conversation.
    Senator Menendez. So, what is our strategy?
    Mr. Pompeo. Senator, I will walk you through what we are 
trying to accomplish in Syria. It is difficult. I will concede 
it is incredibly complex, and Turkey's entry into Afrin took an 
already incredibly complex situation and put another twist in 
the cartwheel. So, if you will bear with me.
    We have the primary mission that we have been engaged in to 
defeat ISIS. We did so using a group of men who did great work, 
and we took the caliphate down, and we ought to be proud of it. 
There is still work to do. That mission is not yet complete.
    Senator Menendez. The next element of it. I need you to be 
precise because the chairman, even though I asked for a longer 
period of this questioning like we did with Secretary 
Tillerson, is going to be rapping that gavel.
    Mr. Pompeo. Senator, to talk about Syria strategy in 2 
minutes is an enormous challenge.
    Senator Menendez. Just give me the elements of the 
strategy.
    Mr. Pompeo. So, the--so the other objective is to achieve a 
diplomatic outcome such that there is more stability. We can 
take down the violence, and so this is a diplomatic task so 
that we get to a place where the Syrian people can ultimately 
govern themselves. And our goal is to make that a post-Assad 
Syria one day. It is a very difficult thing to accomplish.
    Senator Menendez. Let me move to another part nearby in the 
world, Iran. Is it in the United States' national security 
interest to unilaterally withdraw from the Iran agreement 
without a strategy for what comes next?
    Mr. Pompeo. Senator, I am confident that whatever course 
the Administration takes, we will have a strategy.
    Senator Menendez. So, you are answering, yes, it is in the 
national security interest to withdraw because you will have a 
strategy. Is that what your answer is?
    Mr. Pompeo. Is in the national security interests that no 
matter which course we take on, we should develop a strategy to 
achieve the objectives that I think we all share to prevent 
Iran from having a nuclear weapon.
    Senator Menendez. If the President unilaterally withdraws 
from the JCPOA in May, what does the Administration intend to 
do? What will you be recommending in terms of reinstituting the 
pre-JCPOA sanctions on Iran and on those countries who engage 
with Iran?
    Mr. Pompeo. Senator, there is an active policy discussion 
around all of these issues about how this will proceed in the 
next 30 days and the days thereafter. The objective is very 
clear. The objective is to fix the shortcomings of the Iran 
deal. That will be true on May 11th, May 12th----
    Senator Menendez. But does that mean snapping back 
sanctions?
    Mr. Pompeo [continuing]. May 13th.
    Senator Menendez. Does that mean snapping back sanctions?
    Mr. Pompeo. Senator, I do not want to speculate on what we 
will do.
    Senator Menendez. You know, I will tell you what a nominee 
should do, Director. You want me to put my faith in you, but I 
cannot do that blindly. I have to have some sense of what you 
will be advocating even if it is not what the President 
decides. Is it to put back sanctions? Does the sanctions depend 
upon whether the Europeans are going to be in sync with us? And 
if we are not and we put back sanctions, are they going to 
ultimately come along with us, or are they going to reciprocate 
and say we are going to put sanctions and tell our companies 
not to do it? And if we do not snap sanctions back, are we 
nothing but a toothless tiger?
    See, these are the critical questions that I am looking to 
understand what you will advocate for. And it is not that you 
come as a candidate here who has not had dealings with this 
issue because in a different context as the CIA director, you 
have had dealings with this issue. So, that is why I am trying 
to glean here, and I am not getting it from you----
    Mr. Pompeo. I have, Senator. I have had dealings with it, 
Senator, and I have had at the deep urging of some avoided 
being part of the policy discussions around this. As you will 
know, some have critiqued me for entering those discussions too 
much. So, with your permission, it is hard to hypothesize about 
what the conditions will be in May and how close we may be to 
achieving the President's objective through diplomacy to 
speculate on how we might respond. It is just--it is difficult. 
I know that is what you are asking me to do, and I simply--I 
cannot--it is a hypothetical situation about which we still 
have a number of facts that are unavailable.
    Senator Menendez. Well, I was asking you for a strategy, 
not goals. And I do not think that a strategy is one that 
invades the space that you presently occupy with the space you 
hope to occupy. And so, it would just make it a lot easier for 
me when I have to vote on you to understand what you will be 
advocating for.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman. Director Pompeo, 
thank you again for your testimony. I think you have an 
incredible job today challenging us and also being forth--being 
very forward in your answers. And I appreciate that today, and 
it will serve you well as Secretary of State, and I look 
forward to supporting you.
    There has been some news that was made while you were in 
the testimony earlier today President Trump. I think he has 
directed, according to news reports, Ambassador Lighthizer, 
along with Larry Kudlow, to open up the new possibility of 
reengaging in the Trans-Pacific Partnership. And so, leading 
into this question on China, the national security strategy 
released in 2017 says ``China and Russia challenge American 
power, influence, and influence attempting to erode American 
security and prosperity. China seeks to displace the United 
States in the Indo-Pacific region, expand its reaches of state-
driven economic model, reorder the region in its favor. China 
is using economic inducements, penalties, influence operations, 
and implied military threats to persuade other states to heed 
its political and security agenda.''
    I talked earlier about the clear militarization of the 
South China Seas. I talked about the fact that they are now 
conducting, or at least planning to conduct, live fire 
exercises in the Taiwan Straits, Straits of Taiwan. Can you 
talk about this, perhaps including even TPP, how that can 
counter China's influence and what we need to do to make sure 
that we have a policy toward China?
    Mr. Pompeo. Senator, I was--that news was news to me, but I 
have--I have watched the Administration, and my record was 
clear. I supported TPP when I was a member of Congress. There 
is an economic--there is an economic component to what China is 
trying to do. We need to be engaged. There is a diplomatic 
component to the economic activity as well. We need to be 
deeply engaged there. And I am confident this Administration 
will do that.
    Senator Gardner. Thank you, Director Pompeo. Talking a 
little bit about Southeast Asia and our challenge right now, 
how many fighters right now from Southeast Asia do you think 
are in Syria today?
    Mr. Pompeo. How many?
    Senator Gardner. How many Islamic fighters from Southeast 
Asia do we estimate are in Syria?
    Mr. Pompeo. Senator, I do not recall the number. There are 
many.
    Senator Gardner. And have we seen those go and return to 
Southeast Asia as well?
    Mr. Pompeo. We have.
    Senator Gardner. And how is our coordination with those 
Southeast Asian nations--Philippines, other places--in terms of 
terms addressing, monitoring, and combatting as they move back?
    Mr. Pompeo. Without giving too much detail, it is better in 
some places than in others. But much as we do with our European 
partners and our partners in the Middle East, we do our best to 
track these terrorists as they move around the world so that we 
can together identify ways to prevent them from conducting 
their terror.
    Senator Gardner. The fighters that may have been in 
Southeast Asia went to Syria and then returned. Do we know if 
any of them were involved in the incidents in Mawari?
    Mr. Pompeo. Senator, I do not recall sitting here today.
    Senator Gardner. Thank you. In relation--in regards to 
Taiwan, the Taiwan Travel Act signed into law March 18th, 2018, 
I supported that, commend the President for signing that. Do 
you agree with the policy provisions, and just at what level 
would you authorize State Department personnel to visit Taiwan?
    Mr. Pompeo. I do not know the answer to that. I am familiar 
with the act. I am familiar with America's One China policy 
through communication, and I think there were six assurances. 
So, I know American policy. I know what is there. With respect 
to the level of appropriate authorities, I just need to look at 
that and, frankly, turn to the professionals at the State 
Department to help give me guidance before I opine on that 
issue.
    Senator Gardner. And would you support regularized arm 
sales to Taiwan?
    Mr. Pompeo. I think it is important, much as America has 
done for quite some time, frankly under both--every 
Administration, Republican, Democrat alike, that we provide the 
arm sales necessary consistent with that--consistent with that 
One China policy.
    Senator Gardner. Yeah, and should we invite Taiwan to U.S.-
led multilateral exercises, RIMPAC in Hawaii, Red Flag in 
Alaska?
    Mr. Pompeo. Senator, I do not know the answer to that.
    Senator Gardner. Okay. And obviously, I want to turn a 
little back again to North Korea, if you do not mind. Does 
North Korea present a nuclear proliferation threat?
    Mr. Pompeo. Senator, one of the things that is talked about 
too little, we talk about the missile systems. We talk about 
delivery. We talk about risks to the homeland. To the extent 
the capacity, the nuclear capability, the technology, and the 
capacities that North Korea has continue to exist, they present 
an enormous proliferation threat throughout the world. They 
have demonstrated that through history, and there is no reason 
to think, absent us being successful, they will stop their 
proliferation.
    Senator Gardner. Does that currently include Syria?
    Mr. Pompeo. Senator, I cannot speak to that.
    Senator Gardner. Do you know if North Korea provided any of 
the elements, tools, supplies, to Syria that could have been a 
part of the recent gas attack in Syria?
    Mr. Pompeo. Senator, I cannot speak to that.
    Senator Gardner. Just quickly, what are your plans at the 
State Department for the cyber position, the cybersecurity 
position?
    Mr. Pompeo. Senator, I have not done--had the org shown to 
me. I have not seen the whole speed on that. I have not given a 
great deal of consideration to people filling particular 
positions.
    Senator Gardner. Thank you.
    Mr. Pompeo. I can--I can only say that every element of 
government has a piece of cyber duty. One of the challenges is 
that it is so deeply divided that we do not have a central 
place to do cyber work. At the CIA we have been--we have spent 
a great deal of resources. I hope we have delivered value on 
our cyber efforts. I would hope to do the same thing at the 
State Department.
    Senator Gardner. I just look forward to working with you on 
that. I think it is an important element of what the State 
Department can carry out. Thanks, Mr. Chairman.
    The Chairman. I will note he has an outstanding gentleman 
named Rob Strayer who is there now who not only has dealt with 
homeland security issues, but foreign policy issues. And I know 
he is working, in essence, right below that position now. He 
has done an outstanding job on your behalf. You should know 
that. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Let me--tomorrow 
Vice President Pence will be heading to Peru for the Summit of 
the Americas. I had a chance to meet with him with some other 
members of our committee. The theme of the conference is on how 
democratic governments deal with corruption, and I mention that 
because you have been very strong at this hearing on protecting 
American values, our democratic principles, et cetera.
    Corruption corrodes democratic institutions. This committee 
has passed out legislation that would task the State Department 
to establish rankings for countries in fighting corruption, 
similar to what we do in trafficking in persons. But there is 
always resistance within the State Department for more work 
being given to them.
    Do we have your commitment that anti-corruption is so 
important that we need to have an effective means of using our 
influence in other countries through our development 
assistance, et cetera, to develop the anti-corruption tools to 
fight corruption?
    Mr. Pompeo. Yes, Senator. I promise not to complain about 
workload.
    Senator Cardin. I appreciate that. I take that as a--I 
really do. As you know----
    Mr. Pompeo. At least publicly, Senator, I promise not to 
complain about it. [Laughter.]
    Senator Cardin. Thank you. This committee has also been in 
the forefront of providing the executive tools to deal with 
human rights violators from the Magnitsky statute to the Global 
Magnitsky statute. We have gotten really good cooperation from 
both State Department and Treasury on implementing the 
Magnitsky statutes. Do we have your assurance that you will 
work with us?
    It is a cooperative effort between the Congress and the 
Administration to identify human right violators that are not 
being held accountable in their own country so they cannot take 
advantage of our banking system or visiting our country. Do we 
have your assurances that you will work closely with us in 
implementing that statute?
    Mr. Pompeo. Those are both--both the Magnitsky Act itself 
and the Global Magnitsky Act are powerful tools. You have my 
commitment we will work to use those tools to the full capacity 
that the State Department can.
    Senator Cardin. I thank you for that. On the budget for 
your Department, we have seen the Administration, primarily 
through OMB, come in with dramatic cuts to the State 
Department's budget. We need a champion in the State 
Department, and I heard you say you would ask for the resources 
you need. I heard you say that. One of the other problems we 
have had is there have been appropriated funds that have not 
been spent. Do we have your assurances that you will follow the 
direction of Congress on how we establish priorities, and when 
we establish a priority through the budget, you will carry out 
those priorities?
    Mr. Pompeo. Senator, I have a lawful requirement to do so.
    Senator Cardin. I thank you----
    Mr. Pompeo. And I have seen this from both sides as a 
member of Congress, and now I have seen it in the executive 
branch. I know--I know the rules. You have--I will try to make 
sure that I am doing so in a way that delivers value, right? 
But, yes, you have my commitment that I will work towards doing 
that.
    Senator Cardin. And that happened in Russia. It happened in 
regards to us providing a way to defend against their 
propaganda, and the State Department did not take the money 
that we provided. It was authorized by us and the appropriators 
put the money in the budget, and we had a hard time getting it 
spent.
    You obviously know a lot more information than any of us do 
in regards to Russia as far as intelligence information. But 
can you acknowledge publicly that Russia was involved in our 
2016 elections?
    Mr. Pompeo. Yes, sir.
    Senator Cardin. I appreciate that. And then I want to get 
to a topic that you and I talked about in my office, and that 
is torture. And I am going back to your prior hearing, but I 
want to take it from a little bit different point of view. If 
confirmed as our top diplomat, torture is one of the major 
issues that we talk about in global human rights. And if you 
give a dictator any room on torture, on the definition of 
``torture,'' they will use it with impunity.
    And, yes, I have confidence in our professionals and how 
they go about getting information. But if there is any 
ambiguity on waterboarding or issues that are clearly within 
the purview of being abused for interrogation, it leads to the 
erosion of global human rights in regards to people who are 
under custody. So, can you just clarify for me how you would as 
Secretary of State be clear as to America's commitment against 
torture?
    Mr. Pompeo. Senator, I will, and I have 15 months of data 
that you can take a look at in terms of--I had a very similar 
question asked of me when I was being confirmed as the CIA 
director. Torture is illegal. It is never permitted. And today 
the techniques, one of which you mentioned, are unlawful. Today 
there are limits on that, legal limits that came from Congress 
and were signed by a President. At the CIA and at the National 
Security Council table, I have not heard anyone seek to 
undermine that particular piece of legislation. We have--we are 
all committed to that.
    Senator Cardin. Mr. Chairman, if I could, I would like to 
compliment the nominee for giving concise answers. It is 
refreshing to have a person who really answers our questions.
    The Chairman. You could compliment him, not me, if you 
wish. While we are on the issue of human rights that Senator 
Cardin brought up on the front end, the committee has worked 
to--and all of Congress and a President has signed legislation 
to end modern slavery around the world. We have got about 27 
million people minimally that are in slavery today, more than 
at any time in the world's history. We have set up--there is an 
effort underway. The State Department has funded $25 million, 
the he United Kingdom has done the same, to utilize best 
efforts around the world to end this scourge on mankind.
    I know you are aware of it. I hope you also--I know you 
committed to numbers of things with Senator Cardin, but I hope 
you will commit to working with us to improve this to make it 
even stronger than it is and to continue this effort.
    Mr. Pompeo. Senator, I will. I worked on some related 
issues related to human trafficking when I was a member of the 
House of Representatives. You have my commitment.
    The Chairman. Thank you. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. When you were in 
my office, we discussed the role of the State Department in 
empowering women around the world and since women make up half 
of the world's population. As we get more information about 
what empowering women does, we learn that women are more likely 
to give back to their families and their communities when they 
are able to go to work and benefit economically, that countries 
that have empowered women generally do better on everything 
from how they deal with human rights to a democracy scale. And 
one of the things that we have also learned, and the United 
States is the first country to in legislation agree that we 
need to try and make sure that when there is conflict 
resolution, that women are included in those conversations and 
are at the negotiating table because that means that those 
negotiations are going to last better and longer.
    So, we have an Office of Global Women's Issues. There has 
been an ambassador in that office, and right now it is 
unfilled. It has in the past reported to the Secretary. I 
appreciate your concerns about the organizational chart. But I 
hope that you will take a look at this position again and that 
you will commit to ensuring that not only do we have a 
qualified ambassador in that role, but that that is a position 
that works directly with the Secretary.
    Mr. Pompeo. Senator, you have my commitment to find that 
qualified person and get them into their position and confirmed 
as quickly as possible.
    Senator Shaheen. Thank you. It has been reported that State 
Department officials have been asked to pare back language on 
women's rights, on sexual discrimination, on international 
family planning in the annual human rights report. Again, can I 
have your commitment that countries and groups that continue to 
discriminate against and abuse women are exposed in this report 
as they have been for many years prior to the current upcoming 
report?
    Mr. Pompeo. Yes, Senator. I am only just a little bit 
familiar, I think, from what you raised, and then I had a 
briefing over at the State Department, too, with respect to the 
issue of concern that you raised. You have my commitment that 
we will keep things that ought not be influential in making the 
determination about how that is put together to influence those 
decisions. We will--just as I have done at CIA, we will try and 
do it straight up and get the facts so that we can do that well 
and properly.
    Senator Shaheen. Good, I appreciate that. We also discussed 
the issue of refugees when you were in my office. As of April 
1st, halfway through the Fiscal Year, only 10,548 refugees have 
been resettled. That is just 23 percent of the 45,000 admission 
ceiling that has been established. So, can you talk about, 
first, will you ensure that the State Department makes a good 
faith effort to meet the refugee admission ceiling in Fiscal 
Year 2018, and how you will look at trying to make sure that 
happens?
    Mr. Pompeo. Senator, two questions. The answer to your 
first one is about will I commit to go find out what has driven 
that and try and----
    Senator Shaheen. Correct.
    Mr. Pompeo.--unpack it. You have my commitment to that. I 
do not know. You also have my commitment--I think America has 
an important role here with respect to refugees. We have an 
important role to provide humanitarian assistance for those 
that are seeking refuge in as close to the place that they are. 
I have had a chance to meet with some of these refugees in very 
difficult situations. You have my full commitment that we will 
work on these issues together.
    Senator Shaheen. Thank you. I appreciate that. And, of 
course, as the director of the CIA, you have a very good idea 
how extensive the vetting is for refugees who are invited into 
the United States.
    Mr. Pompeo. We play a small part of that, but, yes, I am 
familiar with that process. Yes, ma'am.
    Senator Shaheen. I very much appreciate your statements 
with respect to addressing morale at the State Department, to 
addressing staffing at the State Department. I hope you will 
also look at promotions. That is another place that has been an 
issue at the State Department. And you--one of the--it is my 
understanding that there is still a hiring freeze at the State 
Department. That is the only department within the Federal 
government that still has a hiring freeze in place. I hope you 
will commit to repealing that hiring freeze and move forward as 
quickly as possible on filling the vacancies that exist within 
the State Department.
    Mr. Pompeo. Senator Shaheen, I will. I do not--I have heard 
different things about the exact status of the hiring freeze, 
but I want to go one further. I spent a lot of time working on 
recruiting of human capital at the Central Intelligence Agency, 
making sure that we had the best Americans in the world 
applying to become CIA officers. We were not resourced, we were 
not structured properly to do that in my view. We devoted more 
resources to it. In 15 months I am not sure I can point to 
success yet, but I think we have the building blocks in place 
to do that.
    I want to do that at the State Department, too. I want--I 
want the best of America, and the way that it had traditionally 
been part of the State Department to say I want to be a 
professional officer at the State Department.
    Senator Shaheen. Thank you. I appreciate that. As Senator 
Murphy said, what we are seeing in China is that there are 
plussing up their diplomatic activities, so it makes no sense 
for us to be undermining ours. So, thank you very much. Thank 
you, Mr. Chairman.
    The Chairman. Thank you. Senator Coons.
    Senator Coons. Thank you, Chairman Corker, and thank you, 
Director Pompeo. On those same topics, we had a very 
constructive conversation yesterday, and I am confident that 
you would be a good advocate for the career professionals of 
the State Department and USAID. And so, rather than focus on 
some of the management and budget and so forth, I am going to 
focus on areas where I still have got some unresolved questions 
and would rather have a more pointed exchange. But I wanted to 
make sure I recognized that I think you have got clarity about 
the importance of the mission and the role and deep respect for 
the professionals who carry out this job.
    You said in your prepared statement that ``Representing 
America also requires promoting America's ideals, values, and 
priorities for those who ultimately determine the trajectory of 
geopolitics, the voters and citizens of the world,'' and I 
agree with you. Mr. Chairman, I would like to introduce for the 
record an article from the Pew Research Center which reflects 
trends that other surveys of the world and world leaders have 
also revealed.


    [The material referred to above is located at the end of 
this transcript, beginning on page 319.]


    Senator Coons. The Center's 2017 annual survey looked at 
global levels of confidence in President Trump, in Russian 
president, Vladimir Putin, and Chinese President, Xi Jinping, 
and German chancellor, Angela Merkel, and their confidence that 
they would do the right thing for the world. And it was 
striking that for the first time there has been real slippage. 
Are you concerned to see polls such as this that for the first 
time ever, say more people around the world or more leaders 
around the world trust Vladimir Putin and Xi Jinping to lead 
the world in the right direction than America under Donald 
Trump's leadership?
    Mr. Pompeo. Senator, I definitely want people to understand 
accurately. It is not an attempt to deceive, but rather to 
accurately have the people of the world understand the beacon 
of democracy that the United States of America is. We talked 
just a moment ago with Senator Portman about misinformation and 
the capacity to move that around the world diligently to make 
sure it does not have an impact. I do not know. I could not 
tell you the depths of the poll, and I do not know of it. But 
it is--it is the case there are actors in the world seeking to 
achieve exactly the perception that you laid out there, and we 
need to make sure that we are doing all that we can to counter 
that perception of the United States.
    Senator Coons. I am sure you would agree that the United 
States has and promotes quite different values than China.
    Mr. Pompeo. Deeply. Deeply.
    Senator Coons. And so, I would be interested in both what 
your strategy would be for investing in the resources needed to 
push back on this difference, and what role do you think our 
values should play, both in our bilateral relationship with 
China and in how we engage in the world. I have had a concern 
that over the last 15 months, our values were not as front and 
center as our interests more narrowly understood. How do we 
change that in our bilateral relationship with China and, more 
broadly, around the world?
    Mr. Pompeo. I believe that our values drive--often drive--
sometimes you will see people characterize our interests as 
being in juxtaposition or in conflict with our values. That may 
well from time to time be the case. I think most often, 
Senator, that actually our values drive those interests. We 
should be unashamed about that. We should speak to the reason 
we operate the way we do. We should defend American values 
every place we go.
    It means with respect to China perhaps, but certainly with 
respect to other countries, hard conversations. Some days 
perhaps, Senator, tradeoffs as well. We do end up having to 
deal with unsavory characters from time to time to achieve an 
outcome that we deem important to American national security. 
But we should never do that to the--we should never do that 
exclusively. That is, we should never put away this American 
vision for the thing that make societies most successful and 
people be able to achieve what it is that they seek. We 
should--we should be proud of that, and we should always have 
that part of the discussion.
    Senator Coons. And I think that is a vision that does not 
just tolerate, but celebrates, our differences.
    Mr. Pompeo. Absolutely.
    Senator Coons. And as the co-chair of the Senate Human 
Rights Caucus with Senator Tillis, I am concerned about how we 
make sure that we make that celebration of difference a piece 
of our foreign policy. I would be interested in whether you 
think LGBTQ rights human rights and whether you would advocate 
for them as a piece of a broader agenda of advocating for 
diversity, and what your strategy is for preventing partners, 
like Turkey, and Egypt, and the Philippines, that have 
genuinely slid on their respect and recognition for rights, 
broadly understood, from moving further away from our core 
values.
    Mr. Pompeo. I think there were three questions there, 
Senator. Let me try. I deeply believe that LGBTQ persons have 
every right that every other person in the world would have. We 
have many countries in the world that do not honor that, that 
do not reflect that, that behave--that conduct heinous activity 
against those persons. We have a responsibility when we are 
dealing with those countries to do our best to have an impact, 
to make--to make--to make them recognize the fundamental 
dignity of every human being in the same way that we do here in 
the United States.
    Senator Coons. Last question if I might, Mr. Chairman. 
There was some exchange you had previously about statements you 
made as an elected official right after the Boston Marathon 
bombing in 2013, and whether that sends a message to America's 
Muslims, their community within our country, and the leaders 
around the world you will need to work with as a chief 
diplomat. Just tell me something about who the leaders are in 
the Muslim world you will be willing to work closely with, and 
what priority you would place on changing that perception of 
your views given by a few statements that, as we discussed 
yesterday, you think were taken out of context. I think it is 
important to have a sense on the record of your view of the 
religion of Islam and of our partnerships in the Muslim world.
    Mr. Pompeo. Let me--let me try and do that, but let me try 
and give evidence. I have worked with--I have worked with our--
with our intelligence partners throughout, a broad range of 
Muslim majority countries. I have worked with them closely. We 
have done very difficult things together. It might be difficult 
for you to chase some of them down, but I think if you could 
speak to them, you would find that the view that you suggested 
that some have seen from that remark, it would be very 
different to them. I think they have come to understand that I 
deeply honor their religion. I honor their commitment to that.
    Where it causes some of the challenges that you asked in 
your previous question, we have tried to push back even at 
the--even at the lowly intelligence level. We have taken on 
some of these human rights issues in a crisp and square way. I 
assure you that I will continue to do that if I am confirmed 
into this new position as well.
    Senator Coons. Thank you for your answers. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Director Pompeo, 
this question has been asked by, I think, several members, but 
I am going to ask it in just a little bit different way. We are 
living in kind of an extraordinary time in terms of our 
Constitution and what is unfolding. My understanding is that 
Deputy Attorney General Rosenstein has been called over to the 
White House. As you know, Director Comey was fired by the 
President. And I understand you have--you know, you went to the 
best law school in the country. You are a Harvard-trained 
lawyer, and so I think you really understand the difference 
between right and wrong here.
    If we had this circumstance, and, I mean, when we look very 
close to it, I do not think it is--I do not think we can 
dismiss this as a hypothetical. If you either had the firing of 
the deputy attorney general, Rosenstein, or you had the firing 
of the special prosecutor, Mueller, this would be an 
unbelievable, extraordinary event in our history. I think it is 
clear it would be a violation of law, of the statutes allowing 
this kind of investigation. It would be obstruction of justice. 
It would violate rule of law as known in this country and 
around the world. I think it would put us in a constitutional 
crisis.
    And so, I am wondering as--you are nominee to be Secretary 
of State, would you refuse this position if this happened?
    Mr. Pompeo. Senator, I did answer this question once 
before.
    Senator Udall. Well, I do not think you quite answered it 
this way.
    Mr. Pompeo. Maybe not. I think the answer is no. Again, I 
have not had a long time to think about it. When domestic 
turmoil arises, all the more important I think to have leaders 
representing America around the world. I mean, I have seen 
this. We have all lived this, right? There was a time when we 
had a President impeached, right? We had a United States 
President impeached. Enormous domestic turmoil, and it is my 
recollection that most of the Cabinet members chose to continue 
to do their best to defined American democracy and to do their 
roles around the world.
    So, my thought here as I sit here before you today is that 
I would continue to endeavor to do that.
    Senator Udall. Well, I think if you remember, you are 
speaking of the impeachment of Nixon. Many officials that were 
in the line decided as a moral matter to step aside. They were 
not going to have anything to do with it, and then everything 
happened very quickly after that. But we are in a situation now 
where I think, you know, this is going to be one of the biggest 
moral issues of our time. I do not think----
    You know the difference between right and wrong. To just 
dismiss this and just say, oh, I am just going to continue to 
do my job, I mean, as the rest of the government and our 
Constitution crumbles around us. I mean, would you resign as 
CIA director if that is the position you are in?
    Mr. Pompeo. Senator, I think that is the same question. I 
was asking thinking of a more recent impeachment of the 
President when President Clinton was impeached. That is what I 
actually had in my head when you asked the question.
    Senator Udall. I think----
    Mr. Pompeo. I think his Cabinet members decided that it 
was--it was incumbent upon them in this time of domestic 
political turmoil to continue to perform their functions ably 
on behalf of the United States.
    Senator Udall. Yeah, well, I think the closer parallel is 
Nixon. But would you take any action if--this constitutional 
crisis that I have described here, would you take any action to 
do anything about it to express your opinion in terms of right 
and wrong?
    Mr. Pompeo. Senator, we are a long way down--we are a long 
way down into a hypothetical.
    Senator Udall. Yeah, but it is a hypothetical that may 
happen in the course of you getting your nomination before the 
Senate and having debate. I think you should answer the 
question.
    Mr. Pompeo. Senator, I am going to give the same answer I 
gave previously.
    Senator Udall. So, your answer is you would not do 
anything.
    Mr. Pompeo. Senator, I did not say that.
    Senator Udall. Well, tell me what you would do. You did 
not----
    Mr. Pompeo. Senator, again, we are----
    Senator Udall. Tell me what you would do.
    Mr. Pompeo. Yes, Senator, again, I have to tell you, you 
are down a hypothetical. Just steadfastly, even if it was to my 
advantage not to speculate on hypotheticals today, I am going 
to continue to do that.
    Senator Udall. Well, Mr. Chairman, I would just say I am 
very proud of many of the Republicans in the--who serve in the 
United States Senate standing up and saying that they think 
that this would be intolerable and they would not accept it. 
And I think they are going to step forward, so thank you very 
much. Appreciate it.
    The Chairman. Thank you. Senator Murphy, or Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. Thank you again, 
Director Pompeo. In 2016, you wrote ``congress must act to 
change Iranian behavior and ultimately the Iranian regime.'' I 
think the topic of Iran has been amply discussed today, but I--
but you and I chatted about this in my office and I am curious. 
I want to ask you, do you think regime change in another nation 
is an acceptable foreign policy goal for the United States. And 
if I can just follow up, and if you do, I would like you to 
tell me whether our earlier efforts at regime change have shown 
any success, and also describe for me how we can embrace regime 
change as a foreign policy goal without encouraging other 
nations, including our adversaries, to think it is an 
appropriate goal for them.
    Mr. Pompeo. Senator, let me try and unpack I think three or 
four questions there. First, with respect to the specific 
comment, some have suggested this was by use of force. It was 
not intended as such. I expressly did not say that in that 
piece. I talked about--I talked about the fact that we have a 
theocratic regime that is the world's largest state sponsor of 
terror. And to the extent we can take--engage in activities to 
free the Iranian people, right?
    And I am proud of what the Administration did when there 
were protests earlier this year or perhaps it was in the fall 
of last. I was proud of the way this Administration responded. 
It did so forcefully. It did so in support of the Iranians that 
were demanding a change to the theocracy that was inside there 
and, frankly, economic change as well. Those are the kind of 
things that I was thinking about when I was speaking to what 
U.S. policy ought to be aiming to achieve. It is the kind of 
democracy promotion that I think is entirely appropriate for 
the United States government to be engaged.
    Senator Kaine. Okay. Now, democracy promotion, I am a 
hundred percent with you.
    Mr. Pompeo. That is what I was talking about.
    Senator Kaine. But if you say that regime change should be 
an official policy, the U.S. should have the regime change of 
Iran or any nation as an official policy, then why would Russia 
not be completely justified in saying, well, regime change in 
the United States should be our official policy? Do we really 
want to go down the route where we take upon our own shoulders 
the decision about whether there ought to be a regime change in 
another country? And, again, there is ample examples of us 
thinking that we could and finding out that we do not know so 
much about other countries as we think.
    Mr. Pompeo. I am familiar with the list of which you are 
referring, Senator, and I do not disagree with you about our 
success at achieving that in a way that benefitted America or 
the world. I do not disagree.
    Senator Kaine. And you would agree with me if we embrace 
the regime change in other nations, we can hardly say that this 
is something that only the U.S. gets to do. If we say that is 
an acceptable foreign policy goal for us, other nations can 
conclude it is an acceptable foreign policy goal for them or 
may have already so concluded.
    Mr. Pompeo. Yeah. Senator, I must say I do not find the--I 
do not find the moral equivalency there in each case that you 
are describing. This is a--this is a unique, exceptional 
country. Russia is unique, but not exceptional. It behaves in 
ways that are deeply different from whatever ought to 
contemplate in terms of--I mean, the words ``democracy 
promotion'' and ``Vladimir Putin'' are unlikely to be used in 
the same sentence, paragraph, or document.
    Senator Kaine. Maybe the same zip code.
    Mr. Pompeo. Maybe the same--maybe the same century. I am 
sensitive to your concerns. I appreciate them, but I do want to 
be careful that we are all cognizant of the fact that--I mean, 
look at the election meddling, right? It is different in kind 
in terms of the way we engage with the peoples of the world, 
and I think that is important. To your point, I think we should 
be proud of that and continue to make sure that we stay on the 
right side of the line there.
    Senator Kaine. I think this came up earlier, but I want to 
make sure. The President announced earlier this week that he 
was not going to attend the Summit of the Americas. And I think 
this action, together with some other actions--the threat to 
pull out of NAFTA, the bellicose rhetoric back and forth 
between the President and Mexico--is suggesting that the 
Administration does not put a high priority in the Americas. 
And so, what would you do as Secretary, if confirmed, to show 
our Caribbean and American neighbors that we value these 
relationships?
    Mr. Pompeo. Senator, that is a great question. I have seen 
firsthand. I have traveled there a couple of times, I think, as 
the CIA director. These are places of enormous opportunity and 
immense economic opportunity for America, and a place that is 
at risk if America walks away and is not engaged. We see--we 
see places in turmoil in Venezuela. The Administration has been 
pretty focused on trying to achieve the outcome there to try to 
get the Venezuelan people to be successful at getting what they 
need in terms of leadership and government. And we have seen 
the refugee crisis that has flowed from that into Colombia and 
other places.
    Deeply important place. I assure you that I will work to 
get an undersecretary for Western Hemisphere confirmed as 
quickly as possible and all of the right people in place so 
that we can deliver good diplomatic solutions in Latin America 
as well, Latin and South America.
    Senator Kaine. Finally, as far as you know, is it the 
Administration's policy, consistent with previous 
Administrations, that the U.S. wants to find ways to promote a 
peaceful two-state solution in Israel and Palestine with 
independent nations of Israel and Palestine living peacefully 
with each other?
    Mr. Pompeo. It is, Senator.
    Senator Kaine. Thank you. Thank you, Mr. Chair.
    The Chairman. I enjoyed the line of questioning. I was 
somewhat talking a little bit with Senator Menendez. You know, 
the regime change issue, I remember--it seems like that 
everybody on this committee, except maybe Senator Paul from 
Kentucky, agreed with the previous Administration's policy that 
Assad had to leave. Assad must go. It seemed that was 
unanimous. Maybe that was not the case. But that to me is 
indicative of some feeling of a regime change.
    Senator Kaine. That he is brutal and a dictator and subject 
to sanctions, international criminal prosecution, even military 
action to punish him for civilians is one thing. But I do not 
think the United States has a right to decide who should be the 
leader of another country.
    The Chairman. Well, it seems to me that a President stating 
that someone has to go is going way down that road. It was the 
stated policy of the United States of America that Assad had to 
go.
    Senator Kaine. It was the stated policy of the President's, 
and that statement, I thought, was very, very unfortunate 
because it raised expectations that were then dashed. I do not 
think--when the U.S. tries to do regime change, we--you know, 
it was going to be great with Gaddafi gone. It was going to be 
great with----
    The Chairman. I did not agree with the Gaddafi issue. I do 
remember Secretary Kerry being here and being pummeled by 
committee members to ensure that it was the policy of the 
Administration that Assad had to leave. I do remember that. 
Maybe not every single person on this committee believed, but I 
am sorry, I would say most every person on this committee.
    Senator Booker.
    Senator Booker. Thank you very much. Mr. Pompeo, thank you 
very much. My last line of questioning I want to move on to 
something else, but I do appreciate your religious freedom, my 
religious freedom, and that being one of our core ideals, for 
you to hold beliefs, whatever you think about homosexuality, 
whatever you think about Muslims. But obviously, in this 
country it is really important to create the climate of 
freedom, that you insist that are you treating people equally 
even if past statements might put a chill on people that might 
work for you.
    Somebody that worked with you, two folks sent me a letter 
today, and I would like just to enter into the record this 
letter from Andre Carson.
    The Chairman. Without objection, and Senator Coons' 
paperwork a minute ago without objection. But go ahead.


    [The material referred to above is located at the end of 
this transcript on page 322.]


    Senator Booker. Yeah, Andre Carson and Keith Ellison, two 
of the Muslim members of the United States Congress. It is a 
very heartfelt, very personal letter about your nomination and 
their feelings. But I want to move down a little bit or move on 
a little bit into our Bill of Rights and talk about the freedom 
of the press if you do not mind.
    This Administration's treatment of the press has been 
adversarial, let us say, at the least. Maybe that is a generous 
way of putting it, but I think it has actually been a little 
probably more towards vicious. The President in his first day 
in office attacked the media on their reporting about the 
inauguration and deemed the press the enemy of the people. And 
that's very dramatic. His fake news accusations have become 
something that has almost become a meme of sorts in our 
country, but very tragically around the planet.
    As you know, we are at a point now where we have the 
imprisonment, according to the Committee to Protect Journalism, 
we have journalists being imprisoned around the world at a 
pretty significant rate that is at a historical high. And there 
are actually about 24 journalists or, excuse me, 21 journalists 
that are now in prison in places like Turkey, in China on fake 
news charges.
    You recently--you are currently the head of the Central 
Intelligence Agency, which understandably should be a lot more 
opaque and does not engage. I think I heard you say earlier in 
this hearing that you have had just a handful of public 
engagements. But now you are going to be our Secretary of State 
and traditions going back from Jefferson to the more recent 
people you have talked to has a culture of much more openness 
towards the press.
    And so, let me just ask you just for the record real quick. 
You do not believe the press is the enemy of the state, do you?
    Mr. Pompeo. I do not, Senator.
    Senator Booker. I did not think so. And you are going to 
engage with the press in an open, be transparent, allow a 
robust engagement if I can say. I imagine that a yes.
    Mr. Pompeo. It is my every intention, yes.
    Senator Booker. Great. And then it comes to your posture 
towards the press as you travel internationally, you are going 
to become in many ways like the American that you are, sort of 
an apostle of the idea of the free press.
    Mr. Pompeo. Yes.
    Senator Booker. Thank you very much. I want to move on to 
Syria, if I may. The President, and you and I talked about some 
of the--you and I both commented, I believe, that we need to 
counter Iran, the threat of Iran. And then I talked to you 
yesterday about sort of the incongruency about our policy in 
Syria. The President has announced that he would freeze $200 
million in stabilization assistance, and that the U.S. would 
pull out of ISIS as soon as--as soon as ISIS is defeated, he 
wants to pull out of--pull out as soon as possible. And I am 
wonder what is your--what is your view on that presidential 
intention is.
    Mr. Pompeo. Senator, it is an active discussion. I want to 
be a little bit careful. With respect to the longer-term 
strategy in Syria, I can speak to that as opposed to the near-
term events that are--that are before us now. I do not want to 
prejudge what the Administration is going to choose to do.
    With respect to the President's statement about departing 
from Syria, which I think is at the core of your question, I 
think the President made clear he wants to get out, that he 
does--he does want to have fewer American men and women there. 
We have fewer there today, men and women there today than we 
had some period ago, all right? We are trying to, Secretary 
Mattis is trying to get the footprint right there to achieve 
the American objective.
    It is also the case that we hope that we can find partner 
forces to help achieve some of the very same goals that you 
referenced in your question. But I think--I think we would all 
agree to the extent we can achieve those objectives for 
America, do it with fewer American men and women on the ground 
and better diplomacy, that is the task that is before us.
    Senator Booker. And I know this was explored before, I just 
want to ask it very simply. Does the President have the 
authority to launch strikes against the government of Syria?
    Mr. Pompeo. Senator, yes, I believe that he does.
    Senator Booker. You believe he does. So, you do not believe 
there should be a new--there is a need for a new authorization 
for the use of military force to cover such an attack.
    Mr. Pompeo. Senator, I believe that he has the authority he 
needs to do that today. I do not believe we need a new AUMF for 
the President to engage in the activity that you described. I 
think I said earlier, if I am confirmed, I am looking forward 
to working with you. I do believe it is important that we 
refresh the AUMF, that we bring it--bring it forward, and we 
have current members serving who have supported the policies of 
the United States with respect to the use of force.
    Senator Booker. And let me just say in closing because I 
was very grateful for our conversation privately, but I just 
want to have it said out there in the public. Myself and 
Senator Flake, and especially who I would consider a specialist 
on our--on our committee, Senator Coons, our focus on issues in 
Africa from the Sahel region down to what I think Senator Flake 
asked you directly about, which was Zimbabwe.
    Mr. Pompeo. Zimbabwe, yes.
    Senator Booker. The feeling that I got from my trip 
recently was this feeling of neglect, not just from our foreign 
countries, but in many ways a yearning for more engagement from 
the State Department. Clearly, they are essential U.S. 
interests there. Clearly, the Chinese activities are something 
that I know you find concerning. I just want to make sure and 
hear for the record what you told me privately, that this will 
be a priority for you, that you will invest your time and 
attention to in a significant way, not only in boosting morale, 
filling positions, but also putting forth a real strategy to 
deal with everything from the humanitarian crisis in Sudan and 
Congo to the political crises and challenges we see in places 
like Zimbabwe and South America--South Africa.
    Mr. Pompeo. Senator, I think I confirmed that for you 
yesterday, but I am happy to confirm it here as well. Full 
scale, right, from humanitarian needs to all the other elements 
of U.S. diplomatic power.
    Senator Booker. Thank you, sir.
    The Chairman. Before moving to Senator Markey, the 
refreshing of the AUMF you are talking about was the 2001-2002.
    Mr. Pompeo. Yes, sir. I was thinking in particular at that 
point the 2001 AUMF.
    The Chairman. And I assume, again, when you talk about the 
strikes in Syria, the President having the authority, you are 
talking about surgical strikes, not prolonged efforts.
    Mr. Pompeo. That is correct. Yes, Senator Corker.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman. Mr. Pompeo, I 
would like to like at your record on human rights a little 
closer. Next Monday is the fifth anniversary of the Patriot's 
Day Marathon bombing in Boston. And it, of course, was a 
horrific day in our history, and it was something that proved 
once again that we are Boston strong. But following those 
attacks, you falsely alleged that American Muslim leaders were 
``potentially complicit'' in violent acts for failing to speak 
out, even though the American Muslim community and its leaders 
had already condemned that attack.
    Because words matter, Mr. Pompeo, I have to ask you, do you 
believe that your statements falsely accusing American Muslim 
leaders of being complicit in the Boston Marathon attacks 
exemplifies the kind of moral leadership that our country 
should have in the post of Secretary of State?
    Mr. Pompeo. Senator, I think I answered this for you 
yesterday, but I am happy to do it here again. I will answer it 
the same way. I felt then and feel now that everyone has a 
responsibility to speak out about these terror attacks. The 
threat from extremist terror around the world remains in spite 
of all the good efforts and all the resources that have been 
provided. That is what I was speaking to that day in the 
aftermath of the attacks to which you refer, those horrific 
attacks. That is what I was speaking to.
    It is true that many leaders speak out about it. I am not 
sure that we ever get to a point where it is enough. And what I 
said to Senator Booker yesterday I am happy to share with you 
as well. We talked about it in a different context, but it is 
the case that different people have greater and lesser 
credibility on particular issues, and that is what I was 
speaking to there. It is--I'm sorry.
    Senator Markey. Do you--do you apologize to the Boston 
Muslim leadership for those comments in relationship to that 
incident? Do you apologize to them?
    Mr. Pompeo. Senator, it was not my intention in any respect 
to suggest that they were part of the chain of events that led 
to the attack. That was not my point at all.
    Senator Markey. In your opinion--in your opinion, were they 
complicit?
    Mr. Pompeo. Senator, my statement is clear. We are all to 
the extent we are silent, to the extent we do not respond to 
this, to the extent we do not make sure that our educational 
system----
    Senator Markey. Well, that is what I am asking you.
    Mr. Pompeo. This is it. We all--we all, Senator.
    Senator Markey. The Boston Muslim community came out and 
condemned it.
    Mr. Pompeo. Senator, then----
    Senator Markey. Is there any way in your mind--is there any 
way in your mind that they are complicit?
    Mr. Pompeo. Senator, to the extent they condemned the 
attacks, they did what it was that I think we all have the 
responsibility to do.
    Senator Markey. All right. To the extent to which they did. 
Well, they did.
    Mr. Pompeo. Well, then, Senator, then yes. I am happy that 
they did that. I think that is a good thing. I think it 
decreases the risk that an event like this is ever likely to 
happen again.
    Senator Markey. Yeah. Well, you are being nominated for the 
position of Secretary of State, and of course the Rohingya are 
largely Muslim.
    Mr. Pompeo. Yes.
    Senator Markey. And the Burma military are engaged in a 
vicious destruction of this culture, and this brutal campaign 
has already driven over 600,000 Rohingya survivors to 
Bangladesh. What is your message to the Burma military with 
regard to how you view Muslim leadership inside of Burma who 
are fighting to protect the very existence of this Muslim 
minority inside of Burma?
    Mr. Pompeo. American diplomats have and must continue to do 
our level best to stop this tragic activity. And that is the 
Burmese military in particular who is responsible for that.
    Senator Markey. Right. Well, I think it is important that 
there be a moral clarity that is uttered by the Secretary of 
State, by the President of the United States about the Muslim 
population of the planet. You know, leaving an impression that 
somehow or other they are less entitled to full protection or 
respect for their commitment to human rights, I am afraid it 
says to those who wish to use the Muslim population as an 
excuse for actions that would otherwise be condemned is 
something that the United States leadership, and you as 
Secretary of State potentially, have to be responsible for 
dispelling on an ongoing basis.
    And that is what I am afraid of in terms of the message 
that is sent, unless you explicitly make clear that in your 
opinion, there are isolated incidences of abhorrent Muslim 
activity. But in the whole, these are good people. They are 
religious people, and they have to be given all the full 
protections that every other religion of people are given. And 
that is your responsibility.
    Mr. Pompeo. Senator, I agree with you. I am happy to say 
that. I agree it is a tiny fraction. I think I have said that 
previously publicly as well. No one has brought that forward 
today. Perhaps I should have done so myself, but I agree. I 
agree with almost everything you just said. Maybe everything, 
but I would need to go grab the record. With respect to 
treating them each with the individual dignity they deserve, 
and to treating their faith in that way, I am with you, 
Senator.
    Senator Markey. Thank you, Mr. Chairman.
    The Chairman. I do wish the Buddhist leadership in Burma 
would conduct themselves a little better as it relates to the 
Rohingya. I will say that.
    Senator Markey. And I agree with you a hundred percent. 
There is a religious struggle there, and I do not think that 
any demonization by any American of Muslims in general, those 
being not respectful of human dignity, human rights, is very 
important.
    The Chairman. I agree.
    Senator Markey. And I just think we have to hear it 
consistently on a bipartisan basis at every level, especially 
when we reach this level. Thank you, Mr. Chairman.
    The Chairman. Senator Merkley.
    Mr. Pompeo. Thank you, Senator Markey.
    The Chairman. I thought it was Merkley, but I will go to 
Murphy. [Laughter.]
    Senator Murphy. Markey, Merkley, Murphy. It is hard. Our 
ears are not--[Laughter.]
    The Chairman. No, no, I do not want to be saying it 
incorrectly. Actually, it is Senator Murphy. I have an early 
bird rule here, and I sometimes get confused. Go ahead.
    Senator Murphy. Thank you, Mr. Chairman. We are belaboring 
these questions of authorization, and I suspect you know why. 
Many of us have had misgivings about how the executive has 
expanded the ability to act unilaterally without congressional 
authorization both in this Administration and in prior 
Administrations. There are differences, though. President Obama 
did not think he had the authority to launch missile strikes 
against Syria without congressional authorization, this 
Administration believes it does, but the concern spans both. 
So, I will ask one last question on this subject.
    The rationale for U.S. military troops in Syria has been to 
fight ISIS, and I think many of us support that even if we do 
not believe the authorization exists. We believe in the 
mission. The Administration has started to signal publicly that 
there is a follow-on mission for our existing presence, which 
is to combat the influence of Iran in the future settlement of 
accounts inside Syria. Do you believe that U.S. troop presence 
is necessary inside Syria to try to stem Iran's influence? And 
if so, what is the legal basis for that activity?
    Mr. Pompeo. Senator, I will concur with you. While it is 
complicated, the legal basis gets much more difficult. The 
clarity that I think we have today--it sounds like you may 
disagree about the clarity today, I think we are coloring 
inside the line there--becomes much more difficult.
    Senator Murphy. and do you believe that a troop presence is 
needed there to try to combat Iranian influence?
    Mr. Pompeo. Senator, it depends on precisely how that 
mission is constructed. No, I think there are other places, 
lots of other tools in the American foreign policy toolkit that 
will allow us to achieve that. It may be the case that the 
President concludes that we have got to do it that way in order 
to achieve his goal there. And I am confident that the 
Administration will comply with the law if it chooses to do 
that.
    I think--I think it is hard to--we talked about the JCPOA 
singularly. We have talked about now this element of countering 
Iran singularly. We talked about sanctions on Iran singularly. 
The truth of the matter is that the strategy that has been laid 
out by the Administration comprises multiple parts. And to the 
extent one piece or another is succeeding or delivering the 
outcomes we are looking for, right, today the rial--I guess 
this is yesterday--58,000 to the dollar. That is a very weak 
Iranian economy.
    The Iranian people are about done with trying to figure out 
how it is that they are going to benefit from the place they 
find themselves today. They are frustrated with the economic 
failures of the administration in Iran. There are lots of tools 
in the toolkit, Senator Murphy, and I cannot answer without 
considering each of them, precisely how I think about the 
continued presence there while I will concede the legality is 
more complex.
    Senator Murphy. More complex. I think it is charitable to 
call what we are doing in Syria today a strategy I think as we 
watch a President move troops in, then propose to pull them 
out. It is hard for us and our allies to figure out exactly 
what the strategy is there.
    Finally, I just wanted to ask you a question that we talked 
about privately, and that is how you perceive the utility of 
the toolkit that is given to a secretary of state. And I am of 
the belief that, you know, our foreign policy toolkit is badly 
mis-resourced today. I am a big believer in peace through 
strength, but I am not sure it makes sense to spend 20 times as 
much money on the military as it does on diplomacy, especially 
when, you know, countries like Russia are standing up all sorts 
of non-kinetic capacities in order to win friends and influence 
adversaries.
    And one of the frustrations we had with Secretary Tillerson 
was that he was fond of telling this committee that if we gave 
him one more dollar, he would no idea how to spend it. This was 
one of his favorite phrases when he met with us. And it just 
seemed to belie the reality of the world in which there are 
lots of threats that you cannot meet with all of the great 
military equipment we make in Connecticut. You have to go to 
actually stand-up capacities that the State Department and 
USAID has alone.
    So, I just wanted to get your thoughts on that theory of 
the international case.
    Mr. Pompeo. Senator, I will--if I can broaden out just a 
little bit, I will answer that one. I will take the extra 
dollar. I am convinced that I can figure out ways to add value, 
to create American national security value with resources. And 
by the way, when I do not need the dollar, I will send it back, 
too; that is, if I conclude that a program does not work, I 
will let you know I think this does not work, and we will work 
our way through that.
    We have come through 15 years at a Nation where the CT 
fight has been at the front of much of the way we have thought 
about the world, and now these challenges, I think, do move on. 
I think--I think we are out of balance with respect to how we 
are thinking about using these tools and these levers of power. 
So, I think--I think your sense of that is correct.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Senator Merkley.
    Senator Merkley. Thank you. Will you work to have our 
President be a visible, vocal, forceful advocate against the 
genocide and ethnic cleansing in Burma?
    Mr. Pompeo. I am sorry, was that a question?
    Senator Merkley. That was a question. Will you----
    Mr. Pompeo. Will I work? Yes.
    Senator Merkley. Yes.
    Mr. Pompeo. Yes.
    Senator Merkley. Thank you. We would love to hear President 
Trump speak out on that topic. Transparency in resource 
extraction payments is a principle designed for situations like 
that in Equatorial Guinea where the oil payments go directly to 
the family rather than to the treasury of the country. It has 
vast wealth, but most people live under $2 a day. Do you 
believe in transparency, and we should work to increase 
transparency in resource extraction payments?
    Mr. Pompeo. Senator, I know it sounds right, but I do not 
know much about the situation there in that country in terms of 
where the resources are going. So, if I might take that 
question and get you an answer. Yes, as a general matter, I 
think that is appropriate.
    Senator Merkley. It is an issue in many, many countries 
where the country is more or less robbed while the people live 
in abject poverty.
    The War Powers Act you referred to earlier, and we talked 
about it in the context of Libya. It says that the President 
can send U.S. armed forces into action abroad only under 
statutory authorization by Congress or in case of ``a national 
emergency created by an attack upon the United States, its 
territories, or possessions.'' Do you believe in a situation in 
Syria where neither of those two qualifications are met that, 
in fact, the President has the power to send U.S. military 
forces into action?
    Mr. Pompeo. I do with the--with the clarification that 
Senator Corker so gratefully provided to me in response to the 
previous time I answered that question.
    Senator Merkley. That is a longer conversation, but that 
does go against most of the international findings of law, that 
there has to be a threat, and it is our law as well.
    The 2018 CIA assessment presented to Congress said the 
impacts of long-term trends towards a warming climate are 
likely to fuel economic and social discontent, and upheaval. 
Secretary Mattis and General Dunford have said that climate 
change is a national security threat multiplier. Do you believe 
that climate change is a threat multiplier, and will you 
undertake to help lead the world in reducing this threat by 
reducing carbon dioxide pollution that is heating the planet?
    Mr. Pompeo. Senator, I am familiar with the report that the 
agents that I was leading issued. I see no reason to take any 
fault with what it committed to. I also believe that the 
climate is changing, that there is a warming taking place. I am 
happy to concede that there is likely a human component to 
that. And I am equally prepared to tell you that as we find 
tools that are effective to prevent risk to the United States 
that are national security challenges, the State Department 
ought to appropriately be involved in them.
    Senator Merkley. You are heading in the right direction. We 
do not have you quite--on a major threat to the planet. It is 
interesting that our own EPA this year said greenhouse gases 
from human activities are the most significant factor in 
climate change since the mid-20th century. I see all the 
impacts in Oregon, but we also see it in national defense 
situations around the world, including Syria where it was a 
prolonged drought that drove people into the cities, and was 
the spark that ignited the civil war that became the complete 
fiasco and mess that we have now. And that is the sort of thing 
the Defense Department is talking about when they are talking 
about a threat multiplier.
    And I just saw this in Northern Africa as well. The 
president of Somalia, who is also an American citizen, made a 
powerful case that that is a huge source of disruption of his 
ability to restore normal rule of law in the--in the country. 
So, I do hope the world is looking at this and saying where is 
the U.S. leadership. I hope you will be a leader in taking on 
the carbon pollution because we do not have a lot of time on 
this. We have continued to investigate it and----
    Mr. Pompeo. I will, Senator.
    Senator Merkley.--and wrestle with it.
    Mr. Pompeo. I will, Senator, I promise you.
    Senator Merkley. It is a----
    Mr. Pompeo. We had a good discussion about this yesterday.
    Senator Merkley. I also saw in Africa the role the UNFPA, 
and it is providing healthcare to women who are coming from 
extreme conflict and duress, a combination of corruption, and 
climate change, and civil conflict. And, in fact, 61 percent of 
the maternal deaths in the world take place in humanitarian 
crises in fragile settings where healthcare services are 
unavailable.
    The Administration has not wanted to restore funding to the 
UNFPA under the concern that they might possibly be involved in 
supporting programs that provide abortions, but there has been 
absolutely no evidence. Will you look into that issue, and if 
there is--if that test of the Administration is not met, fight 
to restore this funding for the health of women around the 
world?
    Mr. Pompeo. I will look into it, and if the data set is as 
you described, if we become convinced of that, you have my 
word, we will work on it.
    Senator Merkley. Thank you, and my time is up.
    Mr. Pompeo. Great. Thank you, Senator.
    The Chairman. Thank you. I know Senator Murphy had some 
questions also about Syria and the AUMF. I know you did also. 
Having been involved in that and working with Senator Menendez 
to write the AUMF on Syria, the Administration's position was 
they had the authority without Congress, but numbers of seniors 
convinced the Administration that our country would be stronger 
if they came to Congress for an AUMF. I think they fully felt 
they had 100 percent authority to make the kind of strikes they 
were going to make. It was going to be a 10-hour operation. 
There were going to be no ground troops, and they felt they had 
that authority.
    Senator Menendez I know wants to have some closing 
questions and comments, and I am glad to offer that time for 
him to do so.
    Senator Menendez. Thank you, Mr. Chairman. And I would 
just, on your comment, remind us that when we passed that 
Authorization for the Use of Force, which then-President Obama 
took to the G20 summit, it convinced Putin at the end of the 
day to have Assad give up the chemical weapons that he had, at 
least at that time, which were internationally supervised and 
destroyed. And so, I think it is a powerful use of an 
authorization that got a goal at the time resolved without the 
firing of a single shot.
    Director, this breadth and scope of your potential job is 
so large that even with the hours you have spent, and I admire 
your tenacity there, we have not even really touched the 
surface. So, there are just a couple of things that at least, 
while I will submit a whole host for the record, but there are 
just a couple of things I want to ask.


    [The material referred to above (Additional Questions for 
the Record) is located at the end of this transcript, beginning 
on page 115.]


    Senator Menendez. Mexico is the second largest export 
market for goods and services produced by United States 
companies with American jobs--second largest in the world--yet 
our relations with them are the worst since the 1980s. The 
President using language and tactics reserved for our most 
ardent adversaries, has personally insulted the Mexican people, 
calling them ``murders'' and ``rapists,'' has threatened to 
deport young Dreamers, threatens to cut security assistance and 
cooperation, unilaterally suggested that that Mexicans are 
going to pay for a $25 billion wall that is offensive to them, 
to their people, and their culture.
    How are you going to deal with this if you become the 
Secretary of State? Do you think this is really the type of 
rhetoric that promotes the national interests and security of 
the United States with one of our more significant neighbors?
    Mr. Pompeo. Senator, I agree with you that Mexico is 
important, you called it significant. They are neighbors. My 
task, if I am confirmed, will be to work to develop a set of 
relationships there that benefit both countries, especially 
ours, as the Secretary for the United States. On the trade 
agreements, I have watched the team move forward trying to put 
America in a position that we have a trade deal that the 
President deems is fair and reciprocal. That is the objective. 
There are others. I have worked--I and my team have worked in 
Mexico extensively on the counter narcotics challenges that 
face us coming from that country. I will still be committed to 
doing that if I am the Secretary of State there----
    Senator Menendez. Well, I think your job is a lot more 
difficult in promoting our interests with the Mexicans if that 
continues to be the language of this Administration. I do not 
think we can meet the challenge of the opioid, heroin, and 
fentanyl crisis without Mexican cooperation as part of our 
challenge.
    Let me ask you this. I am glad to hear you are going to 
support a robust State Department. That is important for the 
Secretary of State. Will you oppose rescissions that are being 
contemplated on the State Department's budget?
    Mr. Pompeo. Senator, I have not seen the rescissions that 
have been talked about in the press. I will look at each one. I 
will determine whether they are--they are resources that are 
needed, and if they are, I will fight to--I want to make sure I 
get this right--to oppose the rescissions. I will make--I will 
make the case in the Administration to say that these 
resources----
    Senator Menendez. To oppose. Oppose. Is that what I heard?
    Mr. Pompeo. I will make the case to defend the resources 
that the State Department needs. So, if there are rescissions 
to resources I believe we need, I will be there arguing for----
    Senator Menendez. We talked about human rights. What do we 
in a country like Egypt which just had a sham election, you 
know, violates the rule of law with NGOs, both of the United 
States and others, ultimately violates the rights of its own 
people? What is our value-driven mission there?
    Mr. Pompeo. Senator, I spoke earlier, perhaps generically 
and not about Egypt in particular, about places we find complex 
challenges where different interests come into play. Our 
obligation is to do our best. We have a--we have a population 
of 80 million Egyptians with a weak economy that is subject to 
the threat of terror from its--many of its neighbors. There are 
multiple tasks that are--many of which are diplomatic, that we 
have to do with Egypt. As I have said before, when we come 
across a country that is engaged in human rights violations, 
things that are inconsistent with our values, we should call 
them out.
    Senator Menendez. Mm-hmm. You know, as we close here, I am 
trying to think about which is the Mike Pompeo that I am being 
asked to vote on. Is it the one that today said the solution 
for preventing Iran from obtaining nuclear weapons is through 
diplomacy, which I would agree, or is the one that said the 
only way to do that, in my judgment, is a regime change, in a 
speech of 2015. Is it the one that said, ``I have never 
advocated for regime change here today,'' or is it the one that 
said, ``should Mr. Kim vanish, given the history of the CIA, I 
am just not going to talk about it?'' The most important thing 
we can do is separate those two, right? Separate capacity and 
someone who might well have the intent to break those two.
    Is it the one that says the historic conflict between the 
United States and the Soviet Union, and now Russia, is caused 
by Russian bad behavior, which I agree, or is it the one that 
stood alongside the President when he said much of the bad 
blood with Russia is caused by the fake and corrupt Russia 
investigation headed by all Democratic loyalists or people that 
work for Obama?
    Is it the Mike Pompeo who said in his 2013 speech that the 
failure of Muslim leaders to repudiate acts of terrorism done 
in the name of Islam make them ``potentially complicit'' in 
these attacks and that this alleged behavior ``casts doubt'' 
upon the commitment to peace by adherents of the Muslim faith? 
Is it the one that in 2010 in a congressional campaign tweeted 
out to your supporters an article calling your opponent, an 
American of South-Asian heritage, a ``turban topper,'' stating 
that you thought it was ``a good read,'' an article that you 
tweeted that said your opponent, ``could be a Muslim, a Hindu, 
a Buddhist, who knows;'' or as a member of Congress when you 
co-sponsored legislation that sought to slow the spread of 
marriage equality. When the Supreme Court endorsed marriage 
equality in 2015, the highest court in the land, you said it is 
a shocking abuse of power, it flies in the face of centuries of 
shared understanding of our Constitution. Co-sponsored a bill 
to defund Planned Parenthood, called Roe v. Wade one of the 
worst decisions of the Supreme Court, versus against the 
reauthorization of the Violence Against Women Act, a bill that 
funds programs designed to help victims of violence that passed 
annually since 1994, and on and on.
    So, the Pompeo I hear today, is much more different than 
some of the Pompeo of the past. And so, I am trying to figure 
out which is the one that is going to act if he gets confirmed 
as the Secretary of State, because some of these things of the 
past I could never support. Some of the things you have said 
here today I could actually be supportive of. So, I hope you 
can help me understand this as we move forward in your 
nomination.
    The Chairman. Thank you. Well, Director Pompeo, thank you 
for being here today. I think you have answered questions 
succinctly and fully when necessary. And we are going to keep 
the record open until the close of business tomorrow. There 
will be numbers of QFRs from members. We hope you will answer 
them promptly. I know that you will.
    The Chairman. And just from my perspective, unless there is 
something that glaringly occurs between now and the time that 
we vote, I have to say I have not known Director Pompeo. Maybe 
we shook hands a couple times in years past. I do not remember 
if we did. No offense. I have not had much contact with you as 
the CIA director. But based on my personal meetings, and the 
phone calls, and certainly your outstanding testimony today, I 
think you are a person of high intellect. I think your 
background could not better to serve in this capacity.
    I think you have the personal characteristics to lead the 
State Department in a way that generates the kind of culture 
and leverage that we need around the world for active 
diplomacy. And for that reason, I plan to avidly support your 
nomination and confirmation. And I thank you for being here 
today.
    Mr. Pompeo. Thank you, Senator Corker. Thank you, Senator 
Menendez.
    Senator Menendez. Thank you.
    [Whereupon, at 2:59 p.m., the hearing was adjourned.]


                              ----------                              
 
      
      
=======================================================================


                          ADDITIONAL MATERIAL


=======================================================================

                                 
   Responses to Questions for the Record Submitted by Members of the 
                               Committee

                              ----------                              


 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                   Mike Pompeo by Senator Bob Corker


                            (Questions 1-10)

    Question 1.  Massive crises persist in sub-Saharan Africa, each of 
which has incalculable human costs and represent a threat to United 
States interests. What priority do you place on addressing the 
underlying drivers to such man-made crises such as poor governance and 
massive state corruption?

    Answer. If confirmed, I will prioritize improving governance and 
curbing corruption in sub-Saharan Africa. My understanding is that the 
Department is increasing the capacity of governments to develop 
stronger law enforcement partners; build transparent, accountable 
institutions; and strengthen compliance with international anti-
corruption standards. It is also important to support efforts that 
empower civil society, the private sector, and media. I will also 
support continued enforcement of sanctions that impose consequences on 
corrupt foreign officials and deter others from committing corrupt 
acts.


    Question 2.  How will you balance cooperation with important 
regional allies such as Ethiopia and Nigeria, with institutional 
reforms that will improve the prospect for stability and sustainable 
development?

    Answer. If confirmed, I will pursue balanced approaches in 
cooperating with allies such as Ethiopia and Nigeria, deepening our 
partnerships when appropriate and pushing for needed institutional 
reforms where possible. This will enhance regional stability while 
improving the prospect for long-term growth and sustainable 
development. I will review relevant U.S. strategies to ensure they 
reflect such balanced approaches.


    Question 3.  The President's emphasis in the South Asia strategy 
last August was on a strong regional and broader diplomatic effort. In 
order for reconciliation to be achieved internally, and a sustainable 
outcome established in the region, far more regional and global 
diplomacy will be required to establish a foundation for peace. This 
includes the national elections now on the horizon. As such a 
foundation is laid for negotiations on a political resolution among 
difficult neighbors and interested states, and as electioneering 
overtakes an already unsettled political environment, does the 
situation warrant State Department's reconsideration of a dedicated 
senior diplomat to shuttle among critical capitals from China to Europe 
and the Gulf countries, across many regional jurisdictions, to help 
achieve a nearer term outcome for Afghanistan?

    Answer. If confirmed, I will continue to evaluate progress these 
areas and will assess whether the Department requires the appointment 
of a Special Envoy or other personnel to facilitate reconciliation 
between the Afghan government and the Taliban.


    Question 4.  Open Skies: It is my understanding that on January 29, 
2018, the U.S. and Qatar reached a set of formal Understandings to 
address concerns that U.S. carriers have raised with respect to 
government support of Qatar Airways. The Understanding preserves the 
terms of the 2001 U.S.-Qatar Air Transport Agreement, gives carriers 
with the flexibility to exercise the rights provided by the agreement, 
and includes commitments for greater financial transparency and 
commercial terms of financing for Qatar Airways. As you may know, there 
are two distinct viewpoints among U.S. stakeholders regarding concerns 
over Open Skies agreements with Qatar and the United Arab Emirates 
(U.A.E). On one side, we have the three largest U.S. airlines 
(American, Delta, and United) seeking changes to these agreements. On 
the other, we have other U.S. passenger and cargo airlines, and the 
broader tourism industry strongly opposing any such changes. It is 
encouraging, however, that both sides of the debate applauded the 
resolution that was reached between the U.S. and Qatar, which permits 
carriers to continue exercising the rights provided under Open Skies 
and ensures greater transparency. As similar negotiations take place 
with the U.A.E., will you commit to doing what you can to ensure that a 
similar resolution is reached, where the terms of the U.S.-U.A.E. Open 
Skies agreement are preserved, the rights provided under agreement may 
still be exercised and perhaps additional financial transparency 
measures are put in place?

    Answer. If confirmed, I would continue to support our international 
agreements and maintain Open Skies to ensure U.S. companies have the 
opportunity to grow and succeed globally. I would support the 
Department's efforts to implement the understandings reached with Qatar 
that address U.S. industry concerns regarding subsidized competition. I 
would also ensure that any conversations with the United Arab Emirates 
(UAE) regarding unfair subsidies are conducted in a manner that 
provides beneficial results for as many stakeholders as possible. As 
you indicate, industry stakeholders with different interests have 
responded favorably to the understandings with Qatar. I commit to 
making an effort to find a similar solution with the UAE.


    Question 5.  North Korea: If confirmed, how do you plan to direct 
the State Department to approach preparations for the expected summit 
between President Trump and Kim Jong Un in order to break the long 
pattern of failed policies to achieve the successful denuclearization 
of the Korean Peninsula? Is it possible to craft a comprehensive North 
Korea policy that is based on experience, specifically the lessons 
learned from the failed policies of successive administrations, rather 
than the false hope that has driven North Korea policy for nearly 
thirty years? If so, what does such a policy look like?

    Answer. In past negotiations, North Korea has used tactics such as 
brinksmanship, deliberately ambiguous language, and last minute changes 
to drive wedges among other parties and to improve its position before 
and during talks. History also shows North Korea has a record of 
reneging on agreements, often by reinterpreting the conditions of a 
deal or by withdrawing and blaming other parties for the failure. North 
Korea has also set itself up to walk away from past deals by offering 
reversible tokens in exchange for tangible gains, such as economic aid.
    While ruling out no diplomatic tools, we could counter these 
tactics in four ways: by clearly defining terms and specific bilingual 
text in any agreement with North Korea; by constantly solidifying a 
unified position with our key allies and partners; by keeping up 
pressure until a deal is made; and by starkly identifying consequences 
if North Korea backs out of an agreement.


    Question 6.  Tibet:  The core piece of legislation guiding U.S. 
policy toward Tibet--the Tibetan Policy Act of 2002--established the 
Office of the Special Coordinator for Tibetan Issues at the State 
Department, a position that is currently vacant. If confirmed, do you 
commit to continue the past practice of filling this position?

    Answer. If confirmed, I will support implementation of the Tibetan 
Policy Act.


    Question 7.  I am concerned about the risks of withdrawing from 
Iraq again too soon. What can be done to consolidate post-ISIS gains in 
Iraq? How can we bolster our stabilization and outreach efforts there?

    Answer. Setting the conditions for the safe and voluntary return of 
civilians to their homes in liberated areas is key to preventing the 
return of ISIS. I understand that the U.S. government is working 
through the United Nations to help Iraqi counterparts achieve that. 
After the liberation of a town, clearance of explosive remnants of war, 
including deadly improvised explosive devices (IEDs), is prioritized. 
This is followed by quick-impact projects to restore essential 
services, such as electricity and water; efforts to restore 
livelihoods; the promotion of reconciliation within local communities; 
and the building of capacity of local leaders to respond to immediate 
needs. I further understand that this model is bearing fruit and has 
made it possible for 3.6 million Iraqis who were displaced by ISIS to 
return to their homes. As the Iraqi government transitions to longer-
term stabilization and recovery projects, continued U.S. security 
cooperation will be necessary to build Iraqi capacity to ensure the 
lasting defeat of ISIS.


    Question 8.  Special Envoys: In August of last year, Secretary 
Tillerson sent Congress a letter regarding his plan for organizing the 
dozens of special envoys at the State Department. My staff provided 
extensive feedback to the Department regarding the plan, and I was 
supportive of this attempt to deal with what I view as the unnecessary 
proliferation of these positions. At the time Secretary Tillerson left 
the Department, it is my understanding that the implementation of this 
plan was already under way. Do you plan to continue implementing the 
organizational plan for the special envoys that was begun under 
Secretary Tillerson?

    Answer. I understand that Secretary Tillerson presented a proposal 
to Congress on Special Envoys. I look forward to reviewing it 
thoroughly and discussing it with the Committee, if confirmed.


    Question 9.  Haiti:  According to a recent report, most trade 
between Haiti and the Dominican Republic occurs as contraband and does 
not pass through Haitian Customs, depriving Haiti of as much as $400 
million in revenue. What more can the U.S. do to work with the 
Government of Haiti to have effective border control measures, crack 
down on illicit contraband trade between Haiti and the Dominican 
Republic, and bring sorely needed revenues to the Government of Haiti?

    Answer. If confirmed, I would pursue the successful completion in 
this fiscal year of the U.S. AID Customs Support project, which I 
understand is a $4 million, three-year initiative with the objective of 
modernizing the Haitian customs service processes for revenue 
collection, traveler processing, and contraband interdiction. If 
confirmed, I would also continue the Department of State's efforts to 
provide training, material support, and technical expertise to build 
the capacity of the Haitian National Police (HNP) and strengthen the 
rule of law. The graduation and deployment of professionally trained 
security personnel from the Haitian National Police School is critical 
to establishing and maintaining border and internal security.


    Question 10.  Honduras:  Division K, Title VII, Section 
7405(a)(3)(B) (xii) of the Consolidated Appropriations Act, 2018 
requires the Secretary of State to certify that the Government of 
Honduras is ``resolving commercial disputes, including the confiscation 
of real property, between United States entities and such government.'' 
In general, how many cases of commercial disputes and the confiscation 
of real property has the Secretary of State certified as having been 
resolved in Honduras? Specifically, what steps remain to be resolved in 
the case of the dispute between CEMAR owned by U.S. citizen Oscar Cerna 
and the Government of Honduras and on what specific basis, including 
actions by the Government of Honduras, has the Secretary of State 
previously certified that Honduras is resolving the CEMAR case?

    Answer. My understanding is that, while certifications have not yet 
been made under the 2018 Act, on November 28, 2017, the Department 
certified that the Government of Honduras is taking effective steps to 
resolve commercial disputes, including the confiscation of real 
property, between U.S. entities and Honduras. For example, the Honduran 
government's interagency working group met 19 times between October 
2016 and September 2017 to discuss ways to resolve disputes with U.S. 
citizens.
    I understand the U.S. embassy has effectively assisted U.S. 
investors, including Oscar Cerna, who have disputes with the Government 
of Honduras by scheduling meetings with key actors in the Honduran 
government and by supporting meaningful dialogue and encouraging both 
sides to take advantage of neutral dispute resolution.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                   Mike Pompeo by Senator James Risch


                            (Questions 1-12)

    Question 1.  The 2018 National Defense Strategy declared that 
``great power competition, not terrorism, is now the primary focus of 
U.S. National security.'' Do you agree with the Defense Department's 
assessment? How do you believe U.S. diplomacy should change to reflect 
greater importance on China and other great powers?

    Answer. Yes, I agree with the DoD assessment. Yet, the terror 
threat against the U.S. homeland remains a significant risk to our 
citizens. If confirmed, I am committed to implementing the President's 
goal of seeking a constructive and results-oriented relationship with 
China that corrects the imbalances in our relationship.
    If confirmed, I will not shy away from speaking forthrightly about, 
and contesting, Chinese policies and actions that undermine the 
international order that has fostered peace and prosperity for the 
world for decades. At the same time, the United States should continue 
to cooperate with China when in our national interest, including in 
addressing the threat posed by North Korea and the flow of illegal 
opioids from China.
    If confirmed, I will also continue to use our diplomatic and 
foreign assistance tools to pursue critical counterterrorism objectives 
around the world to protect the homeland and American interests 
overseas.


    Question 2.  We now have confirmed reports that North Korean leader 
Kim Jong Un agreed to meet with President Trump and discuss the 
``denuclearization'' of the Korean Peninsula. However, the North Korean 
definition of denuclearization often refers to the U.S. presence on the 
peninsula. What does ``denuclearization'' mean to you? Would you 
support the removal of U.S. forces from Korea?

    Answer. Denuclearization means the complete, verifiable, and 
irreversible abandonment by North Korea of its nuclear weapons and 
existing nuclear and delivery programs. For 65 years, the U.S.-Republic 
of Korea (ROK) Alliance has served U.S. interests, those of our allies 
and partners, and the broader international community by promoting 
stability, security, and prosperity in the region. Our commitment to 
the U.S.-ROK Alliance is ironclad.


    Question 3.  NATO is one of the most successful military alliances 
in history, and while it faces a number of challenges, including 
ensuring the proper amount of defense spending, it is also a political 
alliance that nations aspire to join. With a robust set of requirements 
to join, do you fully support NATO's Open Door Policy?

    Answer. I do. U.S. support for NATO's Open Door policy has been 
unwavering since the Alliance's foundation.
    Montenegro's accession last year demonstrates that NATO's Open Door 
policy remains viable and no third country has a veto on NATO 
membership. NATO's door remains open to those European countries that 
share our values, contribute to the common defense, and strive to 
achieve security, prosperity, and freedom for their people. If 
confirmed, I will continue to work with aspirants, both bilaterally and 
through NATO structures, to assist them to make the reforms necessary 
to meet NATO's high standards, contribute to security, and to accept 
the risks and responsibilities of membership.


    Question 4.  The Obama administration's policy toward Russia was to 
contest Russia where we must and cooperate where we can. We are now 
confronting Russia on a growing set of issues: Ukraine, Syria, 
Afghanistan, assassinations on NATO territory, North Korea, election 
interference. Do we need a new policy approach that reflects all these 
issues? What would be your strategy toward Russia?

    Answer. I share the concern about Russian aggression, and will work 
to implement the Administration's strategy toward Russia, which 
balances strength and deterrence with the need to maintain 
communication on core issues of national security concern. We must be 
clear-eyed in calling out Russia's transgressions, frank in our 
dialogue with Moscow, united with Allies and partners in confronting 
Russia, and resolute in raising the costs of aggressive Russian 
behavior. We must actively expose to the world Russia's destabilizing 
activities, and build the resilience of U.S. Allies on NATO's eastern 
flank to improve their defenses and counter disinformation and malign 
influence. I also believe we need to ensure NATO has the right 
deterrence and defense posture in light of our assessment of Russia's 
actions. At the same time, we must be open to cooperating with Russia 
where important to our national security interests.


    Question 5.  From your time as CIA Director, do you believe the 
U.S. government has the expertise within its ranks that is necessary to 
understand and craft a long-term response to the Russia threat? What 
additional resources are needed at the State Department?

    Answer. The Department of State is fortunate to have a broad range 
of experienced professionals focused on U.S. relations with Russia, 
including on areas of global and bilateral concern. This includes our 
Ambassador to Russia, Jon Huntsman, his staff, as well as a strong team 
of experts at the Department of State. Despite Russia's actions against 
U.S. mission diplomatic staffing, both the Russian-government imposed 
drawdown of our personnel last year and the expulsion of 60 U.S. 
diplomats in April, the U.S. Mission team continues to serve with 
professionalism and an unwavering commitment under difficult 
conditions. I understand the Department has planned to expand its 
Russia expertise in Washington as it ramps up the work of the Global 
Engagement Center. If confirmed, I will aim to foster a diverse and 
inclusive team and work to ensure our personnel have the resources 
necessary to carry out their work on behalf of the American people.


    Question 6.  A number of issues, including U.S. support for Kurdish 
groups in Syria and imprisonment of U.S. citizens, have strained the 
U.S.-Turkish relationship. While there is still strong defense 
cooperation with Turkey, there seems to be little agreement elsewhere. 
Do we need to have a relationship with Turkey that balances military 
cooperation and the development of strong institutions in Turkey, or 
should the U.S. consider Turkey a lost cause?

    Answer. It is in the U.S. national interest for Turkey to be a 
stable, democratic, prosperous, and reliable Ally. The United States 
has long supported Turkey's democratic development because it believes 
that respect for the rule of law, judicial independence, and freedom of 
the press can again be sources of Turkey's strength and expand our 
potential for partnership. If confirmed, I will continue efforts to 
strengthen Turkey's democratic institutions while advocating for 
satisfactory resolution in the cases of U.S. citizens detained on 
dubious charges under state of emergency provisions. As a frontline 
Ally facing profound internal and external challenges, Turkey requires 
patience and careful diplomacy to keep it anchored in the West, on the 
Euro-Atlantic path, and committed to playing a constructive role in its 
neighborhood. Turkey is a key member of the Global Coalition to Defeat 
ISIS, hosts U.S. forces at Incirlik Airbase in Adana, and contributes 
forces and support to NATO missions, including in Afghanistan and 
Kosovo. Where divergences exist on Syria, it is my understanding that 
there are ongoing diplomatic efforts to work through the issues. If 
confirmed, I look forward to overseeing such important efforts.


    Question 7.  Chinese influence in Europe continues to grow. It has 
invested billions across Europe and has sought to acquire strategic 
infrastructure and companies in Europe. European countries are just 
starting to raise concerns and consider laws to limit Chinese 
investment in Europe, but some countries already limit their criticism 
of China due to the vast amount of investment. How should the U.S. 
respond to growing Chinese influence in Europe?

    Answer. China is playing a greater role in the international system 
and it clearly seeks to expand its influence. The National Security 
Strategy recognizes that the United States is operating in a 
``competitive landscape'' in foreign affairs. If confirmed, I would 
deepen our collaboration with our Allies and partners to contest 
China's unfair trade and economic practices and influence campaigns, as 
well as closely review its acquisition of sensitive technologies. We 
have a shared interest with European countries to ensure inward 
investment does not undermine our prosperity or threaten the security 
of our energy supply, telecommunications, transportation networks, and 
other critical infrastructure. Some of our European partners are 
considering establishing or strengthening mechanisms for the national 
security reviews of inbound investments. If confirmed, I will work 
closely with the Department of the Treasury and other U.S. government 
agencies to deepen our engagement with European partners on these 
issues.


    Question 8.  President Trump has been clear that flaws in the Iran 
nuclear deal must be addressed if the U.S. is to remain in the deal. We 
engaged the Brits, French, and Germans to see if an agreement could be 
reached to address issues with the JCPOA. Do you support these efforts? 
How would you go about seeking agreement with our allies on the future 
of the JCPOA?

    Answer. President Trump is prepared to work with partners to 
address deficiencies in the Joint Comprehensive Plan of Action. There 
has been an active, on-going policy discussion with E3 and EU allies 
regarding how to address these issues, and the goal of that discussion 
is clear: to fix the flaws in the nuclear deal. If confirmed, it will 
be my immediate priority to work with those partners to determine if 
such a fix is achievable.


    Question 9.  If ultimately the President decides to walk away from 
the JCPOA, how would you recommend the U.S. proceed? How would you 
ensure Iran never obtains a nuclear weapon?

    Answer. This Administration is committed to preventing Iran from 
developing or obtaining a nuclear weapon. No option is off the table. 
Regardless of the future of the JCPOA, Iran's nuclear activities must 
remain exclusively peaceful and Iran must cooperate fully with its 
continuing Non-Proliferation Treaty and related IAEA safeguards 
obligations. In this regard, the United States will continue to 
strongly support the IAEA's important work. If confirmed, I look 
forward to working with Congress and our international partners toward 
a solution that prevents the emergence of a nuclear-armed Iran and 
prevents Iran from developing intercontinental ballistic missiles that 
undermine regional and international peace and security.


    Question 10.  While the JCPOA suspended nuclear sanctions against 
Iran, the U.S. has retained the right to enforce and impose new 
sanctions on Iran for its support of terrorism, human rights abuses, 
arms trafficking, and development of ballistic missiles. What steps 
will you take to respond to Iran's illicit activities, including 
support for terrorism, arms trafficking, human rights abuses and 
ballistic missile development?

    Answer. The Administration's comprehensive Iran strategy focuses on 
neutralizing Iran's malign activities, particularly its support for 
terrorism and militants, cyberwarfare, ballistic missiles, and use of 
proxy forces in Syria, Iraq, and Yemen. Since the beginning of the 
Administration, the U.S. Government has sanctioned more than 100 
Iranian individuals and entities under a range of sanctions 
authorities. If confirmed, I will continue the Administration's policy 
of enforcing sanctions on the full range of Iran's illicit activities 
as well as utilizing all the diplomatic tools at my disposal to build 
strong coalitions to counter Iran's destabilizing behaviors.


    Question 11.  Iran has played a leading role in insuring the 
survival of the Assad regime, providing Assad with senior military 
advisors, ordered Hezbollah and Shi'a militants from around the region 
to fight, and provided weaponry, cash, and oil to the war effort. It 
appears Iran is seeking a permanent presence in Syria. What are the 
strategic goals for the U.S. in Syria? Do you believe we have a 
strategy to accomplish these goals?

    Answer. The Administration's primary mission in Syria is to defeat 
ISIS and that mission is not yet complete. The other objective is to 
achieve a diplomatic outcome that leads to stability and a decrease of 
violence so that the Syrian people ultimately can govern themselves in 
a post-Assad Syria. The Administration also has a new comprehensive 
strategy to counter the broad array of Iran's malign activities, 
including its support for the Assad regime, Hizbollah, and other 
proxies. If confirmed, I will use all of our diplomatic tools at the 
State Department to advance the President's strategies.


    Question 12.  Hezbollah remains one of the deadliest terrorist 
organizations, and their growing arsenal of missiles and military 
hardware along Israel's border is greater now than it has ever been. 
Hezbollah is also firmly entrenched in the Lebanese government. How can 
we stop Iranian resources from going to Hezbollah? What are your 
thoughts on continued U.S. assistance to the Lebanese Armed Forces? 
Should we consider stopping aid?

    Answer. I share your concern about Hizballah's destabilizing role 
in Lebanon and in the region. To curb Hizballah, the Departments of 
State and Treasury have utilized their respective sanctions authorities 
to target Hizballah and its resources as well as Iran's Islamic 
Revolutionary Guard Corps, a key Hizballah supporter. If confirmed, I 
will support exercising these authorities to the fullest extent 
possible and encourage our partners around the world to enhance their 
own efforts to degrade Hizballah's capabilities and dismantle its 
global financial network.
    The Lebanese Armed Forces (LAF) are an important counterterrorism 
partner and led the defeat of ISIS in Lebanon. If confirmed, I will 
ensure that future U.S. assistance to the LAF continues to serve our 
objectives, enabling the LAF to reinforce Lebanon's sovereignty and 
secure its borders, counter internal threats, build up legitimate state 
institutions, and undermine Hizballah's false narrative that it is the 
guarantor of Lebanon's security.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                   Mike Pompeo by Senator Jeff Flake


                            (Questions 1-5)

    Question 1.  As the U.S. has worked to get a better understanding 
of what caused our personnel to fall ill while serving in Cuba, 
dialogues between the two countries have continued to take place to 
address a broad range of issues related to our bilateral relationship. 
If confirmed as Secretary of State, do you commit to continuing these 
dialogues?

    Answer. Yes.


    Question 2.  If confirmed, do you commit to rescinding, rewording, 
or otherwise amending the travel advisory to Cuba dated March 2, 2018, 
to reflect the change in status of embassy operations and more 
accurately depicts the risks to American tourists visiting Cuba?

    Answer. If the Department deems a place unsafe for U.S. diplomats 
to live and work, the Department informs all U.S. citizens of the same. 
My understanding is the Department's policy requires a Level 3 
(Reconsider Travel) or Level 4 (Do Not Travel) Travel Advisory if a 
post is on authorized departure, ordered departure, or permanent 
unaccompanied status. The Level 3 Travel Advisory for Cuba was updated 
on March 2, simultaneously with the designation of Embassy Havana as an 
unaccompanied post. The updated advisory informs U.S. citizens about 
the embassy's unaccompanied status and states that it is particularly 
difficult to assist U.S. citizens outside Havana due to reduced 
staffing.
    The Department will further update the Travel Advisory if and when 
the Department's assessment of the safety of U.S. citizens and 
diplomats has changed. Nothing is more important than the security of 
U.S. citizens overseas, and, if confirmed, I will ensure the Department 
continues to provide U.S. citizens with as much information as possible 
so they can make informed decisions before they travel to Cuba or any 
other country.
    If confirmed, you have my commitment that I will personally review 
the advisory and, with the support of the State Department team, 
evaluate its appropriateness.


    Question 3. The Foreign Affairs Mannual that outlines the 
Department of State's organization and structure notes that ``the Under 
Secretary for Management (M) has the authority to designate posts in 
imminent danger areas or in areas with severe hardships as 
``unaccompanied' or `partially unaccompanied.' In making this 
determination, M takes into consideration post and geographic bureau 
recommendations.'' If confirmed, do you commit to working with the 
Under Secretary of Management to review the status of our embassy in 
Havana and making changes to its operating status, if they are 
warranted?

    Answer. Yes.


    Question 4.  Right now our embassy in Havana is operating without 
an ambassador, but also without a Charge D'Affaires or Deputy Chief of 
Mission. As you know, it is difficult to conduct diplomatic relations 
with any country without a having a designated chief in charge of our 
mission there and this is no less true in Cuba. If confirmed, do you 
commit to nominating an ambassador to Cuba or appointing a permanent 
Charge D'Affaires or Deputy Chief of Mission who will serve in that 
position for several years?

    Answer. I understand the interim Charge d'Affaires in Havana is an 
experienced Senior Foreign Service Officer who has previously served as 
an ambassador at multiple posts abroad. I am aware that the Department 
also recently assigned a Senior Foreign Service Officer as permanent 
Deputy Chief of Mission. The Officer will arrive this month in Havana 
for a three-year tour of duty. If confirmed, I am committed to ensuring 
appropriate senior level staffing to Havana.


    Question 5.  The operating status of our embassy in Cuba continues 
to present problems not just for diplomacy, but for the collection of 
intelligence in that country. As I know you are aware, it is even more 
difficult to formulate and provide strategic guidance to our diplomats 
in-country when there are significant gaps in intelligence collection. 
If confirmed, do you commit to taking steps to ensure there is 
appropriate collection of information in Cuba?

    Answer. Yes.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                   Mike Pompeo by Senator Todd Young


                            (Questions 1-4)

    Question 1.  You mentioned Yemen in your prepared remarks. I have 
been quite active on Yemen over the last year. It is the world's 
largest humanitarian crisis. If confirmed, do you commit to working 
with me and my staff on Yemen?

    Answer. Yes. I look forward to working with you on Yemen. Yemen's 
continued deterioration is not in our interest. The longstanding 
political and security vacuum has expanded space for Iran and violent 
extremists.


    Question 2.  In your prepared statement, you said that you have 
reviewed CIA histories of previous negotiations with the North Koreans. 
You wrote that, ``We will not repeat the mistakes of the past.'' With 
respect to North Korea, what were the ``mistakes of the past?'' How can 
we avoid those mistakes?

    Answer. The North Koreans have confirmed to us directly their 
willingness to talk about denuclearization. The incremental, phased 
approaches of past negotiations all failed, in part because the 
international community eased pressure prematurely. The Trump 
Administration is not interested in negotiations that would allow North 
Korea to simply buy time. While we will negotiate, we will not ease up 
on the pressure campaign until North Korea denuclearizes.


    Question 3.  A report by the Foundation for Defense of Democracies 
identified as many as 23 ballistic missile launches by Iran since the 
conclusion of the July 2015 Iran Deal. Do you agree that Iran's 
ballistic missile program today represents a serious threat to our 
regional allies and our forward deployed troops? Do you agree that 
Iran's ballistic missile program could eventually represent a threat to 
our homeland? Do you agree with the consistent intelligence community 
assessment that ``Tehran would choose ballistic missiles as its 
preferred method of delivering nuclear weapons, if it builds them?'' 
Consistent with a letter that Senator Rubio and I led to the President 
on February 6, signed by 14 senators, is the is the administration 
considering designating--using authorities under Executive Order 
13382--all remaining agents, affiliates, and subsidiaries associated 
with the designated entities and their parent companies? Would you 
recommend sectoral or secondary sanctions on Iran for its ballistic 
missile program?

    Answer. Iran's missile programs remain a serious threat to our 
regional allies and forward-deployed troops and a significant 
proliferation challenge, contributing to regional and international 
instability, as well as representing a threat to our homeland. Iran 
deploys a wide array of short-range and medium-range ballistic missiles 
capable of delivering weapons of mass destruction--including nuclear 
weapons--and is exploring multiple pathways to expand its longer-range 
missile capabilities, including under the guise of its space launch 
vehicle programs. If confirmed, I will not hesitate to designate where 
appropriate, pursuant to EO 13382, any individual or entity found to be 
engaging in Iran's ballistic missile activity, or any agents, 
affiliates, and subsidiaries associated with previously designated 
entities and their parent companies. Under EO 13382, we can sanction 
any person who has engaged, or attempted to engage, in activities or 
transactions that have materially contributed to, or pose a risk of 
contributing to, the proliferation of weapons of mass destruction and 
their means of delivery.


    Question 4.  According to their website, there are 103 open 
Government Accountability Office recommendations that the Department of 
State has not adopted--including 20 priority recommendations. This is 
an improvement from last year, but still too many. Some of these open 
recommendations go back as far as 2012. Do you believe the Department 
of State should either implement the GAO recommendations or explain to 
this committee why it will not? What is your assessment of S. 418, 
which I introduced along with Senators Coons, Menendez, and Rubio? Do 
you commit to ensuring the Department of State is responsive to my 
office in addressing these open and priority GAO recommendations 
without delay?

    Answer. If confirmed, I will ensure that the Department responds to 
GAO recommendations in an expeditious manner, and that the Department 
is transparent with your office and the Congress in reporting actions 
taken in response to GAO recommendations. If confirmed, I also look 
forward to further consulting with you on your legislation (S. 418).


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                  Mike Pompeo by Senator John Barrasso


                            (Questions 1-6)

    Question 1.  Like many U.S. industries, soda ash faces significant 
trade barriers around the world. It is a key manufacturing component of 
glass, detergents, soaps, and chemicals. Soda ash is also used in many 
other industrial processes. U.S. ``natural soda ash'' is refined from 
the mineral trona. It has long been regarded as the standard for 
quality, purity, and energy efficiency in production. The Green River 
Basin in Wyoming is the world's largest area for naturally occurring 
trona. As part of your effort to promote U.S. industries in 
international markets, can you commit to me that you will be an 
advocate for eliminating trade barriers for soda ash and other 
important U.S. industries in the international marketplace?

    Answer. Yes. If confirmed, I will support the Administration's 
efforts to advocate for free, fair, and reciprocal trade that advances 
U.S. economic prosperity by reducing trade barriers for all U.S. goods 
and services exports, including soda ash.


    Question 2.  In Wyoming, we have a veteran memorial located on F.E. 
Warren Air Force base that honors 48 U.S. soldiers that were massacred 
in their sleep in the Philippines on September 28, 1901. This memorial 
displays the bells that Filipino insurgents used to signal the attack 
on our U.S. troops. Despite the fact that veterans in Wyoming 
overwhelmingly oppose the dismantling of this veteran memorial, the 
U.S. Ambassador to the Philippines publicly pledged to move the bells 
to the Philippines. In Wyoming, we have a strong tradition of never 
forgetting the sacrifices of our brave men and women. I believe that 
when evaluation of the management of war memorials takes place, 
Congress must be fully informed and the views of the local communities 
and veterans are fully respected. Will you commit to me that you will 
not support any efforts to deconstruct our war memorials that honor our 
fallen soldiers and move them to foreign countries?

    Answer. The Bells of Balangiga are an important memorial to the 
fallen soldiers of the U.S.-Philippines War. I understand the 
significance of preserving America's military history and honoring our 
veterans. If confirmed, I will examine this issue carefully, consult 
with you and other members, and support an inclusive process with the 
U.S. Department of Defense to ensure that Congress is fully informed 
and the views of local communities and veterans are fully respected and 
considered when evaluating the management of war memorials.


    Question. 3  Will you ensure that the U.S. Department of State is 
consulting with Congress and the veteran community prior to making the 
type of statements issued by the U.S Ambassador to the Philippines last 
year? Answer:

    Answer. If confirmed, I commit to consulting with Congress and the 
veteran community on this and other important veterans and foreign 
policy issues.


    Question 4.  People who live in poor and developing nations want 
and need a stable energy supply that helps them grow their economy and 
improve their lives. Energy can be a tool to help countries alleviate 
poverty as well as improve the education, health, and wellbeing of its 
people. The United States should be working to promote an all-of-the-
above energy strategy. We should be helping countries develop their 
traditional energy resources, which are the most affordable, reliable, 
and abundant forms of electricity. As Secretary of State, would you 
ensure that the State Department is promoting all forms of energy 
projects across the globe, including oil, gas, and coal?

    Answer. The Trump Administration supports an ``all of the above'' 
approach to energy policy. If confirmed, I will work closely with the 
interagency, industry representatives, international organizations, and 
partner countries to help communities around the world develop their 
energy resources, including oil, gas, and coal, in line with a market-
based approach to advance universal access to affordable and reliable 
energy.


    Question 5.  Coal provides an affordable and reliable energy 
source, which is important to countries looking for assistance in 
poverty alleviation and economic development. Multilateral development 
banks, like the World Bank, have imposed restrictions on public 
financing of high-efficiency power stations fueled by coal in the 
developing world. What are your thoughts regarding multilateral 
development banks restricting financing for these projects, which in 
many instances are the more reliable and affordable electricity source 
available?

    Answer. If confirmed, I would support exercising the voice and vote 
of the United States within multilateral development banks to promote 
projects that increase the access and use of fossil fuels, including 
coal, more cleanly and efficiently, and would support the development 
of robust, efficient, competitive, and integrated global markets for 
energy.


    Question 6.  In January, the State Department successfully 
negotiated an agreement with Qatar to protect American aviation workers 
from Qatari carriers' unfair trade practices, and I understand the 
State Department is seeking a similar agreement with the UAE. How do 
you plan to use the ongoing negotiations with the UAE to ensure a level 
playing field for U.S. carriers?

    Answer. If confirmed, I would support enforcing Open Skies 
agreements and leveling the playing field to ensure U.S. companies have 
an opportunity to succeed globally. This means fighting practices that 
adversely affect fair and equal competition. I would also support the 
Department's leadership on efforts to implement understandings reached 
in January 2018 with Qatar that address U.S. industry concerns 
regarding subsidized competition, while maintaining the Open Skies 
Framework of U.S. international aviation policy. I understand that 
stakeholders have responded favorably to those understandings with 
Qatar, and I would work to reach a similar outcome with the United Arab 
Emirates.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                 Mike Pompeo by Senator Johnny Isakson


                            (Questions 1-6)

    Question 1.  As you know, former Sec. Tillerson began implementing 
the Impact Initiative in order to modernize certain parts of the 
department. Have you had the chance to review the initiative and its 
implementation to date?

    Answer. I have been briefed on certain aspects of the Impact 
Initiative but have not had the opportunity to review its various 
elements in depth. If confirmed, I look forward to learning more about 
the Initiative and its progress to date.


    Question 2.  Do you plan to continue this effort as it currently 
stands?

    Answer. If confirmed, I will assess the state and full scope of the 
Impact Initiative and make a determination quickly about how to 
proceed, in consultation with, among others, the members of the Senate 
Committee on Foreign Relations and the Department's foreign service and 
civil service officers.


    Question 3.  Will you expand the scope of the Impact Initiative?

    Answer. If confirmed, I will assess the state and full scope of the 
Impact Initiative and make a determination quickly about how to 
proceed, in consultation with, among others, the members of the Senate 
Committee on Foreign Relations and the Department's foreign service and 
civil service officers.


    Question 4.  How will your efforts with the Impact Initiative 
affect the Joint Strategic Plan that Ambassador Green recently 
announced at U.S. AID?

    Answer. It is my understanding that many of the goals associated 
with the Impact Initiative were established as part of the Joint 
Strategic Plan (JSP). If confirmed, I look forward to working with 
Ambassador Green to ensure that State and U.S. AID work to deliver 
foreign assistance effectively and efficiently.


    Question 5.  If confirmed, will you commit to working with me on 
these efforts?

    Answer. Yes. If confirmed, I look forward to consulting with you 
frequently on foreign policy and management issues facing the State 
Department.


    Question 6.  As part of the response to the Benghazi attack in 
2012, which showed a lack of planning and available State Department 
resources to respond to crises, it is my understanding that State's 
Bureaus of Medical Services and Diplomatic Security now contract 
aircraft that are ready 24 hours a day, 7 days a week. They are able to 
respond in less than 12 hours to crises around the world. Over the last 
few years, these contracted aircraft have been effective and efficient. 
Do you intend to keep these contracted aircraft services under the 
direction of the Bureaus of Medical Services and Diplomatic Security, 
allowing them to be effectively managed and rapidly deployed when the 
need arises?

    Answer. I understand that the Department's Bureau of Medical 
Services manages the contract you referenced, which provides the United 
States with unique biocontainment transport capabilities and combined 
medical and security response options in the aftermath of emergencies 
overseas. If confirmed, I would intend to maintain this unique 
capability in a manner that optimizes its efficiency, flexibility, and 
responsiveness in times of need, consistent with the Department's legal 
authorities and subject to evolving operational requirements.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                   Mike Pompeo by Senator Rob Portman


                            (Questions 1-19)

    Question 1.  I know the GEC is expecting the imminent transfer of 
$40 million from DoD and will continue to press them to move forward on 
that. However, the recent FY18 Omnibus also appropriated up to $20 
million to the State Department to directly support the GEC's counter-
state mission. Will you commit to making full use of the resources 
allocated to you by Congress to carry out this critical mission?

    Answer. Yes, I commit to utilizing the up to $20 million in 
additional funds to support the GEC's counter-state mission, including 
countering state-sponsored disinformation that undermines U.S. national 
security interests.


    Question 2.  IDo you commit to fully staffing the GEC so that it is 
able to carry out its mission as intended by Congress?

    Answer. Yes. If confirmed, I commit to fully staffing the GEC to 
ensure its ability to carry out its mission.


    Question 3.  Director Pompeo, when our military footprint begins to 
gradually decline in Iraq and Syria, the State Department will assume 
ever greater responsibility for helping to establish and maintain 
stability in those countries. Part of the recently published National 
Security Strategy deals with diplomacy and statecraft and within that 
section, there is a portion that deals with information statecraft. To 
that end, I have taken notice of the UK government's Conflict, 
Stability and Security Fund (CSSF) which has achieved significant 
successes in Iraq using information statecraft in the form of strategic 
communications and media operations. If confirmed, I would like to ask 
you to examine that program and determine whether the United States 
should contribute to the CSSF or whether the United States should 
establish a similar program. Will you commit to doing that?

    Answer. I fully agree that as the U.S. military footprint in Iraq 
and Syria declines, the U.S. government and our partners' focus must 
shift to maintaining stability and consolidating progress. If 
confirmed, I will examine all options for supporting stability in those 
countries, including through examining the UK government's Conflict, 
Stability and Security Fund.


    Question 4.  The JCPOA is just one aspect of our engagement with 
Iran. The Obama administration subordinated everything else in pursuit 
of the deal, and we are still seeing the consequences of that decision 
in the increased chaos and instability throughout the region. How do 
you think the deal relates to our broader strategic objectives for 
Iran?

    Answer. The Trump Administration has expressed its concerns about 
the JCPOA, and is intent on taking a broader approach addressing Iran's 
malign activities. The Administration remains committed to ensuring 
that Iran does not acquire a nuclear weapon. At the same time, the U.S. 
government will also continue to work with our allies and partners in 
the region to aggressively push back on Iran's destabilizing regional 
actions.


    Question 5.  What is our path forward for pushing back on Iranian 
support for the Houthi rebels in Yemen, given Russia's obstruction of 
efforts to single out Iran for condemnation and pressure at the U.N. 
Security Council? Specifically, what are we doing about Iran's transfer 
of ballistic missiles to the Houthi rebels in Yemen?

    Answer. This matter requires a whole of government response 
including a number of different measures. The Treasury Department's 
Office of Foreign Assets Control sanctioned six Iranian-based 
subordinates of Shahid Hemmat Industrial Group in July 2017 in an 
effort to counter Iran's ballistic missile program. The United States 
also provides a limited degree of military support to the Saudi-led 
coalition to expand the capability of our partners to push back against 
Iran's regionally destabilizing actions. The Administration is 
strengthening its engagement with regional governments to improve their 
support for, and compliance with, the arms embargo contained in UN 
Security Council Resolution 2216. The United States publicly displayed 
recovered materiel from Houthi missile attacks and shared this 
information with the Secretariat and Panel of Experts. The 
Administration is also using national and international authorities to 
intercept illicit cargo, and it is helping regional governments and the 
United Nations to improve and expand border security and cargo 
screening procedures.


    Question 6.  By precipitously withdrawing all our troops from Iraq, 
the Obama administration created a political and military power vacuum 
that Iran has eagerly and successfully filled. What is our plan to 
resist increasing Iranian influence over the Iraqi military (through 
the Popular Mobilization Forces) and government?

    Answer. The Administration is under no illusions about the 
destabilizing nature of Iran's activities, and we remain committed to 
helping the Iraqi government counter these activities.
    The United States agrees with Prime Minister Abadi on the 
importance of ensuring that all Iraqi security institutions are under 
Iraqi government control. U.S. security cooperation will support the 
Iraqi government as it continues to reform its security sector and 
begins to demobilize some Popular Mobilization Force (PMF) elements and 
absorbs others as part of the Iraqi Army, Federal Police, or other 
security structures and institutions under the full control of the 
Iraqi state.
    The Iraqi government and the United States are reinvigorating the 
Strategic Framework Agreement (SFA), which provides a broad basis for 
bilateral economic, diplomatic, cultural, and security cooperation. 
Leveraging these U.S. comparative advantages--while helping tie Iraq 
more closely to Arab neighbors, the West, and international financial 
institutions--will counterbalance Iran and diminish its malign 
influence.


    Question 7.  What would be the ramifications of a U.S. troop 
withdrawal from Syria? Do you believe such a withdrawal will serve our 
long-term goals in the region?

    Answer. As we near the defeat of the ISIS ``caliphate,'' it is 
reasonable to review our overall military and civilian footprint and 
make adjustments as conditions warrant. Any such process will ensure 
that broader U.S. interests are protected in the wake of ISIS's defeat. 
It will also be undertaken in coordination with our D-ISIS Coalition 
partners. The United States will continue to call on those partners to 
share an increasing burden on the ground militarily and for post-
military stabilization initiatives to ensure that ISIS's defeat in 
Syria is lasting. To date, ISIS has not reclaimed any significant 
ground from areas liberated by our coalition partners, and we are 
determined to ensure that record continues as we adjust the U.S. 
commitment in the wake of ISIS's pending defeat. If confirmed, I will 
consult regularly with Congress as we continue the campaign to defeat 
ISIS and consider adjustments to U.S. resources on the ground in Syria.


    Question 8.  Would you agree that brutality and violence by Assad 
regime--aided and abetted by its enablers Russia and Iran--has been the 
main driving force behind the violence and instability that led to the 
rise of ISIS in the first place?

    Answer. The Administration realizes that the brutal dictatorship of 
Bashar al-Assad is a main driver of conflict and violence in the 
country. Russia and Iran, as the Assad regime's principal political and 
military allies, bear responsibility for the horrific violence that the 
Syrian regime has inflicted on its people over the course of the war, 
including the regime's use of chemical weapons.


    Question 9.  Would you agree that one of the main flaws with the 
Obama administration's (belated) Syria strategy was that it focused 
solely on ISIS, while ignoring the broader context within which it was 
created (the Syria conflict)?

    Answer. The U.S. cannot ignore the broader context of the Syrian 
conflict. The current Administration's accelerated strategy for the 
enduring defeat of ISIS and its focus on de-escalation creates the 
space for political resolution. We are working with allies and partners 
on this effort, including de-escalation efforts in the southwest and a 
deconfliction channel as part of the defeat ISIS campaign in east 
Syria. With de-escalation, some of the worst effects of this conflict--
the death, destruction, millions of refugees, and growth of terrorist 
groups and Iranian influence are mitigated. It will be critical to 
continue to work with regional partners to address these issues.


    Question 10.  Are you concerned that this administration risks 
making the same mistake if we don't develop a comprehensive strategy 
for the conflict in Syria that addresses the underlying drivers of this 
conflict?

    Answer. The United States cannot ignore the complexity of the 
Syrian conflict, and the Administration has a comprehensive strategy to 
attain U.S. policy goals in Syria. The Administration realizes that the 
brutal dictatorship of Bashar al-Assad is a main driver of conflict and 
violence in the country. As such, the current Administration's 
acceleration of the Defeat-ISIS campaign and focus on de-escalation of 
violence in Syria through multiple efforts will help create the space 
for a political resolution to the conflict. These undertakings mitigate 
some of the worst effects of this conflict, including civilian 
casualties, destruction, displacement, and the growth of terrorist 
groups and Iranian influence in Syria. I believe it is critical that 
the Administration continue to work with regional partners to address 
these issues.


    Question 11.  Should the U.S. do more to bring about an end to 
Assad's rule and a negotiated transitional government?

    Answer. A lasting peace in Syria ultimately means a Syria without 
Bashar al-Assad, who has caused too much destruction in Syria to return 
to or remain at peace under his leadership. The nature of the Assad 
regime, like that of its sponsor Iran, is malignant--and his leadership 
leads to instability and destruction. It has promoted state terror, and 
it has empowered groups that kill American soldiers, such as al-Qa'ida, 
and even ISIS. It has backed Hizballah and Hamas, and it has violently 
suppressed political opposition. Assad's regime is corrupt, and his 
methods of governance and economic development have increasingly 
excluded certain ethnic and religious groups. His human rights record 
is notorious, and his continued rule will only further fuel instability 
in Syria and beyond. Ultimately, it is not a U.S. decision whether 
Assad stays or goes--that decision rests with the Syrian people. We 
will continue to work to ensure that the Syrian people get that choice 
in a free and fair election.


    Question 12.  If the U.S. is serious about countering Iran, we need 
to do more to address their growing influence in Syria. What more 
should the U.S. do to counter Iran's influence on the ground in Syria?

    Answer. Iran views Syria as a crucial route to supply weapons to 
Lebanese Hizballah and a key pillar in its regional influence. Iran 
continues to provide arms, financing, and training to the Assad regime, 
and funnels Iraqi, Afghan, and Pakistani foreign fighters to support 
the Assad regime.
    Among other actions, this Administration is working to counter 
Iran's destabilizing activities in the region by imposing sanctions on 
Iran's Islamic Revolutionary Guard Corps-Quds Force and its Ministry of 
Intelligence and Security for their support to the Assad regime, as 
well as calling on Moscow to use its influence over Tehran to encourage 
Iranian withdrawal from Syria. If confirmed, I will closely consider if 
there are additional actions that should be taken.


    Question 13.  As you know, there is a growing international 
campaign to coerce and delegitimize Israel by imposing boycotts, 
divestment, and sanction actions. I am cosponsoring legislation with my 
colleague, Ben Cardin of Maryland, that would prohibit U.S. entities 
from responding to requests from the UN Human Rights Council or other 
international governmental organizations designed to blacklist and 
boycott companies engaged in legal commerce with Israel. The 
legislation is based on the 40 year old Export Administration Act (EAA) 
which has been repeatedly upheld by federal courts and protects the 
rights of individual Americans who want to criticize Israeli or 
American policies. What are your views on the global boycott, divest, 
and sanctions (BDS) movement? Will you commit to fighting efforts led 
by organizations like the UN Human Rights Council's to pressure U.S. 
companies not to do business in Israel or Israeli-controlled 
territories?

    Answer. The United States government strongly opposes boycotts, 
divestment campaigns, and sanctions targeting the State of Israel. 
Boycotts of Israel are unhelpful and do not contribute to an 
environment conducive to peace.It is my understanding that the 
Department of State and its embassies overseas regularly engage with 
governments, international organizations, and other entities to oppose 
such activities. If confirmed, I will continue the fight against all 
efforts to isolate or delegitimize the State of Israel.


    Question 14.  The President is right about the need to do more to 
ensure our trade deals support job creation and economic growth at home 
and to increase efforts to hold accountable those who engage in unfair 
trade practices. However, free trade also solidifies relationships with 
key allies and partners, promotes U.S. influence, and serves as a 
bedrock principle of the U.S.-led international system. At a time when 
strategic competitors like China are using trade deals to advance their 
own interests and objectives, the United States cannot afford to sit on 
the sidelines. How do you view trade as it relates to U.S. foreign 
policy goals and strategic interests?

    Answer. Fair and reciprocal trade can solidify our relationships 
with our allies and create U.S. jobs. The Administration's trade policy 
is intended to advance our national interest consistent with our 
national security strategy. If I am confirmed, I will work to ensure 
that foreign policy goals and strategic interests are factored into our 
trade policy.


    Question 15.  The wrong trade policies could cause serious rifts 
with longstanding allies and security partners around the world. How do 
you plan to ensure that strategic considerations will be heard in 
senior administration discussions on trade policy?

    Answer. If I am confirmed, I intend to make a broad effort across 
all elements of the diplomatic spectrum--employing both economic and 
security tools--to strengthen America's alliances with our partners. 
The Department has an essential role in ensuring that national security 
and foreign policy interests are fully factored into trade policy. If 
confirmed, I will do my best to make sure we play this role.


    Question 16.  Data from the Department of Commerce shows that in 
2016 foreign students attending U.S. institutions of higher education 
spent $39.4 billion in foreign funds on U.S. services. In other words, 
a $39.4 billion export that reduces the trade deficit. A recent 
estimate by the University of California at Santa Barbara puts that 
number as high as $50 billion, on par with U.S. exports of semi-
conductors, passenger cars, and civilian aircraft. As we look at ways 
of securing our nation and resolving trade imbalances in the U.S. 's 
favor, how can we protect and grow the considerable value of higher 
education as a premier U.S. export, and maintain the significant 
benefit it has for communities across the country?

    Answer. The United States has the finest, most open, and diverse 
system of higher education in the world. Our higher education 
institutions attract students, professors, and researchers from across 
the globe. U.S. colleges and universities help America lead the world 
in innovation, research, and next-generation science and technology. 
While we must always be vigilant against potential counterintelligence 
or intellectual property risks, international students are a critical 
part of U.S. leadership in higher education. If confirmed, I will seek 
to responsibly foster this important component of our economy and 
international leadership.


    Question 17.  Do foreign adversaries exploit or seek to influence 
our education system in ways that undermine our national security? If 
so, how?

    Answer. America has the finest higher education system in the 
world. While we enjoy the benefits of attracting talented students from 
around the world, we must also be vigilant in safeguarding the 
independence, integrity, and intellectual property of our institutions 
of higher learning. If confirmed, I will work with my government 
colleagues and the leaders of American higher education to ensure that 
we protect this invaluable national asset.


    Question 18.  How should the State Department be involved in 
implementing sufficient screening procedures to ensure that foreign 
funded educational institutes in the U.S., like the Confucius 
Institute, are not being used to manipulate U.S. public discourse and/
or undermine U.S. national security? What more can or should the State 
Department be doing in this area?

    Answer. If confirmed, I will work with my government colleagues and 
the leaders of American higher education to ensure that we protect our 
system of higher education, which is admired around the world. While we 
reap the benefits of having international students on our campuses, we 
recognize that not all foreign actors share our values of open 
intellectual and scientific inquiry. If confirmed, I will encourage the 
American higher education community to continue its role in sharing 
American values, including the importance of academic freedom, with 
Chinese and other international students who study here each year.


    Question 19.  The FY 2018 U.S. budget is set to provide assistance 
to Eastern European countries, including Georgia, to counter ongoing 
and potential Russian aggression. I am interested which steps of 
assistance do you deem necessary, especially to enhance the self-
defense capabilities, as well as to deepen bilateral trade relations 
with countries, such as Georgia and Ukraine? Our assistance in this 
regard would be of high significance considering Georgia's vital 
challenges, as an important reward.

    Answer. The United States strongly supports Georgia and Ukraine's 
sovereignty and territorial integrity. If confirmed, I would continue 
to prioritize efforts to counter Russian aggression and to increase the 
security and stability of both Ukraine and Georgia, as well as other 
partners vulnerable to Russia's malign influence. For example, I 
understand the Department's security assistance to Ukraine and Georgia 
focuses on training, equipment, and advisory support to help these 
partners and others in Europe secure their borders, deter aggression, 
and increase interoperability with NATO. I support the President's 
decision to provide enhanced defensive capabilities to Ukraine and sell 
the Javelin missile system to Georgia. If confirmed, I will continue to 
evaluate the specific needs of these partners to ensure they are most 
effective.
    I understand the Department is also helping Ukraine and Georgia 
build resilience to Russian aggression by bolstering energy security; 
increasing transparency and creating a more friendly business climate 
conducive to western investment; strengthening the rule of law and good 
governance; and supporting independent media to counter Russian 
disinformation.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                 Mike Pompeo by Senator Robert Menendez


                      (Section 1--Questions 1-55)

    Section 1--Question 1.  While I have certainly supported the 
additional sanctions that both the United States and the UN Security 
Council have put in place against North Korea--indeed three years ago I 
authored a bill to start the pressure campaign moving--what evidence is 
there that ``maximum pressure'' is slowing or stopping North Korea from 
moving forward with its nuclear and missile programs, or correlated 
with negative effects on North Korea's economy? There is some evidence 
that sanctions might be biting, but by all appearances, North Korea's 
economy appears resilient and North Korea remains undeterred--over the 
last year, on this administration's watch, it achieved an operational 
ICBM and possibly a thermo-nuclear device--and its economy largely 
unaffected. Indeed, the pledge to seek denuclearization made by North 
Korea that serves as the basis for the Trump-Kim meeting is the exact 
same pledge that North Korea has made several times in the past and, 
for Pyongyang, seems predicated on the U.S. pulling its forces off the 
Peninsula and ending our alliances with both South Korea and Japan. So 
while ``maximum pressure'' appears to be part of the mix, it is equally 
possible that the diplomatic outreach by the North is something that is 
moving on Pyongyang's logic and on Pyongyang's tempo, not ours. While I 
fully support the need to maintain additional pressure on North Korea--
through additional sanctions, military posture moves, and through 
strengthened alliances--pressure is not the end of our policy, but a 
means to achieve our end; a denuclearized Korean Peninsula. What is the 
administration's strategy to utilize pursue successful diplomacy with 
North Korea?

    Answer. I agree with the President's assessment that the maximum 
pressure campaign has made North Korea's current position untenable and 
is one of the main reasons the regime is seeking negotiations. The 
pressure inflicted is a means to an end: the complete, verifiable, and 
irreversible denuclearization of the Korean Peninsula. The 
Administration will explore the diplomatic opening by North Korea, but 
will maintain the pressure campaign until North Korea denuclearizes.


    Section 1--Question 2.  Following President Trump's acceptance of 
Kim Jong-un's offer you stated that ``These are conditions that the 
North Korean regime has never submitted to in exchange for 
conversations.'' Can you be specific about what conditions you believe 
North Korea has never submitted to before?

    Answer. Kim's actions of late have broken with his predecessors' 
conditions for dialogue and with his own patterns as a leader. Kim made 
the unprecedented decision to cross into South Korea to meet with 
President Moon later this month. The U.S. and South Korean militaries 
are conducting combined exercises much as they do each year, but North 
Korea has restrained its public response and has not used these drills 
as a pretense to avoid talks. Likewise, Kim has maintained a months-
long freeze of missile and nuclear testing despite mounting 
international pressure, which is a departure from his pattern of 
behavior over the last two years. Up until this year, Kim has held a 
hard line about North Korea's unwillingness to give up its nuclear 
weapons. Kim's recent openness to discuss denuclearization is in 
contrast to his previous rhetoric and signals a potential opportunity.


    Section 1--Question 3.  Even a cursory review of the history 
indicates that in the past North Korea has accepted military exercises, 
suspended missile and nuclear activities, pledged denuclearization, and 
so forth. What do you consider new or different about North Korea's 
statements--statements we have only heard through South Korea?

    Answer. I am limited to the details I can discuss in an 
unclassified setting, but as the Administration announced, the North 
Koreans have confirmed to us directly their willingness to talk about 
denuclearization. This creates the opportunity for negotiations, even 
as the Administration is clear-eyed about the DPRK's track record and 
will maintain the pressure campaign until North Korea denuclearizes.


    Section 1--Question 4.  You have stated that you will not repeat 
the ``mistakes of the past'' when dealing with North Korea. Can you 
provide me, in detail, an enumeration of what you think those mistakes 
were, and how you will avoid them?

    Answer. The North Koreans have confirmed to us directly their 
willingness to talk about denuclearization. The incremental, phased 
approaches of past negotiations all failed, in part because the 
international community eased pressure prematurely. The Trump 
Administration is not interested in negotiations that allow North Korea 
to buy time. The Administration will negotiate, but we will not ease up 
on the pressure campaign until North Korea denuclearizes.


    Section 1--Question 5.  Following President Trump's acceptance of 
North Korea's offer to meet, you stated that Kim Jong Un must 
``continue to allow us to perform our military-necessary exercises on 
the peninsula . . . '' It was not previously my impression that our 
joint military exercises with our Korean ally were something that North 
Korea was given a vote in either allowing or not allowing. Why did you 
use that phrase? Are you concerned that you might have sent a wrong 
signal to either North or South Korea with that sort of phraseology?

    Answer. Our combined military exercises with the ROK are not a 
bargaining chip with the DPRK. Our exercises with the ROK are 
transparent, defense-oriented, and have been carried out under the 
Combined Forces Command for over 40 years. Kim Jong Un has pledged to 
refrain from any further nuclear or missile tests and has said that he 
understands our routine combined military exercises will continue. The 
United States must hold him to his word.


    Section 1--Question 6.  Given the critical importance of getting 
our alliance with South Korea and Japan right if we are going to get 
our North Korea diplomacy right, what measures would you recommend to 
reassure our allies and to deepened and strengthen our alliances? Do 
you think that having a U.S. Ambassador in Seoul is important to 
navigate a nuclear crisis or, as other administration officials have 
suggested, unimportant?

    Answer. If confirmed, I will work to ensure that the United States 
is in close communication and coordination with our allies and partners 
around the world, especially the Republic of Korea and Japan, on North 
Korea. As I stated during my testimony, we need an ambassador in South 
Korea. One of my priorities if confirmed will be to ensure vacancies in 
important Ambassadorships and other senior positions are filled.


    Section 1--Question 7.  China's official development assistance to 
African countries has increased by more than 780% since 2003. And last 
year, while the Trump Administration proposed deep cuts in our 
diplomacy and development budget, President Xi pledged $124 billion for 
a new global infrastructure and development initiative called ``One 
Belt One Road.'' At the same time, the Administration is proposing to 
close USAID missions and eliminate economic and development assistance 
to numerous countries in Asia and to slash the budget of the East Asia 
and Pacific Bureau by over $380 million. Are you concerned that your 
cutbacks could provide an opening for China to exert additional 
influence in Asia and around the globe?

    Answer. The United States is advancing economic development and 
prosperity across the Indo-Pacific region and around the globe. The 
Administration will remain engaged internationally to maintain U.S. 
power and influence, to work with allies and partners to address 
China's growing influence and ambitions, and to identify ways to ensure 
America's continued presence and leadership. A significant part of this 
is ensuring strong, well-resourced diplomatic and development 
assistance capabilities.


    Section 1--Question 8.  Do you assess that Chinese development 
assistance efforts will help bolster China's relationships, ties, and 
image with those countries into which it invests?

    Answer. China is investing billions of dollars in infrastructure 
across the globe in part to expand its influence. The United States is 
working to ensure that China's activities do not undermine development 
best practices, including openness and transparency in market access, 
debt sustainability, good governance, and high environmental and labor 
standards. If confirmed, I will press China to ensure that its 
development assistance efforts and economic initiatives align with the 
needs of recipient countries, global standards, and time-tested 
safeguards for investment.


    Section 1--Question 9.  The conduct of foreign policy is 
inseparable from a nation's value. I believe that Chinese leaders 
evaluate the importance of human rights in U.S. foreign policy in part, 
by how frequently our diplomats raise the issues. If confirmed, do you 
commit to ensuring that a human rights case or issue is raised in every 
senior meeting during your tenure?

    Answer. If confirmed, I will raise human rights and specific cases 
with counterparts, including when I travel. The National Security 
Strategy prioritizes support for the dignity of persons. It affirms 
that we will use diplomacy, sanctions, and other tools to isolate 
states and leaders who threaten our interests and whose actions run 
contrary to our values. As Vice President Pence told the United 
Nations, ``Under President Trump, the United States is fully committed 
to the cause of human rights.''


    Section 1--Question 10.  If confirmed, will you express concern 
about violations of the freedom of belief equally across all faiths?

    Answer. Yes. If confirmed, I will speak out forcefully against 
violations of religious freedom across all faiths. Religious freedom is 
a universal human right and may never be arbitrarily abridged by any 
government. As I stated during my testimony, I believe that people of 
each and every faith deserve dignity and the right to practice their 
religion, or no religion, in the manner they choose.


    Section 1--Question 11.  How will you assist U.S. NGOs--or their 
grantees or partners in the mainland--when those groups' or their work 
is restricted or prohibited by authorities under the new Foreign NGO 
management law?

    Answer. If confirmed, I will support State Department programs that 
promote the development of an independent Chinese civil society. At the 
same time I will raise our concerns with my Chinese counterparts about 
the restrictions that the Foreign NGO Management Law imposes on NGOs 
seeking to continue their work in China.


    Section 1--Question 12.  The Joint Communiques of 1972, 1979, and 
1989, under Presidents Nixon, Carter, and Reagan are the foundation of 
the U.S.-PRC relationship, along with the Taiwan Relations Act that 
guides U.S. policy towards Taiwan. Could you tell us your understanding 
of the core principles of these communiques and the TRA?

    Answer. The three Joint Communiques, the Taiwan Relations Act, and 
the ``Six Assurances'' form the basis for the U.S. ``One-China 
policy.'' If confirmed, I will work to ensure that cross-Strait 
differences are resolved peacefully, without the threat or use of force 
or coercion, and in a manner acceptable to the people on both sides of 
the Taiwan Strait. The Administration's commitments and assurances to 
Taiwan are firm and long-standing.


    Section 1--Question 13.  In that connection, since the 
establishment of relations with the PRC no President has challenged our 
One China Policy. Do you believe that policy remains valid, or needs 
revision?

    Answer. If confirmed, I will continue to support the United States' 
One-China Policy, based on the three U.S.-China Joint Communiques, the 
Taiwan Relations Act, and the Six Assurances. Our One-China policy 
remains valid and has helped ensure peace and stability across the 
Taiwan Strait and in the region for decades.


    Section 1--Question 14.  The Trump Administration's policy on China 
appears to be highly ``transactional.'' Making policy via twitter and 
one liners, the President has hinted at being willing to trade the One 
China Policy for a trade deal with China, or that he wouldn't press 
them so hard on trade if they performed on North Korea, and even that 
the US-Taiwan relationship might be subject to bargain with Beijing. 
Would you agree with this characterization?

    Answer. If confirmed, I will firmly support the United States' One-
China policy, based on the three U.S.-China Joint Communiques, the 
Taiwan Relations Act and the Six Assurances. I do not believe that the 
relationship with Taiwan is negotiable. Strengthening our longstanding 
friendship with the people on Taiwan remains a key element of U.S. 
policy toward the Indo-Pacific. Our relationship with Taiwan is 
undergirded and animated by shared and enduring values. If confirmed, I 
am committed to strengthening our unofficial relationship with Taiwan.


    Section 1--Question 15.  What should be the underlying interests 
that guide the U.S.-China relationship and how do you plan on 
prioritize them?

    Answer. The U.S. relationship with China must be guided, first and 
foremost, by American interests. We will not shy away from directly 
challenging Chinese policies that are against U.S. or international 
interests. As we pursue areas of overlapping interests with China, such 
as the denuclearization of North Korea, establishing fair trade and 
investment relations, and stopping the flow of dangerous opioids from 
China into the United States, the United States will adhere to our 
commitments to allies and partners and our values as a nation.


    Section 1--Question 16.  During a visit to the region last year, 
Secretary Tillerson characterized the U.S. China relationship as a 
``very positive relationship built on non-confrontation, no conflict, 
mutual respect, and always searching for win-win solutions.'' Would you 
agree with that characterization of the U.S.-China policy?

    Answer. The Trump Administration is determined to work 
diplomatically with the Chinese government in an effort to develop a 
more productive, results-oriented bilateral relationship. The United 
States seeks to cooperate with China where our interests overlap, but 
we will not shrink from responding to China's unwelcome behavior. We 
will remain mindful that, as the U.S. National Security Strategy 
states, ``A geopolitical competition between free and repressive 
visions of world order is taking place in the Indo-Pacific region.''


    Section 1--Question 17.  What do you believe should be the U.S. 
position on President Xi's proposal that the United States and China 
should seek to build a ``new model of major country relations'' based 
on the principles of ``non-conflict, non-confrontation, mutual respect, 
and win-win cooperation''?

    Answer. The actual advancement of U.S. interests with China is more 
important than labels. If confirmed, I will pursue a constructive, 
results-oriented relationship with China. The United States should work 
with China to narrow differences between us, while ensuring that China 
respects international rules. If confirmed, I will speak forthrightly 
and contest Chinese policies and actions that undermine the 
international order that has fostered peace and prosperity for decades.


    Section 1--Question 18.  In 2014, Xi told President Obama that the 
``mutual respect'' part of that formula means; ``the two countries 
should respect each other's sovereign and territorial integrity as well 
as political system and development path, instead of imposing one's 
will and model on the other.'' Should the United States agree to such a 
definition of ``mutual respect''?

    Answer. As the U.S. National Security Strategy states, China has 
expanded its power in recent years at the expense of the sovereignty of 
others. The Trump Administration does not believe ``mutual respect'' 
means giving another country a pass when its actions harm U.S. 
interests and those of its allies and partners. If confirmed, I will 
work with China in areas that align with U.S. interests, while seeking 
to narrow differences and ensure that China respects international 
rules.


    Section 1--Question 19.  The Obama Administration's ``rebalance'' 
to Asia was intended, at least in part, to constrain and shape Chinese 
behavior and to seek to support the emergence of a constructive China 
that plays by the rules on the global and world stage. Is China 
undermining international rules and norms, and if so, how should the 
U.S. enforce those international rules and norms with respect to China? 
Does President Trump's efforts to walk away from and undermine 
international commitments and institutions undermine our ability to 
utilize them to hold China accountable?

    Answer. The President's National Security Strategy reflects the 
increasing concerns that China's actions are undermining the 
international rules-based order. For example, China has taken steps to 
militarize outposts in the South China Sea, which endangers the free 
flow of trade, intimidates other nations, and undermines regional 
stability. China also engages in unfair, predatory trade practices. If 
confirmed, I will work closely with allies and partners to highlight 
and contest Chinese actions that undermine the international order. 
(Tranche 1 #20)


    Section 1--Question 20.  China has thrived within an East Asian 
security order in which the United States has been the dominant force 
since the end of World War II. But the power and influence China now 
wields have now created tensions with the status quo. Should the U.S. 
be prepared to consider adjustments to the regional security order to 
strike a sustainable balance between American and Chinese interests?

    Answer. If confirmed, I will work diplomatically with the Chinese 
government to develop a more productive bilateral partnership. At the 
same time, the United States needs to be prepared to respond to 
activities that threaten U.S. interests and those of our partners and 
allies. If confirmed, I will work closely with allies and partners to 
advance U.S. interests across the Indo-Pacific region, including 
ensuring freedom of navigation, the free flow of commerce, and peaceful 
resolution of disputes.


    Section 1--Question 21.  What would those adjustments look like?

    Answer. A stronger U.S. posture in the Indo-Pacific region will 
enable the United States to safeguard our interests, including ensuring 
that our allies and partners are secure from military aggression or 
coercion. If confirmed, I will work closely with allies and partners 
across the Indo-Pacific region to ensure that the freedom of navigation 
is preserved, the free flow of commerce is maintained, and disputes can 
be settled peacefully in accordance with international law.


    Section 1--Question 22.  What is your vision for a modus vivendi of 
respective roles of the U.S. and China in the Asia-Pacific that both 
are able to live with?

    Answer. As indicated in the President's National Security Strategy, 
the Administration seeks cooperation with China within the framework of 
a rules-based order. The U.S. vision for the Indo-Pacific region 
excludes no nation, including China. At the same time, if confirmed, I 
will highlight and contest Chinese actions that undermine the 
international rules that have fostered peace and prosperity in the 
region for decades.


    Section 1--Question 23.  The National Security Strategy is clear on 
the competitive aspects of the US-China relationship. Do you believe 
there is space--and where- for cooperative elements of the 
relationship?

    Answer. The United States should cooperate with China when in our 
national interest, and should find ways to resolve differences. There 
are opportunities to negotiate with China and not make diplomacy a 
zero-sum game. While China must do more, the Administration has seen 
positive elements of cooperation in areas like implementing UN Security 
Council Resolutions against North Korea and stopping the dangerous flow 
of opioids into the United States.


    Section 1--Question 24.  China claims all the islands, reefs, and 
rocks in the South China Sea. So does Taiwan. Vietnam claims the 
Spratlys. Malaysia, the Philippines, and Brunei claim some features. 
What should be the U.S. policy toward the South China Sea?

    Answer. If confirmed, I will work with our allies and partners, and 
through regional forums, to build maritime capacity, reinforce a rules-
based approach to resolving disputes peacefully, and uphold freedoms of 
navigation and overflight, and other lawful uses of the sea in the 
South China Sea. I will also urge China and all of the South China Sea 
claimants to refrain from new construction on, and militarization of, 
disputed features. The Administration supports the development of a 
meaningful ASEAN-China Code of Conduct for the South China Sea that 
accords with international law, particularly as reflected in the Law of 
the Sea Convention. The United States will continue to fly, sail, and 
operate wherever international law allows, including in the South China 
Sea.


    Section 1--Question 25.  Should we get involved in recognition or 
adjudication of claims?

    Answer. It has long been U.S. policy not to take a position on 
competing sovereignty claims over naturally formed land features in the 
South China Sea. The United States does, however, take the position 
that all maritime claims should be made and pursued in accordance with 
international law as reflected in the Law of the Sea Convention.


    Section 1--Question 26.  Do you see the U.S. and China as rivals 
for dominance of the South China Sea?

    Answer. The United States is not a claimant state in the South 
China Sea, but does have a vital interest in maintaining peace, 
security, stability, freedoms of navigation and overflight, and other 
lawful uses of the sea in the region. If confirmed, I will continue to 
support these priorities by engaging with countries across the region 
both bilaterally and through multilateral fora to maintain support for 
the rules-based international order.


    Section 1--Question 27.  What should be the U.S. response to 
China's militarization of the South China Sea?

    Answer. If confirmed, I will press China and all South China Sea 
claimants to refrain from new construction on, and militarization of, 
disputed features, and to manage and resolve disputes peacefully 
without the threat or use of force or coercion and in accordance with 
international law. Working with allies and partners, the United States 
will work to uphold freedoms of navigation and overflight, and other 
lawful uses of the sea in the South China Sea, including by flying, 
sailing, and operating wherever international law allows.


    Section 1--Question 28.  What can the United States do to deter 
further Chinese militarization?

    Answer. If confirmed, I will use all appropriate tools to address 
China's troubling behavior in the South China Sea. Working with allies 
and partners, the United States should uphold freedoms of navigation 
and overflight, and other lawful uses of the sea, including by flying, 
sailing, and operating wherever international law allows.


    Section 1--Question 29.  In the past, U.S.-Chinese cooperation on 
climate change has been a bright spot in the trans-Pacific relationship 
between two global powers. What is your understanding of China's 
domestic and global economic plan for clean energy development? How do 
you intend to maintain or build the constructive U.S.-China dialogue on 
these issues?

    Answer. I believe energy cooperation with China can advance U.S. 
energy security and opportunities for U.S. businesses. If confirmed, I 
will seek to advance secure, stable, diversified, and modern global 
energy systems that use a broad range of market-based energy solutions, 
with China and other global partners.


    Section 1--Question 30.  Do you believe climate change is real? Do 
you believe human behavior impacts climate change?

    Answer. As I stated in my testimony, I believe that the climate is 
changing and that humans likely play a role in that change.


    Section 1--Question 31.  Can you explain how you intend to continue 
to build the credibility of U.S. energy and climate change diplomacy 
with China in light of the President's action to eliminate all federal 
regulation on climate change and to eliminate all U.S. assistance that 
has nexus whatsoever to climate change or clean energy?

    Answer. As a leader in global energy, America is a critical force 
in advancing energy efficiency and clean energy efforts around the 
world. If confirmed, I will work with China and other countries to 
promote access to affordable, sustainable energy that also promotes a 
clean and healthy environment through continued bilateral engagement 
and cooperation.


    Section 1--Question 32.  In 2017, this administration's 13 
scientific agencies affirmed that humans ``are the dominant cause of 
the observed warming since the mid-20th century.'' Do you accept that 
conclusion?

    Answer. If confirmed, I will make sure that the United States 
demonstrates leadership on climate issues to protect and advance the 
interests of the United States. I would promote the U.S. role as a 
world leader in innovation, particularly in the development of next-
generation energy technologies.


    Section 1--Question 33.  What is your understanding of the link 
between Chinese foreign investment in energy resources and development 
and Chinese projection of their vision of global governance and 
diplomatic influence?

    Answer. China's growing overseas investment in many areas, 
including energy, must be watched carefully to ensure that projects 
meet international standards in areas such as debt sustainability, 
local input, and environmental impact. If confirmed, I will engage with 
likeminded partners and recipient countries to work on ensuring that 
China's investments are consistent with the market-oriented, rules-
based international order and does not undermine the sovereignty of any 
country.


    Section 1--Question 34.  Over the past year there have been 
conflicting reports regarding the status and case of Liu Xia, widow of 
Nobel Prize winner Liu Xiaobo, who has been held under house arrest in 
China since her husband's death in 2017 despite the fact that she has 
never been accused or convicted of any crime. China should be held to 
account both for Liu Xiaobo's imprisonment and death and for the 
oppressive treatment of Liu Xia, who was subject to arbitrary detention 
and harassment, including house arrest in contravention of the Chinese 
Constitution and China's international obligations during the seven 
years prior to her husband's death. U.S. officials have reportedly been 
told on numerous occasions that she will be allowed to leave China but, 
as of yet, she remains under virtual imprisonment even as she faces 
life-threatening health issues. Will you commit to personally raising 
her case and demanding that she be allowed to leave China immediately--
and that the U.S. would see it as a positive step for her to be allowed 
to leave--in all your interactions with senior level Chinese government 
and Party officials?

    Answer. I am deeply concerned about Liu Xia's well-being. The 
Administration has consistently advocated with Chinese officials to 
release her from house arrest and allow her to travel abroad according 
to her wishes. If confirmed, I will work with both our likeminded 
partners and Congress to advocate for Liu Xia's ability to travel 
freely. Defending human rights is not just a good or moral thing to do; 
it is in the national interest of the United States.


    Section 1--Question 35.  What is your understanding of the 
Administration's Indo-Pacific strategy? Given that the Administration's 
FY19 budget request dramatically cuts Function 150 funding for the 
Indo-Pacific region, how do you align resources with professed policy 
goals? Will you advocate for a budget that reflects policy?

    Answer. The Administration has been clear that future U.S. security 
and prosperity will greatly depend on maintaining a free and open Indo-
Pacific. This requires diplomatic and development assistance budgets 
capable of advancing peace and prosperity in this vital region while 
prioritizing the efficient use of taxpayer resources. If confirmed, I 
will fight to ensure that a strong, well-resourced foreign and civil 
service is at the forefront of U.S. diplomacy at all levels.


    Section 1--Question 36.  Do you support ASEAN centrality? What role 
should the United States play in supporting functional problem-solving 
multilateral institutions and architecture in Asia?

    Answer. The United States should continue supporting ASEAN 
centrality and the ASEAN-centered regional architecture. The United 
States is an active participant in ASEAN fora, which are platforms for 
promoting freedom, prosperity, and the rules-based order. The United 
States cooperates with ASEAN on political, economic, and socio-cultural 
issues. At the East Asia Summit, the United States engages in leaders-
led discussions on the region's most pressing security challenges, 
including North Korea, the South China Sea, and terrorism. At the ASEAN 
Regional Forum, the United States leads practical confidence-building 
activities in areas such as cyber, transnational crime, and 
nonproliferation. If confirmed, I will continue to support ASEAN unity 
and centrality while promoting American interests and values in the 
region.


    Section 1--Question 37.  The United States for decades has 
benefited from a strong security and economic relationship with Taiwan. 
However, the United States continues to maintain self-imposed 
restrictions on high-level exchanges with Taiwan. If confirmed, will 
you encourage China to understand the benefits of exchanges between the 
United States and Taiwan at all levels?

    Answer. If confirmed, I will seek opportunities for visits to 
Washington and Taipei by senior-level officials. I will also seek 
authorities that advance our robust unofficial relationship and enable 
substantive exchanges on issues of mutual concern, consistent with the 
Taiwan Relations Act and the One China policy.


    Section 1--Question 38.  Global health, international aviation 
security and transnational crime are all matters of global importance 
requiring cooperation from stakeholders from all around the world. 
Congress has passed legislation requiring the State Department to 
support Taiwan's meaningful participation in international 
organizations such as the World Health Organization (WHO), the 
International Civil Aviation Organization (ICAO) and the International 
Civil Organization (INTERPOL). How do you and the administration plan 
to encourage Beijing to support Taiwan's participation in international 
institutions and the international community?

    Answer. The Administration supports Taiwan's membership in 
international organizations where statehood is not a requirement. 
Issues like global health, aviation security, and transnational crime 
require the joint efforts of the international community. If confirmed, 
I will continue to use all of our diplomatic tools to build like-minded 
coalitions to support Taiwan's meaningful participation in 
international organizations including the WHO, ICAO, and INTERPOL.


    Section 1--Question 39.  The Taiwan Relations Act (TRA) stipulates 
that it is the policy of the United States to provide Taiwan with 
``such defense articles and services in such quantities as may be 
necessary to enable Taiwan to maintain a sufficient self-defense 
capability''. Will you and the Administration faithfully implement the 
TRA and carry out regular transfers of defense articles and services to 
the government of Taiwan?

    Answer. If confirmed, I will continue to support arms sales to 
Taiwan, consistent with the TRA and our longstanding policies, which 
have contributed to the security of Taiwan and supported the 
maintenance of peace and stability across the Taiwan Strait. Arms sales 
are a visible demonstration of U.S. support for Taiwan.


    Section 1--Question 40.  The Vatican is reportedly moving closer to 
a deal regarding the appointment of bishops with China, whose Catholics 
are divided between an underground Church loyal to the pope and a 
government-backed Church. I doubt that true religious freedom is 
possible under tight control of an authoritarian regime and I am 
concerned that Taiwan's diplomatic ties with the Vatican may be severed 
as a result. What should the State Department do to support the 
Vatican's efforts to promote religious freedom in China without 
sacrificing their ties with Taiwan, where religious freedom is fully 
respected?

    Answer. I am deeply concerned about any actions that could harm 
religious freedom in China. I am similarly concerned about any actions 
that could harm Taiwan's international space. If confirmed, I will urge 
the Vatican to consider very carefully the impact that a deal with the 
Chinese government might have on these vital issues.


    Section 1--Question 41.  Is this administration committed to 
multilateral institutions in Asia including ASEAN and the EAS or more 
focused on an a la carte ``like-minded'' approach like the Quad?

    Answer. The Administration sees ASEAN and ASEAN-centered mechanisms 
like the East Asia Summit as centerpieces of the Indo-Pacific's 
regional architecture. The Administration remains committed to ASEAN 
centrality. U.S.-Australia-India-Japan consultations, often referred to 
as the Quad, are one of the multilateral mechanisms through which the 
United States engages with our allies and partners in the region.


    Section 1--Question 42.  If an important part of ``competing'' in 
Asia is in the realm of ideas, values, and principles, how will you 
bolster the role of State & U.S. diplomats to compete more effectively?

    Answer. The advancement of democracy, human rights, and the rule of 
law has been an essential component of the free and open order the 
United States has fostered in the region for over 70 years. The 
President's Indo-Pacific strategy is to join with our allies and 
partners to strengthen this order. If confirmed, an important part of 
my role in empowering our diplomats will be to address the vacancies in 
the Department, and to put in place leaders eager and empowered to 
execute the President's strategy.


    Section 1--Question 43.  The Trump administration's own National 
Security Strategy, which was released in December 2017, accurately 
notes, ``Governments that respect the rights of their citizens remain 
the best vehicle for prosperity, human happiness, and peace. In 
contrast, governments that routinely abuse the rights of their citizens 
do not play constructive roles in the world.'' This is a concise 
statement on the direct relationship between governments that uphold 
fundamental freedoms on the one hand, and those that contribute to, or 
detract from, international peace and security on the other. One needs 
look no further than countries like Syria, North Korea, Iran, and 
Russia, to see this link. Despite this assertion, the Administration's 
FY19 budget again requests radical, harmful cuts to democracy, rights, 
and governance (DRG) funding to programs, which strengthen political 
and civic organizations, safeguard elections, promote citizen 
participation, and strengthen openness and accountability in 
government. Programs that help secure our interests at a fraction of 
the cost of deploying U.S. military forces to respond to contingencies 
all too often brought about by governments that abuse their people at 
home and destabilize the international system. For example, the 
Administration proposes slashing funding for the National Endowment for 
Democracy by 60 percent. Congress has viewed the NED as a vital 
instrument in the global competition for ideas and values. President 
Ronald Reagan foresaw in creating the NED that ``the ultimate 
determinant in the struggle now going on for the world will not be 
bombs and rockets, but a test of wills and ideas, a trial of spiritual 
resolve: the values we hold, the beliefs we cherish, the ideas to which 
we are dedicated.'' Indeed, the brave North Korean defector the 
President himself brought to the State of the Union received support 
from the NED. At a time when competitors like China and Russia are 
seeking to fill power vacuums and weak and failed states offer fertile 
openings for our adversaries and for extremists seeking to exploit 
despair, why would the Administration cut funding for crucial programs 
that empower those voices who advocate for a more democratic, 
prosperous and peaceful world?

    Answer. Democracy programs are critical for defending national 
security, fostering economic opportunities for the American people, and 
asserting U.S. leadership and influence. The FY 2019 budget request 
upholds U.S. commitments to key partners and allies through strategic, 
selective investments that enable America to retain its position as a 
global leader, while relying on other nations to make greater 
contributions toward shared objectives, including advancing democracy 
worldwide. If confirmed, I will look to continue support for these 
critical programs.


    Section 1--Question 44.  In your testimony, you stated that if the 
administration is unable to ``fix'' the Iran nuclear deal, you will 
``recommend to the president that we do our level best to work with our 
allies to achieve a better outcome and a better deal.'' With the May 12 
deadline rapidly approaching, how would you fix the deal and what would 
be your diplomatic strategy to do so vis-`-vis our P5+1 partners and 
Iran?

    Answer. I believe fixing the deal is in the best interest of the 
United States. The President has been clear about his concerns 
regarding the JCPOA and, if confirmed, I would take up the task of 
seeking a new supplemental agreement to address these concerns--
including addressing the sunset dates to ensure Iran never comes close 
to developing a nuclear weapon, taking strong action if Iran refuses 
IAEA inspections, and preventing Iran from developing or testing a 
long-range ballistic missile. If confirmed, I look forward to working 
with Congress and our international partners toward a solution that 
prevents the emergence of a nuclear-armed Iran and prevents Iran from 
developing intercontinental ballistic missiles that undermine regional 
and international peace and security.


    Section 1--Question 45.  Do you believe you would still be able to 
act as a credible international partner and negotiate a ``better deal'' 
if the United States has unilaterally withdrawn?

    Answer. If confirmed, I will seek to maintain the highest possible 
international credibility for the United States, regardless of whether 
the United States continues to participate in the JCPOA.


    Section 1--Question 46.  Director Pompeo, in your testimony you 
said Iran ``wasn't racing towards a weapon before the deal'' and that 
``there is no indication that I'm aware of that if the deal were no 
longer to exist that they would immediately race to a nuclear weapon 
today.'' This is in contrast with your previous opposition to JCPOA on 
the grounds that it ``left the Iranians with a breakout capacity'' and 
that Iran is ``intent on the destruction of our country.'' Please 
clarify your statements and explain why, if you do not believe Iran is 
racing to acquire a nuclear weapon, the United States should withdraw 
from JCPOA.

    Answer. The Joint Comprehensive Plan of Action (JCPOA) does not 
address Iran's development of ballistic missiles, which represent a 
threat to the U.S. and our allies and are Iran's preferred method for 
delivering a nuclear weapon--if it chose to acquire this capability. 
The sanctions relief provided under the JCPOA also contributed to an 
economic recovery in Iran, giving it greater financial flexibility to 
support its nefarious activities in the region without cutting as 
deeply into its spending for domestic initiatives. Over the long run, 
restrictions on Iran's nuclear program will loosen even as Tehran 
retains the benefits of sanctions relief. For example, JCPOA-specific 
provisions on Iran's fissile material production will expire within 10 
to 25 years of JCPOA implementation. Specifically, restrictions on 
Iran's ability to stockpile more than 300kg of low-enriched uranium, 
limits on locations Iran is permitted to conduct uranium enrichment 
activities, and limits on reprocessing nuclear fuel expire after 15 
years. In addition, after 13 years there are no restrictions on Iran's 
advance centrifuge R&D program.

    As for Iran's intent to destroy America, please see:


 1.  ``America is the number one enemy of our nation.''--Khamenei (7 
        November 2017, https://www.reuters.com/article/us-iran-usa/
        supreme-leader-khamenei-says-u-s-is-irans-number-one-enemy-
        idUSKBN1D211H).

 2. `` `It seems the Trump administration only understands swear words, 
        and needs some shocks to understand the new meaning of power in 
        the world,' Masoud Jazayeri, spokesman for the Iranian armed 
        forces and Revolutionary Guards commander said Tuesday. `The 
        Americans have driven the world crazy by their behavior. It is 
        time to teach them a new lesson.' '' (10 October 2017, http://
        www.newsweek.com/trump-needs-be-taught-new-lessons-irans-
        military-says-681447). and

 3. ``At Al-Quds day rallies last week, Khamenei noted appreciatively, 
        You heard `Death to Israel', `Death to the US.' You could hear 
        it. The whole nation was shaken by these slogans. It wasn't 
        only confirmed in Tehran. The whole of the nation, you could 
        hear, that was covered by this great movement. So we ask 
        Almighty God to accept these prayers by the people of Iran.'' 
        `` `This slogan means death to the policies of the U.S. and 
        arrogant powers,' he said, `and this logic is accepted by every 
        nation when explained in clear terms.' '' (18 July 2015, 
        https://www.cnn.com/2015/11/04/middleeast/ayatollah-death-to-
        america/index.html; 5 November 2015, https://
        www.timesofisrael.com/irans-khamenei-hails-his-people-for-
        demanding-death-to-america-and-israel/).


    Section 1--Question 47.  General Dunford has stated that the United 
States' withdrawal from its commitments, such as the JCPOA, ``unless 
there's a material breach, would have an impact on others' willingness 
to sign agreements.'' As the administration pursues negotiations with 
North Korea regarding its nuclear program, do you believe the United 
States will be viewed as a credible negotiator if it withdraws from 
JCPOA?

    Answer. The United States enjoys high international credibility, 
and I am confident that the Trump Administration's decisions on the 
JCPOA will only underscore our seriousness about nuclear weapons and 
nuclear diplomacy.


    Section 1--Question 48.  Do you believe that America should uphold 
its diplomatic commitments?

    Answer. Yes, the United States should uphold its diplomatic 
commitments, as long as they continue to be in the national security 
interests of the United States.


    Section 1--Question 49.  Sometimes as Secretary of State you need 
to engage our adversaries to advance American interests. Will you 
conduct direct diplomacy with Iran to advance American interests?

    Answer. I am not in a position at this time to prejudge or predict 
the direction that our diplomatic engagement with Iran may or may not 
take.


    Section 1--Question 50.  During the hearing, you stated that you 
were optimistic that the United States could reach a diplomatic deal 
with North Korea but offered few details on how you would approach 
negotiations. As Secretary, what do you think are the most important 
elements of a diplomatic deal with North Korea?

    Answer. The goal of the Administration's diplomatic strategy is to 
achieve the complete, verifiable, and irreversible denuclearization of 
the Korean Peninsula. To do that, there must be a serious and sustained 
pressure campaign through full implementation of UN and U.S. sanctions, 
along with a pursuit of negotiations. As we explore the diplomatic 
opening, we will also maintain the pressure campaign until North Korea 
denuclearizes.


    Section 1--Question 51.  During your testimony, you said the 
purpose of Kim Jong Un and President Trump's meeting is to, ``address 
the nuclear threat to the United States'' so that North Korea will, 
``step away from its efforts to hold America at risk.'' Do you believe 
that the nuclear threat that North Korea presents to U.S. allies should 
not be on the agenda for the Trump-Kim summit?

    Answer. The Trump Administration has been clear and consistent that 
the goal is to achieve the complete, verifiable, irreversible 
denuclearization of the Korean Peninsula and in so doing, ensure that 
North Korea's nuclear and missile programs no longer threaten the 
United States or our allies. This commitment to our allies is ironclad.


    Section 1--Question 52.  Many policy analysts believe that North 
Korea will offer some form of limited denuclearization in exchange for 
the removal of U.S. troops from South Korea. While removing U.S. troops 
in exchange for limited denuclearization might lower the risk to 
Americans, it would raise risks for U.S. allies like Japan and South 
Korea which are in range of North Korea's conventional weapons. Do you 
believe that the U.S. should pursue these options?

    Answer. The ROK and Japan are valued, close allies with which we 
have worked closely towards achieving the complete, verifiable, and 
irreversible denuclearization of the Korean peninsula via diplomatic 
means. The Administration will remain in close coordination and 
cooperation with South Korea and Japan about any response to North 
Korea.


    Section 1--Question 53.  If you fail to make progress in 
negotiations with North Korea, would you support the preventive use of 
force to prevent North Korea from achieving an ICBM capability that 
would threaten the homeland even with the potential catastrophic 
consequences or would you instead recommend a course of deterrence and 
containment?

    Answer. There is diplomatic work to do, and if confirmed, my focus 
will be to continue the pressure campaign and achieve our goal of the 
complete, verifiable, irreversible denuclearization of North Korea. 
Without getting into hypotheticals, maintaining the pressure campaign 
throughout negotiations and increasing pressure should talks fail must 
be a key part of our strategy, and all options remain on the table.


    Section 1--Question 54.  If the United States is able to reach a 
diplomatic agreement on North Korea, would you commit to submitting it 
to the Senate for ratification?

    Answer. The Administration is committed to engaging appropriately 
with Congress in the course of its efforts to resolve the threat posed 
by North Korea's nuclear program. If confirmed, I look forward to 
engaging you regularly on the critical challenges to U.S. security.


    Section 1--Question 55.  You criticized the Obama Administration 
for weaknesses in the Iran nuclear deal, especially on verification. 
How do you intend to ensure that we get a strong and verifiable a deal 
on North Korea?

    Answer. The North Koreans have confirmed to us directly their 
willingness to talk about denuclearization. The incremental, phased 
approaches of past negotiations all failed, in part because the 
international community eased pressure prematurely. The 
Administration's goal is to develop an agreement with the North Korean 
leadership such that North Korea will achieve complete, verifiable and 
irreversible denuclearization.


                               __________

                      (Section 2--Questions 1-50) 

    Section 2--Question 1. Secretary Tillerson announced last year that 
he was undertaking a massive effort to comply with the President's 
Executive Order on reorganizing the federal government, including 
consideration of the elimination of a number of bureaus and offices and 
a goal of large-scale cuts in personnel utilizing buyouts. During this 
review process, the Secretary implemented a damaging hiring freeze and 
hired very expensive outside management consulting organizations to 
make recommendations. Right before the end of his time as Secretary, 
the Department changed their message and stated there was never a 
reorganization and that it is just a ``redesign,'' or an ``Impact 
Initiative,'' depending on the bumper sticker of the week. Most of the 
``keystone'' projects that the Department is now implementing--many 
with only minimal congressional consultation, transparency, and 
oversight, despite our efforts--are limited and technical in scope, 
addressing such issues as streamlining information systems. What is the 
status of the current redesign process and the future of the Impact 
Initiative and keystone projects?

    Answer. I have been briefed on certain aspects of the Impact 
Initiative but have not had the opportunity to review its various 
elements in depth. If confirmed, I look forward to learning more about 
the Initiative and its progress to date. I will assess the state and 
full scope of the Impact Initiative and make a determination quickly 
about how to proceed, in consultation with the Department's foreign 
service and civil service officers.


    Section 2--Question 2. What has been the effect on State Department 
morale and functioning that the past years turbulent process created?

    Answer. I understand that the Impact Initiative and Redesign have 
caused concerns within the State Department and with Congress. If 
confirmed, I will assess the state and full scope of the Impact 
Initiative and make a determination quickly about how to proceed, in 
consultation with the Committee and the Department's foreign service 
and civil service officers.


    Section 2--Question 3. What is the relationship between the 
reorganization that appears no longer to be and the deep cuts to the 
department's budget that was proposed by the Administration?

    Answer. My initial understanding is that Secretary Tillerson's 
Redesign and the Administration's budget proposals were distinct 
processes. If confirmed, I look forward to reviewing Department 
management and budgetary issues more closely, in consultation with the 
Committee.


    Section 2--Question 4. As the Impact Initiative moves forward, is 
the Department planning to seek additional input from Congress and the 
stakeholder community?

    Answer. If confirmed, I will assess the state and full scope of the 
Impact Initiative and make a determination quickly about how to 
proceed, in consultation with Congress, stakeholders, and the 
Department's foreign service and civil service officers.


    Section 2--Question 5. Will you commit to working with this 
Committee before moving forward with any other reforms to the State 
Department and our foreign assistance agencies?

    Answer. Yes. As a former member of Congress, I have deep respect 
for the role of Congress on these matters.


    Section 2--Question 6. There is continued concern, now a year and a 
half into the administration, that the Department of State lacks 
nominees for a large number of the senior officials critical for the 
Department's work. The Senate has yet to receive nominations for four 
Undersecretary posts, as well as eight Assistant Secretary positions 
and dozens of ambassadorial posts. We have received a nomination for 
Ambassador to the Bahamas, but not yet for our ally the Republic of 
Korea at a time when the administration describes the situation on the 
Korean Peninsula as our top national security priority. With Tom 
Shannon's retirement, the Department now has one Career Ambassador, 
down from six in January 2017. The Senate can't move to confirm 
nominees we don't have. While I have the utmost respect for the career 
professionals at the Department, they will also be the first to tell 
you that there is no substitute for Senate-confirmed senior officials. 
What is the logic for the nominations that have been made by this 
Administration, prioritizing for example the Bahamas over Korea, and 
with numerous senior management and policy jobs remaining vacant?

    Answer. I fully recognize and appreciate the importance of filling 
these critical senior Department leadership positions, both those 
located domestically and overseas, and if confirmed, I commit to you 
that addressing this issue will be one of my highest priorities. 
Additionally, if confirmed, I will work closely with the White House to 
identify qualified candidates for the vacant senior leadership 
positions.


    Section 2--Question 7. Are there plans and timeline for filling 
these vital positions?

    Answer. Addressing and filling vital senior leadership positions at 
the State Department is one of my highest and immediate priorities. If 
confirmed, I will work closely with the White House to identify and 
select qualified candidates for these vacant positions.


    Section 2--Question 8. There is continued concern, now a year and a 
half into the administration, that the Department of State lacks 
nominees for a large number of the senior officials critical for the 
Department's work. The Senate has yet to receive nominations for four 
Undersecretary posts, as well as eight Assistant Secretary positions 
and dozens of ambassadorial posts. We have received a nomination for 
Ambassador to the Bahamas, but not yet for our ally the Republic of 
Korea at a time when the administration describes the situation on the 
Korean Peninsula as our top national security priority. With Tom 
Shannon's retirement, the Department now has one Career Ambassador, 
down from six in January 2017. The Senate cannot move to confirm 
nominees we do not have. While I have the utmost respect for the career 
professionals at the Department, they will also be the first to tell 
you that there is no substitute for Senate-confirmed senior officials.
    Does this lack of leadership and these vacancies damage the 
Department's ability to fully function--either its ability to conduct 
foreign affairs, its ability to participate in the interagency process, 
or for staff morale and effectiveness?

    Answer. The State Department has a highly talented staff of senior 
professionals who advance U.S. foreign policy goals around the world. 
At the same time, I agree that there are too many vacancies and too 
many unfilled positions. If confirmed, I will do my part to fill 
vacancies, as soon as possible, but I will need your help and that of 
the entire Senate. Filling senior vacancies is critical to 
strengthening the finest diplomatic corps in the world.


    Section 2--Question 9. There is continued concern, now a year and a 
half into the administration, that the Department of State lacks 
nominees for a large number of the senior officials critical for the 
Department's work. The Senate has yet to receive nominations for four 
Undersecretary posts, as well as eight Assistant Secretary positions 
and dozens of ambassadorial posts. We've received a nomination for 
Ambassador to the Bahamas, but not yet for our ally the Republic of 
Korea at a time when the administration describes the situation on the 
Korean Peninsula as our top national security priority. With Tom 
Shannon's retirement, the Department now has one Career Ambassador, 
down from six in January 2017. The Senate cannot move to confirm 
nominees we do not have. While I have the utmost respect for the career 
professionals at the Department, they will also be the first to tell 
you that there is no substitute for Senate-confirmed senior officials.
    Is the Department able to actively and successfully implement 
policy or management directives with no senior staff to carry out 
guidance?

    Answer. The State Department has a highly talented staff of senior 
professionals who advance U.S. foreign policy goals around the world. 
At the same time, I agree that there are too many vacancies and too 
many unfilled positions. If confirmed, I will do my part to fill 
vacancies, as soon as possible, but I will need your help and that of 
the entire Senate. Filling senior vacancies is critical to 
strengthening the finest diplomatic corps in the world.


    Section 2--Question 10. How has the lack of Senate-confirmed 
ambassadors harmed U.S. diplomatic access and entree in foreign 
capitals, many of which are protocol conscious?

    Answer. This is a question that I will be better able to address, 
if I am confirmed. Filling Senate-confirmed vacancies will be among my 
highest priorities, if confirmed.


    Section 2--Question 11. In April 2017, while the OMB lifted the 
across-the-board federal hiring freeze imposed by the president in 
January, the State Department continued a self-imposed freeze, 
including the hiring of Foreign Service family members (Eligible Family 
Members, (EFMs)). In August 2017, Secretary Tillerson ``approved an 
exemption to the hiring freeze that will allow the Department to fill a 
number of priority EFM positions that are currently vacant. This 
exemption gives posts authority to fill critical vacancies supporting 
security, safety, and health responsibilities.'' Deputy Secretary 
Sullivan told members of the press on August 8 that ``almost 800 EFMs 
[that] have been approved since this--the hiring freeze was imposed.'' 
In lifting the freeze in August, however, the Department by intent, 
design, or otherwise, effectively froze out eligible family members 
caught between the ``transfer seasons'' between Posts, leaving numerous 
jobs unfilled and unfillable even with the ``lift'' in the freeze. 
Moreover, according to SFRC staff interviews with numerous Embassies, 
instructions regarding how to implement the lift have still not been 
uniformly conveyed across the Department and certain Posts are 
operating under instructions to freeze any position that an EFM applies 
for, with no clear directions or guidance on how to ``unfreeze'' 
billets. As I am sure, you are aware, EFM jobs are generally a cost-
effective way for Embassies to provide important support for Posts, and 
the hiring freeze had the effect of creating significant distortions 
and management challenges for the Department. To take one example, 
according to State/OIG, the AF Bureau's FY2017 staffing includes 1,147 
American Direct Hire overseas, 572 local staff, 140 reemployed 
annuitants (retired Civil Service or Foreign Service employee rehired 
on an intermittent basis for no more than 1,040 hours during the year), 
and 14 ``rover-employees'' based overseas. State/OIG also reported that 
the AF bureau relies on 399 EFM employees for its overseas staffing. 
The 399 EFM employees are not specifically excluded from the State/OIG 
1,147 count; if the 399 EFM employees are in addition to the 1,147 
count it constitutes a full one quarter of the bureau's overseas 
workforce.

    Answer. I recognize the value and contributions made by our 
Eligible Family Members (EFMs) in support of our national security 
interests when employed in our missions abroad. I am aware that 
employing EFMs is a cost-effective way to staff many critical safety 
and security related positions. I understand that the Department has 
recently increased EFM hiring. If confirmed, I will review the current 
hiring policies for EFMs to ensure that they are as effective as 
possible.


    Section 2--Question 12. What measures will you take to undo the 
damage created by the hiring freeze to the Department's operations and 
morale?

    Answer. If confirmed, with your help, I will work to ensure that 
vacancies in the senior ranks of the Department are filled as soon as 
practicable with talented and capable people who are prepared to work 
with all employees of the Department of State and that leaders are 
empowered to fill vacancies. If confirmed, it will be one of my first 
priorities to ensure that State Department employees have a clear 
understanding of the President's mission and the critical roles they 
play in ensuring our success.


    Section 2--Question 13. How will you assure that full and complete 
instructions regarding the lifting of the freeze are conveyed across 
the Department and to all Posts overseas?

    Answer. If confirmed, I am committed to developing hiring levels 
that comply with the provisions of the Consolidated Appropriations Act 
of 2018 and that effectively advance American interests around the 
world. All employees will be notified via Department notices, 
appropriate overseas cables, and, as appropriate, town-hall style 
engagements that can be broadcast to staff at home and posted to our 
Missions in the field.


    Section 2--Question 14. In your testimony, you mentioned the 
importance of giving the State Department its ``swagger'' back. 
Secretary Tillerson set a goal of eliminating 2,000 State Department 
positions. Do you plan to adopt that goal as your own?

    Answer. It is my understanding that funding provided under the 
Appropriations Act of 2018 supports staffing levels at or above 2017 
end-of-year levels. If confirmed, I will set the Department's goal on 
that basis and aim to ensure we have the right staff levels to advance 
U.S. national security interests and the President's vision around the 
globe.


    Section 2--Question 15. The November 2017 #metoonatsec open letter 
signed by 223 prominent women in national security highlighted the 
threat that sexual harassment and assault pose to national security 
talent retention and readiness and offers a set of actions to reduce 
the incidence of sexual harassment and assault in the workplace. They 
are: provide clear leadership from the very top that these behaviors 
are unacceptable; create multiple, clear, private channels to report 
abuse without fear of retribution; provide external, independent 
mechanisms to collect data on claims and publish them anonymously; 
institute mandatory, regular training for all employees; and ensure 
exit interviews are conducted when people leave the Department. 
Recognizing the deleterious effects such behaviors can have on the 
State Department's mission objectives, your predecessor, former 
Secretary of State Tillerson, recently began addressing these efforts. 
Of note, the State Department Office of the Inspector General has also 
embarked upon an evaluation of State Department policies and procedures 
with regard to sexual harassment, as detailed in its 2018 work plan. If 
confirmed, what steps will you take to reduce incidents of sexual 
harassment and assault at the State Department and what measures will 
you undertake to ensure employee safety, welfare, and the fair, 
thorough, and expeditious resolution of allegations when such abuses 
occur. Further, understanding that such abuses are widely understood to 
be born of gender imbalances in senior leadership and that more diverse 
teams are consistently linked to better outcomes, what steps will you 
take to improve gender-balance, especially at senior levels, and how 
will you hold managers accountable for creating, nurturing, and 
enforcing a workplace culture that respects and includes women as equal 
peers and colleagues?

    Answer. I understand that the Department has a zero tolerance 
stance on any form of workplace harassment. If confirmed, I will 
continue to support and strengthen established measures that hold 
employees who engage in such behavior accountable. As I have done at 
the CIA, I will work to ensure that every team member is treated 
equally and with dignity and respect.


    Section 2--Question 16. The State Department should accurately 
reflect the American people. Unfortunately, we currently have a huge 
diversity gap in our Foreign and Civil Service workforce, especially at 
the higher ranks. This committee has specifically included language in 
past years outlining that the State Department Human Resources Bureau 
has a responsibility to recruit and manage a talented and diverse 
workforce. How do you plan to address that gap and assure that we have 
a vibrant, robust, and diverse workforce at the Department of State?

    Answer. Throughout my career, I have always worked to establish an 
inclusive and diverse workforce. If confirmed, I will review the 
Department's current diversity recruitment efforts and work to ensure 
the Department makes the most of all its initiatives to attract, 
recruit, hire, and promote outstandingly qualified and diverse talent.


    Section 2--Question 17. What efforts will you make to address 
inclusion and retention at the State Department with professional 
development, unconscious bias training, sexual harassment and assault 
training, and career advancement opportunities?

    Answer. I understand the Department has mandatory requirements for 
EEO/Diversity Awareness and Anti Sexual Harassment Training. If 
confirmed, I would continue to support these efforts. In addition, I 
will ensure all employees, including those from diverse backgrounds and 
underrepresented groups, have the professional development skills and 
opportunities necessary for current and future work assignments and are 
treated equally, with dignity and respect.


    Section 2--Question 18. Are you familiar with reports that senior 
State Department officials have sought to ``clean house'' by 
reassigning or purging career employees who are deemed insufficiently 
``loyal'' to President Trump, or based on their work for a prior 
administration, or even ethnic origin or place of birth?

    Answer. I am aware of these reports. The career employees of the 
Department of State--civil service, foreign service, and locally-
employed staff--are the Department's greatest asset. If confirmed, I 
will ensure that all personnel practices are carried out consistent 
with all laws and regulations.


    Section 2--Question 19. Do you denounce any such effort to 
improperly reassign, remove, or interfere with the careers of career 
employees on these bases? What will you do to ensure employees are 
protected from these efforts?

    Answer. If confirmed, my staff and I will make employment decisions 
based on merit and ensure that all personnel practices are carried out 
consistent with all laws and regulations.


    Section 2--Question 20. Will you commit to ensuring that career 
officials in the civil and foreign services are not ``punished,'' 
demoted, or otherwise negatively impacted because of their past work in 
support of prior administrations' goals?

    Answer. Yes.


    Section 2--Question 21. Is it appropriate for your staff or other 
political appointees to discuss the ethnic or national origins when 
considering staffing of career State Department officers?

    Answer. No, it would not be appropriate for me, my staff, or other 
political appointees to discuss ethnicity or national origin when 
making staffing or any other employment decisions. If confirmed, my 
staff and I will make employment decisions based on merit and ensure 
that all personnel practices are carried out consistent with all laws 
and regulations.


    Section 2--Question 22. How would you respond if you learned your 
staff did engage in such action?

    Answer. It would not be appropriate for me, my staff, or other 
political appointees to discuss ethnicity or national origin when 
making staffing or any other employment decisions. If confirmed, my 
staff and I will make employment decisions based on merit. I would take 
appropriate action in response to inappropriate activities.


    Section 2--Question 23. How would you respond to situations, should 
they arise, where your staff have been found to engage in personnel 
actions that are in suspicion of a career officers political 
perspectives?

    Answer. If I am confirmed, the Department's employees can be 
assured of the freedom to express their views as part of the 
Department's policy formulation process without fear of reprisal. I 
would hold accountable the employees who fail to adhere to this policy.


    Section 2--Question 24. Unfortunately much of the last year the 
senior leadership spent considerable time and resources on outside 
consultants with lofty proposals for restructuring the Department, with 
very little to show for it. These efforts drew much needed attention 
away from running the Department, filling vacancies, and strengthening 
alliances. Further, the Department reportedly spent $12 million on 
consultants alone. Do you commit to immediately review all ongoing 
contracts related to any redesign or Impact Initiative efforts and 
report to Congress on whether you determine that additional work is 
necessary, and if so, what those costs will be?

    Answer. Yes. If confirmed, I will assess the state and full scope 
of the Impact Initiative, including the use of consultants, and make a 
determination quickly about how to proceed, in consultation with the 
Department's foreign service and civil service officers.


    Section 2--Question 25. The Department has a number of outstanding 
recommendations that GAO has flagged as priority areas for action. Are 
you familiar with the GAO's recommendations for diplomatic security? 
Have you reviewed them, and if not, will you do so promptly?

    Answer. If confirmed, I will ensure that I am properly briefed on 
all outstanding GAO recommendations related to diplomatic security.


    Section 2--Question 26. Will you make implementing GAO's 
outstanding recommendations a priority?

    Answer. If confirmed, I will make fully examining GAO's 
recommendations a priority.


    Section 2--Question 27. Will you commit to ensuring that diplomats 
serving at posts abroad are able to effectively engage with local 
communities?

    Answer. Yes, subject to security conditions.


    Section 2--Question 28. Will you ensure that embassy staffs are 
able, while prioritizing safety, to operate freely, throughout their 
countries of assignment and not be solely relegated to Embassy 
compounds?

    Answer. One of the main jobs of our diplomats overseas is to engage 
with members of the communities in the nation to which they are 
assigned. If confirmed, I will ensure the Department balances the risks 
that engagement entails with the benefits to our national interest.


    Section 2--Question 29. Hiring and promotions have been at a near 
standstill. Do you commit to revisiting the current hiring and 
promotion policies in place and report back to Congress on what steps 
you think are necessary to ensure that we have a robust and experienced 
workforce going forward?

    Answer. If confirmed, I look forward to a thorough review of these 
two critical workforce policies.


    Section 2--Question 30. Many experienced diplomats have expressed 
extreme concern about the retention of experienced Foreign Service 
Officers and civil servants and the impact on the Department's short-
and long-term ability to carry out its diplomatic function. Do you 
agree this is a critical area of concern? What will you do to ensure 
that we are not hemorrhaging experienced Foreign Service Officers and 
civil servants, and that the Department will have the experience it 
needs for the next 5 to 10 years?

    Answer. The Department has a highly talented staff of professionals 
advancing U.S. foreign policy interests. If confirmed, I will push hard 
to retain these individuals in order to execute America's diplomatic 
mission around the world. I will ensure that employees understand how 
their work contributes to the mission of the organization.


    Section 2--Question 31. Will you review all current workforce 
planning and report to Congress on what additional steps related to 
staffing and personnel you think the Department should take this year?

    Answer. If confirmed, I commit to reviewing Department of State 
workforce plans, and I plan to utilize funding provided for staffing 
under the Appropriations Act. With your help, I will work to ensure 
that vacancies in the Department are filled as soon as practicable with 
talented and capable people. I am committed to attracting the brightest 
candidates and to retaining the talented workforce necessary to advance 
our foreign policy interests. I also commit to staying engaged with 
Congress on personnel issues and workforce plans.


    Section 2--Question 32. As you know, the Department is plagued by 
numerous key vacancies, departures of senior employees, and a shrinking 
Foreign Service Officer pool. What is your biggest concern and how will 
you tackle it?

    Answer. If confirmed, it will be one of my first priorities to 
ensure that State Department employees have a clear understanding of 
the critical roles they play in ensuring our success. Additionally, 
with your help, I will work to fill vacancies in the senior ranks of 
the Department as soon as practicable. Funding provided for staffing 
under the Appropriations Act will result in both Foreign Service and 
Civil Service hiring at or above 2017 end-of-year levels.


    Section 2--Question 33. This year, the Department will see the 
smallest incoming Foreign Service Officer class in years. Does this 
concern you? Do you commit to revisit the incoming class numbers and 
assess whether additional FSO slots should be approved for this year?

    Answer. If confirmed, I intend to follow the provisions of the 
recently enacted Consolidated Appropriation Act 2018 that advises the 
Department to hire Foreign Service employees at or above 2017 end-of-
year levels. It is my understanding that this will result in hiring 
above attrition for the remainder of FY 2018. As such, I anticipate 
that Foreign Service intake classes will return to more traditional 
levels.


    Section 2--Question 34. It is no secret that low morale has plagued 
the Department over the last year. Even the Acting Under Secretary for 
Public Diplomacy, Heather Nauert, has acknowledged low morale is a 
challenge. What will you do to restore morale? This requires more than 
a generic commitment but a serious plan to reengage with employees and 
demonstrate that they are a valued part of the Department.

    Answer. In a recent series of Department briefings with team 
members at State, they all, to a person, expressed a hope to be 
empowered in their roles, and to have a clear understanding of the 
President's mission. That will be my first priority. They also shared 
how demoralizing it is to have so many vacancies and, frankly, not to 
feel relevant. I will do my part to end the vacancies as soon as 
possible. I will also work every day to provide dedicated leadership 
and convey my faith in their work--just as I have done with my 
workforce at the CIA.


    Section 2--Question 35. The prior Secretary was seen as disengaged 
and unwilling to communicate directly with employees. Do you commit to 
meeting and communicating directly and frequently with career 
employees? How will you achieve this?

    Answer. I learned many years ago from a Sergeant First Class that 
good leaders need to listen more. Just as I have done in each of my 
previous leadership roles, I will rely on those around me, including 
career officers, to achieve the team's goals. For example, at the CIA, 
I launched regularly-scheduled, small group town halls, not very 
originally titled, ``Meet with Mike.'' I would continue similar types 
of outreach at the State Department, if confirmed.


    Section 2--Question 36. As a member of the Freedom Caucus, you 
voted in favor of zeroing out funding for the U.S. Institute of Peace, 
which works to prevent violent conflicts. As currently stated on the 
Department of State's website, the department's vision is to ``promote 
and demonstrate democratic values and advance a free, peaceful, and 
prosperous world.'' Given your previous support of curbing the work of 
USIP, if confirmed as Secretary of State, how do you plan to uphold the 
department's vision to advance a free, peaceful, and prosperous world?

    Answer. The predicate of your question is incorrect. If confirmed, 
you have my commitment to use a range of diplomatic tools to advance 
freedom, peace, and prosperity. I will use tools like the Magnitsky Act 
and the Global Magnitsky Act. I will implement laws like the 
International Religious Freedom Act. I will use U.S. foreign assistance 
programs, which fund worthwhile projects carried out by a variety of 
implementers including USIP. These are powerful tools to advance 
freedom, peace and prosperity. As I said at the hearing, America is 
uniquely blessed, and with those blessings comes a duty to lead. As I 
have argued throughout my time in public service, if we do not lead for 
democracy, for prosperity, and for human rights around the world, it is 
not clear who will. No other nation is so equipped with the same blend 
of power and principle.


    Section 2--Question 37. You have stated that the reason for the 
currently challenging state of bilateral relations between the U.S. and 
Russia is due to Russia's bad behavior. Yet it is unclear that the 
State Department has yet developed, or been directed by the White House 
to develop, a coordinated, comprehensive strategy to punish, deter, or 
change this bad behavior. How will you specifically organize and 
mobilize the resources of the State Department to counter malign 
Russian government behavior and influence.

    Answer. From Russia's aggression in Ukraine to its flagrant 
violation of international law in the March 4 Salisbury attack and its 
continued support for the Syrian regime and ongoing malign activities 
across Europe, Moscow is demonstrating to be a serious threat. The 
Administration is actively working to counter Russia's aggressive 
behavior through numerous strategies. I understand the State Department 
is strengthening deterrence and defense for NATO Allies in the Baltic 
region, and is working with partners and allies to improve their 
resilience to malign influence and hybrid threats. The Department also 
currently leads various inter-agency efforts to counter Russian malign 
influence. If confirmed, I will ensure these efforts have the attention 
and resources they need. As seen with the coordinated international 
response to the Salisbury attack, we are strongest when we resist 
Russian bad behavior and aggression through collective action. If 
confirmed, I will ensure the Department continues to lead in these 
important efforts.


    Section 2--Question 38. Will you reconstitute and reenergize the 
State Department's Russian ``malign influence group''?

    Answer. If confirmed, I intend to review all efforts that are aimed 
at countering Russian malign influence to ensure that they are as 
effective as possible. It is important that the United States undertake 
a whole-of-government, coordinated approach to respond to Russian 
efforts to undermine democratic processes and institutions. The 
Department of State has a critical role to play in addressing this 
threat, and if confirmed I will continue to promote interagency 
cooperation to address Russian malign activities and impose appropriate 
costs.


    Section 2--Question 39. Do you commit to convening an international 
coalition of U.S. allies to counter hybrid threats posed by the Russian 
Federation? If so, what is your diplomatic strategy to convene this 
group?

    Answer. If confirmed, I will work together with our partners and 
Allies to counter Russia's efforts to undermine these democratic 
processes. I will work within existing groupings and organizations 
(such as NATO and the European Center of Excellence for Countering 
Hybrid Threats), and build other coalitions as necessary to counter 
this threat.


    Section 2--Question 40. Do you commit to meet with Russian 
political opposition, dissidents, civil society activists, human rights 
defenders, and independent journalists in Washington as well as during 
any future visit to the Russian Federation?

    Answer. I believe strongly that representing America requires 
promoting America's ideals, values, and priorities. If confirmed, I 
look forward to meeting with members of Russian civil society in 
Washington and abroad.


    Section 2--Question 41. Will you advocate for full appropriations 
for the Global Engagement Center's effort to counter Russian 
disinformation?

    Answer. Yes, I commit to utilizing the up to $20 million in 
additional funds to support the GEC's counter-state mission, including 
countering state-sponsored disinformation that undermines U.S. national 
security interests.


    Section 2--Question 42. Would you support the lifting of 
Congressional holds on the U.S.-Russia Investment Fund such that this 
funding could be reprogrammed towards efforts to build resilience in 
democratic institutions in Europe against interference threats posed by 
the Kremlin?

    Answer. If confirmed, I would closely review this issue, in 
consultation with the Committees of jurisdiction.


    Section 2--Question 43. How do you plan to elevate the State 
Department's role in countering Russian aggression through the 
interagency process?

    Answer. If confirmed, I commit to strengthening the Department's 
key role in countering Russian aggression. I understand the Department 
currently leads various interagency efforts to counter Russian malign 
influence as well as to collaborate with, and support, Allies and 
partners. If confirmed, I will ensure the Department continues to work 
closely with other U.S. government agencies to ensure a whole-of-
government approach to counter all the threats Russia poses.


    Section 2--Question 44. The Countering America's Adversaries 
Through Sanctions Act (CAATSA) included several mandatory provisions 
with respect to Russia. The President has failed to make determinations 
that Russian behavior over the past year is in clear violation of 
CAATSA, including with respect to its malicious cyber activities to 
undermine democratic processes in the U.S. and Europe. Do you commit to 
following the law and advocating for the imposition of sanctions under 
sections 225, 226, 228, 231, 233, and 234?

    Answer. I am deeply troubled by Russia's malicious cyber activities 
aimed at undermining our democratic processes. If confirmed, I am 
committed to using the full panoply of new sanctions authorities 
granted under CAATSA, especially those delegated to the Department of 
State, to maintain and increase pressure on Russia.


    Section 2--Question 45. Do you commit to personally engage with 
governments in Indonesia, India, China, Turkey, and Vietnam and urge 
that they significantly reduce the significant transactions with the 
defense and intelligence sectors of the Russian Federation? If they do 
not, do you commit to work to fully impose the mandatory sanctions 
under Section 231 of CAATSA?

    Answer. If confirmed, I will urge any country thought to be 
engaging in potentially significant transactions with the Russian 
defense or intelligence sectors, including Indonesia, India, China, 
Turkey, and Vietnam, to significantly reduce such transactions. I would 
not hesitate to impose sanctions if I ultimately concluded that a 
transaction is significant under the Act.


    Section 2--Question 46. Would you support the declassification of 
intelligence on Russian government use of assassination as a tool of 
political influence in the UK, across Europe and the United States?

    Answer. I do not support the declassification of intelligence if 
the declassification would have a negative impact on our sensitive 
sources and methods. If, after a thorough review, it was determined 
that intelligence on Russian government use of assassination as a tool 
of political influence could be declassified with no impact on 
sensitive sources and methods, I would support it.


    Section 2--Question 47. How will you engage with British 
authorities to ensure that Russian oligarchs on the U.S. SDN list do 
not have access to the British banking institutions?

    Answer. I understand that State Department sanctions experts, along 
with their colleagues in the Department of Treasury, are in constant 
communication with the UK government in order to ensure proper 
implementation of current Russia-related sanctions. If confirmed, I am 
committed to engaging with my counterparts as well.


    Section 2--Question 48. Do you personally commit to engage with the 
European Union and embark on a diplomatic strategy that results in a 
stronger EU sanctions regime on the Russian government, those acting on 
its behalf, oligarchs, and parastatal entities?

    Answer. I greatly value the longstanding friendship and partnership 
we have with the European Union. If confirmed, I am committed to 
engaging with the EU to continue the sanctions pressure on Russia.


    Section 2--Question 49. Do you commit to advocate in legislatures 
around the world for Magnitsky legislation sanctioning human rights 
abusers and corrupt actors in Russia and elsewhere, as is required in 
the U.S. Russia-specific and Global Magnitsky laws?

    Answer. I strongly value the sanctions tools created by the Global 
Magnitsky and Magnitsky legislation and commit to raising the issues 
presented by such legislation in my discussions with foreign 
counterparts.


    Section 2--Question 50. Do you support increased security 
assistance, including increased Foreign Military Financing and loan 
authorities, to American allies within NATO to ensure that they end 
reliance on Russian military equipment and parts?

    Answer. If confirmed, I will support efforts to help our NATO 
Allies end their reliance on Russian military equipment and parts.


                               __________

                      (Section 3--Questions 1-47)

    Section 3--Question 1.  The United States Government stepped back 
considerably in recent years from supporting democracy and governance 
work in Europe and Eurasia, assuming that, as European countries moved 
closer to European Union membership, the need for U.S. engagement on 
these issues was less necessary. This assumption proved faulty, and we 
have seen the Kremlin exploit and undermine nascent democratic 
institutions, processes, and political parties across Europe with 
corrupt influence and disinformation. Congress, through successive 
robust appropriations to the Countering Russian Influence Fund (CRIF), 
has made clear its intent to address this gap, but we hear reports 
currently of delays by State in directing these appropriations to 
democracy and governance implementers. We are also concerned by reports 
that the planning for spending CRIF money has been approached as a 
``one-off'' event, rather than as part of a broader, coordinated 
strategy. Do you commit to swiftly disburse assistance funds 
appropriated to State to support democracy and governance promotion in 
Europe and Eurasia, including under the Countering Russian Influence 
Fund?

    Answer. If confirmed, I commit to ensuring that the Department 
disburses expeditiously, but responsibly, appropriated funds to support 
democracy and governance in Europe and Eurasia in accordance with the 
law and regulations. As cited in the President's National Security 
Strategy, countering Russian aggression and malign influence in Europe 
and Eurasia is among our top priorities in the region. If confirmed, I 
will ensure that our foreign assistance continues to support those 
countries that are bearing the brunt of Russia's subversion and 
aggression, including Ukraine, Georgia, Moldova, and the Western 
Balkans.


    Section 3--Question 2.  How will you ensure that funds appropriated 
in successive fiscal years to counter malign Russian government 
influence are used to build out a coherent, effective assistance 
strategy?

    Answer. Through its diplomatic engagement and foreign assistance, 
the Department is supporting our partners and allies to build 
resilience against the Kremlin's malign influence. These efforts are 
focused on: deterring Russian aggression and helping our partners 
secure their borders and prevent cyber-attacks; recognizing, exposing, 
and countering Russian disinformation and propaganda; enhancing 
European energy security and opening markets to Western trade and 
investment to reduce dependence on Russian markets; promoting good 
governance, strengthening rule of law and combatting corruption, which 
opens doors to malign activity; and building capacity of civil society 
and independent media to counter Russian malign influence. If 
confirmed, I would continue these efforts.


    Section 3--Question 3.  Four years after Russia's illegal invasion 
and occupation of Ukrainian territory, we have seen an uptick in 
violence and humanitarian crises in Ukraine caused by the conflict 
waged by Russian forces, and continue to hear reports of human rights 
abuses and repression of dissent in Crimea. Since 2014, internally 
displaced people in Ukraine have faced considerable humanitarian 
challenges, including access to housing. How will you work to address 
this need of the IDP community?

    Answer. If confirmed, I will continue to work with allies and 
partners to push Russia to end its aggression in Ukraine, which is the 
cause of the dire humanitarian situation there. I will urge the 
Ukrainian government to do more to provide for its over four million 
conflict-affected citizens. I will also support the State Department's 
Bureau for Population, Refugees, and Migration's (PRM's) efforts to 
provide life-sustaining assistance to refugees, internally displaced 
persons, stateless persons, as well as vulnerable migrants in Ukraine 
through its partnerships with the United Nations High Commissioner for 
Refugees, the International Committee of the Red Cross, and non-
governmental organizations.


    Section 3--Question 4.  Do you personally commit to engage directly 
with the Ukraine's leadership on corruption in the country? What steps 
will you take to make clear to the Ukrainian government that this is a 
priority for the Trump Administration?

    Answer. If confirmed, I will engage directly with Ukraine's 
leadership on corruption. For example, Ukraine must adhere to its IMF 
reform program, especially its anti-corruption and energy sector reform 
requirements. Most critically, Ukraine must establish an anti-
corruption court in line with Venice Commission recommendations. 
Ukraine also needs to raise gas tariffs to import parity levels, 
eliminating a source of corruption and moving Ukraine closer to a 
market-driven energy sector.Questions for the Record Submitted to 
Secretary of State Nominee Michael Pompeo by Senator Robert Menendez 
(Tranche 3 #5) Senate Committee on Foreign Relations April 12, 2018


    Section 3--Question 5.  Would you support the provision of 
additional lethal assistance to Ukraine beyond what has been provided 
in sniper rifles and anti-tank missiles?

    Answer. If confirmed, I will evaluate the specific military needs 
of Ukraine's forces in collaboration with the government of Ukraine and 
our partners.


    Section 3--Question 6.  Do you support an international 
peacekeeping mission in eastern Ukraine and, if so, under what 
circumstances?

    Answer. A robust UN-mandated peacekeeping operation in eastern 
Ukraine could catalyze implementation of the Minsk agreements, which 
would end the conflict and facilitate the restoration of Ukrainian 
control over its eastern territories. Any UN force would be a temporary 
and transitional force with a mandate to ensure security throughout the 
entire conflict zone, oversee the withdrawal and cantonment of heavy 
weapons, and exercise control over Ukraine's side of the international 
border with Russia. The United States, France, Germany, and Ukraine 
have agreed on the basic parameters of a mission, while several 
European countries have publicly pledged to contribute to such a 
mission under the right conditions. Unfortunately, Russia has so far 
only agreed to a force limited to the line of contact that would only 
serve to freeze the conflict at great expense to us and our allies.


    Section 3--Question 7.  Please describe your diplomatic strategy 
for how you will counter the Nordstream II and Turkstream energy 
pipelines in Europe.

    Answer. If confirmed, I will continue to implement the 
Administration's diplomatic outreach to the EU and its member states to 
convey the Administration's strong opposition to the proposed Nord 
Stream II pipeline. The Administration has encouraged EU member states 
to employ national legal measures to oppose Nord Stream II and to 
ensure that Nord Stream II complies with EU laws and regulations. The 
Administration also opposes a multiline TurkStream.


    Section 3--Question 8.  Prime Minister Orban has stated that 
democracy is in decline and that his goal is to emulate ``illiberal'' 
states such as Turkey, China, and Russia. He has openly cultivated 
relations with these states, in particular with Vladimir Putin and the 
Kremlin. Since the April 8 elections, the Hungarian government has said 
its first order of business would be to implement the ``Stop Soros'' 
legislation which it has envisioned to keep Hungarian organizations 
from ``interfering'' in elections. This has been widely seen as a 
signal of an impending crackdown on civil society, on top of prior 
steps by the government to reduce space for independent NGOs and 
dismantle the independence of the Constitutional Court and other 
democratic checks and balances. Separately, on March 15, Prime Minister 
Orban promised ``revenge'' against his enemies, and his government has 
continued to foster anti-migrant and xenophobic sentiments. Do you 
believe that Hungary is currently living up to its commitments to 
democracy, rule of law, and human rights under Article 2 of the NATO 
Charter?

    Answer. The United States works closely with Hungary as a NATO Ally 
and EU member state. As the President and Vice President have made 
clear, strong partnerships require that Allies meet their commitments 
to uphold the values enshrined in the Washington Treaty. I understand 
that the State Department has engaged with the Hungarian government 
both privately and publicly on independent media, civil society, and 
democratic governance issues and, if confirmed, I will continue to work 
with Hungary to promote our shared transatlantic principles, as well as 
to foster bilateral cooperation that advances U.S. interests.


    Section 3--Question 9.  Will you support State Department 
assistance projects to build capacity of local and independent media in 
Hungary, as well as to defend space for human rights and democracy-
oriented NGOs?

    Answer. Hungary is a NATO Ally and valued partner with whom the 
U.S. government continues to strengthen the bilateral relationship and 
develop joint strategic interests. I understand that the State 
Department has previously engaged, privately and publicly, in defense 
of civil society, independent media, NGOs, and Central European 
University. If confirmed, I will continue to identify the right 
opportunities to support independent media and NGOs as well as to 
combat corruption, Russian pressure, disinformation, and malign 
influence in Hungary.


    Section 3--Question 10.  How will you promote tolerance and non-
discrimination in Hungary, including the rights of ethnic and religious 
minorities and migrants and countering xenophobic and racist 
narratives?

    Answer. The U.S. government, through its embassy in Hungary, seeks 
to build relationships across the full range of Hungarian society. 
Engagement with Hungarian religious groups, civil society, media, and 
academic communities are important tools to strengthen ties and 
reinforce principles. If confirmed, I will engage with Hungary as an 
ally, encourage my Hungarian counterparts to uphold our shared values, 
and support tolerance and respect for all.


    Section 3--Question 11.  How will you work to combat xenophobia and 
antisemitism in Poland? Will you urge the Polish government to repeal 
the Holocaust Law in its entirety?

    Answer. I understand the Department of State has expressed concerns 
to the Polish government throughout the course of debate on the law in 
question. If confirmed, I will promote education, open dialogue, and 
discussion as the best ways to address mischaracterization of 
Holocaust-era crimes. The United States also welcomes recent statements 
by Polish leaders condemning anti-Semitism, and, if confirmed, I would 
encourage continued dialogue and engagement to foster understanding of 
this tragic era.


    Section 3--Question 12.  Do you believe that Poland is currently 
living up to its commitments to democracy, rule of law, and human 
rights under Article 2 of the NATO Charter?

    Answer. The United States works closely with Poland as a NATO Ally 
and EU member state. The United States relies on our Allies to be 
strong partners. As the President and Vice President have made clear, 
this strength entails meeting their commitments to uphold the values 
enshrined in the Washington Treaty and spending at least 2 percent of 
GDP on defense, which Poland does. If confirmed, I will continue to 
work with Poland to promote our shared transatlantic principles, 
including democracy, rule of law, human rights, and a market economy, 
as well as to foster bilateral cooperation that advances U.S. 
interests.


    Section 3--Question 13.  In early April, at a White House meeting 
with President Trump and leaders of the Baltic States, the leaders of 
Estonia, Latvia, and Lithuania urged the United States to bolster 
defenses in the region against Russian military aggression and other 
forms of Kremlin hybrid warfare. NATO has established Centers of 
Excellence in the Baltics focused on various aspects of Russian hybrid 
warfare, and the Baltic governments have developed extensive non-
military capacities to counter Russian government disinformation and 
cyber threats. How will you bolster cooperation with the Baltic States 
in their efforts to counter Kremlin aggression?

    Answer. The Administration announced after the April 3 Baltic 
Summit that the United States will continue to improve defense and 
security in the Baltics through security assistance programs. These 
programs include Foreign Military Financing and International Military 
Education and Training, as well as participation in the NATO Centers of 
Excellence and the European Center of Excellence for Countering Hybrid 
Threats in Finland. The United States will also work to improve 
resilience in the Baltic energy sector and to build public and 
institutional resiliency against disinformation by strengthening 
independent media outlets, public service broadcasters, and media 
literacy skills in the region. If confirmed, I will continue these 
efforts.


    Section 3--Question 14.  What role do you see for the U.S. and NATO 
in this regard, including to promote information-sharing on best 
practices to counter cyber threats and disinformation?

    Answer. As cyber threats and attacks become more common, 
sophisticated, and damaging, the Alliance has made cyber defense a part 
of its approach to security. Allies recognized this in the Cyber 
Defense Pledge adopted at the NATO 2016 Summit, in which they agreed to 
work together to better protect their networks and thereby contribute 
to the success of Allied operations.
    Allies are working together daily, and with the EU, to counter 
disinformation and other hybrid threats. Allies regularly exchange 
information on national experiences at all levels. The 2016 Cyber 
Defense Pledge prioritizes strengthening and enhancing cyber defense of 
national networks and infrastructures. If confirmed, I will support 
efforts through NATO and its Cooperative Cyber Defense Center of 
Excellence in Estonia to enhance information-sharing and assistance in 
preventing, mitigating and recovering from cyber-attacks.


    Section 3--Question 15.  Amidst resurgent ethnic and political 
tensions, two decades after the Dayton Accords the Western Balkans seem 
to be again teetering on the brink of crisis. Vulnerabilities like 
these make the region a prime target for Russian government 
interference, as seen in the Kremlin's efforts across the region to 
foster disinformation, exploit ethnic divides, and influence political 
actors through corruption. Do you support an increase in U.S. 
programmatic and diplomatic engagement in the Western Balkans region to 
stave off a return to conflict or further manipulation or interference 
in these countries by the Kremlin? What would be the priorities of your 
strategy for the Western Balkans? How would you work with the European 
Union to these ends, given the Western Balkan states' candidacies for 
EU accession?

    Answer. The Administration's multi-faceted approach pushes back 
against Russian malign influence and addresses Western Balkan 
vulnerabilities, including corruption, weak rule of law, over-
dependence on Russian energy, and growing Russian media investments. I 
understand the State Department is countering Russian propaganda by 
amplifying U.S. messages and correcting false statements as well as 
supporting independent media and investigative journalism. The 
Administration is neutralizing corruption--the currency of Russian 
influence--by increasing transparency and accountability in government 
and business and encouraging civil society and independent media to 
lead the charge for reforms and root out corrupt actors. To bolster 
energy security, the administration is promoting diversity of energy 
sources and routes. If confirmed, I intend to work closely with our 
European Allies and partners in all these areas. Ultimately, U.S. 
support and credible prospects of EU accession promote long-term 
stability and good governance in this region.


    Section 3--Question 16.  What will you do to help find a solution 
in Bosnia and Herzegovina to promote an agreement among the country's 
three ethnic blocs on electoral reform ahead of the October elections? 
How will you work to reduce Kremlin influence in the Republika Srpska 
(RS) and the risk of breakaway from Bosnia and Herzegovina? What 
governance gaps do you see in the framework established by the Dayton 
Accords and how will you address these? How do you assess the risk of 
violent extremism in Bosnia and Herzegovina and how will you address 
it?

    Answer. The Dayton Accords brought stability and peace to Bosnia 
and Herzegovina, while also setting into place a complicated governance 
structure. The Administration is engaging political parties to 
encourage them to enact critical electoral reforms to bring the system 
in line with rulings by the Bosnian Constitutional Court and the 
European Court of Human Rights. Some of these reforms relate to Annex 
IV of the Dayton Accords, which serves as the constitution. Russia 
cultivates close relationships with some Republika Srpska leaders who 
use ethno-nationalism to attempt to thwart reform. The Administration 
supports rule of law, legal reform, and anti-corruption efforts to 
build resilience to Russian malign influence and strengthen democratic 
institutions. If confirmed, I will continue to push back on Russian 
efforts to destabilize the region. Bosnia and Herzegovina is taking the 
issue of violent extremism seriously and is a strong partner in 
counterterrorism efforts and member of the Defeat-ISIS Coalition. If 
confirmed, I will continue the Department of State's work with Bosnian 
religious leaders of all faiths to promote common values that counter 
violent extremist messaging.


    Section 3--Question 17.  How will you work to promote democratic 
accountability, independent media and civil society in Serbia, and to 
counter Russian government disinformation that seeks to undercut 
Serbia's EU accession process? How will you work to ensure the 
perpetrators of wartime atrocities are held to account in Serbia?

    Answer. A democratic, prosperous Serbia that takes a positive role 
in the region is fundamentally important to the stability of the 
Western Balkans. If confirmed, I will prioritize an approach that will 
help to integrate Serbia into the rest of Europe and help the country 
progress towards its stated goal of European Union membership. To 
accomplish this, Serbia must also improve its democratic 
accountability, increase media freedom, enhance its respect for and 
protection of civil society, and harmonize its foreign policy with that 
of the European Union. This will cement Serbia and the region on a path 
towards development and stability--in line with the national security 
interests of the United States. Serbia's future lies with Europe and 
the West, and our goal should be to help it get there. If confirmed, I 
will ensure the State Department continues to raise Serbia's 
obligations to resolve remaining cases related to the war in the 
Balkans, in cooperation with neighboring countries and the UN Mechanism 
for International Criminal Tribunals.


    Section 3--Question 18.  How will you work to address corruption, 
criminality, and ethnic tensions in Kosovo and to ensure the 
perpetrators of wartime atrocities are held to account, regardless of 
their ethnicity? Taking into account rising political tensions between 
Serbia, Kosovo Serbs, and Kosovo, would you support the reinforcement 
of KFOR until after the successful conclusion of EU-led negotiations on 
a comprehensive agreement between Belgrade and Pristina?

    Answer. A sovereign, independent, democratic Kosovo that is fully 
integrated into the international community is key to stability in the 
Balkans. If confirmed, I will encourage Kosovo's leaders to strengthen 
the rule of law and combat corruption. This includes maintaining 
support for the ongoing work of the Kosovo Specialist Chambers to 
investigate and prosecute individuals alleged to have committed serious 
crimes in Kosovo from 1998-2000.
    It is vital that Kosovo and Serbia fully normalize relations in 
order to contribute to regional stability and prosperity and to unlock 
their Western-oriented futures. The Administration has advocated for 
accelerating EU-facilitated negotiations between the parties, and 
remains prepared to help to achieve a comprehensive agreement. U.S. 
troops, along with 27 other contributing nations in NATO's Kosovo Force 
(KFOR), ensure stability and security, and freedom of movement for all 
Kosovo citizens. I fully support KFOR's mission, which is essential to 
enabling Belgrade and Pristina to make progress in political 
negotiations.


    Section 3--Question 19.  What will you do to bolster Montenegro's 
role in NATO and boost its resilience to Kremlin aggression as seen in 
the November 2016 coup attempt?

    Answer. The long-standing U.S. partnership with Montenegro 
solidified when NATO welcomed Montenegro as its 29th Ally last June. 
The Administration applauds Montenegro for its commitment to regional 
and NATO collective security and welcomes its concrete plan to fulfill 
the NATO Wales pledge on defense spending by 2024. To boost resilience 
to the Kremlin's aggression and malign influence, the Administration 
has implemented a multi-faceted approach to address Western Balkan 
vulnerabilities, including corruption and weak rule of law, over-
dependence on Russian energy, and increasing Russian media investments 
in the region. The State Department is countering Russian propaganda by 
amplifying U.S. messages, correcting false statements, and supporting 
local, independent media and investigative journalism. If confirmed, I 
intend to continue working closely with Montenegro and our other 
European Allies and partners to reduce vulnerabilities and neutralize 
corruption--the currency of Russian influence--by increasing 
transparency and accountability in government and business, and 
encouraging civil society and independent media to lead the charge for 
reforms and root out corrupt actors.


    Section 3--Question 20.  What will you do to address corruption and 
malign Russian government influence in Bulgaria?

    Answer. The United States takes the security and stability of our 
Allies seriously. A strong rule of law and rooting out corruption are 
keys to Bulgaria's development and to a robust partnership. If 
confirmed, I would support continued State Department engagement with 
Bulgaria and initiatives to combat corruption.
    The United States is cognizant of the foreign actors--most notably 
Russia--who are attempting to influence our allies in Central Europe, 
including Bulgaria. The threat is real and far-reaching and combatting 
it requires a comprehensive effort. If confirmed, I am committed to 
continue Administration efforts to combat Russian malign influence 
around the world.


    Section 3--Question 21.  What will you do to address corruption and 
malign Russian government influence in the Former Yugoslav Republic of 
Macedonia?

    Answer. The Administration takes the security and stability of our 
partners, including Macedonia, seriously. A strong rule of law and 
rooting out corruption are keys to Macedonia's development and a 
strengthened bilateral relationship. Addressing these issues will also 
help Macedonia meet the requirements for Euro-Atlantic integration--a 
U.S. goal. If confirmed, I will continue to support State Department 
initiatives to combat corruption in Macedonia.
    The United States is cognizant of the foreign actors in the 
Balkans, most notably Russia, whose activities are aimed at undermining 
stability and complicating the path forward towards European and Euro-
Atlantic integration. The State Department has developed a multi-
faceted approach to push back against Russian malign influence and 
address Macedonia's vulnerabilities, including corruption and weak rule 
of law. It is working with partners to neutralize corruption, increase 
transparency and accountability in governments and business 
environments, and encourage civil society and independent media to lead 
the charge for reforms and root out corrupt actors. If confirmed, I 
intend to work closely with our European Allies and partners in all 
these areas.


    Section 3--Question 22.  Given the hybrid threats the United States 
and its allies face from state and non-state actors, strengthening 
relationships with our NATO partners is more important than ever. A 
NATO summit is scheduled for July 11-12 in Brussels. What are your 
priorities for this Summit? Will you recognize--and articulate to the 
White House--the non-monetary contributions that NATO allies make to 
advance U.S. objectives in Afghanistan and elsewhere?

    Answer. If confirmed, I look forward to supporting the 
Administration's three key priorities for the July NATO Summit in 
Brussels: increasing defense spending and burden sharing; strengthening 
NATO's deterrence and defense; and countering terrorism. I deeply 
appreciate those Allies who make significant contributions in 
capabilities and personnel to Alliance missions and operations.


    Section 3--Question 23.  How do you view NATO's role in countering 
Kremlin aggression? What is your position on maintaining NATO equipment 
and troops permanently in the Baltics and Central and Eastern Europe?

    Answer. NATO is fundamental to countering Russian aggression. I 
firmly believe that the U.S. commitment to Article 5 of the Washington 
Treaty is ironclad and, if confirmed, I will reaffirm that commitment 
to our NATO Allies. I fully support the ongoing rotational enhanced 
Forward Presence and tailored Forward Presence units in the Baltic 
States, Poland, Romania, and Bulgaria. If confirmed, I commit to 
working with the Department of Defense and our NATO Allies to ensure a 
robust NATO deterrence and defense posture on NATO's Eastern Flank.


    Section 3--Question 24.  Do you commit to full State Department 
participation in the NATO Centers of Excellence on energy, cyber 
security and strategic communication?

    Answer. It is my understanding that the United States supports the 
important work of NATO Centers of Excellence (COEs), including the NATO 
Cooperative Cyber Defense COE in Estonia, the NATO Energy Security COE 
in Lithuania, and the NATO Strategic Communications COE in Latvia. If 
confirmed, I would continue to support these COEs to the fullest extent 
possible.


    Section 3--Question 25.  The breakaway territories of South Ossetia 
and Abkhazia remain essentially under Kremlin control, nearly ten years 
after Russia invaded Georgia. Meanwhile, progress on democratic reforms 
in Georgia has been uneven and threatened by rollbacks of independent 
media and increased pressure on political opposition in recent years. 
What will you do to support Georgia's sovereignty and territorial 
integrity and to press for continued democratic reforms? What 
assistance activities do you see as vital to this, and will you seek 
assistance budgets on par with prior years to support such activities?

    Answer. If confirmed, I will use all available tools to support 
Georgia's democratic and economic development, as well as its 
sovereignty and territorial integrity within its internationally 
recognized borders. I would ensure U.S. assistance to Georgia builds 
further resilience to Russian aggression and propaganda and promotes 
effective, democratic governance and economic prosperity. This requires 
focus on rule of law, an independent judiciary, and a level playing 
field for U.S. investors. It also requires a free media and a strong 
civil society. Georgia is an important partner to the United States on 
a number of issues of strategic importance including supporting 
operations in Afghanistan, countering nuclear proliferation, and 
serving as a corridor to support European energy security. All of these 
steps will strengthen Georgia and enhance our bilateral partnership.


    Section 3--Question 26.  Do you believe that the millions of 
Armenian, Greek, Assyrian, Chaldean, Syriac, Aramean, and other 
Christian victims killed at the hands of the Ottoman Empire in its 
final years were victims of genocide? If not, why? Would you support a 
U.S. Senate resolution that recognizes the Armenian genocide?

    Answer. The U.S. government acknowledges and honors the memory of 
the one and a half million Armenians who were massacred, deported, or 
marched to their deaths in the final days of the Ottoman Empire. The 
horrific loss of life of Armenians and other victims during the final 
years of the Ottoman Empire resulted in one of the worst atrocities of 
the twentieth century, and this remains a great source of pain for all 
of us who value human rights. I expect that, as he did last year, 
President Trump will issue a statement on Remembrance Day on April 24 
honoring the victims and outlining his views on the topic. As with any 
Congressional action with foreign policy implications, I would welcome 
the opportunity for the State Department to review any proposed 
resolution before presenting my view to the Senate.


    Section 3--Question 27.  Despite periodic releases of political 
prisoners, the Azerbaijani government continues its protracted 
crackdown on dissent, political opposition, and independent media and 
civil society largely unabated. Would you characterize Azerbaijan as an 
authoritarian state? What will be your approach to defending human 
rights activists, independent journalists, civil society and political 
opposition in the country? How will you seek to hold the Azerbaijani 
government to account for alleged corruption and human rights abuses?

    Answer. The United States has urged the government of Azerbaijan to 
release all those incarcerated for exercising their fundamental 
freedoms. I understand the State Department is committed to protecting 
and promoting human rights and combating corruption. If confirmed, I 
will continue to urge tangible and significant consequences for those 
who commit serious human rights abuses and engage in corruption.


    Section 3--Question 28.  Do you support maintaining the Section 907 
restriction on U.S. assistance to Azerbaijan?

    Answer. U.S. assistance to Azerbaijan promotes U.S. national 
security interests, which is why the President has waived Section 907 
of the FREEDOM Support Act every year since 2002. The most recent 
waiver was signed on April 3, 2018. However, as a matter of policy and 
in the absence of a change in the situation, I would not approve any 
security assistance or sales that could undermine efforts to find a 
peaceful settlement of the conflict between Azerbaijan and Armenia. The 
United States remains actively engaged as one of the Minsk Group Co-
Chairs to help the parties find a way forward.


    Section 3--Question 29.  What do you see as the right approach to 
solving this conflict and how do you plan to engage the various parties 
in this regard?

    Answer. As a Co-Chair of the Minsk Group, the United States has 
played an active role in mediating a comprehensive settlement of this 
longstanding conflict, the resolution of which would usher in a new era 
of peace and prosperity for the people of the South Caucasus. U.S. 
policy remains clear: the only solution to the conflict is a negotiated 
settlement based on international law that includes adherence to the 
principles of non-use of force, territorial integrity, and self-
determination. If confirmed, I will ensure the Department of State 
continues to support the efforts of the Minsk Group to help the sides 
find a lasting solution to this conflict, and to implement increased 
monitoring activities along the Line of Contact and the Armenia-
Azerbaijan international border.


    Section 3--Question 30.  How will you press Azerbaijan to implement 
the Royce-Engel proposals, an OSCE-backed package of investigative 
mechanisms and pro-peace initiatives that call for, among other 
measures, the deployment of gunfire sensor systems along the line of 
contact?

    Answer. The United States plays an important role in mediating a 
comprehensive settlement of this longstanding conflict as one of the 
Minsk Group Co-Chairs. A resolution of the conflict would usher in a 
new era of peace and prosperity for the people of the South Caucasus. 
If confirmed, I would support proposals to withdraw snipers, launch an 
OSCE investigation mechanism, and deploy sensors along the Line of 
Contact and the Armenia-Azerbaijan international border. The 
Administration has been a strong advocate in the Minsk Group process 
for these confidence-building measures, which we believe would reduce 
violence in areas affected by the conflict.


    Section 3--Question 31.  Cyprus has worked to explore energy 
reserves in its exclusive economic zone (EEZ). However, in 2018, Turkey 
threatened the security of the EEZ as its warships harassed an Eni 
vessel. The U.S. has stated its support for Cyprus's sovereign right to 
explore and exploit energy resources within its exclusive economic 
zone. If confirmed, would you support the Republic of Cyprus's 
sovereign right to explore for hydrocarbon reserves and other natural 
resources in its exclusive economic zone (EEZ)?

    Answer. If confirmed, I will continue to support longstanding U.S. 
policy recognizing the Republic of Cyprus's right to develop its 
resources in its EEZ. The island's oil and gas resources, like all of 
its resources, should be equitably shared between both communities in 
the context of an overall settlement. I will discourage actions or 
rhetoric that increase tensions.


    Section 3--Question 32.  Do you commit to engage in a strategic 
dialogue with Cyprus to consider a range of bilateral issues to include 
the country's Exclusive Economic Zone, security ties and the peace 
process?

    Answer. If confirmed, I will continue to support the high-level 
U.S. engagement with the Republic of Cyprus on the settlement process 
and on the wide range of other issues of common concern to both 
countries.


    Section 3--Question 33.  Do you support a reunified Cyprus with a 
single sovereignty, single international personality and single 
citizenship; and with its independence and territorial integrity 
safeguarded as described in the relevant U.N. Security Council 
resolutions?

    Answer. If confirmed, I will actively support UN-facilitated, 
leader-led negotiations to reunify the island as a bizonal, bicommunal 
federation as the best means to achieve a just and lasting settlement.


    Section 3--Question 34.  What is your view on the removal of 40,000 
illegal occupying Turkish troops from the Republic of Cyprus?

    Answer. The presence of Turkish troops, as well as the pace and 
scope of Turkish troop withdrawal, has been one of the most difficult 
issues in the negotiations. The issue will have to be resolved through 
negotiations and as a part of a final agreement that reunifies Cyprus 
as a bizonal, bicommunal federation. If confirmed, I will actively 
support efforts toward such an agreement.


    Section 3--Question 35.  What is your view on the Turkish citizens 
who have relocated and settled on the island of Cyprus in increasingly 
large numbers since Turkey's military occupation, and what impact do 
you see from these settlers on prospects for a peace settlement and 
ensuring the political and cultural rights of the island's longstanding 
communities?

    Answer. The issue of Turkish citizens who settled in Cyprus Post-
1974 has been a sensitive matter. It underscores the need for the 
communities to find a just, lasting and comprehensive settlement. If 
confirmed, I will actively support efforts toward such a settlement.


    Section 3--Question 36.  The government of Sri Lanka has failed to 
meet the targets of the previous UN Human Rights Council resolutions 
that oblige the government to advance transitional justice and human 
rights, including accountability for the mass killings, human rights 
abuses, torture and sexual violence committed by government forces 
during the country's civil war. The Sri Lankan government has made 
inadequate progress accounting for missing persons, addressing the 
cases of those detained under the Prevention of Terrorism Act, and 
implementing accountability mechanisms and broader governance reforms 
that promote justice and reconciliation. Meanwhile, reports of security 
force abuses in the former conflict zones continue, and anti-Muslim 
riots in March supported by some political forces allied with the 
former government in the Kandy district suggest that the risk of ethnic 
or sectarian violence remains acute. What will you do to spearhead a 
U.S. diplomatic policy, including multilateral efforts, to advance 
implementation of Sri Lanka's promises on justice, accountability, and 
reform?

    Answer. If confirmed, I will support efforts to press Sri Lanka, 
both bilaterally and with like-minded international partners, including 
through the UN Human Rights Council, to abide fully by its commitments 
to reconciliation, justice, and accountability. To prevent the 
recurrence of conflict in Sri Lanka and promote a reconciled, stable, 
and prosperous future, it is essential that its government act on these 
commitments.


    Section 3--Question 37.  How will you emphasize ending sectarian 
violence and ensuring religious freedom and respect for the rights of 
the island's diverse communities, including Muslims and Christians?

    Answer. If confirmed, I will defend and promote respect for the 
right of all people to worship as they choose. If confirmed, I also 
will call on governmental leaders to condemn religious violence swiftly 
and unequivocally and hold perpetrators accountable. In Sri Lanka, as 
everywhere, I will press for religious freedom as an Administration 
priority.


    Section 3--Question 38.  Do you support another UN Human Rights 
Council Resolution on justice and accountability in Sri Lanka? What is 
your view on elements it could include, including the possibility of 
establishing an international justice mechanism, that could help spur 
progress by the government in this area?

    Answer. The most recent UN Human Rights Council resolution on Sri 
Lanka asked the High Commissioner to monitor Sri Lanka's progress on 
the justice and accountability commitments it made in cosponsoring 2015 
UNHRC Resolution 30/1 and to issue a written report on this progress in 
2019. If confirmed, I will continue to support efforts to press Sri 
Lanka to follow through with these commitments, including by 
establishing justice and accountability processes to address the past. 
Further steps, such as a new UNHRC resolution, would need to take into 
account the progress Sri Lanka makes between now and 2019.


    Section 3--Question 39.  Based on previously passed legislation in 
Congressional appropriations bills, U.S. security assistance has 
generally been restricted from supporting the training or equipping of 
the Sri Lankan military given its past record of atrocities and 
continued impunity for such crimes. What are your views on the 
military-military relationship the U.S. should pursue with Sri Lanka 
and do you support such restrictions on U.S. assistance to the Sri 
Lankan military?

    Answer. I understand that military-to-military relations between 
the United States and Sri Lanka have undergone measured and incremental 
growth since the election of a reform government in 2015, but remain 
limited in overall scope and focus. I believe that continued growth of 
these relations and interactions with discrete, carefully vetted units 
and individuals is in the U.S. interest given Sri Lanka's strategic 
location and potential to contribute to regional stability. I support 
the application of the Leahy law to any country's military found to 
have committed gross violations of human rights. If confirmed, I will 
examine how the Department can best support our growing military-to-
military relations with Sri Lanka.


    Section 3--Question 40.  Senior Trump Administration officials have 
asserted that the goal of the Administration's South Asia strategy is 
to renew talks that reach a negotiated political settlement in 
Afghanistan. But, the U.S. remains a party to this protracted conflict 
and has little progress to show on the diplomatic front. There is 
skepticism among many countries in the region about how serious the 
U.S. is about a peace process, and the President's repeated comments 
rejecting outright any talks with the Taliban and pledging to ``start 
what we finished'' on the battlefield suggest the lack of a White House 
commitment to its own diplomatic strategy. Do you believe that the 
situation in Afghanistan requires a more assertive diplomatic strategy?

    Answer. The Afghan government has taken bold steps in developing a 
peace strategy and it has announced a clear and specific offer to the 
Taliban to engage in peace talks. The Trump Administration fully 
supports the Afghan government's outreach to the Taliban and its 
efforts to negotiate a political settlement. If confirmed, I look 
forward to working with President Ghani to determine how our diplomatic 
strategy can best create the conditions necessary for the Taliban to 
accept this offer and start a political process that can lead to 
lasting peace.


    Section 3--Question 41.  What do you see as necessary components in 
a diplomatic strategy to pursue a negotiated political settlement in 
Afghanistan, and will you spearhead these efforts?

    Answer. The United States can support and facilitate future peace 
negotiations between the Taliban and the Afghan government. As of April 
12, 2018, however, the Taliban have not responded to the Afghan 
government's peace offer, and the Taliban campaign of violence 
continues. The Taliban must come to understand that they can only 
advance their objectives at the negotiating table, and not on the 
battlefield. If confirmed, I will continue to work with Afghan, 
regional, and international partners to exert military, diplomatic, and 
religious pressure on the Taliban to join a peace process that ends the 
war in Afghanistan with a sustainable political settlement that 
protects U.S. interests.


    Section 3--Question 42.  What will you do to incentivize the Afghan 
government to take steps to ensure credible, inclusive elections 
processes and hold corruption and human rights abuses by Afghan 
government officials and security forces to account?

    Answer. If confirmed, I will lead the Department of State's 
engagement with the Government of Afghanistan and emphasize the 
importance of governance reforms, anti-corruption efforts, the 
protection of human rights, and credible, transparent elections. I will 
also reinforce the Department of State's efforts to cooperate closely 
with the Afghan government on the Afghanistan Compact, an Afghan-led 
initiative that tracks the implementation of reforms related to 
security, governance, economic development, and peace and 
reconciliation. I will press top government leaders to investigate and 
prosecute high-level corruption cases, regardless of the political 
status or military rank of the accused. I will also ensure the 
Department of State continues to support and encourage the Afghan 
government to prepare for timely, credible, and inclusive elections.


    Section 3--Question 43.  How will you work to ensure transparency 
and accountability in the delivery of State Department foreign 
assistance to Afghanistan, and to incentivize the delivery of 
additional aid based on reform benchmarks the Afghan government has 
committed to meet?

    Answer. It is my understanding that all U.S. assistance to 
Afghanistan, including assistance through multi-lateral mechanisms, is 
subject to multiple tiers of monitoring and oversight, incorporating 
reporting from implementing partners, recipient feedback, third-party 
monitoring, direct observation by U.S. officials where possible, and 
monitoring through the use of technology where appropriate. If 
confirmed, I look forward to learning more about these mechanisms and 
how the Department can continue to ensure aid is delivered to 
Afghanistan in a transparent and accountable manner. I also understand 
that a large share of U.S. assistance is already provided through 
incentive mechanisms, including the U.S.-Afghan New Development 
Partnership (NDP). If confirmed, I intend to explore how the Department 
can continue use incentive mechanisms to promote reform with the Afghan 
government.


    Section 3--Question 44.  Do you believe it is in the United States' 
interest to pursue robust diplomatic and development efforts in 
Afghanistan?

    Answer. Yes.


    Section 3--Question 45.  The Trump Administration suspended 
security aid to Pakistan earlier this year in light of Pakistan's 
continued role as a safe haven for terror organizations such as the 
Taliban and the Haqqani Network. But, the Administration's end-game 
here is unclear, risking a precipitous downturn in relations with no 
strategy to manage fallout or ensure that a punitive approach is 
achieving our national security objectives. Meanwhile, there have been 
increasing attacks on religious minorities in Pakistan, particularly 
against Christians. If confirmed, what specifically will you do to 
initiate change in behavior by the Pakistani government in its support 
for terrorist groups?

    Answer. The President's South Asia strategy recognizes that the 
United States cannot continue with business as usual in our 
relationship with Pakistan as long as Pakistan does not address U.S. 
concerns about its policies, including its failure to address terrorist 
sanctuaries and fundraising. If confirmed, I will work to ensure the 
Administration uses the full range of tools at its disposal to 
encourage Pakistan to take action against all violent militant and 
terrorist groups operating on its soil. Discussions about which 
specific tools to use and when to use them are ongoing with the 
Administration. If confirmed, I will also continue the Department's 
robust engagement with the Government of Pakistan, as well as civil 
society, to defend the rights of religious minorities.


    Section 3--Question 46.  If the aid suspension does not motivate 
Pakistan to deny safe haven to the Taliban and associated groups, 
please describe your next steps?

    Answer. If confirmed, I will work to ensure that the Administration 
uses the full range of tools at its disposal to encourage Pakistan to 
take action against all militant and terrorist groups operating on its 
soil. I understand discussions about which specific tools to use and 
when to use them are ongoing within the Department and the interagency, 
and I look forward to examining how the Department can best support the 
Administration's strategy. The Administration has made clear both 
publicly and directly to the highest levels of Pakistan's government 
that the Taliban, the Haqqani Network, and other militant and terrorist 
groups must not be allowed to use Pakistani soil to plan or launch 
attacks against neighboring countries, or to raise funds.


    Section 3--Question 47.  As Secretary of State, how will you work 
to promote human rights and religious freedom for minorities in 
Pakistan, and Pakistani citizens more broadly?

    Answer. If confirmed, I will work to improve the status of human 
rights and religious freedom in Pakistan by ensuring continued robust 
engagement on these topics with the Pakistani government, as well as 
civil society groups. I will also support programs that work with civil 
society and other stakeholders to protect minority rights, reduce 
violence against members of religious minorities, combat violent 
extremism, and promote tolerance.


                               __________

                      (Section 4--Questions 1-48)

    Section 4--Question 1.  After the collapse of a garment factory 
that killed more than 1,100 people in 2013, the Bangladesh government 
made promises to amend its labor laws and address low wages and unsafe 
working conditions that undergird the ready-made garment industry and 
other key sectors, but progress on this front has stalled. Meanwhile, 
there is a perception that the help the international community is 
seeking from the Bangladesh government to manage the Rohingya refugee 
crisis is draining attention away from challenging the Bangladeshi 
government to uphold its own domestic human rights obligations--not 
just to workers, but to ensure accountability for security force abuses 
and space for political opposition and dissent. Will you continue to 
direct foreign assistance to support independent labor unions and 
encourage the government of Bangladesh to enforce labor rights and 
worker safety protocols?

    Answer. It is my understanding that the U.S. government provides 
programming and advocacy for independent labor unions and encourages 
further improvements to occupational safety and health. If confirmed, I 
commit to helping Bangladesh protect workers' rights and safety.


    Section 4--Question 2.  Will you work to hold the Rapid Action 
Battalion and other security force units in Bangladesh accountable for 
human rights violations, including in the context of counterterrorism 
operations?

    Answer. If confirmed, I will stress to the government of Bangladesh 
that its response and investigation of any crime, including during 
counterterrorism operations, must respect international human rights 
standards. I understand that the Department of State closely monitors 
reports of human rights violations and abuses, and reflects these 
concerns in the annual Human Rights Report. If confirmed, I would 
continue to use this annual report to press for improvements in human 
rights in Bangladesh.


    Section 4--Question 3.  What steps will you take to defend 
democratic processes and space for political opposition, civil society, 
and dissent in Bangladesh?

    Answer. If confirmed, I would continue to call on the Government of 
Bangladesh to fulfill its commitment to hold genuinely free and fair 
elections that reflect the will of the citizens of Bangladesh. I would 
support U.S. government efforts to continue to use programming and 
advocacy to push for space for political competition and civil society 
and the ability for citizens to exercise their freedoms of expression 
and association in Bangladesh.


    Section 4--Question 4.  Will you commit to addressing the unfilled 
positions at Embassy Dhaka, including several in the diplomatic 
security section, and consider incentives--including danger pay, linked 
assignments, and EFM hiring--that can help address these staffing 
challenges?

    Answer. If confirmed, I will request recommendations to staff 
positions at our challenging posts, including Embassy Dhaka.


    Section 4--Question 5.  Will you ensure that a permanent refugee 
coordinator position is filled in Dhaka, given the staggering scope of 
the Rohingya refugee crisis? What will be your approach more broadly to 
working with the Bangladeshi government on the refugee crisis and other 
competing challenges or interests?

    Answer. I understand the Department is maintaining a temporary 
deployment to Dhaka of staff experienced in refugee responses while 
longer-term options are being considered. If confirmed, I will work to 
ensure adequate coverage of this pressing issue.


    Section 4--Question 6.  Three years after a magnitude 7.8 
earthquake struck Kathmandu killing approximately 9,000 people, 
injuring thousands more, and destroying more than 600,000 structures in 
the area, the recovery process has been halting and poses continued 
challenges to Nepal's fragile democratic government. What will you do 
to ensure the completion of the earthquake recovery process and to 
support continued democratic institution-building in the country?

    Answer. If confirmed, I intend to support U.S. efforts to help 
Nepal recover from the devastating earthquakes. I understand U.S. 
assistance has accelerated reconstruction, including distributing more 
than $827 million in housing grants for seismic-resistant homes, 
training thousands in seismic resistant construction, and helping 
homeowners build 13,800 soundly-constructed homes.


    Section 4--Question 7.  Prime Minister Narendra Modi came to power 
in 2014 on a range of reform pledges concerning labor rights, women's 
rights, and corruption, but progress has been uneven. Impunity for 
violence against women and religious vigilante violence continues, with 
some Hindu extremist groups feeling emboldened under Modi's government. 
Meanwhile, President Trump's Free and Open Indo-Pacific Strategy 
emphasizes India as an economic partner, but a host of barriers to 
trade and economic cooperation between our two countries exist 
(including those generated by President Trump himself). If confirmed, 
how will you work to address human rights concerns and extremist 
violence in India?

    Answer. India has a longstanding tradition of pluralism, rule of 
law, and protection of minority rights. If confirmed, I will encourage 
the government of India to uphold its domestic and international human 
rights obligations and commitments, in keeping with India's democratic 
values, pluralistic society, and history of tolerance. If confirmed, I 
will also ensure that our embassy and consulates in India fulfill all 
responsibilities to monitor and report on human rights issues.


    Section 4--Question 8.  What will be your approach to promoting 
economic and trade ties to India, and how specifically will you address 
barriers to this?

    Answer. I understand that U.S.-India bilateral trade has more than 
doubled in the past decade, from $45 billion in 2006 to $125.6 billion 
in 2017. If confirmed, I will build on that momentum to promote fair 
and reciprocal trade and balance our trade deficit with India, which I 
understand totaled nearly $30 billion last year. If confirmed, I will 
work with the U.S. Trade Representative, the Commerce Department, and 
others to level the economic playing field in India to allow for 
greater trade and investment in support of U.S. jobs, including by 
supporting recent growth in aviation, energy, and defense sales by U.S. 
companies.


    Section 4--Question 9.  What prospects do you see to engage India 
more constructively in supporting economic development and 
stabilization in Afghanistan, per the Administration's South Asia 
strategy, and how will you manage the heightened tensions this will 
generate between India and Pakistan?

    Answer. The Administration considers India a vital partner in 
Afghanistan. Both of our countries remain committed to continuing close 
consultations and cooperation in support of a peaceful and prosperous 
Afghanistan, including through our trilateral dialogue with 
Afghanistan, most recently held in February 2018. India's financial 
contributions, totaling more than $3 billion in economic and 
development assistance since 2001, demonstrate its deep stake in 
ensuring Afghanistan's stability.
    The normalization of relations between Pakistan and India is vital 
to both countries, and the region. If confirmed, I will encourage India 
and Pakistan to engage in bilateral dialogue aimed at reducing 
tensions.


    Section 4--Question 10.  Despite recent promising signs of openness 
in Uzbekistan, the Central Asia region remains one of the world's most 
closed and repressive, and human rights issues have often taken a back 
seat in U.S. foreign policy as policymakers have pursued other security 
interests (though human rights are integral to long-term stability of 
the region). Meanwhile, U.S. efforts to promote regional economic 
integration among Central Asian states have had limited results, while 
China's One Belt, One Road Initiative poses a risk of increased Chinese 
influence in the Central Asia region. What do you see as the United 
States' interests in Central Asia, and will you challenge longstanding 
authoritarianism and human rights abuses in the region? What is your 
assessment of Chinese and Russian influence in the region?

    Answer. If confirmed, I will continue the U.S. policy to support 
the Central Asian states' sovereignty, independence, and territorial 
integrity. I also will use our partnerships to continue to challenge 
longstanding authoritarianism and human rights abuses in the region by 
raising these issues, including ongoing imprisonment of human rights 
defenders and restrictions on the practice of religion, in meetings 
with the region's leaders and with civil society.
    The Central Asian countries often turn to the United States to 
counterbalance the close ties they must maintain with their large 
neighbors, particularly Russia and China. The Administration believes 
it is in the best interest of Central Asian countries to have positive 
relations with all their neighbors. Russia retains strong links to the 
region through Central Asian migrant laborers and its significant 
military presence. China makes large investments in Central Asia, which 
some countries welcome as a way to diversify their trade with Russia. 
However, the Central Asian countries are wary of disproportionate 
Chinese influence.


    Section 4--Question 11.  How will you jumpstart efforts to promote 
regional economic integration in Central Asia, including increased 
freedom of movement, association, and other fundamental rights that 
undergird people-to-people ties?

    Answer. I understand that the five Central Asian nations have shown 
progress in developing closer economic, political, and security ties 
since the United States initiated the regional C5+1 format (United 
States and the five Central Asian states) in 2015. The C5+1 pillars 
focus on counterterrorism, economic connectivity, regional energy, and 
water management challenges. If confirmed, I will lead the C5+1 
ministerial and other State Department initiatives to help remove 
barriers to freedom of movement and association, and increase energy 
trade and connectivity among the five Central Asian states.


    Section 4--Question 12.  The Administration appears to be adrift 
when it comes to formulation and implementation of strategic objectives 
in Africa. The President's unseemly comments about Africa, and the 
steep budget cuts send an alarming signal about the disregard the 
Administration feels towards the continent. The optics of firing former 
Secretary Tillerson right after he returned from the region could not 
have been worse. What policies on the continent will you prioritize and 
what is your plan for digging us out of the diplomatic hole that the 
President's remarks and Tillerson's unceremonious firing right after 
his trip dug us into in the region?

    Answer. If confirmed, I will work to strengthen the 
Administration's relationships with critical partners throughout sub-
Saharan Africa in order to advance mutual interests. I am committed to 
implementing a strategy for sub-Saharan Africa, which focuses on 
advancing our shared peace and security interests; spurring mutually 
beneficial economic growth, trade, and investment; strengthening 
democratic institutions and human rights; and promoting sustainable, 
country-led development.


    Section 4--Question 13.  There are still significant vacancies in 
the senior ranks of the Africa Bureau at State Department. We have no 
Assistant Secretary for Africa. Two regional envoys for Africa have 
been eliminated. There are no Ambassadors to the Democratic Republic of 
Congo, Somalia or Central Africa Republic, each of which face enormous 
challenges. It took ten months to appoint a Senior Director for Africa 
at the White House. Will you commit to working with the White House to 
nominate an Assistant Secretary of State for Africa bureau and to 
nominate Ambassadors for key posts in Africa as quickly as possible?

    Answer. I support full staffing of positions in the Africa Bureau. 
If confirmed, I commit to working with the White House to identify 
qualified candidates for senior positions in the Bureau as well as for 
ambassadorial appointments.


    Section 4--Question 14.  Will you commit to ensure that senior 
vacancies in the Africa bureau at the Deputy Assistant Secretary and 
Office Director level are filled as quickly as possible?

    Answer. I support full staffing of positions in the Africa Bureau. 
If confirmed, I commit to working to identify qualified candidates to 
fill vacant positions.Questions for the Record Submitted to Secretary 
of State Nominee Michael Pompeo by Senator Robert Menendez (Tranche 4 
#15) Senate Committee on Foreign Relations April 12, 2018


    Section 4--Question 15.  What is your position on having a Special 
Envoy for Sudan and South Sudan, and a Special Envoy for the Great 
Lakes considering the lack of progress on the peace process in South 
Sudan, and the deteriorating political and security situation in the 
Democratic Republic of Congo?

    Answer. If confirmed, I will closely evaluate the need for these 
positions.


    Section 4--Question 16.  Will you commit to consulting with the 
Committee about the reestablishment of these positions once confirmed?

    Answer. If confirmed, I commit to consulting with the Committee 
about whether these positions should be reestablished.


    Section 4--Question 17.  According to the Pew Research Center, 30% 
of inhabitants of sub-Saharan Africa are Muslim, representing over 15% 
of the world's Muslim population. That proportion is expected to 
increase to nearly 30% by 2050. Fourteen countries in the region have 
majority Muslim populations. Our partnerships with these countries are 
critical if we are to continue to effectively counter ISIS and Al Qaeda 
in the Islamic Maghreb. Would you agree that our partnerships with 
countries in the region that have majority Muslim populations are 
critical?

    Answer. Yes. If confirmed, I am committed to working with countries 
throughout sub-Saharan Africa regardless of ethnic or religious makeup 
of its citizens or government. I believe that mutual respect and the 
protection of human rights are critical to fostering peaceful and 
prosperous societies throughout the world. I will stress the importance 
of responding to the economic, humanitarian, and governance challenges 
that marginalize populations and make them more susceptible to 
recruitment by terrorist organizations, such as ISIS and Al Qaeda in 
the Islamic Maghreb.


    Section 4--Question 18.  The Center for Security Policy listed you 
as a speaker at its 2015 ``Defeat Jihad Summit.'' According to the 
Southern Poverty Law Center, ``For the past decade, CSP's main focus 
has been on demonizing Islam and Muslims under the guise of national 
security.'' You secured a room in the Capitol for American Congress for 
Truth'' (ACT), ``Legislative Briefing,'' in 2016. You also are said to 
have spoken at its national conferences in 2013 and 2015. In fact, some 
reports indicate that you were awarded ACT's ``highest honor,'' the 
National Security Eagle Award for 2016. According to the Southern 
Poverty Law Center ``ACT members and chapters routinely espouse racist 
views. ACT's `March Against Shariah' rallies on June 10, 2017 attracted 
a host of extremists including neo-Nazi Billy Roper ACT for America has 
been an SPLC designated hate group since 2015.'' You are moving from 
chief intelligence officer to chief diplomat, where decorum and cordial 
relations are key to effective outreach and engagement with foreign 
interlocutors. What do you think will be the impact of your reported 
engagement with organizations that have been called hate groups?

    Answer. There will not be any impact. Foreign governments and my 
counterparts, including from the Muslim world, have had complete 
confidence in my abilities to work with them as the Director of the CIA 
and, I believe will continue to have that confidence if I am confirmed 
as Secretary of State. As I said in answering a similar question during 
the hearing, I have and will treat every person both inside and outside 
of the State Department of each and every faith with the dignity and 
respect they deserve, and to work to protect their right to practice 
their religion or to practice no religion. As Director of the CIA I 
have worked closely with Muslim leaders and with Muslim countries for 
the interest of their security and America's national security. My 
efforts during my tenure as Director of the CIA have saved countless 
thousands of Muslim lives. I pledge to have that same good record as 
Secretary of State.


    Section 4--Question 19.  How much confidence do you think foreign 
governments and heads of state will have in working with you given your 
record of association with these organizations that have been called 
hate groups that espouse racist views?

    Answer. I believe that foreign governments and heads of state--
including from Muslim majority countries--will be critical 
interlocutors on many issues central to U.S. foreign policy. Throughout 
my career in the military, private sector, as a member of Congress, and 
at the CIA, I have demonstrated a commitment to diversity and the 
values of religious freedom and pluralism. If confirmed, I am committed 
to articulating these essential American values in my work.


    Section 4--Question 20.  The Administration in the National 
Security Strategy stated about its engagement with Africa: We will 
encourage reform, working with promising nations to promote effective 
governance, improve the rule of law, and develop institutions 
accountable and responsive to citizens We will continue to work with 
partners to improve the ability of their security services to counter 
terrorism, human trafficking, and the illegal trade in arms and natural 
resources. The amount available for Democracy and Governance in 2017 
for Africa is approximately $330 million. The Administration's request 
for the past two fiscal years has been less than half that amount. How 
do you propose to achieve any of these objectives with such a drastic 
reduction in the democracy and governance budget?

    Answer. I believe advancing democracy is critical for defending 
national security, fostering economic opportunities for the American 
people, and asserting U.S. leadership and influence. I understand the 
FY 2019 budget request upholds U.S. commitments to key partners in 
Africa through strategic, selective investments that enable America to 
retain its position as a global leader, while relying on other nations 
to make greater contributions toward shared objectives, including 
advancing democracy worldwide. If confirmed, I will continue support 
for these critical democracy programs and utilize high-level diplomatic 
engagements to strategically advance democratic norms, foster respect 
for human rights, fight corruption, and model transparent behavior.


    Section 4--Question 21.  U.S. leadership has had an enormous impact 
on halting the global AIDS pandemic. In fact, this year's Report to 
Congress from the Office of the Global AIDS Coordinator states that 
``For the first time in modern history we have the opportunity to 
control a pandemic without a vaccine or cure.'' It goes on to say that 
``while the gains we have made are remarkable, they are also fragile 
and can be quickly reversed if we slow down or grown complacent.'' 
Despite that clear warning, the Administration's lack of commitment to 
PEPFAR--a program that has enjoyed bipartisan support in Congress and 
through successive Administrations--could not have been made more clear 
than when it requested a billion dollars less for the program for two 
successive years. The Administration is further hampering PEPFAR's 
success with its hiring freeze. According to data from the OGAC office, 
nearly 40% of its positions are currently unfilled. Will you commit to 
pushing for increased funding for PEPFAR from 2017 levels so that we 
can achieve the goal of eliminating the pandemic?

    Answer. If confirmed, I look forward to continuing to support 
PEPFAR, a program that has enjoyed strong bipartisan support in 
Congress and across three successive Administrations, to accelerate 
progress toward controlling and ultimately ending the HIV/AIDS 
pandemic.


    Section 4--Question 22.  Will you commit to immediately addressing 
the staffing shortage in the Office of the Global AIDS Coordinator?

    Answer. If confirmed, I will examine and address staffing needs 
across the Department, including in the Office of the U.S. Global AIDS 
Coordinator and Health Diplomacy.


    Section 4--Question 23.  The Nigerian Air Force mistakenly bombed 
an IDP camp in Rann in January 2017, killing as many as 200 people. 
There has been no report to the public about what went wrong. 
Separately, the Nigerian Army is accused of massacring 300 people and 
burying them in a mass grave in Zaria in December of 2015. The Nigerian 
Federal government have not taken up recommendations made by the Kaduna 
Judicial Commission of Inquiry into the Zaria massacre. In mid-2015, 
Amnesty International released a report alleging that the deaths of 
8000 civilians are attributable to the Nigerian military in northeast 
Nigeria, and that specific commanders had knowledge of torture, extra-
judicial killings, and arbitrary detentions in overcrowded facilities. 
To your knowledge, has there been a transparent, comprehensive public 
accounting for the Rann bombing?

    Answer. My understanding is that the Nigerian government and 
military immediately assumed responsibility for the disturbing 
incident. The Nigerian Air Force promptly established a six-person 
panel to investigate the incident and initiated a number of corrective 
actions to prevent future mistakes, including closer coordination with 
humanitarian organizations in the region. If confirmed, I will look 
into this matter more closely.


    Section 4--Question 24.  Has anyone been held accountable for the 
Rann bombing or the Zaria massacre through a transparent legal process?

    Answer. My understanding is that the Nigerian government has 
established an independent, civilian Presidential Investigative Panel 
with a broad mandate to investigate allegations of human rights abuses 
by the military, including the events at Zaria in Kaduna State. If 
confirmed, I will closely review developments on this matter.


    Section 4--Question 25.  Did we condition the delivery of Super 
Tucanos to the government of Nigeria on assurances that the government 
would share with us the findings of the investigation into either 
incident?

    Answer. I am not aware of any conditionality associated with the 
delivery of the A-29 Super Tucano aircraft. I understand this sale 
includes training aimed at improving the professionalism of Nigerian 
security forces, and to help improve their targeting process in order 
to reduce civilian casualties, minimize collateral damage, and comply 
with the laws of armed conflict (LOAC). My understanding is that the 
sale is part of a broader strategy to work with Nigerian partners in 
developing a capable and professional security force that respects 
human rights, complies with LOAC principles, and can protect Nigeria's 
people from terrorism.


    Section 4--Question 26.  Do you believe that the 2015 Amnesty 
International report referenced above is credible? What is your 
assessment of the thoroughness and credibility of the Nigerian 
investigation prompted by the report?

    Answer. If confirmed, I will review closely the international 
reporting referenced in your question, as well as the status of the 
Nigerian investigation.


    Section 4--Question 27.  What specific actions will you take as 
Secretary of State to support accountability for the Rann bombing and 
the Zaria massacre?

    Answer. If confirmed, I will underscore to the Nigerian government 
that human rights abuses and impunity for such violations tarnish 
Nigeria's international reputation, undermine the trust of its 
citizens, impede counterterrorism efforts, and hinder U.S. ability to 
partner with Nigeria.


    Section 4--Question 28.  In Northeast Nigeria, humanitarian 
organizations responding to the humanitarian crisis precipitated by 
Boko Haram report facing bureaucratic obstacles imposed by the 
Government of Nigeria that impede their ability to reach vulnerable 
populations. Staff need authorization from the government to travel 
from Maidurguri, which at times restricts access to the most vulnerable 
communities. They also lack safety assurances from the Government of 
Nigeria in areas affected by active conflict. Aid organizations report 
that humanitarian goods--especially medical and nutrition supplies for 
NGOs--are often delayed or held at customs. If confirmed, how will you 
work with the Government of Nigeria to address restriction of access, 
the lack of safety assurances, and bureaucratic impediments to ensure 
that U.S. assistance is delivered effectively and efficiently to those 
in greatest need?

    Answer. I share your commitment to ensuring that U.S. humanitarian 
assistance is delivered effectively and efficiently to those in need. 
My understanding is that the Nigerian military provides escort and 
protection to humanitarian workers while also conducting offensive 
operations and protecting the civilian population from attack in a 
large geographic area. If confirmed, I will continue to support U.S. 
assistance to increase the capacity and professionalism of the Nigerian 
military.


    Section 4--Question 29.  Since 2014, the U.N. Peacekeeping Mission 
in Mali, MINUSMA, has been the deadliest peacekeeping operation in the 
world, and security conditions have grown significantly worse in recent 
months, affecting the Sahel region more broadly. The U.N. Secretary 
General reported in December that ``radical extremist and violent armed 
groups are exerting control over increasingly large areas.'' Mali-based 
terrorist groups have carried out attacks in neighboring Niger--
including the deadly October 4, 2017 assault on members of U.S. Special 
Operations Forces--and appear to have helped foment an escalating 
Islamist conflict in northern Burkina Faso. Implementation of the 2015 
Peace Agreement has stagnated. Northern signatory groups have not begun 
the disarmament, demobilization, and reintegration process. And the 
government's willingness to fulfill its commitments to political 
decentralization, greater inclusion of northerners in national-level 
political institutions, or justice sector reform is questionable. Mali 
has the potential to destabilize the Sahel. What steps as Secretary of 
State will you take to push Bamako to implement the 2015 Peace 
Agreement?

    Answer. My understanding is that progress on the 2015 Algiers 
Accord for Peace and Reconciliation in Mali has been exceedingly slow, 
with both the government and the armed groups blaming each other. If 
confirmed, I will urge all Malian parties to fully implement the peace 
accord, especially through good governance, respect for human rights, 
and provision of services to affected populations.


    Section 4--Question 30.  Will you commit to developing a strategy 
specifically for improving peace and security in Mali as part of a 
broader Sahel-Maghreb strategy?

    Answer. I understand that the security situation in central Mali is 
deteriorating rapidly. Progress on the Algiers Accord for Peace and 
Reconciliation in Mali has stalled, as government efforts are focused 
on the terrorist threat and presidential elections in July. If 
confirmed, I will review our current strategies to determine the best 
path toward peace and security in the region.


    Section 4--Question 31.  Violence has increased throughout the 
Central African Republic. In the absence of an effective government, 
more than a dozen armed groups and a multitude of local militias have 
usurped control of about 80 percent of the former French colony 
according to some analysts. Civilians are caught in the middle, and 
sometimes targeted, despite the presence of United Nations 
peacekeepers. An estimated 543,826 people are refugees in neighboring 
countries; and another 693,932 more are internally displaced. As 
Secretary of State, what role do you think the U.S. should play, both 
diplomatically and financially, in supporting the regional-led peace 
process?

    Answer. I share concern for the insecurity in the Central African 
Republic (CAR). If confirmed, I will support military and internal 
security forces that are competent, professional, and respect the 
rights of CAR's citizens. If confirmed, I will also work with our 
partners to strengthen other critical aspects of good governance in the 
country, including the judicial sector, to ensure accountability and 
strengthen the rule of law.


    Section 4--Question 32.  What do you see as the most effective ways 
that State Department can support civil society groups working for 
democracy, human rights, accountability, and peace in the Central 
African Republic?

    Answer. If confirmed, I look forward to discussing with State 
Department experts our current efforts to support civil society in the 
Central African Republic (CAR) and how those efforts can be improved or 
strengthened.


    Section 4--Question 33.  In many fragile countries like the Central 
African Republic women and young people have played an outsized role in 
stabilizing the country--from village mediators to peace marches to 
political leadership. What do you see as the most effective means of 
supporting women and youth leadership and participation in peacemaking 
processes?

    Answer. I agree that women and young people can be powerful agents 
for change in pursuing peace. If confirmed, I will ask the Department 
to identify ways to strengthen protections against trafficking, sexual 
violence and exploitation, and child soldier recruitment.


    Section 4--Question 34.  Niger is facing increasing security 
threats on three fronts: along its borders with Mali and Burkina Faso 
and in the Lake Chad Basin region. The U.S. military has over 800 
soldiers deployed to Niger as part of our effort to help that 
government fight terrorism in Niger and in the broader Sahel. It is 
also ranked 187 out of 188 on the most recent Human Development index. 
What is the diplomatic strategy for helping to ensure continued 
stability in Niger? How do our military and development activities fit 
into our overall diplomatic strategy?

    Answer. My understanding is that our diplomatic strategy to ensure 
continued stability in Niger consists of helping the government 
identify and focus on the most significant challenges, in coordination 
with other multinational partners. U.S. assistance seeks to improve 
Niger's ability to defend itself against threats from violent extremist 
organizations both within and outside its borders; strengthening its 
democracy; promoting good governance; and improving health, food 
security, nutrition, and agriculture in Niger. If confirmed, I will 
continue to support efforts to bring stability to Niger and the region.


    Section 4--Question 35.  Given the amount of money USAID is 
programming in Niger, and the significant development challenges facing 
the country, why is there no USAID Mission there?

    Answer. My understanding is that, in Niger, USAID has a limited 
presence office that serves as core advisors for U.S. government 
development activities in country. In addition, USAID Senegal's Sahel 
Regional Office, Office of U.S. Foreign Disaster Assistance, and Food 
for Peace regional offices, as well as the USAID's West Africa Regional 
Mission in Accra, Ghana, share the management responsibility for 
development and humanitarian programs in Niger.


    Section 4--Question 36.  Is the number of people working in the 
public affairs office at Embassy Niger being reduced? If so, how will 
that reduction help counter the increasingly negative perception of 
U.S. military presence in the country? If confirmed, what specific 
steps will you take to address the increasingly negative perception of 
U.S. military presence in Niger?

    Answer. My understanding is that the number of U.S. direct hire 
staff in the public affairs office at Embassy Niger remains constant at 
two. If confirmed, I will take steps to ensure that our public 
diplomacy efforts in Niger and other countries in the region are 
properly resourced.


    Section 4--Question 37.  Last October the Administration lifted 
sanctions against Sudan, citing, among other things, its cooperation on 
counterterrorism. It also signaled that it would consider removing 
Sudan from its list of state sponsors of terrorism, though it has not 
yet done so. Sudan has a consistently poor human rights record, and 
President Omar al- Bashir is still wanted by the International Criminal 
Court for genocide in Darfur. The latest State Department Human Rights 
Report cited concerns about widespread disregard for rule of law, 
including the security forces committing major abuses, such as 
extrajudicial and other unlawful killings; obstruction of humanitarian 
assistance; restrictions on freedom of speech, press, assembly, 
association, religion, and movement; and intimidation and closure of 
human rights and nongovernmental organizations (NGOs). And, since 1999, 
Sudan has been designated as a ``Country of Particular Concern'' (CPC) 
under the International Religious Freedom Act of 1998 for having 
engaged in or tolerated particularly severe violations of religious 
freedom. As CIA director, what was your position on removing sanctions 
on Sudan? What as been your position as CIA director on removing Sudan 
from the State Sponsors of Terrorism List?

    Answer. I supported removing sanctions on Sudan in conjunction with 
the interagency view that the Government of Sudan had fulfilled the 
requirements of the US-Sudan Five Track Engagement Plan (5TEP). Policy 
deliberations on the question of removing Sudan from SSTL are ongoing, 
however, it is my view that the Government of Sudan does not support 
terrorism.


    Section 4--Question 38.  If confirmed, what benchmarks will you 
insist that Sudan meet before any consideration of removing Sudan from 
the list of State Sponsors of Terrorism?

    Answer. If confirmed, I will be clear with the Government of Sudan 
that any further progress in our bilateral relationship will require 
sustained progress towards key U.S. priorities. These include, among 
others, progress in expanding counterterrorism cooperation, ensuring 
compliance with all UN Security Council resolutions on North Korea, 
improving humanitarian access, contributing to regional stability, 
ending conflicts within Sudan, improving protections for human rights 
and religious freedoms, and addressing outstanding judgments for 
victims of terrorism related to Sudan. I will continue to discuss 
specific benchmarks for a potential ``Phase II'' framework.


    Section 4--Question 39.  Will you commit to consulting further with 
Congress before those benchmarks are finalized should you be confirmed 
as Secretary of State?

    Answer. Yes.


    Section 4--Question 40.  If Sudan were to be removed from the State 
Sponsors of Terrorism List, could it be put back on the list if it 
backslides on the benchmarks set forth by the Administration?

    Answer. The conditions for designating a state as a State Sponsor 
of Terrorism (SST) are established in relevant statutes. My 
understanding is that these statutes allow for a state that had been 
previously designated--and later had its SST designation rescinded--to 
be designated again.


    Section 4--Question 41.  What actions will you take as Secretary of 
State to ensure that Sudanese authorities understand that cooperation 
on counterterrorism does not mean that the U.S. will turn a blind eye 
as the government willfully disregards democracy and human rights?

    Answer. Under my direction, CIA officials, like officials from the 
Department of State and other agencies, pressed the Government of Sudan 
to make progress on a range of areas, including expanding humanitarian 
access, improving human rights protections, and ending internal 
hostilities. If confirmed, I will ensure that the Department is focused 
on achieving progress on a wide range of objectives beyond expanding 
counterterrorism cooperation with the Government of Sudan.


    Section 4--Question 42.  An article published dated April 11 by the 
Integrated Regional Information Networks (IRIN) alleges that the 
government of Sudan is retreating from commitments to simplify access 
for humanitarians--one of the elements of the Five Track Plan for U.S. 
engagement--and that benchmarks for assessing progress on improved 
access are vague. Is the government backsliding on commitments to 
provide humanitarian access?

    Answer. My understanding is that the State Department assessment is 
that there has been important progress in these areas in recent weeks. 
USAID's humanitarian partners continue to report improvements in 
humanitarian access to more parts of Sudan and reductions in Sudanese 
government interference and obstruction in aid operations. If 
confirmed, I will press for further progress towards timely and 
impartial delivery of humanitarian assistance to the most vulnerable 
populations throughout the country.


    Section 4--Question 43.  What specific benchmarks is the 
Administration using to measure improved access?

    Answer. My understanding is that the Administration continues to 
discuss specific benchmarks for a potential ``Phase II'' framework for 
engagement with Sudan. This framework will include a track related to 
expanding humanitarian access based on specific benchmarks, including 
removing remaining constraints related to travel, hiring practices, and 
independent assessments and oversight, and opening further humanitarian 
corridors to South Sudan, among other issues.


    Section 4--Question 44.  What will you do as Secretary, if 
confirmed, to ensure that Khartoum follows through with commitments to 
humanitarian access on a continuous basis?

    Answer. If confirmed, I will be clear with the Government of Sudan 
that any further progress in our bilateral relationship will require 
sustained progress towards a range of benchmarks related to key U.S. 
priorities, including expanding humanitarian access.


    Section 4--Question 45.  The conflict in South Sudan continues 
despite regional and international diplomatic efforts. Nearly four 
million people have been forced to flee their homes; half of them 
children. Famine has been declared in parts of the country. A 
bipartisan group of Senators has asked for the appointment of a Special 
Envoy. The nomination of an Assistant Secretary of State for Africa 
would be a welcome step as well. If confirmed, what steps will you take 
as Secretary of State to apply diplomatic pressure to all players to 
the conflict in South Sudan to resolve the conflict?

    Answer. The United States has made clear to the Government of South 
Sudan and other parties to the conflict that the U.S. government--both 
unilaterally and in coordination with international partners--will hold 
accountable those who threaten the peace, security, or stability of 
South Sudan. If confirmed, I will employ the full range of diplomatic 
tools to work toward a peaceful South Sudan governed by an inclusive 
and legitimate government that takes care of its people.


    Section 4--Question 46.  What further diplomatic steps will you 
take, if confirmed, should the next round of talks through the High 
Level Revitalization Forum fail to result in a sustainable ceasefire?

    Answer. The United States is working with Troika partners (Norway 
and the United Kingdom), the Intergovernmental Authority on Development 
(IGAD), the African Union (AU), the EU, and the United Nations to press 
the Government of South Sudan and other parties to the conflict to 
reach a negotiated political settlement through the IGAD-led High-Level 
Revitalization Forum (HLRF). If the Forum fails to achieve its 
objectives, the United States and others will have to re-assess the 
most promising mechanisms to pursue a negotiated peace for South Sudan. 
If confirmed, I will closely review developments on this issue.


    Section 4--Question 47.  What steps should we be taking on a 
bilateral basis to pressure members of the Intergovernmental Authority 
on Development (IGAD) to support an arms embargo and targeted 
sanctions? Please provide an answer on a country by country basis for 
each IGAD member.

    Answer. I understand that the regional organization of IGAD is 
leading efforts to reach a negotiated political settlement through the 
High-Level Revitalization Forum (HLRF). Should this process not yield 
tangible results, if confirmed, I will carefully assess the prospects 
for enhancing pressure on individual IGAD states, Djibouti, Ethiopia, 
Eritrea, Kenya, Somalia, South Sudan, Sudan, and Uganda, with clear-
eyed appreciation of the array of complicated bilateral equities we 
hold with each.


    Section 4--Question 48.  Will you support the designation of a 
Special Envoy for Sudan and South Sudan?

    Answer. If confirmed, I will do my utmost to help the people of 
Sudan and South Sudan achieve the security, stability, and development 
they deserve and will review all diplomatic tools available to achieve 
this objective.


                               __________

                      (Section 5--Questions 1-60)

    Section 5--Question 1.  Prime Minister Abiy Ahmed, who was sworn in 
on April 2 has stated his commitment to democracy and civil rights. It 
remains to be seen whether under his leadership, the government will 
engage in actions that effectively open political space and respect the 
right to freedom of peaceful assembly and guarantee freedom of the 
press and mass media in keeping with Articles 30 and 29 of the 
Ethiopian constitution. What is the status of the bilateral U.S.--
Ethiopia Working Group on Democracy, Governance and Human Rights? If 
confirmed, will you commit to ensure high level participation in the 
working group by both the U.S. and Ethiopia?

    Answer. If confirmed, I will support the ongoing, successful 
dialogue represented by the Democracy, Governance, and Human Rights 
Working Group, where both sides speak frankly regarding the full range 
of governance and human rights issues. I commit to continuing this 
effort, and I will seek to ensure our high-level participation in this 
important bilateral forum.


    Section 5--Question 2.  Will you commit to personally advocate for 
the Ethiopia government to release from incarceration all dissidents, 
members of the political opposition, activists, and journalists who 
have been jailed, including those arrested for reporting about the 
protests, for exercising constitutional rights, if confirmed?

    Answer. Ethiopia will be stronger as it allows more independent 
voices in government, parliament, and civil society to legally express 
popular grievances and propose policy solutions. If confirmed, I would 
urge all parties to continue to refrain from violence and will advocate 
strongly for these voices, including those who may have been detained 
for exercising their constitutional rights.


    Section 5--Question 3.  Will you commit, if confirmed to advocating 
that the government of Ethiopia conduct a full, credible, and 
transparent investigation into the killings, detentions, and instances 
of excessive use of force that took place in response to protests in 
the Oromia and Amhara regions starting in 2015, and hold accountable 
security forces accused of such actions through public proceedings, and 
to publicly release written findings from such investigation?

    Answer. I understand that Ethiopia has committed to conducting full 
and transparent investigations into the circumstances surrounding the 
deaths of civilians during periods of political protest from 2015 until 
today. If confirmed, I will ensure that we continue to advocate that 
these investigations be conducted credibly and completely, and that 
they hold accountable those responsible for unlawful violence. I will 
advocate for full public disclosure of the findings of these 
investigations.


    Section 5--Question 4.  Will you commit to advocating for the 
Ethiopian Government to grant the United Nations High Commissioner for 
Human Rights and United Nations Special Rapporteurs access to conduct a 
comprehensive and independent examination of the state of human rights 
in Ethiopia, and work with Ethiopia to improve human rights conditions 
if confirmed?

    Answer. If confirmed, I will ensure that we continue to advocate 
for United Nations human rights officials to participate in the 
examination of the state of human rights in Ethiopia. I commit to 
working closely with the Government of Ethiopia to improve human rights 
conditions through a strong, cooperative relationship.


    Section 5--Question 5.  On March 27, 2018, President Trump issued a 
Presidential Memorandum to the Secretary of State and the Secretary of 
Homeland Security announcing the termination of Deferred Enforced 
Departure (DED) for Liberians effective March 31, 2019. The memo states 
that conditions in Liberia no longer warrant a further extension of 
DED. Do you agree with the Administration's decision to terminate DED 
for Liberians?

    Answer. I agree with President Trump's determination that 
conditions in Liberia no longer warrant a further extension of DED for 
Liberians but that foreign policy interests of the United States 
warrant affording an orderly transition period of 12 months to Liberian 
DED beneficiaries.


    Section 5--Question 6.  It is my understanding, based on statements 
from Administration officials, that the White House had sought, and was 
awaiting, recommendations from the Department of State and the 
Department of Homeland Security regarding whether to extend DED for 
Liberia. If confirmed, will you provide the State Department's 
rationale for its recommendation to this committee?

    Answer. As President Trump stated, he consulted with appropriate 
executive departments and agencies, which included the Department of 
State and the Department of Homeland Security, in advance of his 
determination regarding DED for Liberia. If confirmed, I will endeavor 
to be as open and transparent as possible with the Committee in 
response to requests for information.


    Section 5--Question 7.  While the Presidential Memorandum noted 
that Liberia is no longer engaged in armed conflict, and that the Ebola 
epidemic has been contained, it contained little explanation for the 
conclusion that DED is no longer warranted for Liberia. Indeed, Liberia 
has only just completed its first democratic transfer of power in 
decades, and there are serious concerns about the nation's ability to 
maintain peace and deliver essential services to its population. If 
confirmed, will you review the facts of Liberia's DED designation and, 
if appropriate, recommend that the Administration reverse its decision 
to end DED?

    Answer. My understanding is that President Trump's determination 
not to extend DED for Liberians is a reflection of positive conditions 
on the ground in Liberia. If confirmed, I will continue to monitor the 
conditions that warranted the President's determination and will advise 
President Trump appropriately.


    Section 5--Question 8.  The Gulf countries are important 
international actors in the Horn of Africa. Analysts have expressed 
concern that the Gulf crisis may exacerbate regional tensions in the 
Horn. What diplomatic messages in your view should our Ambassadors in 
Riyadh, Ankara, Abu Dhabi and Doha be delivering about the actions 
these countries are taking that could potentially play a destabilizing 
role in the Horn of Africa? The UAE, Saudi Arabia, and Turkey have 
increased their military presence along the coast of the Horn of 
Africa--should the United States be concerned about a potential ``base 
race'' in this turbulent region, particularly the implications for 
fragile states like Somalia and Eritrea?

    Answer. If confirmed, I will closely review these developments in 
the Horn of Africa given the strategic importance of this region.


    Section 5--Question 9.  What impact has the dispute between Qatar, 
Saudi Arabia, and the UAE had on the border dispute between Djibouti 
and Eritrea? Has any other country stepped in to fill the mediation 
role previously played by Qatar? Are and tensions between Djibouti and 
Eritrea likely to flare in the near term? Do the tensions between 
Djibouti and Eritrea pose any threat to our military presence in 
Djibouti? Are tensions likely to flare? What role if any should the 
U.S. play in reducing such tensions?

    Answer. My understanding is that tensions between Qatar, Saudi 
Arabia, and the United Arab Emirates have significantly complicated the 
situation in the region. If confirmed, I will urge all parties to 
disputes in the Gulf region to deescalate tensions and refrain from any 
actions that could lead to instability among their neighbors.


    Section 5--Question 10.  How would you assess the roles played by 
the United Arab Emirates and Turkey in Somalia--are they playing 
constructive roles in supporting international efforts to stabilize the 
country?

    Answer. My understanding is that the United Arab Emirates and 
Turkey are among many partners that provide security and humanitarian 
assistance to Somalia, and that both are also investing in 
transportation and other sectors of the Somali economy. If confirmed, I 
will closely review the situation given the significant U.S. interests 
in this region.


    Section 5--Question 11.  News reports indicate that the United Arab 
Emirates engages directly with Somalia's nascent Federal Members 
states, bypassing and/or allegedly seeking to circumvent the Federal 
government at times. How is this direct engagement affecting the 
formation of relations between the Federal and state governments? In 
your view, does this have the potential to destabilize the Somali 
state?

    Answer. My understanding is that the United Arab Emirates and other 
international partners engage with and invest in Somalia's Federal 
Member States, and in some cases these activities have exacerbated 
tensions between federal and regional authorities in Somalia. If 
confirmed, I will closely review the situation given the significant 
U.S. interests in this region.


    Section 5--Question 12.  Tensions between the Somali Federal 
Government and the UAE appear very high right now--what messages should 
we be conveying to Abu Dhabi about its actions in the country? How 
might Al Shabaab seek to exploit the current situation? Is the recent 
disagreement over the legality of Somaliland's Berbera port deal with 
DP World linked to the Gulf Crisis?

    Answer. If confirmed, I will emphasize to the UAE that its pressure 
on Mogadishu over the Gulf crisis runs counter to our shared goals of 
promoting peace and stability in Somalia. This would include efforts to 
combat al-Shabaab and promote reconciliation between Mogadishu and 
Somaliland. I understand that Mogadishu's challenge of the legality of 
the DP World's Berbera port deal with Somaliland has exacerbated 
tensions between Abu Dhabi and Mogadishu and reflects the political 
sensitivities surrounding Somali sovereignty issues.


    Section 5--Question 13.  The State Department has a number of 
important resources to project and support the economic dimension of 
U.S. international influence, beginning with the Economic Bureau 
itself, and including USAID's capacities to promote growth in 
developing countries. To date, it has been difficult to discern a 
comprehensive strategy for supporting U.S. economic interests 
internationally. Criticism of multilateral engagement and institutions 
do not add up to positive program to meet the challenges of rising 
powers, new markets, and aggressive national economic strategies. Can 
you articulate the administration's vision for such a program?

    Answer. The National Security Strategy underscores that economic 
security is national security. Economic engagement is a key tool of 
foreign policy. If confirmed, I will employ it fully in collaboration 
with international partners to promote American prosperity and 
security.


    Section 5--Question 14.  Will you commit to work with me and the 
Congress to make such a program a core component of our international 
engagement?

    Answer. If confirmed, I intend to work with Congress to advance 
American prosperity using the full spectrum of diplomatic tools.


    Section 5--Question 15-19.  The President's budget request calls 
for a 31% ($425 million) cut for the Global Fund. U.S. investments in 
the Global Fund leverage other donors to step up and match us 2 to 1. 
During the last replenishment in September 2016, 8 of the top 10 donors 
pledged significantly more to the Global Fund. Since its founding in 
2002, Global Fund-supported programs have saved more than 22 million 
lives, put 11 million people with HIV on anti-retroviral treatment, put 
17.4 million on TB treatment, and gotten 795 million anti-malaria 
bednets to vulnerable children and adults. The Global Fund and U.S. 
bilateral global health programs--PEPFAR, the President's Malaria 
Initiative (PMI) and USAID's TB program--are interconnected and rely on 
each other for success. Do you agree that the United States has an 
obligation to lead on this issue? Should our contributions to the Fund 
depend on the magnitude of the health crisis, or on the commitments of 
others?

    Answer. The United States is the world's leader not only in 
investment to end these three diseases but also in technical support to 
leverage other donors and to ensure that all funds are optimally spent 
for maximum impact. The United States remains the largest donor in 
responding to the global HIV/AIDS crisis, and since 2004 has invested 
nearly $75 billion in this response. The United States also continues 
to invest in The Global Fund up to three times the rate of any other 
donor country. If confirmed, I will ensure that the United States 
continues to lead on these issues with the same urgency, action, and 
focus as we always have and that science and best practices drive our 
funding decisions and strategies.


    Section 5--Question 20.  President Trump has moved aggressively in 
recent weeks to address the U.S. trade gap with China. Clearly, the 
U.S. doesn't just conduct trade with China, our companies compete with 
the Chinese for markets across the globe. However, U.S. companies find 
themselves at a severe disadvantage as the Chinese government provides 
abundant export credit assistance while, for the past two years, U.S. 
companies have suffered from the lack of a fully functioning U.S. 
Export-Import Bank. This puts U.S. manufacturers at a tremendous 
disadvantage when they try to compete with the Chinese and, for that 
matter, the Germans, the French and other countries that provide 
financing assistance in foreign markets where traditional financing is 
not available. While the Chinese government now offers almost half a 
trillion dollars a year to purchase Chinese-made products, the Export-
Import Bank limits its loans to a mere $10 million per transaction or a 
total of only $3.4 billion a year. As a result, the Export-Import Bank 
reports that there are over $40 billion in export opportunities for 
U.S. companies that are on hold. If you use the Department of 
Commerce's jobs multiplier, this figure represents over 210,000 U.S. 
jobs not being created or maintained. I understand you opposed the re-
authorization of the Ex-Im when you were a member of Congress. How do 
you expect to help U.S. companies compete globally if you do not have 
the same tools in your tool box that the Chinese and our other 
competitors have?

    Answer. The President has nominated board members for consideration 
by the Senate for the Export-Import Bank of the United States. My 
understanding is that the Banking Committee has approved four of the 
five nominees, and they are pending confirmation by the full Senate. If 
confirmed, I look forward to working with the President as he 
determines next steps with regard to the Export-Import Bank.


    Section 5--Question 21.  In your possible future role as Secretary 
of State how will you advise the President on this matter?

    Answer. If confirmed, I look forward to reviewing this matter 
closely and working with the President as he determines next steps with 
regard to the Export-Import Bank.


    Section 5--Question 22.  The Export-Import Bank has opponents in 
Congress but it is not clear what the President's policy is. There have 
been reports that President Trump supports a fully functioning Export-
Import Bank and just yesterday Secretary Mnuchin said President Trump 
is ``very interested in re-opening'' the bank but President Trump has 
not weighed in directly. Will you encourage President Trump to work 
with Congress in resolving this impasse?

    Answer. I share the view that Congress has an important role to 
play in matters surrounding the Export-Import Bank.


    Section 5--Question 23.  If the President decides to re-impose the 
sanctions on Iran that were suspended in order for the United States to 
uphold its JCPOA commitments, what is your expectation of the time it 
will take to reconstitute the pre-JCPOA sanctions?

    Answer. The Administration's objective is to fix the JCPOA, and 
significant diplomatic efforts are underway to achieve that objective. 
That will be my focus, if confirmed.


    Section 5--Question 24.  What do you expect will be the most 
significant impediment to re-imposing the international nuclear-related 
sanctions regime on Iran?

    Answer. The Administration's objective is to fix the JCPOA, and 
significant diplomatic efforts are underway to achieve that objective. 
That will be my focus, if confirmed.


    Section 5--Question 25.  How, specifically, do you propose to 
ensure that Iran is prevented from developing a nuclear weapon if the 
JCPOA is no longer in effect?

    Answer. This Administration is committed to preventing Iran from 
developing or obtaining a nuclear weapon. Regardless of the future of 
the JCPOA, Iran's nuclear activities must remain exclusively peaceful, 
and Iran must comply fully with its continuing Non-Proliferation Treaty 
and related IAEA safeguards obligations. The Administration has 
demonstrated it will hold the Iranian regime fully accountable for its 
actions.


    Section 5--Question 26.  Are you recommending to the President that 
the goal of re-imposing the nuclear-related sanctions against Iran is 
regime change?

    Answer. The Administration's objective is to fix the JCPOA and 
ultimately prevent Iran from obtaining a nuclear weapon capability. 
Significant diplomatic efforts are underway to achieve that objective.


    Section 5--Question 27.  Iran has unjustly detained and continues 
to imprison American citizens Siamak and Baquer Namazi, Princeton 
University student Xiyue Wang, and has not fully cooperated in the case 
of Robert Levinson. Do you commit to do everything in your power as 
Secretary of State to secure the release of these unjustly detained 
Americans?

    Answer. Yes.


    Section 5--Question 28.  Section 103 of the Countering America's 
Adversaries Through Sanctions Act (CAATSA) requires the Secretaries of 
State, Defense, Treasury, and the Director of National Intelligence to 
submit to Congress a strategy for deterring conventional and asymmetric 
Iranian activities and threats ``not later than 180 days after the date 
of the enactment of this Act.'' CAATSA became public law on August 2, 
2017, over 253 days ago but the Administration has still not submitted 
this strategy. What is the status of this strategy and when will it be 
submitted to Congress?

    Answer. If confirmed, I will ensure that the Department of State, 
in coordination with other federal agencies and departments as 
directed, works diligently to adhere to congressionally mandated 
reporting deadlines.


    Section 5--Question 29.  The Trump Administration has issued 
repeated statements in support of human rights for the citizens of 
Iran. Yet the proposed budget for the State Department cuts funding for 
the Near East Regional Development program from $32 million in 2017 to 
$15 million, a reduction of more than 53%. Do you support this cut?

    Answer. If confirmed, I will closely review the Department's budget 
on this and other issues and make the case to defend the resources that 
the State Department needs to achieve its diplomatic objectives, as 
needed.


    Section 5--Question 30.  Can you explain the thinking and analysis 
the led to the proposed funding cuts to the NERD program?

    Answer. I believe democracy programs are critical for defending 
national security, fostering economic opportunities for the American 
people, and asserting U.S. leadership and influence. If confirmed, I 
will closely review the Department's budget on this and other issues 
and make the case to defend the resources that the State Department 
needs to achieve its diplomatic objectives, as needed.


    Section 5--Question 31.  What actions will the U.S. take to support 
Iranian human rights and democracy, given these cuts?

    Answer. Addressing Iran's continued serious violations and abuses 
of human rights is a priority for the Administration. If confirmed, I 
will speak out regularly on these issues and use various tools such as 
the annual human rights and religious freedom reports to highlight 
abuses in Iran. The Administration will also continue to promote 
accountability for Iran through sanctions on those involved in human 
rights abuses and, if confirmed, I will urge our partners and allies to 
join us in imposing sanctions. I will also work with like-minded 
partners multilaterally to bring international pressure on Iran for its 
human rights violations and abuses.


    Section 5--Question 32.  In your thirteen-page Congressional 
testimony, Iraq is an afterthought, mentioned twice among lists of 
countries. And yet Iraq remains on the frontlines of the still-ongoing 
fight against ISIS; the political-security contest to prevent Iranian 
domination from the Middle East; and the struggle to show that 
different sects and ethnicities can live peacefully together. There is 
reason to worry the U.S., having invested militarily to retake 
territory, will fail to show up for the difficult civilian work ahead. 
Is Iraq a high priority in U.S. plans to contest Iranian influence in 
the region?

    Answer. The U.S. commitment to partnership with Iraq remains 
strong. The Iraq-U.S. Strategic Framework Agreement (SFA) underpins the 
United States' long-term relationship with Iraq and provides a broad 
basis for bilateral economic, diplomatic, cultural, and security 
cooperation which can help counterbalance Iran. U.S. engagement with 
Iraq, including strong support for upcoming national Iraqi elections, 
bolsters Iraq's democratic character, strengthens Iraqi sovereignty, 
integrates Iraq into the global economy, and helps Iraq resist malign 
Iranian influence. The Administration is under no illusions about the 
destabilizing nature of Iran's activities in the region and remains 
committed to helping the Iraqi government push back on Iran.


    Section 5--Question 33.  Do you believe there is a non-military 
role for the United States in Iraq?

    Answer. Yes. The United States has a significant non-military 
presence in Iraq, and the Administration is working on enhancing a 
range of economic and political cooperation with Iraq.


    Section 5--Question 34.  If confirmed, what specific steps will you 
recommend as Secretary of State to diminish Iranian influence in Iran 
[sic]?

    Answer. In my experience, Iraqi political leaders recognize that 
U.S. engagement provides much of what Iran cannot: a supportive 
security relationship, global leadership to marshal international aid, 
and a partner who reinforces Iraq's sovereignty under the rule of law 
rather than undercuts it. Together, the United States and the 
Government of Iraq are reinvigorating the Iraq-U.S. Strategic Framework 
Agreement (SFA), which provides a broad basis for bilateral economic, 
diplomatic, cultural, and security cooperation. The United States has 
also successfully promoted Iraq's regional integration with its Arab 
neighbors. One example is the recent Iraq Reconstruction Conference 
hosted by Kuwait, where Iraq's neighbors, excluding Iran, provided it 
with more than $30 billion in reconstruction financing.


    Section 5--Question 35.  The Kurdistan Regional Government in Iraq 
has been a committed, responsive U.S. partner in the anti-ISIS fight. 
What more, specifically, should the United States do to support the 
Iraqi Kurdistan Region and a reconciliation process with the Baghdad 
government?

    Answer. The U.S. government supports a united, federal, democratic, 
and prosperous Iraq of which a viable Iraqi Kurdistan Region (IKR) is 
an integral component. Together, Iraqis are stronger, whether facing 
ISIS or threats to their sovereignty, and the Unites States continues 
to work actively with the Kurdistan Regional Government and the Iraqi 
government to deescalate tensions and foster dialogue. We are also 
encouraging the two sides to agree on sharing oil revenues to help 
bolster the IKR economy. If confirmed, I would work to ensure that 
Iraq's democratic processes and institutions work to fulfill the 
aspirations of all Iraqis.


    Section 5--Question 36.  I understand that there is a review of the 
U.S. assistance program for the West Bank and Gaza. Is the State 
Department leading this review?

    Answer. The Administration regularly reviews our foreign assistance 
to ensure it is achieving our policy objectives. If confirmed, I look 
forward to working with colleagues across the Administration to ensure 
our foreign assistance, including our assistance to the West Bank and 
Gaza, is serving American interests and providing value to the U.S. 
taxpayer.


    Section 5--Question 37.  If not the State Department, who is the 
lead within the interagency for leading this review?

    Answer. I understand that many interagency stakeholders, including 
but not limited to the State Department, have important contributions 
to make to the Administration's evaluation of foreign assistance to the 
West Bank and Gaza. I understand that those discussions are taking 
place through the usual mechanisms for interagency consultation.


    Section 5--Question 38.  What is your goal regarding the timeline 
for completing this review, if confirmed?

    Answer. I understand the Administration's review of assistance to 
the West Bank and Gaza is ongoing. I look forward, if confirmed, to 
offering further Department of State input to that review.


    Section 5--Question 39.  What issues is the review working to 
address?

    Answer. My understanding is that the review is addressing how U.S. 
assistance to the Palestinians advances U.S. national security 
priorities.


    Section 5--Question 40.  In your view, is it in the security 
interest of the United States to maintain an assistance program to the 
West Bank and Gaza?

    Answer. The Administration is reviewing U.S. assistance to the West 
Bank and Gaza to ensure American policy and taxpayer interests, 
including our national security interests, are being served in the best 
way possible. If confirmed, I look forward to working with interagency 
partners to evaluate where our interests are being met, and where we 
can make improvements.


    Section 5--Question 41.  Is it in Israel's security interest for 
the United States to provide assistance in the West Bank and Gaza?

    Answer. Israel's security is a strong national security priority 
for the United States, and one we support across multiple lines of 
effort. The Administration is currently reviewing foreign assistance to 
the West Bank and Gaza to ensure that American policy and taxpayer 
interests are being served appropriately. Israel's security, as well as 
regional security and stability, are core aspects of that discussion.


    Section 5--Question 42.  The Taylor Force Act would withhold 
assistance that ``directly benefits the Palestinian Authority'' (PA), 
unless the PA takes steps to end violence by Palestinians against 
Israeli or U.S. citizens and end payments to Palestinians convicted of 
or killed while carrying out acts of terrorism against Israeli or U.S. 
citizens. What type of U.S. assistance does the Administration consider 
to be ``directly benefitting the PA'' for the purposes of the Taylor 
Force Act?

    Answer. The Trump Administration strongly supports the Taylor Force 
Act. If confirmed, I look forward to working with you on how the 
Department will implement this law to achieve maximum effectiveness and 
send a message to the Palestinian Authority that the United States does 
not support payments to terrorists.


    Section 5--Question 43.  What actions is the Administration taking 
to move the PA away from the current system that incentivizes terror 
and towards a general welfare system for all Palestinians?

    Answer. The Administration opposes any program that incentivizes 
acts of violence and terrorism. The Palestinian Authority (PA)'s 
payments to families of prisoners convicted of terrorist acts and to 
families of deceased Palestinians responsible for such acts are no 
exception. I understand senior Administration officials have regularly 
engaged the PA leadership to demand that they stop payments related to 
perpetrators of terrorist acts. If confirmed, I look forward to 
advancing the efforts of Congress and the Administration to end any 
incentives or rewards for acts of terrorism, including through 
enforcement of the provisions of the Taylor Force Act.


    Section 5--Question 44.  Last month, the Wall Street Journal 
reported that the White House is holding $200 million in stabilization 
projects for Syria. Is this the $200 million in stabilization funds 
pledged at the Kuwait Conference?

    Answer. In line with President Trump's request to review all 
foreign assistance, the Administration continually evaluates 
appropriate assistance levels and how best assistance might be 
utilized. It is my understanding this review includes the $200 million 
stabilization assistance that was announced at the Defeat-ISIS 
Coalition Ministerial conference in Kuwait in February 2018.


    Section 5--Question 45.  Which projects are included in the $200 
million (please include dollar amounts for each project)?

    Answer. I understand the $200 million stabilization funding in 
question that then-Secretary Tillerson announced at the Defeat-ISIS 
Coalition Ministerial in Kuwait conference in February 2018 covers a 
range of ongoing State and USAID stabilization programs in Syria.


    Section 5--Question 46.  Is humanitarian assistance to the Syrian 
people inside Syria or in neighboring countries affected by this hold?

    Answer. It is my understanding that the $200 million in question 
did not include humanitarian assistance.


    Section 5--Question 47.  When will this review conclude?

    Answer. If confirmed, I will work to expedite this review to ensure 
this and all our assistance is targeted, effective, and set at the 
appropriate level.


    Section 5--Question 48.  What are the issues being considered in 
this review?

    Answer. The President has asked that we review all foreign 
assistance for Syria, determine appropriate assistance needs, and then 
encourage our partners in the Global Coalition to Defeat ISIS to share 
the burden of consolidating the Coalition's military gains and 
preventing the resurgence of ISIS. If confirmed, I will guide the State 
Department's review and ensure our stabilization assistance supports 
the United States' objectives in Syria.


    Section 5--Question 49.  Do you believe that the United States 
should have a role in providing reconstruction assistance to 
communities liberated from ISIS inside Syria?

    Answer. My understanding is that the United States has supported 
immediate stabilization and early recovery efforts in areas liberated 
from ISIS control, including Explosive Remnants of War (ERW) removal, 
the restoration of essential services, and building local capacity to 
support longer-term sustainability. The President has made clear that, 
as we move forward, the Administration will press the international 
community and partners in the region to take a greater role in 
stabilizing liberated areas of Syria.


    Section 5--Question 50.  Can military gains against ISIS be 
sustained without stabilizing those liberated areas?

    Answer. If confirmed, I will lead the diplomatic and assistance 
efforts necessary to ensure that broader U.S. interests are protected 
in Syria once ISIS's so-called ``caliphate'' has been defeated. The 
United States is working with Coalition partners to support immediate 
stabilization and early recovery efforts in areas liberated from ISIS 
control, including Explosive Remnants of War (ERW) removal, the 
restoration of essential services, and building local capacity to 
support longer-term sustainability.


    Section 5--Question 51.  I understand that funding is on hold, 
pending an interagency review, for the International, Impartial, and 
Independent Mechanism (IIIM) to Assist in the Investigation and 
Prosecution of Persons Responsible for the Most Serious Crimes under 
International Law Committed in the Syrian Arab Republic since March 
2011. In remarks to the UN Security Council earlier this year, 
Ambassador Nikki Haley said, ``The United States strongly supports the 
IIIM as a valuable tool to hold the Assad regime accountable for its 
atrocities, including its repeated and ongoing use of chemical 
weapons.'' In notifying these funds to Congress, the State Department 
specifically stated that the U.S. contribution enables the U.S. to 
leverage other countries to contribute on a voluntary basis, including 
the Netherlands, Germany, Finland, Switzerland, and Qatar. At a time 
when the IIIM is necessary to advance accountability, especially after 
the regime used chemical weapons against the Syrian people earlier this 
month, why is funding for the IIIM on hold?

    Answer. The Administration maintains its strong support for holding 
the Assad regime accountable for its atrocities, including through 
mechanisms like the IIIM. In line with the President's request to 
review all foreign assistance, the Administration continually evaluates 
appropriate assistance levels and how best assistance might be 
utilized. If confirmed, I will review this and related initiatives 
closely to determine the most appropriate path forward.


    Section 5--Question 52.  Particularly, what should the United 
States do to diminish Iranian influence in Syria?

    Answer. The President has issued a comprehensive strategy to 
counter the wide array of Iranian threats, including the regime's 
destabilizing activities in the region and its support to the Assad 
regime. If confirmed, I look forward to leading the State Department in 
implementing the President's strategy, which includes targeting 
sanctions on Iran's Islamic Revolutionary Guard Corps-Quds Force and 
its Ministry of Intelligence and Security for their support to the 
Assad regime. I would also look forward to continuing State Department 
efforts to achieve a diplomatic outcome in Syria that brings stability, 
a decrease in violence, and ultimately a situation where the Syrian 
people can govern themselves in a post-Assad Syria.


    Section 5--Question 53.  If no, what are the United States' 
priorities in Syria?

    Answer. The Administration's priority in Syria is the enduring 
defeat of ISIS. In order to defeat ISIS, President Trump has 
implemented an accelerated strategy for the enduring defeat of ISIS and 
its focus on de-escalating the violence in Syria creates the space for 
political resolution. With de-escalation, some of the worst effects of 
this conflict, civilian casualties, displacement, and the growth of 
terrorist groups and Iranian influence, are mitigated. It will be 
critical to continue to work with regional partners to address these 
issues. The Administration supports a unified, stable Syria to which 
all refugees and those displaced by the conflict can safely and 
voluntarily return and in which the rights of all Syrians are 
protected.


    Section 5--Question 54.  Do you believe that the presence of U.S. 
forces on the ground in Syria is required to counter Iranian influence 
and activities inside Syria?

    Answer. The President has issued a comprehensive strategy to 
counter the wide array of Iranian threats, including the regime's 
destabilizing activities in the region and its support to the Assad 
regime. If confirmed, I look forward to leading the State Department in 
implementing the President's strategy, which includes targeting 
sanctions on Iran's Islamic Revolutionary Guard Corps-Quds Force and 
its Ministry of Intelligence and Security for their support to the 
Assad regime.


    Section 5--Question 55.  Do you believe that the Administration has 
the legal authority to maintain ground forces in Syria for the purposes 
of countering Iranian influence and activities?

    Answer. The U.S. military presence in Syria is to defeat ISIS. My 
understanding is that the 2001 Authorization for the Use of Military 
Force provides sufficient legal authority to prosecute the campaign 
against al-Qa'ida and associated forces, including the ISIS.


    Section 5--Question 56.  The de-escalation zones in Syria, 
negotiated by Jordan, Russia and the United States, depend on Russian 
assurances. If Russia is unwilling or unable to provide assurances that 
the Syrian regime or its associated forces, such as Hezbollah or other 
Iranian-backed proxy forces, will cease violence in these areas, what 
is the next option for U.S. policy in Syria?

    Answer. As part of the arrangement in southwest Syria, Russia has 
committed to remove all foreign fighters from the area, including 
Hizballah or other Iranian-backed proxy forces, and to help to 
deescalate should the regime violate the ceasefire. The Administration 
does not believe there is a military solution to the conflict in Syria, 
and is committed to the UN-led Geneva process to support a political 
solution. UN Security Council Resolution 2254 was reaffirmed by both 
President Trump and Russian President Putin on November 11 in Vietnam.


    Section 5--Question 57.  Do you believe that the United States 
should lead international diplomacy to resolve the Syrian civil war?

    Answer. The Administration believes that the Syrian conflict can 
only be solved by reaching a political solution, and as a result, the 
United States is a leader in that effort. The Administration is firmly 
committed to the UN-led political process in Geneva as laid out in UN 
Security Council Resolution 2254. It demands that all parties to the 
conflict deescalate violence, allow for unhindered humanitarian access, 
requests that the UN Secretary General convene the parties to engage in 
formal negotiations, and encourages all like-minded nations to do the 
same. Additionally, U.S. diplomats engage directly with the Syrian 
opposition, in regional capitals and with like-minded partners to 
support this effort.


    Section 5--Question 58.  If so, how would you approach diplomacy 
with Russia, Syria, Iraq, Saudi Arabia, Turkey and Iran to achieve that 
result?

    Answer. To achieve a political solution to the conflict in Syria, 
it is important to engage both like-minded countries and with those who 
have influence on the Assad regime. The Administration works closely 
with our allies to promote a UN-centered political process and put 
pressure on Russia and Iran to adhere to the conditions enshrined in UN 
Security Resolution (UNSCR) 2254. President Trump and Russian President 
Putin both committed to UNSCR 2254 on November 11 in Vietnam. 
Furthermore, the Administration believes it is imperative to deny Iran 
and the other guarantors of the Astana Process the space to circumvent 
or in any way create a political process parallel to the UN-led Geneva 
talks.


    Section 5--Question 59.  If not, what do you think U.S. objectives 
should be with respect to Syria?

    Answer. The Administration's priority in Syria is the enduring 
defeat of ISIS. In order to defeat ISIS, President Trump has 
implemented an accelerated strategy for the enduring defeat of ISIS and 
its focus on de-escalating the violence in Syria creates the space for 
political resolution. With de-escalation, some of the worst effects of 
this conflict, civilian casualties, displacement, and the growth of 
terrorist groups and Iranian influence, are mitigated. It will be 
critical to continue to work with regional partners to address these 
issues. The Administration supports a unified, stable Syria to which 
all refugees and those displaced by the conflict can safely and 
voluntarily return and in which the rights of all Syrians are 
protected.


    Section 5--Question 60.  As you know, this Committee has 
jurisdiction over legislation authorizing U.S. military action. When 
the Obama administration proposed using military force against the 
Assad regime in response to chemical weapons attacks, it sought 
Congressional authorization. You were still in Congress and you 
supported that measure and urged your colleagues to do the same. You 
wrote at the time that Congress' ``constitutional role is oversight and 
advocacy of effective military action.'' Congress did not authorize 
President Obama to take military action, but the Obama administration 
was able to secure the removal of a large portion of Syria's chemical 
weapons stockpile. Now that President Trump is considering military 
action in response more chemical attacks by the Assad regime in Syria, 
do you believe President Trump is required to obtain Congressional 
authorization prior to initiating that military action?

    Answer. I respect Congress's role in authorizing the use of 
military force and in providing oversight on these issues. While there 
is a longstanding practice of Presidents of both parties exercising the 
President's constitutional authorities to use force in certain 
circumstances without prior Congressional authorization, a 
determination whether any specific use of military force would fall 
within the President's authority would require a fact-specific 
assessment, in consultation with legal experts, at the time the use of 
military force is contemplated. I believe it is very important to 
engage actively with Congress on these issues. If confirmed, I would 
welcome the opportunity to continue discussing with you and other 
members issues relating to the use of force and issues relating to the 
Syrian regime's unacceptable use of chemical weapons.


                               __________

                      (Section 6--Questions 1-43)

    Section 6--Question 1.  Last year the Foreign Minister of Saudi 
Arabia sent a letter to Secretary Tillerson outlining Saudi Arabia's 
commitment toward reducing civilian casualties in Yemen. What specific 
steps has the Saudi military taken, since affirming commitments in the 
letter, to reduce civilian casualties?

    Answer. The Administration places the highest priority on 
preventing civilian casualties, and it has conveyed serious concerns on 
this subject to the Saudi-led Coalition. My understanding is that the 
Coalition utilizes a No Strike List in its target development 
procedures. The Coalition has stopped the use of cluster munitions, 
changed its rules of engagement to incorporate U.S. best practices, and 
increased its use of precision-guided munitions, which could help to 
decrease casualties and collateral damage. The Coalition is aware of 
the importance of adhering to the law of armed conflict. If confirmed, 
I will continue U.S. diplomatic efforts in these areas.


    Section 6--Question 2.  What specific measures has the Trump 
Administration undertaken to assist the Saudi military in reducing 
civilian causalities?

    Answer. The Administration places the highest priority on 
preventing civilian casualties, and it has conveyed serious concerns on 
this subject to the Saudi-led Coalition. I understand that U.S. 
advisors have assisted the Coalition in incorporating a No Strike List 
into its target development procedures. At our urging, the Coalition 
has stopped the use of cluster munitions, changed its rules of 
engagement to incorporate U.S. best practices, and increased its use of 
precision-guided munitions, which could help to decrease casualties and 
collateral damage. I understand that U.S. advisors have provided 
training to senior Saudi military personnel, including on the 
importance of adhering to the law of armed conflict.


    Section 6--Question 3.  What specific measures has the Trump 
Administration undertaken to assist the Saudi government in address the 
humanitarian crisis in Yemen?

    Answer. The Administration continues to urge the Saudi-led 
Coalition to provide unimpeded access for humanitarian assistance and 
commercial goods--including food, fuel, and medicine--to reach Yemen. 
The Administration worked with the Coalition, the World Food Programme 
(WFP), and others to deliver four U.S.-supported WFP cranes to Hudaydah 
port on January 15. The Administration is working with Saudi Arabia on 
its Yemen Comprehensive Humanitarian Operations plan to ensure that the 
plan is responsive to the needs of Yemenis. If confirmed, I will urge 
Saudi Arabia to work closely with the United Nations and humanitarian 
actors to improve humanitarian conditions.


    Section 6--Question 4.  Is there a military solution to the 
conflict in Yemen? If the answer is no, what specific policy changes 
will you recommend to the President to move toward a negotiated end to 
the conflict in Yemen?

    Answer. The Administration has consistently emphasized the 
importance of a political settlement but the differences between the 
parties to the conflict in Yemen must be resolved directly. If 
confirmed, I look forward to working closely with the new UN Envoy to 
advance a political solution in Yemen. The UN Envoy has the difficult 
task of developing a balanced framework to guide future negotiations 
and a political process. If confirmed, I will contribute U.S. 
expertise, and leadership to this effort. If confirmed, I will work 
closely with regional partners including Saudi Arabia, the UAE, and 
Oman to generate progress.


    Section 6--Question 5.  While there are some signs of reform in 
Saudi Arabia under the leadership of Crown Prince Muhammed bin Salman, 
arbitrary arrests, trials, and convictions of peaceful dissidents have 
not stopped or changed. Dozens of human rights defenders and activists 
are serving long prison sentences for criticizing authorities or 
advocating political and rights reforms, including Raif Badawi, a 
blogger who was sentenced for 10 years in prison and 1000 lashes for 
publishing a liberal blog. Authorities also continue to discriminate 
against women and religious minorities and over the last year have 
initiated a wave of arrests of clerics and others in what appears to 
have been a coordinated crackdown on dissent. What steps would you 
recommend, of confirmed, to highlight the need for genuine reform to 
also include space for peaceful dissent?

    Answer. I understand that human rights issues are part of the 
Department's conversations with the Saudi government, and U.S. 
officials routinely encourage Saudi Arabia to recognize and respect the 
rights of its citizens to exercise basic freedoms. If confirmed, I will 
encourage Saudi Arabia to ensure fair and transparent judicial 
proceedings, and to afford all necessary legal and juridical guarantees 
to protect the rule of law and fundamental human rights of all citizens 
and residents.


    Section 6--Question 6.  What support will you provide--both 
technical and diplomatic--if confirmed, to help the Saudis build a 
viable system based on the rule of law?

    Answer. I understand that the Department has raised concerns about 
treatment of detainees and legal procedures that do not meet 
international due process and fair trial standards. If confirmed, I 
will encourage the Government of Saudi Arabia to ensure fair and 
transparent judicial proceedings, and to afford all necessary legal and 
juridical guarantees to protect the rule of law and fundamental human 
rights of all citizens and residents.


    Section 6--Question 7.  Will you commit to specifically raise the 
ongoing imprisonment of Raif Badawi?

    Answer. I understand that human rights issues are included in the 
Department's conversations with the Saudi government. It is my 
understanding that Mr. Badawi's case is raised frequently. If 
confirmed, I will continue to raise concerns with the Saudi government.


    Section 6--Question 8.  It is U.S. policy to maintain and enhance 
Israel's qualitative military edge (QME)--effectively, Israel's ability 
to defend itself, by itself, against any threat or potential 
combination of threats. Given the growing instability among Israel's 
neighbors and the region overall, and given how some of Israel's 
neighbors are looking to improve their defensive capabilities, the U.S. 
commitment to Israel's QME is of upmost importance. If confirmed, will 
you make ensuring Israel's QME is maintained a constant priority?

    Answer. Yes. Israel's security is paramount to U.S. foreign policy 
in the Middle East, and is something I strongly believe in. With the 
support of sustained U.S. security assistance, Israel has developed one 
of the most advanced militaries in the world. If confirmed, I would 
ensure the United States remains committed, consistent with its 
statutory requirement and longstanding policy, to ensuring Israel 
maintains its qualitative military edge.


    Section 6--Question 9.  Will you ensure our military cooperation 
and arms sales to the region are always weighed against their impact on 
Israel's QME?

    Answer. Yes. If confirmed, in considering our military cooperation 
and arms sales to the region, I will ensure the United States continues 
to protect Israel's qualitative military edge.


    Section 6--Question 10.  Under what conditions should the United 
States continue to support the Lebanese Armed Forces?

    Answer. The Lebanese Armed Forces (LAF) are a critical 
counterterrorism partner that successfully combats ISIS and al-Qa'ida. 
If confirmed, I will ensure future U.S. assistance to the LAF continues 
to serve our objectives, including enabling the LAF to reinforce 
Lebanon's sovereignty and secure its borders, counter internal threats 
and further the development of legitimate state institutions. This 
assistance undermines Hizballah's false narrative as a guarantor of 
Lebanon's security as well as its attempts to undercut the Lebanese 
central government. If confirmed, I will also ensure that assistance to 
the LAF remains premised on its compliance with end use monitoring 
requirements for U.S. government-provided equipment.


    Section 6--Question 11.  When was the last time the U.S. was unable 
to provide security assistance to a particular unit within the NEA 
region or Turkey due to Leahy vetting?

    Answer. I understand the last time the Department denied security 
assistance to a unit in the NEA region due to Leahy vetting was in 
February 2018. The Department denied a request for security assistance 
based on Leahy vetting concerns to a Turkish unit in 2015, according to 
Department records.


    Section 6--Question 12.  Please provide details on the unit, why 
they were denied assistance, when assistance was resumed and the 
reasoning for that resumption.

    Answer. I understand that the Department denied assistance training 
to a tribal militia unit in Iraq due to derogatory information 
pertaining to the unit's commander, and that the United States has not 
extended security assistance to the unit since then. I also understand 
that the Department denied assistance to a Turkish police unit in 2015 
due to a credible allegation that the Turkish unit's commander was 
involved in torture and extrajudicial killing. The United States has 
not resumed assistance to the Turkish police unit since that 
allegation.


    Section 6--Question 13.  How has the State Department followed up 
with the unit and country in question to ensure compliance?

    Answer. I understand the Department continues to support the 
efforts of Iraqi and Turkish authorities to enhance their security 
forces' respect for human rights and accountability for human rights 
violations. However, the United States has not resumed support for the 
Turkish police unit since the allegation in 2015.


    Section 6--Question 14.  How has this Leahy determination 
influenced subsequent offers of assistance?

    Answer. I understand that all units credibly implicated in gross 
violations of human rights are prohibited from receiving U.S. security 
assistance until they have been brought to account for those 
violations.


    Section 6--Question 15.  Egypt has renewed efforts to fight the 
insurgency with the ongoing ``Comprehensive Operation Sinai 2018'' 
offensive but human rights groups have raised concerns. What access 
does our Embassy in Cairo have to see how U.S. weapons systems are 
being used in this theater? What actions is the State Department taking 
to maintain access and monitor use of these systems? I welcome the 
Administration's commitment to pressing the Egyptian government to 
downgrade its ties with the DPRK regime and halt activities that allow 
the regime to undertake sanctions-evading activities. As part of this 
effort with Egypt, some of Egypt's FY17 assistance was withheld. 
However, reports still suggest that despite Egyptian officials' pledges 
to cut military ties to the DPRK, North Korea maintains an Embassy in 
Cairo which some describe as an ``arms bazaar for covert sales of North 
Korean missiles and cut-price Soviet-era military hardware.'' Just last 
month, in the FY2018 Omnibus, Congress has called for an assessment of 
Egypt's compliance with the UN arms embargo on the DPRK. Does the 
Administration assess that there has been a significant change in the 
Egypt-North Korea relationship?

    Answer. Egypt launched a counterterrorism operation in February 
targeting ISIS-affiliated militants in Sinai. The United States has 
urged Egypt to adopt a comprehensive approach and ensure civilian 
populations are protected. Egypt limits outside access to the area, 
apart from official travel to Multinational Force and Observers 
facilities. I will press for greater access, if confirmed. Reducing the 
threat from the DPRK is among the highest priorities for the 
Administration, and if confirmed, I will stress that Egypt must comply 
with its international obligations. I understand that lack of progress 
in response to U.S. concerns contributed to Secretary Tillerson's 
decision to withhold $195 million in FY 2016 Foreign Military Funds. If 
confirmed, I would be happy to discuss my assessment of the situation 
in a classified setting.


    Section 6--Question 16.  Can you confirm to this Committee that 
assertions by the 26 January 2018 Report to the UN Security Council of 
the Panel of Experts on Yemen are correct? Is CIA aware of any credible 
information to substantiate these allegations?

    Answer. I am aware of the UN Panel of Experts on Yemen report, to 
include the report's allegations about UAE's conduct in Yemen. Should 
CIA, in the course of its foreign intelligence collection activity, 
learn of Emirati involvement in human rights violations, CIA would 
raise the matter with the Emirati services. CIA would also continue to 
monitor intelligence as well as open source reporting on any potential 
human rights abuses. As a standing practice, CIA also takes into 
consideration the Department of State's Annual Human Rights Report for 
each country.


    Section 6--Question 17.  What action has CIA undertaken to 
investigate these allegations? What further actions will you undertake 
if you are confirmed as Secretary of State?

    Answer. A country's assurances are a valuable tool for ensuring any 
possible violations of human rights are mitigated. The UAE likely 
treats assurances it provides the United States government on any 
subject as an important matter.


    Section 6--Question 18.  If these allegations are confirmed or seen 
as credible, in whole or in part, what actions will you take if you are 
confirmed as Secretary of State to ensure a full accounting by the UAE 
of these practices; their immediate termination; amelioration and 
redress, including allowing the Red Cross into these Centers and 
accounting for and humane treatment of detainees that have disappeared?

    Answer. If confirmed, I will urge the UAE government to conduct a 
thorough investigation of these practices, to include allowing the 
International Committee of the Red Cross to have regular access to 
these centers. I will make clear the importance of adherence to the law 
of armed conflict, including the requirement to treat detainees 
humanely, and I will request assurances from the UAE government that 
they will do so.


    Section 6--Question 19.  The Bahraini government continues to 
struggle in addressing a restive domestic population and has largely 
failed to address the legitimate economic and political grievances of 
its varied citizenry. In the last year alone, according to Human Rights 
Watch as well as the U.S. State Department human rights country report, 
Bahrain's government continues to target for harassment, arrest and 
jailing without sufficient due process the political opposition, 
peaceful dissidents, and other activists who criticize the government's 
action. Repressive tactics against free speech and assembly continue, 
as do low-scale protests in mostly Shi'a neighborhoods. Political 
organizations and newspapers have been shut down by the government. 
Meanwhile, the political negotiation process that surrounded the 2011 
uprising is non-existent, and the risk to Bahraini security forces and 
the threat of Iranian support to violent fringe groups inside Bahrain 
also continues to grow. What is the United States' current policy 
towards Bahrain domestic political challenges?

    Answer. These are Bahraini challenges that will require Bahraini 
solutions, but Bahrain's partners can also be supportive of the 
process. If confirmed, I will encourage reform, reconciliation, and 
respect for human rights in Bahrain, and these issues will be at the 
center of the Department's engagement with the government and people of 
Bahrain.


    Section 6--Question 20.  Do you personally believe there is value 
in engaging proactively the Bahraini government regarding its 
commitments since the 2011 uprising to address domestic political and 
economic grievances?

    Answer. I understand that the Department has regularly engaged the 
Bahraini government on its commitments, including but not limited to 
those specified in the Bahrain Independent Commission of Inquiry. If 
confirmed, I will review our strategy and determine how it should adapt 
and evolve.


    Section 6--Question 21.  If confirmed, how will you direct the 
Department of State to prioritize these issues, while balancing other 
areas of cooperation with Bahrain?

    Answer. The operational and logistical support that Bahrain 
provides our military is essential to the success of the campaign to 
defeat ISIS and enables our Navy to lead a 31-country international 
coalition that counters piracy, drug trafficking, and terrorism across 
2.5 million square miles of ocean and seas. Bahrain faces persistent 
threats from Iran, including Iran's training and supply of lethal aid 
to individuals and groups targeting the government and security forces. 
If confirmed, I will work with the Department of Defense to support 
Bahrain's armed forces to address shared threats. I recognize Bahrain's 
long-term stability and security depend on it achieving political 
reconciliation and upholding commitments to universal human rights.


    Section 6--Question 22.  Should the U.S. continue arms sales to 
Bahrain absent any meaningful or credible progress on political and 
economic reform issues?

    Answer. Bahrain is an important U.S. partner. Our relationship is 
built on common interests, including joint efforts to counter violent 
extremism, promote regional security, and confront the threat from 
Iran. This cooperation with Bahrain is paired with a clear 
understanding that Bahrain's own long-term stability and security 
depend on it achieving political reconciliation and upholding 
commitments to universal human rights. If confirmed, I will explore 
ways to strengthen our security partnership with Bahrain while also 
urging credible progress on reforms.


    Section 6--Question 23.  Saudi Arabia and the UAE lead the blockade 
against Qatar. A fractured GCC exposes the region to further malign 
Iranian influence, which is not in the U.S. or Gulf security interests. 
Yet, it appears that the Saudi and Emirati government not only ignore, 
but at times undermine, U.S. efforts to move forward with a resolution. 
What steps are you prepared to take, if confirmed, in order to end the 
blockade and rebuild Gulf ties?

    Answer. If confirmed, I will support President Trump's personal 
engagement to resolve the dispute. A resolution is in the interests of 
the United States, Egypt, and the Gulf states. A united Gulf 
Cooperation Council should focus on degrading Iranian malign influence 
and terrorism. If confirmed, I will support Kuwait's efforts to mediate 
the dispute, urge the parties to the negotiating table, and call for an 
end to provocative or escalatory rhetoric. Ceasing public attacks is a 
crucial first step in de-escalating the dispute to create the 
conditions for productive negotiations.


    Section 6--Question 24.  What specific steps should be on the table 
in order to move all parties toward the negotiating table?

    Answer. The United States should continue to support Kuwait's 
mediation efforts and should support any mechanism the parties agree 
upon to start dialogue and come to a mutual understanding of their 
concerns and how to resolve them. The United States should also 
continue to urge the parties to cease attacks in the media to help 
create conditions for productive negotiations.


    Section 6--Question 25.  Do you believe that the blockade against 
Qatar should be deescalated?

    Answer. Yes, de-escalation is an essential first step to resolving 
the dispute, which is a priority for the President. If confirmed, I 
will urge the Gulf states and Egypt to send a clear message they are 
ready for dialogue. I will urge them to take other steps including 
restoration of diplomatic relations, re-opening borders and airspace, 
and permitting travel for nationals on both sides of the dispute.


    Section 6--Question 26.  Are you concerned by growing Saudi and 
Emirati cooperation with Russia?

    Answer. If confirmed, I will engage the leaders of both countries 
to caution that Russia is an unreliable partner. Russia does not live 
up to its stated international agreements related to Syria, and Russia 
often plays a spoiler role, complicating multilateral diplomatic 
initiatives aimed at conflict resolution.


    Section 6--Question 27.  Would you characterize Gulf engagement 
with Russia as productive or counter-productive with respect to ending 
conflicts across the region?

    Answer. Russia's support for Assad, its relationship with Iran, and 
its false statements about U.S. and Coalition links to ISIS in Syria 
pose challenges to resolving the conflict in Syria. If confirmed, I 
will encourage the Gulf countries to press Russia to adhere to its 
international commitments related to Syria, starting with UN Security 
Council resolution 2254 and will work with the Gulf countries to convey 
a firm response to Moscow's destabilizing activities in the region.


    Section 6--Question 28.  Do you believe that the Gulf countries 
could take steps to join efforts with the U.S. and Europe in isolating 
Russia diplomatically, or punishing Russia economically, or its 
destabilizing behavior in the Middle East?

    Answer. Our partners in the Gulf can play an important diplomatic 
and economic role in preventing and countering Russian aggressive 
behavior. If confirmed, I will work closely with our allies and 
partners to push back against the full spectrum of threats posed by 
Russia.


    Section 6--Question 29.  If so, what specific steps do you 
recommend?

    Answer. Russia's destabilizing role in the Middle East is centered 
on its support for the Assad regime and support for Iran. If confirmed, 
I will work with Gulf partners to counter Iran's malign influence, and 
to find a sustainable political solution to Syria.


    Section 6--Question 30.  The UN has warned that Libya suffers under 
``an economic system of predation'' by criminal networks, and corrupt 
officials and recently documented and condemned ``appalling abuses and 
violations'' of human rights by Libyan armed groups, including some 
armed groups affiliated with the U.S.-backed Government of National 
Accord. What evidence does the Department of State have that confirms 
or refutes these claims and reports?

    Answer. It is my understanding the Department shares its assessment 
of human rights conditions publicly and documents violations in the 
annual Human Rights Reports. I understand Department officials 
regularly engage Libyan leaders on concerns about human rights abuses, 
including those committed by various Libyan armed groups. If confirmed, 
I will monitor the human rights situation in Libya.


    Section 6--Question 31.  What steps is the Administration taking to 
identify and hold to account prominent individuals involved in criminal 
activity, the exploitation of public funds, public corruption, and 
human rights violations in Libya?

    Answer. In February, the Administration imposed sanctions on 
individuals and entities in an international criminal network smuggling 
petroleum products out of Libya, using the authorities in Executive 
Order 13726. I understand the Department monitors human rights 
conditions and documents violations in the annual Human Rights Reports. 
It is my understanding that Department officials raise human rights 
concerns with Libya's leaders and urge them to hold perpetrators of 
abuses accountable. If confirmed, I will ensure the Department 
continues this practice.


    Section 6--Question 32.  What safeguards are in place to ensure 
that individuals and entities involved in human rights violations and 
economic crimes do not exploit, benefit from, or participate in U.S.-
funded programs?

    Answer. It is my understanding that the Department carefully vets 
potential participants in U.S.-funded programs, including security 
force units, as required by the Leahy Law.


    Section 6--Question 33.  What specific criteria will you use to 
evaluate options for the return of U.S. diplomats to Libya on a full-
time basis?

    Answer. It is my understanding that the Department of State 
continues to conduct appropriate planning for resuming full-time 
operations in Libya, when security conditions permit. If confirmed, I 
will seek the input of Diplomatic Security and Management professionals 
to ensure the necessary logistical and security arrangements are in 
place before making a decision to resume operations for U.S. Embassy 
Tripoli.


    Section 6--Question 34.  What specific logistical and security 
arrangements need to be in place to affect such a return?

    Answer. If confirmed, before making a decision to resume operations 
for U.S. Embassy Tripoli, I would seek the input of Diplomatic Security 
and Management professionals to ensure that the necessary logistical 
and security arrangements are in place and that security conditions 
permit.


    Section 6--Question 35.  Given those criteria and arrangements, 
when might such a return occur?

    Answer. I understand that the Department would need to carefully 
evaluate the security and political conditions in Libya and put in 
place the necessary logistical and security arrangements to allow for 
the safe resumption of operations for U.S. Embassy Tripoli.


    Section 6--Question 36.  Will you, if confirmed, work with other 
relevant U.S. government agencies to achieve the extradition from 
Turkey of members of Turkish President Erdogan's security detail who 
have been charged in the U.S. courts with committing felony assaults 
against peaceful protesters in May 2017 in Washington, DC?

    Answer. The conduct of Turkish security personnel last May was 
deeply disturbing. I understand the Department has raised its concerns 
about these events publicly and directly at the highest levels with the 
Turkish government, and if confirmed, I would continue to do so. 
Holding the responsible individuals accountable is of the utmost 
importance. I refer you to the Department of Justice for further 
information on the legal cases.


    Section 6--Question 37.  New START Treaty: This past month, the 
United States verified that Russia meet the central limitation on 
strategic delivery systems and nuclear warheads of the New START 
Treaty. Senior U.S. military officials in Congressional testimony have 
stated that New START as a bilateral, verifiable arms control 
agreements is essential to the U.S. ability to provide an effective 
deterrent. Do you believe that New START contributes to U.S. national 
security?

    Answer. Yes. I believe the Treaty contributes to preserving 
strategic stability between the United States and Russia and is in the 
national security interest of the United States. New START's 
verification regime, which includes short-notice, on-site inspections 
at Treaty-related bases and facilities, permits the United States to 
verify information about Russia's strategic nuclear arsenal.


    Section 6--Question 38.  Do you believe New START should be 
extended for another five years, as allowed by the treaty, if Russia 
continues to comply with the treaty?

    Answer. My understanding is that the Administration will continue 
to fully implement New START. As the 2018 Nuclear Posture Review 
states, the United States is willing to engage in a prudent arms 
control agenda, and will seek arms control agreements that enhance 
security, and are verifiable and enforceable. If confirmed, I will 
consider next steps related to the New START Treaty at the appropriate 
time, taking this into account.


    Section 6--Question 39.  Saudi Nuclear Cooperation Agreement: The 
United States is currently pursuing a nuclear cooperation agreement 
with Saudi Arabia after the kingdom announced plans to build two and 
possible more civilian nuclear reactors. During an interview with CBS, 
Saudi Crown Prince Muhammad bin Salman said ``Saudi Arabia does not 
want to acquire any nuclear bomb, but without a doubt if Iran developed 
a nuclear bomb, we will follow suit as soon as possible.'' If actually 
implemented this statement would create a dangerous precedent where 
countries could set aside their NPT obligations if a regional rival 
developed nuclear weapons What is the administration's overall plan for 
preventing civilian nuclear programs in the Middle East from being used 
to pursue a nuclear arsenal?

    Answer. As I told the Committee during the hearing, I support the 
gold standard in U.S. 123 agreements. The United States has significant 
strategic, commercial, and nonproliferation incentives to conclude a 
123 agreement with Saudi Arabia. Such an agreement would provide 
substantial economic opportunities for U.S. firms and ensure the Saudi 
nuclear power program is subject to the highest nonproliferation, 
safety, and security standards. In the absence of a 123 agreement, U.S. 
firms will lose the opportunity to compete and will likely be replaced 
by state-owned enterprises from other countries with lower 
nonproliferation standards.


    Section 6--Question 40.  Will the United States sign an agreement 
with Saudi Arabia if it refuses to implement the IAEA Additional 
Protocol?

    Answer. As I told the Committee during the hearing, I support the 
gold standard in U.S. 123 agreements. The United States has significant 
strategic, commercial, and nonproliferation incentives to conclude a 
123 agreement with Saudi Arabia. Such an agreement would provide 
substantial economic opportunities for U.S. firms and ensure the Saudi 
nuclear power program is subject to the highest nonproliferation, 
safety, and security standards. In the absence of a 123 agreement, U.S. 
firms will lose the opportunity to compete and will likely be replaced 
by state-owned enterprises from other countries with lower 
nonproliferation standards.


    Section 6--Question 41.  Does Saudi Arabia possess the nuclear 
material and technology to produce a nuclear bomb?

    Answer. Not to the best of my personal knowledge.


    Section 6--Question 42.  If Iran developed a nuclear weapon would 
Saudi Arabia seek to purchase a weapon from another nuclear armed 
states such as Pakistan? Does Saudi Arabia have a formal or informal 
agreement with Pakistan to provide them with a nuclear weapon?

    Answer. Saudi Arabia is a party to the Nuclear Nonproliferation 
Treaty and a security partner of the United States. It has committed to 
never acquire nuclear weapons, and to apply comprehensive IAEA 
safeguards to all peaceful nuclear activities. If confirmed, I will 
ensure that Saudi Arabia continues to abide by these important 
nonproliferation obligations.


    Section 6--Question 43.  Saudi Arabia Atomic Energy Plans: Saudi 
Arabia in the National Policy for Atomic Energy Program released on 
March 13, 2018 says it will seek the ``exploitation of nuclear 
materials, especially uranium, which is locally available.'' Saudi 
Arabia interest in pursuing uranium mining and its industries is one of 
the main reasons they insist any nuclear cooperation agreement allow 
them to pursue enrichment and reprocessing. Does Saudi Arabia possess 
sufficient uranium deposits for a commercial viable program to fuel its 
reactors or to competitively enter the international export market?

    Answer. My understanding is that Saudi Arabia possesses some 
domestic natural uranium reserves, the commercial viability of which 
remains unclear, given that natural uranium is readily available on the 
international market. The Kingdom is currently in the process of 
exploring and documenting its uranium reserves, which will provide 
greater clarity regarding their commercial potential. The United States 
has a longstanding policy of seeking to limit the spread of enrichment 
and reprocessing technologies around the world, including in the Middle 
East. If confirmed, I will strongly support that policy.


                               __________

                      (Section 7--Questions 1-46)

    Section 7--Question 1.  North Korea: Since President Trump took 
office North Korea has conducted three ICBM tests (which it had never 
done before) and their largest nuclear test which some experts have 
stated was a hydrogen bomb. In your role as CIA Director you have seen 
all the intelligence about North Korea nuclear and ballistic missile 
programs, would you say over the last twelve months the threat to the 
United States from North Korea has increased, decreased, or stayed the 
same?

    Answer. As I said in my testimony, North Korea poses a nuclear 
threat to the United States, our citizens, and our allies. I believe 
this threat has increased over the past year--it has also increased 
over the past number of years--as the North conducted a series of long-
range missile tests, including ICBM launches. The North also continued 
its underground nuclear testing program. Together, these two efforts 
have advanced Pyongyang's capabilities to deliver nuclear weapons to 
the region and to the continental United States. They also have 
increased Kim Jong Un's confidence that he can put us and our allies at 
risk.


    Section 7--Question 2.  How meaningful is the proposed test 
moratorium North Korea has proposed given their declaration after their 
last IBCM test that ``we have finally realized the great historic cause 
of completing the state nuclear force''? Isn't North Korea beginning 
these talks from a greatly strengthened position due to the 
technological breakthroughs it has achieved over the last 12 months?

    Answer. The pressure campaign the Administration has led is making 
North Korea's current position increasingly untenable and is one of the 
main reasons the regime is seeking negotiations. While our goal remains 
denuclearization, a testing moratorium could be an important first step 
on that path.


    Section 7--Question 3.  INF Treaty: The Nuclear Posture Review 
(NPR) calls for the development of several new nuclear systems 
including a new nuclear warhead for our submarine forces and a sea-
launched cruise missile partially as a response to Russia's INF 
violation. However, NPR did not mention the new ground launched cruise 
missile (GLCM) which was announced in December as part of the United 
States review of its INF policy. Does the Administration still believe 
a ground launch cruise missile, which if deployed would be a violation 
of the INF treaty, is still an appropriate and necessary response to 
Russia's INF violation?

    Answer. I understand the Administration's integrated strategy of 
diplomatic, economic, and military measures includes pursuing INF 
Treaty-compliant research and development on a conventional, 
intermediate-range, ground-launched missile to change Russia's calculus 
and enable the United States to defend ourselves and our allies should 
Russia not return to compliance. The purpose is to make clear to Russia 
that it will be less secure by persisting in its violation, not more. 
The Administration remains committed to the INF Treaty and seeks to 
return Russia to full and verifiable compliance. The United States is 
prepared to cease such research and development activities if Russia 
returns to full and verifiable compliance with its INF Treaty 
obligations.


    Section 7--Question 4.  Which countries in Europe has the United 
States identified as possible location for the new GLCM?

    Answer. I believe it is premature to discuss possible basing 
locations for a potential new U.S. conventional, intermediate-range, 
ground-launched missile. Current U.S. research and development is 
compliant with the Intermediate-Range Nuclear Forces (INF) Treaty. The 
United States is prepared to cease such research and development 
activities if Russia returns to full and verifiable compliance with its 
INF Treaty obligations. The Administration is cooperating with and 
keeping allies apprised of its efforts to seek Russia's return to full 
and verifiable compliance.


    Section 7--Question 5.  Arms sales are a critical part of U.S. 
foreign and security policy, the oversight of which is solely within 
the SFRC's jurisdiction. We have seen in the last two years a 
significantly heightened scrutiny in the Senate of arms sales to 
certain countries in including three votes on resolutions of 
disapproval of specific sales. Will you work closely and proactively 
with this Committee on proposed arms sales to fully address any 
concerns we may have?

    Answer. Yes.


    Section 7--Question 6.  There is a well-established and mutually-
beneficial informal consultative process on proposed arms sales between 
the SFRC and the Department of State. This process has existed for 
decades, and has enabled both the Committee and State to express 
concerns, answer questions, and address problems with proposed sales, 
before these problems turn into public disputes and Senate Floor votes 
on resolutions of disapproval. Will you continue this consultative 
process as it now exists?

    Answer. Yes.


    Section 7--Question 7.  It is crucial for the Bureau of Democracy, 
Human Rights and Labor, or DRL, to be involved in reviewing both 
proposed arms sales to ensure that this crucial form of U.S. Security 
Assistance is not undermining U.S. policies and objectives to promote 
human rights abroad. Will you commit that DRL will be involved in 
reviewing all arms sales cases in which they have human rights concerns 
regarding the recipient country?

    Answer. Human rights is a key criterion in considering arms 
transfers as reflected in U.S. law and Presidential Guidance. As such, 
I believe that DRL should play a central role in arms sales reviews, 
and, if confirmed, will maintain DRL's role in that process.


    Section 7--Question .8  Do you commit to giving DRL equal weight to 
the recommendations of the regional bureaus and Political-Military 
Affairs Bureau regarding all such cases?

    Answer. Both U.S. law and Presidential Guidance require that human 
rights be a key criterion when considering any arms transfer. If 
confirmed, I will ensure that DRL maintains a central role in arms 
sales reviews.


    Section 7--Question 9.  If necessary, will you grant DRL direct 
access to you to make a case for denial or modification of a sale for 
which they have concerns?

    Answer. DRL is an essential part of the arms transfer process, and 
human rights is a key criteria in arms transfer decisions by both U.S. 
law and Presidential Guidance. If confirmed, I will ensure DRL 
continues to play its essential role in the review process.


    Section 7--Question 10.  I understand that State supports 
transferring control of lethal semiautomatic weapons and sniper rifles 
to the Commerce department, apparently in the belief that these 
dangerous weapons have somehow become less harmful. This move would not 
only subject these lethal weapons to less-stringent controls, but also 
conveniently remove them from being subject to Congressional review and 
disapproval--despite Congress's action in 2002 to subject them to 
greater oversight than tanks and aircraft. You may argue that State 
will still be able to intervene in proposed exports; to that I point 
out that State also proposed the sale of 27,000 assault weapons to the 
Philippine national police--who are conducting summary executions in 
the streets--and semiautomatic pistols to the same Turkish thugs who 
beat peaceful protestors in Washington last year--both of which were 
stopped only by the action of the Ranking Member, so I'm not reassured 
that State will intervene. Why does State believe that these weapons, 
which are much more likely to be misused--including being susceptible 
for transfer to terrorist and criminal networks--need to be subject to 
export requirements, in law and in regulation, than other lethal arms 
on the U.S. Munitions List?

    Answer. If confirmed, I commit to supporting policies and proposals 
that further U.S. national security interests, including human rights. 
If confirmed, I would closely study the status of this issue and seek 
the advice of State Department advisors.


    Section 7--Question 11.  Since this transfer will remove these 
items from the AECA statutory Congressional review process, including 
the informal review processes of long-standing, why does State believe 
that less Congressional oversight over the export of these weapons is 
justified?

    Answer. I understand the rules transferring control of firearms and 
related munitions from the Department of State to the Department of 
Commerce, if published, would be published first as proposed rules. If 
confirmed, and upon publication of the rules, I will look forward to 
receiving Congress's views, and those of the public, on this matter.


    Section 7--Question 12.  Ambassadorial Knowledge/Veto over Covert/
Special Operations: Do you believe that the U.S. Chief of Mission 
should be informed of all operations by covert intelligence and Special 
Operations personnel in their country of responsibility, as well as any 
proposals by the DoD to transfer funds to foreign persons or entities 
in that country?

    Answer. Yes. Chiefs of Mission have full responsibility for the 
direction, coordination, and supervision of U.S. Government employees 
in their countries of accreditation, except for those employees under 
the command of a U.S. military area commander and other exceptions as 
stated in 22 USC 3927. Consistent with the Foreign Service Act of 1980 
and longstanding executive branch practice, and with limited 
exceptions, Chiefs of Mission are fully and currently informed of 
intelligence activities undertaken in their countries of accreditation.


    Section 7--Question 13.  Do you think they should be able to veto 
any activity that the Chief of Mission believes is inimical to U.S. 
diplomatic policies and efforts? If so, if you are confirmed as 
Secretary of State, will you instruct all Chiefs of Mission to inform 
you about any such activity about which they have concerns?

    Answer. The applicable statutory authority, 22 U.S.C. 3927, states: 
``Under the direction of the President, the chief of mission to a 
foreign country shall have full responsibility for the direction, 
coordination, and supervision of all Government executive branch 
employees in that country.'' Pursuant to the Foreign Service Act of 
1980 and longstanding executive branch practice, chiefs of mission are 
fully and currently informed of intelligence activities undertaken in 
their countries of accreditation, subject to limited exceptions. 
Decisions on the scope of intelligence activities in particular 
countries are informed by the field perspective that chiefs of mission 
and chiefs of station provide, but not all such decisions are made in 
the field. Were the chief of mission and CIA's chief of station in a 
particular country unable to resolve a disagreement as to whether a 
particular intelligence activity should proceed, they could refer that 
disagreement to the Secretary of State and the Director of the CIA for 
resolution, subject when necessary, to the President's guidance.


    Section 7--Question 14.  Countering Russian/Global Propaganda: The 
Department of State under Secretary Tillerson was decidedly 
unenthusiastic about the Congressional statutory requirement for the 
Global Engagement Center to aggressively counter propaganda from other 
countries directed at the United States, especially from Russia. Will 
you continue this tepid policy, or will you exhibit stronger leadership 
in this regard?

    Answer. I share your deep concern about the adverse effects of 
state-sponsored propaganda and disinformation on U.S. national 
security. If confirmed, I will work to appropriately resource the GEC 
so it may carry out its critical mission to counter state-sponsored 
disinformation that undermines U.S. national security interests.


    Section 7--Question 15.  What specific measures will you take to 
fulfill the statutory mandate, especially regarding Russian propaganda 
efforts?

    Answer. If confirmed, I commit to utilizing the up to $20 million 
in additional funds to support the GEC's counter-state mission, 
including countering state-sponsored disinformation that undermines 
U.S. national security interests. I also commit to fully staffing the 
GEC to ensure its ability to carry out its mission.


    Section 7--Question 16.  Turkey's Purchase of the S-400. Turkey's 
President Erdogan has confirmed that Turkey has concluded a deal with 
Russia to purchase the S-400 antimissile system, and that Turkey has 
paid a deposit for the system. This deal is clearly a violation of the 
Countering America's Adversaries Through Sanctions Act (CAATSA), and as 
such, should invoke the appropriate sanctions within that law on 
Turkey. Do you agree that Turkey's purchase of the S-400 would be a 
violation of CAATSA?

    Answer. I share the concerns expressed by many Members of Congress 
about Turkey's possible S-400 acquisition. If confirmed, as the 
Department moves forward on implementing CAATSA, I will make these 
concerns clear to Turkey. I cannot pre-judge a sanctions decision, 
which must be based on all the relevant facts available at the time 
that determination is made. It is my hope that Turkey's leaders will 
make the wise choice to minimize their country's exposure to CAATSA 
sanctions by avoiding the S-400 altogether.


    Section 7--Question 17.  What is the standard for your assessment 
that a purchase of the S-400 by Turkey has in fact occurred?

    Answer. I share Congress's strong opposition to the prospect of 
Turkey procuring the Russian S-400 air defense system. I cannot pre-
judge a sanctions decision, which must be based on all the relevant 
facts available at the time that determination is made. However, I hope 
Turkey's leaders will make the wise choice to minimize their country's 
risk of exposure to CAATSA sanctions by avoiding the S-400 altogether.


    Section 7--Question 18.  One of the sanctions for such a violation 
is the cutoff of the transfer of any arms or arms sales; do you think 
that if Turkey purchases the S-400, arms sales to Turkey, including 
further transfers of the F-35, should be cut-off?

    Answer. I share Congress's strong opposition to the prospect of 
Turkey procuring the Russian S-400 air defense system. I cannot pre-
judge a sanctions decision, which must be based on all the relevant 
facts available at the time that determination is made. If confirmed, I 
will continue to seek to help Turkey find better solutions to address 
its defense needs while also warning of the broader implications of 
purchasing Russian S-400s, including potential consequences for the F-
35 Joint Strike Fighter program and sales of U.S. defense articles.


    Section 7--Question 19.  If Turkey purchases and operates the S-
400, do you believe that would present a technology risk to U.S. 
advanced arms, such as the F-35, in Turkey, through the operation of 
the system and the presence of Russian personnel?

    Answer. I share Congress's concern regarding Turkey's planned 
acquisition of the S-400 system and, if confirmed, would continue to 
make clear to Turkey that it must choose a NATO interoperable system. 
Acquiring the S-400 would raise serious concerns on the risk to U.S. 
technology, requiring the United States to review aspects of our 
defense cooperation with Turkey, including in programs such as the F-
35.


    Section 7--Question 20.  What measures will you take, if confirmed 
as Secretary of State, to persuade Turkey to reject the purchase of the 
S-400? Should further deliveries of the F-35 be suspended as a means of 
leverage on Turkey ?

    Answer. I share Congress's strong opposition to Turkey's 
acquisition of the S-400 and, if confirmed, I would continue to make 
clear to Turkey that it must choose a NATO interoperable system. 
Acquiring the S-400 would raise serious concerns and would require us 
to review certain aspects of our defense cooperation with Turkey. If 
confirmed, I will seek to help Turkey find better solutions to address 
its defense needs while also warning of the broader implications of 
purchasing Russian S-400s, including potential consequences for the F-
35 Joint Strike Fighter program and sales of U.S. defense articles.


    Section 7--Question 21.  Human Rights Report: Recently there were 
media reports that the State Department's annual human rights report 
will no longer highlight the full range of abuses and human rights 
violations experienced most especially by women, girls, LGBTQI people, 
and other marginalized peoples around the world. Human rights are 
indivisible and universal. Threats to the human rights of women and 
LGBTQI people cannot be stricken from the report without sending a 
broader message to abusive governments that the United States will not 
hold them to account for such violations. Scaling back discussion of 
discrimination and women's health issues, such as access to 
contraception and abortion, undermines the credibility of the Human 
Rights Reports as a whole and signals to the rest of the world that the 
United States does not value the human rights of all people. Can you 
assure us today that if you are confirmed as Secretary of State 
reproductive rights and LGBTQ rights will be included fully, without 
censorship or undue political influence, in the annual Human Rights 
Report?

    Answer. My job at the CIA has been to deliver world-class 
intelligence, data, and facts to help inform senior policy makers in 
America. If confirmed, I will comply with statutory reporting 
requirements, and I intend to deliver world-class human rights reports, 
consistent with statutory requirements.


    Section 7--Question 22.  LGBTQI/Brownback: During his confirmation 
hearing to become U.S. ambassador at large for international religious 
freedom, Sam Brownback refused to state that he believes laws that 
criminalize LGBTQI people are always unjustified and would not say 
whether religious freedom could be used to justify laws that imprison 
or execute people just for being LGBTQI. As governor of your home state 
of Kansas, Brownback issued an executive order similar to the bill you 
co-sponsored allowing non-profits to refuse to serve same-sex couples. 
Do you believe criminalizing LGBTQI people for religious reasons would 
be justified?

    Answer. No.


    Section 7--Question 23.  Do you believe that an organization 
receiving foreign aid should be allowed to deny programming or services 
to someone who is LGBTQI if they assert a religious reason for doing 
so?

    Answer. As I stated during my testimony, I deeply believe that 
LGBTQI persons have every right that every other person in the world 
has. If confirmed, I would advocate for the fundamental dignity of 
every human being around the world without regard to race, gender, 
religion, sexual orientation, or gender identity.


    Section 7--Question 24.  LGBTQI Record: As a Congressman, you 
repeatedly opposed the repeal of Don't Ask, Don't Tell, stating, ``when 
you're in the army, you give up a few of your rights.'' You also stated 
that ``we cannot use military to promote social ideas that do not 
reflect the values of our nation.'' Do you believe that our LGBTQ 
service members should be able to serve openly in the military? Do you 
believe that LGBTQ foreign service officers should be able to serve 
openly?

    Answer. As I stated in my testimony, I deeply believe that LGBTQ 
persons have every right that every other person in the world would 
have. Additionally, as the CIA Director, I have honored and valued 
every single CIA officer regardless of race, color, gender, age, or 
sexual orientation, and have treated every one of our officers with 
dignity and respect. If confirmed to be Secretary of State, I intend to 
lead the organization in the same manner.


    Section 7--Question 25.  Human Rights and Democracy: Do you believe 
that advancing women's rights, gender equality, and human rights is an 
important part our foreign policy agenda? As Secretary, how would you 
prioritize these issues within the Department?

    Answer. Yes. As I stated in my testimony, if we do not lead the 
calls for democracy, prosperity, and human rights around the world, it 
is unclear who will. If confirmed, I will ensure that human rights, 
democracy, and the equal treatment of all persons will remain 
fundamental to U.S. foreign policy.


    Section 7--Question 26.  Civil Society space for NGOs is under 
threat around the globe. Governments and regimes are increasingly using 
restrictive registration requirements, indiscriminately applying 
existing legal provisions, and actively impeding the ability of groups 
to operate freely. This growing threat prevents civil society from 
serving as a voice for engaged citizens. If confirmed, what would you 
do as Secretary to promote American values?

    Answer. I believe civil society plays a critical role in 
strengthening government institutions. Partnering with civil society is 
critical to advancing freedom and justice, defending national security, 
fostering economic opportunities for the American people, and asserting 
U.S. leadership and influence. If confirmed, I would continue the State 
Department and USAID's efforts in this area work to advance a more 
secure and prosperous world by helping to support more stable and 
resilient societies that will lead to their own development.


    Section 7--Question 27.  What would you do as Secretary to ensure 
that support for civil society remains a national goal? As Secretary of 
State, will you seek to preserve and strengthen civil society and the 
space in which NGOs can freely operate?

    Answer. I believe civil society and human rights defenders are 
critical to promoting and protecting democracy and human rights. If 
confirmed, I commit to creating an enabling environment for civil 
society and supporting their work to encourage their own governments to 
be more responsive and accountable.


    Section 7--Question 28.  The United States has long promoted global 
human rights, often to help the most marginalized who have relied on 
the U.S. support, while advocating and struggling for their own rights. 
How do you propose to integrate the promotion of these human rights, 
including LGBTI people, women and girls, Muslims and other marginalized 
communities into the work of the State Department?

    Answer. If confirmed, I am committed to defending the human rights 
and dignity of all persons, regardless of race, ethnicity, religion, 
sexual orientation or gender identity. The most vulnerable communities 
and persons will be a priority.


    Section 7--Question 29.  Please articulate how you see the role of 
soft power in fulfilling American diplomatic and development goals 
abroad.

    Answer. American values are one of our country's greatest assets in 
achieving U.S. goals. By promoting our values and our culture through 
soft power tools such as educational exchanges, people-to-people 
engagement, an active social media presence, and international 
broadcasting, we improve our standing with the public, enhance our 
reputation, and bolster our leadership. Public Diplomacy creates the 
enabling environment that allows foreign leaders to act in American 
interests.


    Section 7--Question 30.  Do you see the Department of State as a 
co-equal Member of the national security, with a distinct role in the 
promotion of human rights?

    Answer. Yes. The Department of State has a very important role in 
the promotion of human rights, which is in the best interest of the 
United States.


    Section 7--Question 31.  Human Rights Defenders: Human Rights 
Defenders across the world face a growing number of threats to their 
safety, including harassment, intimidation, smear campaigns, ill-
treatment, and unlawful detention or even extrajudicial killing. In 
just 2017 over 312 human rights defenders were killed just for doing 
their critical human rights work. At the same time Prisoners of 
Conscience, many of whom are also human rights defenders, are found on 
every continent ranging from environmental activists in Madagascar to 
bloggers in the UAE. As the top diplomat of the Trump Administration to 
the rest of the global community what will you do to strengthen and 
advance the respect for and protection of human and civil rights around 
the world and in particular will you commit raising the cases of 
prisoner of conscience and human rights defenders who are at risk when 
you are visiting other countries publicly and privately?

    Answer. Yes. If confirmed, I will raise human rights and cases with 
counterparts, including when I travel. I firmly commit to defend the 
human rights and dignity of all people, and I will also work to 
strengthen democracy where it exists and promote it where it does not. 
Standing up for human rights is not only a strong personal conviction; 
it is hardwired into who we are as Americans. Promoting human rights is 
also in the best interests of the United States.


    Section 7--Question 32.  Will you implement policies and robustly 
support programs promoting human rights, and undertake specific actions 
directed at countries that detain prisoners of conscience and human 
rights defenders?

    Answer. Yes. If confirmed, I will support human rights programs and 
seek the release of political prisoners. Promoting human rights and 
defending the dignity of all persons is in the best interests of the 
United States.


    Section 7--Question 33.  Refugees: The Administration has said that 
the 45,000 FY 2018 refugee admissions ceiling ``was consistent with'' 
its ``foreign policy goals.'' Please elaborate on how slashing the 
number of refugee admissions is consistent with the State Department's 
foreign policy goals.

    Answer. I understand that the United States continues to operate 
one of the largest refugee resettlement programs in the world, and it 
is consistent with our foreign policy goals of providing resettlement 
opportunities while focusing on assisting refugees as close to their 
home countries as possible.


    Section 7--Question 34.  Many refugees are hosted in developing 
countries, who have taken on a disproportionate share of the burden in 
hosting displaced populations while they have continued to have 
difficulty meeting the needs of their own populations. This has 
resulted in lack of resources to help refugees during their prolonged 
displacement. For example, many displaced children are unable to attend 
school and are missing out on critical years of their educational 
development. Further, many of these host countries are allies of the 
United States. How will you, as Secretary of State, answer to our 
allies who have been shouldering a disproportionate share of the 
burden, while the U.S. draws back its commitment both in contributions 
and leadership?

    Answer. I applaud our allies and refugee-hosting nations for their 
steadfast commitment to assisting those in need. The United States 
plays an important role in providing humanitarian assistance to 
refugees as close to their home countries as possible. U.S. 
humanitarian assistance provides life-saving support, contributes to 
regional stability, and helps establish the conditions for a more 
secure and prosperous world. If confirmed, I will work to ensure that 
the United States continues to be a global leader in providing 
humanitarian assistance to refugees around the world, while strongly 
encouraging other donor countries, regional institutions, development 
actors, and the private sector to provide critical support to refugee-
hosting nations.


    Section 7--Question 35.  As the Heritage Foundation noted in its 
recent study on refugee resettlement, ``resettling refugees is one way 
for the U.S. to exercise global leadership.'' Do you agree or disagree 
with this assertion?

    Answer. I agree that refugee resettlement is one way for the United 
States to exercise global leadership, and the United States remains one 
of the largest resettlement countries in the world.


    Section 7--Question 36.  Do you believe that it is important for 
the United States to continue to serve as a global resettlement leader 
and increase the number of refugees we resettle as part of our response 
to the growing number of humanitarian emergencies around the world?

    Answer. Refugee resettlement is one way for the United States to 
exercise global leadership in response to humanitarian emergencies, and 
the United States remains one of the largest resettlement countries in 
the world.


    Section 7--Question 37.  While the vast majority of the over 22 
million refugees throughout the world will either return voluntarily to 
their home country or be integrated in their country of first asylum, a 
small number of refugees need access to the third durable solution, 
resettlement in a third country. The United Nations High Commissioner 
for Refugees estimates that close to 1.2 million refugees need the key 
durable solution of resettlement in 2018. The U.S. has historically 
been the leader in offering resettlement slots to those families, 
children and individuals who urgently need access to resettlement. Last 
September, President Trump drastically reduced the refugee admissions 
goal for FY 2018 to 45,000, the lowest refugee admissions goal since 
the start of the modern program. Unfortunately, the pace of refugee 
arrivals isn't even on track to meet this severely lowered goal--
perhaps not even reaching half of this goal by the end of the fiscal 
year. What would you do as Secretary of State to ensure the Department 
of State meets the refugee admissions goal of 45,000 refugees this 
fiscal year?

    Answer. As I mentioned in my hearing, I believe America has an 
important role to play in providing assistance to refugees. At the 
current time, it is my understanding that additional vetting procedures 
are enabling departments and agencies to more thoroughly review 
applicants to identify individuals who might pose a risk to public 
safety or national security. I also understand that processing time may 
be slower as departments and agencies implement additional security 
vetting procedures. If confirmed, I look forward to reviewing both our 
humanitarian assistance and refugee resettlement programs.


    Section 7--Question 38.  Now that the Administration has had time 
to review the USRAP and made changes to the multi-step and multi-agency 
vetting process, will you advocate for an increase to the Presidential 
Determination next fiscal year?

    Answer. My understanding is that additional vetting procedures are 
enabling departments and agencies to more thoroughly review refugee 
applicants to identify individuals who might pose a risk to public 
safety or national security. If confirmed, I look forward to 
participating in the process of determining the size and scope of our 
refugee resettlement program for FY 2019 and beyond.


    Section 7--Question 39.  I have refugee constituents in my district 
who are waiting to be reunified with their families through the U.S. 
refugee admission program, and I'm sure when you were in Congress you 
faced similar situations. What can you tell me about the future of this 
lifesaving program and the prospects that my constituents will be 
reunified with their family members?

    Answer. I understand that the Priority Three (P-3) family reunion 
component of the U.S. Refugee Admissions Program is operating normally, 
and refugees are being reunited with their family members in the United 
States. I am aware that the refugee ``follow-to-join'' program was 
paused briefly last October while additional security measures were 
implemented for all nationalities. I understand that full processing of 
follow-to-join cases is ongoing pursuant to new operational guidance.


    Section 7--Question 40.  For decades, the Lautenberg Program has 
provided persecuted religious minorities with a path to resettlement in 
the U.S. This year, an unprecedented percentage of Lautenberg asylum-
seekers are being rejected. In light of the Administration's public 
commitment to aiding persecuted religious minorities, what is your plan 
for continuing the Lautenberg Program?

    Answer. I support President Trump's commitment to helping 
persecuted religious minorities around the world as we are able, and I 
share his support for the Iranian people. If confirmed, I will review 
the Lautenberg Program and consult with the Department of Homeland 
Security and others to determine the best plan for continuing it.


    Section 7--Question 41.  Humanitarian Crisis and Aid: The global 
refugee crisis--a combined population of over 65 million people and 
growing--is badly straining international humanitarian relief. The 
system largely created over 50 years ago is in dire need of reforms 
such as building the capacity of local responders, prioritizing 
conflict prevention, and utilizing more innovative approaches like the 
use of cash-based assistance. How would you deploy these tools to 
increase the impact abroad of U.S. humanitarian assistance?

    Answer. The international community has recognized the need for 
reform of the humanitarian response system. It is my understanding that 
at the World Humanitarian Summit in 2016, the United States joined 
other donors, humanitarian agencies, and organizations in committing to 
a series of reform measures known as ``the Grand Bargain'' to improve 
the effectiveness and efficiency of the humanitarian system. If 
confirmed, I will work to ensure that the United States continues to 
press key partners and other donors to advance broader UN reform 
objectives and enhance the effectiveness and efficiency of humanitarian 
response efforts.


    Section 7--Question 42.  Venezuela is facing a humanitarian crisis 
that has led over 1.2 million people to flee in the last two years. 
This mass exodus is being compared to the flow of Syrians into Western 
Europe and has little precedent in the region. The Council on Foreign 
Relations, Center for Preventative Action, recently published a 
Contingency Planning Memorandum detailing the implications for U.S. 
interests and recommending the U.S help Venezuela's neighbors mitigate 
a refugee crisis by creating a U.S. interagency refugee plan as the 
basis for a larger coordination effort. How does the Department of 
State plan to address the humanitarian situation in Venezuela and what 
possibility is there for resettlement in the U.S.?

    Answer. If confirmed, I will redouble the Department's efforts to 
coordinate a humanitarian assistance response to the Venezuelan crisis, 
including by working with the international community to coordinate 
assistance efforts. While the U.S. government's ability to provide 
direct assistance to the Venezuelan people in their own country is 
limited because of the Maduro regime's refusal to allow humanitarian 
aid into the country, the U.S. government is offering assistance in the 
neighboring countries to which Venezuelans are fleeing. The Department 
has coordinated with UNHCR, the International Organization on 
Migration, and other international organizations to ensure there is a 
comprehensive international response.


    Section 7--Question 43.  Women in Humanitarian Crises: We are 
facing the largest refugee crisis in decades. We know that pregnancy 
related deaths and instances of sexual violence increase significantly 
during these crises. In 2015, the UN estimated that 61 percent of 
maternal deaths took place in humanitarian crises and fragile settings 
where health services were not available to women. However, the State 
Department in April made a baseless determination to withhold funding 
for UNFPA, the leading provider of maternal and reproductive health 
care in humanitarian settings, and the FY19 budget proposal reflects 
this decision. How is the State Department working to ensure the needs 
of women in these crises are being met?

    Answer. If confirmed, I will support the Administration's plans to 
invest in voluntary family-planning programs in developing countries. I 
understand that with the Protecting Life in Global Health Assistance 
Policy in place, the President's Fiscal Year 2019 Budget Request 
includes $302 million in funding for voluntary family planning and 
women's health programs overseas. It is also my understanding that the 
U.S. Government has either reprogramed funding once intended for the 
United Nations Population Fund, or is in the process of finalizing 
plans to make such funds available for voluntary family planning, 
maternal health, and other women's health activities, subject to the 
regular notification procedures of the Committees on Appropriations.


    Section 7--Question 44.  Do you know if anyone at the State 
Department visited UNFPA's programs in China before making the 
determination?

    Answer. It is my understanding that the State Department did not 
send a delegation to visit UNFPA's programs in China in connection with 
the recent determination under the Kemp-Kasten Amendment.


    Section 7--Question 45.  Will you release information about how the 
decision was made?

    Answer. It is my understanding that the State Department provided 
information on the Administration's Kemp-Kasten determination to the 
Congress, including the Senate Foreign Relations Committee, in 2017 and 
2018.


    Section 7--Question 46.  Will you commit to revisiting the 
determination if you find that it was made without a sufficient 
investigation?

    Answer. If confirmed, I will commit to reviewing relevant 
information as required, consistent with the Kemp-Kasten Amendment in 
the annual appropriations act.


                               __________

                      (Section 8--Questions 1-57)

    Section 8--Question 1.  Conflict Prevention: The 2018 Worldwide 
Threat Assessment of the Intelligence Community found that ``poor 
governance, weak national political institutions, economic inequality, 
and the rise of violent non-state actors all undermine states' 
abilities to project authority and elevate the risk of violent--even 
regime-threatening--instability and mass atrocities.'' What will you do 
as Secretary of State to prioritize efforts to address the root causes 
of violent conflict like poor governance, weak political institutions, 
and economic inequality?

    Answer. I believe it is in our national interest to work with 
allies and partners to try to prevent conflict by addressing the root 
causes of violence. Diplomatic efforts to prevent conflict are much 
more effective than engagement after conflict erupts. Tailored U.S. 
foreign assistance can also be an effective means of preventing 
conflict and promoting accountability.


    Section 8--Question 2.  Violence is on the rise for the first time 
since the Cold War. In the last 15 years, nearly half of the world's 
population (covering 53 countries) has been or are now affected by some 
sort of political violence. The international community has borne most 
of the burden of responding to the ramifications of this violence to 
the cost of $13.6 trillion in 2015 alone. Over 80 percent of aid is 
going to meet the needs of people whose lives have been turned upside 
down by conflict. Yet, international assistance only marginally invests 
in addressing the root causes of violence despite reports that every 
dollar spent in peacebuilding saves sixteen dollars in resulting 
humanitarian or military aid expense. What efforts will the State 
Department, under your leadership, undertake to develop infrastructure 
and activate initiatives to prevent the outbreak of violence around the 
world?

    Answer. I believe it is in our national interest to both work to 
address root causes of violence and to provide early warning of 
conflicts to allow us to mobilize diplomatic interventions along with 
our allies and partners. If confirmed, I will lead the State 
Department's efforts to guide and coordinate engagement and assistance 
by U.S. government agencies aimed at preventing conflict.


    Section 8--Question 3.  How does the State Department under your 
leadership intend to use the full scope of diplomatic leverage to 
promote citizen-centric solutions to overseas, recognizing that 
prevention of violence is in the U.S.'s moral, security, and business 
interests?

    Answer. If confirmed, I will ensure that the State Department plays 
the leading role in setting political strategies to prevent and 
mitigate conflict, including through engagement and support of citizen-
centric approaches. More important than dollars spent is having a 
singular, coordinated political strategy that guides engagement and 
assistance by all U.S. government agencies, in coordination with 
international actors. If confirmed, I will also pursue a more 
purposeful division of labor with international donors that optimizes 
our respective strengths and comparative advantages.


    Section 8--Question 4.  Countering Violent Extremism: The National 
Security Strategy notes, ``terrorist organizations present the most 
dangerous terrorist threat to the Nation.'' As the U.S. seeks to 
counter violent extremism, it must ensure that challenges are addressed 
in such a way that they do not simply metastasize and re-emerge in a 
new form and that the root drivers of participation are addressed. What 
do you see as the key strengths of the Department of State in advancing 
the Countering Violent Extremism agenda?

    Answer. If confirmed, I commit to leveraging the State Department's 
countering violent extremism (CVE) efforts to ensure that terrorist 
groups like ISIS cannot re-emerge, reconstitute, or inspire acts of 
terrorism, especially once they have been defeated militarily. I 
believe the State Department's key strength in CVE is its unique 
ability to support partner governments in their efforts to prevent the 
rise of terrorism. If confirmed, I look forward to advancing the State 
Department's CVE work through bilateral and multilateral diplomatic 
channels as well as by helping local actors build resilience to 
terrorist recruitment.


    Section 8--Question 5.  How will you ensure that the Department of 
State's CVE efforts are highly coordinated and contribute to long-term 
strategies to address the drivers and triggers of participation?

    Answer. If confirmed, I am committed to working across the 
interagency to ensure a holistic and sustainable approach to countering 
violent extremism. The U.S. government's collective CVE efforts support 
local partners--including civil society, municipal and community 
leaders, and government entities--to build resilience against terrorist 
radicalization and recruitment. If confirmed, I intend to learn more 
about the State Department's CVE efforts, and I will ensure they are 
coordinated with the interagency to advance effectively the U.S. 
government's strategies to prevent and combat terrorism.


    Section 8--Question 6.  Atrocity Prevention: This week marks Days 
of Remembrance--a time when we as a nation collectively remember the 
victims and survivors of the Holocaust. The world has committed to 
never again allow genocide and mass atrocities to occur, yet atrocities 
continue even today. Besides the moral obligation to end such crimes, 
we've seen the devastating impact of violence spreads beyond national 
borders. Do you believe that preventing mass atrocities is core to U.S. 
national security interests?

    Answer. Addressing the causes and impacts of global instability and 
violent conflict are at the crux of the State Department's work. Mass 
atrocities--large-scale, deliberate violence against civilians--have 
devastating human impacts, and make peace and reconciliation more 
difficult to achieve.


    Section 8--Question 7.  If so, how should the U.S. continue to 
prioritize the prevention and halting of atrocities abroad?

    Answer. If confirmed, I will work to prevent and respond to mass 
atrocities through a whole-of-government approach achieved through 
interagency cooperation. Preventing atrocities involves watching for 
early warning signs and assessing the drivers of risk. It involves 
developing a preventive strategy, engaging allies and partners to 
disincentivize potential perpetrators, supporting efforts to protect 
civilians, ending impunity, and seeking transitional justice. The 
Department of State's strength in addressing mass atrocities lies in 
the on-the-ground presence of U.S. embassies, expeditionary diplomacy, 
relationships with partners, intelligence and analytics capacity, staff 
expertise, programming, and political and economic leverage.


    Section 8--Question 8.  Crises and atrocity crimes do not happen 
overnight. In many cases, the warning signs of violence in Iraq, 
Myanmar, the Democratic Republic of Congo and elsewhere were known well 
before the situations became large-scale crises. If confirmed, do you 
commit to ensuring that the State Department has the adequate resources 
and personnel to monitor for early warning signs of mass atrocities and 
respond to at-risk situations before they devolve into mass killings?

    Answer. Yes, if confirmed, I will support U.S. government efforts 
to prevent atrocities and will make the case to defend the personnel 
and resources the State Department needs.


    Section 8--Question 9.  This Congress, the U.S. Administration, and 
various United Nations bodies have spoken out about mass atrocities 
committed by the Burmese military against Rohingya civilians--an ethnic 
and religious minority group--in Burma. To date, the Burmese military 
and the country's civilian-led government have not allowed full 
unimpeded access to areas where the atrocities have occurred, hampering 
the efforts of the UN-mandated Fact-Finding Mission and other 
independent international investigators. If confirmed, how would you 
commit to pressing for accountability for atrocities against the 
Rohingya and other minority groups in Burma?

    Answer. If confirmed, I will review all available foreign policy 
tools, including the Global Magnitsky Act, and work with likeminded 
countries and international organizations to ensure justice for victims 
and accountability for members of the Burmese security forces and 
others responsible for atrocities and other human rights violations and 
abuses. I will also continue to press the Burmese government to allow 
the UN Fact Finding Mission into Rakhine State and other parts of Burma 
and to cooperate with the UN Special Rapporteur for the Situation of 
Human Rights in Burma and the UN Special Envoy for Burma to be named by 
the UN Secretary General. Finally, I will support State Department 
efforts to investigate and document human rights violations and abuses 
in Burma, which will help to identify perpetrators, uncover patterns of 
abuses and violations, map incidents, and determine the sequence of 
events.


    Section 8--Question 10.  The Syrian conflict just marked its 
seventh year, during which time, we have seen indisputable atrocities 
committed by the Assad regime, it's Russian and Iranian allies, and 
ISIS. The conflict is far from over, and Assad has faced no 
consequences for chemical weapons use, bombardment, torture, and 
outright murder of the Syrian people. The President has expressed the 
need to hold Assad and his allies accountable for their crimes. If 
confirmed, how will you work with European partners to press for third 
party prosecutions and support the Independent Impartial Investigative 
Mechanism?

    Answer. I am confident that the Administration will continue to 
hold the Assad regime accountable, including through mechanisms like 
the IIIM. If confirmed, I will continue to engage European and other 
governments to press for accountability for the use of chemical 
weapons, through all appropriate means, including through the 
Organization for the Prohibition of Chemical Weapons and the United 
Nations Security Council.


    Section 8--Question 11.  Under both the Trump and Obama 
administrations, the State Department determined that the Islamic State 
perpetrated genocide and other crimes against Yezidis, Christians, and 
other religious minorities in northern Iraq. If confirmed, how will you 
work to ensure these communities receive the assistance they need and 
that they see their perpetrators brought to justice?

    Answer. I am deeply concerned about the plight of vulnerable 
religious minorities in Iraq--particularly those communities who faced 
genocide at the hands of ISIS. I understand that there are U.S. 
government-led efforts underway to assist them, and if confirmed, I 
will work to see that such efforts are successful and that those 
communities have the security and stability necessary to revitalize. 
This will complement efforts to promote security, stability, and 
reconciliation for all Iraqis. I will also endeavor to hold those who 
committed this genocide and their supporters accountable.


    Section 8--Question 12.  Civilian Protection: Do you agree that 
while civilian casualties are a tragic and at times unavoidable 
consequence of the use of force, minimizing civilian casualties can 
help further U.S. national interests, particularly in the context of 
counterterrorism and counterinsurgency operations?

    Answer. Yes.


    Section 8--Question 13.  Do you agree that civilian casualties 
should be minimized even if such deaths might be lawful under the laws 
of war or other applicable laws?

    Answer. Yes.


    Section 8--Question 14.  Do you believe that harming innocent 
civilians serves as a recruitment tool for terrorist organizations?

    Answer. Yes.


    Section 8--Question 15.  Did you support the Administration's 
decision to loosen safeguards that protect civilians in its operations 
outside active theaters of hostilities? If yes: (1) why; (2) how do you 
reconcile this with the importance of protecting innocent civilian 
life; and (3) would you support a further loosening of safeguards?

    Answer. The predicate of the question is false. The U.S. government 
continues to take extraordinary measures to minimize harm to civilians. 
The U.S. government is committed to complying with its obligations 
under the law of armed conflict, including rules that address the 
protection of civilians. In addition, U.S. government policy is to 
apply heightened targeting standards that are more protective of 
civilians than are required under the law of armed conflict.


    Section 8--Question 16.  When the State Department receives 
credible reporting about previously undisclosed civilian casualties 
attributable to U.S. operations, what should they do with this 
information? What should the operating agency do with it?

    Answer. My understanding is that the State Department works closely 
with the Department of Defense to assist in its review of allegations 
of civilian casualties reported by non-governmental organizations. I 
understand that any information the State Department receives about 
possible civilian casualties would be shared with the appropriate 
agencies for proper investigation.


    Section 8--Question 17.  Torture and due process for terrorism 
suspects: As Secretary of State, you would be heavily involved in 
negotiating the transfer of anyone in U.S. custody to the custody of 
foreign governments or non-state armed groups. The State Department has 
historically played a central role in determining the legality and 
appropriateness of such transfers and ensuring certain safeguards are 
in place when they do occur. In this position, do you consider the U.S. 
to be bound as a matter of law by the Convention against Torture's 
prohibition against sending anyone to a place where they face a risk of 
torture outside the U.S.?

    Answer. The United States takes very seriously its obligations 
under the Convention against Torture. It has been the position of the 
United States that Article 3 of the Convention Against Torture is not 
applicable as a legal matter to transfers occurring outside of U.S. 
sovereign territory. However, it is the long-standing policy of the 
United States not to transfer an individual to a country where it is 
more likely than not that he or she will be tortured. This policy 
applies the Convention Against Torture standard to all transfers by the 
United States. It is reflected in Section 2224(a) of the Foreign 
Affairs Reform and Restructuring Act of 1998, which provides that ``it 
shall be the policy of the United States not to expel, extradite, or 
otherwise effect the involuntary return of any person to a country in 
which there are substantial grounds for believing the person would be 
in danger of being subjected to torture, regardless of whether the 
person is physically present in the United States.'' I am committed to 
following this policy and to ensuring that the United States complies 
with the Convention against Torture in carrying out my duties as 
Secretary of State, if confirmed.


    Section 8--Question 18.  If not, will you commit to apply the 
convention's standards on transfer as a matter of policy outside the 
U.S.? If so, how will you ensure this policy is enforced? Will you 
ensure that the U.S. never transfers anyone from U.S. custody to a 
government or non-state armed group when they are likely to face 
torture, regardless of location?

    Answer. It is the long-standing policy of the United States not to 
transfer an individual to a country where it is more likely than not 
that he or she will be tortured. This policy applies the Convention 
Against Torture standard to all transfers by the United States. It is 
reflected in Section 2224(a) of the Foreign Affairs Reform and 
Restructuring Act of 1998, which provides that ``it shall be the policy 
of the United States not to expel, extradite, or otherwise effect the 
involuntary return of any person to a country in which there are 
substantial grounds for believing the person would be in danger of 
being subjected to torture, regardless of whether the person is 
physically present in the United States.'' I am committed to following 
this policy in carrying out my duties as Secretary of State, if 
confirmed.


    Section 8--Question 19.  Anti-Muslim Rhetoric: Mr. Pompeo, you have 
a longstanding history of statements and actions that have been seen as 
prejudicial against the Muslim community in the United States. As 
Secretary of State, you will be responsible for carrying out a policy 
agenda in which religious freedom, tolerance, and respect for persons 
of all faiths is integral to maintaining U.S. national security. Given 
your past statements about the Muslim community within the U.S. and 
abroad, how can you effectively claim you will advocate for the safety, 
security, and interests of Muslim-Americans, and that you will be able 
to engage in productive diplomatic efforts with Muslim-majority 
governments around the world?

    Answer. The predicate of your question is false. I hope that I 
spoke clearly and directly during my testimony when I promised the 
Committee that I will treat all persons--regardless of religion--with 
the dignity and respect that they deserve. I believe in the freedom of 
religion, protected by our First Amendment. I have worked closely with 
Muslim leaders and with governments of Muslim countries around the 
world, and I believe that religious leaders, institutions, and 
communities--including Muslim communities--can be critical 
interlocutors on many issues central to U.S. foreign policy.


    Section 8--Question 20.  Anti-Semitism: In August, Rex Tillerson 
wrote Chairman Corker with several preliminary decisions related to 
special envoy positions within the State Department. Among those he 
indicated he was going to keep--wisely, in my view--was the Special 
Envoy to Monitor and Combat Anti-Semitism. The Trump Administration has 
placed special emphasis on promoting and defending religious freedom, 
an issue worthy of attention and one that enjoys bipartisan 
Congressional support. Yet in an environment in which anti-Semitism is 
growing both at home and abroad, the Special Envoy position remains 
vacant. Do you pledge, if confirmed, to work with the White House to 
expeditiously identify and nominate an appropriately qualified 
candidate for Special Envoy to Monitor and Combat Anti-Semitism?

    Answer. Yes.


    Section 8--Question 21.  Rohingya Crisis: Negotiations to end 
Burma's low-grade civil war appear stalled, and fighting between the 
Burmese military and several of the ethnic armed organizations (EAOs) 
has escalated in recent months, including skirmishes with EAOs that 
have signed a ceasefire agreement. What role, if any, can the United 
States play in facilitating progress in resolving Burma's decade's long 
conflict?

    Answer. If confirmed, I would work to continue supporting the 
national peace and reconciliation process and other efforts to end 
violence, including through assistance on cease-fire negotiations and 
monitoring, political dialogue, addressing intercommunal conflict, 
promoting respect for the human rights of members of ethnic minority 
communities, and humanitarian aid.


    Section 8--Question 22.  What should be the nature of U.S. 
interaction with the Burmese military, the government headed by Aung 
San Suu Kyi, and the EAOs?

    Answer. If confirmed, I would support the U.S. policy of extremely 
limited military-to-military engagements with Burma, which I understand 
the Administration has further minimized since August 2017, due to 
ethnic cleansing against the Rohingya in northern Rakhine state. The 
Administration supports the elected civilian government in its efforts 
to achieve peace, stability, and prosperity for all in Burma. U.S. 
officials regularly engage in diplomatic conversations with ethnic 
armed organizations, and the U.S. government helps prepare 
representatives of ethnic groups to contribute to the national 
political dialogue.


    Section 8--Question 23.  Many of the Rohingya displaced from their 
homes to refugee camps in Bangladesh or IDP camps in Rakhine State want 
some form of accountability and justice for the crimes committed 
against them allegedly by Burmese security forces. Various 
international human rights organizations have called for an independent 
international investigation of the alleged human rights violations that 
have occurred in Rakhine State, as well as in Kachin, Karen, and Shan 
States. The chief prosecutor for the International Criminal Court (ICC) 
has asked for a ruling on whether it has jurisdiction to conduct such 
an investigation. What form of accountability process, if any, would 
you support to adjudicate the alleged human rights violations committed 
in Burma?

    Answer. If confirmed, I will continue the Administration's efforts 
to work with our allies and partners to help ensure that those 
responsible for ethnic cleansing and other atrocities face appropriate 
consequences. I believe the Administration should continue to use 
available tools to hold those responsible accountable, such as further 
targeted sanctions under the Global Magnitsky Act, and support the UN 
Human Rights Commission-mandated Fact Finding Mission.


    Section 8--Question 24.  U.S. policy in Burma under the Obama 
Administration was based on the presumption that it was a nation 
undergoing a political transition from an oppressive military junta to 
some form of democracy. The current governance system consists of a 
joint civilian/military government under which the military controls 
three of the key ministries (Defense, Border Affairs, and Home Affairs) 
and can block any significant effort to alter the balance of power 
between the elected civilian side of the government and the military. 
As a result, there has been little evidence of political transition or 
reform since 2012. Do you agree with the previous Administration's 
assessment that Burma is undergoing a political transition towards 
democracy?

    Answer. Burma's democratic transition remains a work in progress. 
This transition has been a departure from decades of repressive 
authoritarian rule, but it faces major challenges, and constitutional 
reform will be key to progress. The Administration remains focused on 
helping the democratically-elected civilian government improve its 
capabilities to deliver good governance and improve human rights 
practices.


    Section 8--Question 25.  Or, do you believe the Burmese military 
are content with the current governance system, and are intentionally 
blocking and efforts for democratic reform?

    Answer. I understand that the Burmese military did not interfere 
with the 2015 elections, and a working relationship has developed 
between the armed forces and the democratically-elected, civilian 
government. However, with a military-drafted constitution in place and 
only two years of civilian government after decades of authoritarian 
rule, the relationship between the elected authority and the military 
remains a work in progress.


    Section 8--Question 26.  If you are confirmed as Secretary of 
State, what will be your recommendations for U.S. policy in Burma?

    Answer. If confirmed, I will work with interagency colleagues and 
consult with Congress to maintain U.S. strategic engagement with Burma 
and promote U.S. interests and values, including rule of law, 
accountability, respect for human rights, and democratic reforms. I 
will also seek ways to engage Burma, its neighbors, and the 
international community to improve the humanitarian situation in 
Rakhine State and other areas.


    Section 8--Question 27.  Over one million Rohingya refugees are in 
Bangladesh, and are mostly likely to remain there for the foreseeable 
future. While both the Government of Bangladesh and the Government of 
Burma have agreed in principle to the repatriation of the displaced 
Rohingya, there are significant differences over the conditions under 
which Rohingya will be permitted to return to Rakhine State, and much 
uncertainty about the situation they will face when they return to 
Rakhine State. What role, if any, should the United States play in 
facilitating the safe, voluntary and dignified return of displaced 
Rohingya to Rakhine State?

    Answer. The United States has engaged both governments to emphasize 
that, consistent with international practice, any returns must be fully 
voluntary, safe, and dignified. The U.S. has also raised concerns about 
any possibility of premature returns. If confirmed, I will urge Burma 
to create the conditions needed to ensure the voluntary, safe, 
dignified, and sustainable return of refugees to their places of 
origin. I will also advocate for both governments to work with the UN 
High Commissioner for Refugees (UNHCR) to ensure international 
standards are met and maintained.


    Section 8--Question 28.  What should the United States offer to 
those Rohingya who choose not to return to Rakhine State? Is 
resettlement in the United States an option?

    Answer. If confirmed, I will work with the international community 
to support humanitarian efforts for those in need and to explore all 
possible durable solutions for those Rohingya who are unable to 
voluntarily return to their places of origin in safety and dignity.


    Section 8--Question 29.  LGBTQI Rights:  Your record on the rights 
of lesbian, gay, bisexual, and transgender Americans is a significant 
concern. Can you describe your personal views of the rights that our 
LGBTQ citizens should have, and how you would integrate issues related 
to the human rights of LGBTQ people into our global human rights 
policies?

    Answer. As CIA Director, I have honored and valued every single CIA 
officer and treated them with dignity and respect. If confirmed, I 
firmly commit to defend the human rights and dignity of all people, no 
matter their race, ethnicity, religion, sexual orientation, or gender 
identity.


    Section 8--Question 30.  Should religious-affiliated organizations 
be allowed to refuse developmental assistance or health services to an 
LGBTQ individual or community on grounds of their religious beliefs, 
even though the programs they are implementing, and the funds they are 
using, are provided by the federal government?

    Answer. As I stated during my testimony, I deeply believe that 
LGBTQ persons have every right that every other person in the world 
has. If confirmed, I would advocate for the fundamental dignity of 
every human being around the world without regard to race, gender, 
religion, sexual orientation, or gender identity.


    Section 8--Question 31.  Will you commit to treating all State 
Department employees with dignity, continuing non-discrimination 
protections for LGBTQ employees in the Department, and ensuring the 
families of LGBTQ employees are treated equally with respect to the 
rights, benefits, and privileges accorded to other employees' families?

    Answer. I believe that all employees and their families, including 
LGBTI employees and their families, should be treated equally with 
respect to the rights, benefits, and privileges accorded to other 
employees' families. It is my understanding that the Department has a 
strong record of supporting its LGBTI employees and their families. If 
confirmed, I intend to honor and value every single State Department 
employee regardless of race, color, gender, or sexual orientation--the 
same way I treated every CIA employee.


    Section 8--Question 32.  Over the last year, we have seen a number 
of horrific atrocities around the globe targeting lesbian, gay, 
bisexual, transgender and queer (LGBTQ) people, who have been rounded 
up, tortured and even killed, just for being who they are. We've seen 
it in the Russian republic of Chechnya, in Egypt, in Indonesia, and in 
other places as well. Your predecessor failed to address these 
atrocities and never once raised his voice to condemn the violence or 
supporting LGBTQ human rights. The world looks to the U.S. for 
leadership, and seeing none, bad actors may take it as an signal that 
they have a free hand to attack their most vulnerable citizens. Will 
you commit to using your position to defend the human rights and 
dignity of all people, no matter their sexual orientation or gender 
identity?

    Answer. The horrible treatment of LGBTQ persons in places like 
Chechnya is truly despicable. If confirmed, I will stand with all 
persecuted people, including LGBTQ persons.


    Section 8--Question 33.  If so, what specifically will you commit 
to do to help LGBTQ people in Chechnya, Egypt, Indonesia and other 
places to ensure they are not targeted for abuse?

    Answer. Under my leadership, the State Department will continue to 
use a range of public and private actions to counter violence and 
severe discrimination against LGBTQ persons around the world, including 
through bilateral and multilateral channels, by offering emergency 
assistance to LGBTQ persons at risk, and imposing visa restrictions and 
economic sanctions, as appropriate, on those who persecute them. If 
confirmed, consistent with the Administration's prior commitment, I 
intend to retain the position of Special Envoy for the Human Rights of 
LGBTI Persons.


    Section 8--Question 34.  Your predecessor failed to appoint a 
Special Envoy for the Human Rights of LGBTI Persons, despite having 
made a commitment to appoint one. Will you commit to working 
expeditiously to appoint a Special Envoy for the Human Rights of LGBTI 
Persons?

    Answer. Yes.


    Section 8--Question 35.  Women's Health: You've previously said 
that you're against abortion, no exceptions. Global estimates indicate 
that about 1 in 3 (35 percent) of women worldwide have experienced 
sexual or gender based violence in their lifetime. Do you believe that 
a woman who is pregnant as the result of rape should have the right to 
obtain a safe abortion?

    Answer. If confirmed, I will support the Administration's efforts 
to combat gender-based violence and support the maternal health and 
family planning needs of women around the world.


    Section 8--Question 36.  Every day, approximately 830 women die 
from preventable causes related to pregnancy and childbirth and 99 
percent of them are in developing countries. Do you believe that a 
woman who is experiencing a life endangering pregnancy has the right to 
an abortion?

    Answer. If confirmed, I will support the Administration's efforts 
to support the maternal health and family planning needs of women 
around the world.


    Section 8--Question 37.  In countries around the world, LGBTQ 
people are criminalized for who they love. There are also women who are 
in jail in places like El Salvador and Senegal for having miscarriages 
or abortions. These are gross human rights violations. As Sec. of State 
would you raise concerns about laws that criminalize same-sex 
relationships and women's personal health decisions in public and 
private settings?

    Answer. If confirmed, I will advocate that governments have an 
obligation to protect, respect, and uphold the dignity and fundamental 
freedoms of all people--including women and LGBTQ persons.


    Section 8--Question 38.  As a Congressman, you voted to continue 
and codify the Mexico City Policy, which predicates U.S. global health 
assistance to foreign NGOs on those organizations refusing to provide, 
counsel or advocate on safe abortion access. This denies women, girls 
and their communities to full access to information and services about 
their bodies and health. Its expansion has had a chilling effect of 
shutting down some of the best providers of sexual health services, 
including on comprehensive sexuality education, maternal and child 
health, and HIV prevention programs. Please explain your support for a 
policy that is anticipated to lead to 1.6 million additional unintended 
pregnancies, 500,000 unsafe abortion, and nearly 20,000 maternal 
deaths.

    Answer. If confirmed, I will support the Administration's efforts 
to support the maternal health and family planning needs of women 
around the world. Through the Protecting Life in Global Health 
Assistance (PLGHA) policy, the Administration is ensuring that no U.S. 
government global health assistance funds support foreign non-
governmental organizations (NGOs) that perform or actively promote 
abortion as a method of family planning in other countries.
    I understand that the policy will not impact the total amount of 
U.S. government funding for maternal health and family planning 
programs. I also understand that the vast majority of foreign NGOs 
subject to the PLGHA policy are accepting the conditions and continue 
to participate in U.S. government-funded global health assistance 
programs. When an NGO has declined to agree to the policy, I understand 
that affected departments and agencies are working to transition the 
activities that would have been undertaken by the organization with our 
funding to other partners while minimizing disruption of services.


    Section 8--Question 39.  Will you conduct an annual review of the 
policy to document its impact on peoples' ability to access evidence-
based health care services that affirm their human rights?

    Answer. It is my understanding that the State Department conducted 
a six-month review of the Protecting Life in Global Health Assistance 
(PLGHA) policy and will lead another interagency review of the policy 
in late 2018. If confirmed, I will support this review process.


    Section 8--Question 40.  Do you think that access to voluntary 
contraception is important to women's health and U.S. development goals 
of preventing maternal and child deaths, controlling the AIDS epidemic, 
achieving gender equality, and empowering women and adolescent girls?

    Answer. I understand that the United States is a leader in the 
provision of maternal and newborn health care, including voluntary 
family planning. If confirmed, I will support the Administration's 
policies and programs to reduce maternal and newborn deaths, combat the 
AIDS epidemic, promote gender equality, and empower women and girls.


    Section 8--Question 41.  Recently the State Department released its 
review of the expanded Mexico City Policy. The State Department claimed 
that there have been no service disruptions due to the policy, yet that 
isn't consistent with what we've heard from the field and seen in the 
media. For example, we know in Mozambique a provider closed 18 youth-
friendly clinics and 72 mobile clinics, in Swaziland a provider has 
reduced geographic coverage from 14 towns to 4, and in Botswana a 
provider has closed one clinic and scaled back services at 7 others as 
a result of this policy. As Secretary of State, how will you examine 
gaps in services and work to ensure needs being filled?

    Answer. I understand that the vast majority of foreign NGOs subject 
to the Protecting Life in Global Health Assistance (PLGHA) policy are 
accepting the conditions and continue to participate in U.S. 
government-funded global health assistance programs. When an NGO has 
declined to agree to the policy, I understand that affected departments 
and agencies are working to transition the activities that would have 
been undertaken by the organization with our funding to other partners 
while minimizing disruption of services.


    Section 8--Question 42.  Will you offer exemptions to the policy if 
there are instances where there isn't a suitable partner who can meet 
the community needs?

    Answer. I understand that the Secretary of State, in consultation 
with the Secretary of Health and Human Services, may authorize case-by-
case exemptions to the Protecting Life in Global Health Assistance 
(PLGHA) policy. If confirmed, I will ensure a process is in place to 
review any requests for exceptions received.


    Section 8--Question 43.  Will you commission an external review of 
the policy and its impact by a non-partisan, research institution?

    Answer. If confirmed, I will look into this question and welcome 
further discussion.


    Section 8--Question 44.  Globally LGBTQ people, young people, and 
unmarried women face discrimination and barriers to accessing health 
care services and as a result experience disproportionate poor health 
outcomes. Do think that health care providers should be able to refuse 
to provide health care information and services to patients based their 
sexual orientation, age, or marital status?

    Answer. Access to health care is important for everyone, regardless 
of their sexual orientation, age, or marital status. I understand that 
PEPFAR, for example, works hard to advance that principle by addressing 
the underlying social issues, especially unequal human rights, stigma, 
and discrimination, that prevent people from accessing HIV prevention 
and treatment services. PEPFAR supports specific initiatives to expand 
key populations' (including LGBTI people, adolescent girls and young 
women, and others) access to and retention in quality HIV/AIDS 
prevention and treatment services. If confirmed, I will ensure that 
PEPFAR continues to use the latest science and the best available data 
to deliver the greatest possible impact to ensure epidemic control of 
the HIV pandemic.


    Section 8--Question 45.  National Endowment for Democracy (NED): In 
his State of the union address, President Trump called out the heroic 
work of Ji-Seong Ho, who fled North Korean on crutches, in support of 
North Korean defectors and for his work to get information into North 
Korea. Ji-Seong Ho's work is supported by NED, which has a robust North 
Korean program focused on supporting defectors, documenting war crimes 
and getting information into North Korea. Just days later, the 
President's FY19 budget request recommend a 60% cut to the Endowment's 
budget from $170 million to just $67.275 million. The budget request 
also proposes that NED cease funding its four core institutes--the 
National Democratic and International Republican Institutes which 
support democratic political party development overseas and the Center 
for International Private Enterprise and Solidarity Center which work 
with the other pillars of strong democratic societies--business and 
workers. Congress views the NED as a critical and streamlined resource 
and vital instrument in the global competition for democratic ideas and 
values--investing in democratic actors who share our values. This 
investment is critical at a time when China and Russia are seeking to 
redefine the global order in their image and using an arsenal of 
tools--new and old to fill power vacuums in weak and failed states. NED 
has made successful and coordinated long-term investments in 
relationships with like-minded civil society, political parties, 
workers and business entrepreneurs in almost every country in the 
world, including in authoritarian states like Cuba, North Korea, 
Russia, Venezuela, and Iran where the U.S. and other actors are unable 
to work. Do you support continued funding for the National Endowment 
for Democracy and core institutes as a critical tool in the U.S. 
arsenal to defend American values and interests?

    Answer. If confirmed, I look forward to discussions with Congress 
on funding for our diplomacy and foreign assistance programs, including 
for FY 2019. I will make the case to defend the resources the 
Department needs within the Administration's fiscal framework. Congress 
has provided additional funding for NED above the FY 2018 request. NED 
will implement this additional funding to advance Administration 
priorities, in line with the congressional directives outlined in the 
FY 2018 Consolidated Appropriations act and consistent with applicable 
law. If confirmed, I commit to reviewing the Administration's plan to 
encourage organizations such as NED to make better use of grants from 
both non-governmental and governmental sources.


    Section 8--Question 46.  Will the State Department defend the 
Endowment's budget, in addition to its budget for democracy, rights and 
governance, in its budget requests?

    Answer. I support the important role that Congress plays in 
providing funds to support U.S. government operations and programs, 
including for the State Department and USAID. If confirmed, I look 
forward to continuing discussions with Congress on funding for our 
diplomacy and foreign assistance programs, including for FY 2019. I 
will make the case to defend the resources that the State Department 
needs. I understand that Congress provided additional funding for the 
National Endowment for Democracy, as well as substantial foreign 
assistance resources for global democracy, human rights, and governance 
programs, above the FY 2018 request. The Department will implement this 
additional funding in line with Administration priorities and the 
congressional directives outlined in the FY 2018 Consolidated 
Appropriations act and consistent with applicable law.


    Section 8--Question 47.  Global Magnitsky Act:  I applaud the Trump 
Administration's decision in late December to impose sanctions against 
15 foreign individuals and 37 entities for human rights violations and 
acts of corruption under the Global Magnitsky Human Rights 
Accountability Act. The quality of designations implemented by the 
administration--ranging from a military commander responsible for 
atrocities against the Rohingya people in Burma, to a Putin crony 
involved in grand corruption, to a Chinese security official 
responsible for the torture and death of a human rights defender--
demonstrated the seriousness with which the administration approached 
use of this tool. Yet I was disappointed that sanctions under the 
Global Magnitsky Act were not applied more broadly. Sanctions weren't 
applied against human rights violators or corrupt actors in wide swaths 
of the world, including, most notably, the Middle East. Given the 
systemic nature of abuses in countries in this region, among others, 
the idea that the U.S. could not find a single instance of a crime 
worth penalizing is troubling, and sends an equally troubling signal to 
actors around the world about impunity. As Secretary of State, will you 
commit to supporting implementation of the Global Magnitsky Act?

    Answer. Global Magnitsky is a powerful sanctions program, and you 
have my commitment, if confirmed, to use it. No region is immune from 
human rights abuse or corruption, and the Administration appreciates 
Congressional support for this versatile tool. I look forward to 
working with the Department's experts and the interagency to advance 
implementation of this program.


    Section 8--Question 48.  Will you further commit to implementing 
the law wherever it will have positive impact, irrespective of 
geographical boundaries?

    Answer. Yes.


    Section 8--Question 49.  During the U.S.-China Summit held last 
April in Florida and in last November in Beijing, President Trump did 
not raise the question of respect for human rights and the rule of law 
in China and in Tibet. Since 1997, all U.S. Presidents have publicly 
challenged the sitting Chinese President to negotiate with the Dalai 
Lama or his representative to find a lasting solution to the Tibetan 
issue. If appointed, would you recommend that President Trump calls 
publicly on the Chinese President to address the grievances of the 
Tibetan people through dialogue with the Dalai Lama?

    Answer. I share your concerns about the Chinese government's 
repressive policies and lack of respect for human rights in Tibet. If 
confirmed, I will recommend that the United States express publicly, 
and at the highest levels of government, that Chinese authorities need 
to engage in meaningful and direct dialogue with the Dalai Lama or his 
representatives, without preconditions, to lower tensions and resolve 
differences.


    Section 8--Question 50.  It has long been the policy of the U.S. 
government, provided by the Tibetan Policy Act, to promote dialogue 
between the envoys of the Dalai Lama and the Chinese government toward 
a solution on the Tibet issue that guarantees the respect of the 
``distinct identity'' of the Tibetan people, who continue to suffer 
under China's oppressive rule. The dialogue is now at a standstill and, 
as we have seen, the lack of substantive progress toward a genuine 
resolution continues to be a thorny issue in U.S.-China relations. The 
United States has played a key role in encouraging past dialogues. 
Would you personally commit to pressing the Chinese leadership for a 
resolution of the Tibetan issue through a speedy resumption of dialogue 
with the Dalai Lama or his representatives, without preconditions?

    Answer. If confirmed, I will urge Chinese authorities to engage in 
meaningful and direct dialogue with the Dalai Lama or his 
representatives, without preconditions, to lower tensions and resolve 
differences.


    Section 8--Question 51.  Will you commit to explaining to Chinese 
authorities that the U.S., in compliance with the principle of 
religious freedom, will recognize and freely interact with the person 
chosen independently, and through Tibetan Buddhism's spiritual 
tradition, through the processes described by the current Dalai Lama, 
to succeed the current Dalai Lama? Would you also make it categorically 
clear that the U.S. will not accept a Chinese government controlled 
selection process?

    Answer. If confirmed, I will press the Chinese government to 
respect the legitimacy of Tibetan Buddhists' religious practices. This 
includes the decisions of Tibetan Buddhists in selecting, educating, 
and venerating the lamas who lead the faith, such as the Dalai Lama.


    Section 8--Question 52.  The Tibetan people continue to resist 
injustice without resorting to violence. Since the mass demonstrations 
of 2008--where around 200 Tibetans were killed and thousands were 
imprisoned--more than 150 Tibetans have self-immolated to protest 
against Chinese rule and for the return of the Dalai Lama in Tibet. 
Over 600 Tibetans continue to be prisoners of conscience according to 
the Congressional Executive Commission on China and many more are 
unreported. Would you ask the Chinese authorities to allow independent 
humanitarian organization to visit Tibetan political prisoners and the 
families of Tibetan self-immolators to ascertain their welfare?

    Answer. Yes. Consistent with the Tibetan Policy Act, if confirmed, 
I will encourage the release of all those held prisoner for expressing 
their political or religious views, and will support access to 
prisoners by international humanitarian organizations to ensure 
prisoners are not mistreated and are receiving necessary medical care. 
If confirmed, I will push Chinese authorities to lift restrictions on 
visits by diplomats, journalists, and NGOs to the Tibet Autonomous 
Region and Tibetan areas.


    Section 8--Question 53.  Hundreds of Tibetan political prisoners, 
according to the Congressional Executive Commission on China, are in 
prison as we speak and any form of expression of Tibetan identity, be 
it religious, linguistic or cultural, can be easily criminalized by the 
Chinese authorities due to the adoption of a patchwork of regulations 
that deny fundamental and basic human rights. What will your 
Administration do for the release of the Tibetan political prisoners?

    Answer. If confirmed, I will urge China to cease restrictions on 
the human rights of Tibetans as well as their religious, linguistic, 
and cultural traditions and practices. I will be committed to pressing 
for respect for human rights, including freedom of religion and belief, 
in my conversations with Chinese officials, and advocating for the 
release of Tibetan political prisoners.


    Section 8--Question 54.  China's censorship and information and 
communication blockade, specifically in Tibet, prevents reporters from 
investigating the reality of the situation in Tibet. What steps will 
you take with the Chinese authorities to ensure that American 
journalists will be able to freely access Tibet just as Chinese 
journalists are able to do so in the United States?

    Answer. If confirmed, I am committed to pushing for reciprocity 
regarding the open access China and many other countries enjoy in the 
United States, and will raise concerns about the lack of regular access 
to the Tibetan Autonomous Region (TAR) for U.S. journalists, diplomats, 
academics, and others. I will work to ensure that U.S. journalists, 
civil society, legislators, and scholars have full access to China, 
including the Tibet Autonomous Region and Tibetan areas.


    Section 8--Question 55.  The major rivers of Asia that flow from 
the Tibetan Plateau and are subject to current and potential dam and 
diversion projects by China. These projects are planned and implemented 
without the proper involvement of the Tibetan people, who are the best 
stewards for the preservation of the delicate environment of the 
Tibetan Plateau. India and other governments in Asia are increasingly 
worried about China's plans to dam rivers originating in Tibet which 
serve over a billion people downstream. Would you raise the need to 
fully involve Tibetans in the preservation of Tibet's fragile 
environment with the Chinese authorities?

    Answer. If confirmed, I will encourage all countries to manage 
their water resources soundly and to cooperate on the management of 
shared waters. I will specifically urge China to make decisions on 
major water-related infrastructure projects based on the best science 
available and in transparent consultation with all affected 
stakeholders, including Tibetans and the governments of neighboring 
countries.


    Section 8--Question 56.  Would you call on the Chinese authorities 
to engage China's neighbors for the development of a regional framework 
on water security?

    Answer. If confirmed, I will encourage all countries, including 
China, to manage their water resources soundly and to cooperate on the 
management of shared waters. I will urge China to make decisions on 
dams and other major water-related infrastructure needs based on the 
best available science, and in transparent consultation with all 
affected stakeholders, including neighboring countries. I will also 
sustain our own cooperation with neighboring countries through the 
Lower Mekong Initiative and other U.S.-led mechanisms.


    Section 8--Question 57.  Will you commit to meeting the Dalai Lama, 
whether in the United States or during your travel, and to express to 
him the United States' support to his peaceful struggle for Tibetan 
rights?

    Answer. If confirmed, I will fully implement the Tibetan Policy 
Act. State Department officials should meet with Tibetan leaders 
whenever appropriate, including the Dalai Lama in his capacity as an 
important spiritual leader of the Tibetan people.


                               __________

                      (Section 9--Questions 1-43)

    Section 9--Question 1.  The Administration has suggested that it 
may use a country's voting record on UN General Assembly resolutions 
(specifically, the extent to which it coincides with the United States) 
to determine how much bilateral aid that country receives. This 
proposal is wrong-headed. Firstly, General Assembly resolutions are 
legally non-binding, so cutting aid to countries with whom we have 
important security or business ties--take Egypt, Jordan, or India, for 
example--because of such votes seems petty, disproportionate, and 
counterproductive. Moreover, the vast majority of General Assembly 
resolutions are approved by consensus, meaning no vote is actually 
taken. According to the most recent State Department report on voting 
practices in the UN, when consensus measures are factored in, the 
average concurrence of other countries with the U.S. position was 84.1% 
in 2016 (versus an average concurrence rate of 54.8% for the minority 
of resolutions where a vote was taken). As a result, while individual 
General Assembly members do oppose the U.S. position in some cases, 
they are in agreement the vast majority of the time. Can you assure us 
that the Administration is taking these factors into account as it is 
considering whether to move forward with such a proposal?

    Answer. The Administration believes that foreign assistance should 
serve American interests. Support for U.S. priorities in international 
venues is one factor among many in making foreign assistance decisions. 
The United States is by far the largest financial contributor to the UN 
and gives generously to many UN member states. If confirmed, I will 
work to expand support for U.S. policies at the UN and in other 
international venues.


    Section 9--Question 2.  Officials in the Trump Administration have, 
on several occasions over the last year, argued that the President's 
``America First'' agenda does not mean that America will go it alone. 
In addition, the Administration has repeatedly appealed for greater 
international burden-sharing. UN peacekeeping is a prime example of 
this type of burden-sharing in action. The U.S. is the largest 
financial contributor to UN peacekeeping operations, currently assessed 
28% of the UN's annual peacekeeping budget. At the same time, as a 
permanent member of the UN Security Council, the U.S. has final say 
over the decision to deploy peacekeeping missions in the first place. 
In addition, we provide very few uniformed personnel to these endeavors 
(currently just 55 troops, military advisors, and police out of a total 
force of more than 91,000). This gap is filled by a range of other 
countries, including U.S. allies and partners like Bangladesh, Italy, 
Morocco, Ethiopia, Ghana, and Jordan, who collectively provide tens of 
thousands of troops and police to UN peacekeeping missions, and do not 
possess a veto over Security Council decisions. Do you agree that it is 
important for the U.S. to share the responsibility for protecting 
international peace and security with other countries?

    Answer. Yes. UN peacekeeping is an important tool for leveraging 
international support to address such challenges. The Administration 
believes, however, that the shared responsibility of peacekeeping also 
means shared burdens and shared costs. One country should not shoulder 
more than one quarter of the UN peacekeeping budget, and I am committed 
to pressing for a more equitable distribution of the budget among 
member states. If confirmed, I will work closely with Ambassador Haley 
and UN member states to ensure we make this adjustment in a fair and 
sensible manner that protects U.S. interests as well as UN 
peacekeeping.


    Section 9--Question 3.  In light of the fact that the President is 
so keen to ensure that the U.S. is not unduly burdened with such 
responsibilities, do you think it is in our national interest to 
continue to support UN peacekeeping missions?

    Answer. Yes. For peacekeeping operations to be successful, it is 
important that UN peacekeeping missions have an appropriate mandate, 
support political solutions, and are properly managed and equipped. If 
confirmed, I will work to advance the U.S. reform agenda in order to 
make UN peacekeeping more effective.


    Section 9--Question 4.  On that issue of burden-sharing, in a 
recent op-ed, Lt. Gen. John Castellaw (Ret.), a former U.S. Marine 
officer who served as Chief of Staff for U.S. Central Command, argued: 
``Having spent about a third of my career deployed outside the United 
States, I know that Americans aren't afraid to go in harm's way to do 
the hard work at the risk of our lives. But we can't be, and we 
shouldn't have to be, everywhere all the time. UN peacekeeping helps 
ensure every country does its fair share to protect vulnerable 
populations and promote peace. It saves us money, but more importantly, 
it saves the lives of those who serve.'' Will you commit to taking the 
views of our military into consideration with regards to future 
decisions you make regarding UN peacekeeping operations?

    Answer. Yes.


    Section 9--Question 5.  Mr. Pompeo, in 2015 when the Congress was 
debating Trade Promotion Authority it passed my amendment that barred 
``fast track'' procedures for any trade agreement with a country on 
Tier 3 of the State Department's Trafficking in Persons Report--a group 
of countries that fail to combat human trafficking. Following that 
amendment, we saw an unprecedented political assault on the TIP Report 
where countries were upgraded based on unrelated factors, one of those 
being trade in my opinion. Will you commit to us that, if confirmed, 
any decision you make regarding the TIP Report will be based solely on 
a country's efforts to combat trafficking, and not trade or other 
unrelated factors?

    Answer. Combating human trafficking is a priority for this 
Administration and will be a priority of mine at the Department of 
State, if confirmed. I will strive to ensure the Trafficking in Persons 
Report is as objective and accurate as possible, based solely on a 
country's efforts to combat trafficking, as required by the Trafficking 
Victims Protection Act.


    Section 9--Question 6.  The Trafficking Victims Protection Act 
requires that the Secretary of State rank any country with a very 
significant number of trafficking victims as Tier 2 Watch List. Last 
year, Secretary Tillerson upgraded Malaysia to Tier 2 despite this 
statutory requirement and the Department's own assessment that Malaysia 
met this criterion. Changing the Tier 2 Watch List definition 
arbitrarily is inconsistent with the law, harms the credibility of the 
TIP Report, and ultimately undermines U.S. efforts to end human 
trafficking. If confirmed, will you commit to rigidly applying the Tier 
2 Watch List definition of the Trafficking Victims Protection Act?

    Answer. Combating human trafficking is a priority for this 
Administration. If confirmed, I will ensure the Department applies the 
statutory criteria and standards laid out by the Trafficking Victims 
Protection Act.


    Section 9--Question 7.  In last year's TIP Report, the President 
waived an otherwise required automatic downgrade to Tier 3 because the 
Cuban government submitted a written plan to begin making significant 
efforts to combat trafficking. To my knowledge, in that plan the Cuban 
government did not commit to take any action against labor trafficking 
in the country, much less address its program of state-sponsored forced 
labor. As is documented in the 2017 Report, the Cuban government has 
demonstrated a consistent unwillingness to criminalize or combat forced 
labor. If confirmed, will you commit to recommend that Cuba not receive 
such a waiver until it takes action to address labor trafficking, 
especially its policies of state-sponsored forced labor?

    Answer. If confirmed, I will ensure that the Department holds the 
Cuban government accountable to the minimum standards of the 
Trafficking Victims Protection Act and that its tier ranking in the TIP 
Report and any related waiver are in compliance with the law.


    Section 9--Question 8.  The Committee has prioritized legislation, 
hearings and the U.S. Government's policy on trafficking in persons. 
Among the many positions that remain vacant at the Department of State 
is the Ambassador-at-Large leading the Office to Monitor and Combat 
Trafficking in Persons. As the top diplomat leading U.S policy on 
trafficking in persons, this position is critical to ensure that the 
United States maintains its leadership on the promotion of human rights 
around the world. Will you assure the Committee that, if confirmed, you 
will quickly and judiciously nominate someone to lead the Trafficking 
in Persons Office?

    Answer. If confirmed, I will work with the White House to fill this 
and other critical positions as quickly and judiciously as possible.


    Section 9--Question 9.  In March 2018, President Trump asserted 
that he had made up facts about the U.S. trade balance with Canada 
during a conversation with Prime Minister Trudeau. Specifically, he 
claimed, falsely, that the United States has a trade deficit with 
Canada. Later on, the President moved on to tweet, ``we do have a Trade 
Deficit with Canada, as we do with almost all countries (some of them 
massive).'' Yet, the Department of Commerce says that in fact, the U.S. 
had a $2.77 billion and a $12.5 billion surplus in 2017 and 2016 
respectively. In his book, The Art of the Deal, the President stated 
that he is a big proponent of ``truthful hyperbole''--which seems to be 
in line with the President's comments to Prime Minister Trudeau. What 
is the balance of trade between the U.S. and Canada?

    Answer. The United States and Canada shared bilateral trade in 
goods and services of approximately $680.6 billion in 2017, with the 
United States having an overall trade surplus with Canada of $2.7 
billion. The United States recorded a $25.9 billion surplus with Canada 
in services, while running a goods deficit with Canada of $23.1 
billion.


    Section 9--Question 10.  Do you think the U.S. has a trade deficit 
with Canada?

    Answer. In 2017, my understanding is that the United States had a 
trade in goods deficit and a trade in services surplus with Canada.


    Section 9--Question 11.  As Secretary of State, you will be the 
face of U.S. diplomacy and your words and credibility matter. Do you 
believe that tactics of ``truthful hyperbole'' are an effective way to 
engage with our neighbors and closest partners?

    Answer. The United States should continue to engage effectively 
with our neighbors and closest allies in ways that enable us to achieve 
our objectives.


    Section 9--Question 12.  Despite the Administration's statements to 
the contrary, US-Mexico relations are at their worst since the 1980s, 
when DEA agent Kiki Camarena was murdered on Mexican soil. This time 
however, the problem is entirely of President Trump's own making. In 
addition to using language and tactics reserved for our most ardent 
adversaries, the President has repeatedly insulted the Mexican people, 
calling them rapists and murderers. Nevertheless, reality dictates that 
we need a strong relationship with Mexico to address a broad range of 
national security issues, from the opioid crisis to migration. Do you 
think Mexicans are rapists and murderers?

    Answer. Close cooperation with Mexico is critical to U.S. security 
and economic interests, and the close ties between our peoples are an 
integral element of our bilateral relations. If confirmed, I will 
continue to work with Mexico to build a strong bilateral relationship 
to address a broad range of bilateral and national security issues.


    Section 9--Question 13.  Do you think President Trump's 
antagonistic rhetoric and bellicose policies have made it easier to 
advance U.S. national interests--including the bilateral cooperation we 
need for securing our border, combatting transnational organized crime, 
or renegotiating NAFTA?

    Answer. The conclusions contained in the predicate of your question 
are not correct. The President has acknowledged his deep concern about 
these issues. The President has also instructed his team to coordinate 
closely with Mexican counterparts to strengthen this important 
relationship by bolstering border security, combating transnational 
organized crime, and renegotiating NAFTA in order to create more 
balanced, reciprocal trade that supports high-paying U.S. jobs and 
grows the U.S. economy.


    Section 9--Question 14.  Do you think the U.S. can address heroin 
and fentanyl trafficking without Mexico's cooperation?

    Answer. Mexico is an important partner on counternarcotics. If 
confirmed, I will ensure the Department of State continues to work 
closely with Mexico in its efforts to more effectively reduce the 
production and availability of heroin, fentanyl, and other illicit 
drugs; secure borders against the movement of drugs and other illicit 
goods; investigate and prosecute drug trafficking and other criminal 
revenue streams; sanction offenders; and dismantle the transnational 
criminal organizations responsible for trafficking these dangerous 
drugs to the United States.


    Section 9--Question 15.  In light of President Pena Nieto's recent 
comments, what, in your view, would be the impact on our national 
security should Mexico choose to withdraw from cooperating with the 
United States?

    Answer. Mexican cooperation is vital to U.S. national security and, 
if confirmed, I will ensure the Department of State continues to work 
with Mexico on issues of security, counternarcotics, and prosperity. 
The Administration works with Mexico to disrupt transnational criminal 
organizations, combat the heroin-fentanyl epidemic, enhance border 
security to address irregular migration and trafficking in illicit 
goods, and build Mexico's capacity to investigate and prosecute crime. 
Our cooperation strengthens Mexican institutions and the rule of law, 
and promotes strong communities to deter recruitment by transnational 
criminal organizations.


    Section 9--Question 16.  In your new role, how can you possibly try 
to recover so much lost ground with such an important partner?

    Answer. The United States and Mexico have a close and constructive 
relationship that is vital to the interests of both our countries. If 
confirmed, I would continue the Department's excellent cooperation with 
Mexico on a broad range of foreign policy, security, migration, border, 
and economic issues.


    Section 9--Question 17.  The United States is suffering an opioid 
epidemic that has taken the lives of tens of thousands of American 
citizens and is increasingly fueled heroin and fentanyl that is 
trafficked into our country. The State Department, through the Bureau 
of International Narcotics and Law Enforcement Affairs (INL), plays a 
central role in coordinating U.S. international narcotics policy and 
cooperation. If confirmed, how will you prioritize the United States 
international efforts to combat illicit heroin and fentanyl 
trafficking?

    Answer. If confirmed, I will prioritize Department of State efforts 
to employ a coordinated approach to disrupt the sources and trafficking 
of heroin and illicit fentanyl coming to the United States from a 
variety of sources. With Mexico, I will seek to improve its capacity to 
counter transnational criminal organizations. With China, I will 
support its efforts to prevent the illicit production and shipments of 
synthetic drugs like fentanyl. I would also deepen cooperation with key 
multilateral organizations to control the production and sale of deadly 
synthetic opioids, expand efforts to interdict these drugs in the 
international mail and express consignment courier systems, and help 
expose illicit drug sales sites on the internet and dark web.


    Section 9--Question 18.  What is your assessment of the importance 
of U.S.-Mexico cooperation to address illicit heroin and fentanyl 
trafficking and transnational organized crime?

    Answer. Mexico is a critically important partner on 
counternarcotics and disrupting transnational organized crime. If 
confirmed, I will ensure the Department of State continues to work 
closely with Mexico to reduce the availability and trafficking of 
heroin, fentanyl, and other illicit drugs to the United States.


    Section 9--Question 19.  At a time when the political relationship 
between the U.S. and Mexico is under increasing duress due to the 
President's antagonistic statements, how will you work to sustain and 
build the cooperation necessary to combat illicit trafficking and 
transnational organized crime?

    Answer. If confirmed, I will ensure the Department of State 
continues to work with Mexico to sustain and advance our security 
cooperation. We will work to disrupt networks that smuggle drugs, cash, 
and weapons across our shared border; partner with Mexico to achieve 
meaningful criminal justice outcomes that deny traffickers the ability 
to act with impunity and profit from their crimes; and fight the 
corruption that undermines our efforts.


    Section 9--Question 20.  How will your efforts to combat 
international heroin and fentanyl trafficking be affected by the 
President's proposed 30 percent cut to the INL budget, including a 38 
percent cut to INL funding for Mexico?

    Answer. I understand the Department's fiscal year 2019 budget 
request focuses resources for INL on U.S. national security priorities, 
including efforts to combat the opioid epidemic. The request includes 
funding for programs to combat the flow of heroin and fentanyl to the 
United States. If confirmed, I will make the case to defend the 
resources that the State Department needs to carry out U.S. diplomacy, 
including efforts to reduce the production and availability of heroin, 
fentanyl, and other illicit drugs and to dismantle transnational 
criminal organizations.


    Section 9--Question 21.  The White House is pushing to expand 
dramatically the length and the height of the fence between the United 
States and Mexico, calling it a ``wall'' and persisting in a demand 
that Mexico fund its construction. Is the ``wall'' and accompanying 
rhetoric encouraging the Mexican people to vote for candidates in July 
2018 elections who are less interested in a strong bilateral 
relationship?

    Answer. If confirmed, I will seek robust engagement with Mexico's 
new leadership to advance our shared goal of security for our citizens. 
I am prepared to work with whoever wins the Mexican election in July to 
advance our common interests.


    Section 9--Question 22.  How is the ``wall'' and accompanying 
rhetoric being viewed throughout Latin America?

    Answer. Countries in the Western Hemisphere share our concern about 
protecting their citizens against crime and exploitation and ensuring 
their welfare and prosperity. Deterring illegal migration and improving 
border security help countries to shield their citizens from these 
risks. The United States is an enduring partner for the countries of 
the Western Hemisphere in these areas. If confirmed, I will continue to 
work diligently to stem illicit activity and illegal immigration to the 
United States, and to promote security along our borders, dismantle 
transnational criminal networks and drug trafficking organizations, and 
disrupt illicit trade.


    Section 9--Question 23.  How does that view impact U.S. interests 
and influence in the hemisphere?

    Answer. The Administration has shown its commitment to the Western 
Hemisphere through regular bilateral meetings with regional leaders. 
The Vice President travelled to the region in 2017 and co-hosted the 
Conference on Security and Prosperity in Central America in Miami last 
June. His attendance at the Summit of the Americas on April 13 is 
another demonstration of the United States' commitment to the region. 
If confirmed as Secretary of State, I would work with all partners in 
the region to advance security, economic and energy prosperity, and 
democratic governance.


    Section 9--Question 24.  Since 2014, the U.S. Government has sought 
to cooperate with the governments of Honduras, El Salvador, and 
Guatemala--the Northern Triangle of Central America--in order to 
address the underlying factors driving irregular migration in the 
region. Through foreign assistance and diplomatic engagement, the U.S. 
has made significant investments to support security and stability 
there. While some progress has been made, the reality remains that 
there is much more to do. Honduras and El Salvador continue to be among 
the most violent countries in the world, the rule of law remains weak 
and levels of impunity remain extremely high. If confirmed, do you 
commit to supporting U.S. efforts to address the security, stability, 
and prosperity of the Northern Triangle in Central America?

    Answer. Yes. If confirmed, I will support diplomatic engagement and 
foreign assistance programs as a part of the U.S. Strategy for Central 
America to address the high levels of violence, lack of economic 
opportunity, weak institutions, and pervasive corruption that allow 
transnational criminal organizations to operate and drive illegal 
immigration to the United States.


    Section 9--Question 25.  How do you plan to work with the countries 
of the Northern Triangle to address the problems of violence, poverty 
and weak security and justice institutions driving children and 
families from their countries?

    Answer. If confirmed, I will direct diplomatic engagement and 
foreign assistance programs as a part of the U.S. Strategy for Central 
America to address the high levels of violence, lack of economic 
opportunities, weak institutions, and pervasive corruption that allow 
transnational criminal organizations to operate and drive illegal 
immigration to the United States. I will also ensure the Department of 
State and our embassies in the Northern Triangle coordinate with host 
governments, donor countries, the private sector, international 
organizations, and civil society to maximize the impact of U.S. foreign 
assistance. I understand U.S. programs complement the Plan of the 
Alliance for Prosperity, the reform initiative of the Governments of El 
Salvador, Guatemala, and Honduras.


    Section 9--Question 26.  Will you engage with the governments of 
Guatemala, Honduras and El Salvador to support fair and impartial 
attorney general selection processes to emphasize the need to select of 
honest and qualified candidates with a clear commitment to the rule of 
law?

    Answer. If confirmed, I will engage with the governments of 
Guatemala, Honduras and El Salvador to emphasize the importance of 
supporting fair, transparent, and impartial attorney general selection 
processes and the importance of selecting honest and highly qualified 
candidates with a clear commitment to the rule of law and the fight 
against corruption and impunity.


    Section 9--Question 27.  Will you commit to maintaining continued 
U.S. political and financial support for United Nations International 
Commission against Impunity in Guatemala (CICIG) and the Organization 
of American States Support Mission against Corruption and Impunity in 
Honduras (MACCIH)?

    Answer. If confirmed, I will commit to maintaining continued U.S. 
support for the International Commission against Impunity in Guatemala 
(CICIG) and the Organization of American States (OAS) Mission Against 
Corruption and Impunity in Honduras (MACCIH).


    Section 9--Question 28.  How would you support and strengthen the 
efforts of CICIG and MACCIH, and how would you help ensure the full 
cooperation of the Guatemalan and Honduran governments?

    Answer. If confirmed, I will commit to maintaining continued U.S. 
support for the International Commission Against Impunity in Guatemala 
(CICIG) and the Organization of American States (OAS) Mission Against 
Corruption and Impunity in Honduras (MACCIH). I will engage the 
governments of Guatemala and Honduras to underscore the importance of 
achieving results on Congressionally-mandated criteria regarding 
combatting corruption and cooperation with commissions against impunity 
and regional human rights entities. If confirmed, I will also encourage 
the Guatemalan and Honduran governments to select highly-qualified 
attorneys general, with reputations for integrity, judicial 
independence, and clear commitment to transparency and the rule of law, 
who are willing to support and collaborate with CICIG and MACCIH to 
fight corruption and impunity.


    Section 9--Question 29.  Despite having a strong partnership with 
the Colombian government in combatting drug trafficking, we have seen a 
worrisome growth of coca cultivation in Colombia since 2013. It is 
clear that developing a permanent counternarcotic strategy is 
complicated and requires a comprehensive approach that equally 
prioritizes eradication, destruction of cocaine laboratories, 
interdiction of drug trafficking shipments, the arrest of traffickers, 
efforts to combat financial crimes and money laundering, and robust 
programs to consolidate the rule of law and democratic governance, as 
well a sustained strategy to advance economic development and provide 
licit economic opportunities. Do you commit to working with our 
Colombian partners to advance a comprehensive strategy that combats all 
elements of the illicit narcotics trade?

    Answer. The Administration remains deeply concerned about the 
alarming growth in Colombian coca cultivation and cocaine production. I 
understand that at the U.S.-Colombia High-Level Dialogue (HLD) on March 
1, the United States and Colombia agreed to expand counternarcotics 
cooperation over the next five years, with the shared goal of reducing 
Colombia's estimated cocaine production and coca cultivation to 50 
percent of current levels by 2023. If confirmed, I will prioritize work 
with Colombia to ensure continued progress in reducing coca cultivation 
and the production of cocaine as agreed to at the HLD, including 
through enhanced eradication, interdiction, alternative development, 
and operations to dismantle narcotrafficking organizations.


    Section 9--Question 30.  What do you plan to do to address some of 
the broader problems that are complicating our counternarcotic efforts 
in Colombia like a lack of state presence in vulnerable regions of 
Colombia and a dearth of viable economic opportunities?

    Answer. As President Trump has made clear, Colombia needs to do 
more to reverse the alarming growth in coca cultivation and cocaine 
production in Colombia, including by making more progress to expand the 
presence of security and civilian agencies to vulnerable regions. U.S. 
assistance plays a key role in supporting this effort. The 
Administration works in Colombia with all levels of government, the 
armed forces, and the private sector to extend government presence, 
confront illegality, and encourage licit, sustainable development. If 
confirmed, I will continue to work with the Colombian government to 
support the expansion of capable government services, security, and 
economic opportunities throughout the country.


    Section 9--Question 31.  Do you commit to working in partnership 
with USAID to expanding and strengthening alternative development 
programs in Colombia?

    Answer. As the President and Vice President have made clear in 
their meetings with Colombian President Juan Manuel Santos, the United 
States strongly supports Colombia's efforts to secure a just and 
lasting peace. I understand the Department of State and USAID work 
together to support Colombia's transition out of conflict towards 
durable peace through efforts to reestablish state control in 
vulnerable regions in a phased approach that combines security, 
counternarcotics, and economic and social development. If confirmed, I 
will commit to working with USAID to support government and citizen 
efforts in Colombia to expand government presence, confront illegality, 
and encourage licit, sustainable development.


    Section 9--Question 32.  Do you commit to work with the U.S. 
Department of Treasury and Justice to prioritize combatting financial 
crimes as part of our engagement with Colombia, including increasing 
money laundering prosecutions and asset forfeiture cases?

    Answer. Despite the Government of Colombia's anti-money laundering 
regime, my understanding is that the laundering of money continues to 
penetrate its economy and affect its financial institutions. I 
understand Colombia is taking appropriate steps by addressing some of 
the inefficiencies in its asset forfeiture regime. If confirmed, I will 
continue to work with the U.S. Departments of the Treasury and Justice 
to prioritize efforts to combat financial crimes.


    Section 9--Question 33.  How do you plan to work with our partners 
in Colombia to more aggressively target financial crimes?

    Answer. Colombia is a critically important partner in the fight 
against financial crimes, which fuel narcotrafficking and other forms 
of illicit activity. If confirmed, I will continue the Department's 
efforts to build Colombia's capacity to combat money laundering and 
other financial crimes, pursue forfeiture, and effectively manage 
seized assets in order to target criminal networks and crucial business 
facilitators, with the goal of disrupting and dismantling their 
organizations. I will also encourage continued collaboration between 
the Department of the Treasury, the Department of Justice, and the U.S. 
interagency to target the financial crimes of Colombia-based criminal 
organizations.


    Section 9--Question 34.  While pursuing bilateral counternarcotics 
cooperation, how can we work with Colombia to arrest its alarming 
increase in killings of social leaders and human rights defenders?

    Answer. If confirmed, I will work with Colombia to reduce drug 
flows, dismantle illegal armed groups, hold accountable those 
responsible for attacks on social leaders, and support government and 
civilian efforts to provide effective security guarantees for civil 
society.


    Section 9--Question 35.  What steps would you take to guarantee the 
political and human rights of Afro-Colombian and indigenous persons?

    Answer. The United States employs a holistic approach to promote 
peace, human rights, and social inclusion of indigenous and Afro-
Colombians, including through engagement and programs with civil 
society, the U.S.-Colombia Action Plan on Racial and Ethnic Equality, 
and ongoing dialogue with the Colombian government. If confirmed, I 
will continue to support Colombia's efforts to secure an inclusive 
peace, including implementation of the peace accord's Ethnic Chapter, 
and to hold accountable perpetrators of attacks on ethnic leaders and 
communities as a way to deter future violence.


    Section 9--Question 36.  Additionally, as we work to advance 
counternarcotics cooperation, what do you see as the role of the United 
States in helping Colombia in its implementation of the peace accord?

    Answer. As the President and Vice President have made clear in 
their meetings with Colombian President Juan Manuel Santos, the United 
States strongly supports Colombia's efforts to secure a just and 
lasting peace. Colombia remains one of the United States' strongest 
partners in the region, and successful implementation of the peace 
accord is in the national interest of both nations. Protecting civil 
society, including human rights defenders and community leaders, from 
violence is essential to ensuring that the promise of the accord is 
fulfilled. U.S. assistance plays a key role in supporting 
implementation. If confirmed, I will continue to work with the 
Colombian government to support the implementation of the peace accord.


    Section 9--Question 37.  While the Trump Administration has 
correctly expanded the use of targeted sanctions, the United States 
does not have a comprehensive policy in place to address the country's 
growing economic, humanitarian and refugee crisis. Additionally, your 
predecessor was repeatedly absent from key meetings of foreign 
ministers in the hemisphere. Moreover, as the crisis that Venezuela 
faces has reached unprecedented levels where children are malnourished, 
hospital services have collapsed, and hundreds of thousands are fleeing 
the country, the U.S. only made its first announcement of minimal 
humanitarian assistance last month. If confirmed, do you commit to 
working with Congress on a comprehensive U.S. strategy to address the 
humanitarian, political, and economic crisis in Venezuela?

    Answer. The crisis in Venezuela threatens regional stability and 
U.S. interests. It will take a whole of government approach to 
appropriately respond to the multifaceted political, economic, social, 
and humanitarian challenges and help Venezuela return to a prosperous, 
functioning democracy. President Trump launched a comprehensive 
strategy that seeks to engage our diplomatic partners, support 
democratic actors in Venezuela, hold regime officials accountable for 
their actions, and respond to the worsening humanitarian situation. If 
confirmed, I will work closely with the interagency, Congress, and our 
international partners to support a speedy resolution to these crises.


    Section 9--Question 38.  Will you prioritize humanitarian and 
refugee issues alongside sanctions and the tools needed to address 
growing criminality in Venezuela?

    Answer. If confirmed, I will seek to use the many policy tools at 
the disposal of the U.S. government to address the worsening 
humanitarian and social crises in Venezuela and in the region. For 
example, the United States has made significant financial commitments 
to respond to the outflow of Venezuelans. This crisis has led to more 
than 1.7 million Venezuelans deciding to flee their country in search 
of better conditions, and it will be important to respond aggressively 
and quickly to prevent further regional instability.


    Section 9--Question 39.  What should the United States do to ensure 
an adequate humanitarian response to the flow of Venezuelan migrants 
and refugees fleeing from the crisis in Venezuela?

    Answer. I understand the Department of State has provided more than 
$3.3 million to UNHCR to provide immediate assistance to Venezuelans in 
Colombia, Brazil, Costa Rica, and the Caribbean and is providing 
another $12 million to UNHCR for programs to assist Venezuelans 
throughout the region. In addition, USAID has also provided $5.6 
million for assistance to Venezuelans in Colombia and an additional 
$500,000 to assist Venezuelans in Brazil. If confirmed, I will continue 
the Department's work with U.S. partners in the region to determine how 
best to assist the Venezuelan people.


    Section 9--Question 40.  What do you believe is the most effective 
way to facilitate about the restoration of democracy in Venezuela?

    Answer. If confirmed, I will ensure the United States continues to 
coordinate with the international community to hold regime officials 
accountable for their actions. I will also seek to redouble our efforts 
at the Organization of American States, through the United Nations, and 
in support of the efforts of the Lima Group of nations. International 
pressure, alongside support to democratic actors in Venezuela, is 
paramount in facilitating a restoration of democracy in Venezuela.


    Section 9--Question 41.  Will you personally engage in diplomatic 
efforts and ensure that senior State Department officials have the 
tools they need to pursue a coordinated international response to the 
situation in Venezuela?

    Answer. Yes.


    Section 9--Question 42.  In August 2017, President Trump stated 
that the U.S. has a ``military option'' for Venezuela; do you support 
the use of the U.S. military to address Venezuela's political, economic 
and humanitarian crisis?

    Answer. I believe that Venezuela's political, economic, and 
humanitarian crisis can be most effectively addressed through robust 
diplomatic engagement. If confirmed, I will seek to leverage peaceful, 
diplomatic avenues to restore democracy and support the Venezuelan 
people. U.S. policy should place pressure on the regime to consider a 
new path, and it must support democratic actors in Venezuela who are 
working tirelessly to create a better future for their country.


    Section 9--Question 43.  Numerous press articles have cited that 
the Administration is considering sanctions on the Venezuelan oil 
sector; how would oil sanctions affect Venezuela's economic and 
humanitarian crisis, and how might it facilitate a diplomatic solution 
the country's political crisis?

    Answer. If confirmed, I will consider additional diplomatic and 
economic measures to support the restoration of democracy and stability 
in Venezuela, including energy sector sanctions. As with any sanctions 
measures, the United States would need to carefully weigh the 
collateral effects of further sanctions measures, including the impact 
on the humanitarian and broader economic situation in Venezuela.


                               __________

                      (Section 10--Questions 1-50)

    Section 10--Question 1.  As Secretary State, you would be required 
to provide your recommendation on whether to extend Temporary Protected 
Status (TPS) to individuals who are unable to return to the dire 
conditions in their homeland. This recommendation is generally based on 
the assessment of foreign policy professionals on the ground. More than 
200,000 Salvadoran nationals, more than 60,000 Honduran nationals, and 
more than 50,000 Haitian nationals are TPS beneficiaries. In February, 
the Department of Homeland Security working with the State Department 
terminated this status for Salvadorans and Haitians. In July, both 
Departments would have to make a decision for Honduras. Do you commit 
to making decision based on the input of career foreign service 
professions when it comes to Temporary Protected Status?

    Answer. If I am confirmed, the State Department will continue to 
draw upon its unique country, regional, and humanitarian expertise to 
evaluate country conditions against the criteria set out in the TPS 
statute and provide its collective input to DHS for use by Secretary 
Nielsen as she makes her determinations. I understand that the 
Department's regional bureaus consider input from embassies in 
assessing country conditions and providing their recommendations.


    Section 10--Question 2.  Given the severe challenges that Honduras, 
El Salvador and Haiti face, do you believe that individuals whose 
statuses were terminated, would be able to return to safe conditions?

    Answer. If I understand the Department of Homeland Security 
consulted with the Department of State as a part of its interagency 
review process to evaluate country conditions against the criteria set 
out in the TPS statute. To allow for an orderly transition, my 
understanding is that the effective termination date for Haiti will be 
July 22, 2019, and for El Salvador it will be September 9, 2019. These 
delays will also provide time for each country to prepare for the 
return and reintegration of its citizens. I understand that the 
Department of Homeland Security decision for Honduras is expected in 
May.


    Section 10--Question 3.  Do you believe that the more than 215,000 
U.S. born children, who would be forced to accompany their TPS 
beneficiary parents, would be able to return to safe conditions?

    Answer. If I understand the Department of Homeland Security 
consulted with the Department of State as a part of its interagency 
review process to evaluate country conditions against the criteria set 
out in the TPS statute. In the cases of Haiti and El Salvador, the 
Department of Homeland Security set effective TPS termination dates of 
July 22, 2019, and September 9, 2019, respectively, to allow for an 
orderly transition. Regarding U.S. citizens, I understand that the 
Department of State encourages parents to document their U.S. citizen 
children as soon as possible, and also stands ready to provide services 
to U.S. citizens through its embassies and consulates.


    Section 10--Question 4.  Given the U.S. investments in the Northern 
Triangle of Central America, do you believe that the return of more 
than 260,000 individuals would have a positive impact on the strategic 
objectives in the region?

    Answer. If I understand the Department of Homeland Security 
consulted with the Department of State as a part of its interagency 
review process to evaluate country conditions against the criteria set 
out in the TPS statute. My understanding is that with respect to El 
Salvador, the effective termination date was delayed for 18 months to 
allow for an orderly transition. If confirmed, I will work with the 
Government of El Salvador to ensure the loss of Temporary Protected 
Status in the United States does not negatively impact security, 
governance, and prosperity objectives in the region as part of the U.S. 
Strategy for Central America.


    Section 10--Question 5.  In an event at the American Enterprise 
Institute in January 2018, when asked about national security threats 
that we are not paying enough attention to you cited political risks in 
Latin America first. In FY2018 and FY2019, the President proposed 
foreign assistance budget cuts to Latin America and the Caribbean of 
36% from FY2017. As Secretary of State, do you commit to pressing the 
President for sufficient resources to address the challenges in the 
region that directly affect U.S. national security?

    Answer. If If confirmed, I will make the case to defend the 
resources that the State Department needs to carry out its diplomatic 
missions, including in Latin America.


    Section 10--Question 6.  How are you going to address the 
challenges in Latin America and the Caribbean with a significantly 
reduced budget?

    Answer. If I understand that the Department of State and USAID are 
using available foreign assistance resources in the Western Hemisphere 
to advance U.S. security and prosperity in a variety of ways. If 
confirmed, I will make the case to defend the resources that the State 
Department needs to carry out its diplomatic missions, including in 
Latin America and the Caribbean.


    Section 10--Question 7.  In a bipartisan manner, Congress rejected 
the President's proposed cuts to the region, including mostly restoring 
funding to Mexico and Colombia. Do you commit to spending 
congressionally appropriated funding for the region?

    Answer. If If confirmed, I commit to expending all congressionally 
appropriated funds, consistent with the requirements of the 
Constitution.


    Section 10--Question 8.  Several Latin American countries have been 
rocked by large-scale corruption scandals in the past year. Some 
involve massive graft, and some involve government officials' collusion 
with organized crime. Additionally, challenges facing human rights, 
political, democracy and environmental activists endure in countries 
including Cuba, Venezuela, and Honduras, among others. Is there a link 
between this corruption and the violence and poverty that drive so many 
of these countries' citizens to migrate?

    Answer. If Corruption inflicts substantial costs upon the economy 
and society of a country and undermines public confidence in the rule 
of law. The resulting insecurity and lack of economic opportunity help 
drive irregular migration in the Western Hemisphere. Fighting 
corruption is a national security priority, and the United States works 
across the globe to prevent graft, promote accountability, and empower 
reformers. The 2017 National Security Strategy underscores corruption's 
corrosive effects on U.S. national security and foreign policy 
interests. If confirmed, I look forward to continuing to stand by 
countries committed to tackling corruption by strengthening democratic 
institutions, supporting international efforts combatting corruption 
and impunity, and building support for reform by empowering citizens to 
hold their governments accountable to global standards.


    Section 10--Question 9.  What more can the U.S. government do to 
support, train, and protect people in these countries who are 
revealing, investigating, and prosecuting corruption?

    Answer. If Strengthening rule of law and judicial systems, as well 
as supporting a robust civil society, are central elements to tackling 
corruption in the Western Hemisphere. The United States has, with its 
regional partners, prioritized anti-corruption as the theme for the 
Summit of the Americas and focused on supporting anti-corruption 
champions throughout this hemisphere, to include civil society, 
journalists, and whistleblowers. If confirmed, I would continue to make 
confronting corruption in the Hemisphere a priority.


    Section 10--Question 10.  What steps would you take to decrease 
violence and murders of social activists, human rights defenders, 
ethnic minorities and journalists in the region?

    Answer. If If confirmed, I would continue to advance the U.S. 
commitment to the protection of human rights and human rights 
defenders, including journalists, around the world. Within the 
Hemisphere, if confirmed, I would continue our bilateral collaborations 
in an effort to strengthen protection mechanisms for activists and to 
reduce impunity for these crimes by holding their perpetrators 
accountable. I would also support efforts to address the 
disproportionate impact of violence on vulnerable groups, including 
ethnic minorities.


    Section 10--Question 11.  According to recent Gallup polls, in 
2017, U.S. approval ratings plummeted in every country in the region, 
placing us behind China. Alarmingly, our approval fell most among our 
two closest neighbors--Mexico and Canada. In Mexico, our approval fell 
to 16%--the lowest in over a quarter century. Are you concerned by the 
dismal approval ratings of U.S. leadership in the region?

    Answer. If U.S. engagement with partners across the Western 
Hemisphere is based on longstanding cooperation around shared values 
and objectives. If confirmed, I will continue our focus on expanding 
the security and economic prosperity of the Hemisphere and 
strengthening relationships with our partners based on our common 
interests, goals, and values.


    Section 10--Question 12.  How do you plan to rebuild our critical 
relationships in the region?

    Answer. If The United States and key partner governments in the 
region have enduring relationships based on common interests, goals, 
and values. If confirmed, I will continue the Administration's 
engagement with partners across the Americas and the Caribbean as we 
work together to promote prosperity, strengthen democracy, and improve 
the security of our citizens. If confirmed, I will take advantage of 
the momentum created by the Summit of the Americas and our longer-term 
regional initiatives, such as the Strategy for Central America, the 
Merida Initiative, our engagement in Colombia, Caribbean 2020, and the 
Caribbean Basin Security Initiative.


    Section 10--Question 13.  What public diplomacy efforts will you 
pursue to recover U.S. standing in the Western Hemisphere?

    Answer. If If confirmed, I will advance the Department's public 
diplomacy efforts throughout the region to promote people-to-people 
connections and build on the strong historical and cultural ties 
between the United States and the Hemisphere. U.S. embassies will 
continue initiatives and exchange programs that support 
entrepreneurship, innovation, and education in order to promote private 
and public sector priorities across the Hemisphere. The Department of 
State will support the growing reach and effectiveness of English 
language and education programs to expand academic exchange and joint 
workforce development efforts across the Americas.


    Section 10--Question 14.  Do you see China's increased commercial 
ties and investments in Latin America as a U.S. security threat?

    Answer. If While the United States remains the preferred trade and 
investment partner in the region, the sharp increase in China's 
engagement over the past decade presents challenges to U.S. national 
security and economic interests. China's efforts to shape standards and 
trade rules to benefit Chinese companies are, in some cases, counter to 
U.S. interests in maintaining a rules-based international order. 
Furthermore, China's lack of transparency in its investment practices 
and poor adherence to free market principles can undermine the region's 
efforts to combat corruption. However, trade and investment are not a 
zero-sum game. There is a place for multiple players that are 
interested in promoting sustainable economic development, political 
stability, and respect for democratic and social norms in the 
hemisphere.


    Section 10--Question 15.  How do you propose the U.S. reinvigorate 
its commercial diplomacy in order to maintain its competitiveness in 
the region?

    Answer. If The United States is the top trading partner for more 
than half the countries in the region and sells more goods in the 
Western Hemisphere than to all Asian countries combined. If confirmed, 
I will seek ways to build upon our commercial diplomacy efforts in 
order to ensure the United States remains the region's partner of 
choice. I would start by fostering U.S. economic growth through fair 
and reciprocal trade and investment. I would also seek to improve the 
trade and investment climate for U.S. businesses in the region. This 
work would involve improving the transparency and accountability of 
procurement practices for investment, boosting protection of 
intellectual property rights, streamlining border clearance procedures, 
and modernizing free trade agreements. Finally, I would encourage a 
whole of U.S. government approach to provide U.S. businesses and Latin 
American partners financing and project feasibility opportunities 
through the Overseas Private Investment Corporation, USAID's 
Development Credit Authority, and the U.S. Trade and Development 
Agency.


    Section 10--Question 16.  From financing repressive regimes in 
Venezuela and Cuba to meddling in elections throughout the region, 
there is growing evidence that Russia is increasing its influence in 
Latin America. Do you believe Russia is meddling in presidential 
elections throughout the region, as former National Secretary Advisor 
H.R. McMaster indicated?

    Answer. If Russia is using subversive measures to weaken democratic 
norms throughout the world. If confirmed, I will continue to support 
efforts to strengthen civil society, combat corruption, and promote 
independent journalism throughout Latin America and the Caribbean as a 
means to counter and expose misinformation efforts by Russia and other 
state actors.


    Section 10--Question 17.  If so, how do you plan to counter 
Russia's activities to undermine the integrity of elections throughout 
the region?

    Answer. If If confirmed, I will continue to support efforts to 
strengthen civil society, combat corruption, and promote independent 
journalism throughout Latin America and the Caribbean as a means to 
counter and expose misinformation efforts by Russia and other state 
actors.


    Section 10--Question 18.  During your testimony you mentioned the 
threat of Russia's ``adventuresome in Latin America.'' Can you expound 
this? Do you view Russia's presence in the Latin America as a threat to 
U.S. interests?

    Answer. If Russia has expanded its influence activities throughout 
the world in recent years. If confirmed, I would remain especially 
vigilant to increased Russian engagement in Latin America, particularly 
in the security and military sectors.


    Section 10--Question 19.  How do you plan to counter Russia's 
growing influence throughout the region?

    Answer. If If confirmed, I will continue to support efforts to 
strengthen civil society, combat corruption, and promote independent 
journalism throughout Latin America and the Caribbean as a means to 
counter and expose misinformation and influence efforts by Russia.


    Section 10--Question 20.  During your confirmation hearing, you 
stated that authoritarian governments have interests that run counter 
to U.S. national interests. Do you consider the Cuban government to be 
an authoritarian government?

    Answer. If Yes.


    Section 10--Question 21.  Do you believe that Cuba's one-party 
``election'' on April 19 will be meet the minimal international 
standards for democratic elections?

    Answer. If I agree with the assessment that Cuban citizens have had 
no real or meaningful choice during this tightly-controlled electoral 
process, which does not meet the most basic definition of democracy.


    Section 10--Question 22.  How do you plan to approach the United 
States' relationship with Cuba?

    Answer. If On June 16, 2017, the President signed a National 
Security Presidential Memorandum, ``Strengthening the Policy of the 
United States Toward Cuba,'' which advances the interests of the United 
States and the Cuban people. If confirmed, I will continue to implement 
the President's policy and focus U.S. engagement with Cuba on U.S. 
national interests, including in areas related to human rights, law 
enforcement, migration, maritime safety, environment, and enforcing 
final orders of removal against Cuban nationals in the United States.


    Section 10--Question 23.  The State Department's 2016 Human Rights 
Report on Cuba stated that Cuban citizens routinely face the absence of 
fair trials, the monitoring and censoring of their private 
communications, and a lack of freedoms of speech, assembly and press, 
as well as the use of government-sponsored threats, physical assault, 
intimidation tactics and arbitrary arrests. What is your assessment of 
human rights conditions in Cuba?

    Answer. If I agree with the Department of State's annual Human 
Rights Report, which condemns the Cuban regime's systematic abuses of 
freedom of association and freedom of expression, along with the 
harassment, restrictions on travel, and arbitrary detention of human 
rights activists, as well as its upcoming nondemocratic leadership 
transition.


    Section 10--Question 24.  How will you work to support democratic 
activists and human rights defenders in Cuba?

    Answer. If As directed by the June 16 National Security 
Presidential Memorandum, ``Strengthening the Policy of the United 
States Toward Cuba,'' the Department has focused its efforts on 
promoting improved respect for human rights in Cuba. As I understand, 
the Department monitors human rights developments in Cuba and calls out 
violations by the Cuban government. It also actively engages with 
members of Cuban civil society. The Department also continues to 
administer U.S. government-funded programs to promote democracy and the 
exercise of fundamental freedoms and to support the critical work of 
human rights defenders on the island. If confirmed, I will continue 
these lines of diplomatic effort.


    Section 10--Question 25.  Will you maintain U.S. funding for 
democracy and human rights programs in Cuba?

    Answer. If Yes.


    Section 10--Question 26.  Will you utilize all U.S. foreign policy 
tools--including Global Magnitsky sanctions--in order to address human 
rights abuses in Cuba?

    Answer. If If confirmed, I will consider all options, including use 
of Global Magnitsky, to address human rights abuses in Cuba.


    Section 10--Question 27.  Will you support programs at the 
Broadcasting Board of Governors (BBG) Office of Cuba Broadcasting 
(OCB)?

    Answer. If If confirmed, I will support the Office of Cuba 
Broadcasting's mission to promote freedom and democracy by providing 
the people of Cuba with objective news and information programming.


    Section 10--Question 28.  Given that the Cuban government continues 
to provide safe haven for numerous fugitives from the U.S. justice 
system--including Joanne Chesimard, who is on the FBI's Most Wanted 
List for killing a New Jersey State Trooper--will you ensure that U.S. 
diplomats prioritize the extradition of these individual to the U.S.?

    Answer. If The Administration continues to seek the return of U.S. 
fugitives in Cuba, including Joanne Chesimard. If confirmed, I will 
ensure that we continue to make the fugitive issue a priority in 
bilateral discussions.


    Section 10--Question 29.  Will you work with the Treasury 
Department to ensure that no revenue from American businesses goes 
directly toward supporting the Cuban military and intelligence 
services?

    Answer. If On June 16, 2017, the President signed a National 
Security Presidential Memorandum, ``Strengthening the Policy of the 
United States Toward Cuba,'' that outlines how the United States will 
address our policy toward Cuba consistent with U.S. interests. The 
policy seeks to ensure U.S. public and private engagement in Cuba does 
not disproportionately benefit the Cuban military, intelligence, or 
security services or personnel at the expense of the Cuban people. If 
confirmed, I would continue to implement this policy.


    Section 10--Question 30.  Given that the Secretary General of the 
Organization of American States has said that Cuba maintains presence 
of an ``occupation army'' in Venezuela--a country that is suffering a 
tragic political, economic and humanitarian crisis--what is your 
assessment of the Cuban government's engagement with the Venezuelan 
government?

    Answer. If In my view, the active presence of Cuban military, 
intelligence, and security personnel in Venezuela infringes upon the 
sovereignty of the Venezuelan people. Their interference exacerbates 
the country's overlapping economic, political, and humanitarian crises. 
Both the Cuban government and the Maduro regime are outliers in the 
Hemisphere when it comes to democracy, the rule of law, and respect for 
human rights.


    Section 10--Question 31.  Maintaining the functional separation of 
U.S. development missions from U.S. diplomatic missions is critically 
important, and is exemplified by maintaining USAID's independence. Do 
you agree that USAID is an independent agency--and its independence 
must be respected and preserved?

    Answer. If Yes. As the lead U.S. government agency for 
international development and disaster assistance, USAID plays a 
fundamental role in supporting American foreign policy. If confirmed, I 
look forward to working with Administrator Green and USAID's 
exceptional staff.


    Section 10--Question 32.  Will you allow USAID to determine its own 
priorities and develop its own strategic approaches to achieving its 
missions?

    Answer. If I recognize that USAID plays a critical role in 
advancing our national security and brings valuable perspective and 
depth to interagency discussions on our global priorities and strategic 
approaches. The USAID Administrator operates under the foreign-policy 
guidance of the Secretary of State, which is essential, but the Agency 
is an independent establishment of the Executive Branch. If confirmed, 
I will expect the two organizations to be able to work closely together 
to accomplish the vision of the President, and I look forward to 
working with USAID Administrator Mark Green and my other interagency 
colleagues to project American values abroad and advance our national 
interests.


    Section 10--Question 33.  Will you support and work alongside the 
USAID Administrator on a regular basis, and commit to keeping him 
informed of State Dept. policies and missions that affect USAID's 
missions?

    Answer. If Yes.


    Section 10--Question 34.  Do you agree the USAID Administrator 
should be dual-hatted as the head of USAID and a Deputy Secretary 
within the State Dept.?

    Answer. If If confirmed, I intend to manage the Department of State 
in a way that leverages and enhances the unique, complementary 
capabilities of the Department and USAID.


    Section 10--Question 35.  Do you agree that USAID should have 
autonomy over its budget, and therefore a key responsibility of the 
USAID Administrator--as a Deputy Secretary of State is to oversee the 
Foreign Assistance Resource (F) Bureau?

    Answer. If If confirmed, I intend to manage the Department of State 
in a way that leverages and enhances the unique, complementary 
capabilities of the Department and USAID, including on budgetary 
matters.


    Section 10--Question 36.  The State Department's Office of Foreign 
Assistance Resources, (F Bureau), is withholding the approval of FY 17 
Operations Plans and Spend Plans for several USAID programs and has not 
obligated funds that Congress has appropriated funds for FY 17. Prior 
to your confirmation: Will you ensure that the Committee receives an 
explanation of the extent of USAID's Operations Plans and Spend Plans 
that are still awaiting approval from F Bureau?

    Answer. If I share your concern in ensuring the Department of State 
and USAID have timely access to the resources they need to carry out 
their critical missions. I understand these funds are vital to helping 
meet the United States' overall foreign policy objectives. I am deeply 
committed to ensuring the Department of State and USAID can execute 
funding in a timely manner, and if confirmed, I will look for 
opportunities to improve the timeliness of this process while assuring 
compliance with applicable legal and other requirements.


    Section 10--Question 37.  Will you ensure that the State Department 
communicates the total amount of FY 17 appropriated funds for USAID 
programs that are still awaiting approval from F Bureau?

    Answer. If If confirmed, I will make it a priority to ensure the 
Department continues to communicate with Congress on issues of concern 
in a timely manner.


    Section 10--Question 38.  Are the delays in the approval of these 
USAID Operations Plans and Spend Plans related to policy or political 
disagreements the Department, or the Administration, has with these 
congressionally mandated programs?

    Answer. If If confirmed, I will look into any delays in approval of 
funding. I am deeply committed to ensuring the Department of State and 
USAID can execute funding in a timely manner in line with the 
congressional directives and consistent with applicable law.


    Section 10--Question 39.  Will you work to have the State 
Department provide a timeline outlining the F Bureau's work to 
apportion, approve outstanding USAID Operations Plans and Spend Plans, 
and obligate FY 16 and FY 17 appropriations?

    Answer. If If confirmed, the Department of State will continue to 
keep Congress updated on the processes of implementing funding. I am 
deeply committed to ensuring the Department of State and USAID can 
execute funding in a timely manner and will look for opportunities to 
improve the timeliness of this process while assuring compliance with 
applicable legal and other requirements.


    Section 10--Question 40.  Will you work to provide the committee 
details on all apportionments made by the Office of Management and 
Budget for FY 16 and FY 17 and FY 18, including OMB's footnotes?

    Answer. If If confirmed, I plan to work with the Office of 
Management and Budget to ensure the Department of State and USAID 
continue to have timely access to the resources needed to carry out 
their critical mission. Executive branch agencies and Congress have a 
shared responsibility for the effective oversight of the American 
taxpayer's money.


    Section 10--Question 41.  Do you believe, based on the various 
delays in obligating outstanding FY 17 funding appropriated for USAID, 
that the Administration has violated the Impoundment Control Act of 
1974, Title X of the Congressional Budget and Impoundment Control Act 
of 1974, as amended through P.L. 113-67; 2.USC 681 et SEQ? If not, why? 
If confirmed, will you commit that the State Department will never 
violate the Impoundments Act of 1974 by swiftly approving Operations 
Plans within 45 days of the 653(a) process being approved by Congress?

    Answer. If I am committed to ensuring the effectiveness of U.S. 
taxpayer dollars, driving efficiencies, and working on behalf of the 
American people to advance national security objectives and foreign 
policy goals. As I mentioned in my testimony, I will work to ensure 
that funding appropriated by Congress is obligated consistent with 
applicable law, including the Impoundment Control Act.


    Section 10--Question 42.  Secretary Tillerson's insistence to 
prolong the hiring freeze at State Department and USAID created an 
unnecessary burden on the Department and USAID and the damage of the 
hiring freeze on the State Department and USAID's functions persist 
today. Do you believe the extended time the hiring freeze was kept in 
place was a good idea and serve a beneficial purpose in advancing U.S. 
foreign policy?

    Answer. If If confirmed, I will assess the personnel decisions made 
by Secretary Tillerson, which I understand have raised a number of 
concerns within the Department and with Congress. I will fight to 
ensure that a strong, well-resourced foreign and civil service is at 
the forefront of U.S. diplomacy and that the Department is a place 
where people want to work and grow in their careers. Funding provided 
under the Appropriations Act of 2018 supports staffing levels at or 
above 2017 end-of-year levels, and if confirmed, I will set the 
Department's goal on that basis.


    Section 10--Question 43.  What is your understanding for why the 
hiring Freeze was kept in place for almost a year, and well after the 
hiring freeze was lifted for the rest of the federal government?

    Answer. If If confirmed, I will assess the personnel decisions made 
by Secretary Tillerson, which I understand have raised a number of 
concerns within the Department and with Congress. I will fight to 
ensure that a strong, well-resourced foreign and civil service is at 
the forefront of U.S. diplomacy and that the Department is a place 
where people want to work and grow in their careers.


    Section 10--Question 44.  What do you understand were the goals of 
the hiring freeze as it relates to the overall workforce size and 
attrition and buy-out goals?

    Answer. If If confirmed, I will assess the personnel decisions made 
by Secretary Tillerson, which I understand have raised a number of 
concerns within the Department and with Congress. I will fight to 
ensure that a strong, well-resourced foreign and civil service is at 
the forefront of U.S. diplomacy and that the Department is a place 
where people want to work and grow in their careers.


    Section 10--Question 45.  What is the status of meeting the hiring 
freeze targets set-out by Secretary Tillerson?

    Answer. If If confirmed, I will assess prior personnel decisions, 
which I understand have raised a number of concerns within the 
Department and with Congress. I will fight to ensure that a strong, 
well-resourced foreign and civil service is at the forefront of U.S. 
diplomacy and that the Department is a place where people want to work 
and grow in their careers. Funding provided under the Appropriations 
Act of 2018 supports staffing levels at or above 2017 end-of-year 
levels, and if confirmed, I will set the Department's goal on that 
basis.


    Section 10--Question 46.  Will you commit that you will not 
reinstate the hiring freeze?

    Answer. If My intention, if confirmed, is to return the staff 
levels of the Department's Foreign and Civil Service to those at or 
above December 31, 2017, consistent with the Consolidated 
Appropriations Act, 2018. It is my understanding that this will result 
in hiring at or above attrition levels for the remainder of FY 2018.


    Section 10--Question 47.  What is the purpose for maintaining the 
hiring freeze on the Eligible Family Members (EFM) program pertaining 
to the hiring of qualified family members of U.S. Foreign Service 
Officers and U.S. nationals, working abroad at post, to work as U.S. 
embassy or USAID employees? Why do the rules governing the continued 
hiring freeze applied to the EFM program call for any open position 
advertised at post be frozen when, or if, and EFM applies for the job? 
If confirmed, will you commit to immediately ending the hiring freeze 
that is applied to the EFM program?

    Answer. If It is my understanding that limitations on family member 
hiring have been eased. If confirmed, I will review current hiring 
policies for Eligible Family Members (EFMs). I recognize the value and 
contributions made by EFMs in support of our national security 
interests.


    Section 10--Question 48.  The State Dept.'s March 12th announcement 
to lift the hiring freeze makes the point of stating that the ``new 
Strategic Hiring Initiative that further aligns our talent and human 
capital needs with foreign policy and budget priorities''. Does 
``aligns talent and human capital to foreign policy priorities'' mean 
that State and USAID resources will be allocated based on the political 
priorities of this Administration as outlined in the Congressional 
Budget Justifications for FY 18 and FY 19?

    Answer. If If confirmed, I will aim to ensure that proposed growth 
and changes in the workforce align with the Department's policy and 
management priorities, especially on national security, public health, 
and safety. I will review the alignment of resources within the 
Department and fulfill all related reporting requirements by Congress 
in the FY 2018 Omnibus.


    Section 10--Question 49.  If the ``foreign policy and budget 
priorities'' mentioned in the announcement of the Strategic Hiring 
Initiative do not match, or run counter to, programs funded by 
Congressional appropriations, will the Strategic Hiring Initiative be 
used to allocate resources despite congressional funding mandates?

    Answer. If If confirmed, my intention is to ensure that the 
Department's hiring strategies take Congressionally funded/mandated 
program needs into account so that the resulting allocation of 
resources are made in concert with Congressional funding mandates.


    Section 10--Question 50.  For example, the FY 19 budget proposes 
cutting Democracy, Human Right and Governance programs by 40%, 
Educational and Cultural Exchange Programs by 75%. Global health 
programs by 28% and so on, so even if Congress provides you the funds, 
does ``align[ing] our talent and human capital needs with foreign 
policy and budget priorities.'' Understanding that you were not 
involved in the creation of the FY 19 State Department budget, but that 
you would be responsible for executing the budget as well as executing 
the Strategic Hiring Initiative, does the phrase ``further aligns our 
talent and human capital needs with foreign policy and budget 
priorities'' in the Strategic Hiring Initiative mean that you would 
eliminate staffing these programs in accordance with the President's FY 
19 budget proposal?

    Answer. If If confirmed, I will review the Department's FY 19 
budget submission and initiate a thorough assessment of strategic 
hiring priorities in compliance with the appropriated funding levels to 
determine how the Department's human capital best aligns with foreign 
policy objectives of the United States and all legal requirements.


                               __________

                      (Section 11--Questions 1-52)

    Section 11--Question 1. The ``Three Ds--Defense, Diplomacy, and 
Development,'' is a longstanding approach the U.S. has taken to 
executing U.S. foreign policy. What is your opinion of the Three Ds--
Defense, Diplomacy and Development and what is vision to elevate both 
diplomacy and development in an Administration where generals have 
driven national security and foreign policy thus far?

    Answer. agree that diplomacy and development are critical aspects 
of American national security, along with our military capabilities, 
particularly given the challenges we face today. As I said in my 
written testimony, one of the many values of robust diplomacy is that 
it increases our chances of solving problems peacefully. The same can 
be said for working with other countries to address their development 
challenges along their journeys to self-reliance. If confirmed, I will 
do my part to ensure the Department of State is working with our 
interagency partners to leverage each other's core competencies, so 
that we can effectively and efficiently advance our collective national 
security objectives.


    Section 11--Question 2. Do you agree that each of the Three Ds--
Defense, Diplomacy and Development are separate and equal tools in the 
President's foreign policy toolkit?

    Answer. I believe that advancing our national interests requires 
recognizing the unique capabilities that defense, diplomacy, and 
development bring to global challenges, and ensuring we deploy them in 
concert as a part of our foreign policy.


    Section 11--Question 3. Effective international development fosters 
stability, generates goodwill, and creates opportunities in developing 
countries. The (December) 2017 National Security Strategy acknowledges 
this fact by stating: ``Some of the greatest triumphs of American 
statecraft resulted from helping fragile and developing countries 
become successful societies. These successes, in turn, created 
profitable markets for American businesses, allies to help achieve 
favorable regional balances of power, and coalition partners to share 
burdens and helped create a network of states that advance our common 
interests and values.'' If confirmed, how will you support the 
elevation of development as an equal and relevant tool to diplomacy 
within the State Department, at the National Security Council and in 
discussions across the White House?

    Answer. I agree that development is a critical aspect of American 
national security, along with our military capabilities and diplomatic 
strength, particularly given the challenges we face today. As I said in 
my written testimony, one of the many values of robust diplomacy is 
that it increases our chances of solving problems peacefully. The same 
can be said for working with other countries to address their 
development challenges along their journeys to self-reliance. As the 
lead U.S. government agency on international development and disaster 
assistance, USAID plays a fundamental role in supporting American 
foreign policy, and in our efforts to ensure stability, detect and 
respond to possible pandemics, prevent conflict, and build citizen-
responsive local governance. If confirmed, I look forward to working 
with Administrator Green, the USAID staff around the world, and the 
other U.S. government departments and agencies that focus on 
development, to pursue these goals most effectively.


    Section 11--Question 4. With the elimination of the `Development' 
Directorate within the National Security Council, many congressionally 
endorsed Presidential Initiatives (like Power Africa and Feed the 
Future) that have significant development outcomes have been neglected. 
If confirmed, will you support these important initiatives and elevate 
their use as a tool for both national security and American prosperity?

    Answer. I agree that well-designed and accountable development 
initiatives are an important tool to elevate national security and 
American prosperity. If confirmed, I look forward to working with USAID 
Administrator Mark Green and reviewing specific development 
initiatives, including Power Africa, Feed the Future, and other 
efforts, and to consult with you as we seek the most-effective ways to 
advance our national interest and engage with partner nations to 
advance their self-reliance and promote global stability.


    Section 11--Question 5. The 2017 National Defense Authorization Act 
includes several provisions (Sections 335, 583, and 1075), which 
illustrate a link between defense, diplomacy and development in 
preserving human rights, mitigating conflict and natural disasters, and 
protecting national security interests. If confirmed as Secretary of 
State, how will you work across the Three Ds to recalibrate the 
National Security Strategy, and embrace a strategic approach to 
democracy, human rights and conflict being a strategic and national 
security interest of America?

    Answer. I agree that these aspects of American foreign policy are 
intrinsically linked and, if confirmed, I will work to advance a 
strategic approach that deploys the ``three Ds'' to advance our 
national interests. I look forward to working with USAID, the 
Department of Defense, and other U.S. departments and agencies to 
advance the tenets of the National Security Strategy, including by 
increasing American influence abroad, promoting American prosperity, 
and addressing threats to global instability and American security.


    Section 11--Question 6. Do you agree that improving economic 
opportunity, health outcomes, food security, and addressing natural 
resource scarcity in developing and fragile countries reduces 
insecurity and instability risks?

    Answer. Yes.


    Section 11--Question 7. Development plays a critical role in 
America's smart power approach to combating the drivers that result in 
poverty and lack of economic opportunity, poor health and education 
outcomes, food insecurity, failing democracies and the absence of human 
rights for all in a society. In the 2018 U.S. National Security 
Strategy, the Administration states, ``We will partner with our allies 
to alleviate the worst poverty and suffering, which fuels 
instability.'' What is your position on dual-hatting the USAID 
Administrator as a Deputy Secretary of State?

    Answer. I agree that development plays a critical role in combating 
the drivers of global instability. If confirmed, I look forward to 
working with USAID Administrator Mark Green to ensure we are working 
together closely to leverage and enhance the unique, complementary 
capabilities of the Department of State and USAID, and that our funding 
needs are met and supported.


    Section 11--Question 8. Will you support and work alongside the 
USAID Administrator on a regular basis, and commit to keeping him 
informed of State Dept. policies and missions that affect USAID's 
missions?

    Answer. Yes.


    Section 11--Question 9. Do you believe USAID should have autonomy 
over its budget?

    Answer. The Administrator of USAID operates under the foreign 
policy guidance of the Secretary of State, which is essential, but 
USAID is an independent establishment of the executive branch. If 
confirmed, I will expect the two organizations to be able to work 
closely together to accomplish the vision of the President. I look 
forward to working closely with Administrator Green to support his 
priorities and the work of USAID.


    Section 11--Question 10. U.S. foreign policy has prioritized 
diplomacy and development activities that engage public and private 
sector partners in eradicating global health pandemics, feed the world 
through agriculture and invest in small farmers, heighten trade and 
economic development, elevate the full rights of women and marginalized 
people and expand access to electricity to reduce poverty and power 
market growth. What priorities will you advance?

    Answer. I agree that well-designed and accountable development 
initiatives are an important tool to elevate national security and 
American prosperity. If confirmed, I look forward to working with 
Administrator Green in implementing the full range of USAID development 
initiatives that expand economic opportunity, address global health 
issues, build strong democratic societies, and help create and 
strengthen our global partnerships.


    Section 11--Question 11. Do you support the extension of the 
following Presidential Initiatives: Power Africa, Feed the Future, the 
Young African Leaders Initiative, Let Girls Learn, and the President's 
Emergency Plan for Aids Relief?

    Answer. If confirmed, I look forward to closely reviewing all U.S. 
global assistance programs, including the ones you referenced in your 
question, and working with Administrator Green, you, and other Members 
of Congress on developing and executing U.S. development programs.


    Section 11--Question 12. As CIA Director, you observed and stated 
``It's often the case that in a dangerous world, America is the only 
country that can present the leadership that can solve many, many 
problems.'' As a member of the Tom Lantos Human Rights Commission 
during his time in Congress, you said, ``I will continue to advocate 
for a foreign policy focused on our long-held principles of advancing 
freedom and justice that also upholds the national interests of the 
United States. America must lead to keep Americans safe, and keeping 
Americans safe is my constitutional responsibility.'' Do you stand by 
these statements and if so how do you these principles apply to your 
philosophy on the value and delivery of U.S. development assistance?

    Answer. Yes, I stand by these statements. I believe democracy 
programs that help to advance freedom and justice are critical for 
defending national security, fostering economic opportunities for the 
American people, and asserting U.S. leadership and influence. The State 
Department and USAID's efforts in this area work to advance a more 
secure and prosperous world by helping to support more stable and 
resilient societies that will lead to their own development.


    Section 11--Question 13. Does the type of leadership you describe 
in this statement also apply to continue U.S. engagement and leadership 
in multilateral forums focused on working cooperatively towards solving 
global challenges?

    Answer. If confirmed, I would support U.S. engagement and 
leadership in multilateral forums that advance U.S. interests and 
develop solutions for global challenges.


    Section 11--Question 14. The Obama Administration maintained a host 
of Special Envoy and Representative Offices at the State Department, 
including 17 Special Envoys and 16 Special Representatives. What is 
your position on maintaining these offices?

    Answer. I understand that Secretary Tillerson presented a proposal 
to Congress on Special Envoys. I look forward to reviewing it 
thoroughly and discussing it with the Committee, if confirmed.


    Section 11--Question 15. In the event you decide to eliminate or 
consolidate these select offices, will you commit to work with the 
State Dept. staff and relevant interagency partners that engage with 
these offices (ex. USAID leads the U.S. government's Global Food 
Security Initiative and should be consulted if the State Department's 
Global Food Security office is consolidated into the Economic Growth, 
Energy and Environment Bureau)?

    Answer. Yes, I am committed to regular discussion and dialogue with 
State Department and interagency colleagues.


    Section 11--Question 16. As of December 2016, the State had 75,420 
total employees, which includes full-time permanent direct hire Foreign 
Service, civil service personnel and all locally employed staff; with 
about 71 percent of State employees were white, compared to 15 percent 
African American, 6 percent Asian and 4.5 percent multi-race. If 
confirmed, what will you do to elevate and embrace the diversity of 
people, voices and backgrounds within the State Department's workforce?

    Answer. As I stated during my testimony, I am committed to 
achieving a diverse workforce and ensuring that every team member is 
treated equally, with respect and dignity.
    I understand that the Bureau of Human Resources and the Office of 
Civil Rights continuously assess and evaluate the Department's 
effectiveness in advancing diversity. If confirmed, I will work towards 
creating a more diverse State Department work force in every sense: in 
terms of race, religion, background, and more. As I have done at the 
CIA, I will achieve this by focusing on the mission and treating every 
team member with dignity and respect.


    Section 11--Question 17. Will you commit to fully support the full 
funding and maintenance of the Rangel Fellows program, and diversity 
initiatives at large within the State Department?

    Answer. I am committed to ensuring we recruit, train and develop a 
diverse workforce capable of executing the State Department's mission. 
I have been briefed on the Rangel Fellowship program and understand it 
is an important part of achieving these important goals.


    Section 11--Question 18. Today at the State Department, there has 
been an 18 percent drop in the Senior Foreign Service; and in 2017, of 
143 Career Foreign Service officers that competed for promotion; 20 
were minorities (African American, Latino, Asian, American Indian, and 
Mixed Race), 4 promotions were issued--of which 3 were White and 1 
Asian. What are your reactions to these promotions?

    Answer. I agree that a steady flow of diverse foreign service (and 
civil service) officers at all ranks is important to creating a dynamic 
and effective workforce. If confirmed, I look forward to being briefed 
in detail in the Department's efforts to ensure the promotion process 
is fair and transparent.


    Section 11--Question 19. If confirmed, what will you do to support 
more minority candidates applying and successfully receiving promotions 
within the Senior Foreign Service?

    Answer. If confirmed, I will work towards creating a more diverse 
State Department work force in every sense: in terms of race, religion, 
background, and more. I understand the Department made some initial 
steps in this regard and I look forward to being briefed on the status 
of this initiative and other ideas for making the senior level 
selection process fair to all, regardless of race and religious 
background.


    Section 11--Question 20. We have seen in regions like the horn of 
Africa skirmishes over grazing lands erupt, and food insecurity and 
extreme drought in places like Syria have been pointed to as 
contributing factors to the violence that we see today. This violence 
in turn is ramping up food insecurity. There are currently four 
countries facing man-made famine or near famine conditions, stemming 
from prolonged instability, war, and conflict. You are a leading voice 
on the importance of responding to food insecurity and its impact on 
America's national security. At a 2016 USGLC event in South Carolina, 
you praised America's leadership on global food security in the battle 
against terrorism, calling it ``another important issue to keep America 
safe, which we don't have famine and starvation causing folks who want 
to put on bomb vests instead of engage in commerce.'' Do you still 
stand by these comments?

    Answer. Yes.


    Section 11--Question 21. If confirmed, what will you do to elevate 
the food continuum of food assistance (humanitarian assistance), 
resilience (both humanitarian assistance and development), food 
security (development assistance), and agricultural trade and 
investment (development assistance and development finance)?

    Answer. Alleviating global hunger and malnutrition requires short-
term investments to address immediate needs, and long-term investments 
to improve resilience to natural and man-made shocks as well as to 
create strong markets and food systems. If confirmed, I will work to 
improve coordination between humanitarian and development assistance in 
order to reduce the burden to U.S. taxpayers and to maximize the impact 
of U.S. foreign aid. The U.S. Global Food Security Strategy, 
implemented by Feed the Future (FTF), calls for greater coordination 
between these types of investments. The Administration is coordinating 
investments in humanitarian assistance, agricultural development, and 
trade in FTF target countries, such as Ethiopia, Kenya, and Nigeria.


    Section 11--Question 22. Is it in the U.S. interest to help lead 
and initiate programs designed to improve food security?

    Answer. Yes.


    Section 11--Question 23. Is it in the U.S. interest to work towards 
addressing the causes of food insecurity, including growing scarcity of 
natural resources?

    Answer. Yes.


    Section 11--Question 24. The slogan ``America First'' advances a 
political message that emphasizes the advancement of singular U.S. 
interests in our foreign policy that runs the risk of complicating U.S. 
development initiatives. Successful international development programs 
depends upon the ability of our private sector and NGO implementing 
partners and the credibility they have abroad. ``America First'' risks 
putting forward the appearance that U.S .companies and NGOs are 
political operatives of the U.S. Government, and puts them at greater 
risk of being targeted by the extremist influences their work is 
counteracting. Should the delivery of U.S. development assistance be a 
shared endeavor with NGO and private sector partners?

    Answer. Yes.


    Section 11--Question 25. How do you think foreign leaders, 
including U.S. adversaries who are competing with us for influence in 
vulnerable and strategic countries, interpret and process the ``America 
First'' doctrine?

    Answer. The President's ``America First'' agenda prioritizes the 
well-being of Americans, bolsters U.S. national security, secures our 
borders, and advances U.S. economic interests. Within this broad 
vision, key U.S. allies share many of the same objectives and are eager 
to work together to create a safer, more secure and prosperous world. 
If confirmed, I will continue to work with our allies to advance these 
shared objectives.


    Section 11--Question 26. Do you believe the U.S. private sector 
should be political agents of the Trump administration?

    Answer. The U.S. private sector is an important partner, 
particularly as the State Department and USAID work together on 
critical public and private partnerships to advance key development 
objectives around the world. By continuing to leverage the expertise 
and resources of these critical partners, I believe both the State 
Department and USAID will be better placed to advance our U.S. foreign 
policy objectives.


    Section 11--Question 27. Do you understand why our U.S. development 
partners are anxious about how ``America First'' complicates their work 
and risks giving the appearance that they are political agents at the 
service of the United States Government when they help administer 
development assistance on-the-ground?

    Answer. The President's ``America First'' agenda prioritizes the 
well-being of Americans, bolsters U.S. national security, secures our 
borders, and advances U.S. economic interests. Within this broad 
vision, key U.S. allies share many of the same objectives and are eager 
to work together to create a safer, more secure and prosperous world. 
If confirmed, I will continue to work with our allies to advance these 
shared objectives.


    Section 11--Question 28. If confirmed, Will you commit to working 
with development stakeholders to understand better the value of 
development assistance and the consequences of overexposure of the 
``America First'' doctrine?

    Answer. If confirmed, I commit to working closely with development 
stakeholders to inform U.S. development assistance policy.


    Section 11--Question 29. There are numerous international 
conventions and forums that the U.S. is party to and has traditionally 
played critical leadership roles within. Do you believe U.S. interests 
are best served when the U.S. plays a leadership role, and engages to 
the fullest, in international forums where major policies and decisions 
are made that will effect U.S. national security and economic 
interests?''

    Answer. Yes, in those cases where it best serves America's 
interests.


    Section 11--Question 30. Historically, the State Department plays 
the role of being the principle department responsible for diplomatic 
engagement and representing the U.S. to international conventions that 
the U.S. is party to. Do you believe that the State Department must 
retain its authority, and defend its traditional role, in being the 
principal representative of the U.S. overseas?

    Answer. Yes.


    Section 11--Question 31. In 2017, this administration's 13 
scientific agencies affirmed that humans ``are the dominant cause of 
the observed warming since the mid-20th century.'' Do you accept that 
conclusion?

    Answer. As I stated my testimony, I agree that there is likely a 
human component to climate change.


    Section 11--Question 32. What do you see as the State Department's 
role in incorporating that scientific finding into policy-making?

    Answer. If confirmed, the Department of State will make decisions 
that are informed by the best scientific and intelligence assessments.


    Section 11--Question 33. If confirmed, will you commit to upholding 
the Department of State's scientific integrity policy, which recognizes 
that ``Science plays a key role in informing policy, including foreign 
policy, and is a key aspect of sound, fact-based decision making. The 
Department of State is committed to science-based policy making, and to 
increasing international collaboration to advance global scientific 
knowledge''?

    Answer. Yes.


    Section 11--Question 34. Recent gas finds in the eastern 
Mediterranean have the potential to make Israel a net energy exporter 
for the first time in its history and have created opportunities for 
energy cooperation as well as potential conflict between Israel and its 
neighbors. What do you believe is the United States role in Middle East 
energy diplomacy?

    Answer. I believe the United States can play a major role in Middle 
East energy diplomacy. If confirmed, I would use energy diplomacy to 
help diversify energy sectors in the region, reduce vulnerabilities, 
promote mutual energy security interests, and ensure the region's 
resources are used for development and prosperity, not conflict. I also 
would support increasing U.S. energy resource and technology exports to 
the region and building open, transparent energy markets in which U.S. 
businesses can compete fairly for new opportunities.


    Section 11--Question 35. If confirmed, what will your priorities be 
with respect to your Bureau's engagement in the region?

    Answer. If confirmed, my priority for energy engagement in the 
Middle East would be ensuring the region contributes to global security 
by supporting stable and efficient global energy markets. I would work 
with our partners in the Middle East to diversify their energy sectors 
and encourage greater energy integration as a foundation for peace and 
shared economic prosperity. I also would promote new opportunities for 
U.S. businesses and new export markets for U.S. energy resources, 
technologies, and services.


    Section 11--Question 36. Lebanon's recent offshore gas tender 
includes part of Israel and Lebanon's disputed maritime border. Israeli 
Energy Minister Yuval Steinitz has said that a diplomatic resolution to 
the dispute ``is preferable to threats'' but has also warned Lebanon 
not to explore in the disputed line of contact. If confirmed, how will 
you engage with both sides to resolve this issue?

    Answer. If confirmed, I would seek to help the parties proceed in 
reaching a resolution quickly and in a manner acceptable to both 
Lebanon and Israel.


    Section 11--Question 37. Do you see any potential for cooperation 
between the two countries?

    Answer. Yes.


    Section 11--Question 38. Iraq, despite its hydrocarbon resources, 
is Iran's second largest export market for natural gas. How can 
improvements to Iraq's energy infrastructure improve its domestic gas 
production capacity?

    Answer. Iraq could reduce its gas imports, improve electricity 
reliability, and become a major gas exporter if it develops its natural 
gas resources and addresses significant natural gas flaring. U.S. 
companies are participating successfully in Iraq's gas industry. If 
confirmed, I would ensure the State Department continues to seek 
opportunities for U.S. companies to help reduce flaring and develop 
these resources.


    Section 11--Question 39. If confirmed, how would you work with Iraq 
to lessen its dependence on Iranian gas?

    Answer. If confirmed, I would continue State Department efforts to 
assist Iraq in expanding its natural gas infrastructure. The State 
Department would also continue urging the Iraqi government to change 
how it contracts with international oil companies for oil field 
management to add incentives to capture, rather than flare, natural 
gas.


    Section 11--Question 40. The previous administration's effort on 
clean energy cooperation with China proved to be a bright spot in the 
U.S.-China relationship. Do you believe clean energy cooperation with 
China and India is in the U.S. interest?

    Answer. If confirmed, I will promote secure, stable, diversified, 
and modern global energy systems that use a broad range of market-based 
energy solutions with China, India, and other countries around the 
world.


    Section 11--Question 41. Will you commit to continuing the separate 
bilateral efforts on clean energy development with China and India?

    Answer. If confirmed, I will work with China and India through 
separate bilateral efforts and in multilateral fora on all energy 
issues, including cleaner energy development. These efforts will align 
with U.S. energy security goals of promoting secure, stable, 
diversified, and modern global energy systems that use a broad range of 
market-based energy solutions.


    Section 11--Question 42. Helping improve developing countries' 
responsibly improve their energy security is critical to advancing U.S. 
national security interests around the world. If confirmed, how would 
you approach advising foreign governments, including developing 
countries and countries with concentrations of vulnerable populations 
living near energy resources or industrial areas, about public health, 
safety and liability regulation of energy developers?

    Answer. If confirmed, I would work to help developing countries 
responsibly improve their energy security, and to share U.S. best 
practices regarding health, safety, and legal issues that arise in 
developing all forms of energy. I would continue State Department 
efforts to strengthen energy sector governance, access, and reliability 
and build the capacity of governments to balance their energy security, 
economic development, and environmental protection for long-term 
national benefit.


    Section 11--Question 43. Will you commit to engaging with civil 
society and local community representatives, including marginalized 
populations and women leaders, in your diplomatic engagements on energy 
development abroad?

    Answer. Yes.


    Section 11--Question 44. The State Department and USAID's Joint 
Strategic Plan's Objective Goal 2.3.1 states: ``By 2022, promote an 
increase in U.S. energy exports and achieve for the United States, its 
allies, and partners increased energy security and access to 
diversified, affordable, and reliable energy sources.'' How do you 
define or interpret ``U.S. energy exports'', as described in Objective 
Goal 2.3.1 of the State Dept., and USAID's Joint Strategic Plan? Do you 
support including the facilitation of U.S. energy developers, not just 
fuels, to gain access to foreign markets?

    Answer. My understanding is that ``U.S. energy exports'' include 
exports of our energy resources, technologies, equipment, and services. 
U.S. energy companies (including energy developers) are part of that 
strategic and economic value chain.


    Section 11--Question 45. What are the ``energy exports'' referred 
to in Objective Goal 2.3.1?

    Answer. My understanding is that U.S. ``energy exports'' include 
exports of our energy resources, technologies, equipment, and services.


    Section 11--Question 46. If confirmed, how would you ``promote'' 
U.S. oil or coal exports in foreign policy when these commodities are 
traded globally based on global market prices per unit, and that the 
basic economic principles of supply and demand determine production and 
sales?

    Answer. If confirmed, I would promote U.S. oil and coal exports by 
promoting open, transparent, and market-based energy sectors and 
removing barriers to trade, which increases opportunities for U.S. 
energy exporters regardless of fluctuations in commodity prices. I 
would also promote these exports by underscoring that U.S. companies 
are the most reliable and technically advanced suppliers of oil, coal, 
and other energy resources.


    Section 11--Question 47. Do you believe it is appropriate for the 
State Department to endorse or promote specific energy technologies, 
products, or companies?

    Answer. If confirmed, I will promote exports of U.S. energy 
resources, technologies, and services in line with the ``all-of-the-
above approach'' and will coordinate with colleagues across the 
interagency, particularly at the U.S. Department of Commerce, to 
determine when business advocacy for a specific U.S. company is 
appropriate.


    Section 11--Question 48. If confirmed, will State Department engage 
with countries that have asked for U.S. support and advice in pursuit 
of energy development according to their self-determined interests?

    Answer. I support the Trump Administration's ``all-of-the-above'' 
approach to energy policy. If confirmed, I would support promoting 
energy security for our partners and allies by promoting diverse global 
energy supplies from all energy sources.


    Section 11--Question 49. Will you commit to upholding the 
principles of self-determination within the Power Africa program?

    Answer. If confirmed, I will commit to seek the support and buy-in 
of African countries in the Power Africa program.


    Section 11--Question 50. What host-country factors, beyond State 
Department's own resource and capacity constraints, would result in the 
U.S. limiting or restraining engagement on energy diplomacy?

    Answer. Host-country factors that would result in the United States 
limiting or restraining energy diplomacy engagement include a host-
country's policy priorities and political will, technical and human 
resource capacity, and other domestic factors. Additionally, U.S. 
sanctions can also limit or restrain U.S. engagement in targeted 
countries.


    Section 11--Question 51. Would you oppose State Department 
engagement in facilitating of energy resource development in countries 
that want U.S. technical expertise but may not want to import ``U.S. 
energy export''?

    Answer. If confirmed, I would strongly support the promotion of 
U.S. energy exports, as well as State Department efforts to advance 
energy resource development, along with good governance and open 
markets for all energy sources globally. Open, rules-based global 
energy markets enhance the energy security of the United States and our 
partners and create opportunities for U.S. businesses to compete 
successfully.


    Section 11--Question 52. Do you believe that U.S. foreign energy 
policy and diplomacy encouraging foreign countries, particularly 
developing countries, to pursue the development of energy generation 
from imported fuels, comports with the broader U.S. foreign policy 
objective of ensuring that developing countries achieve self-reliance?

    Answer. I believe that U.S. foreign energy policy that promotes 
diversification of energy sources, supplies, and routes comports with 
the broader U.S. foreign policy objective of encouraging foreign 
countries to pursue market-driven development of all energy sources, 
including their own domestic production.


                               __________

                      (Section 12--Questions 1-51)

    Section 12--Question 1.  In the 2018 State of the Union, the 
President said: ``I am asking the Congress to pass legislation to help 
ensure American foreign assistance dollars always serve American 
interests, and only go to our friends.'' What do you believe the 
President meant when he said this?

    Answer. As the President said, American foreign assistance should 
serve American interests. State Department and USAID foreign assistance 
programs should always protect the American people, promote U.S. 
prosperity, and advance American interests and values.


    Section 12--Question 2.  Is the State Department, USAID or CIA 
following any orders that reflect the President's wishes with respect 
to this statement?

    Answer. The State Department and USAID foreign assistance programs 
work to protect the American people, promote U.S. prosperity, and 
advance American interests and values. If confirmed, I will ensure that 
foreign assistance programs continue to meet these aims.


    Section 12--Question 3.  How do you believe a policy that 
``ensure[s] American foreign assistance dollars always serve American 
interests, and only go to our friends'' would, or should, be carried by 
the State Department?

    Answer. It is important to assess our foreign assistance based on a 
number of factors, with the top priority being that it should serve 
American interests. Countries' support for U.S. priorities is one 
indicator to consider, but there are other important factors to 
consider as well.


    Section 12--Question 4.  Do you believe the U.S. should limit 
diplomatic and development engagements to our ``friends''?

    Answer. It is important to assess our foreign assistance as well as 
diplomatic engagement based on a number of factors, with the top 
priority being that it should serve American interests. Countries' 
support for U.S. priorities is one indicator to consider, but there are 
other important factors to consider as well.


    Section 12--Question 5.  Who are our ``friends''?

    Answer. The United States has a long history of working together 
with countries around the world to advance our shared objectives. If 
confirmed, I look forward to continuing to work with our allies and 
partners to create a safer, more secure and prosperous world.


    Section 12--Question 6.  Would you agree that disengaging with 
nations who may not necessarily be our ``friends'' could create 
opportunities for our global competitors like Russia and China, or 
extremist elements like Boko Haram and ISIS, to fill the void we 
create?

    Answer. I believe it is important to assess our relationships with 
other countries based on a number of factors, with the top one being 
that our engagement should serve American interests.


    Section 12--Question 7.  If a country determines its best interests 
are to mobilize its own domestic resources, i.e. potential to 
discontinue the importation of U.S. goods like energy resources, would 
that count against considering them ``an economic partner of the U.S.'' 
or not a ``friend''?

    Answer. It is in the U.S. interest to foster partners around that 
world that maintain open markets with fair access to American companies 
and have strong legal and commercial systems that U.S. companies would 
be able to operate under productively. When other countries mobilize 
domestic resources, this can catalyze commerce and trade, which also 
creates markets for U.S. exports and opportunities for U.S. investors.


    Section 12--Question 8.  You have called Wikileaks a ``non-state 
hostile intelligence service'' that ``will take down America any way 
they can and find any willing partner to achieve that end.'' Do you 
think it is appropriate for State Department officials, or those 
nominated to State Department positions, to promote WikiLeaks material, 
especially material that the intelligence professionals you currently 
oversee have concluded was stolen from American citizens by hackers 
associated with the Russian military?

    Answer. I do not support promoting WikiLeaks material. I never have 
supported WikiLeaks, its members, or its activities.


    Section 12--Question 9.  A Bloomberg report from March 2018 stated 
that Bijan Kian helped prepare you for your CIA confirmation hearing as 
part of his role on the transition team (Kina's LinkedIn profile listed 
his position as ``Presidential Transition Team's Intelligence Community 
Deputy Lead- ODNI Landing Team''). The same report also stated that 
Bijan Kian and Michael Flynn promoted a proposal ``to hire private 
security contractors to collect information around the globe.'' Please 
describe your relationship with Bijan Kian, including when you first 
met him any role he played in your confirmation process for CIA 
director, and any other interactions you had with him.

    Answer. I do not recall meeting Bijan Kian or his role in my 
confirmation process for CIA Director. I spoke with many people during 
the transition process, and as Director of the CIA, and cannot rule out 
the possibility of having met Mr. Kian at some point.


    Section 12--Question 10.  Were you aware of the reported Flynn-Kian 
proposal to hire private security contractors to collect intelligence? 
If so, please describe your knowledge of the proposal and your 
assessment of it.

    Answer. During the transition period, and as DCIA, I have heard of 
a variety of proposals to have private contractors collect 
intelligence. I do not recall a ``Flynn-Kian'' proposal.


    Section 12--Question 11.  A December 2017 report from the Intercept 
stated that the Trump Administration considered ``a set of proposals 
developed by Blackwater founder Erik Prince to provide CIA director 
Mike Pompeo and the White House with a global, private spy network that 
would circumvent official U.S. intelligence agencies.'' The report also 
stated that ``according to two former senior intelligence officials, 
Pompeo has embraced the plan and lobbied the White House to approve the 
contract'' and that ``[employees] at Amyntor have boasted that they 
have already sent intelligence reports to Pompeo.'' Were you aware of 
the reported Prince proposal? If so, please describe your knowledge of 
the proposal and your assessment of it.

    Answer. I was generally aware of the proposal, but did not have 
specific details. Ultimately, multiple stakeholders decided not to 
further pursue the proposal; therefore it was not necessary to provide 
me with additional details.


    Section 12--Question 12.  As Director of the CIA, did you ever 
receive intelligence reports from Amyntor?

    Answer. To the best of my recollection, I did not receive any 
intelligence reports from Amyntor.


    Section 12--Question 13.  Erik Prince has also proposed using 
military contractors to replace U.S. troops in Afghanistan. What is 
your assessment of Erik Prince's proposal for Afghanistan? If confirmed 
as Secretary of State, would you support his proposal?

    Answer. I did not, as Director of the CIA, make a formal assessment 
of Erik Prince's proposal for Afghanistan.
    If confirmed, I will consult with the President's national security 
team, to include Secretary of Defense Mattis, to evaluate all options 
to ensure success in Afghanistan. Our objective in Afghanistan is a 
sustainable political outcome that prevents militant groups from 
exploiting Afghan territory to execute attacks on the U.S. homeland. 
The President's South Asia strategy seeks to fulfill this objective by 
setting the conditions necessary to drive the Taliban into peace 
negotiations with the Afghan government. If confirmed, I will ensure 
that the Department of State continues to complement U.S. military 
efforts, and I will utilize all diplomatic resources to launch a peace 
process that ends the war in Afghanistan.


    Section 12--Question 14.  A November 2017 report from the 
Washington Post stated that ``the week after President Trump's 
inauguration, national security adviser Michael Flynn forwarded a memo 
written by a former business associate and told his staff to fashion it 
into a policy for President Trump's approval.'' The proposal reportedly 
was from IP3, a company that Flynn served as an advisor for from August 
to December 2016, and involved building nuclear power plants in the 
Middle East. Were you ever made aware of this proposal before it was 
reported in the press, and were you aware of Michael Flynn's previous 
role as an advisor to IP3 before it was reported in the press?

    Answer. I do not recall being aware of this information.


    Section 12--Question 15.  As Director of the CIA, have you or your 
staff ever met or communicated with IP3 or other outside groups 
advocating for the export of nuclear technology to Saudi Arabia?

    Answer. I do not discuss who I met with.


    Section 12--Question 16.  Did you and your staff ever direct CIA 
personnel to meet with IP3? If so: Was this at the request of the White 
House? Why did you believe this to be an appropriate use of Agency 
resources?

    Answer. I do not recall directing any such personnel to meet with 
IP3.


    Section 12--Question 17.  You have stated that, as CIA director, 
you personally delivered the PDB to President Trump. At the beginning 
of 2017, the White House learned that Michael Flynn was potentially 
vulnerable to blackmail because he lied about contacts with the Russian 
government. A June 2017 report by the New York Times stated that 
``career officials [at the CIA] agreed that Mr. Flynn represented an 
urgent problem. Yet nearly every day for three weeks, the new C.I.A. 
director, Mike Pompeo, sat in the Oval Office and briefed President 
Trump on the nation's most sensitive intelligence--with Mr. Flynn 
listening.'' Were you aware of the concerns of the FBI, the Department 
of Justice, and your own CIA officers regarding Flynn? If so: Did you 
voice these concerns to President Trump or any other White House 
official? Did you consider it in the best interest of U.S. national 
security to continue to present the PDB in Flynn's presence?

    Answer. I cannot speak to the allegations against Mr. Flynn. I 
defer to the Department of Justice and FBI, who are in the best 
position to evaluate any security concerns regarding Mr. Flynn.


    Section 12--Question 18.  A February 2018 report by the Washington 
Post reported that, apart from National Security Council staff, Jared 
Kushner, who at the time had held an interim TS/SCI clearance for more 
than a year, ``issue[d] more requests for information to the 
intelligence community than any White House employee.'' Kushner 
subsequently had his security clearance downgraded to an interim Secret 
clearance, reportedly because of concerns that foreign governments 
might try to use his business interests and financial situation to 
influence him with business deals. There are also recent reports that 
Kushner may have provided classified information from the PDB to 
government officials from the Kingdom of Saudi Arabia. As Director of 
the CIA, were you aware of the concerns that kept Kushner on an interim 
clearance for over a year and eventually resulted in his security 
clearance downgrade? If so: Did you voice these concerns to President 
Trump or any other White House official? Did you consider it in the 
best interest of U.S. national security to continue to present the PDB 
in Kushner's presence and respond to his information requests?

    Answer. I was not aware of any specific concerns regarding Mr. 
Kushner's security clearance. As I said during my hearing, I am not 
going to discuss conversations that the President and I may have had 
over the course of my tenure as Director of the CIA.


    Section 12--Question 19.  Before it was reported in the press, were 
you aware that Kushner may have provided classified information to 
Saudi officials?

    Answer. I was not aware of any such allegations prior to the press 
having reported the allegations.


    Section 12--Question 20.  The Koch foundation has a foreign policy 
arm that has donated many millions of dollars in research grants to 
U.S. universities, according to the Washington Post, as ``part of a 
larger effort to broaden the debate about an American foreign policy 
Koch and others at his foundation argue has become too militaristic, 
interventionist and expensive''. According to the report, ``the 
foundation's grants are designed to encourage research that advances 
the realist school of foreign policy, a view that is skeptical of 
American-led humanitarian interventions, abhors nation-building in 
places like Iraq or Afghanistan and preaches the importance of 
restraint on the world stage.'' You have said in the past that ``as I 
read the things Mr. Koch has written, those philosophies are pretty 
consistent with what I believe.'' Are Mr. Koch's philosophies on 
foreign policy also consistent with what you believe?

    Answer. I expect that I would agree with some of the views and 
disagree with others, as would be expected regarding a subject like 
foreign policy, which involves a broad range of many different issues.


    Section 12--Question 21.  Your nomination questionnaire for the 
U.S. Senate Select Committee on Intelligence (SSCI) asked whether 
``During the past 10 years, have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or any entity controlled by a 
foreign government? If so, please provide details.'' You replied 
``No.'' An April 2018 report from McClatchy stated you were listed as 
an owner of SJ Petro in its 2007 annual report, and were a signing 
member in 2008. The report also states that SJ Petro is a subsidiary of 
Sinopec, which is majority-owned by China Petrochemical Corporation, a 
Chinese government state-owned enterprise. Do you stand by the 
statement you made in your SSCI questionnaire that for the previous ten 
years you had not been involved in any financial or business 
transactions with any entity controlled by a foreign government?

    Answer. Yes.


    Section 12--Question 22.  During remarks you gave in July 2017, you 
said that ``one of the very first things I did when I became the CIA 
director was to put the person in charge of counterintelligence 
reporting directly to me.'' According to a report by the Washington 
Post from August 2017, after you made that change, the 
counterintelligence center was the only one in the CIA organizational 
chart that did not report to your deputy, and you would have been able 
to receive full briefings from the center without making it report 
directly to you. According to the report, the center ``helped trigger 
the investigation into possible collusion between the Trump campaign 
and Russia by serving as a conduit to the FBI last year for information 
the CIA developed on contacts between Russian individuals and Trump 
campaign associates'' and it ``continues to pursue leads on Moscow's 
election interference operation that could factor in the probe led by 
special counsel Robert S. Mueller III.'' Did anyone in the White House, 
or anyone outside the CIA for that matter, suggest to you, or instruct 
you, to make the change that resulted in the counterintelligence center 
reporting directly to you?

    Answer. No.


    Section 12--Question 23.  In your remarks from July 2017, you 
stated the reason for the change as ``to send a signal to the workforce 
that this was important and we weren't going to tolerate misbehavior.'' 
Were there any indications that made you believe that the workforce did 
not already believe that the work of the counterintelligence center was 
important?

    Answer. It is the case that I have made every effort to raise the 
awareness of the critical importance of counterintelligence to American 
national security.


    Section 12--Question 24.  Were you aware of any previous 
misbehavior when you made the change?

    Answer. It is the case that I have made every effort to raise the 
awareness of the critical importance of counterintelligence to American 
national security.


    Section 12--Question 25.  According to an Axios report from 
February 2017, then White House Press Secretary Sean Spicer called you 
and asked you to speak to reporters to refute a New York Times article 
from February 15th, headlined ``"Trump Aides Had Contact With Russian 
Intelligence: U.S. Officials Tell of a Flurry of Phone Calls 
Intercepted Before the Election." According to the report, you ``told 
journalists that the Times story wasn't true but provided no details.'' 
Did you speak to reporters about the New York Times story from February 
15th?

    Answer. Yes.


    Section 12--Question 26.  If so, what did you tell the reporters?

    Answer. I informed reporters that the 15 February 2017 New York 
Times story contained inaccuracies.


    Section 12--Question 27.  At any other time have you responded to 
requests from the White House to comment on or take any other action 
regarding the investigation into potential collusion between the Trump 
campaign and the Russian government?

    Answer. I have never been asked by the White House to do anything 
inappropriate regarding the investigation into potential collusion 
between the Trump campaign and the Russian government.
    With respect to the ongoing Special Counsel, Senate and House 
investigations into this matter, I have ensured that CIA has provided, 
to those authorized to receive it, the information they need to conduct 
their investigations.
    This is the Agency's duty and I have made it clear that CIA must 
execute it relentlessly. CIA has done so.


    Section 12--Question 28.  Congressman Devin Nunes, the Chairman of 
the House Intelligence Committee who reportedly recommended you for the 
job of Director of the CIA, has said on repeated occasions that he is 
investigating the State Department to, in his words, ``get to the 
bottom of what exactly the State Department was up to in terms of this 
Russia investigation.'' Based on available evidence, do you think that 
the Nunes investigation of the State Department is warranted?

    Answer. As I stated during my testimony, I am not in a position to 
talk about subject matter that is being investigated by the House and 
Senate Intelligence committees or the Office of the Special Counsel.


    Section 12--Question 29.  If confirmed, will you defend State 
Department personnel against politically motivated investigations?

    Answer. If confirmed, you have my full commitment to protect all 
Department employees from politically motivated investigations while 
still honoring my commitments to oversight committees, including to 
minority members as I have done consistently for Senator Warner and 
Representative Schiff.


    Section 12--Question 30.  If confirmed, will you defend the State 
Department from politically motivated attacks, whether from the White 
House, Capitol Hill, the media, or outside groups?

    Answer. If confirmed, you have my full commitment to protect all 
Department employees from politically motivated attacks.


    Section 12--Question 31.  Former Secretary of State Rex Tillerson 
assigned hundreds of State Department employees to the office that 
handles Freedom of Information Act (FOIA) requests. According to 
reports, some of those assigned to the clerical tasking were senior 
career diplomats whose skills and experience could be put to far better 
use in the Department. If confirmed, do you commit to reviewing the 
current plan for the FOIA office, and pledge that senior career 
employees will not be assigned to the office involuntarily?

    Answer. If confirmed, I will evaluate all resources required to 
ensure the Department responds to FOIA requests in a timely manner, as 
required by law, while continuing to highly value the Department's 
career employees.


    Section 12--Question 32.  Will you pledge that career employees 
will not be assigned to the office involuntarily because of their work 
on behalf of past Administrations' priorities that are deemed not in 
line with the current Administration's?

    Answer. If confirmed, I will evaluate all resources required to 
ensure the Department responds to FOIA requests in a timely manner, as 
required by law, while continuing to highly value the Department's 
career employees.


    Section 12--Question 33.  You have said that ``the ARB from 
Tanzania made very clear that the Secretary of State was supposed to 
personally review security at high-threat areas. That is, not hand it 
down to a deputy, or an undersecretary, or anyone else. That ARB in the 
late 1990s said that the Secretary of State, himself or herself, was 
supposed to take responsibility and personally review those security 
plans.'' If confirmed, do you pledge to personal review security plans 
for all high-threat areas, and inform the Senate Foreign Relations 
Committee of your findings?

    Answer. Yes. The safety and security of our men and women serving 
abroad is of utmost importance. If confirmed, I look forward to 
engaging with the Department on our risk management practices, 
including the processes for reviewing security plans for high-threat 
posts.


    Section 12--Question 34.  According to multiple reports, in October 
2017 you met with William Binney, who has repeatedly pushed his theory 
that the hacking of the Democratic National Committee (DNC) during the 
election was an ``inside job'' and not done by Russian intelligence 
agencies. As CIA Director, did you meet with William Binney?

    Answer. CIA, at its very core, is responsible for collection of 
facts, perspectives, and data. I have and continue to lead an 
organization that does that with excellence.


    Section 12--Question 35.  If so, what did you discuss with Mr. 
Binney?

    Answer. As has been practice for many years at the CIA, the 
Director does not disclose the content or topics of discussion with 
those persons he meets.


    Section 12--Question 36.  Did you recommend or help arrange any 
meetings between Mr. Binney and any other individuals, either inside or 
outside the U.S. government?

    Answer. As has been practice for many years at the CIA, the 
Director does not disclose the content or topics of discussion with 
those persons he meets.


    Section 12--Question 37.  Please review the following past 
statements by John Bolton, the President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``If you look at [Trump-Kim talks] as a way to foreshorten 
the amount of time that we're going to waste in negotiations, that will 
never produce the result we want--which is Kim giving up his nuclear 
program--I think that's a good thing.''

    Answer. I support the President's ongoing diplomatic efforts to 
achieve denuclearization of North Korea, which include exploring an 
opportunity for dialogue with North Korea with eyes wide open.


    Section 12--Question 38.  John Bolton:  Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``[Chances are] pretty remote of a diplomatic solution with 
North Korea. The two choices, both bad, are you accept North Korea with 
nuclear weapons or use military force.''

    Answer. I support the President's ongoing diplomatic efforts to 
achieve denuclearization of North Korea, which include exploring an 
opportunity for dialogue with North Korea with eyes wide open.


    Section 12--Question 39.  John Bolton:  Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``It is perfectly legitimate for the United States to respond 
to the current `necessity' posed by North Korea's nuclear weapons by 
striking first.''

    Answer. I support the President's ongoing diplomatic efforts to 
achieve denuclearization of North Korea, which include exploring an 
opportunity for dialogue with North Korea with eyes wide open.


    Section 12--Question 40.  John Bolton: Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``My proposal would be: eliminate the regime by reunifying 
the peninsula under South Korea Control. Yes. Regime elimination with 
the Chinese. This is something we need to do with them.''

    Answer. I support the President's ongoing diplomatic efforts to 
achieve denuclearization of North Korea, which include exploring an 
opportunity for dialogue with North Korea with eyes wide open.


    Section 12--Question 41.  John Bolton:  Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``The only diplomatic option left is to end the North Korean 
regime by effectively having the South take it over.''

    Answer. I support the President's ongoing diplomatic efforts to 
achieve denuclearization of North Korea, which include exploring an 
opportunity for dialogue with North Korea with eyes wide open.


    Section 12--Question 42.  John Bolton: Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``We have fooled around with North Korea for 25 years, and 
fooling around some more is just going to make matters worse.''

    Answer. I support the President's ongoing diplomatic efforts to 
achieve denuclearization of North Korea, which include exploring an 
opportunity for dialogue with North Korea with eyes wide open.


    Section 12--Question 43.  John Bolton: Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``[North Korea] could sell these weapons, ballistic missiles 
and the nuclear devices themselves to Iran in a heartbeat. North Korea 
can sell these devices to terrorist groups around the world.''

    Answer. I believe that North Korea poses a proliferation challenge 
to the United States and our allies.


    Section 12--Question 44.  John Bolton:  Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``We should consider declassifying information related to 
activities such as the Iran-North Korea partnership, and how they 
undermine fundamental interests of our allies and partners.''

    Answer. I believe that North Korea poses a proliferation challenge 
to the United States and our allies.


    Section 12--Question 45.  John Bolton: Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``America's declared policy should be ending Iran's 1979 
Islamic Revolution before its 40th anniversary.''

    Answer. The Iranian regime has taken advantage of regional 
conflicts and instability to aggressively expand its regional influence 
and threaten its neighbors with little domestic or international cost 
for its actions. I believe the previous Administration's focus on 
Iran's nuclear program to the exclusion of the regime's many other 
malign activities allowed Iran's influence in the region to reach a 
high-water mark. This Administration's Iran policy addresses the 
Iranian regime's malign activities and seeks to bring about a change in 
the Iranian regime's behavior. It will do so through a strategy to 
neutralize and counter Iranian threats, particularly those posed by 
Iran's Islamic Revolutionary Guard Corps (IRGC).


    Section 12--Question 46.  John Bolton: Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``The JCPOA is a threat to U.S. national-security 
interests.''

    Answer. The President has been clear about his concerns regarding 
the JCPOA. I believe fixing the deal is in the best interest of the 
United States. The Administration is seeking a new supplemental 
agreement to address the deficiencies the President identified in 
January. If there is no chance the deal can be fixed, I will recommend 
we work with our allies to achieve a better deal.


    Section 12--Question 47.  John Bolton: Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``The Administration should announce that it is abrogating 
the JCPOA due to significant Iranian violations.''

    Answer. The President has been clear about his concerns regarding 
the JCPOA. I believe fixing the deal is in the best interest of the 
United States. The Administration is seeking a new supplemental 
agreement to address the deficiencies the President identified in 
January. If there is no chance the deal can be fixed, I will recommend 
we work with our allies to achieve a better deal.


    Section 12--Question 48.  John Bolton:  Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``The inconvenient truth is that only military action like 
Israel's 1981 attack on Saddam Hussein's Osirak reactor in Iraq or its 
2007 destruction of a Syrian reactor, designed and built by North 
Korea, can accomplish what is required. Time is terribly short, but a 
strike can still succeed.''

    Answer. I believe fixing the JCPOA is the best course to prevent 
Iran from acquiring a nuclear capability.


    Section 12--Question 49.  John Bolton:  Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``[An Israeli] strike accompanied by effective public 
diplomacy could well turn Iran's diverse population against an 
oppressive regime.''

    Answer. I believe fixing the JCPOA is the best course to prevent 
Iran from acquiring a nuclear capability.


    Section 12--Question 50.  John Bolton:  Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``The fall of Saddam, no it did not make Iran stronger.''

    Answer. The liberation of Iraq was a decision made before my time 
in public service. It is clear that Iran exploited turmoil in the 
region following the downfall of Saddam Hussein. Iran continues to 
exploit areas of conflict for its own gain.


    Section 12--Question 51.  John Bolton: Please review the following 
past statements by John Bolton, President Trump's National Security 
Advisor. For each statement, please respond whether you agree or 
disagree. ``I still think the decision to overthrow Saddam was 
correct.''

    Answer. The decision to liberate Iraq was made before my time in 
public service. As I stated in my testimony, the intelligence 
underlying the decision has proven to be inaccurate.


                               __________

                      (Section 13--Questions 1-40)

    Section 13--Question 1.  In October 2017 you stated in remarks at 
the Foundation for Defense of Democracies that ``The intelligence 
community's assessment is that the Russian meddling that took place did 
not affect the outcome of the election.'' But the assessment published 
in January 2017 says that ``We did not make an assessment of the impact 
that Russian activities had on the outcome of the 2016 election.'' Do 
you stand by your statement from October 2017 that the Russian 
government's interference did not affect the outcome of the 2016 U.S. 
presidential election?

    Answer. I stand by the 6 January 2017 Intelligence Community 
Assessment regarding Russian activities and intentions in recent U.S. 
elections and I have stated so publicly on many occasions.
    In speaking at a forum at the Foundation for the Defense of 
Democracies on 19 October 2017, I was asked many questions. To clarify 
my response to one question from a reporter at the forum, I later 
directed that CIA release a statement making clear that the 
intelligence assessment on Russian election meddling had not changed 
and that I did not intend to suggest that it had.


    Section 13--Question 2.  Did the President or anyone else ask you 
to make that assertion?

    Answer. No.


    Section 13--Question 3.  When asked at the Aspen Security Forum in 
July 2017 whether Russia intervened in the U.S. 2016 election, you 
responded that ``I have been asked it a million times, it is true, yeah 
of course. And the one before that, and the one before that, they have 
been at this a hell of a long time.'' Do you believe that the Russian 
government's interference in the 2016 U.S. presidential election was 
different in scope and scale than its previous attempts to interfere in 
U.S. elections? If so, please describe how.

    Answer. I stand by the 6 January 2017 Intelligence Community 
Assessment regarding Russian activities and intentions in recent U.S. 
elections and I have stated so publicly on many occasions.
    The 6 January 2017 Intelligence Community Assessment states that, 
``Russia, like its Soviet predecessor, has a history of conducting 
covert influence campaigns focused on U.S. presidential elections that 
have used intelligence officers and agents and press placements to 
disparage candidates perceived as hostile to the Kremlin.''
    The 6 January 2017 Intelligence Community Assessment also states 
that, ``Russia's effort to influence the 2016 U.S. presidential 
election represented a significant escalation in directness, level of 
activity, and scope of effort compared to previous operations aimed at 
U.S. elections.''


    Section 13--Question 4.  As you know, should you be confirmed as 
Secretary of State, President Trump has announced that he will nominate 
the current Deputy Director of the CIA, Gina Haspel, to fill the 
vacancy created by your departure. Ms. Haspel has spent her entire 
career in the CIA, and as a result, there is essentially no publicly 
available information regarding her past experiences and actions that 
may have a bearing on her ability to perform the duties and 
responsibilities of the CIA Director. The CIA has provided some details 
about her past jobs and activities at the CIA. Did you approve the 
release of that information?

    Answer. CIA is actively working towards sharing additional 
information with the public to the greatest extent possible consistent 
with our responsibility to protect intelligence sources and methods.


    Section 13--Question 5.  As you know, Sen. Feinstein has sent you a 
letter requesting that the CIA declassify and release more information 
regarding Ms. Haspel's role in past CIA activities. Specifically, Sen. 
Feinstein asked you to release ``pertinent agency documents related to 
Ms. Haspel's role in the CIA's Rendition, Detention and Interrogation 
Program.'' Will you release that information?

    Answer. CIA is actively working towards sharing additional 
information with the public to the greatest extent possible consistent 
with our responsibility to protect intelligence sources and methods.


    Section 13--Question 6.  Under what circumstances would the 
President be required to obtain Congressional authorization prior to 
initiating military action?

    Answer. I respect Congress's role in authorizing the use of 
military force and in providing oversight on these issues. While there 
is a longstanding practice of Presidents of both parties exercising the 
President's constitutional authorities to use force in certain 
circumstances without prior Congressional authorization, a 
determination whether any specific use of military force would fall 
within the President's authority would require a fact-specific 
assessment, in consultation with legal experts, at the time the use of 
military force is contemplated. I believe it is very important to 
engage actively with Congress on these issues. If confirmed, I would 
welcome the opportunity to continue discussing with you and other 
members issues relating to the use of force.


    Section 13--Question 7.  New National Security Adviser John Bolton 
believes that the current state of North Korea's nuclear weapons and 
missile programs already meet the threshold of an imminent threat to 
the United States that would allow President Trump to use his Article 
II authority to initiate a first strike. That is not a hypothetical 
scenario, rather it is his view of the current situation. Do you agree 
with Mr. Bolton that the threat from North Korea right now is at a 
level that would allow the President to initiate military action 
without prior Congressional approval?

    Answer. The Administration's goal is not war with North Korea, but 
rather the complete, verifiable, and irreversible denuclearization of 
the Korean Peninsula. The Administration continues to pursue its 
maximum pressure campaign to persuade North Korea to change course and 
end its unlawful nuclear and ballistic missile programs. The 
Administration is not seeking an authorization to use military force 
against North Korea from Congress, and any decision to use military 
force is a most serious decision that requires a careful fact-specific 
and legal assessment at the time the use of military force is 
contemplated.


    Section 13--Question 8.  As a Member of the House, you demanded 
that Secretary Clinton and her former aides be barred from reviewing 
classified information as a presidential candidate because you felt her 
mishandling of classified information was, ``a national security issue 
that puts American interests, and American lives, in danger.'' As 
Director of the Central Intelligence Agency, when did you learn that 
numerous members of the White House staff had access to the 
Presidential Daily Brief with only interim security clearances, 
including Jared Kushner, and what action did you take to address that 
risk to our most sensitive intelligence?

    Answer. It is appropriate to provide classified information to 
those holding current, interim security clearances. At no time have I 
knowingly provided information to White House staff or others that 
exceeded the individual's clearance level.


    Section 13--Question 9.  Why did so many White House staff have 
access to some of our most sensitive information for so long with only 
interim clearances?

    Answer. The use of interim clearances is a longstanding practice. 
CIA provides input to part of that process. It does not make the 
determination of the initial clearance status or make the assignment of 
the interim clearance for White House personnel.


    Section 13--Question 10.  Did you ever call for anyone with an 
interim security clearance in this Administration to be barred from 
handling classified information?

    Answer. No.


    Section 13--Question 11.  During your confirmation hearing, you 
acknowledged that a global warming was underway and that there was 
likely a human element to climate change. In written testimony before 
the Senate Armed Services Committee, Secretary of Defense James Mattis 
asserted that ``climate change is impacting stability in areas of the 
world where our troops are operating today.'' Would you agree that the 
United States should work to resolve the challenge of climate change?

    Answer. Yes. If confirmed, I will make sure that the United States 
demonstrates leadership on climate issues internationally to protect 
and advance the interests of the United States.


    Section 13--Question 12.  As Secretary of State, how would you do 
so?

    Answer. If confirmed, I will ensure that the United States remains 
engaged on the issue of climate change to advance and protect U.S. 
interests, including by working with other countries to reduce 
greenhouse gas emissions and enhance resilience in ways that drive 
innovation, energy security, and market-friendly solutions. I will 
ensure that U.S. multilateral and bilateral diplomatic engagement and 
development assistance support this approach.


    Section 13--Question 13.  What do you think our policy should be on 
climate change?

    Answer. The Administration supports a balanced approach to energy 
security, economic development, and environmental protection and will 
promote clean and safe energy from all sources. If confirmed, I look 
forward to working with the President and with foreign counterparts on 
issues relating to the climate consistent with this approach.


    Section 13--Question 14.  Did you support the President's decision 
to withdraw from the Paris Agreement, and if so why?

    Answer. I was not centrally involved in the policy discussion 
leading up to the decision. The President has made clear that he does 
not want to commit the United States to a set of actions, policies, and 
measures that produce burdens specific to the United States that other 
countries do not face. If confirmed, I look forward to working with the 
President and with foreign counterparts on a way forward on this issue 
that is consistent with U.S. interests.


    Section 13--Question 15.  On April 9, McClatchy reported that you 
failed to disclose last year during your confirmation process to be CIA 
Director that you owned a Kansas business that imported oilfield 
equipment from a company owned by the Chinese government. Please 
explain why you failed to disclose this information to the Senate as 
part of your confirmation process to be CIA Director.

    Answer. The information I provided was accurate.


    Section 13--Question 16.  Please describe the nature of your 
previous business relationships with any companies associated with the 
Chinese government or any other foreign governments.

    Answer. I am not aware of a business relationship with the Chinese 
government. I was in the private, commercial sector.


    Section 13--Question 17.  Do you support sending more people to 
Guantanamo?

    Answer. Military detention is a longstanding tool that keeps 
captured terrorists from returning to the battlefield. That is why the 
President issued Executive Order 13823 last January reversing the Obama 
Administration's decision to close the Guantanamo Bay detention 
facility. Guantanamo is one of several tools the U.S. government uses 
to prevent captured terrorists from returning to the fight, including 
repatriation to countries of origin and prosecution in U.S. courts. If 
confirmed, I will work with counterparts throughout the Administration 
to determine how best to keep captured terrorists from returning to the 
battlefield, protecting U.S. security and interests.


    Section 13--Question 18.  If there is a decision to transfer 
detainees there, would you oppose it?

    Answer. At present, the Trump Administration has not made any 
decisions to send new detainees to Guantanamo, but it reserves the 
right to do so in appropriate circumstances.


    Section 13--Question 19.  Do you believe keeping it open makes us 
safer?

    Answer. Military detention is a longstanding tool that makes us 
safer by preventing captured enemies from returning to the fight. For 
example, it is indisputable that the American people are at greater 
risk with Abu Du'a on the battlefield leading ISIS than when he was 
detained by America.


    Section 13--Question 20.  Do you believe keeping Guantanamo open 
potentially increases risks to our troops serving overseas?

    Answer. The safety of our homeland and our troops is the top 
priority for the Trump Administration. Our troops overseas and the 
Administration's detention policies serve the same purpose: to protect 
and advance U.S. national security. I believe that we must retain all 
options that are consistent with our laws and international obligations 
in order to keep America safe.


    Section 13--Question 21.  Do you support the military commissions?

    Answer. Military commissions are a longstanding, lawful and 
appropriate forum for trying violations of the law of war and certain 
other offenses. They have played an important part in imposing justice 
for such acts after the 9/11, USS Cole, and other attacks.


    Section 13--Question 22.  Defense Secretary Mattis told President 
Trump that he has ``never found [torture] to be useful'' as an 
interrogation technique. Do you agree?

    Answer. Yes.


    Section 13--Question 23.  What is your position on negotiations 
with North Korea?

    Answer. I support the President's ongoing efforts to bring North 
Korea to the negotiating table to achieve the complete, verifiable, and 
irreversible denuclearization of the Korean Peninsula.


    Section 13--Question 24.  If negotiations do not result in North 
Korea verifiably agreeing to destroy its nuclear weapons, what should 
our policy be?

    Answer. If confirmed, my focus will be to continue the pressure 
campaign, support negotiations, and achieve the U.S. goal of the 
complete, verifiable, and irreversible denuclearization of North Korea.


    Section 13--Question 25.  Do you believe Russia interfered in the 
November 2016 presidential election?

    Answer. Yes.


    Section 13--Question 26.  Do you believe that interference could 
have--not did, but could have--made a difference in the outcome of the 
election?

    Answer. I have not reviewed that question as DCIA. As you know, the 
Intelligence Community made no assessment supporting the electoral 
impact of Russia's efforts.


    Section 13--Question 27.  What is this Administration doing to 
prevent future interference by Russia, and what would you do as 
Secretary of State?

    Answer. The United States works to combat Russian threats through a 
whole-of-government approach that leverages the full range of U.S. 
government capabilities. Among other lines of effort, domestically, the 
U.S. government works with the private sector to strengthen network 
defense. The Administration is placing a particular focus on hardening 
federal and critical infrastructure networks. Internationally, I 
understand the State Department continues to work with allies and 
partners to address Russian efforts to undermine democratic processes 
and institutions. If confirmed, I will continue to advocate policies 
that impose costs on Russia for its malign activities and dissuade 
Moscow from further intrusions into the democratic processes of the 
United States.


    Section 13--Question 28.  I assume you support the increase in 
funding for the Pentagon. Do you support the White House proposal to 
cut the budget and personnel of the State Department? Somewhat, or not 
at all?

    Answer. I support the President's priorities to defend national 
security, assert U.S. leadership, foster opportunities for U.S. 
economic interests, and ensure accountability to the U.S. taxpayer. If 
confirmed, I plan to utilize funding provided under the FY 2018 
Consolidated Appropriations Act for both programs and staffing. I look 
forward to continuing discussions with Congress on funding for our 
diplomacy and foreign assistance programs for both FY 2018 and FY 2019.


    Section 13--Question 29.  Do you support increased funding for 
diplomacy and development?

    Answer. I believe that Americans benefit from sustained engagement 
with the rest of the world and that it serves both our interests and 
those of our allies. As I noted in my testimony, I cannot see anything 
in the 6, 12, or 24-month time horizon that would permit us to have any 
less demand for diplomatic resources. If confirmed, I will need to 
review requests for resources, but I will make the case to defend the 
resources that the State Department needs.


    Section 13--Question 30.  Can you give me any examples of policies 
of this White House that you disagree with?

    Answer. Discussions with the President among Cabinet-level 
officials should be kept in private to maintain confidence. If 
confirmed, I will continue to offer the President candid advice in 
private.


    Section 13--Question 31.  Do you support the decision to move the 
U.S. Embassy to Jerusalem this year?

    Answer. Yes.


    Section 13--Question 32.  Do you support the construction of 
Israeli settlements in the West Bank?

    Answer. I understand the Administration has stated that while 
settlements are not in themselves an impediment to peace, further 
unrestrained settlement activity does not help advance peace. If 
confirmed, I look forward to supporting the Administration's efforts to 
create the conditions for successful negotiations leading to a lasting 
and comprehensive peace.


    Section 13--Question 33.  Do you support a two state solution to 
the Middle East conflict?

    Answer. Yes. On December 6, the President noted that he would 
support a two-state solution if the parties agree.


    Section 13--Question 34.  Do you think the Israeli Government does?

    Answer. I understand that the Administration has been in close and 
sustained contact with the Government of Israel, as well as with other 
parties on the subject of how, working together, we can achieve a deal 
that promises a brighter future for Israel, the Palestinians, and their 
neighbors in the region. If confirmed, I look forward to supporting the 
Administration's efforts to create the conditions for successful 
negotiations leading to a lasting and comprehensive peace.


    Section 13--Question 35.  What do you think such a solution would 
look like?

    Answer. The Administration has made it clear that it does not 
intend to impose a solution upon the parties. I understand it is the 
Administration's view that while a fair deal that offers a brighter 
future to all involved is possible, that deal will have to be forged by 
agreement among the parties. If confirmed, I look forward to supporting 
the Administration's efforts to create the conditions for successful 
negotiations leading to a lasting and comprehensive peace.


    Section 13--Question 36.  Do you support the President's plan to 
build a wall--possibly as high as 30 feet--along the Mexican border?

    Answer. Like the President, I am committed to securing our borders 
and protecting the homeland. Tens of thousands of foreign nationals 
cross the U.S.-Mexico border each year. Border infrastructure, to 
include walls, is a critical piece of strengthening control of the 
border. Securing our borders allows the United States to facilitate 
legitimate trade and travel, while preventing the movement of illicit 
goods and travelers.


    Section 13--Question 37.  How do you think the U.S. can best 
support those who advocate for human rights and democracy in countries 
where those rights are repressed by the government, including by some 
governments that are allies of the U.S. like Turkey and Egypt?

    Answer. If confirmed, I will meet with human rights activists and 
their families, and direct my senior staff to do so as well. I will 
hold accountable those who carry out repression and work with 
international partners to support civil society. I have great respect 
for the courageous work of human rights activists around the world, and 
I am deeply concerned by the efforts of some governments to target 
activists and restrict civic space. It is important that the United 
States stand with those who, sometimes at great risk to themselves, 
press their governments to protect human rights.


    Section 13--Question 38.  If President Trump asks you to implement 
a policy that you believe would be harmful to the interests of the 
United States, are you willing to say no?

    Answer. As I have done in my capacity as Director of the CIA, I 
will offer the President candid advice and judgments in private, if 
confirmed as Secretary of State.


    Section 13--Question 39.  Are you willing to tell the President he 
is wrong?

    Answer. Yes.


    Section 13--Question 40.  Have you ever done that?

    Answer. If confirmed, I will continue to offer the President candid 
advice and judgments in private, as I have done in my capacity as 
Director of the CIA.


                               __________

                      (Section 14--Questions 1-54)

    Section 14--Question 1.  Broadcasting Board of Governors and RFA: 
With so much at stake on the Korean peninsula, it's more important than 
ever that we make sure the people of North Korea--who are starved of 
objective information from the outside world, let alone knowledge of 
their own country and its conduct on the global stage--receive 
truthful, independent, accurate news and information. Radio Free Asia 
and Voice of America--networks supported by the United States--are 
critical sources to the North Korean public of this news. They both 
have been shown to be effective means of providing impactful journalism 
and programming--exposing the regime's funding of its military at the 
cost of feeding its own people, the re-opening of political prison 
camps, and the regime's cynical use of forced overseas labor to acquire 
foreign currency to skirt sanctions for its nuclear arms testing, among 
other issues that would otherwise be blotted out by a government bent 
on controlling just about every aspect of the lives of the people under 
its rule. How committed are you to working with the President, the NSC, 
and others in the Administration to ensure that the people of North 
Korea continue to get access to critical information avenues and 
independent news and information?

    Answer. If confirmed, I will work closely with the President, the 
NSC, and others in the Administration to support greater access to 
independent information for the North Korean people. The availability 
of accurate information about world events challenges the government's 
monopoly on information and builds curiosity among North Koreans for 
facts independent of state propaganda. I will continue efforts to 
search for new methods to increase the flow of information to, from, 
and among North Korean citizens, and to ensure that the North Korean 
people continue to have access to critical avenues of information, 
including radio.


    Section 14--Question 2.  Do you believe that current RFA 
programming could be expanded to help provide greater exposure and 
reach a wider audience?

    Answer. If confirmed, I will continue efforts to expand our 
information programs, including support to radio broadcasters, to reach 
a wider audience and increase exposure to accurate and independent 
information inside the closed country.


    Section 14--Question 3.  Do you believe that we can work 
collaboratively with partners and allies in the region to enhance 
efforts to bring more open and transparent journalism to the people of 
North Korea?

    Answer. Yes. If confirmed, I will support collaborative 
relationships with allies and partners in the region to support 
organizations to promote access to information in North Korea.


    Section 14--Question 4.  Uyghur Issue: It's recently come to light 
that members of Radio Free Asia's Uyghur Service--which is the world's 
only independent and reliable Uyghur language news source--have family 
members in China who are jailed, missing or detained. Some are being 
held in notorious re-education camps, which function like open-air 
prisons with poor conditions, holding thousands of Uyghur people at a 
time. Others' whereabouts are unknown. Some have been told their 
detentions are due to the fact they have a relative working for Radio 
Free Asia. The State Department can help: it can raise this issue by 
using the sum-total of its diplomatic communications with its Chinese 
counterparts, particularly through the U.S. embassy in Beijing and at 
the highest level (yourself, if you are confirmed by this Senate). 
These detained or missing family members are those of U.S.-based 
journalists--all either U.S. citizens or permanent residents--who daily 
expose the abuses happening in their former homeland at the hands of 
Chinese authorities. The Department at the very least can help to find 
out the whereabouts of these individuals. The Department can also ask 
their China counterparts if these relatives are receiving the proper 
medical care and treatment they need. Would you see that this is done--
at all levels--within the agency?

    Answer. I am deeply troubled by the increasing number of such 
reports. If confirmed, I will raise my concerns about the Radio Free 
Asia cases and the deteriorating situation in Xinjiang directly with 
the Chinese government. I will also push for the Chinese government to 
free those arbitrarily detained, including the families of RFA 
journalists, and end the counter-productive, repressive measures that 
Chinese authorities are carrying out in Xinjiang.


    Section 14--Question 5.  Although the Broadcasting Board of 
Governors is an independent agency, the State Department has 
significant equities in its operation. In March of this year, I heard 
alarming reports about efforts at the Broadcasting Board of Governors 
to oust current CEO John Lansing and install an interim CEO who would 
push a partisan agenda and break through the legally mandated 
``firewall'' between BBG's management and its independent journalists. 
Reports also indicated that the Administration planned to dissolve the 
existing Board of Governors outside of the scope of recently enacted 
reforms. Not only would these efforts undermine the very essence of the 
BBG, they would violate current laws outlining governance and reform of 
the BBG, and turn the BG into a propaganda operation; antithetical to 
the mission to inform, engage, and connect people around the world in 
support of freedom and democracy. Current law states that the current 
CEO will stay in place until a Senate-confirmed successor takes his 
place. If confirmed, will you commit to uphold the reforms detailed 
recent legislation?

    Answer. Yes. If confirmed, I commit to uphold the BBG reforms 
outlined in the 2016 NDAA and to support an orderly transition to the 
new BBG structure through the Presidential appointment and Senate 
confirmation of a new BBG CEO.


    Section 14--Question 6.  Will you commit to protecting the 
integrity of American international broadcasting, maintain the critical 
firewall between BBG management and its independent journalists?

    Answer. Ensuring journalistic credibility is vital to the success 
of the BBG's mission. If confirmed, I will comply with existing 
statutes related to BBG management and seek to ensure congressionally 
mandated reforms are carried out effectively and transparently. I will 
also protect the integrity of American international broadcasting by 
maintaining the legislatively mandated firewall between BBG's 
management and its independent journalists.


    Section 14--Question 7.  Will you commit to preventing efforts that 
attempt to politicize American international media?

    Answer. Yes.


    Section 14--Questions 8-18 .  The Washington Post reported last 
year that on March 22 of 2017, you and Director of National 
Intelligence Coats attended a briefing at the White House with 
officials from several government agencies. The article says: ``As the 
briefing was wrapping up, Trump asked everyone to leave the room except 
for Coats and CIA Director Mike Pompeo [t]he president then started 
complaining about the FBI investigation and Comey's handling of it, 
said officials familiar with the account Coats gave to associates. Two 
days earlier, Comey had confirmed in a congressional hearing that the 
bureau was probing whether Trump's campaign coordinated with Russia 
during the 2016 race. After the encounter, Coats discussed the 
conversation with other officials and decided that intervening with 
Comey as Trump had suggested would be inappropriate, according to 
officials who spoke on condition of anonymity to discuss sensitive 
internal matters.'' This account strongly suggests that the President 
asked you and Director Coats to interfere with then FBI Director 
Comey's investigation into the Trump campaign's contacts with Russia. 
What did President Trump say to you and Director Coats in that meeting?


   Did the President ask you or Director Coats to speak to Comey about 
        the Russia investigation?

   What did you say in response to what President Trump said to you 
        and Director Coats on March 22?

   What did you do in response to what President Trump said to you and 
        Director Coats on March 22?

   Did President Trump ever discuss Michael Flynn, or the 
        investigation into Michael Flynn, with you?

   To your knowledge, did President Trump ever talk with Director 
        Rogers, James Comey, Attorney General Sessions, Deputy Attorney 
        General Rosenstein, Deputy Director McCabe, or any other senior 
        U.S. official about the Flynn investigation?

   Did President Trump ever discuss the FBI or Special Counsel's 
        Russia investigation with you?

   Were you at any other meetings, with the President alone or with 
        others in the room, where he discussed the FBI or Special 
        Counsel's Russia investigation?

   Did you have any phone calls where he discussed the FBI or Special 
        Counsel's Russia investigation?

   Were you ever asked, by anyone, to put out a public statement 
        casting doubt on the existence of evidence of interaction 
        between the Trump campaign and the Russian government?

   Has Special Counsel Mueller asked you not to answer questions from 
        Congress?


    Answer. As I said during my hearing, I am not going to discuss 
conversations that the President and I may have had over the course of 
the last fifteen months, even if I were able to recall those 
conversations today. I can say, without reservation, that I would 
remember if he had asked me to do anything that I viewed as improper or 
inappropriate, and he has not.
    In addition, Questions 9-18 below relate to the ongoing 
investigations by the Senate Select Committee on Intelligence, the 
House Permanent Select Committee on Intelligence, and Special Counsel 
Mueller. As I explained during my recent hearing, I respectfully 
decline to answer such questions out of respect for those ongoing 
investigations and because I do not want to discuss anything that may 
relate to those investigations. I can, nevertheless, assure you that 
everything I was asked to do as CIA Director in support of any of those 
investigations was done with as much thoroughness, depth, and alacrity 
as CIA could achieve.


    Section 14--Question 19.  Does the Administration have a specific 
and clear strategy to counter the Russian government's aggression 
against the U.S. and our allies, beyond friendly overtures from the 
President?

    Answer. The U.S government is clear-eyed about Russia's 
transgressions, frank in our dialogue with Russia, and resolute in 
raising the costs of their behavior. We must also actively expose to 
the foreign public Russia's destabilizing activities and continue to 
build the resilience of U.S. allies and partners. If confirmed, I will 
reassure our allies and partners and work to strengthen their 
resilience against Russian malign influence, and ensure there are 
significant costs for Russia's aggressive actions. I will also continue 
to press Russian officials against further intrusions in the democratic 
processes of the United States.


    Section 14--Question 20.  President Trump's newly appointed 
National Security Advisor John Bolton has written that ``[i]t is 
perfectly legitimate for the United States to respond to the current 
`necessity' posed by North Korea's nuclear weapons by striking first.'' 
Do you agree with National Security Advisor Bolton that it is 
``perfectly legitimate'' for the United States to strike North Korea 
first?

    Answer. The Administration's goal is not war with North Korea, but 
rather the complete, verifiable, and irreversible denuclearization of 
the Korean Peninsula. The Administration continues to pursue its 
maximum pressure campaign to persuade North Korea to change course and 
end its unlawful nuclear and ballistic missile programs. Any decision 
to use military force is a most serious decision that requires a 
careful fact-specific and legal assessment at the time the use of 
military force is contemplated.


    Section 14--Question 21.  A nonpartisan report by the Congressional 
Research Service last November indicated conflict on the peninsula 
could impact as many as 25 million people on either side of the border, 
including more than 100,000 U.S. citizens, and result in hundreds of 
thousands of casualties. Do you believe that the U.S. has a viable 
military option to attack North Korea that will not involve hundreds of 
thousands of Korean, Japanese and U.S. casualties?

    Answer. If confirmed, I see my role and focus as Secretary of State 
as leading efforts solve the DPRK issue through diplomacy and 
negotiations. The State Department and U.S. government are preparing 
for the expected United States-DPRK summit to ensure we can achieve the 
peaceful denuclearization of the Korean peninsula, even as all options 
remain on the table.


    Section 14--Question 22.  Would you be willing to stand up to the 
President and the national security adviser if they sought to undertake 
a first strike without congressional authorization?

    Answer. If confirmed, I would provide my best advice and judgment 
to the President and the National Security Advisor. The 
Administration's goal is not war with North Korea, but rather the 
complete, verifiable, and irreversible denuclearization of the Korean 
Peninsula. The Administration continues to pursue its maximum pressure 
campaign to persuade North Korea to change course and end its unlawful 
nuclear and ballistic missile programs. The Administration is not 
seeking an authorization to use military force against North Korea from 
Congress, and any decision to use military force is a most serious 
decision that requires a careful fact-specific and legal assessment at 
the time the use of military force is contemplated.


    Section 14--Question 23.  Now that President Trump has already 
given North Korean leader Kim Jong-Un the prize of a meeting with the 
U.S. President at the start of the negotiations, without exacting any 
concessions from North Korea, what is the Administration's plan for the 
North Korean negotiations?

    Answer. The United States and North Korea have been holding direct 
talks in preparation for a summit, and North Korea has confirmed its 
willingness to talk about denuclearization. Now is the time for bold 
action and concrete steps toward denuclearization. The Trump 
Administration has been working to create the conditions so that the 
President and Kim Jong Un can sit together to begin to resolve this 
incredibly vexing, difficult challenge. This will set the course for 
achieving a diplomatic outcome that America and the world are seeking.


    Section 14--Question 24.  What is your plan if the talks fail?

    Answer. As I said during my testimony, there is more diplomatic 
work to do, and if I am confirmed, my focus when it comes to North 
Korea will be to continue the pressure campaign and achieve our goal of 
the complete, verifiable, and irreversible denuclearization of North 
Korea. Maintaining the pressure campaign throughout negotiations and 
increasing pressure should talks fail must be a key part of our 
strategy.


    Section 14--Question 25.  Mr. Pompeo, worldwide, war, famine, and 
natural disasters have displaced a record 65 million people, forcing 
them into poverty, refugee camps, and dire situations. In times of 
crisis, the United States must assert leadership on the global stage 
through the values that have made this country so successful. Our 
leadership sends an important signal to other countries around the 
world. Instead of assertive moral and strategic leadership, I am 
concerned that this Administration's hostile and misguided 
understanding of humanitarian crises and refugees weakens our global 
standing, the ability to rally our allies, and the ability to promote 
international stability. In fact, Former DHS Secretary Michael Chertoff 
wrote: ``Our values and our national security interests argue for 
raising our refugee ceiling, not lowering it.'' Do you agree or 
disagree with that statement?

    Answer. The President's FY 2018 refugee ceiling is a reflection of 
our values and national security interests. The United States remains 
one of the largest resettlement countries in the world and the single 
largest donor of international humanitarian assistance. If confirmed, I 
look forward to reviewing both our humanitarian assistance and refugee 
resettlement programs.


    Section 14--Question 26.  This President seems to have a different 
view. At a campaign event in Salem, New Hampshire, in February of 2016, 
then-candidate Donald Trump was asked about the education of Syrian 
refugee children in the United States. He was asked whether he could 
``look children aged five, eight, ten, in the face and tell them they 
can't go to school here''. President Trump responded, ``I can look in 
their faces and say `You can't come'. I'll look them in the face.'' 
Just a few days ago, the world again confronted horrific images Syrian 
children suffering from gruesome chemical weapons attacks. Meanwhile, 
New Jerseyans and Americans all over this country have opened their 
hearts and their homes to the most vulnerable people fleeing terrible 
situations. What do you think of Mr. Trump's statements about refugee 
children?

    Answer. Under the leadership of President Trump, the United States 
remains the world's leader in humanitarian assistance to refugees and 
displaced persons, providing more than $8 billion in FY 2017. This 
support includes life-saving assistance to children, such as food, 
shelter, healthcare services, access to clean water, and child 
protection programs.


    Section 14--Question 27.  Do you support telling Syrian refugee 
children that they ``can't come''?

    Answer. Under the Trump Administration, Syrian refugee children are 
eligible to be considered for resettlement in the United States.


    Section 14--Question 28.  Do you believe the U.S. should deny 
certain refugees admission to the U.S. based on their religion or 
nationality? If not, how will you protect against it?

    Answer. The United States does not deny refugees admission based 
solely on their religion or nationality. If confirmed, I look forward 
to reviewing the refugee resettlement program.


    Section 14--Question 29.  The U.S. resettlement program focuses on 
resettling refugees who need this solution the most such as those with 
urgent medical needs, victims of torture, female-headed households, and 
families with very specific circumstances whose protection or 
assistance needs cannot be met through existing humanitarian assistance 
programs in their host country. Do you support this approach?

    Answer. The United States remains committed to helping the most 
vulnerable refugees. The U.S. Refugee Admissions Program seeks to 
achieve early employment and self-sufficiency for refugees admitted to 
the United States, and the United States carries out various programs 
both overseas and domestically towards that goal. If confirmed, I will 
support the Administration's goals of protecting vulnerable refugees 
and helping them become productive members of U.S. society as quickly 
as possible.


    Section 14--Question 30.  Refugees from Iraq who helped the United 
States during the Iraq War: Mr. Pompeo, more than 50,000 Iraqis who 
helped our troops and the U.S. government during and after the US's 
invasion of Iraq have faced risks while waiting in Iraq for interviews 
in the U.S. Refugee Assistance Program. As a veteran yourself, you 
undoubtedly saw how critical the service of nationals were in countries 
where the U.S. has military missions. And yet on 36 Iraqis in the 
Priority Iraqi Refugee Assistance program have arrived this Fiscal 
Year. Do you support getting these Iraqi allies to safety in the United 
States?

    Answer. I have the highest respect for the men and women who take 
enormous risks to support our military and civilian personnel. If 
confirmed, I commit to help those who have helped us. I am aware that 
individuals who supported U.S. efforts in Iraq and Afghanistan are 
eligible for admission to the United States as refugees or Special 
Immigrant Visa holders if they meet certain criteria, and that tens of 
thousands have resettled here as a result.


    Section 14--Question 31.  How will you speed up this priority 
program?

    Answer. If confirmed, I look forward to reviewing the programs for 
those who assisted U.S. efforts in Iraq and Afghanistan to determine 
whether these programs can be improved.


    Section 14--Question 32.  Pompeo's Discriminatory Statements and 
Record: One of the functions of the State Department, at least 
historically, has been to promote and advance democracy and human 
rights overseas. We accomplish this through direct support of people 
and programs on the ground, but high-level engagement from the 
Department itself is an essential part of this undertaking as well. 
These values have helped drive the United States to a position of 
global leadership. Given the importance of upholding and promoting 
human rights, I am troubled by some discriminatory comments you have 
made and policies you have embraced against Muslims, women, and the 
LGBTQI community, and how this record would affect your ability to be 
an effective voice for American values. Your predecessor in this 
position did not embrace human rights as a central principle of U.S. 
foreign policy and, in fact, took a number of steps that undermined 
U.S. commitments in this area. Given your record I am, quite frankly, 
concerned you may do the same. When the United States fails to live up 
to those ideals, we see our adversaries take advantage of our silence 
as permission to pursue discriminatory, violent, or repressive actions. 
How will you defend your past comments and record when you engage with 
international leaders? Do you believe this kind of rhetoric will hamper 
your ability to effectively promote American values and priorities?

    Answer. As I stated during my 12 April 2018 confirmation hearing, I 
am committed to the advancement of democracy and human rights around 
the globe. By necessity, this means the United States must serve as an 
example for the world in demonstrating these values. Representing 
America requires promoting America's ideals, values, and priorities to 
voters and citizens of the world.
    My views on diversity are quite clear. Throughout my career and in 
each position I have held, I have made clear that there is zero room 
for discrimination of any kind and I will not tolerate it myself or in 
anyone working for me. I have consistently and unrelentingly expressed 
my commitment to hiring the best person to achieve the mission at hand, 
wherever we can find them.
    The State Department's workforce, must by necessity, be diverse in 
every sense of the word--in terms of race, religion, background and 
more. I'll work to achieve that diversity, just as I have successfully 
done at CIA, by focusing on mission and demanding that every team 
member be treated equally and with dignity and respect.
    At CIA, I have leveraged these values to build stronger 
relationships with partners abroad. For example, I have worked 
extensively, and successfully, to strengthen and expand CIA's 
partnerships with countries throughout the Muslim world. These 
relationships are critical to keeping America safe. Under my 
leadership, CIA's work on countering terrorism has been in concert with 
many Islamic countries and has enhanced security for the Muslim peoples 
of those nations.
    I have led the CIA to forge stronger relationships with our allies 
in the Middle East, Europe, Africa, Latin America and Asia. I've 
travelled to these regions to demonstrate our commitment to working 
alongside them. If confirmed as Secretary of State, I am committed to 
doing the same.
    To answer your second, question directly: no, your assertion is, 
frankly and respectfully, absurd.


    Section 14--Question 33.  Do you agree that, as reflected in U.S. 
law and budgetary support, the United States should continue to promote 
international human rights, including the rights of women, LGBTQ people 
and other marginalized people? If not, why not? And, if you do agree, 
how will you run the State Department in a way that best promotes human 
rights?

    Answer. As I stated during my testimony, I deeply believe that 
LGBTQ persons have every right that every other person in the world 
would have. There are many countries or regions in the world that do 
not honor that principle and undertake heinous activity against those 
persons. If confirmed, I would advocate for the fundamental dignity of 
every human being around the world in the same way that we do here in 
the United States. If confirmed, consistent with the Administration's 
prior commitment, I intend to retain the position of Special Envoy for 
the Human Rights of LGBTI Persons.


    Section 14--Question 34.  Saudi 123 Agreement:  The United States 
is currently pursuing a nuclear cooperation agreement with Saudi Arabia 
after the kingdom announced plans to build two and possible more 
civilian nuclear reactors. During an interview with CBS, Saudi Crown 
Prince Muhammad bin Salman said that QUOTE ``Saudi Arabia does not want 
to acquire any nuclear bomb, but without a doubt if Iran developed a 
nuclear bomb, we will follow suit as soon as possible''. UNQUOTE. If 
actually implemented this statement would create a dangerous precedent 
where countries could set aside their NPT obligations if a regional 
rival developed nuclear weapons. What is the administration's overall 
plan for preventing civilian nuclear programs in the Middle East from 
being used to pursue a nuclear arsenal?

    Answer. As I told the Committee during the hearing, I support the 
gold standard for such 123 agreements. The United States has 
significant strategic, commercial, and nonproliferation incentives to 
conclude a 123 agreement with Saudi Arabia. Such an agreement would 
provide substantial economic opportunities for U.S. firms and ensure 
the Saudi nuclear power program is subject to the highest 
nonproliferation, safety, and security standards. In the absence of a 
123 agreement, U.S. firms will lose the opportunity to compete and will 
likely be replaced by state-owned enterprises from other countries with 
lower nonproliferation standards.


    Section 14--Question 35.  In light of the Crown Prince's statement, 
will the United States sign a nuclear cooperation agreement with Saudi 
Arabia that lacks the legal binding no enrichment and reprocessing 
standard (the gold standard) achieve with the UAE?

    Answer. As I told the Committee during the hearing, I support the 
gold standard. The United States has significant strategic, commercial, 
and nonproliferation incentives to conclude a 123 agreement with Saudi 
Arabia. Such an agreement would provide substantial economic 
opportunities for U.S. firms and ensure the Saudi nuclear power program 
is subject to the highest nonproliferation, safety, and security 
standards. In the absence of a 123 agreement, U.S. firms will lose the 
opportunity to compete and will likely be replaced by state-owned 
enterprises from other countries with lower nonproliferation standards.


    Section 14--Question 36.  Torture: You have expressed support for 
the CIA interrogation methods used in the CIA's Rendition, Detention, 
and Interrogation (RDI) program, by suggesting they operated ``within 
the law.'' You also criticized President Obama for ending the CIA 
program. In a January 2018 speech on interrogation methods at the 
American Enterprise Institute, you suggested coercive methods were 
acceptable. I am concerned that if you are confirmed to be the top U.S. 
diplomat and the global face of the U.S. government, we run the risk of 
further harming U.S. credibility overseas. Do you think that core 
international prohibitions on torture and war crimes--to which the U.S. 
adheres--can be changed?

    Answer. No.


    Section 14--Question 37.  Do you acknowledge on the record that the 
U.S. government cannot unilaterally change what is prohibited under 
international law?

    Answer. Yes.


    Section 14--Question 38.  Do you believe that there are any 
circumstances in which the U.S. can lawfully transfer individuals to 
third countries when there are substantial grounds to believe that 
authorities in those countries will subject those individuals to 
torture?

    Answer. The United States Government works closely with our foreign 
partners to obtain assurances that those country will not subject 
individuals to torture or inhumane treatment. If confirmed, I am 
committed to following the law.


    Section 14--Question 39.  If confirmed to be Secretary of State, 
would you advise the president against transferring individuals to such 
third countries, and use your office to prevent the U.S. government 
from doing so?

    Answer. It is the long-standing policy of the United States not to 
transfer an individual to a country where it is more likely than not 
that he or she will be tortured. It is reflected in Section 2224(a) of 
the Foreign Affairs Reform and Restructuring Act of 1998, which 
provides that ``it shall be the policy of the United States not to 
expel, extradite, or otherwise effect the involuntary return of any 
person to a country in which there are substantial grounds for 
believing the person would be in danger of being subjected to torture, 
regardless of whether the person is physically present in the United 
States.'' If confirmed, I am committed to following the law.


    Section 14--Question 40.  Do you believe that so-called 
``assurances'' from third countries known to torture that they will not 
do so are credible or can be relied on? If so, why?

    Answer. The United States Government works closely with our foreign 
partners to obtain assurances that those countries will not subject 
individuals to torture. Those assurances must be credible and reliable. 
Working with allies to ensure respect for international law, including 
human rights, is an important part of the role of the Secretary of 
State. The United States has a wide range of tools available to address 
such allegations, including bilateral diplomacy, multilateral 
engagement, foreign assistance, reporting and public outreach, and 
economic sanctions. If confirmed, I will deploy these tools, as 
necessary, to promote respect for human rights obligations and 
commitments by allies.


    Section 14--Question 41.  What do you believe to be the impact 
overseas of the U.S. Rendition, Detention, and Interrogation (RDI) 
program? What do you believe would be the impact on America's 
credibility abroad of resuming renditions or the use of interrogation 
tactics like those previously used by the CIA?

    Answer. To the extent that Congress or the President has acted to 
proscribe any particular activity or interrogation technique, resuming 
its use would be presumptively illegal under U.S. law. The National 
Defense Authorization Act for FY2016 and Executive Order 13491, as well 
as various other statutory and policy standards, circumscribe CIA's use 
of interrogation techniques.


    Section 14--Question 42.  Chief of Mission Authority/CIA: Do you 
believe in chief of mission authority, which requires the U.S. 
Ambassador in country to sign off on all CIA activities and 
initiatives? If confirmed as Secretary of State will you work with 
other cabinet officials and senior U.S. government officials to ensure 
there is support for that authority and empower your ambassadors to 
require it?

    Answer. Yes. I believe that Chief of Mission (COM) authority is a 
critical tool for effectively implementing the President's foreign 
policy and national security priorities. If confirmed, I will ensure 
that COMs fully understand their authority and responsibilities.


    Section 14--Question 43.  Do you believe that the U.S. Chief of 
Mission should be informed of all operations by covert intelligence and 
Special Operations personnel in their country of responsibility, as 
well as any proposals by the DoD to transfer funds to foreign persons 
or entities in that country?

    Answer. If confirmed, I will ensure that Chiefs of Mission (COMs), 
the Department of State, and all other agencies engaged in overseas 
activities fully understand the authority and responsibilities of 
Chiefs of Mission, including COMs' statutory responsibilities to 
direct, supervise and coordinate U.S. executive branch employees (other 
than those under the command of a U.S. area military commander and 
Voice of America correspondents on official assignment), and the 
statutory responsibilities of executive branch agencies to comply with 
COM directives and to keep the COM fully informed of all current and 
planned activities.


    Section 14--Question 44.  Do you think they should be able to veto 
any activity that the Chief of Mission believes is inimical to U.S. 
diplomatic policies and efforts? If so, if you are confirmed as 
Secretary of State, will you instruct all Chiefs of Mission to inform 
you about any such activity about which they have concerns?

    Answer. I believe that Chief of Mission (COM) authority is a 
critical tool for effectively implementing the President's foreign 
policy and national security priorities. If confirmed, I will ensure 
that COMs fully understand their authority and responsibilities. I will 
also ensure that the Department of State and all agencies, and their 
personnel, engaged in overseas activities understand the COM's 
statutory responsibilities to direct, supervise and coordinate U.S 
executive branch employees (other than employees under the command of a 
U.S. area military commander and Voice of America correspondents on 
official assignment), and the responsibilities of executive branch 
agencies to comply with COM directives and to keep the COM fully 
informed of all current and planned activities. I understand that 
standard procedure for the resolution of interagency disputes which 
cannot be resolved at post is to refer issues to Washington, D.C., for 
assistance, and I am committed to protecting the role of the COM in 
such instances.


    Section 14--Question 45.  Women's issues: Do you believe that 
advancing women's rights, gender equality, and human rights is an 
important part our foreign policy agenda? As Secretary, how would you 
prioritize these issues within the Department? Will you empower the 
office of Global Women's Issues?

    Answer. If confirmed, I would affirm the Department of State's 
commitment to improving the situation for women and girls around the 
world, recognizing the direct impact these efforts have on our national 
security and foreign policy objectives of stability, prosperity, and 
security. The Secretary's Office of Global Women's issues leads the 
Department's work to empower women and girls socially, politically, and 
economically in the communities and societies in which they live. As I 
stated in my confirmation hearing, I am committed to find a qualified 
person to serve as the Ambassador-at-Large for Global Women's Issues 
and seek confirmation as quickly as possible.


    Section 14--Question 46.  Funding for international family 
planning: In President Trump's first two budgets, he has proposal 
devastating and disproportionate cuts international family planning 
programs. This year, in the FY19 budget, the 50% funding reduction is 
expected to result in the following: 12.65 million fewer women and 
couples would receive contraceptive services and supplies; 3.76 million 
more unintended pregnancies, including 1.68 million more unplanned 
births, would occur; 1.59 million more abortions would take place (the 
majority of which are provided in unsafe conditions); and 7,637 more 
maternal deaths would occur. We know ensuring that if women could 
utilize the modern contraception that they want, it would dramatically 
reduce maternal and newborn deaths--when women are able to space their 
pregnancies at least three years apart, they are more likely to survive 
pregnancy and childbirth and their children are more than twice as 
likely to survive infancy. Do you think that access to voluntary 
contraception is important to women's health and U.S. development goals 
of preventing maternal and child deaths, controlling the AIDS epidemic, 
achieving gender equality, and empowering women and adolescent girls?

    Answer. I understand the United States is a leader in the provision 
of maternal and newborn health care, including voluntary family 
planning. If confirmed, I will support the Administration's policies 
and programs to reduce maternal and newborn deaths, combat the AIDS 
epidemic, promote gender equality, and empower women and girls.


    Section 14--Question 47.  Do you believe that the U.S. should work 
to ensure that women and young people receive accurate information 
about and access to a full range of contraceptive methods?

    Answer. If confirmed, I will support the Administration's efforts 
to support voluntary family planning programs around the world.


    Section 14--Question 48.  As Sec. of State, will you advocate for a 
more robust budget for family planning programs?

    Answer. If confirmed, I will support the Administration's efforts 
to support the maternal health and family planning needs of women 
around the world.


    Section 14--Question 49.  LGBTQ, Women's Health:  Globally, an 
estimated 214 million women want to delay or avoid pregnancy, but face 
significant barriers to using modern methods of contraception. Do you 
think that health care providers in developing countries should be able 
to refuse to provide contraception?

    Answer. If confirmed, I will support the Administration's plans to 
invest in voluntary family planning programs in developing countries.


    Section 14--Question 50.  Globally LGBTQ people, young people, and 
unmarried women face discrimination and barriers to accessing health 
care services and as a result experience disproportionate poor health 
outcomes. Do think that health care providers should be able to refuse 
to provide health care information and services to patients based their 
sexual orientation, age, or marital status?

    Answer. Access to health care is important for everyone, regardless 
of their sexual orientation, age, or marital status. I understand that 
PEPFAR, for example, works hard to advance that principle by addressing 
the underlying social issues, especially unequal human rights, stigma, 
and discrimination that prevent people from accessing HIV prevention 
and treatment services. PEPFAR supports specific initiatives to expand 
key populations' (including LGBTI people, adolescent girls and young 
women, and others) access to and retention in quality HIV/AIDS 
prevention and treatment services. If confirmed, I will ensure that 
PEPFAR continues to use the latest science and the best available data 
to deliver the greatest possible impact to ensure epidemic control of 
the HIV pandemic.


    Section 14--Question 51.  Abortion Access in Cases or Rape, Incest 
and Life Endangerment:  You've previously said that you're against 
abortion, no exceptions. Global estimates indicate that about 1 in 3 
(35%) of women worldwide have experienced sexual or gender based 
violence in their lifetime. Do you believe that a woman who is pregnant 
as the result of rape should have the right to obtain a safe abortion?

    Answer. If confirmed, I will support the Administration's efforts 
to combat gender-based violence and support the maternal health and 
family planning needs of women around the world.


    Section 14--Question 52.  Every day, approximately 830 women die 
from preventable causes related to pregnancy and childbirth and 99% of 
them are in developing countries. Do you believe that a woman who is 
experiencing a life endangering pregnancy has the right to an abortion?

    Answer. If confirmed, I will support the Administration's efforts 
to support the maternal health and family planning needs of women 
around the world.


    Section 14--Question 53.  Criminalizing LGBTQ people and women: In 
countries around the world, LGBTQ people are criminalized for who they 
love. There are also women who are in jail in places like El Salvador 
and Senegal for having miscarriages or abortions. These are gross human 
rights violations. As Sec. of State would you raise concerns about laws 
that criminalize same-sex relationships and women's personal health 
decisions in public and private settings?

    Answer. If confirmed, I will advocate that governments have an 
obligation to protect, respect, and uphold the dignity and fundamental 
freedoms of all people--including women and LGBTI persons.


    Section 14--Question 54.  As you may know, Jakiw Palij, a Nazi-era 
guard who was stripped of U.S citizenship is still residing in Queens, 
New York. In 2004 after finding that Mr. Palij was allowed to enter the 
United States by concealing his prior service to the Nzai regime he was 
stripped of his citizenship and was ordered to be deported. However, 
because no country has agreed to accept him, Mr. Palij has not yet left 
the country. Will you commit to personally taking steps to settle this 
long standing injustice and ensure that Mr. Palij is removed from the 
United States?

    Answer. I am committed to continuing the Department's engagement 
with the German government to remove Jakiw Palij from the United 
States.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
               Mike Pompeo by Senator Benjamin L. Cardin


                            (Questions 1-17)

    Question 1  Relations with the Muslim World:  On June 11, 2013, you 
made a speech in which you said, ``When the most devastating terrorist 
attacks on America in the last 20 years come overwhelmingly from people 
of a single faith, and are performed in the name of that faith, a 
special obligation falls on that faith's leaders to respond. Instead, 
their silence has made most Islamic leaders across America complicit in 
these acts. [ . . . ] The silence in the face extremism coming from the 
best-funded Islamic advocacy organizations and many mosques across 
America is absolutely deafening. It cast doubt upon the commitment to 
peace by adherence by the Muslim faith. This is unacceptable it is 
dangerous, it must end.'' In November 2016, you stated that ``Silence 
has made these Islamic leaders across America potentially complicit in 
these acts.''
    After the 9/11 attacks on our country, in Maryland I have had the 
privilege to work with Muslim faith leaders who unequivocally condemned 
the attack. Over the years I have worked with numerous faith leaders 
from the Jewish, Muslim, Christian, and other religious communities to 
both combat hate crimes and counter violent extremism. I have found 
that forming inter-faith working groups have allowed us to share best 
practices and success stories so that we can better protect all 
communities, regardless of their religious beliefs. Do you stand by 
your comments? As the nation's chief diplomat, how will you build 
relationships of trust with the representatives of the world's 1.8 
billion Muslims, particularly given the past statements you have made 
about Muslims that have been interpreted as anti-Muslim by many faith 
leaders?

    Answer. I will treat persons of each faith or no faith with the 
dignity and respect that each human being deserves, as I have done 
during my tenure at the CIA. In this capacity, I have worked closely 
with Muslim leaders and with governments of Muslim countries. Working 
with leaders of all faiths is at the core of who I am. If confirmed, I 
will work towards creating a more diverse State Department workforce in 
every sense: in terms of race, religion, background, and more. As I 
have done at the CIA, I will achieve this by focusing on the mission 
and treating every team member with dignity and respect. With respect 
to the comments you referenced, I was attempting to convey that we all 
have a duty to speak out against violent extremism and that some 
leaders in the United States may be more credible and more trustworthy 
when they speak out, since they can speak to other Muslims based on 
shared background and experience.


    Question 2.  During the hearing, I asked if you favor regime change 
in North Korea and you said you do not. Yet, at a talk at the Aspen 
Institute in July 2017, you said, ``As for the [North Korean] regime, I 
am hopeful we will find a way to separate that regime from this system. 
The North Korean people I'm sure are lovely people and would love to 
see him go.'' How do you reconcile your answer during the hearing with 
your statement from last July?

    Answer. I reaffirm my statement during the hearing that I have 
never advocated for regime change. In the speech you referenced, I was 
referring to the North Korean people who deserve to live under a 
government that fully respects their basic human rights. We have a 
responsibility to achieve a condition where Kim Jong-un is unable to 
threaten the United States with a nuclear weapon.


    Question 3.  Refugees:  Over the course of the last few years, 
there has been increased public concern, as well as significant 
misinformation, surrounding the U.S. Refugee Admissions Program. 
Refugees are subject to the most rigorous and detailed security 
screenings of any category of persons--immigrant or visitor--to enter 
the U.S., in a process that on average takes 18-24 months and involves 
over a dozen national security, law enforcement, and intelligence 
agencies. It is a security process that has been reviewed, continuously 
improved (including as new technological advances are introduced), and 
reaffirmed under both the Obama and Bush administration. Please explain 
what specifically you would do to improve the existing program, without 
decreasing the number of refugees who are resettled, especially in 
light of the urgent humanitarian need.

    Answer. I believe America has an important role to play in 
providing assistance to refugees. At the current time, it is my 
understanding that additional vetting procedures introduced as a result 
of President Trump's executive orders are enabling departments and 
agencies to more thoroughly review applicants to identify individuals 
who might pose a risk to public safety or national security. I also 
understand that processing time may be slower as departments and 
agencies implement these additional security-vetting procedures. If 
confirmed, I look forward to reviewing both our humanitarian assistance 
and refugee resettlement programs, to determine potential areas for 
improvement.


    Question 4.  Immigration Policy and TPS: I have sent a number of 
letters to the Departments of State and Homeland Security regarding the 
Temporary Protected Status (TPS) designation impacting hundreds of 
thousands of people who have migrated to the United States from Sudan, 
South Sudan, Nicaragua, Haiti, El Salvador, Honduras, Nepal, Somalia, 
Yemen, and Syria. Ending the TPS designations for these countries will 
put hundreds of thousands of people and their families at risk. Would 
ending TPS further destabilize conditions in Sudan, South Sudan, 
Nicaragua, Haiti, El Salvador, Honduras, Nepal, Somalia, Yemen, and 
Syria, respectively? Please explain whether and how each of these 
foreign governments can ensure the safe return of TPS holders. DHS 
makes TPS determinations in consultation with the State Department. If 
confirmed, would you support extending the designations for the TPS 
countries listed above? If not, please explain in specific terms how 
you would determine the extension or termination of one designation 
over the others?

    Answer. TPS provides the U.S. government with the ability to 
provide temporary protection to those present in the United States who 
cannot return home in safety. Section 244 of the Immigration and 
Nationality Act provides the Secretary of Homeland Security with sole 
authority to designate a foreign state for TPS, or to extend or 
terminate its designation, after consultation with appropriate 
government agencies, including the Department of State, which has an 
advisory role only. If I am confirmed, the Department will continue to 
provide input to DHS for use by Secretary Nielsen as she makes her 
determinations. Our input will continue to draw upon the State 
Department's unique country, regional, and humanitarian expertise to 
evaluate country conditions against the criteria set out in the TPS 
statute.


    Question 5.  Press reports have indicated that certain TPS 
decisions and recommendations from State to DHS have ignored the 
recommendations made by the U.S. embassies in country to the Secretary 
of State to renew TPS. What weight would you give the recommendations 
made by your embassies on the ground in deciding whether to recommend 
renewal of TPS? In what types of cases would you overrule the 
embassies' recommendations to extend TPS?

    Answer. If I am confirmed, the State Department will continue to 
draw upon its unique country, regional, and humanitarian expertise to 
evaluate country conditions in conjunction with the criteria set out in 
the TPS statute and provide its collective input to DHS for use by 
Secretary Nielsen as she makes her determinations. I understand that 
the Department's regional bureaus extensively consider input from 
embassies in assessing country conditions and providing their 
recommendations. Generally, I would only overrule recommendations after 
full consideration of relevant input and considering what best serves 
America's interests.


    Question 6.  Antisemitism Special Envoy: In August, Rex Tillerson 
wrote Chairman Corker with several preliminary decisions related to 
special envoy positions within the State Department. Among those, he 
indicated he was going to keep the Special Envoy to Monitor and Combat 
Anti-Semitism. The Trump Administration has placed special emphasis on 
promoting and defending religious freedom, an issue worthy of attention 
and one that enjoys bipartisan Congressional support. Yet in an 
environment in which anti-Semitism is growing both at home and abroad, 
the Special Envoy position remains vacant. Past Special Envoys have 
made significant process promoting interfaith solidarity, engaging with 
youth, establishing trainings within the State Department on 
antisemitism, making issues of tolerance part of the core practice of 
foreign policy, and championing these issues in bilateral and 
multilateral settings. Do you pledge, if confirmed, to work with the 
White House to expeditiously identify and nominate an appropriately 
qualified candidate for Special Envoy to Monitor and Combat Anti-
Semitism?

    Answer. Yes.


    Question 7.  Global Magnitsky Implementation: I appreciate your 
support for Global Magnitsky. If confirmed, will you ensure that every 
regional bureau participates meaningfully in the designations process?

    Answer. Yes. Global Magnitsky is a powerful sanctions program to 
advance human rights and address corruption around the world, and, if 
confirmed, I intend to implement this program robustly, and consider 
the input of appropriate bureaus.


    Question 8.  Israel and Boycott, Divest, and Sanctions (BDS) 
Issues: As you know, there is a growing international campaign to 
coerce and delegitimize Israel by imposing boycotts, divestment, and 
sanction actions. I am cosponsoring legislation with my colleague, Rob 
Portman of Ohio, that would prohibit U.S. entities from responding to 
requests from the UN Human Rights Council or other international 
governmental organizations designed to blacklist and boycott companies 
engaged in legal commerce with Israel. The legislation is based on the 
40-year old Export Administration Act (EAA) which has been repeatedly 
upheld by federal courts and protects the rights of individual 
Americans who want to criticize Israeli or American policies. The 
administration has been vocal in its opposition to BDS and anti-Israel 
bias at the UN and other agencies. As Secretary of State, will you 
support this legislation, the Israel Anti-Boycott Act (S. 720)?

    Answer. The United States government strongly opposes boycotts, 
divestment campaigns, and sanctions targeting the State of Israel. 
Boycotts of Israel are unhelpful and do not contribute to an 
environment conducive to peace.
    It is my understanding that the Department of State and its 
embassies overseas regularly engage with governments, international 
organizations, and other entities to oppose such activities. If 
confirmed, I look forward to engaging with Congress on any legislation 
that seeks to counter efforts to isolate or delegitimize the State of 
Israel.


    Question 9.  Extractives Industry Transparency:  Transparency and 
accountability are critical to good governance, the fight against 
corruption, and rule of law. I have worked to enhance transparency in 
the extractive industries through Section 1504 of Dodd-Frank--which 
requires extractive industry companies to disclose their payments to 
foreign governments at the project level. This Rule, often referred to 
as the Cardin-Lugar Rule, has been endorsed by Shell, BP, Total, the 
world's largest mining company- BHP Billiton, and U.S. companies Kosmos 
Energy and Newmont, among others. What impact, if any, do you think 
resource payment transparency should have on U.S. foreign assistance 
efforts?

    Answer. USAID dedicates significant resources to this effort in 
support of the Extractive Industries Transparency Initiative (EITI) 
implementation around the world. As you know, the Department of State 
serves on EITI's board, representing the United States as a supporting 
country and providing American leadership. If confirmed, I will 
continue promoting resource payment transparency to expose and counter 
corruption and mismanagement of natural resources.


    Question 10.  Human Rights:  What are the most important actions 
you have taken in your career to date to promote human rights and 
democracy? What has been the impact of your actions? Will you commit to 
using your position to defend the human rights and dignity of all 
people, no matter their race, ethnicity, religion, sexual orientation 
or gender identity?

    Answer. If confirmed, I commit to defending and advancing the human 
rights and dignity of all people, no matter race, ethnicity, religion, 
sexual orientation, or gender identity. I will also work to strengthen 
democracy where it exists and promote it where it does not. As I noted 
at the hearing, ``We should defend American values every place we go'', 
even if it leads to hard conversations with certain partners. These 
values are fundamental to who we are as Americans, and nations that 
respect human rights and the rule of law are more stable and make 
better allies.
    In Congress, I supported laws like P.L. 114-281, the Frank R. Wolf 
International Religious Freedom Act, which advances religious freedom 
globally through enhanced diplomacy, training, foreign assistance, and 
stronger responses to religious freedom violations and violent 
extremism.


    Question 11.  What will you do to promote, mentor and support your 
staff who come from diverse backgrounds and underrepresented groups in 
the department? What steps will you take to ensure supervisors in the 
department are fostering an environment that is diverse and inclusive?

    Answer. As I said in my hearing, I believe deeply that the 
Department of State's workforce must be diverse in every sense of the 
word--in terms of race, religion, background, and more. If confirmed, I 
will seek ways to enhance the Department's mentoring, fellowship, and 
career development programs, such as the Rangel and Pickering 
Fellowships, to ensure all employees, including those from diverse 
backgrounds and underrepresented groups, have the skills necessary for 
current and future work assignments. If confirmed, I will also ensure 
that supervisors continue to have the resources they need to foster an 
inclusive work environment.


    Question 12.  Cuba:  You are on record criticizing President Obama 
for traveling to Cuba, accusing him of making ``unilateral 
concessions.'' Do you think that should be a precondition for President 
Trump traveling to a foreign country, or for us maintaining an embassy 
in a foreign country? If so, what should we demand of China, or Egypt, 
or Turkey, or Vietnam, or other countries with authoritarian 
governments whose policies we disagree with in return for such a 
presidential visit or maintaining an embassy there? Do you support the 
embargo against Cuba, or the restrictions on travel by private American 
citizens to Cuba? Do you think either the embargo or the restrictions 
on travel have advanced our national interests, and if so how?

    Answer. I do not generally believe that there should be 
preconditions for the President to travel to a foreign country or to 
maintain an embassy in another country.
    The June 16, 2017 National Security Presidential Memorandum on Cuba 
reiterates the Administration's commitment to support the economic 
embargo of Cuba and ensure adherence to the statutory ban on tourism to 
Cuba. It also ensures U.S. public and private engagement with Cuba does 
not disproportionately benefit the Cuban military, intelligence, or 
security services, or personnel, at the expense of the Cuban people.
    If confirmed, I will make sure the State Department continues to 
advance U.S. policy towards Cuba that improves human rights, encourages 
the rule of law, fosters free markets and free enterprise, and promotes 
democracy in Cuba.


    Question 13.  Independence of USAID:  Bipartisan Members of 
Congress have spoken out on the importance of maintaining USAID's 
independence as a key part of our national security and foreign policy 
strategy. Do you believe in maintaining a strong and independent USAID?

    Answer. USAID plays a fundamental role in supporting American 
foreign policy as the lead U.S. government agency for international 
development and disaster assistance. USAID plays a critical role in 
American efforts to underpin global stability by countering the drivers 
of violence and instability; preventing and containing pandemics; 
responding to the challenges caused by displacement and mass migration; 
and strengthening citizen-responsive governance, democracy, and human 
rights. If confirmed, I look forward to working with Administrator 
Green and the exceptional staff at USAID to pursue these goals most 
effectively.


    Question 14.  USAID and Global Health:  U.S. government global 
health initiatives spearheaded by the State Department and USAID have 
been instrumental in great advances such as fighting major infectious 
diseases like HIV, TB, and malaria, countering threats from biological 
and chemical weapons, and driving down maternal and child deaths around 
the world. However, key barriers such as a severe shortage of frontline 
health workers threatens further progress on these initiatives, as well 
as to efforts to ensure global health security. How will you build on 
the State Department and USAID's success in exercising soft power such 
as global health development programs and work with partners to address 
persistent systems barriers that are critical to transitioning 
countries off assistance and fostering more stable and prosperous 
partners?

    Answer. Programs such as the President's Malaria Initiative, the 
President's Emergency Plan for AIDS Relief (PEPFAR), investments under 
the Global Health Security Agenda, and efforts to eliminate 
tuberculosis have had success, in part, because of a focus on 
developing host-country commitment, strengthening local workforces, 
implementing evidence-based interventions, involving civil society and 
the private sector, and rigorously using data to monitor performance 
and make adjustments. These efforts to promote health and fight 
diseases are critical not only to promoting economic prosperity and 
self-reliance in our partners, but also to protect Americans from 
infectious-disease threats that cross borders. As President Trump's 
National Security Strategy clearly states, biological threats--
including those that are accidental, the result of a deliberate attack, 
or stem from a natural outbreak--are growing, and require actions to 
address them at their source. I recognize that we can do more with our 
partners. If confirmed, I look forward to working with you on how to 
strengthen this critical work.


    Question 15.  How will you ensure that agencies will have stronger 
coordination on cross-cutting issues, and will State/USAID missions and 
ambassadors have the flexibility to address the most acute health 
workforce and health systems gaps in their own countries, such as those 
that led to the Ebola epidemic, to best prevent, detect, and respond to 
global health threats from negatively impacting American lives at home?

    Answer. I agree that effective coordination across the U.S. 
government is important, not only when the world faces a crisis such as 
the Ebola epidemic, but also in addressing the factors that can lead to 
such crises. If confirmed, I will work to ensure the U.S. government 
further improves its coordination of international programs in health 
security and health systems around the world through high-impact 
partnerships, such as the Global Health Security Agenda. I also agree 
that investments in global health and global health security are vital, 
and, if confirmed, I will support our ambassadors and USAID mission 
directors to engage at the country level to respond to future potential 
public health emergencies of international concern in a coordinated and 
effective fashion.


    Question 16.  Genocide/Atrocity Prevention:  Most of the 
approximately 1 million people who were slaughtered in the Rwandan 
genocide died in the first few weeks. In countries such as Syria, South 
Sudan, Yemen, Burundi, and Myanmar, mass atrocities are occurring and 
could worsen. When crises reach such levels, options are limited, 
risky, expensive, and may not be sufficiently timely. Investing in 
early prevention of mass atrocities saves both lives and valuable 
resources. What will you do to strengthen existing atrocity prevention 
initiatives, to ensure that atrocity prevention is institutionalized in 
the national security structure, and to promote international 
cooperation on atrocity prevention? Do you agree with the 2011 
Presidential Study Directive--10 which states that, ``Preventing mass 
atrocities and genocide is a core national security interest and a core 
moral responsibility of the United States''? If so, how will you seek 
to pursue that interest and responsibility? What efforts would you 
support to prevent and to punish genocide? Do you think prosecution of 
suspected perpetrators of mass atrocities can help prevent future 
atrocities? Do you believe it is in the U.S. national interest to fund 
foreign assistance programs intended to mitigate conflict and prevent 
mass atrocities, or should the U.S. refrain from getting involved in 
foreign disputes unless U.S. personnel or property are directly 
threatened?

    Answer. As the National Security Strategy states, it is a U.S. 
government priority to hold perpetrators of genocide and mass 
atrocities accountable, and to support with both words and actions 
those who live under oppressive regimes and seek freedom, individual 
dignity, and the rule of law. If confirmed, I will support U.S. 
government efforts to prevent atrocities. I will support criminal 
accountability and other transitional justice mechanisms to help end 
impunity, which furthers reconciliation and prevents the recurrence of 
violence and atrocities. The Department of State's embassies and 
consulates, intelligence and analytic capacity, and foreign assistance 
programming, along with our relationships with bilateral, multilateral, 
and local partners, are key components of the whole-of-government 
approach the Administration has taken to implement these priorities.


    Question 17.  Diplomacy and Development: General Jim Mattis had one 
of the most enduring quotes about the importance of development and 
diplomacy as to our national security. At a hearing in front of the 
Senate Armed Services Committee in 2013, he said, ``If you don't fund 
the State Department fully, then I need to buy more ammunition.'' 
Starting in 2002 and every year since, U.S. National Security 
Strategies have elevated diplomacy and development alongside defense as 
the three instruments of national security power, and with the number 
of complex challenges we face, coordination between the State 
Department, our military, and our development agencies has never been 
more important. Development must stand alongside diplomatic and defense 
activities, and cannot be subsumed by either. If confirmed, how will 
you elevate diplomacy and development to ensure they're on equal 
footing as key components of our national security strategy? Will you 
support a fully empowered USAID Administrator?

    Answer. I agree that diplomacy and development are critical aspects 
of American national security, along with our military capabilities. 
One of the many values of robust diplomacy is that it increases our 
chances of solving problems peacefully, without ever firing a shot. The 
same can be said for working with other countries to address their 
development challenges alongside their journeys to self-reliance. If 
confirmed, I will do my part to ensure the State Department is working 
with our interagency partners to leverage each other's core 
competencies, so that we can effectively and efficiently advance our 
collective national-security objectives. As the lead U.S. government 
agency on international development and disaster assistance, USAID 
plays a fundamental role in supporting American foreign policy and in 
our efforts to ensure stability, detect and respond to possible 
pandemics, prevent conflict, and build citizen-responsive local 
governance. I look forward to working with Administrator Green and the 
exceptional staff of USAID to pursue these goals most effectively.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                 Mike Pompeo by Senator Jeanne Shaheen


                            (Questions 1-29)

    Question .  The personnel cuts at the State Department carried out 
before your nomination have proceeded without any plan being disclosed 
for how those cuts are to be distributed or how the long-term workforce 
plan relates to America's overall diplomatic mission. I am concerned 
that the loss of senior experienced career personnel, in particular, 
will weaken American diplomacy for years to come. The Congress has made 
its views clear with appropriations that are much larger than the 
Administration's request. Now that this funding has been made 
available, will you rebuild the depleted ranks of the Senior Foreign 
Service through increased Foreign Service officer promotion rates and 
restoring entry-level intake to historical levels? In those areas where 
you plan to reduce staff, please explain in detail how the reductions 
will improve effectiveness and what major uses of staff until now will 
no longer be necessary?

    Answer. If confirmed, I will assess the prior personnel decisions, 
which I understand have raised a number of concerns within the 
Department and with Congress, and will fight to ensure that a strong, 
well-resourced foreign and civil service is at the forefront of U.S. 
diplomacy at all levels.


    Question 2.  If confirmed, you will face the challenge of 
rebuilding a hollowed-out State Department that has lost half of its 
most senior career leadership, is still subject to a hiring freeze, and 
lacks nominees to critical posts at regional bureaus and embassies 
worldwide. If confirmed, what specific steps will you take to address 
this diplomatic readiness crisis and boost morale at the State 
Department? Will you commit to immediately and fully rescinding the 
hiring freeze and working to expeditiously fill vacant Senate-confirmed 
positions?

    Answer. If confirmed, I will work to ensure that vacancies in the 
senior ranks of the Department are filled as soon as practicable with 
talented and capable people. I will also work to ensure that key State 
Department priorities are properly resourced. As discussed at my 
hearing, my goal is to ensure that the State Department is at the 
forefront of U.S. diplomacy.


    Question 3.  Would you support undertaking a comprehensive review 
to evaluate current training for Foreign Service officers working in 
core diplomatic career fields (political affairs, economic affairs, and 
public diplomacy) in order to identify requirements for expanded 
training opportunities to enhance diplomatic capabilities in these 
areas?

    Answer. If confirmed, I would support undertaking a comprehensive 
review to evaluate current training and requirements for Foreign 
Service Officers working in all core diplomatic career fields. Training 
and professional development opportunities are critical to ensuring the 
Department is a place where people want to work and grow in their 
careers, and it is critical that diplomats continue to develop the 
skills to advance U.S. interests now and into the future.


    Question 4.  Members of Congress have spoken out on a bipartisan 
basis on the importance of maintaining USAID's independence as a key 
part of our national security and foreign policy strategy. Do you 
believe in maintaining a strong and independent USAID?

    Answer. As the lead U.S. government agency for international 
development and disaster assistance, USAID plays a fundamental role in 
supporting American foreign policy. If confirmed, I look forward to 
working with Administrator Green and USAID's exceptional staff.


    Question 5.  As Congress and the Administration stake out divergent 
priorities on funding levels for the International Affairs Budget, 
Members of Congress have raised concerns about the State Department 
withholding appropriated funds from obligation. The State Department's 
failure to spend $120 million that Congress appropriated for the Global 
Engagement Center (GEC) has further fueled these concerns. I 
appreciated our conversation and your commitment to utilize the Global 
Engagement Center more appropriately. If confirmed, what concrete steps 
will you take to prevent similar delays in the future?

    Answer. If confirmed, I will work to secure an appropriate transfer 
of funds from the Department of Defense as expeditiously as possible 
and to utilize funds from the Fiscal Year 2018 Consolidated 
Appropriations Act to the GEC to support its mission to counter state-
sponsored disinformation. Further, I commit to staffing the GEC in a 
way to ensure its ability to carry out its mission.


    Question 6.  The Fiscal Year 2018 omnibus spending bill included 
language requiring the Administration to report to Congress on any 
actions taken related to reform, reorganization, or redesign of the 
State Department and USAID. Members of Congress have previously 
expressed concern about transparency throughout this process. If 
confirmed, will you commit to regular consultations with this Committee 
and with Congress concerning any reforms or modernization efforts? Will 
you also commit to engaging with outside stakeholder organizations in 
the foreign policy and international development communities as well?

    Answer. Yes. As I discussed at my hearing, consultations with you, 
the Committee and the Congress are a critical part of ensuring the 
success of the State Department.


    Question 7.  Studies have shown that diverse workplaces are more 
productive. A recent McKinsey study found that companies in the top-
quartile for gender diversity on executive teams were 21% more likely 
to outperform on profitability and 27% more likely to have superior 
value creation. The State Department must know this, because one of its 
6 core values is a ``Commitment to having a workforce that represents 
the diversity of America.'' According to State Department Employment 
data, women comprise the majority of civil servants at lower and middle 
grades (Grades GS-13 and below). However, at the upper levels--civil 
servants at the GS-14 level and above are 60% male. The Foreign Service 
shows a similar trend: men and women enter the Foreign Service at 
roughly equal numbers, yet 70% of the Senior Foreign Service is male. 
To make matters worse, the State Department remains the only agency to 
continue a hiring freeze, effectively maintaining this structure of men 
at the top and women at the bottom. I appreciated your commitment to 
lift the hiring freeze during the hearing. What will you do to correct 
these gender inequities in the State Department to ensure a high 
quality institution that represents the diversity of the United States? 
How will you ensure that women at the State Department will not be 
confined to the lower ranks and will have more chances to reach the 
top?

    Answer. As I said in my hearing, I believe deeply that the 
Department of State's workforce must be diverse in every sense of the 
word. If confirmed, I will seek ways to enhance the Department's 
mentoring, fellowship, and career development programs to ensure all 
employees, including those from diverse backgrounds and 
underrepresented groups, have the skills necessary for current and 
future work assignments. If confirmed, I will also work to increase 
gender diversity at the senior levels by better identifying the 
obstacles to the career progression of women in the Department.


    Question 8.  The President's Emergency Plan for AIDS Relief 
(PEPFAR) is one of the most effective initiatives of its kind. What are 
your priorities for this program? What would you do as Secretary of 
State to help developing countries in their continuing fight against 
this disease?

    Answer. With a strong commitment to advancing HIV/AIDS efforts in 
more than 50 countries, PEPFAR is working to achieve epidemic control 
in up to 13 high-HIV-burden countries by 2020, creating the road map to 
reach epidemic control in all PEPFAR-supported countries. I understand 
that current priorities include: acceleration of optimized HIV testing 
and treatment strategies, particularly to reach men under age 35; 
expansion of HIV prevention for adolescent girls and young women 
through DREAMS efforts so they grow to be ``Determined, Resilient, 
Empowered, AIDS-free, Mentored, and Safe'' and the expansion of 
Voluntary Medical Male Circumcision (VMMC) for boys and young men in 
targeted age bands to decrease their risk of HIV infection; continuous 
use of granular epidemiologic and cost data to improve partner 
performance and increase program impact and effectiveness; a renewed 
engagement with faith-based organizations and the private sector to 
accelerate and improve efforts toward epidemic control and ensuring 
access to lifesaving services for children; and, finally, a 
strengthened policy and financial contributions by partner governments 
in the HIV/AIDS response. If confirmed, I look forward to supporting 
developing countries through PEPFAR to accelerate their progress toward 
controlling and ultimately ending the HIV/AIDS pandemic.


    Question 9.  Recently the State Department released its review of 
the expanded Global Gag Rule, also known as the Mexico City Policy. The 
State Department claimed that there have been no service disruptions 
due to the policy, yet I have received information that in Mozambique 
the provider AMODEFA has closed 18 youth-friendly clinics and 72 mobile 
clinics, in Swaziland the provider FLAS has reduced geographic coverage 
from 14 towns to 4, and in Botswana BOFWA has closed one clinic and 
scaled back services at 7 others as a result of this policy. If 
confirmed, how would you examine gaps in services and work to ensure 
needs being filled? When you were in the House of Representatives, you 
voted in favor of legislation that would have reinstated the Mexico 
City Policy. Do you stand be your vote? Do you support the Mexico City 
Policy?

    Answer. If confirmed, I will support the Administration's efforts 
to support the maternal health and family planning needs of women 
around the world. Through the Protecting Life in Global Health 
Assistance (PLGHA) policy, which I support, the Administration is 
ensuring that no U.S. government global health assistance funds support 
foreign non-governmental organizations (NGOs) that perform or actively 
promote abortion as a method of family planning in other countries.
    I understand that the policy will not impact the total amount of 
U.S. government funding for maternal health and family planning 
programs. I also understand that the vast majority of foreign NGOs to 
which the U.S. government has provided global health assistance funding 
subject to the PLGHA policy are accepting the conditions on awards 
required under the policy, and continue to participate in U.S. 
government-funded global health assistance programs. When a foreign NGO 
declines to agree to the policy, I understand that departments and 
agencies work to identify other partners while minimizing the 
disruption of services.


    Question 10.  In President Trump's first two budget requests, he 
proposed devastating and disproportionate cuts to international family 
planning programs. Do you believe the United States should work to 
ensure that women and young people receive comprehensive and accurate 
information about and access to a full range of contraceptive methods? 
If confirmed, would you support maintaining funding for family planning 
programs current Fiscal Year 2018 appropriated levels?

    Answer. I understand the United States is a leader in the provision 
of maternal and newborn health care, including voluntary family 
planning. If confirmed, I will support the Administration's efforts to 
support the maternal health and family planning needs of women around 
the world.


    Question 11.  Over 300,000 women die every year in pregnancy or 
childbirth. The vast majority of these deaths are preventable. We know 
ensuring women can utilize the modern contraception they want would 
dramatically reduce maternal and newborn deaths--when women are able to 
space their pregnancies at least three years apart, they are more 
likely to survive pregnancy and childbirth and their children are more 
than twice as likely to survive infancy. Providing family planning 
services is one of the most effective and cost-effective tools we have 
to save mothers' and newborns' lives. Yet, the Administration has 
proposed dramatic and disproportionate cuts for this life saving and 
effective program. Do you think that access to voluntary contraception 
and accurate and comprehensive information is important to women's 
health and U.S. development goals of preventing maternal and child 
deaths, controlling the AIDS epidemic, achieving gender equality, and 
empowering women and adolescent girls? If confirmed, will you support 
maintaining funding and policies that prioritize expanding access to 
modern contraception as an efficient and effective way to reduce 
maternal and newborn deaths?

    Answer. I understand that the United States is a leader in the 
provision of maternal and newborn health care, including voluntary 
family planning. If confirmed, I will support the Administration's 
policies and programs to reduce maternal and newborn deaths, combat the 
AIDS epidemic, promote gender equality, and empower women and girls.


    Question 12.  We are facing the largest refugee crisis in decades. 
We know that pregnancy-related deaths and instances of sexual violence 
increase significantly during these crises. In 2015, the UN estimated 
that 61% of maternal deaths took place in humanitarian crises and 
fragile settings where health services were not available to women. 
UNFPA is the leading provider of maternal and reproductive these health 
services and supplies in humanitarian emergencies, often operating in 
areas where no one else is able to, as well as leading global 
coordination around GBV prevention and response. However, the State 
Department in March made a baseless determination to withhold funding 
for UNFPA and the FY19 budget proposal reflects this decision. You 
cosponsored legislation in 2011 to ban all U.S. funds from UNFPA. How 
would the State Department, under your direction, should you be 
confirmed, ensure the health and protection needs of women in these 
crises are being met? When you were in the House of Representatives you 
cosponsored legislation that would have defunded UNFPA. Do you stand by 
that bill? Do you oppose U.S. funding for UNFPA? If confirmed, would 
you commit to setting aside your own politics and reversing the 
determination if you find that it was made without any evidence of 
wrongdoing, as has been well documented by previous examinations of 
UNFPA's work in China?

    Answer. If confirmed, I will support the Administration's plans to 
invest in voluntary family planning programs in developing countries. I 
understand that with the Protecting Life in Global Health Assistance 
Policy in place, the President's Fiscal Year 2019 Budget Request 
includes $302 million in funding for voluntary family planning and 
women's health programs overseas. It is also my understanding that the 
U.S. Government has either reprogramed funding once intended for the 
United Nations Population Fund, or is in the process of finalizing 
plans to make such funds available for voluntary family planning, 
maternal health, and other women's health activities, subject to the 
regular notification procedures of the Committees on Appropriations.
    If confirmed, I will commit to reviewing relevant information as 
required and enforcing legislation passed by Congress with regard to 
women's health, including family planning.


    Question 13.  I have asked the State Department repeatedly for 
concrete evidence that UNFPA violated the Kemp-Kasten amendment. To 
date, no such evidence has been provided to me or to my office. In 
fact, in the Memorandum of Justification for the Determination 
Regarding the Kemp-Kasten Amendment that the State Department sent the 
Senate Foreign Relations Committee, the State Department concluded on 
page 2 that so such evidence exists. I am attaching a letter I sent to 
Secretary Tillerson to this effect, and would like the Department to 
send me firm evidence, actual instances/examples, to support the 
Department's determination that UNFPA favors or directly supports 
coercive abortions or involuntary sterilization. Please send the 
evidence along with the answers to my additional questions on UNFPA.

    Answer. It is my understanding that the State Department provided 
information on the Administration's Kemp-Kasten determination to the 
Congress, including the Senate Foreign Relations Committee, in 2017 and 
2018. If confirmed, I will look into the specific questions you posed 
and welcome further discussion.


    Question 14.  Do you believe nuclear arms control is an important 
tool for protecting this country? Do you think arms control treaties 
have value even when they are under duress? Do you agree that arms 
control treaties need mechanisms for resolving disputes and 
misunderstandings and that those mechanisms should be exhausted before 
there is any consideration of withdrawal?

    Answer. Yes, I believe arms control can be an important tool for 
protecting this country if the measures advance U.S., allied, and 
partner security, are verifiable and enforceable, and include partners 
that comply responsibly with their obligations. The value of any arms 
control treaty depends on all parties remaining in compliance. My 
understanding is that the United States exerts considerable efforts to 
resolve disputes involving implementation and compliance. At the same 
time, the United States cannot endure forever another treaty party's 
noncompliance, especially when the violations are significant enough to 
affect the purpose of the treaty.


    Question 15.  Last year General Hyten, head of U.S. Strategic 
Command, said he supports the strategic nuclear weapons limits put in 
place by the New START Treaty. On February 5, the United States and 
Russia each announced that they had met their treaty obligations to 
reduce their deployed strategic nuclear forces by the agreement's 
implementation deadline. The treaty, which expires in February 2021, 
can be extended by up to five years but the Administration has yet to 
take a position on an extension. What would be the consequences if 
there are no data exchanges, reciprocal inspections, or verifiable 
limits on U.S. and Russian strategic nuclear forces, which would be the 
case if New START is allowed to expire with nothing to replace it?

    Answer. If confirmed, I will consider next steps related to the New 
START Treaty at the appropriate time. I believe data exchanges, 
reciprocal inspections, and verifiable limits can foster transparency, 
understanding, and predictability in adversary relations, and 
contribute to managing the strategic competition between the United 
States and Russia at this time.


    Question 16.  Over the last year, we have seen a number of horrific 
atrocities around the globe targeting lesbian, gay, bisexual, 
transgender and queer (LGBTQ) people, who have been rounded up, 
tortured, and even killed in the Russian republic of Chechnya and 
elsewhere. Your predecessor failed to adequately address these types of 
atrocities. Without U.S. leadership on this issue, bad actors may take 
it as a signal that they have a free hand to attack their most 
vulnerable citizens. Will you commit to using your position to defend 
the human rights and dignity of all people, no matter their sexual 
orientation or gender identity? If so, what specifically will you 
commit to do to help LGBTQ people around the world ensure they are not 
targeted for abuse?

    Answer. The horrible treatment of LGBTI persons by Chechen 
authorities is truly despicable, and, if confirmed, I will stand with 
the persecuted people of Chechnya, including LGBTI persons. If 
confirmed, I commit to defend the human rights and dignity of all 
people, no matter their race, ethnicity, religion, sexual orientation, 
or gender identity. If confirmed, consistent with the Administration's 
prior commitment, I intend to retain the position of Special Envoy for 
the Human Rights of LGBTI Persons.


    Question 17.  Your predecessor failed to appoint a Special Envoy 
for the Human Rights of LGBTI Persons. Will you commit to working 
expeditiously to appoint a Special Envoy for the Human Rights of LGBTI 
Persons?

    Answer. Yes.


    Question 18.  I have commended the Administration's response to the 
Salisbury nerve agent attack and the recent CAATSA designations of 
Russian oligarchs and officials. However, in the last two weeks, both 
current and former officials, including H.R. McMaster, have asserted 
that this Administration has not done enough to counter Russia's malign 
efforts. I would agree that the United States has not yet gone from 
responding to Russia's individual transgressions to leading a global 
response to counter Russian malign influence. Do you think it is time 
for a comprehensive strategy toward Russia? Could you describe what a 
comprehensive strategy to address Russian malign influence would look 
like?

    Answer. If confirmed, I will advance the Administration's strategy 
of increasing pressure on the Russian government until it stops its 
malign behavior, including election meddling, while also keeping 
opportunities for engagement open. I would like to move beyond the 
current low level of trust, stabilize our relationship, and cooperate 
where possible. But where we do not see eye-to-eye, I will uphold our 
interests, and those of our allies and partners.


    Question 19.  In the Balkans, the competition with Russia has the 
potential to sow fresh instability in a region where Russia is 
increasingly active. Wary of Russian meddling, the European Union is 
holding out a renewed prospect of membership to Bosnia and to the other 
five nations of the Western Balkans--Serbia, Montenegro, Macedonia, 
Albania and Kosovo--in return for fundamental structural reform. Will 
you support the EU's efforts in this areas? What efforts can the U.S. 
lead in the Balkans to help ensure that this region does not fall into 
chaos or into Russia's hands? What role can NATO play, and how will the 
U.S. support NATO efforts in the region? Bosnia and Herzegovina, in 
particular, remains a fragile construct, riven by corruption, weak 
leadership, and ethnic and nationalist strains among communities. Will 
you prioritize resolving Bosnia's electoral reform challenges and help 
move the country beyond its constant political sclerosis? What is the 
best solution to this current crisis? What more can be done? Do you 
think it would be important to provide younger Bosnian with more travel 
and business opportunities, perhaps through an enterprise fund or by 
other means?

    Answer. Russia's efforts to sow instability in the Western Balkans 
are significant, but the United States is pushing back. The 
Administration works closely with the European Union on reform efforts 
in these countries. If confirmed, I will continue to support NATO's 
presence in the region in conjunction with DoD, which plays an 
important role in assisting with defense reform. Electoral reform is 
necessary to improve the functionality and stability of Bosnia and 
Herzegovina. Any solution must come from the Bosnians themselves, but 
the Department of State, in concert with the European Union, is working 
hard to engage party leaders and find compromise. I understand that the 
U.S. Embassy in Sarajevo supports programming that promotes economic 
and academic opportunities for the citizens of Bosnia and Herzegovina.


    Question 20.  Are you concerned about the rise of militia-like 
structures tied to Russian entities across Europe and in other parts of 
the globe? We are hearing increased reports of Russian extremists 
training Western civilians and providing courses on paramilitary 
actions. Some of the groups include the Russian Imperial Movement (RIM) 
and others that are directly linked to the Kremlin. How can the U.S. 
work to monitor and stem the influence of these groups? Where are these 
groups the most prevalent? Do they pose a threat to Americans' safety 
and security?

    Answer. The Administration is aware of the existence and potential 
threat that these groups present. Russia's active development and 
deployment of a large range of hybrid threats and activities is a 
matter of serious concern to the United States and all NATO allies and 
partners. Russia uses a constellation of approaches, overt and covert, 
to influence the policies of other governments and undermine domestic 
stability in Europe. Our approach to combatting Russian aggression must 
be comprehensive and whole-of-government. I understand the Department 
of State is committed to utilizing all available tools to counter 
Russian efforts to undermine democratic institutions and stability. If 
confirmed, I will work closely with allies and partners, as well as law 
enforcement, to preserve the safety and security of the American 
people.


    Question 21.  Your first trip upon your confirmation to the CIA was 
to Turkey. What has your experience been like with the Turks? Are they 
good/reliable intelligence partners? Are they good/reliable NATO 
partners? If you are confirmed, will you raise the case of Americans 
jailed in Turkey as well as our long-term concerns over Turkey's 
democratic backsliding? How best can you address Turkey's harmful 
behavior toward the U.S. and other NATO partners? Are you willing to 
use U.S. leverage against Turkey when it threatens the country 
threatens the safety of Americans, our military and our locally 
employed staff? What leverage does the U.S. have? Please provide an 
unclassified list. If you are unable to, will you commit to a 
classified briefing to list the options?

    Answer. It is in the U.S. national interest for Turkey to be a 
stable, democratic, prosperous, and reliable Ally. The Turks have been 
a constant and reliable intelligence partner and this was apparent 
during the trip in early 2017 to Ankara. There are times when there are 
differences between the United States and Turkey regarding our 
respective interests and specific policies. In the intelligence realm, 
we do have a useful exchange of information. The intelligence 
relationship may reflect those differences at times, but overall, the 
intelligence relationship is robust and useful to the United States.
    Turkey is a key member of the Global Coalition to Defeat ISIS, 
hosts U.S. forces at Incirlik Airbase in Adana, and contributes forces 
and support to NATO missions, including in Afghanistan and Kosovo. If 
confirmed, I will support Turkey's democratic development in the belief 
that respect for the rule of law, judicial independence, and freedom of 
the press can again be sources of Turkey's strength and expand our 
potential for partnership. I will have no higher priority than the 
welfare and safety of U.S. citizens. I am deeply concerned about the 
continued detention of U.S. citizens and Mission Turkey local staff on 
scant evidence under the state of emergency in Turkey.
    I believe it is very important to engage actively with Congress on 
these issues. If confirmed, I would welcome the opportunity to continue 
discussing with you and other members issues relating to Turkey.


    Question 22.  As you know, Turkish officials arresting and 
interrogating locally employed U.S. staff in Ankara. Does this means 
that Turkey has reneged on its agreement with the U.S. to stop 
harassing our employees in exchange for the resumption of U.S. visa 
processing. How are you planning on addressing this issue?

    Answer. I understand the Department of State suspended certain 
Embassy operations, including non-immigrant visa services, on October 
8, 2017, due to security concerns relating to the Government of 
Turkey's commitment to the safety and security of our diplomatic and 
consular personnel and facilities. Visa services resumed December 28, 
2017, when the security situation improved following Turkish government 
assurances about the security of U.S. Mission operations and staff. If 
confirmed, I will hold the Government of Turkey to these assurances. I 
will also press the Turkish government to resolve the cases of our 
detained local staff and U.S. citizens in a timely and fair manner, 
respecting human rights and fundamental freedoms, including all the 
protections and fair trial guarantees necessary for their defense.


    Question 23.  In January Turkish banker Mehmet Hakan Atilla was 
found guilty in a federal court room for his involvement in perhaps the 
largest ever sanctions evasion scheme which resulted in tens of 
billions in dollars and gold being moved from Turkey to Iran. Given the 
high-level corruption exposed during the Zarrab case as well as 
countless examples of Turkish officials, like the Justice Minister, 
being involved in arresting innocent Turkish, as well as American 
individuals, and violating these individuals' basic human rights, will 
the Administration include Turkish targets on the next Global Magnitsky 
list? Do you think Global Magnitsky can be used in the context of 
Turkey's manipulation of its own media and the assistance media mogul 
give to the government in vilifying innocent Americans, like Pastor 
Brunson?

    Answer. Global Magnitsky is a powerful sanctions program, and you 
have my commitment, if confirmed, to use it when appropriate. The 
Administration is concerned about Turkey's recent actions. No region is 
immune from human rights abuse or corruption, and the Administration 
appreciates Congressional support for this versatile tool. I look 
forward to working with the Department's experts and the interagency to 
advance implementation of this program.


    Question 24.  Should Turkey be sanctioned under CAATSA for its 
purchase of the S-400 missile defense system? If yes, is it better to 
sanction upon purchase or delivery?

    Answer. The Administration shares Congress' strong opposition to 
the prospect of Turkey procuring the Russian S-400 air defense system. 
I understand that the Administration is using a variety of tools, 
including the possibility of sanctions under CAATSA, to dissuade Turkey 
from purchasing the S-400, and at the same time offer a viable NATO-
interoperable solution. The Administration has made very clear to 
Turkey the potential for sanctions under CAATSA 231.


    Question 25.  How familiar are you with the Afghan Special 
Immigrant Visa Program? Do you commit to help those members of the 
Afghan population and their families that helped our military and State 
Department personnel expeditiously receive these visas and come to the 
United States to live their lives in safety?

    Answer. I am familiar with the program and as a former Army 
officer, have the highest respect for the men and women who take 
enormous risks to support our military and civilian personnel. If 
confirmed, I would support the Administration's efforts to help those 
who have helped us by ensuring visas are issued without undue delay to 
all qualified applicants approved for issuance following completion of 
required vetting.


    Question 26.  While dual citizens are recognized as American 
citizens under our laws, the State Department's consular section 
concedes that they cannot easily gain access to dual citizens arrested 
overseas, even if they are unlawfully arrested. Could you explain why 
this is the case? How can we mitigate this problem?

    Answer. I understand that when a detained U.S. citizen is also a 
citizen of the detaining country, the United States has no legal right 
to notification and access, and the country may decline access. 
Nonetheless, I am committed to continuing the Department's practice of 
seeking access to dual-national U.S. citizens to protect their welfare. 
I am also aware that the Department consistently encourages U.S. law 
enforcement and prisons to provide notification and access to all U.S.-
detained foreign nationals to ensure reciprocal notification and access 
to dual national U.S. citizens by other nations.


    Question 27.  Earlier this year two ISIS fighters (``the Beatles'') 
were caught in Syria. As you know, these individuals are no longer 
British citizens, but are responsible for the deaths of several 
individuals, including Americans, and my constituent James Foley. What 
are the options to bring these individuals to justice? Are you willing 
to pursue the International Criminal Court as an option or other 
international justice mechanisms? Please provide all options that are 
being considered.

    Answer. The Administration is committed to bringing these 
terrorists to justice, and is exploring various options to do so. My 
understanding is that these fighters were British citizens at the time 
of their alleged crimes. I further understand that the State Department 
is encouraging countries to repatriate and prosecute their citizens who 
fought for ISIS in Syria. All governments should take responsibility 
for bringing their own citizens to justice.


    Question 28.  The most recent omnibus spending bill provides $250 
million for the State Department's Countering Russian Influence Fund as 
well as $40 million for the Global Engagement Fund. Do you have any 
plans for this funding? What priority areas would you like to fund 
through these programs?

    Answer. It is my understanding that the Administration intends to 
focus these funds on those countries facing the greatest Russian 
pressure. I anticipate the Administration's efforts will continue to 
focus on countering disinformation, boosting countries' energy security 
and economic resilience, fighting corruption and promoting the rule of 
law, protecting our partners and allies against cyberattacks, and 
bolstering the capabilities of our allies and partners to defend 
themselves against Russian aggression.


    Question 29.  As the co-chair of the Senate NATO Observer Group, I 
am very concerned by the authoritarian turn of several NATO Allies, 
including Poland, Hungary and Turkey. In fact, just last week, 
President Putin visited Turkey on his first foreign visit following his 
election. How will you work to make sure that NATO continues to be an 
alliance of values as well as an alliance of shared security?

    Answer. The United States expects our allies to be strong partners. 
This strength entails meeting their commitments to uphold the values of 
democracy, individual liberty, and the rule of law, as enshrined in the 
Washington Treaty, as well as demonstrating a shared commitment to our 
common defense. If confirmed, I will continue to work with our allies 
to promote our shared transatlantic principles, as well as to foster 
bilateral cooperation that advances U.S. interests.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
              Mike Pompeo by Senator Christopher A. Coons


                            (Questions 1-18)

    Question 1.  In cases where the United States or its partners 
remove territory from jihadist militant control in the Sahel and the 
Lake Chad basin, how should the U.S. government help return security 
and effective governance to these territories?

    Answer. The nature of the security threat in the region has 
demanded a comprehensive and immediate response, and the United States 
continues to support efforts to build capacity in other areas through 
development programming, humanitarian aid, and bilateral assistance. If 
confirmed, I will stress the importance for the countries engaged in 
these conflicts to develop the policies and programs necessary to 
respond to the economic, humanitarian, and governance challenges that 
sustain conflict and drive radicalization. With the support of the 
United States, African partners must develop the capacity to hold 
territory, restore civilian security, ensure accountability for 
atrocities, establish effective governance to deliver essential 
services, revive local economies, and instill respect for citizens' 
rights to prevent the spread of radical elements.


    Question 2.  One of the best ways to support women is through 
family planning. Would you advise President Trump to overturn his 
executive order on the Mexico City Policy or Global Gag Rule, which 
cuts off health care options for women in Africa?

    Answer. If confirmed, I will support the Administration's efforts 
to support the maternal health and family planning needs of women 
around the world. Through the Protecting Life in Global Health 
Assistance (PLGHA) policy, the Administration is ensuring that no U.S. 
government global health assistance funds support foreign non-
governmental organizations (NGOs) that perform or actively promote 
abortion as a method of family planning globally, including Africa.
    I understand that the policy will not impact the total amount of 
U.S. government funding for maternal health and family planning 
programs. I also understand that the vast majority of foreign NGOs to 
which the U.S. government has provided global health assistance funding 
subject to the PLGHA policy are accepting the conditions required under 
the policy, and continue to participate in U.S. government-funded 
global health assistance programs.


    Question 3.  What should be the U.S. strategy in South Sudan if the 
Intergovernmental Authority on Development (IGAD) High Level 
Revitalization Forum fails?

    Answer. The United States is working with its Troika partners 
(Norway and the United Kingdom), IGAD, the African Union, the European 
Union, and the United Nations to press the Government of South Sudan 
and other parties to the conflict to reach a negotiated political 
settlement through the IGAD-led High-Level Revitalization Forum (HLRF). 
In particular, the United States is encouraging the Government of South 
Sudan and the opposition to update governance and security arrangements 
at the next meeting of the Forum (currently scheduled for April 26-30), 
in order to remedy the failures of the 2015 peace agreement. If 
confirmed, I will continue to assess its prospects for success and 
reevaluate our strategy accordingly.


    Question 4.  Are you committed to addressing the ongoing violence 
and human rights abuses in Cameroon's Anglophone regions and in the far 
north of the country?

    Answer. Yes. I am deeply concerned about the escalation of violence 
in the Anglophone regions, both by extremist secessionists and by 
government security forces. If confirmed, I will ensure that the State 
Department continues to address this issue.


    Question 5.  What steps will you take to address the root causes of 
violent extremism in Cameroon and ensure a greater focus on democracy 
and good governance?

    Answer. If confirmed, I would urge the Government of Cameroon to 
address the root causes of violent extremism by expanding economic 
opportunities, providing needed infrastructure, and furnishing public 
services in the least developed and most marginalized communities. 
These steps would help address concerns of marginalization by 
communities in these areas and at-risk populations. I would also stress 
the importance of good governance and democracy in Cameroon, which is 
scheduled to hold presidential elections this year.


    Question 6.  Will you oppose cuts to State Department and USAID 
funding in the rescission package reportedly being negotiated by the 
White House and GOP leaders?

    Answer. I have not seen the rescission package that has been 
discussed. If I am confirmed in advance of the proposal's submission to 
Congress, and as I discussed at my confirmation hearing, I will examine 
each proposed rescission closely to ensure that the State Department 
and USAID are not negatively impacted and that they retain the 
resources they need to effectively carry out their missions.


    Question 7.  Secretary Tillerson set a goal of eliminating 2,000 
State Department positions. Do you plan to adopt that goal and if so, 
what is your rationale?

    Answer. If confirmed, I will assess prior personnel decisions, 
which I understand have raised a number of concerns within the 
Department and with Congress, and will fight to ensure that a strong, 
well-resourced foreign and civil service is at the forefront of U.S. 
diplomacy. As part of that review, I would consult with you and the 
other members of the SFRC.


    Question 8.  How do U.S. Government international development 
programs advance U.S. foreign policy interests and American values? 
Which U.S. development programs do you think have been most effective?

    Answer. International development programs play a critical role in 
promoting U.S. national interests as articulated in President Trump's 
National Security Strategy, including advancing American influence, 
protecting the homeland from threats and extending American values. In 
particular, programs such as those managed by USAID help address the 
drivers of violence and instability, work to prevent and contain 
pandemics, provide relief from crisis, and build resilience to future 
challenges. Development programs are most effective when they 
constitute true partnerships with public and private organizations in 
countries that are willing to assume responsibility for their own 
development with the goal of self-reliance.


    Question 9.  Do you believe in maintaining a strong and independent 
USAID?

    Answer. Yes.


    Question 10.  In 2016, Congress passed into law the Department of 
State Authorities Act for Fiscal Year 2017 (P.L. 114-323) which 
establishes that the Department should make it a priority to focus on 
the employment, retention, and promotion of traditionally 
underrepresented minority groups. Are you committed to advancing 
workforce diversity in the Foreign and Civil Service at the State 
Department?

    Answer. As I said in my hearing, I believe that the Department of 
State's workforce must be diverse in every sense of the word--in terms 
of race, religion, background, and more. If confirmed, I will seek ways 
to enhance the Department's mentoring, fellowship, and career 
development programs to ensure all employees, including those from 
diverse backgrounds and underrepresented groups, have the skills 
necessary for current and future work assignments. If confirmed, I will 
also ensure that supervisors continue to have the resources they need 
to foster an inclusive work environment.


    Question 11.  Will you commit to continuing the Rangel, Pickering, 
and Payne Fellowship programs?

    Answer. I am committed to ensuring we recruit, train and develop a 
diverse workforce capable of executing the State Department's mission. 
I have been briefed on the Rangel and Pickering Fellowship programs and 
understand they are an important part of achieving these important 
goals. The Payne Fellowship is administered by USAID, and I would work 
with Administrator Green to ensure that USAID has every resource it 
needs to achieve the diverse professional officers it needs to execute 
its mission.


    Question 12.  If we withdraw from the JCPOA unilaterally, how will 
we sustain the current level of visibility we have into Iran's nuclear 
program?

    Answer. The United States will continue to assess Iran's nuclear 
program through national technical means and coordinate closely with 
international allies and partners to ensure a full understanding of 
Iran's nuclear activities. Regardless of the future of the JCPOA, Iran 
must cooperate fully with its continuing Nuclear Non-Proliferation 
Treaty (NPT) and related IAEA safeguards obligations, and the United 
States will continue to strongly support the IAEA's important work in 
Iran.


    Question 13.  Would you encourage the President to seek UN and 
congressional backing before using military force against Iran?

    Answer. The Administration's preferred course for dealing with the 
range of Iran's malign activities, including preventing Iran from 
obtaining a nuclear weapon, is through diplomacy. Although I do not 
want to address hypothetical situations that might arise if diplomatic 
tools and other foreign policy tools are unsuccessful, I respect 
Congress's role assigned by the Constitution and, in providing 
oversight on use of force these issues, I believe it is important to 
engage actively with Congress on these matters.


    Question 14.  Human Rights: If you are confirmed, when you travel 
overseas do you commit to meeting not only with current sitting 
government leaders, but also with a broad cross-section of civil 
society and opposition leaders?

    Answer. If confirmed, I will meet where appropriate with a broad 
cross-section of civil society and opposition leaders during my 
overseas trips. The United States values the voice and opinions of 
civil society and has a long history of engaging leaders both inside 
and outside the government, a tradition I would continue.


    Question 15.  President Trump capped refugee admissions at 45,000 
people this year--the lowest number set by any White House since the 
practice began in 1980. According to State Department data, the United 
States is on track to admit less than half that number. What is your 
view of the current pace of refugee admissions?

    Answer. As I mentioned in my hearing, I believe America has an 
important role to play in providing assistance to refugees. At the 
current time, additional vetting procedures are enabling departments 
and agencies to more thoroughly review applicants to identify 
individuals who might pose a risk to public safety or national 
security. I understand that processing time may be slower as 
departments and agencies implement additional security vetting 
procedures. If confirmed, I look forward to reviewing both our 
humanitarian assistance and refugee resettlement programs.


    Question 16.  Environmental challenges affect global security, 
especially with regards to issues like wildlife trafficking, illegal 
fishing, and climate change. How would you, if confirmed as Secretary 
of State, develop policies and work with the international community to 
address the impacts of wildlife trafficking, illegal fishing, and 
climate change?

    Answer. If confirmed, I will guide the State Department's efforts 
to work through multilateral organizations such as the Convention on 
International Trade in Endangered Species to conserve natural resources 
and combat wildlife trafficking. I will also work with countries to 
enhance resilience and reduce emissions through innovation and private 
sector engagement. Finally, I will support international cooperation to 
combat illegal, unreported, and unregulated (IUU) fishing that creates 
an unfair advantage in the marketplace over legitimate fishing 
operations.


    Question 17.  As Secretary of State, how will you engage South 
Korea, Japan, China, and Russia before and during talks with Kim Jong 
Un?

    Answer. If confirmed, I will work to ensure that before, during, 
and after any talks with North Korea, the United States is in close and 
regular communication and coordination with our allies, the Republic of 
Korea and Japan. Given Russia and China's unique perspectives and 
influence on this issue, I would, if confirmed, engage with these 
countries where helpful as we work towards the goal of denuclearizing 
the DPRK.


    Question 18.  Would you encourage the President to seek UN and 
congressional backing before launching a preventive military strike on 
North Korea?

    Answer. The Administration's goal is not war with North Korea, but 
rather the complete, verifiable, and irreversible denuclearization of 
the Korean Peninsula. The Administration continues to pursue its 
maximum pressure campaign to persuade North Korea to change course and 
end its unlawful nuclear and ballistic missile programs. As a last 
resort, any decision to use military force is a serious decision that 
requires a careful fact-specific and legal assessment at the time the 
use of military force may be contemplated. As I said at my hearing, 
working with the Committee and Congress can strengthen Administration 
actions.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                    Mike Pompeo by Senator Tom Udall


                            (Questions 1-78)

    Question 1.  This week President Trump tweeted out a threat to both 
Russia and Syria. While we all strongly condemn the use of chemical 
weapons, the escalatory rhetoric between two great powers is something 
we need to step back from before we spiral into a situation that could 
lead to a global conflict we have not seen in generations. Director 
Pompeo, in your opinion, does the President have the authority to 
launch a unilateral strike in Syria without the approval of Congress?

    Answer. I respect Congress's role in authorizing the use of 
military force and in providing oversight on these issues. While there 
is a longstanding practice of Presidents of both parties exercising the 
President's constitutional authorities to use force in certain 
circumstances without prior Congressional authorization, a 
determination whether any specific use of military force would fall 
within the President's authority would require a fact-specific 
assessment, in consultation with legal experts, at the time the use of 
military force is contemplated. I believe it is very important to 
engage actively with Congress on these issues. If confirmed, I would 
welcome the opportunity to continue discussing with you and other 
members issues relating to the use of force and issues relating to the 
Syrian regime's unacceptable use of chemical weapons.


    Question 2.  The President has made clear he intends to withdraw 
U.S. troops from Syria, which is actually a position I support. I 
believe they lack legal authority to be there and risk yet another 
quagmire with no clear achievable goal. Have you supported the 
President on this issue, or have you argued that U.S. troops should 
stay in Syria? What advice will you give as Secretary of State?

    Answer. As I stated during my confirmation hearing, the President 
said he wants to get out of Syria militarily once ISIS is defeated. 
This mission is not over, and the United States remains committed to 
eliminating the small area of territory ISIS still holds in Syria. If 
confirmed, it will be my job to guide the diplomacy necessary to 
achieving the President's objective. As the U.S.-led Coalition 
continues to make gains against ISIS in Syria, it is reasonable to 
review the overall military and civilian footprint and make adjustments 
as conditions warrant, while maintaining pressure on ISIS remnants and 
clandestine networks.


    Question 3.  The President's namesake company--in which he is still 
invested and is managed by his children--is actively engaging in 
business development in multiple foreign nations. Real estate 
development, by its nature, depends on government permits and 
authorization. This poses a huge problem for you--and the American 
people's trust in their government. Do you believe that foreign favors 
or investments in the Trump Organization raise valid issues under the 
foreign emoluments clause of the U.S. Constitution--a document you are 
sworn to uphold and protect?

    Answer. If I am confirmed as Secretary of State, I will take an 
oath to uphold and protect the U.S. Constitution for the seventh time 
in my life. I am fully dedicated to this obligation. Under my 
leadership, the State Department will follow the law, including ethical 
and constitutional obligations. Issues related to the interpretation 
and application of the Emoluments clause are presently the subject of 
ongoing litigation, handled by the Department of Justice, and I am not 
in a position to comment.


    Question 4.  How will you ensure the American people's trust that 
U.S. foreign policy is not being influenced by the President's family's 
business interests? Can you assure us that U.S. foreign policy towards 
Panama will not be affected by the letter that the Trump Organization 
sent to that country's President asking for assistance with a business 
dispute, a request the Panamanian government apparently did not grant?

    Answer. I have not seen the alleged letter nor can I confirm its 
contents. If confirmed, I will always act in the best interests of the 
U.S. government and American people. I will never place the interests 
of any individual or company ahead of those of the American people. If 
confirmed, I will continue to build upon the strong partnership between 
the United States and Panama.


    Question 5.  Can you explain why the President's foreign policy 
towards Qatar has changed so much recently? This nation went from being 
an ally of the U.S., to being criticized by the President for 
supporting terrorism as other Arab nations blockaded it, to hosting the 
Emir of Qatar at the White House for a friendly meeting?

    Answer. President Trump believes an immediate resolution to the 
Gulf dispute is not only in the best interest of our Gulf allies, but 
of the United States, as well. President Trump has assessed that a 
united Gulf Cooperation Council is essential to counter Iranian malign 
influence and defeat terrorists and violent extremists, and has 
personally engaged leaders across the region to emphasize the 
importance of resolving the Gulf dispute to create a united front 
against Iran. The President also has made clear that all countries, 
including Qatar and our other partners in the region, must to do more 
in order to fulfill his call to eradicate terrorism. As he said during 
the visit of His Highness Sheikh Tamim of Qatar, the President deeply 
appreciates Qatar's work to stop the funding of terrorism, which 
includes implementing a memorandum of understanding on counterterrorism 
cooperation our countries signed in 2017.


    Question 6.  Are you aware of reports that the Qataris were 
considering providing information to Special Counsel Mueller's 
investigation, but then decided not to?

    Answer. As I stated during my testimony, I am not in a position to 
talk about investigations by the House and Senate Intelligence 
committees or the Office of the Special Counsel.


    Question 7.  Do you support continuing the Merida initiative, an 
initiative meant to help the Mexican government and people address the 
drug problem and revitalize their legal system--a major change that is 
transforming the Mexican legal system into an adversarial system 
similar to our own. Or do you agree with President Trump's previous 
statements that: The U.S. should stop sending money to our enemies--
``That is Mexico and others'' AND that we should, ``Build a massive 
wall and deduct the costs from Mexican foreign aid!

    Answer. Mexico is a steadfast partner and I understand that the 
Merida Initiative has strengthened our security cooperation. If 
confirmed, I will ensure Merida remains agile and programs continue to 
provide measurable progress toward meeting our national security 
priorities to protect the United States from drugs, human smuggling, 
and other transnational crime.


    Question 8.  With U.S. farm income down nearly 50% over the past 
four years, export growth has become a survival imperative for many 
farm sectors. Cuba is a potentially important market for American corn, 
wheat and other crops, which have quality and transport advantages in 
Cuba over other competitors. Although farm exports to Cuba are allowed 
under U.S. law and are consistent with the Administration's Cuba 
policy, U.S. agriculture has less than a 15% share of Cuba's $2 billion 
agribusiness market, primarily because public and private financing for 
these sales remains disallowed under U.S. restrictions imposed decades 
ago. If confirmed, will you support legislation which would promote US-
Cuba policies that maximize trade gains in the farm and agribusiness 
sector?

    Answer. The June 16, 2017, National Security Presidential 
Memorandum ``Strengthening the Policy of the United States Toward 
Cuba'' ensures engagement between the United States and Cuba advances 
the interests of the United States, such as supporting United States 
agriculture. Should Congress pass legislation that alters the 
relationship between the United States and Cuba then I would, if 
confirmed, ensure the Department of State implements it effectively.


    Question 9.  Will you support legislation which would expand 
opportunities for U.S. telecom and technology companies to trade with 
and gain a bigger market share in Cuba, with the goal of increasing 
access to the internet on the island nation?

    Answer. The June 16, 2017, National Security Presidential 
Memorandum (NSPM) ``Strengthening the Policy of the United States 
Toward Cuba'' emphasizes efforts to support the Cuban people's access 
to information through the expansion of internet services. The NSPM 
also directed the Department of State to convene a Cuba Internet Task 
Force composed of U.S. government and appropriate non-governmental 
representatives to examine the technological challenges and 
opportunities for expanding internet access in Cuba. If confirmed, I 
would continue to support internet access for the Cuban people and will 
carefully consider any recommendations that the Cuba Internet Task 
Force makes in that regard.


    Question 10.  New Mexico's national labs have played a key role in 
nonproliferation and weapons monitoring since the dawn of the atomic 
age. And they played a key role in the Iran agreementwhich is why I 
have strong confidence in the agreement. Do you trust the science 
behind the Iran agreement and that each pathway to create a nuclear 
weapon has been effectively stopped by the JCPOA? Will you be open to 
briefings from Department of Energy and NNSA officials while you review 
the JCPOA?

    Answer. The main flaws in the JCPOA's restrictions are not centered 
in the science of their technical measures, but that in key areas these 
measures progressively sunset over time. If confirmed, I look forward 
to working closely with DOE and NNSA as we work to fix the deal and 
achieve a better outcome for the United States.


    Question 11.  Will you engage with the national labs and the 
National Nuclear Security Administration to address key issues 
regarding nonproliferation and take a science-based approach to 
countering would be proliferators in the future?

    Answer. I value the expertise of the national labs and the National 
Nuclear Security Administration. If confirmed, I will welcome 
opportunities to engage with them to develop science-based approaches 
to counter proliferators.


    Question 12.  What is your stance on key multilateral treaties that 
the United States is signatory to but has not ratified.For example: 
Would you support the ratification of the UN Convention on the Law of 
the Sea and do you agree that ratifying it would give the United States 
a stronger hand to address Chinese violations and illegal annexations 
of islands in the South China Sea?

    Answer. If confirmed, I will review such multilateral treaties with 
a view to determining if it is in the continued national interest of 
the United States to pursue becoming a Party.


    Question 13.  Would you support ratification of the Convention on 
the Rights of Persons with Disabilities in order to ensure that U.S. 
standards for access by disabled individuals are adopted throughout the 
world?

    Answer. If confirmed, I will, as part of the Executive Branch's 
established process, review proposals concerning possible ratification 
of treaties to which we are not yet party and will consult with 
Congress in that process. Meanwhile, if confirmed, I would continue our 
efforts to promote and protect the human rights and fundamental 
freedoms of persons with disabilities globally. This includes 
encouraging and assisting interested governments to learn about the 
development and effective implementation of laws to protect the rights 
of persons with disabilities.


    Question 14.  How will you work to ensure future 123 agreements do 
not inadvertently empower proliferators, while also supporting U.S. 
businesses in the nuclear industry?

    Answer. All 123 agreements include, at a minimum, the legal 
requirements listed in Section 123 of the Atomic Energy Act, as 
amended. On their own, these requirements represent the strongest 
nonproliferation, safety, and security standards required by any 
nuclear supplier in the world. Beyond these legal requirements, the 
United States has a longstanding policy of seeking to limit the spread 
of enrichment and reprocessing technologies around the world. A 123 
agreement establishes a framework of conditions and controls that 
facilitates commercial transactions by U.S. nuclear businesses while 
supporting strong nonproliferation norms. If confirmed, I will pursue 
the strongest nonproliferation standards that are achievable in all 123 
agreement negotiations, while also prioritizing support for the U.S. 
civil nuclear sector, working to create a level playing field for U.S. 
companies, and advocating for their efforts to build reactors abroad.


    Question 15.  Every single administration since Kennedy has worked 
to negotiate reductions to our nuclear arsenal with the Soviet Union 
and now Russia. What do you believe should be the next step in nuclear 
negotiations after the New START treaty concludes? Do you support 
extending the New START treaty and will you recommend to the President 
that he work to extend this important treaty? Yes or No.

    Answer. As the 2018 Nuclear Posture Review states, the United 
States is willing to engage in a prudent arms control agenda, and will 
seek arms control agreements that enhance security, and are verifiable 
and enforceable. If confirmed, I will consider next steps related to 
the New START Treaty at the appropriate time, taking this into account.


    Question 16.  It is very clear that Russia attempted to influence 
our election. Will you stand up strongly to Vladimir Putin and Russia's 
hacking of our election system? What will be your message to allies who 
have also been impacted by Russian influence of their election systems?

    Answer. The January 2017 U.S. intelligence community assessment 
found that Russia sought to influence the U.S. election and undermine 
faith in our democratic process. Russia's objective was to erode faith 
in U.S. democratic institutions, sow doubt about the integrity of our 
electoral process, and undermine confidence in the institutions of the 
U.S. government. Confidence in the integrity of our election process is 
the bedrock of our democracy. If confirmed, I will continue to press 
Russian officials against further intrusion in the democratic processes 
of the United States and those of our Allies.


    Question 17.  What will your message to the Russian foreign 
minister be with regards to their attempts to influence the U.S. 
elections if you are confirmed to serve as Secretary of State?

    Answer. The U.S. government has been clear with the Russian 
government at the highest levels that as long as Russia continues its 
destabilizing activities, including interference in U.S. elections, our 
bilateral relationship will not improve. If confirmed, I will continue 
to press Russian officials against further intrusion in the democratic 
processes of the United States and those of our Allies.


    Question 18.  Do you agree that it is in our national interest to 
strengthen our security cooperation with Vietnam and that one important 
way to do that is to work with the Vietnamese Ministry of Defense to 
address the dioxin contamination at the Bien Hoa Airbase, as we did at 
the Danang Airport?

    Answer. Yes. The United States' comprehensive partnership with 
Vietnam is a key element of the President's free and open Indo-Pacific 
strategy to promote peace, security, and prosperity in the region. 
During President Trump's November 2017 visit to Vietnam, he and 
Vietnamese leaders celebrated the conclusion of a joint effort to clean 
up dioxin at Danang Airport, and affirmed a U.S. commitment to 
contribute to remediation at Bien Hoa Air Base.


    Question 19.  Colombia is one of our strongest allies in the 
western hemisphere. How will you work to support the peace agreement 
and will you continue the bipartisan efforts to support the rule of law 
and counternarcotics work in Colombia?

    Answer. As the President and Vice President have made clear in 
their meetings with Colombian President Juan Manuel Santos, the United 
States strongly supports Colombia's efforts to secure a just and 
lasting peace. The Administration believes the success of the peace 
accord is inextricably linked to our shared efforts against drug 
trafficking and other illicit activities. If confirmed, I will continue 
to work with the Colombian government to support the implementation of 
the peace accord, strengthen rule of law, and reverse the alarming 
growth in coca cultivation and cocaine production in Colombia.


    Question 20.  Former Vice President Biden helped lead the 
initiative known as the Alliance for Prosperity in the northern 
triangle of Central America. In essence we are trying to address 
multiple issues in these countries which led to a spike in narcotics 
related violence and a surge of migrants from that region to the U.S. 
and Mexico. President Trump has recently threatened to cut funding to 
the northern triangle countries. Will you continue to support these 
initiatives and will you make it a priority if you are confirmed?

    Answer. If confirmed, I will support diplomatic engagement and 
foreign assistance programs as a part of the U.S. Strategy for Central 
America to address the high levels of violence, lack of economic 
opportunity, weak institutions, and pervasive corruption that allow 
transnational criminal organizations to operate and drive illegal 
immigration from Central America to the United States.


    Question 21.  What would you recommend the United States do to 
address the serious problem of ocean pollution, particularly from 
plastic waste?

    Answer. I support efforts to address this serious problem. I 
understand that the Department of State is working with a wide range of 
partners--in government, industry, academia, and elsewhere--to help 
countries craft locally appropriate solutions to these problems.


    Question 22.  Do you believe that USAID Administrator Green should 
be empowered to make his own decisions, without obtaining approval from 
the State Department, regarding the use of USAID resources for USAID 
personnel?

    Answer. USAID plays a fundamental role in supporting American 
foreign policy as the lead U.S. government agency on international 
development and disaster assistance. If confirmed, I look forward to 
working with USAID Administrator Mark Green to ensure that this 
relationship remains strong and that State Department and USAID funding 
needs are met and supported.


    Question 23.  UN humanitarian agencies are often the first on the 
ground following natural disasters to stave off humanitarian crises by 
providing medical assistance, clean water, and sanitation programs. Do 
you feel this is an important element of the UN's work and worthy of 
support? What are your views on this type of global burden-sharing?

    Answer. The United States has been and remains the largest donor to 
UN humanitarian agencies. If confirmed, I will continue to ensure that 
the Department is taking appropriate actions to improve the capability 
of UN agencies by expanding the number and type of donors, improving 
the efficiency and effectiveness of humanitarian funding and programs, 
and promoting greater coherence among humanitarian and development 
programs.


    Question 24.  On November 30th, 2016 the Colombian parliament 
ratified a final peace agreement between the government and FARC 
rebels, ending the longest-running conflict in the Western Hemisphere. 
Currently, a UN political mission is on the ground in Colombia with a 
mandate to monitor and verify the cessation of hostilities and ensure 
that the FARC gives up its weapons. Can you talk about the UN's role 
here and what the U.S. is doing to support it?

    Answer. The United States supports the UN Mission in Colombia 
through the UN Security Council, which is unified in its support of 
Colombia's efforts to secure a lasting peace. The UN Special Political 
Mission is tasked with monitoring and verifying the bilateral 
ceasefire, the cessation of hostilities, and the FARC's disarmament.


    Question 25.  As you know, the State Department has previously 
placed a high priority on global women's empowerment, gender equity and 
combating violence against women. If you are confirmed as Secretary of 
State, how will you ensure that empowering women is a core pillar of 
U.S. foreign policy?

    Answer. If confirmed, I will work to ensure the Department 
continues to empower women and girls as leaders, peace-builders, and 
formal wage-earners in the communities and societies in which they 
live.


    Question 26.  One of the greatest obstacles to advancing women's 
empowerment and gender equity is a lack of access to quality 
healthcare. The U.S. government has led global efforts to combat 
preventable maternal deaths through investments in maternal and child 
health, nutrition, family planning, and other critical health 
interventions. Can you commit to our Committee that the State 
Department and USAID will continue to prioritize these lifesaving 
programs if you are confirmed as Secretary of State?

    Answer. I am committed to advancing the health and well-being of 
women and girls globally. These efforts are critical, as the good 
health of women and girls positively impacts the health, stability and 
development of their families and communities.


    Question 27.  During the Presidential campaign, President-elect 
Trump made several very troubling statements and comments indicating 
that in the context of counterterrorism he would support waterboarding 
and other types of torture. If you are confirmed, you will be the 
president's chief foreign affairs adviser, and the legal Bureau of the 
State Department will have an important role advising the White House 
on international law. Do you agree that waterboarding is torture?

    Answer. The legal issues relating to whether it would be 
permissible for U.S. personnel to use the interrogation technique 
commonly referred to as ``waterboarding'' are now settled. Section 1045 
of the National Defense Authorization Act for FY 2016 provides that no 
individual in U.S. custody may be subjected to any interrogation 
technique or approach that is not authorized by and listed in the Army 
Field Manual, a limitation echoed in Executive Order 13491. The Army 
Field Manual does not include ``waterboarding'' among permissible 
interrogation techniques. Various other provisions of U.S. law also 
govern the treatment and interrogation of detainees in U.S. custody.


    Question 28.  As Director of the CIA have you ever approved the use 
of waterboarding?

    Answer. No.


    Question 29.  Do you agree that other techniques previously 
utilized by CIA personnel in the Rendition, Detention, and 
Interrogation (RDI) program--including painful ``stress positions,'' 
subjecting detainees to extreme cold, throwing them into walls or 
hitting them--constitute torture, or are otherwise illegal under U.S. 
law?

    Answer. Following enactment of Section 1045 of the National Defense 
Authorization Act for FY 2016, U.S. interrogators may not employ any 
interrogation technique that is not listed as permissible in the Army 
Field Manual to an individual detained in any armed conflict. Executive 
Order 13491 also includes this limit and proscribes ``outrages upon 
personal dignity (including humiliating and degrading treatment).'' The 
Detainee Treatment Act of 2005, moreover, provides that no individual 
in U.S. custody shall be subject to ``cruel, inhuman, or degrading 
treatment or punishment.'' I continue to believe that all U.S. 
Government activities relating to detention and interrogation should 
comply with these and all applicable provisions of law in every 
respect.


    Question 30.  Given that Congress has now made it clear in U.S. law 
that U.S. interrogators may only use those techniques that are in the 
U.S. Army Field Manual, and that manual clearly prohibits 
waterboarding, do you agree that waterboarding cannot and should not be 
used by any U.S. personnel on detainees under any circumstances?

    Answer. In light of Section 1045 of the National Defense 
Authorization Act for FY 2016, when U.S. personnel interrogate a 
detainee, it would not be lawful to use any interrogation technique, 
including waterboarding, that is not among those that the Army Field 
Manual lists as permissible.


    Question 31.  Do you think that core international prohibitions on 
torture and war crimes should be changed?

    Answer. No.


    Question 32.  What do you believe would be the impact on America's 
credibility abroad of resuming renditions or the use of interrogation 
tactics like those previously used by CIA?

    Answer. To the extent that Congress or the President has acted to 
proscribe any particular activity or interrogation technique, resuming 
its use would be presumptively illegal under U.S. law. The National 
Defense Authorization Act for FY 2016 and Executive Order 13491, as 
well as various other statutory and policy standards, circumscribe 
CIA's use of interrogation techniques. I am not aware of any plans to 
resume such activities and cannot speculate on activities that would be 
unlawful.


    Question 33.  If confirmed, how will you work with the Government 
of Mexico to diminish the threat posed to American families by heroin? 
Will you continue the Merida Initiative and support the Mexican 
government's efforts to reform its justice sector, expand training for 
civilian police, combat corruption, and protect human rights?

    Answer. It is critical that we dismantle transnational criminal 
organizations that profit from the drug trade. If confirmed, I will 
continue to work with the Government of Mexico to support bilateral 
efforts under the Merida Initiative to protect American lives by 
disrupting the networks that smuggle drugs, cash, and weapons across 
our shared border and fighting the corruption that undermines our joint 
efforts. I will also support Mexico's own significant investments to 
transition to a more transparent, fair, and effective criminal justice 
system and improve trust in law enforcement and justice institutions to 
strengthen respect for human rights.


    Question 34.  Do you support a ban on Muslim immigrationand do you 
agree that it is an unconstitutional religious test?

    Answer. There is no ban on Muslim immigration. On September 24, 
2017, the President issued a Presidential Proclamation titled 
``Enhancing Vetting Capabilities and Processes for Detecting Attempted 
Entry into the United States by Terrorists or other Public-Safety 
Threats'' to suspend entry into the United States of certain nationals 
from the following eight countries: Chad, Iran, Libya, North Korea, 
Syria, Venezuela, Yemen, and Somalia. The Administration's top priority 
is ensuring the safety and security of the American people. If 
confirmed, I will remain focused on raising the baseline for national 
security standards for admission into the United States and work 
closely with our allies, partners, and willing governments to improve 
information sharing standards for adjudication of foreign nationals 
seeking entry into the United States.


    Question 35.  A bipartisan group of Senators, including Republicans 
and Democrats on this Committee, have cosponsored legislation to remove 
restrictions on U.S. citizens' ability to travel to Cuba and to 
authorize U.S. companies to facilitate greater internet access inside 
Cuba. Do you believe that current restrictions on the rights of U.S. 
citizens to travel to Cuba enhances the cause of freedom for the Cuban 
people?

    Answer. I understand that as part of the statutory ban on tourism, 
Congress has limited travel to Cuba to fall solely within the 12 
authorized travel categories codified in legislation. The June 16, 
2017, National Security Presidential Memorandum (NSPM) ``Strengthening 
the Policy of the United States Toward Cuba'' reinforces the embargo 
and promotes a policy of adherence to the statutory ban on tourism by 
directing the Treasury Department's Office of Foreign Assets Control to 
implement regulations that prohibit financial transactions that 
disproportionately benefit the Cuban military, intelligence, and 
security services at the expense of the Cuban people. I also understand 
the NSPM sets up an Internet Task force that seeks to expand internet 
access and freedom in Cuba. These policies seek to enhance the freedoms 
of the Cuban people, including by improving human rights and by 
promoting democracy and the rule of law.


    Question 36.  What is your plan to increase minority recruitment 
into the Foreign Service, and how will you personally address this 
issue?

    Answer. As I said in my hearing, I believe deeply that the 
Department of State's workforce must be diverse in every sense of the 
word. If confirmed, I will seek ways to enhance the Department's 
mentoring, fellowship, and career development programs to ensure all 
employees, including those from diverse backgrounds and 
underrepresented groups, have the skills necessary for current and 
future work assignments.


    Question 37.  The NNSA has made tremendous progress with the 
stockpile stewardship program. In short, our science based efforts to 
confirm that our stockpile is safe, secure, and reliable have workedand 
have negated the need for testing of nuclear weapons. During the 
debates to consider the Comprehensive Test Ban Treaty, this was a 
significant barrier because the science had not yet matured. Now that 
the science has matured, will you consider support for the ratification 
of the Comprehensive Test Ban Treaty and will you visit with our 
experts at NNSA to learn more about the stockpile stewardship program?

    Answer. The United States intends to abide by its nuclear explosive 
testing moratorium and calls on all states possessing nuclear weapons 
to declare or maintain a moratorium on nuclear explosive testing. The 
United States will also continue to support the Comprehensive-Nuclear-
Test-Ban Treaty Organization Preparatory Commission and its development 
and operation of the International Monitoring System and its supporting 
systems, which serve to monitor for nuclear tests and also provide 
collateral benefits.


    Question 38.  For the past 20 years, U.S. law has prohibited 
training and equipment for any unit of a foreign security force that 
the Secretary of State has credible information has committed a gross 
violation of human rights, such as torture, rape, or summary execution 
of prisoners or civilians. If the Secretary has such information, U.S. 
aid to that unit is cut off unless the foreign government takes 
effective steps to bring the responsible members of the unit to 
justice. This law, known as the Leahy Law, has helped to prevent U.S. 
aid from going to perpetrators of the worst crimes, and it encourages 
governments to hold perpetrators accountable and enforce the rule of 
law. Over the years, the law has been praised by top officials at the 
Department of State and the Department of Defense under both Republican 
and Democratic administrations. Do you agree with the intent of the 
law? Will you rigorously enforce the Leahy Law and ensure that the 
necessary funds are provided to support the State Department personnel 
who implement it?

    Answer. Yes. I support the Leahy law, which prohibits U.S. 
assistance for a unit of foreign security forces where there is 
credible information that the unit has committed a gross violation of 
human rights. If confirmed I will enforce it, and will pursue the 
necessary resources for that purpose.


    Question 39.  Do you support funding for programs to mitigate and 
respond to the impacts of climate change on vulnerable populations 
where flooding, droughts, loss of arable land, and other consequences 
threaten to displace tens of millions of people?

    Answer. Foreign assistance designed to address these issues is an 
important component of U.S. foreign policy. If confirmed, I will 
promote programs that are effective and consistent with U.S. interests.


    Question 40.  Do you believe it is in the U.S. national interest to 
fund foreign assistance programs intended to mitigate conflict and 
prevent mass atrocities, or should the U.S. refrain from getting 
involved in foreign disputes unless U.S. personnel or property are 
directly threatened?

    Answer. I believe it is in our national interest to work with 
partners to mitigate conflict and prevent mass atrocities around the 
world. These conflicts not only have dire consequences for the people 
living in the affected regions, but also impose a significant security 
and financial burden on Americans and the international community. U.S. 
foreign assistance programs, particularly when combined with diplomatic 
efforts, can effectively help to mitigate and respond to these threats. 
These efforts need to be tailored in a way that promotes 
accountability, emphasizes partnership, and achieves tangible results.


    Question 41.  For many years, U.S. law has conditioned a portion of 
aid to foreign security forces in certain countries with a history of 
corruption and abuses by such forces on progress by their governments 
in protecting human rights and combatting corruption. Do you agree with 
this approach, or do you think we should provide such aid without such 
conditions?

    Answer. If confirmed, I will enforce the Leahy law, which prohibits 
assistance to security forces that engage in gross violations of human 
rights, and will ensure that U.S. taxpayer dollars intended to aid 
security forces are used for that purpose, including by pressing 
foreign security partners to increase transparency and eliminate 
corruption.


    Question 42.  Do you agree that after more than half a century the 
U.S. embargo against Cuba has failed to achieve any of its principal 
objectives?

    Answer. No. The June 16, 2017, National Security Presidential 
Memorandum ``Strengthening the Policy of the United States Toward 
Cuba'' reiterates support for the embargo and advances a U.S. policy 
towards Cuba that improves human rights, encourages the rule of law, 
fosters free markets and free enterprise, and promotes democracy in 
Cuba.


    Question 43.  Do you support diplomatic relations with Cuba and 
will you send a nominee to serve as Ambassador to the Senate for 
confirmation?

    Answer. I understand that the June 16, 2017, National Security 
Presidential Memorandum (NSPM) ``Strengthening the Policy of the United 
States Toward Cuba'' maintains our Embassy in Havana and directs that 
engagement between the United States and Cuba that advances U.S. 
interests continue. If confirmed as Secretary of State, I would support 
diplomatic relations with Cuba, including engagements consistent with 
the NSPM. I also understand the interim Charge d'Affaires in Havana is 
an experienced Senior Foreign Service Officer who has previously served 
as an ambassador at multiple posts abroad.


    Question 44.  As Secretary of State would you travel to Cuba? Would 
you try to prevent others from traveling there?

    Answer. If confirmed, I will not rule out travel to any country to 
advance U.S. interests, however I understand the Department has issued 
a travel advisory urging U.S. citizens to reconsider travel to Cuba. 
The decision to travel remains at the discretion of the individual in 
accordance with U.S. law. If confirmed, I will ensure the Department 
continues to provide U.S. citizens with the best possible safety and 
security information so they can make informed decisions before 
traveling to Cuba or any other country.


    Question 45.  Do you agree that American citizens and legal 
residents, whether Cuban-Americans or others, should be able to travel 
freely to Cuba as they can to every other country in the world that 
grants them a visa?

    Answer. I understand that there is a statutory prohibition on 
travel-related transactions with Cuba unless the travel falls within 
one of 12 specified categories. The June 16, 2017, National Security 
Presidential Memorandum on Cuba seeks to ensure adherence to the 
statutory ban on tourism to Cuba and supports the economic embargo of 
Cuba. However, should Congress choose to amend the embargo to allow 
travel to Cuba, and should the President sign such an amendment, I 
would direct the Department of State to implement the law.


    Question 46.  Do you agree that the U.S. should help support 
private entrepreneurs in Cuba with training or other assistance, so 
they can build businesses, market their products and services, and 
compete with state-owned enterprises?

    Answer. The June 16, 2017, National Security Presidential 
Memorandum ``Strengthening the Policy of the United States Toward 
Cuba'' supports engagement between the United States and Cuba that 
promotes the growth of a Cuban private sector independent of government 
control. If confirmed, I will make sure the Department of State 
continues to advance U.S. policy towards Cuba that supports the nascent 
private sector.
    Question 47.  Do you support polices that enable U.S. companies to 
market their goods and services in Cuba, and by doing so compete with 
companies in other countries that do business in Cuba?

    Answer. The June 16, 2017, National Security Presidential 
Memorandum on Cuba reiterates support for the economic embargo of Cuba 
and seeks to end private economic transactions that disproportionately 
benefit the Cuban military, intelligence, or security services or 
personnel at the expense of the Cuban people. I understand that the 
Department of State works closely with the Department of Treasury's 
Office of Foreign Asset Control (OFAC) and the Department of Commerce's 
Bureau of Industry and Security (BIS), which administer the Cuban 
Assets Control Regulations and Export Administration Regulations. These 
sanctions regulations authorize certain transactions with Cuba. If 
confirmed, I would ensure the Department continues to work closely with 
OFAC and BIS on licensing cases in which there is a U.S. foreign policy 
interest, including applications that would enable U.S. companies to 
market their goods and services in Cuba, where consistent with the 
Administration's Cuba policy and applicable laws and statutes.


    Question 48.  Do you support cooperation between the U.S. military, 
Coast Guard, and other law enforcement agencies and the Cuban military 
and security services on such issues as narcotics and human 
trafficking, maritime security, counter-terrorism, and search and 
rescue?

    Answer. On June 16, 2017, the President signed a National Security 
Presidential Memorandum (NSPM), ``Strengthening the Policy of the 
United States Toward Cuba,'' that described how the United States would 
address our policy toward Cuba consistent with U.S. interests. As 
directed by the NSPM, I understand that the Administration has 
continued to engage with the Cubans on matters that advance U.S. 
interests, including engagements that protect national security, 
address law enforcement issues and migration, promote maritime safety, 
search and rescue, and enforce final orders of removal against Cuban 
nationals in the United States. If confirmed, I commit to maintaining 
bilateral engagement with the Cuban government that is in the U.S. 
national interest consistent with the NSPM and applicable statutory 
requirements.


    Question 49.  The United States has been a global conservation 
leader in combating transnational wildlife crime and saving imperiled 
species. Wildlife trafficking is a lucrative enterprise worth tens of 
billions of dollars and has undermined the rule of law of our allies 
and trading partners at the range, transit and source countries. The 
involvement of criminal syndicates, African armed militias, and 
terrorist organizations is particularly alarming. The enactment of 
Eliminate, Neutralize, and Disrupt (END) Wildlife Trafficking Act last 
October illustrates the high-profile attention and broad bipartisan 
support the United States Congress has given to this issue. Mr. 
Tillerson, will you continue the State Department's work with this 
Congress and concerned countries across the globe to further the 
international community's effort to tackle the pernicious poaching and 
trafficking crisis?

    Answer. Yes. If confirmed, I, Mike Pompeo, will work with Congress, 
other federal agencies, and the international community to combat 
wildlife trafficking.


    Question 50.  Your predecessor failed to appoint a Special Envoy 
for the Human Rights of LGBTI Persons, despite having made a commitment 
to appoint one. Will you commit to working expeditiously to appoint a 
Special Envoy for the Human Rights of LGBTI Persons?

    Answer. If confirmed, consistent with the Administration's prior 
commitment, I intend to retain the position of Special Envoy for the 
Human Rights of LGBTI Persons.


    Question 51.  In response to signals that the Trump Administration 
may act less aggressively on climate change, leading Chinese officials 
have stated that they will continue to act aggressively to reduce their 
emissions and that they will take on more international leadership 
around climate change--including establishing a national carbon market 
and investing hundreds of billions in clean energy at home and abroad. 
Are we putting the nation at a disadvantage internationally by ceding 
U.S. leadership on climate change to China?

    Answer. The United States remains a leader in innovation and 
technology to combat climate change. If confirmed, I will make sure the 
United States demonstrates leadership on this issue and protects the 
interests of the American people, including by ensuring the Department 
continues its focus on innovation, next-generation energy technology, 
and on achieving a dominant role in international energy.
    Question 52.  Do you agree that U.S. withdrawal from international 
agreements, including the Paris Agreement and the UNFCCC, which all 
countries support and which are top priorities for our most important 
allies are a destabilizing action and weaken not only our diplomatic 
relations with our allies but also compromise our national security?

    Answer. I share the President's position that the Paris Agreement 
places an undue burden on the United States and we should work to find 
terms of participation that are fairer. The United States remains a 
Party to the U.N. Framework Convention on Climate Change. If confirmed, 
I look forward to working with the President and with foreign 
counterparts on a way forward on this issue that is consistent with 
U.S. interests.


    Question 53.  PEPFAR has provided access to life-saving medicines, 
prophylactics, and services to over 12 million needy people around the 
world. Some health care providers and even some governmental partners 
that receive U.S. funding have refused to provide HIV/AIDS services to 
LGBTI populations--thereby reducing the effectiveness of taxpayer-
supported programs aimed at HIV/AIDS prevention and care. Would you 
commit to ensuring that health services such as these are not denied to 
populations in need and how would you do so?

    Answer. PEPFAR provides life-saving HIV treatment to over 13 
million people around the world and supports specific initiatives to 
expand key populations' (including LGBTI) access to and retention in 
quality HIV/AIDS prevention and treatment services. If confirmed, I 
will ensure that PEPFAR continues to use the latest science and the 
best available data to deliver the greatest possible impact to ensure 
epidemic control of the HIV pandemic.


    Question 54.  Are you aware of whether anyone on the Presidential 
team, or connected with the Trump campaign, discussed your possible 
nomination with any representatives of a foreign government or foreign 
national before the President announced his intention to nominate you 
for this position?

    Answer. No.


    Question 55.  As the nation's top diplomat, how will you build 
relationships of trust with the representatives of the world's 1.8 
billion Muslims, particularly given these past statements you have made 
about Muslims that have been interpreted as anti-Muslim by many faith 
leaders?

    Answer. I will treat persons of each faith or no faith with the 
dignity and respect that they deserve, as I have done during my tenure 
at the CIA. In this capacity, I have worked closely with Muslim leaders 
and with governments of Muslim countries. Working with leaders of all 
faiths is at the core of who I am. If confirmed, I will work toward 
creating a more diverse State Department work force in every sense: in 
terms of race, religion, background, and more. As I have done at the 
CIA, I will achieve this by focusing on the mission and treating every 
team member with dignity and respect.


    Question 56.  In your estimation, is the Nuclear Non-Proliferation 
Treaty (NPT) important to U.S. national security? Why or why not?

    Answer. Yes. It is in the U.S. interest to prevent the 
proliferation of nuclear weapons, and the NPT is an essential tool in 
that effort. The NPT is the foundation of the international nuclear 
nonproliferation regime that successive Administrations have built and 
strengthened over the last fifty years. If confirmed, I intend to 
continue to support those efforts.


    Question 57.  Article VI of the NPT obligates parties to pursue 
disarmament measures in good faith. How will you work to uphold this 
obligation as Secretary of State?

    Answer. The Administration has reaffirmed its commitment to the 
NPT, including Article VI. The Nuclear Posture Review notes that the 
United States remains committed to its efforts in support of the 
ultimate global elimination of nuclear, biological, and chemical 
weapons. The United States has reduced its nuclear stockpile by 88 
percent since its Cold War high, and has met the New START Treaty's 
central limits. However, the NPR also acknowledges reduced prospects 
for arms control until Russia returns to compliance with existing 
treaty commitments. The Administration is focused on an approach to 
disarmament based on creating conditions for nuclear disarmament, 
including by pressing for compliance with existing nonproliferation and 
arms control agreements.
    Question 58.  In 2002 President Bush sought Congress' explicit 
authorization prior to using military force against Iraq. The Trump 
administration has said it believes it has the authority to move 
forward with a preventive strike on North Korea under Article II 
powers. If confirmed would you recommend to President Trump that he 
similarly secure Congress' explicit authorization before launching a 
preventive attack on North Korea?

    Answer. The Administration's goal is not war with North Korea, but 
rather the complete, verifiable, and irreversible denuclearization of 
the Korean Peninsula. The Administration continues to pursue its 
maximum pressure campaign to persuade North Korea to change course and 
end its unlawful nuclear and ballistic missile programs. The 
Administration is not seeking an authorization to use military force 
against North Korea from Congress, and any decision to use military 
force is a most serious decision that requires a careful fact-specific 
and legal assessment at the time the use of military force is 
contemplated.


    Question 59.  Would you continue to serve as secretary of state if 
the president rejected your recommendation that he seek Congress' 
explicit authorization prior to launching a preventive attack on North 
Korea?

    Answer. Decisions to use military force are among the most 
consequential decisions a President can make. If confirmed, I will 
always give the President my best advice on all issues of foreign 
policy, including those involving the use of force.


    Question 60.  Does the Department of State have the adequate staff 
and experts available to coordinate and manage a summit between 
President Trump and Kim Jong Un? Why is there no U.S. Ambassador in 
Seoul? When will someone be nominated for that position?

    Answer. Yes, the State Department has a roster of capable and 
experienced diplomats, from both the Foreign and Civil Service, working 
on Korea policy in domestic assignments and overseas and in 
collaboration with other relevant U.S. government agencies. Our Charge 
d'Affaires in Seoul is a very experienced diplomat and Korea expert. 
One of my priorities, if confirmed, will be to fill vacancies in 
important ambassadorships and other senior positions.


    Question 61.  During your confirmation hearing, you would not rule 
out a first strike on North Korea. Do you agree with National Security 
Advisor John Bolton that we should carry out a so-called, 
``preventive'' first strike on North Korea to strengthen our hand at 
the negotiating table?

    Answer. If confirmed, my role and focus as Secretary of State will 
be to solve the DPRK issue through diplomacy and negotiations. The 
President has made it clear that all options are on the table.


    Question 62.  Do you agree with NSA John Bolton that negotiations 
with North Korea are ``a waste of time,'' mean ``nothing,'' and they 
should only be used to make an (unrealistic) ultimatum for instant 
denuclearization to justify subsequent military action?

    Answer. North Korea has confirmed its willingness to talk about 
denuclearization. I support the President's decision to create 
conditions so that the President and Kim Jong Un can sit together to 
begin to resolve this incredibly difficult challenge. This will set the 
course for achieving a diplomatic outcome that America and the world 
are seeking.


    Question 63.  If the president withdraws from the JCPOA deal, but 
the rest of the P5+1 and Iran continue to implement the agreement, do 
you believe the U.S. would have legal justification to bomb Iran's 
nuclear facilities?

    Answer. The Administration's objective is to fix the deficiencies 
in the JCPOA, and there is an active policy discussion around this 
issue that is continuing. If the President decides to withdraw the 
United States from the JCPOA, I will continue to focus on the ultimate 
goal we share with Europe and other partners to prevent Iran from ever 
developing a nuclear weapon and I will find ways we can work together.


    Question 64.  Please articulate what you believe the U.S. 
diplomatic strategy to resolving the civil war in Yemen should be.

    Answer. The Administration has consistently emphasized the 
importance of a political settlement, but the differences between the 
parties to the conflict must be resolved directly. If confirmed, I look 
forward to working closely with the new UN Envoy to advance a political 
solution in Yemen. The UN Envoy has the difficult task of developing a 
balanced framework to guide future negotiations and a political 
process. If confirmed, I will contribute U.S. expertise and leadership 
to this effort and work closely with regional partners, including Saudi 
Arabia, the UAE, and Oman, to generate progress.


    Question 65.  Please define what you believe are the U.S. national 
interests in Yemen.

    Answer. Preventing terrorist attacks against the homeland and 
ending the conflict in Yemen are key components of our national 
security interests with respect to Yemen. Defeating ISIS-Yemen and 
AQAP, countering Iran's nefarious activities in the region, and 
reducing the humanitarian suffering of the Yemeni people, all hinge on 
the resolution of this conflict. AQAP, ISIS-Yemen, and Iran are 
manipulating the security vacuum created by the conflict to expand 
their influence in Yemen and threaten both the United States homeland 
and U.S. interests.


    Question 66.  In recent years many stolen Native American sacred 
objects have turned up in auction houses, primarily in Europe in 
attempt to circumvent U.S. laws designed to prevent the trafficking of 
sacred, and culturally sensitive items domestically. Most notably in 
2015, a sacred shield stolen from the Pueblo of Acoma in the 1970s was 
put up for sale at the EVE Auction House in Paris. Following widespread 
protests of the sale from myself, my congressional colleagues, the 
Acoma Pueblo and with help from the State Department and the Department 
of the Interior, the sale was cancelled. In 2016, a U.S. District Judge 
approved a warrant requested by the U.S. Attorney's Office in New 
Mexico to recover the shield. Unfortunately the shield has not made its 
way back to the Pueblo of Acoma. If confirmed, do I have your 
commitment to work with your French counterparts to return the shield 
to the Pueblo of Acoma?

    Answer. If confirmed, I will look forward to working with you to 
address this issue.


    Question 67.  If confirmed, do I have your commitment to work with 
me and my staff to ensure that the repatriation of these sacred Native 
American and culturally sensitive items remains a priority for the 
State Department?

    Answer. If confirmed, I will ensure that the Department works with 
you and your staff on this important issue.


    Question 68.  There are serious concerns about Qatar and the United 
Arab Emirates providing subsidies and unfair benefits to their state-
owned airlines and, in so doing, flouting Open Skies agreement and 
putting U.S. jobs and U.S. domestic air carriers at risk. The 
Administration took a meaningful step forward earlier this year when it 
reached an agreement with Qatar, which demonstrates seriousness about 
ending illegal subsidies and enforcing our trade agreements. There is 
still important work left to do, however. Namely (1) monitoring the 
agreement with Qatar to ensure that all sides abide by the terms of the 
agreement; and (2) pursuing a similar agreement with the UAE. Will you 
commit to pursuing these two objectives?

    Answer. If confirmed, I would support enforcing our Open Skies 
agreements and would commit to leveling the playing field to ensure 
U.S. companies have an opportunity to succeed globally. This means 
fighting practices that adversely affect fair and equal competition.


    Question 69.  Will you commit to meeting the Dalai Lama, whether in 
the United States or during your travel, and to express to him the 
United States' support for his peaceful struggle for Tibetan rights?

    Answer. If confirmed, I will fully implement the Tibetan Policy 
Act. State Department officials, should meet with Tibetan 
representatives whenever appropriate, including the Dalai Lama in his 
capacity as an important spiritual leader of the Tibetan people. If 
confirmed, I will call on China to provide meaningful autonomy for 
Tibetans and express U.S. concerns about restrictions on the rights of 
Tibetans and other ethnic and religious minorities in China.


    Question 70.  The major rivers of Asia that flow from the Tibetan 
Plateau and are subject to current and potential dam and diversion 
projects by China. These projects are planned and implemented without 
the proper involvement of all stakeholders, including the Tibetan 
people. India and other governments in Asia are increasingly worried 
about China's plans to dam rivers originating in Tibet which serve over 
a billion people downstream. Would you raise the need to fully involve 
all stakeholders in the preservation of Tibet's fragile watershed with 
the Chinese authorities? Would you call on the Chinese authorities to 
engage China's neighbors for the development of a regional framework on 
water security?
    Answer.  If confirmed, I will encourage all countries to manage 
their water resources soundly and to cooperate on the management of 
shared waters. I will urge China to make decisions on dams and other 
major water-related infrastructure needs deliberatively, based on the 
best science available, and in transparent consultation with all 
affected stakeholders. I will also sustain our own cooperation with 
neighboring countries through the Lower Mekong Initiative and other 
U.S.-led mechanisms.


    Question 71.  Do you support the provision of security assistance 
to Israel in accordance with the 2016 U.S.-Israel memorandum of 
understanding?

    Answer. Yes. The United States has a deep and abiding commitment to 
Israel's security. With the support of sustained U.S. security 
assistance, Israel has developed one of the most advanced, formidable 
militaries in the world. If confirmed, I will continue close 
consultation with Congress in support of our unwavering security 
commitment towards Israel.


    Question 72.  Will you support the policy of President Reagan and 
his successors that the United States will not support any additional 
land for the purpose of settlements during the transitional period? And 
will you call, as President Reagan and his successors did, for 
settlement freeze by Israel? Yes or no?

    Answer. The Administration has said that while settlements are not 
in themselves an impediment to peace, further unrestrained settlement 
activity does not help advance peace. If confirmed, I look forward to 
supporting the Administration's efforts to create the conditions for 
successful negotiations leading to a lasting and comprehensive peace.


    Question 73.  Prime Minister Netanyahu stated that he wants a 
``Palestinian mini state.'' A ``mini-state'' would be distinct from a 
``two-state'' solution. It would be a ``state'' in name only and would 
be perpetually dependent on Israel. Some would say that, given the 
separation of West Bank communities--which increasingly are no longer 
contiguous due to Israeli settlements, checkpoints, and road systems--
this would be akin to a Bantustan. Do you support Prime Minister 
Netanyahu's proposal for a mini-state or will you send a strong message 
that a two-state solution should be supported?

    Answer. On December 6, 2017, the President recognized Jerusalem as 
the capital of Israel and announced we would move our Embassy to 
Jerusalem. He also said that he would support a two-state solution if 
the parties agree. If confirmed, I look forward to supporting the 
Administration's efforts to create the conditions for successful 
negotiations leading to a lasting and comprehensive peace.


    Question 74.  In your opinion, are settlements that break up the 
possibility of a future contiguous Palestinian state harmful to 
achieving a two state solution?

    Answer. The Administration has said that while settlements are not 
in themselves an impediment to peace, further unrestrained settlement 
activity does not help advance peace. If confirmed, I look forward to 
supporting the Administration's efforts to create the conditions for 
successful negotiations leading to a lasting and comprehensive peace.


    Question 75.  How will you work to urge other countries to press 
the Palestinians to put an end to incitement and violence against 
Israelis?

    Answer. If confirmed, I will work to ensure all such instances of 
incitement to violence are thoroughly addressed, including by engaging 
our partners in the region and around the world to press the 
Palestinian leadership to address our concerns.


    Question 76.  What is your plan to address and oppose the boycott, 
divestment, and Sanctions movement and will you make it a priority to 
urge other countries and organizations not to join this movement?

    Answer. The United States government strongly opposes boycotts, 
divestment campaigns, and sanctions targeting the State of Israel. 
Boycotts of Israel are unhelpful and do not contribute to an 
environment conducive to peace. It is my understanding that the 
Department of State and its embassies overseas regularly engage with 
governments, international organizations, and other entities to oppose 
such activities. If confirmed, I will continue the fight against all 
efforts to isolate or delegitimize the State of Israel.
    Question 77.  In order for the United States to honor its 
commitment under Articles 23 and 24 of the Declaration of Human Rights, 
will you work with unions and other organizations to protect the right 
to free choice of employment; the right to just and favorable 
conditions of work; the right to rest and leisure, including reasonable 
limitation of working hours; and the right to worker safety and to 
equal pay for equal work?

    Answer. I support a fair global playing field for workers in the 
United States and around the world. If confirmed, I will enforce trade 
commitments, strengthen labor standards, and combat child labor and 
forced labor.


    Question 78. Are you the beneficiary or trustee of any 
discretionary trust that has not been fully disclosed to the Committee 
of the Office of Government Ethics? If so, please provide detailed 
information about the trust(s).

    Answer. No.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                  Mike Pompeo by Senator Chris Murphy


                            (Questions 1-11)

    Question 1.  Syria/Legal Authorization: Do you agree there is a 
legitimate public interest in disclosing the legal rationale for the 
use of military force? Will you commit to providing this committee with 
a detailed and timely explanation of the legal rationale for any use of 
force in Syria against the Assad government? Will you also commit to 
providing this committee with the memo prepared by the Office of Legal 
Counsel for the purpose of advising the Attorney General regarding the 
legal bases for the April 6 strike against the Al Shayrat airfield in 
Syria?

    Answer. As I indicated in my hearing, I commit to work alongside 
members of the Committee to provide as much information as possible on 
this topic. The Department of Justice is outside of my purview as 
Secretary of State.


    Question 2.  Does the Administration currently have the legal 
authority to maintain ground forces in Syria for the purposes of 
countering Iranian influence and activities?

    Answer. The United States has legal authority to prosecute the 
campaign against al-Qa'ida and associated forces in Syria, including 
against the Islamic State of Iraq and Syria (ISIS). This legal 
authority includes the 2001 Authorization for the Use of Military Force 
(AUMF), which authorizes the use of military force against these 
groups.


    Question 3.  Yemen:  The United States is providing military 
support to the Saudi-led coalition for its military intervention into 
Yemen's civil war with the goal of reasserting the authority of 
President Hadi's government throughout Yemen. Please articulate what 
you believe the U.S. diplomatic strategy to resolving the civil war in 
Yemen should be. Do you agree that the humanitarian crisis and 
resulting food insecurity has a significant impact on security 
interests in Yemen, including the ability of radical groups to recruit 
from an increasingly desperate population? Saudi officials have 
privately stated their intent to continue the military strategy and are 
not currently contemplating serious negotiations; do you believe the 
U.S. should apply any additional pressure to the Saudi-led coalition to 
negotiate towards a political solution to this war?

    Answer. Yes, I agree that the humanitarian crisis is not only 
horrific in its own right but detrimental to U.S. interests. ISIS-Yemen 
and AQAP will attempt to take advantage of the instability to expand 
their influence. I fully agree that the conflict has gone on too long. 
The differences between the parties to the conflict must be resolved 
directly. If confirmed, I will work closely with the UN envoy to 
advance a political solution. I understand new UN Special Envoy to 
Yemen Martin Griffiths is developing a framework for building 
confidence before entering into comprehensive negotiations between the 
parties. If confirmed, I will contribute U.S. expertise and leadership 
to this effort. I will work with regional partners including Saudi 
Arabia, the UAE and Oman to generate progress. At the same time, the 
Administration will continue to urge all sides, including the Saudi-led 
Coalition, to ensure unimpeded access for humanitarian assistance and 
commercial goods--including food, fuel, and medicine--to reach Yemen.


    Question 4.  Yemen/UAE: In June 2017, the Associated Press 
documented at least 18 clandestine lockups across southern Yemen that 
are run by the United Arab Emirates (UAE) or by Yemeni forces trained 
by the UAE. Dozens of people have reportedly been forcibly disappeared 
or arbitrarily detained in these secret prisons where torture is common 
practice. Rights groups, including Human Rights Watch, have 
independently documented these abuses. The United States is a party to 
the conflict in Yemen as we provide aerial refueling to coalition 
aircraft on bombing missions and intelligence to the coalition. If you 
are confirmed as Secretary of State, would you commit to conduct a 
thorough, transparent investigation into the reported torture in secret 
detention sites by the United Arab Emirates and Yemeni forces trained 
by the United Arab Emirates, as well as any US government participation 
and/or knowledge?

    Answer. I understand U.S. officials have raised concerns about 
these allegations with UAE government counterparts and have urged the 
UAE to conduct a thorough investigation of the allegations. If 
confirmed, I will press the UAE government to conduct a thorough 
investigation of these practices, and to allow the International 
Committee of the Red Cross to have regular access to these centers. I 
will make clear the importance of adherence to international law, 
including the law of armed conflict and the requirement to treat 
detainees humanely.


    Question 5.  Do you believe that the United States is bound by the 
Convention against Torture's transfer provisions outside of the US? If 
not, will you commit to apply to the convention's standards on transfer 
as a matter of policy as the prior administration did? If so, will you 
ensure that this policy is enforced? Will you commit to ensuring that 
the US never transfers anyone from US custody to a government or non-
state armed group when they are likely to face torture?

    Answer. It has been the position of the United States that Article 
3 of the Convention Against Torture is not applicable as a legal matter 
to transfers occurring outside of U.S. sovereign territory. However, it 
is the long-standing policy of the United States not to transfer an 
individual to a country where it is more likely than not that he or she 
will be tortured. This policy applies the Convention Against Torture 
standard to all transfers by the United States. It is reflected in 
Section 2224(a) of the Foreign Affairs Reform and Restructuring Act of 
1998, which provides that ``it shall be the policy of the United States 
not to expel, extradite, or otherwise effect the involuntary return of 
any person to a country in which there are substantial grounds for 
believing the person would be in danger of being subjected to torture, 
regardless of whether the person is physically present in the United 
States.'' I am committed to following this policy in carrying out my 
duties as Secretary of State, if confirmed.


    Question 6.  What do you believe is the role of the Secretary of 
State of the United States with respect to allegations of torture and 
other forms of abuse by allies?

    Answer. Torture and cruel, inhuman, or degrading treatment or 
punishment are prohibited in all places and at all times. Working with 
allies to ensure respect for international law, including human rights, 
is an important part of the role of the Secretary of State. The United 
States has a wide range of tools available to address such allegations, 
including bilateral diplomacy, multilateral engagement, foreign 
assistance, reporting and public outreach, and economic sanctions. If 
confirmed, I will deploy these tools, as necessary, to promote respect 
for human rights obligations and commitments by allies. If confirmed I 
will also continue to enforce U.S. laws, such as the Leahy law, which 
prohibits the provision of U.S. assistance to a unit of foreign 
security forces where there is credible information that the unit has 
committed a gross violation of human rights, including torture.


    Question 7.  Egypt:  Secretary Tillerson withheld $195 million in 
assistance to Egypt, pending resolution of the trial against 
international NGOs. An April 5 ruling will result in a retrial in the 
case. Will you commit to maintaining the hold on $195 million in 
assistance to Egypt until all 43 defendants are exonerated or, short of 
that, pardoned?

    Answer. The Administration is working with Egypt at the highest 
levels to resolve this issue. If confirmed, I would be happy to discuss 
my assessment of the situation in a classified setting. It is my 
understanding that the State Department is still assessing the 
implications of the April 5 decision of the Egyptian Court of 
Cassation, which has not yet been published in full, but it is 
encouraged by the apparent referral to a retrial of all of the 
defendants who filed the appeal. If confirmed, I will ensure that we 
stay in regular contact with the affected NGOs on this matter, and I 
will insist on an outcome that is acceptable to the United States, the 
affected NGOs, and the individual defendants.


    Question 8.  Presidential Proclamation 9645: Constituents in my 
home state have reached out to my office with issues related to the 
implementation of President Proclamation 9645 (PP 9645). If confirmed, 
would you be willing to share with Congress documents associated with 
the implementation of PP 9645 such as guidance documents provided to 
consular offices on the implementation of the proclamation and the 
process for granting waivers for visa applicants?

    Answer. If confirmed, I would be pleased to continue consultations 
with Congress on the Proclamation and its implementation. On September 
24, 2017, the President issued a Presidential Proclamation titled 
``Enhancing Vetting Capabilities and Processes for Detecting Attempted 
Entry into the United States by Terrorists or other Public-Safety 
Threats'' to suspend entry into the United States of certain nationals 
from the following eight countries: Chad, Iran, Libya, North Korea, 
Syria, Venezuela, Yemen, and Somalia. Every year, the United States 
grants lawful permanent resident status or nonimmigrant visas to 
individuals from all across the world, including from Muslim-majority 
countries. The Administration's top priority is ensuring the safety and 
security of the American people. If confirmed, I will remain focused on 
raising the baseline for national security standards for admission into 
the United States and work closely with our allies, partners, and 
willing governments to improve information sharing standards for 
adjudication of foreign nationals seeking entry into the United States. 
For example, on April 10, the President lifted the suspension on entry 
into the U.S. for Chadian nationals following ongoing dialogue between 
the United States and the Government of Chad, and the Government of 
Chad's improving its passport security and information sharing with the 
United States.


    Question 9.  Furthermore, can you provide the following data? The 
total number of applications for nonimmigrant and immigrant visas from 
the countries effected by President Proclamation 9645. The number of 
applicants refused for reasons unrelated to the proclamation. The 
number of applicants qualifying for an exception. The number of 
applicants who failed to meet the criteria for a waiver. The number of 
applicants refused under the proclamation with waiver consideration. 
The number of waivers approved.

    Answer. If confirmed, I will ensure the Department briefs Congress 
on implementation of the Proclamation, taking the sensitivity of the 
information into account.


    Question 10.  Democratic backsliding in NATO allies:  The 2017 
National Security Strategy said that ``Russia aims to weaken U.S. 
influence in the world and divide us from our allies and partners. 
Russia views the North Atlantic Treaty Organization (NATO) and European 
Union (EU) as threats.'' Yet today, it seems that divisions largely 
resultant from democratic backsliding among certain NATO allies are 
doing much of Russia's work for it, in terms of weakening an alliance 
founded explicitly on ``the principles of democracy, individual liberty 
and the rule of law.'' Do you believe that democratic backsliding in 
certain NATO member states like Hungary, Turkey and Poland inhibits 
these states' ability to contribute to our shared security, or to be 
strong allies of the United States? If so, what more should the United 
States be saying and doing to ensure that our allies maintain strong 
institutions, independent media, and free and fair elections?

    Answer. The United States expects our NATO allies to be strong 
partners. This strength entails meeting their commitments to uphold the 
values of democracy, individual liberty and the rule of law, as 
enshrined in the Washington Treaty, as well as demonstrating a shared 
commitment to our common defense. If confirmed, I will continue to work 
with our allies to promote our shared transatlantic principles, as well 
as to foster bilateral cooperation that advances U.S. interests.


    Question 11.  Family Planning and Reproductive Health and Rights: 
The United States has been a global leader in advancing family planning 
worldwide for five decades. According to the UN, some 214 million women 
in developing regions who want to avoid pregnancy are not using safe 
and effective family planning methods, for reasons ranging from lack of 
access to information or services to lack of support from their 
partners or communities. In Africa, as many as one in five women have 
an unmet need for family planning. Family planning funding is cost 
effective. Spending one dollar for contraceptive services reduces the 
cost of pregnancy-related care, including care for women living with 
HIV, by $1.47. Will you pledge to continue, and build on, the 
bipartisan legacy of U.S. support for international family planning 
programs? Will you continue to support our critical contributions to 
UNFPA, which is currently raising awareness about child marriage and 
providing maternal care to thousands of Syrian refugees?

    Answer. If confirmed, I will support the Administration's efforts 
to support long-standing international family planning programs in 
developing countries.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                    Mike Pompeo by Senator Tim Kaine


                            (Questions 1-29)

    Question 1.  Over approximately the past 20 years, U.S. personnel 
working in diplomatic missions overseas have faced increasing threats 
to their safety and security, including numerous attacks in high-risk 
locations-perhaps most notably, the 2012 attack on our facilities in 
Benghazi. These threats have been heightened in part due to policy 
decisions to keep staff in locations that previously would have been 
deemed too dangerous for U.S. personnel. In your opinion, what is the 
right balance between the security of our diplomats and effective 
engagement overseas?

    Answer. Security conditions faced by our foreign affairs community 
overseas are constantly evolving, but the need to operate globally and 
carry out our diplomatic mission remains. If confirmed, I will ensure 
the Department constantly assesses the threat environment in which our 
people live and work, mitigating risk with all the tools at our 
disposal, and making informed risk management decisions. My objective 
will always be to ensure U.S. personnel working in our diplomatic 
missions overseas are able to carry out their duties in as safe and 
secure an environment as possible while continuing to conduct the 
forward-leaning expeditionary diplomacy America must have.


    Question 2.  In recent years, the State Department has been the 
victim of several cyberattacks. Ineffective protection of cyber assets 
can lead to disclosure of sensitive information and threaten national 
security. What steps would you take to prevent future cyberattacks 
against the State Department? Do you share former Secretary Tillerson's 
goals of modernizing the Department's IT infrastructure?

    Answer. I agree that the State Department faces increasingly 
capable cyber attackers. If confirmed, I will review all options to 
protect the Department against cyber-attacks and will look to experts, 
both internally and across the government and industry, to strengthen 
the Department's resilience to cyber-attacks. I believe that IT 
modernization is a step that all organizations must undertake in the 
face of increasingly diverse cyber threats.


    Question 3.  For several years, major U.S. air carriers have 
contended that national carriers Emirates, Etihad, and Qatar Airways 
are being subsidized by their governments in violation of the letter 
and spirit of the U.S.-UAE and U.S.-Qatar Open Skies Agreements. The 
U.S. Departments of State and Transportation have been looking into 
these allegations since the previous Administration. I appreciate that 
the UAE and Qatar are allies in a volatile region and that this matter 
has a national security dimension that similar Open Skies disputes 
elsewhere lack. However, if financial and legal experts can clearly 
establish that illegal subsidies are being made, the United States 
government should act to defend U.S. companies and jobs. To what extent 
do you see these concerns as well-founded?

    Answer. If confirmed, I would support enforcing Open Skies 
agreements and leveling the playing field to ensure U.S. companies have 
an opportunity to succeed globally. This means fighting practices that 
adversely affect fair and equal competition. I would also support the 
Department's leadership on efforts to implement understandings reached 
in January 2018 with Qatar that address U.S. industry concerns 
regarding subsidized competition, while maintaining the Open Skies 
Framework of U.S. international aviation policy. I understand that 
stakeholders have responded favorably to those understandings with 
Qatar, and I would work to reach a similar outcome with the United Arab 
Emirates.


    Question 4.  Members of Radio Free Asia's Uyghur Service have 
family members in China who are jailed, missing, or detained. Some are 
held in notorious re-education camps, which function like open-air 
prisons with poor conditions, holding thousands of Uyghur people at a 
time. These detained or missing family members are those of U.S.-based 
journalists who daily expose the abuses happening in their former 
homeland at the hands of Chinese authorities. What can the State 
Department do to advocate for their release? If confirmed, will you 
commit to raising this issue with the Chinese government?

    Answer. I am deeply troubled by the increasing number of these 
reports. If confirmed, I will raise my concerns about the Radio Free 
Asia cases and the deteriorating situation in Xinjiang directly with 
the Chinese government. I will also push for the Chinese government to 
free those arbitrarily detained, including the families of RFA 
journalists, and end the counter-productive, repressive measures that 
Chinese authorities are carrying out in Xinjiang.


    Question 5.  In 2002 President Bush sought Congress' explicit 
authorization prior to using military force against Iraq. If confirmed 
would you recommend to President Trump that he similarly secure 
Congress' explicit authorization before launching a preventive attack 
on North Korea?

    Answer. The Administration's goal is not war with North Korea, but 
rather the complete, verifiable, and irreversible denuclearization of 
the Korean Peninsula. The Administration continues to pursue its 
maximum pressure campaign to persuade North Korea to change course and 
end its unlawful nuclear and ballistic missile programs.
    The Administration is not seeking an authorization to use military 
force against North Korea from Congress, and any decision to use 
military force is a most serious decision that requires a careful fact-
specific and legal assessment at the time the use of military force is 
contemplated. As I said in my hearing, working with the Committee and 
Congress can strengthen Administration actions.


    Question 6.  What is your diplomatic strategy for engaging our 
South Korean and Japanese allies before the upcoming summit with Kim 
Jong-Un and President Trump?

    Answer. If confirmed, I will work to ensure that before, during, 
and after talks the United States is in close communication and 
coordination with our allies, the Republic of Korea and Japan. As you 
know, diplomatic consultations with these allies, and others, related 
to North Korea have been underway for many months and have intensified 
in recent weeks.


    Question 7.  If confirmed as Secretary of State, will you commit to 
sharing publicly and with my office and Congress any results of 
completed, ongoing, or future atrocities investigations or documenting 
efforts covering events in Rakhine State that are either sponsored by, 
ordered by or worked in coordination with the Department of State?

    Answer. If confirmed, in order to promote accountability in Burma, 
I would support State Department efforts to investigate and document 
human rights abuses that occurred in Rakhine State, Burma. The 
information collected through such efforts will help to identify 
perpetrators, uncover patterns of abuses and violations, map incidents, 
and determine the sequence of events. It is my understanding that the 
State Department plans to make the conclusions available to Congress.


    Question 8.  With Russian support, extreme right-wing parties are 
gaining prominence and democratic norms, such as transparency and 
tolerance, are increasingly under attack across Europe, in countries 
like Hungary and Austria. How will you defend western democracies from 
increasing Russian influence?

    Answer. I share concern about Russia's increasing aggressive 
actions against our close allies in Europe and elsewhere. The United 
States' strong transatlantic alliance is built on a foundation of 
shared democratic norms and values. If confirmed, I will engage our 
allies and partners to reinforce and advance our shared democratic 
norms and values. I will also work to build on efforts already 
undertaken by the State Department and others to counter Russian 
disinformation and malign influence and to counter vulnerabilities, 
particularly among the countries of Central and Eastern Europe.


    Question 9.  Are you concerned about the shrinking of democratic 
space in Eastern Europe and the increasing pressure on independent 
media and civil society?

    Answer. The United States works closely with the countries of 
Central and Eastern Europe and relies on these countries, especially 
its NATO Allies, to be strong partners that preserve media freedom and 
robust civil society. My understanding is that the State Department 
routinely expresses concerns regarding pressure against independent 
media and civil society. Such pressure can not only undermine democracy 
but also feed Russian propaganda narratives. If confirmed, I will 
continue to work with our Allies and partners to promote our shared 
transatlantic principles, including media freedom, the separation of 
powers, and a market economy, as well as to foster bilateral 
cooperation that advances U.S. interests.


    Question 10.  Do you believe it is in our national security 
interest to have a strong and united European Union?

    Answer. Yes.


    Question 11.  After a contested electoral process in Honduras, at 
least 37 people have been killed in post-electoral violence, the 
majority of them protesters killed by official security forces, largely 
the Military Police, as security forces shot live ammunition into 
crowds of people protesting alleged electoral fraud. Former and current 
members of the Honduran government also face allegations of large-scale 
corruption and links of police officials to drug trafficking.
    The Honduran executive branch and legislature have recently taken 
steps to block anti-corruption investigations and to limit the rights 
of journalists and human rights defenders. How can the United States 
use bilateral diplomacy to press the Honduran government to investigate 
corruption, resolve the discrepancies in its last presidential 
election, and ensure that all Honduran citizens, are free to exercise 
their rights to freedom of expression?

    Answer. I am concerned about the deaths of individuals and security 
forces following the November 2017 presidential election in Honduras. 
If confirmed, I will urge the Honduran government to investigate these 
allegations in a timely and transparent manner. I will also continue to 
support and monitor the ongoing process to establish a national 
dialogue in Honduras and the enactment of electoral reforms to 
strengthen confidence in Honduras' democratic institutions. Finally, 
the Administration, through the U.S. Strategy for Central America, 
supports Honduran efforts--complemented by international institutions--
to curb corruption, and I intend to continue this support.


    Question 12.  Colombia is experiencing the lowest level of violence 
in forty years. Yet this all could unravel--organized crime and 
paramilitary successor groups are moving into areas vacated by the 
FARC; assassinations of local human rights defenders and community 
leaders have escalated; demobilized guerrillas could rearm if 
reintegration programs are inadequate. How will the United States help 
to ensure the promise of the Colombian peace accords are fulfilled? If 
confirmed, would you play a role in leading that diplomatic effort?

    Answer. As the President and Vice President have made clear in 
their meetings with Colombian President Juan Manuel Santos, the United 
States strongly supports Colombia's efforts to secure a just and 
lasting peace. Colombia remains one of the United States' strongest 
partners in the region, and successful implementation of the peace 
accord is in the national interest of both nations. Protecting civil 
society, including human rights defenders and community leaders, from 
violence is essential to ensuring that the promise of the accord is 
fulfilled. U.S. assistance plays a key role in supporting 
implementation. If confirmed, I will continue to work with the 
Colombian government to support the implementation of the peace accord.


    Question 13.  Yemen: The war in Yemen began more than three years 
ago. Since that time, more than 10,000 people have been killed, 2.2 
million children suffer from malnutrition, and at least 1,000 Yemeni 
children die every week from preventable diseases. As the Saudi-led 
coalition continues to bomb the country, including civilian targets 
such as schools, hospitals, and funerals, the stalemate has allowed 
extremist groups like al Qaeda and ISIS to take over large swaths of 
territory. Should the U.S. continue to provide aerial refueling to 
Saudi jets to continue bombing, or pause that kind of military 
cooperation until a peace deal?

    Answer. The situation in Yemen is a tragedy. The Administration 
recognizes that long-term stability in Yemen depends on a political 
settlement, and we are supporting the efforts of the new UN Envoy to 
restart negotiations. The Administration has communicated serious 
concerns about civilian casualties resulting from the Saudi-led 
Coalition's air campaign and continues to consult with the Saudis on 
ways to reduce harm to civilians from their air campaign. If confirmed, 
I pledge to bolster these efforts. At the same time, pressing Saudi 
Arabia to implement a unilateral ceasefire would give the advantage to 
the Houthis and Iran in the conflict. The limited U.S. support for the 
Saudi-led Coalition serves a clear purpose: to reinforce Saudi and 
Emirati sovereignty in the face of intensifying Houthi threats, and to 
expand the capability of our Gulf partners to push back against Iran's 
regionally destabilizing actions, including transfers of sophisticated 
weaponry to the Houthis.


    Question 14.  How would you work to bring about an end to this 
conflict? Please articulate what you believe the U.S. diplomatic 
strategy to resolving the civil war in Yemen should be.

    Answer. The Administration has consistently emphasized the 
importance of a political settlement, but the differences between the 
parties to the conflict must be resolved directly. If confirmed, I look 
forward to working closely with the new UN Envoy to advance a political 
solution in Yemen. The UN Envoy has the difficult task of developing a 
balanced framework to guide future negotiations and a political 
process. If confirmed, I will contribute U.S. expertise and leadership 
to this effort and work closely with regional partners, including Saudi 
Arabia, the UAE, and Oman, to generate progress.


    Question 15.  Please define what you believe are the U.S. national 
interests in Yemen.

    Answer. Preventing terrorist attacks against the homeland and 
ending the conflict in Yemen are key components of our national 
security interests with respect to Yemen. Defeating ISIS-Yemen and 
AQAP, countering Iran's nefarious activities in the region, and 
reducing the humanitarian suffering of the Yemeni people, all hinge on 
the resolution of this conflict. AQAP, ISIS-Yemen, and Iran are 
manipulating the security vacuum created by the conflict to expand 
their influence in Yemen and threaten both the United States homeland 
and U.S. interests.


    Question 16.  Has three years of participating in the war in Yemen 
contributed to U.S. national security in the Persian Gulf? Has it 
diminished Iranian influence in Yemen or reduced the missile threat to 
Saudi Arabia?

    Answer. U.S. military support to the Saudi-led Coalition advances 
important U.S. national security and diplomatic objectives, including 
defeating ISIS-Yemen and AQAP and countering Iran's nefarious 
activities in the region. The United States' support to the Saudi-led 
Coalition serves two central goals: (1) to expand the capability of our 
Gulf partners to defend their countries against Iran's regionally 
destabilizing actions and (2) to reinforce Saudi and Emirati 
sovereignty in the face of intensifying Houthi missile attacks, 
territorial incursions, and maritime threats. Iran's provision of 
sophisticated weaponry to the Houthis exacerbates the conflict and 
advances Iran's regional ambitions. If confirmed, one of my priorities 
would be to address the humanitarian situation. The Administration has 
already devoted significant attention and resources to this cause, and 
if confirmed, I intend to continue to emphasize the U.S. role in 
leading the response to the humanitarian crisis.


    Question 17.  Egypt: Egypt's recent elections, in which President 
Sisi intimidated his competitors and won with a reported 97 percent of 
the vote, is an insult to the Arab Spring protests and democracy in 
Egypt. Given the repressive measures President al-Sisi has championed 
over the last three years--from attacks against civil society to the 
arbitrary detention of tens of thousands of people and abuse while in 
prison--the absence of any mention of Egypt's substantial human rights 
abuses and lack of democratic rule is deeply troubling. Would you 
support continuing to place holds on assistance to Egypt annually to 
send a message about their human rights record?

    Answer. If confirmed, I will review U.S. assistance programs to 
Egypt to ensure that they are consistent with U.S. foreign policy 
objectives, including the promotion of core U.S. values. We must 
continue to work with President Abdelfattah al-Sisi to advance our 
strategic partnership and address our common challenges, while 
emphasizing respect for, and protection of, basic rights and freedoms. 
As I stated at the hearing, we should defend American values every 
place we go, even if it requires hard conversations.


    Question 18.  As Secretary of State, how would you work with 
Egypt's leaders to refocus its energies on countering its real security 
threats and reforming its economy, while respecting freedom of the 
press, due process, civil society, and other fundamental freedoms?

    Answer. The United States remains deeply committed to helping Egypt 
defeat terrorist threats that it continues to face and, if confirmed, I 
would urge Cairo to pursue a comprehensive approach to its terrorism 
challenges. The Administration also remains concerned with Egypt's 
repression of non-violent opposition, the limited space for civil 
society, and restrictions on the peaceful expression of dissent, all of 
which are critical to political stability. If confirmed, I will 
continue to raise concerns about these issues with senior Egyptian 
government officials.


    Question 19.  What are the risks to Egypt's stability if its 
leaders continue down the same path of repression and economic 
stagnation?

    Answer. The economy, terrorist threats, and the limited space for 
civil society are all potential threats to Egypt's stability. President 
Sisi has taken several economically and politically difficult steps to 
stabilize the economy and attract foreign investment, but the Egyptian 
government still needs to implement further reforms to create jobs for 
Egypt's rapidly growing population. Egypt's continued repression of 
non-violent opposition and closing space for civil society, non-violent 
opposition, and the expression of peaceful dissent, pose a risk to 
political stability.


    Question 20.  For both FY 2018 and 2019, President Trump only 
requested approximately $80 million in total assistance to Tunisia, 
which would represent a 50 percent decrease from congressionally 
authorized levels. What message does it send to reduce assistance to 
the Arab country that has made the most progress toward democracy? As 
secretary of state, would you support reductions in aid for Tunisia?

    Answer. Tunisia is a vital U.S. partner. The Administration is 
committed to supporting Tunisia's democratic path, partnering with 
Tunisia to prevail in our shared fight against terrorism, and promoting 
economic reforms to advance prosperity for both our peoples. If 
confirmed, I will continue to advance these priorities and would review 
the appropriate level of aid.


    Question 21.  Syria: We have received conflicting views from the 
Administration on Syria. The President has repeatedly stated his 
insistence on departing following the defeat of ISIS, potentially in 
the next six months. Secretary Mattis and former Secretary Tillerson 
indicated that U.S. forces may remain in order to confront Iran or 
pressure Asad into negotiations. Do you agree with the President that 
the U.S. military must immediately leave Syria?

    Answer. U.S. military forces are in Syria for the sole mission of 
defeating ISIS. This mission is not over. As I stated during my 
hearing, the President has said he wants to reduce our military 
footprint in Syria once ISIS is defeated. If confirmed, it will be my 
job to lead the diplomatic efforts necessary to achieve the President's 
intent. Any such process will seek to ensure that broader U.S. 
interests are protected in the wake of ISIS's defeat. The United States 
will continue to coordinate with its D-ISIS Coalition partners and call 
on these partners to share an increasing burden on the ground 
militarily and for stabilization initiatives to ensure ISIS's lasting 
defeat in Syria.


    Question 22.  For how much longer do you believe U.S. forces should 
remain in Iraq and Syria fighting ISIS?

    Answer. The President has been clear that he will not signal 
publicly any specific timelines and that U.S. forces will remain 
engaged in achieving our objectives in Iraq and Syria until the mission 
is complete.


    Question 23.  Does the President's withdrawal plan factor in 
stabilization planning for which the military has advocated? Can gains 
against ISIS be sustained without stabilization support? Can diplomats 
support stabilization efforts on the ground without the presence of the 
military for security?

    Answer. The President has stated that he plans to review our 
military presence in Syria once ISIS is defeated. If confirmed, it 
would be my job to lead diplomatic efforts necessary to achieving the 
President's intent to ensure that broader U.S. interests are protected 
in Syria once ISIS's ``caliphate'' has been defeated. The President has 
asked that we review all international assistance, determine 
appropriate assistance needs, and then encourage our partners in the 
Global Coalition to Defeat ISIS to share the burden of consolidating 
the Coalition's military gains and prevent the resurgence of ISIS.


    Question 24.  How can we transition our relationship with the 
Syrian Kurds in a way that does not destabilize gains against ISIS but 
takes into consideration Turkey's concerns?

    Answer. If confirmed, I will lead a robust diplomatic effort to 
address the issue of how the Syrian Kurds, who have fought and died to 
rid Syria and the world of ISIS, fit into a future Syria. We will need 
to work with Turkey--as a NATO ally and a regional power--to ensure 
that its national security interests are addressed, including in Syria. 
It is my understanding that U.S.-Turkey bilateral engagements on these 
issues are underway. Concurrently, we will continue to engage local 
actors on the ground in Syria to advance diplomatic efforts aimed at 
ensuring areas liberated from ISIS regain stability and prosperity.


    Question 25.  In countries around the world, LGBTQ people are 
criminalized for who they love. There are also women who are in jail in 
places like El Salvador and Senegal for having miscarriages or 
abortions. These are gross human rights violations. As Secretary of 
State would you raise concerns about laws that criminalize same-sex 
relationships and women's personal health decisions in public and 
private settings?

    Answer. If confirmed, I will advocate that governments have an 
obligation to protect, respect, and uphold the fundamental dignity of 
all people--including women and LGBTI persons.


    Question 26.  During his confirmation hearing to become U.S. 
ambassador at large for international religious freedom, Sam Brownback 
refused to state that he believes laws that criminalize LGBTQ people 
are always unjustified and would not say whether religious freedom 
could be used to justify laws that imprison or execute people just for 
being LGBTQ. As governor, Brownback issued an executive order that is 
similar to the bill you co-sponsored allowing non-profits to refuse to 
serve same-sex couples. Do you believe criminalizing LGBTQ people for 
religious reasons would be justified? Do you believe that an 
organization receiving foreign aid should be allowed to deny 
programming or services to someone who is LGBTQ if they assert a 
religious reason for doing so?

    Answer. I do not believe that criminalizing LGBTQ persons for 
religious reasons would ever be justified. I respect every individual 
equally, regardless of their sexual orientation or gender identity. If 
confirmed, I will work closely with my colleagues across the State 
Department and USAID to promote respect for fundamental freedoms, human 
rights, religious freedom, and democratic governance, for all people, 
including LGBTI persons.


    Question 27.  You received an award in 2016 from Act for America, a 
hate group that espouses false, anti-Muslim narratives. What is your 
position on the resettlement of the most vulnerable refugees, 
regardless of their faith--and in particular Muslim refugees?

    Answer. I believe that the United States has an important role to 
play in providing various types of support for vulnerable refugees, 
including through resettlement and humanitarian assistance.


    Question 28.  Will you help reverse the troubling trend that 
refugee groups are reporting regarding a dramatic decline in Muslim 
arrivals?

    Answer. If confirmed, you have my full commitment that I will 
support the resettlement of the world's most vulnerable refugees, 
regardless of faith.


    Question 29.  What role did you play as CIA Director in imposing 
the original Muslim ban and supporting intelligence for which countries 
to include? Do you support blanket bans on travelers from certain 
countries? As Secretary of State, how do you think that would impact 
your relationship with those countries?

    Answer. As CIA Director, I was not directly involved in the 
policymaking processes that led to the travel restrictions referenced 
in your question. In my current capacity at the CIA, I have worked 
closely with our intelligence partners throughout a broad range of 
Muslim-majority countries over the past 15 months. If confirmed, I 
assure you that I will continue to build strong partnerships globally 
with Muslim-majority countries, who are crucial partners.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                  Mike Pompeo by Senator Edward Markey


                            (Questions 1-22)

    Question 1.  This administration has frequently taken a ``burn down 
the house to remodel the kitchen'' approach to foreign policy. From the 
Paris Climate Agreement to the Trans-Pacific Partnership, and now 
potentially to the Joint Comprehensive Plan of Action (JCPOA), the 
Trump administration has complained that the United States is being 
treated unfairly and must instead secure a better deal. To address 
this, the Trump administration has frequently withdrawn or threatened 
to withdraw the United States from these multilateral arrangements, 
asserting that in doing so America will be able to ``negotiate a better 
deal.'' Please explain this diplomatic strategy. How does the United 
States increase its negotiating leverage by unilaterally withdrawing or 
threatening to withdraw from multilateral agreements?

    Answer. This Administration has increased scrutiny of multilateral 
agreements to ensure that they serve America's interests. At the same 
time, President Trump has emphasized that America First does not mean 
America alone. As stated in the Administration's National Security 
Strategy, the United States must lead and engage in the multinational 
arrangements that shape many of the rules that affect U.S. interests 
and values. As we participate in them, we must protect American 
sovereignty and advance American interests and values.


    Question 2.  President Juan Orlando Hernandez of Honduras has a 
long history of subverting democracy and the rule of law. I recently 
sent a letter to the State Department expressing my concerns about 
reports of alleged human rights abuses by security forces in Honduras 
following November's disputed presidential election. Are you concerned 
about the deteriorating human rights situation in Honduras and the 
erosion of democracy and rule-of-law in the country?

    Answer. I share your concerns with the human rights situation in 
Honduras, particularly the reports of deaths of individuals and 
security forces following the November 2017 presidential election in 
Honduras. The Administration's Strategy for Central America makes clear 
U.S. support for Honduran efforts to strengthen the rule of law and 
promote democracy and strong institutions.


    Question 3.  You falsely alleged that the silence of Muslim leaders 
in response to the Boston Marathon attacks made these Islamic leaders 
across America potentially complicit in these terrorist acts. Will you 
commit to promoting U.S. values, including religious tolerance and 
respect for diversity?

    Answer. I will treat persons of each faith or no faith with the 
dignity and respect that they deserve, as I have done during my tenure 
at the CIA. In this capacity, I have worked closely with Muslim leaders 
and with governments of Muslim countries. Working with leaders of all 
faiths is at the core of who I am. If confirmed, I will work toward 
creating a more diverse State Department work force in every sense: in 
terms of race, religion, background, and more. As I have done at the 
CIA, I will achieve this by focusing on the mission and treating every 
team member with dignity and respect.
    I note I do not agree with the characterization of my statement 
after the deaths of Americans in the Boston Marathon attacks. I pointed 
out the importance of people speaking out against terrorist attacks 
killing innocent Americans.


    Question 4.  The President has refused to criticize Philippine 
President Duterte's brutal campaign of extra-judicial murders that has 
resulted in the deaths of at least 8,000 Filipino drug users and low-
level drug dealers, and instead has said that he has a ``great 
relationship'' with President Duterte and said he ``has always been a 
friend of the Duterte administration.'' How will you advise the 
President if he indicates he would like to invite Duterte to the White 
House?

    Answer. If confirmed, I will urge the Philippine government to 
ensure its law enforcement efforts are conducted in accordance with its 
human rights obligations and with full respect for the rule of law. 
Frank discussions about areas of cooperation, as well as our 
differences, are important as we engage with treaty allies such as the 
Philippines.


    Question 5.  Mr. Pompeo, during your time in the House, you co-
sponsored the State Marriage Defense Act of 2014 and the Marriage and 
Religious Freedom Act of 2013, both of which would have given a license 
to discriminate against vulnerable LGBT populations. Mr. Pompeo, what 
kind of message does your record send to the Russian authorities who 
seek to use sexual orientation and gender identity as an excuse for 
repression? Can you describe your personal views of the rights that our 
LGBT citizens should have, and how you would integrate issues related 
to the human rights of LGBT people into our global human rights 
policies? Will you commit to standing united with Chechnya's LGBTQ 
community, who are the victims of cruel and murderous treatment at the 
hands of Chechen officials who govern under the authority of Russia? 
Will you commit to appointing a qualified Special Envoy for the Human 
Rights of LGBTI Persons?

    Answer. The horrible treatment of LGBTI persons by Chechen 
authorities is truly despicable, and, if confirmed, I will stand with 
the persecuted people of Chechnya, including LGBTI persons. I respect 
every person equally, and, if confirmed, I commit to defend the human 
rights and dignity of all people, no matter their race, ethnicity, 
religion, sexual orientation, or gender identity. If confirmed, 
consistent with the Administration's prior commitment, I intend to 
retain the position of Special Envoy for the Human Rights of LGBTI 
Persons.


    Question 6.  Data from the Department of Commerce shows that in 
2016 foreign students attending U.S. institutions of higher education 
spent $39.4 billion in foreign funds on U.S. services. In other words, 
a $39.4 billion export that reduces the trade deficit. A recent 
estimate by the University of California at Santa Barbara puts that 
number as high as $50 billion, on par with U.S. exports of semi-
conductors, passenger cars, and civilian aircraft. As we look at ways 
of securing our nation and resolving trade imbalances in the U.S.'s 
favor, how can we protect and grow the considerable value of higher 
education as a premier U.S. export, and maintain the significant 
benefit it has for communities across the country?

    Answer. The American system of higher education is the most open, 
diverse, and high-quality in the world. Our higher education 
institutions attract students, professors, and researchers from all 
around the world. The contributions of U.S. colleges and universities 
go well beyond our campuses to help America lead the world in 
innovation, research, and next-generation science and technology. While 
we must always be vigilant against potential counterintelligence or 
intellectual property protection risks, international students are a 
critical part of U.S. leadership in higher education. If confirmed, I 
will seek to responsibly foster this important component of our economy 
and international leadership.


    Question 7.  The Indo-Pacific is arguably the most important region 
for U.S. security and economic growth. It represents nearly half of the 
global population and is home to some of the most dynamic economies in 
the world, but is also home to security challenges that threaten to 
undermine U.S. national security interests, regional peace, and global 
stability. Although the administration has articulated support for a 
``free and open Indo-Pacific,'' it has not clearly expounded upon that 
vision or offered concrete interests, objectives, and ways in which the 
United States are going to achieve them. Please describe your vision 
for the ``free and open Indo-Pacific.'' What should the State 
Department's role be in this strategy? What should be our objectives 
and how will we achieve them? What specific policy and funding 
priorities for the State Department would it require?

    Answer. The Department of State plays a vital role in implementing 
the strategy to ensure a free and open Indo-Pacific and contributes to 
three main lines of effort: security, economics, and governance. If 
confirmed, I will seek briefings on the full range of current efforts, 
to include diplomatic engagement and assistance programs, and assess 
how I can best lead this effort. Currently, I understand the Department 
is building a resilient network of security partners with greater 
capacity to advance maritime security, fight terrorism, and ensure 
stability. A core element of the Department's role is strengthening 
U.S. alliances and encouraging partners such as India, Vietnam, and 
Indonesia to play a greater role in the region.


    Question 8.  There have been widespread concerns over China 
building military bases on artificially constructed islands in the 
South China Sea. In the coming months or years, China could build a 
similar military base on Scarborough Reef, which unlike the features it 
occupies in the Spratlys and Paracels, is an unoccupied feature. If 
confirmed, you could face a renewed crisis with a strategic competitor 
in the South China Sea, one of the most important waterways in the 
world. To what degree do you view the Chinese construction of a 
military base on Scarborough Reef as a national security challenge for 
the United States? How would you attempt to deter such an action and 
what would be your approach to addressing a Chinese fait accompli? What 
would be your broader strategy?

    Answer. Land reclamation, construction, and militarization on 
Scarborough Reef would be of grave concern to the United States. If 
confirmed, I will press China and other South China Sea claimants to 
refrain from new construction on, and militarization of, disputed 
features, and to manage and resolve disputes peacefully. We should work 
with allies and partners to uphold freedom of navigation and overflight 
and other lawful uses of the sea in the South China Sea. We should also 
urge China and ASEAN to conclude a meaningful Code of Conduct for the 
South China Sea in accordance with international law. Additionally, we 
should partner with ASEAN member states to build capacity on maritime 
domain awareness.


    Question 9.  I'd like to raise with you the ongoing humanitarian 
crisis in the Gaza Strip. As Israeli defense officials warned Israeli 
politicians earlier this year, U.S. withholding of UNRWA funding could 
worsen the humanitarian crisis in Gaza and even spark an uprising in 
the territory. Do you agree with Israeli security experts that the 
president should restore frozen U.S. funding to UNRWA? As Secretary of 
State, will you encourage Israeli security officials to respect the 
rights of Palestinians to peacefully protest and pursue a two-state 
solution?

    Answer. I understand that the United States has been UNRWA's 
largest single donor for decades, and that last year, we provided 34 
percent of UNRWA's funding--more than the next four largest donors 
combined. If confirmed, I look forward to working with other 
international partners to restructure how UNRWA is funded and to create 
a fairer, more equitable, and more predictable funding mechanism for 
UNRWA.
    I share your concern about humanitarian and economic conditions in 
the Gaza Strip, which the Administration has identified as a priority. 
The primary responsibility for this situation belongs to Hamas, which 
has refused to return control of the Gaza Strip to legitimate 
authorities, endangering the welfare and well-being of the people of 
the Gaza Strip. If confirmed, I will continue the Administration's 
efforts both to improve the lives of the people of the Gaza Strip and 
to create the conditions for successful negotiations leading to a 
lasting and comprehensive peace.


    Question 10.  The nonpartisan Congressional Budget Office (CBO) has 
assessed the cost to sustain and rebuild the U.S. nuclear arsenal at 
$1.2 trillion over 30 years. The additional capabilities proposed by 
the NPR will further increase this cost. Why do you believe tax dollars 
are better spent investing in new nuclear capabilities rather than 
investing more heavily in diplomacy or even conventional systems? Won't 
they just provide the justification countries like Russia are looking 
for not to comply with their commitments? Do you believe we need the 
``supplements the recently-released Nuclear Posture Review calls for? 
If so, why? Please explain for both the low-yield SLBM and then the 
Sea-Launched Cruise Missile.

    Answer. I believe the Administration's nuclear modernization 
program remains the most cost-effective approach to sustaining an 
effective nuclear deterrent, which is essential to preventing a nuclear 
attack--the only existential threat to the United States and its allies 
and partners. We have spent years attempting to address Russia's 
continuing arms control violations, yet Russia has refused to engage in 
any meaningful way. As the 2018 Nuclear Posture Review states, these 
two military supplements will ``provide a more diverse set of 
characteristics greatly enhancing our ability to tailor deterrence and 
assurance; expand the range of credible U.S. options for responding to 
nuclear or non-nuclear strategic attack; and, enhance deterrence by 
signaling to potential adversaries that their concepts of coercive, 
limited nuclear escalation offer no exploitable advantage.''


    Question 11.  Every other country in the world is part of the Paris 
Agreement, even our economic competitors. In every international 
engagement I have, I hear concern about our wavering commitment on 
climate change. How will you address the concerns of our allies that we 
are ceding leadership on climate?

    Answer. I fully support the President's decision on the Paris 
Agreement. If confirmed, I will ensure that the United States remains 
engaged on the issue of climate change to advance and protect U.S. 
interests, including by working with other countries to reduce 
greenhouse gas emissions and enhance resilience in ways that drive 
innovation and market-friendly solutions. I will ensure that the United 
States engages multilaterally and bilaterally on these issues.


    Question 12.  The New START Treaty's central limits cap U.S. and 
Russian deployed strategic warheads at 1,550 and deployed strategic 
launchers at 700. These limits also reduce the number of strategic 
nuclear warheads deployed by 74 percent from the 6,000 deployed 
warheads limit in the original Strategic Arms Reduction Treaty. New 
START expires in 2021, but may be extended for 5 years by mutual 
agreement. Do you believe this treaty and its limits on Russia's 
deployed weapons is in the national security interest of the United 
States? Do you believe New START's verification and inspection 
mechanisms enhance or degrade our understanding of Russia's nuclear 
weapons program? Why hasn't the Trump administration announced its 
intent to pursue this five year extension of these limits? Do you 
support extending these limits?

    Answer. I believe that the New START Treaty currently contributes 
to preserving strategic stability between the United States and Russia 
and is in the national security interest of the United States. New 
START's verification regime, which includes short-notice, on-site 
inspections at Treaty-related bases and facilities, assists in our 
ability to verify information about the strategic nuclear arsenal of 
the Russian Federation. The Administration has made clear it will 
continue to fully implement New START and will consider next steps 
related to the New START Treaty at the appropriate time.


    Question 13.  As a result of the Joint Comprehensive Plan of Action 
(JCPOA), Iran was made to reduce its uranium stockpile by approximately 
97%, decrease its operating centrifuges from 19,000 to 5060 of its 
oldest, least advanced centrifuges, accept a breakout time of at least 
one year to acquire enough material for a nuclear weapon, and acquiesce 
to a comprehensive monitoring and verification regime over its program. 
You are privy to the country's most sensitive secrets and intelligence. 
As CIA director, have you seen any information indicating Iran is not 
complying with the technical limits of the JCPOA?

    Answer. During my time as CIA Director, intelligence reporting and 
analysis indicated, based on all available reporting, Iran was in 
compliance with the technical limits of the JCPOA. This includes 
adhering to the restrictions you mention on Iran's uranium stockpile 
and the numbers and types of centrifuges as well as meeting the 
requirement to submit to a monitoring and verification regime as 
executed by the IAEA.


    Question 14.  Do you agree with Defense Secretary Mattis, Chairman 
of the Joint Chiefs Joe Dunford, and CENTCOM head General Votel that 
the Iran nuclear deal is in the U.S. national security interest? If so, 
will you give this advice to the President as the May 12 deadline to 
renew sanctions waivers and continue meeting U.S. commitments under the 
JCPOA approaches? The President will do what he wants, but will he hear 
from you that his immediate actions are contrary to the U.S. national 
security interest? If not, why are these individuals wrong? If the 
United States withdraws from the JCPOA, do you believe the U.S. 
understanding of Iran's nuclear program and capabilities will be 
enhanced or degraded?

    Answer. The President has been clear about his concerns regarding 
the JCPOA. I believe fixing the deal is in the best interest of the 
United States. The Administration is seeking a new supplemental 
agreement to address the deficiencies the President identified in 
January. As these negotiations continue, I will not hesitate to share 
my views with the President. If there is no chance the deal can be 
fixed, I will recommend we work with our allies to achieve a better 
deal. Should the United States withdraw, IAEA safeguards provide a 
basis for maintaining visibility into Iran's nuclear program. The 
United States will also continue to utilize national technical means 
and coordinate closely with international allies and partners to ensure 
a full understanding of Iran's nuclear activities.


    Question 15.  Does the JCPOA in any way limit our ability to 
counter Iran's nefarious, non-nuclear activities? If so, please explain 
how and whether you assess the Trump administration has decreased or 
enhanced efforts to counter Iran's non-nuclear activities. Does the 
JCPOA in any way place limitations or restrictions on America's use of 
military force?

    Answer. The JCPOA, by its terms, does not limit our ability to 
address Iran's non-nuclear activities, and since taking office, the 
Administration has moved forward with several rounds of sanctions 
designations targeting Iran's support for terrorism, ballistic missile 
activity, and human rights abuses. The Administration has demonstrated 
it will hold the Iranian government fully accountable for its actions. 
The JCPOA does not, by its terms, address use of force.


    Question 16.  If you don't favor remaining in the JCPOA or 
diplomatically engaging with Iran, then what is the policy goal of U.S. 
sanctions? In July 2016 you stated that, ``Congress must act to change 
Iranian behavior, and, ultimately, the Iranian regime.'' Is the policy 
goal of U.S. sanctions on Iran to attempt to induce regime change?

    Answer. The Administration is working to fix the JCPOA, and that 
process continues. The Trump Administration's Iran policy addresses the 
totality of Iranian threats, and sanctions are an important tool to 
help achieve our foreign policy goals. With respect to Iran, the 
purpose of sanctions is to bring about a change in the Iranian regime's 
behavior.


    Question 17.  If the President does decide to withdraw from the 
nuclear agreement, what will the United States strategy be for 
addressing Iran's nuclear program? Is the United States really prepared 
to impose sanctions on Europe, China, India, South Korea, and others, 
as part of ``snapping back'' secondary sanctions on Iran? How do you 
believe these countries will react? What strategy will you pursue to 
build and strengthen the multilateral sanctions regime that once 
brought Iran to the negotiating table to conclude the JCPOA if the 
United States withdraws from this agreement?

    Answer. It is too early to prejudge the outcome of the on-going 
Iran-related negotiations with the E3. The Administration is currently 
working to secure a supplemental deal and address non-nuclear issues 
like Iranian aggression in the region. The President announced a clear 
and comprehensive Iran strategy in October 2017 and issued a statement 
in January 2018 outlining steps he wanted the Administration to pursue 
to counter the variety of threats emanating from Iran. If confirmed, 
this is the policy I intend to implement.


    Question 18.  In 2016, along with Representatives Lee Zeldin and 
Frank LoBiondo, you applied for a visa to visit Iran for the purpose of 
inspecting Iranian nuclear facilities. Please explain what you hoped to 
accomplish with this visit. In detail, please describe what you 
intended to see during these inspections. Did you believe that you and/
or Representatives Zeldin and LoBiondi have the necessary technical 
expertise to conduct such an inspection?

    Answer. As explained in my visa application and op-eds, I had 
several goals in my attempted travel to Iran, including demanding the 
release of detained American citizens; meeting with human rights 
activists; testing proclaimed Iranian openness to dialogue with the 
West; and understanding better Iranian leadership understanding of the 
JCPOA terms and the regime's intent to comply with the JCPOA. That trip 
did not materialize because the Iranians did not grant my visa request.


    Question 19.  Last year you sent a letter to Qassem Soleimani, the 
commander of Iran's paramilitary Quds Force, allegedly warning him not 
to attack U.S. interests in the region. Please explain what you 
intended to accomplish in sending this letter. Did you consult Defense 
Secretary Mattis or Secretary of State Tillerson before sending this 
letter?

    Answer. The letter was meant to be a clear warning to Iran not to 
attack U.S. interests in the region. I consulted with all relevant 
parties in the U.S. government before sending the letter.


    Question 20.  Do you agree with your colleague Mr. Bolton that 123 
agreements between the U.S. and other countries must include the gold 
standard--a commitment to forgo any uranium enrichment or spent fuel 
reprocessing, two technologies crucial to developing nuclear weapons? 
Should a 123 agreement with Saudi Arabia include this commitment? If 
not, why? Given that Saudi Arabia's Crown Prince Mohammed bin Salman 
has made recent, public remarks that Saudi Arabia will pursue nuclear 
weapons if Iran does, do you believe it is better for the United States 
to forgo any civil nuclear cooperation agreement with Saudi Arabia or 
settle for a compromise that forgoes these important nuclear 
nonproliferation controls? How do you think other countries would 
perceive the United States withdrawing from the JCPOA while concluding 
a 123 agreement with Saudi Arabia that does not include these important 
nonproliferation controls?

    Answer. As I told the Committee during the hearing, I support the 
gold standard. The United States has significant strategic, commercial, 
and nonproliferation incentives to conclude a 123 agreement with Saudi 
Arabia. Such an agreement would provide substantial economic 
opportunities for U.S. firms and ensure the Saudi nuclear power program 
is subject to the highest nonproliferation, safety, and security 
standards. In the absence of a 123 agreement, U.S. firms will lose the 
opportunity to compete and will likely be replaced by state-owned 
enterprises from other countries with lower nonproliferation standards.
    With respect to the JCPOA, one of its most significant shortcomings 
is that it falls short of verifiable non-proliferation gold standards.


    Question 21.  The Atomic Energy Act requires the President to keep 
Congress, ``fully and currently informed of any initiative or 
negotiations relation to a new or amended agreement for peaceful 
nuclear cooperation.'' If confirmed, will you commit to personally 
briefing this committee on the status of U.S.-Saudi 123 discussions as 
soon as possible, to include an intelligence briefing on what is known 
about Saudi Arabia's intentions for its nuclear program?

    Answer. If confirmed, I am committed to keeping the Foreign 
Relations Committee fully informed of the status of 123 agreement 
negotiations, consistent with the Department's statutory obligations 
under the Atomic Energy Act, as amended. I would be pleased, if 
confirmed, to arrange a classified briefing for the Committee at an 
appropriate time.


    Question 22.  The United States has invested in establishing 
security and rule of law in Haiti, including in increased 
professionalization of the Haitian police force. However, less than 150 
Haitian police officers are currently stationed on the border, and 
there is little to no infrastructure or technology that would allow 
them to follow effective customs procedures. This allows contraband to 
enter Haiti easily and organized criminal enterprises to flourish. What 
will the Administration do to encourage the Government of Haiti to 
invest in the necessary border infrastructure and train additional 
security personnel? How will the Administration ensure the Haitian 
government actually places adequate security personnel on the border 
and builds the technology and infrastructure essential for effective 
border control?

    Answer. I understand the Department of State provides training, 
material support, and technical expertise to build the capacity of the 
Haitian National Police. I also understand the USAID Customs Support 
project is a $4 million initiative to modernize the Haitian customs 
service processes for revenue collection, traveler processing, and 
contraband interdiction.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                  Mike Pompeo by Senator Jeff Merkley


                            (Questions 1-38)

    Question 1.  You have said that the President seeks the 
``verifiable, irreversible denuclearization of North Korea.'' Does the 
administration have preconditions ahead of the planned meeting between 
President Trump and North Korean leader, Kim Jong-un?

    Answer. The United States and North Korea have been holding direct 
talks in preparation for a summit, and North Korea has confirmed its 
willingness to talk about denuclearization. The Trump Administration 
has been working to create the conditions so that the President and Kim 
Jong-un can sit together to begin to resolve this vexing, difficult 
challenge.


    Question 2.  Do you believe the complete denuclearization of North 
Korea is achievable through diplomacy?

    Answer. I agree with the President's view that the continuation of 
a coordinated pressure campaign is the tool that enables the 
opportunity to achieve a successful diplomatic outcome in North Korea. 
To achieve our goal of denuclearization, we will need a serious and 
sustained campaign to implement United Nations and U.S. sanctions to 
maintain the pressure on North Korea, along with a diplomatic strategy 
to negotiate credible denuclearization.


    Question 3.  What is your definition of ``complete 
denuclearization'' of the Korean Peninsula?

    Answer. Denuclearization means the complete, verifiable, and 
irreversible abandonment by North Korea of its nuclear weapons programs 
and existing nuclear and delivery programs.


    Question 4.  If, after the first meeting between the President and 
Kim Jong-un, North Korea's nuclear program and live tests remain 
frozen, do you see a phased, longer-term approach toward 
denuclearization being possible?

    Answer. It is my full anticipation that however the President's 
meeting goes, there will be an enormous amount of diplomatic work 
remaining. To achieve our goal of denuclearization, we will need a 
serious and sustained campaign to implement United Nations and U.S. 
sanctions to maintain the pressure on North Korea, along with a 
diplomatic strategy to negotiate credible denuclearization.


    Question 5.  If you determine full denuclearization is not possible 
through diplomacy, at what point would you recommend military action to 
the President?

    Answer. If confirmed, my role and focus as Secretary of State will 
be diplomacy. Although all options remain on the table, we have not 
exhausted our diplomatic options with respect to North Korea.


    Question 6.  Without commenting on whether it would be advisable to 
do so, would the United States, today, be justified in launching 
preventive military strikes on North Korea in response to the current 
crisis?

    Answer. If confirmed, my role and focus as Secretary of State will 
be to solve the North Korea issue through diplomacy. While, as the 
President has made clear, all options are on the table, the 
Administration is focused on the upcoming meeting between President 
Trump and Kim Jong-un.


    Question 7.  Do you believe President Trump would need to consult 
with the Congress before launching a military strike on North Korea?

    Answer. The Administration's goal is not war with North Korea, but 
rather the complete, verifiable, and irreversible denuclearization of 
the Korean Peninsula. The Administration continues to pursue its 
maximum pressure campaign to persuade North Korea to change course and 
end its unlawful nuclear and ballistic missile programs.
    The Administration is not seeking an authorization to use military 
force against North Kore from Congress, and any decision to use 
military force is a most serious decision that requires a careful fact-
specific and legal assessment at the time the use of military force is 
contemplated. As I said in my hearing, working with the Committee and 
Congress can strengthen Administration actions.


    Question 8.  If not, at what stage in a potential conflict do you 
believe Congressional authorization would be required?

    Answer. I believe it is very important to engage actively with 
Congress on these issues. I am focused on a diplomatic solution and 
cannot speculate on what Congressional authority would be necessary in 
a hypothetical conflict.


    Question 9.  Do you believe the United States should seek 
concurrence from South Korea before taking any military action in North 
Korea?

    Answer. The Republic of Korea is a valued, close ally and we are 
working closely toward achieving the complete, verifiable, and 
irreversible denuclearization of North Korea via diplomatic means. The 
President has been clear that the Administration prefers a peaceful 
solution, but that all options are on the table. We will remain in 
close contact with South Korea regarding North Korea.


    Question 10.  Do you agree with Secretary of Defense Mattis' 
statement that the continued U.S. implementation of the JCPOA remains 
in the U.S. national security interest?

    Answer. The President in his January 12 statement directed his 
Administration to engage our European allies to try to fix the serious 
flaws of the JCPOA. I support this effort. Based on the progress of our 
discussions, the President will decide how to proceed on May 12.


    Question 11.  Do you agree with the Chairman of the Joint Chiefs of 
Staff, Joseph Dunford, that a unilateral U.S. decision to withdraw from 
the JCPOA would have an impact on others' willingness to sign 
agreements with the United States?

    Answer. I want to fix the JCPOA, and that is our current goal. But 
if there is no chance that we can fix the JCPOA, I will recommend to 
the President that we do our best to work with our allies to achieve a 
better outcome.


    Question 12.  As Director of the CIA, was there any intelligence 
that you were made aware of that indicated Iran was in material breach 
of the JCPOA?

    Answer. During my time as CIA Director, intelligence reporting and 
analysis indicated, based on all available reporting, Iran was 
substantially in compliance with the technical limits of the JCPOA.


    Question 13.  If the United States does decide to withdraw from the 
JCPOA, what sanctions would the United States seek to re-impose and 
when? What specific provisions of the JCPOA would the United States 
invoke?

    Answer. Should the United States withdraw from the JCPOA, I believe 
the President will re-impose the sanctions that are deemed necessary to 
advancing U.S. foreign policy goals. I am focused on a diplomatic 
solution.


    Question 14.  If the United States withdraws, what is the 
administration's strategy to ensure Iran does not return to pre-JCPOA 
activities that left it within months of a bomb?

    Answer. Regardless of the future of the JCPOA, Iran's nuclear 
activities must remain exclusively peaceful and Iran must cooperate 
fully with its continuing Nuclear Non-Proliferation Treaty (NPT) and 
related IAEA safeguards obligations. The Administration has 
demonstrated it will hold the Iranian regime fully accountable for its 
actions.


    Question 15.  In 2014, as P5+1 negotiations with Iran on its 
nuclear program were ongoing, you appeared to favor military action, 
saying, ``It is under 2,000 sorties to destroy the Iranian nuclear 
capacity. This is not an insurmountable task.'' If the United States 
withdraws from the JCPOA, do you view military action as an alternative 
to addressing Iran's nuclear program?

    Answer. This Administration's policy and my view is that the best 
solution to preventing Iran from obtaining a nuclear weapon is through 
diplomacy.


    Question 16.  In your nomination hearing, you declined to commit 
that the United States would insist on the ``gold standard'' in a 123 
civilian nuclear cooperation agreement with Saudi Arabia, which would 
preclude indigenous uranium enrichment and spent fuel reprocessing 
activities (ENR). Why wouldn't you require Saudi Arabia to meet the 
same standards as the UAE and others?

    Answer. The United States has a longstanding policy of seeking to 
limit the spread of enrichment and reprocessing technologies around the 
world. If confirmed, I will support pursuing the strongest 
nonproliferation standards that are achievable in all 123 agreement 
negotiations, including negotiations with Saudi Arabia. Bringing into 
force such an agreement would provide substantial economic 
opportunities for U.S. firms and ensure the Saudi nuclear power program 
is subject to the highest nonproliferation, safety, and security 
standards required by any nuclear supplier in the world.


    Question 17.  What do you assess the non-proliferation risks of a 
more lenient 123 agreement would be in the region?

    Answer. All 123 agreements include, at a minimum, the legal 
requirements listed in Section 123 of the Atomic Energy Act, as 
amended. On their own, these requirements represent the strongest 
nonproliferation, safety, and security standards required by any 
nuclear supplier in the world.
    Beyond these legal requirements, the United States has a 
longstanding policy of seeking to limit the spread of enrichment and 
reprocessing technologies around the world. If confirmed, I will 
support pursuing the strongest nonproliferation standards that are 
achievable in all 123 agreement negotiations, including negotiations 
with Saudi Arabia.
    Since I have not been involved in 123 agreement negotiations with 
Saudi Arabia to date, I am not in a position to speculate about the 
regional implications of potential terms under consideration for such 
an agreement, which I understand are still subject to discussion both 
internally and with Saudi Arabia.


    Question 18.  President Trump has indicated that the United States 
should work with Russia to ``end the arms race.'' The State Department 
certified in February this year that Russia verifiably met the Central 
Limits of the New Strategic Arms Reduction Treaty (New START) and that 
continued implementation of the Treaty remains in the U.S. national 
security interest. New START is due to expire in 2021 but can be 
extended an additional five years through mutual agreement. Will you 
commit to convene a strategic dialogue with Russia to discuss extension 
of the New START Treaty, Russia's violation of the Intermediate Range 
Nuclear Forces Treaty (INF), and related issues shortly after taking 
office?

    Answer. My understanding is that the United States will continue to 
fully implement New START and consider next steps related to extension 
at the appropriate time. The United States is also pursuing an 
integrated strategy of diplomatic, economic, and military measures to 
seek to return Russia to full and verifiable compliance with the 
Intermediate-Range Nuclear Forces (INF) Treaty. If confirmed, I will 
consider the most effective approaches to advancing U.S. national 
security interests regarding these two treaties.


    Question 19.  The Department of Defense and the U.S. intelligence 
community have long stated that they view climate change as a threat to 
American national security and military readiness, calling it a 
``threat multiplier.'' Do you agree with Secretary Mattis and General 
Dunford that climate change is a national security threat?

    Answer. As I stated during my confirmation hearing, I believe that 
the climate is changing and there is likely a human component. As we 
find tools that are effective to prevent any risks to the United States 
and our national security interests, the State Department ought to be 
appropriately involved in them.


    Question 20.  If [you agree with Generals Mattis and Dunford on the 
previous question] so, how will you commit to ensuring the issue is 
incorporated into U.S. foreign policy planning?

    Answer. If confirmed, I will ensure that the State Department is 
always informed by the best scientific and intelligence assessments as 
we develop relevant policies.


    Question 21.  The 2018 Worldwide Threat Assessment of the U.S. 
Intelligence Community, states, ``The impacts of the long-term trends 
toward a warming climate, more air pollution, biodiversity loss, and 
water scarcity are likely to fuel economic and social discontent--and 
possibly upheaval--through 2018.'' Do you stand by those words today?

    Answer. I agree with the sentiments expressed in this statement.


    Question 22.  In our meeting in my office, when I asked you if you 
would stand up for the protection of the LGBTQ community, you responded 
with ``every day.'' However, while Director of the CIA, I understand 
you cancelled a speech scheduled to be given by Matthew Shepard's 
parents at an LGBTQ event during the Pride Month. Do you feel you were 
standing up for the LGBTQ community that day?

    Answer. Yes. As CIA explained to the Shepard family, the Agency 
decided on a Pride event at CIA in 2017 with a national security focus. 
The Pride event we held with Senator Tammy Baldwin achieved that goal 
and was well-attended by the CIA workforce, including members of CIA's 
LGBTQ community.


    Question 23.  Do you believe that the United States should, as a 
matter of policy, provide support for refugees worldwide, as a 
humanitarian, development, and security matter?

    Answer. Yes.


    Question 24.  If so, do you believe that there is a benefit to 
funding programs that focus on women's health and welfare, as a 
humanitarian, development, and security matter?

    Answer. Yes.


    Question 25.  Do you agree with the body of research that finds 
access to education for young women and girls is a key indicator for a 
country's economic success?

    Answer. When young women and girls are educated and are able to 
enter the workforce, economies are stronger. If a girl remains in 
school, she is more likely to be able to earn an income that she is 
likely to invest into her family and community. As the President noted 
in his statement on the International Day of the Girl, the girls of 
today will tomorrow be leaders in every nation and every sector of the 
economy.


    Question 26.  Do you agree with the body of research that indicates 
that access to family planning is a strong indicator of a young woman's 
ability to obtain an education?

    Answer. While I am not familiar with the research cited, I welcome 
the opportunity to discuss it with you if confirmed.


    Question 27.  While the State Department had consistently scored 
highly in federal employee satisfaction surveys, in just over one year, 
morale plummeted as a result of Secretary Tillerson's team's efforts to 
dismantle the capable and patriotic corps of civil service, Foreign 
Service, and contractors who worked to advance and defend America's 
interests around the world. What steps will you take to rebuild the 
staffing and morale of the State Department?

    Answer. If confirmed, I will work to ensure that vacancies in the 
senior ranks of the Department are filled as soon as practicable with 
talented and capable people. I will also work to ensure that key State 
Department priorities are properly resourced. As discussed at my 
hearing, my goal is to ensure that the State Department is at the 
forefront of U.S. diplomacy.


    Question 28.  Will you speak out publicly to defend your Civil and 
Foreign Service teams against a damaging denigration campaign to 
politicize their service that is perpetrated by some in this 
administration?

    Answer. If confirmed, I will defend and rely upon the talented 
career employees of the State Department, as I have done at the CIA.


    Question 29.  In response to the January 2017 Executive Order on 
the so-called ``Muslim Travel Ban,'' hundreds of State Department 
officials signed a Dissent Channel Cable in protest. Since then, the 
cable was leaked to the press. Can you confirm that there have been no 
negative impacts to the employees who signed the cables in relation to 
hiring and paneling decisions? Can you commit to looking into this 
issue and doubling down on efforts to ensure employees have safe ways 
to express dissent?

    Answer. If confirmed, I will fully support the principle and use of 
the Dissent Channel. The Department is stronger because of informed, 
creative discussion of the complex issues we handle. I am not aware of 
any employees having been disadvantaged in assignments or paneling 
decisions because of an association with the Dissent Channel, but I 
commit to looking into this issue, if confirmed.


    Question 30.  While at the CIA, you asserted that the intelligence 
community came to the conclusion that Russia's interference in the 2016 
presidential election had no effect on the electoral outcome, when the 
intelligence community made no such assessment. A CIA spokesperson had 
to later correct your statement. Do you believe it is appropriate for a 
CIA Director to insert himself or herself into political debates in 
this way?

    Answer. I believe it is entirely appropriate for a CIA Director to 
engage the public and answer questions about the Agency and its 
mission, consistent with our national security obligations, to serve 
the interests of transparency and to help the American public 
understand CIA.
    That was my purpose in speaking at a forum at the Foundation for 
the Defense of Democracies on 19 October 2017, where I was asked many 
questions. To clarify my response to one question from a reported at 
the forum, I later directed that CIA release a statement making clear 
that the intelligence assessment on Russian election meddling had not 
changed and that I did not intend to suggest that it had.
    My views on this issue have been consistent. I stand by the 6 
January 2017 Intelligence Community Assessment regarding Russian 
activities and intentions in recent US elections and I have stated so 
publicly on many occasions.


    Question 31.  What impact do you believe President Trump's Muslim 
travel ban has had on U.S. relations with the Muslim world and the 
countries impacted?

    Answer. The United States has strong partnerships with the Muslim 
world. As the CIA Director, I have worked closely with our intelligence 
partners throughout a broad range of Muslim-majority countries over the 
past 15 months. I assure you that if confirmed as Secretary of State, I 
will continue to work to build strong partnerships globally with 
Muslim-majority countries.


    Question 32.  Do you believe the Muslim ban is good policy?

    Answer. There is no ban on Muslims from entering the United States.


    Question 33.  In the wake of the Boston Marathon bombings, on the 
floor of the House of Representatives, you stated that, ``it's been 
just under two months since the attacks in Boston, and in those 
intervening weeks, the silence of Muslim leaders has been deafening.'' 
You then went on to call Muslim-American leaders ``complicit'' in such 
attacks. However, leaders of multiple American Muslim organizations 
issued statements condemning the attack within 12 hours. Do you stand 
by your comments blaming all American Muslims in the wake of the Boston 
Marathon bombings?

    Answer. I applaud those leaders who condemned the Boston Marathon 
attack.
    As I stated clearly at my 12 April confirmation hearing, it was 
never my intention, in any respect, to suggest that Muslim leaders were 
part of the chain of events that led to the Boston Marathon attack.


    Question 34.  Do you believe your past statements regarding 
Muslims, which some consider Islamophobic, will impact your ability to 
conduct diplomacy with Muslim nations?

    Answer. No. I will treat persons of each faith or no faith with the 
dignity and respect that they deserve, as I have done during my tenure 
at the CIA. In this capacity, I have worked closely with Muslim leaders 
and with governments of Muslim countries. Working with leaders of all 
faiths is at the core of who I am. If confirmed, I will work towards 
creating a more diverse State Department work force in every sense: in 
terms of race, religion, background, and more. As I have done at the 
CIA, I will achieve this by focusing on the mission and treating every 
team member with dignity and respect.


    Question 35.  How will you seek to address the ethnic cleansing 
against the Rohingya in Burma?

    Answer. If confirmed, I will work with like-minded countries and 
international organizations to use available legal and diplomatic 
measures to promote accountability for these heinous acts, and I will 
address the issue directly with the Burmese government. I will also 
consult with experts at the State Department and review other tools at 
our disposal that could be used to promote accountability and to 
pressure the military and Burmese government to change their behavior.


    Question 36.  In our conversations you committed to urging 
President Trump to speak publically about the ethnic cleansing against 
the Rohingya. How important do you think it is for United States 
leadership in the world for the President to weigh in on this?

    Answer. It is very important, which is why this Administration has 
worked with allies and partners to hold accountable those responsible 
for ethnic cleansing in Burma. If confirmed, I would advocate for the 
President to continue to be a vocal and forceful advocate against 
atrocities, including ethnic cleansing in Burma.


    Question 37.  How will you support Bangladesh in its efforts to 
provide support to Rohingya refugees?

    Answer. The United States must remain committed to helping address 
the unprecedented magnitude of suffering created by the Rakhine State 
crisis. I understand that since the beginning of FY 2017, the U.S. 
government has provided nearly $181 million--$123 million of which was 
State Department funding--throughout the region in life-saving 
humanitarian assistance to displaced persons, including Rohingya, in 
and from Burma. Nearly $123 million of total U.S. funding was for 
Bangladesh. If confirmed, I will ensure we continue to support 
Bangladesh in its efforts to provide protection and assistance to those 
affected by the crisis in Burma, including Bangladeshi host 
communities. I will also advocate for other donor nations to provide 
robust support to the humanitarian response in Bangladesh.


    Question 38.  Will you advocate for additional funding to help 
address the famine-like conditions in countries around the world, 
include in Nigeria, Yemen, South Sudan, Somalia, Democratic Republic of 
Congo, and Ethiopia?

    Answer. If confirmed, I will prioritize diplomatic efforts and 
funding to address the famine-like conditions in countries around the 
world.


                               __________

 Questions for the Record Submitted to Secretary of State Nominee Hon. 
                   Mike Pompeo by Senator Cory Booker


                            (Questions 1-13)

    Question 1.  LGBTQ people globally continue to face violence and 
discrimination, including in Chechnya where we're commemorating one 
year since reports emerged that gay men were abducted, held prisoner, 
and tortured by authorities because of their real or perceived sexual 
orientation.
    If confirmed, will you see LGBTQ rights as human rights, extending 
the rights to live free of violence, arbitrary arrest and detention, 
and the highest attainable standard of health, to all people, 
regardless of sexual orientation, gender identity, gender expression, 
or sex characteristics?

    Answer. The horrible treatment of LGBTI persons by Chechen 
authorities is truly despicable, and, if confirmed I will stand with 
the persecuted people of Chechnya, including LGBTI persons. I respect 
every person equally, and, if confirmed, I commit to defend the human 
rights and dignity of all people, no matter their race, ethnicity, 
religion, sexual orientation, or gender identity. If confirmed, 
consistent with the Administration's prior commitment, I intend to 
retain the position of Special Envoy for the Human Rights of LGBTI 
Persons.


    Question 2.  How do you reconcile your previous statements and 
affiliations with your ability to uphold human rights if confirmed as 
Secretary of State?

    Answer. As I noted in my opening remarks, America is uniquely 
blessed, and with those blessings comes a duty to lead. As I have 
argued throughout my time in public service, if we do not lead the 
calls for democracy and human rights around the world, these values 
will suffer around the globe. No other nation is equipped with the same 
blend of power and principle. If confirmed, you have my pledge to put 
into action America's commitment to human rights. The previous 
statements to which I believe you are referring are entirely consistent 
with this view. Thus, reconciling these two ideas are straight forward.


    Question 3.  As CIA director, your budget was not subject to broad 
oversight, and you directed enormous analytical capability and 
operations that were covert. Development and diplomacy, on the other 
hand, is by definition, overt, choreographed, and exposed. What is your 
view of the role of development and diplomacy?

    Answer. Development and diplomacy play an indispensable role in 
advancing peace and security, expanding American influence, and 
addressing global crises. The State Department's and USAID's efforts in 
this area work to advance a more secure and prosperous world and 
ultimately U.S. security.


    Question 4.  I just returned from Niger, where we have a 
significant Department of Defense footprint. If you were to visit 
Niger, who would you go to first--the Ambassador and our Embassy team 
or your current intelligence colleagues?

    Answer. If I were to visit Niger as the Secretary of State, I would 
first engage the Ambassador and would look forward to hearing the 
expert views of the Country Team.


    Question 5.  The President's new Rules of Engagement standards 
called the Principles, Standards, and Procedures are meant to ensure 
that Chiefs of Mission are read into any DoD operational plan in 
country. Do you commit to ensuring that personnel have the backing from 
you and the resources it needs so that the State Department has insight 
and provides guidance, and approval on any operation?

    Answer. While I am not in a position to comment on Defense 
Department Rules of Engagement, I would be committed to advancing and 
protecting Chiefs of Mission authority around the globe, if confirmed. 
As part of this commitment, it would be essential to ensure that our 
Chiefs of Mission have the resources they need to conduct U.S. 
diplomacy.


    Question 6.  Current U.S. law and policy governing U.S. global 
health assistance, including President Trump's Protecting Life in 
Global Health Assistance and the Helms amendment, permit exceptions in 
access to abortion services for the health of a women or girl and in 
the case of incest or rape. As a member of Congress, you repeatedly co-
sponsored ``personhood'' bills that would effectively prohibit some 
forms of contraception and in vitro fertilization. Beyond voting for 
bills that restrict access to legal abortion, you have said that you 
oppose access to abortion even in the case of rape or to save the 
health of the pregnant women or girl. As Secretary of State, you will 
oversee monitoring and implementation of U.S. programs related to 
billions of dollars of global health assistance that allow for abortion 
in the case of rape. Do you agree that it is cruel and extreme to force 
a young girl or woman to carry a pregnancy that has occurred as a 
result of rape or incest?

    Answer. If confirmed, I will ensure departments and agencies are 
monitoring partners to ensure their programs adhere to U.S. statutory 
and policy requirements on abortion.


    Question 7.  Will you faithfully uphold the law and policy--
allowing women and girls pregnant from rape, to receive access to 
abortion services?

    Answer. If confirmed, I will ensure departments and agencies are 
monitoring partners to ensure their programs adhere to U.S. statutory 
and policy requirements on abortion.


    Question 8.  China is one of the largest contributors to foreign 
direct investment in Africa and passed the U.S. as its largest trading 
partner almost 10 years ago. With Chinese interests in raw materials 
and the continent's untapped reserves of numerous natural resources 
including uranium, iron ore, copper, and natural gas, many Sub-Saharan 
African countries are targets for intense courting by Chinese companies 
willing to invest with few, if any, benchmarks for governance and rule 
of law. Former Secretary Tillerson raised concern with the nature and 
scope of Chinese lending in Africa before his trip, and several of my 
colleagues on the House and Senate Armed Services Committees have 
raised questions with the commander of AFRICOM about China's growing 
economic influence in places like Djibouti. I just returned from a 
week-long trip to the continent with several of my colleagues, and our 
interlocutors simply feel ignored by this Administration, at best, and 
at worst feel deeply offended by the President and this Administration. 
How do you plan to undo the damage done by President Trump's 
unfortunate comments about Africa and reassure our allies and friends 
in Africa that we value their partnership and relationship?

    Answer. The United States deeply values its partnerships throughout 
Africa, and its commitment to working closely with the people of Africa 
remains as strong as ever. I understand that President Trump conveyed 
this message in a letter to African leaders participating in the 
African Union Summit in January 2018. If confirmed, the Department's 
partnership with Africa and its commitment to continued growth and 
success on the continent will be unwavering. I will continue to work to 
advance our common interests and goals through U.S. partnerships with 
the governments and people of Africa, by focusing on countering 
terrorism, advancing peace and security, promoting good governance and 
health, and spurring mutually beneficial trade and investment.


    Question 9.  How do you view China's growing presence on the 
continent?

    Answer. I believe that China should apply and uphold the highest 
international standards of openness, inclusivity, transparency, and 
governance in all its development activities. If confirmed, I would 
oppose all opaque and unsustainable investment and development 
initiatives that impose undue costs and burdens on recipients, limiting 
their options for determining their own future.


    Question 10.  Do you agree that unless the U.S. makes drastic 
changes to our approach and posture toward Africa, China will end up as 
Africa's partner of choice and will continue to be the ``go to'' 
commercial partner for the future?

    Answer. I believe that the U.S. model of promoting mutually 
beneficial, transparent, and private sector-led trade and investment on 
the continent remains the most beneficial to Africa's population and 
will prove the most enduring. U.S. companies, many of which are world 
leaders in their sectors, should be competitive choices for regional 
infrastructure development. If confirmed, I will press our missions to 
ensure that American firms and U.S. experts can compete for these 
opportunities and will encourage partner governments to follow best 
practices for lending and commercial agreements.


    Question 11.  Secretary Mattis has indicated that if the President 
directed the military to use interrogation techniques that go beyond 
the law, including torture, he would not do so. Can you make a similar 
commitment, if you are confirmed, regarding renditions whereby if asked 
to negotiate the transfer of detainees in U.S. custody to a country 
where they would be at risk of torture that you would refuse to do so 
and advise against it?

    Answer. Yes, I would follow the law.


    Question 12.  Over 300,000 women worldwide die every year in 
pregnancy or childbirth. The vast majority of these deaths are 
preventable. We know ensuring women can utilize the modern 
contraception they want would dramatically reduce maternal and newborn 
deaths-- when women are able to space their pregnancies at least three 
years apart, they are more likely to survive pregnancy and childbirth 
and their children are more than twice as likely to survive infancy. If 
we addressed unmet need for family planning, maternal deaths would drop 
by two-thirds and newborn deaths by three-fourths. Moreover, every 
additional dollar spent on contraceptive services will save $2.22 in 
pregnancy-related care. Providing family planning services is one of 
the most effective and cost-effective tools we have to save mothers' 
and newborns' lives. Yet, this administration has proposed dramatic and 
disproportionate cuts for this life saving and effective program. Do 
you think that access to voluntary contraception and accurate and 
comprehensive information is important to women's health and U.S. 
development goals of preventing maternal and child deaths, controlling 
the AIDS epidemic, achieving gender equality, and empowering women and 
adolescent girls?

    Answer. I understand the United States is a leader in the provision 
of maternal and newborn health care, including voluntary family 
planning. If confirmed, I will support the Administration's policies 
and programs to reduce maternal and newborn deaths, combat the AIDS 
epidemic, promote gender equality, and empower women and girls.


    Question 13.  To ensure that we continue to make progress on ending 
preventable maternal and child deaths globally, will you fight for 
funding and policies that prioritize expanding access to modern 
contraception as an efficient and effective way to reduce maternal and 
newborn deaths?

    Answer. If confirmed, I will support the Administration's efforts 
to support the maternal health and family planning needs of women 
around the world.


                               __________

    Correspondence Submitted for the Record Supporting the Senate's 
        Confirmation of Hon. Mike Pompeo's as Secretary of State


 A Letter Submitted by Former U.S. National Security Officials, placed 
                 in the Record by Senator Cory Gardner

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
